<html>
<title> - CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA ANNUAL REPORT 2014</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
               CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                                     

                                     

                               ANNUAL REPORT

                                     

                                    2014

=======================================================================




                     ONE HUNDRED THIRTEENTH CONGRESS

                              SECOND SESSION

                               __________

                            OCTOBER 9, 2014

                               __________

 Printed for the use of the Congressional-Executive Commission on China







         Available via the World Wide Web: http://www.cecc.gov


                           2014 ANNUAL REPORT



              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA





                                     


                             ANNUAL REPORT


                                     


                                  2014

=======================================================================

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 9, 2014

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov







                  U.S. GOVERNMENT PRINTING OFFICE
89-906                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

SHERROD BROWN, Ohio, Chairman        CHRISTOPHER H. SMITH, New Jersey, 
CARL LEVIN, Michigan                 Cochairman
DIANNE FEINSTEIN, California         FRANK WOLF, Virginia
JEFF MERKLEY, Oregon                 MARK MEADOWS, North Carolina
KAY R. HAGAN, North Carolina         ROBERT PITTENGER, North Carolina
                                     TIMOTHY J. WALZ, Minnesota
                                     MARCY KAPTUR, Ohio
                                     MICHAEL M. HONDA, California

                     EXECUTIVE BRANCH COMMISSIONERS

                 CHRISTOPHER P. LU, Department of Labor
                   SARAH SEWALL, Department of State
                STEFAN M. SELIG, Department of Commerce
                 DANIEL R. RUSSEL, Department of State
                  TOM MALINOWSKI, Department of State

                    Lawrence T. Liu, Staff Director

                 Paul B. Protic, Deputy Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
I. Executive Summary.............................................     1

    Overview.....................................................     2
    Key Recommendations..........................................     8
    Findings and Recommendations by Issue........................    15
    Political Prisoner Database..................................    58

II. Human Rights.................................................    61

    Freedom of Expression........................................    61
    Worker Rights................................................    71
    Criminal Justice.............................................    81
    Freedom of Religion..........................................    90
    Ethnic Minority Rights.......................................   100
    Population Planning..........................................   103
    Freedom of Residence and Movement............................   108
    Status of Women..............................................   112
    Human Trafficking............................................   116
    North Korean Refugees in China...............................   120
    Public Health................................................   124
    The Environment..............................................   127

III. Development of the Rule of Law..............................   133

    Civil Society................................................   133
    Institutions of Democratic Governance........................   139
    Commercial Rule of Law.......................................   148
    Access to Justice............................................   157

IV. Xinjiang.....................................................   162

V. Tibet.........................................................   172

VI. Developments in Hong Kong and Macau..........................   186

VII. Endnotes....................................................   191

      Political Prisoner Database................................   191
      Freedom of Expression......................................   192
      Worker Rights..............................................   199
      Criminal Justice...........................................   207
      Freedom of Religion........................................   216
      Ethnic Minority Rights.....................................   225
      Population Planning........................................   227
      Freedom of Residence and Movement..........................   234
      Status of Women............................................   238
      Human Trafficking..........................................   242
      North Korean Refugees in China.............................   246
      Public Health..............................................   249
      The Environment............................................   253
      Civil Society..............................................   260
      Institutions of Democratic Governance......................   265
      Commercial Rule of Law.....................................   276
      Access to Justice..........................................   283
      Xinjiang...................................................   288
      Tibet......................................................   300
      Developments in Hong Kong and Macau........................   313
                          I. Executive Summary

    The Congressional-Executive Commission on China (CECC), 
established by the U.S.-China Relations Act of 2000 (19 U.S.C. 
1307) as China prepared to enter the World Trade Organization, 
is mandated to monitor human rights and the development of the 
rule of law in China, and to submit an annual report to the 
President and the Congress. The CECC is also mandated to 
maintain a database of political prisoners in China--
individuals who have been imprisoned by the Chinese government 
for exercising their civil and political rights under China's 
Constitution and laws or under China's international human 
rights obligations. The Commission consists of nine Senators, 
nine Members of the House of Representatives, and five senior 
Administration officials appointed by the President and 
representing the Department of State, Department of Labor, and 
the Department of Commerce. The Commission's Executive Branch 
members have participated in and supported the work of the 
Commission. The content of this Annual Report, including its 
findings, views, and recommendations, does not necessarily 
reflect the views of individual Executive Branch members or the 
policies of the Administration. The report covers the period 
from fall 2013 to fall 2014.

    The Commission adopted this report by a vote of 17 to 0. 
<dagger>

                                Overview

    Human rights and rule of law conditions in China overall 
did not improve this past year, and declined in some of the 
areas covered by this report. The Chinese government and 
Communist Party continued to emphasize authoritarian control at 
the expense of human rights and the rule of law. The limited 
space for peaceful expression, assembly, and religious practice 
in China constricted further. The government tightened 
restrictions on rights advocates, civil society, human rights 
lawyers, domestic and foreign journalists, the Internet, and 
religious institutions. Additionally, the government denied 
medical treatment to imprisoned activists and targeted the 
family members and associates of rights advocates for 
retribution. The release of an unprecedented White Paper on 
Hong Kong and a National People's Congress Standing Committee 
decision fueled concerns over Hong Kong's ``high degree of 
autonomy'' and prospects for universal suffrage. The government 
continued with harsh security measures that failed to protect 
rights in ethnic minority regions that have experienced tragic 
incidents of violence and self-immolations in recent years. 
These negative developments overshadowed potential areas of 
progress that include the announced abolition of the 
reeducation through labor system and environmental law and 
judicial reforms.
    Nearly 2 years into what likely will be a 10-year tenure, 
President and Party General Secretary Xi Jinping has already 
left his mark on the nation. His priorities have included 
introducing the notion of the ``Chinese dream'' to spur a 
``great rejuvenation of the Chinese nation'' and launching a 
campaign against corruption that has swept up some of China's 
highest officials. His administration faces major challenges: a 
slowing economy, income inequality, ethnic tensions, severe 
pollution, and food safety problems. As this report shows, 
however, Xi and his administration continue to adhere to the 
authoritarian model of his predecessors, one whose core tenets 
are unchallenged leadership of the Party and extensive efforts 
to suppress perceived threats to the Party. Under this model, 
which Party leaders assert guarantees ``social stability'' and 
a ``harmonious society,'' China's 1.4 billion citizens cannot 
participate freely in policymaking or governance. They do not 
possess a meaningful right to vote. They do not enjoy the basic 
freedoms of expression, religion, and association provided in 
China's Constitution. The Chinese government refers 
deferentially to the concept of rule of law. In practice, 
however, it routinely ignores or manipulates domestic and 
international laws for political purposes or to advance China's 
economic interests.
    China's adherence to this model poses a serious challenge 
to U.S.-China relations and China's own development. There is a 
direct link between concrete improvements in human rights and 
the rule of law and the security and prosperity of the United 
States and China. The health of the U.S. economy and 
environment, the safety of the food supply, and the stability 
of the Pacific region depend on China complying with 
international law, enforcing its own laws, allowing the free 
flow of information, removing currency controls, and protecting 
citizens' basic human rights. Improved compliance with 
international law and greater respect for human rights will 
foster goodwill, trust, and confidence between China and the 
United States. Providing citizens with more avenues for justice 
and greater freedoms will help China address corruption, labor 
unrest, ethnic tensions, and food safety. It will increase 
stability and improve China's standing worldwide. This future 
is possible, however, only if China's leaders move in a new 
direction and begin to view human rights and the rule of law as 
essential components of, rather than as impediments to, 
economic and social progress.


                       major developments in 2014


    Three major developments this past year suggest that 
President Xi and his administration may exercise greater 
control and tolerate less dissent than previous 
administrations. First, the Party sought to expand and 
strengthen its authority on key issues including Hong Kong, the 
Internet, media, ethnic minority regions, religion, and civic 
engagement. Second, the Party moved to address policies 
unpopular with Chinese citizens and the international 
community, but reforms fell short of official claims and their 
implementation remained secondary to the Party's political 
priorities. Third, China's engagement in the international 
arena was marked by attempts to control the narrative on human 
rights and the rule of law, to deflect attention from its own 
abuses, and to dilute well-
established international standards. A description of each 
trend follows.

                  Strengthening Authority in Key Areas

    The Communist Party sought to strengthen its authority in 
areas where it believed challenges were taking shape, viewing 
significant events and developments as threats rather than as 
opportunities for constructive engagement and transparency. The 
Party Central Committee convened the Third Plenum of the 18th 
Party Congress in November 2013, amid some hope that 
significant reforms would result. In its pronouncements, 
however, the Party ruled out political reforms, signaling 
instead that economic and legal reforms emerging from the Third 
Plenum would be firmly controlled by the Party.
    The Party constricted the already narrow space for 
tolerable dissent as it intensified its crackdown against 
individuals and groups of citizens calling for improved 
government policies and greater public participation. 
Participants in the New Citizens' Movement, for example, held 
peaceful, small-scale demonstrations and meetings to press the 
government for reforms that included increased transparency of 
officials' assets and educational equality for the children of 
migrant workers--concerns that the government has said it 
shares. Noteworthy for its intolerance of even modest calls for 
reform, the crackdown began in early 2013 with scores of 
detentions and continued this year with courts meting out harsh 
prison sentences to key figures, including rights advocates Xu 
Zhiyong, Liu Ping, and Wei Zhongping. Detentions accelerated in 
the lead-up to the 25th anniversary of the violent suppression 
of the 1989 Tiananmen protests in June 2014, as the Party 
suppressed attempts by citizens to publicly, and in some cases 
privately, commemorate this significant historical event. 
China's small contingent of rights lawyers were targeted, 
including noted public interest lawyer Pu Zhiqiang. Human 
rights groups estimate that authorities detained more than 200 
people during the ongoing crackdown.
    Important developments in the Hong Kong Special 
Administrative Region (SAR) during this reporting year afforded 
the Chinese government and Party an opportunity to affirm the 
``high degree of autonomy'' and ``one country, two systems'' 
framework guaranteed to Hong Kong under the Basic Law. China's 
leaders instead chose to emphasize Chinese sovereignty and 
control over Hong Kong. As public debate in Hong Kong increased 
in the lead-up to a major decision that would determine how 
open and fair Hong Kong's first ``universal suffrage'' election 
for its Chief Executive would be in 2017, China's central 
government dismissed large-scale expressions of support for 
democracy that attracted broad segments of Hong Kong society, 
notably the younger generation. Chinese authorities issued a 
first-ever White Paper on Hong Kong that emphasized centralized 
control as opposed to Hong Kong's autonomy, and challenged Hong 
Kong's judicial independence by requiring that all Hong Kong 
judges as well as government officials be patriotic (``love 
China and love Hong Kong'') rather than simply serve and 
interpret the law. The central government dismissed as 
``illegal and invalid'' an informal referendum on Chief 
Executive candidate nomination avenues in June 2014 that 
attracted some 800,000 Hong Kong residents, even though pro-
Beijing elements in the SAR organized their own informal 
signature campaign from July to August to condemn the Occupy 
Central movement. In August, the National People's Congress 
Standing Committee issued its decision on Hong Kong's electoral 
reform, which severely restricted the ability of candidates to 
freely run for Chief Executive. The central government's 
actions raise concerns about the future of the fragile freedoms 
and rule of law that distinguish Hong Kong from mainland China 
and underpin Hong Kong's financial reputation and prosperity.
    Chinese officials also confronted a sharp increase in 
tragic incidents of violence involving members of the Uyghur 
ethnic minority group. Officials responded with a singular 
focus on security and economic measures without addressing 
decades-long resentment against Chinese policies that deny 
Uyghurs their cultural, religious, and linguistic rights, and 
without attempting to balance security with civil liberties and 
the free flow of information. In September 2014, authorities 
imposed a life sentence on prominent Uyghur scholar Ilham 
Tohti, a peaceful, moderate critic of China's policies who had 
sought to foster dialogue between Uyghurs and the majority Han 
population. The sentence was a clear sign the Party would not 
tolerate thoughtful debate or reconsideration of its policies 
toward the Xinjiang Uyghur Autonomous Region.
    In Tibetan areas of China, the rate of tragic self-
immolations among the Tibetan ethnic minority slowed, and 
followed an increase in harsh security and punitive measures. 
One county issued provisions imposing collective punishment 
intended to deter Tibetans from self-immolating. Chinese 
government leaders showed no willingness to reexamine policies 
toward Tibetans that deny them cultural, religious, and 
linguistic rights or to engage in dialogue with representatives 
of the Tibetans' exiled spiritual leader, the Dalai Lama.
    The Party sought to tighten information flows within and 
out of China in an attempt to ensure the dominance of the 
Party's viewpoints and guarantee that information unfavorable 
to the Party remained unseen. Chinese companies remained some 
of the least transparent in the world, aided by vaguely worded 
secrecy laws that prevent disclosure of key information, a 
major concern given the global influence of Chinese companies 
and reports of illegal subsidies and corruption, especially 
among China's more than 140,000 state-owned and state-
controlled enterprises. Among the Party's most formidable 
challenges is controlling China's 632 million Internet users--
the most of any country in the world--and 250,000 news 
reporters and staff. Authorities detained over 100 citizens in 
a crackdown on Twitter-like microblogs, which Chinese citizens 
had flocked to as a rare space to share information more 
freely. In the wake of the crackdown, posts on one of China's 
most popular microblogging sites reportedly dropped 70 percent. 
Chinese journalists, already subject to numerous restrictions, 
faced ideological requirements and additional restraints on 
their ability to report critically on the government and share 
information with foreign reporters. The government used access 
to China as a form of retaliation against foreign journalists 
and scholars. Foreign journalists, who play a key role in 
disseminating information about China given the pervasive 
restrictions imposed on their domestic counterparts, faced 
delays and denials of visas as punishment for their reporting 
on sensitive issues such as the finances of the relatives of 
China's top leaders. They received ominous warnings about 
reporting in the lead-up to the 25th anniversary of the 1989 
Tiananmen protests. The Chinese government blocked scholars who 
sought to enter China for research.
    Authorities also sought to further restrict the limited 
space for religious practice. Christians in particular were 
targeted over apparent concern at the growing popularity of 
Christianity in China. The government used a campaign against 
``illegal structures'' to demolish church buildings and remove 
religious symbols, including structures that previously had 
been approved by the government.

               Domestically, Interference Hinders Reforms

    The Party moved to address policies unpopular with Chinese 
citizens and the international community, but reforms did not 
measure up to official claims and their implementation remained 
secondary to the Party's own political priorities. During the 
Party's Third Plenum, officials suggested that China might move 
toward greater compliance with international trade rules by 
announcing that market forces would play a decisive role in the 
allocation of resources. The announcement, however, provided 
few details and included the significant caveat that state-
owned enterprises, the source of many violations, would 
continue to play a leading role in the economy.
    In another heavily touted Third Plenum announcement, 
officials formally announced the abolition of the reeducation 
through labor system, a form of arbitrary detention used for 
decades to detain activists, Falun Gong practitioners, and 
other marginalized groups without trial or basic procedural 
protections. The move was a welcome development, but the net 
effect of this policy shift was unclear, as reports emerged 
that authorities increased the use of other facilities, such as 
``legal education centers'' and compulsory drug detox centers, 
to arbitrarily detain citizens. China's criminal justice system 
saw some improvements, with defendants generally gaining 
greater access to counsel. Suspects in politically sensitive 
cases, however, appeared not to benefit. Torture, abuse, and 
denial of access to counsel continued to mar high-profile 
cases, including those involving Ilham Tohti, Xu Zhiyong, 
Pastor Zhang Shaojie, and a group of human rights lawyers who 
sought to assist unlawfully detained Falun Gong practitioners.
    In other areas, reforms resulted in limited or superficial 
changes to some policies, but failed to address the fundamental 
rights abuses that underpinned flawed policy. The government 
announced, for example, a slight modification in the country's 
population planning policy to allow a couple to have a second 
child if one of the parents was a single child, but failed to 
abolish a policy that itself violates international standards 
and leads to abuse by officials. The government continued to 
take steps toward limited easing of restrictions that prevent 
citizens from freely changing their residence, but failed to 
address the policy's violation of international standards on 
freedom of residence.
    The government continued to manage labor relations through 
the government-affiliated All-China Federation of Trade Unions, 
the only legal trade union in China, despite its relative 
ineffectiveness in responding to strikes and other labor 
protests emerging across a variety of industries and regions 
this past year. The Party took no steps to allow workers to 
organize independent unions. At the same time, authorities 
stifled the efforts of more independent labor non-governmental 
organizations (NGOs) to support workers, in some cases 
detaining NGO staff. There continued to be reports of child and 
forced labor. The government's crackdown on individual civil 
society advocates expanded to increase surveillance and 
harassment of independent grassroots and foreign NGOs during 
this reporting year. Paradoxically, the government continued to 
claim that it was loosening restrictions on so-called non-
governmental ``social organizations,'' to provide services to 
society and alleviate the government's burdens, but not to 
remove basic restrictions on freedom of association and foster 
a vibrant, free civil society.

         Internationally, Manipulating the Discussion on China

    China's engagement in the international arena was marked by 
attempts to control discussion of human rights and the rule of 
law and to deflect attention from its own abuses. In October 
2013, the UN Human Rights Council (UNHRC), to which China was 
reelected in November 2013, conducted its second Universal 
Periodic Review (UPR) of the Chinese government's human rights 
record. Chinese officials harassed and detained citizens who 
sought to participate in China's submission to the UNHRC for 
the review, including civil society activist Cao Shunli, and 
refused to allow independent civil society organizations to 
participate, resulting in China's submission reflecting only 
the Party's views. Cao died later, just weeks after her release 
from custody, raising questions about her condition in 
detention and lack of access to appropriate medical treatment. 
At the March 2014 UNHRC session in which the outcome of China's 
UPR was adopted, the Chinese government refused to accept most 
substantive recommendations, including a recommendation urging 
it to provide a clearer time frame for ratifying the 
International Covenant on Civil and Political Rights, which 
China signed in 1998 and has repeatedly pledged to ratify. At 
the session, UN staff caught a Chinese representative 
monitoring and photographing the daughter of imprisoned Chinese 
dissident Wang Bingzhang, and China tried to prevent her from 
speaking at the session. The Commission's review of China's 
various reports to human rights bodies this past year showed 
that not one of the organizations that China claimed to have 
consulted was independent from the government. China refused to 
cooperate with a UN inquiry into North Korea's human rights 
abuses and criticized the resulting report as ``divorced'' from 
reality.
    Despite being a member of the World Trade Organization 
(WTO) for 13 years, China still has not complied with many of 
its obligations, including ending subsidies and preferential 
treatment for state-owned enterprises and providing 
transparency regarding subsidies, laws, and regulations. The 
U.S. Trade Representative reported this past year that China 
had imposed duties in retaliation for countries bringing WTO 
cases against China. In May, the Department of Justice (DOJ) 
indicted five members of China's military on charges of 
committing cyber theft after they allegedly targeted companies 
that had been involved in trade actions against China. American 
and other foreign companies reported that they were unfairly 
targeted for antimonopoly enforcement in a move that some 
observers believed was intended to protect Chinese companies 
and could violate China's WTO commitments. China reportedly 
failed to comply with a WTO ruling against it involving grain-
oriented electrical steel. As of this report's publication, 
China still had not signed the WTO Government Procurement 
Agreement.
    Amid greater international debate over the appropriate 
limits of government restriction and surveillance of the 
Internet, China sought to manipulate news coverage related to 
alleged state-
sponsored computer hacking and position itself as a victim of 
cyber theft rather than as a sponsor or perpetrator. Chinese 
state-run media featured such reports prominently, despite 
well-documented evidence that China is a leading source of 
intellectual property theft through cyber and other means. 
After the DOJ's indictment of members of China's military, 
China suspended a cyber working group with the United States 
intended to develop rules of engagement for the Internet. China 
sought to advance the concept of ``Internet sovereignty,'' 
which, if implemented, would give countries greater leeway to 
restrict the Internet within their borders under the guise of 
``national sovereignty,'' eroding international law that 
provides for freedom of expression ``through any medium'' and 
``regardless of frontiers.''

                          Key Recommendations

    This Commission recognizes that only China's leaders and 
the Chinese people can determine how to proceed with their 
domestic affairs, but believes the international community has 
a responsibility to monitor compliance with international 
standards and to encourage their development and 
implementation. Based on the findings of this year's report, 
the Commission makes the following 13 main recommendations to 
Congress and the Administration to encourage China's compliance 
with international human rights standards and the development 
of the rule of law.

    <bullet> Administration Coordination. The Administration 
should further strengthen interagency coordination to ensure 
that agencies interacting with the Chinese government are aware 
of human rights and rule of law issues relevant to their areas 
and are seeking opportunities to engage with Chinese officials 
on these issues at bilateral dialogues and other meetings. 
During such engagements, agencies including the Departments of 
State, Justice, Energy, Commerce, Defense, Labor, Agriculture, 
Education, Health and Human Services, the Environmental 
Protection Agency, and the U.S. Trade Representative, should 
broaden discussions to link human rights and rule of law 
improvements in China with advances in economic, security, 
environmental, and diplomatic interests. An integrated human 
rights diplomacy with China, coordinated across the entire U.S. 
Government, and led by the White House, should be reflected in 
any new National Security Strategy, Quadrennial Diplomacy and 
Development Review, or Quadrennial Defense Review undertaken by 
the White House, State Department, or Defense Department.
    <bullet> Administration Engagement. The Administration 
should continue to raise pertinent concerns relating to issues 
covered in this report, including, where appropriate, 
transparency, public participation, good governance, worker 
rights, environmental and public health concerns, and the rule 
of law, at the U.S.-China Strategic and Economic Dialogue, the 
U.S.-China Joint Commission on Commerce and Trade, other 
bilateral meetings, and in multilateral organizations where the 
United States and China are members, and coordinate information 
and priorities with other countries as appropriate. The 
Administration should consider sending higher level officials 
to the U.S.-China Human Rights Dialogue and the U.S.-China 
Legal Experts Dialogue.
    <bullet> Human Rights Advocates and Civil Society. Members 
of Congress and the Administration should, wherever possible, 
publicly recognize the work of Chinese rights advocates, 
independent NGOs, civil society, and human rights lawyers in 
promoting the rule of law and protecting human rights in China, 
and seek ways to ensure they are allowed to participate in 
international forums and dialogues.
    <bullet> Visa Policy. Members of Congress and the 
Administration should work together to ensure existing visa 
laws and policies, including Section 212 of the Immigration and 
Nationality Act and Presidential Proclamation 8697, effectively 
address Chinese government violations of human rights. Members 
of Congress and the Administration should share information 
regarding implementation of current visa policies with respect 
to Chinese officials, and consider whether additional 
legislation or other measures are necessary to address issues 
such as visa delays and denials to American journalists, 
scholars, and human rights activists.
    <bullet> Hong Kong. Members of Congress and the 
Administration should renew the reporting requirements of 
Section 301 of the United States-Hong Kong Policy Act of 1992, 
paying particular attention to the development of democratic 
institutions in Hong Kong and China's obligations under 
international treaties and agreements, and should ensure 
developments in Hong Kong are featured in other reports related 
to China. Members of Congress and the Administration should 
increase support for Hong Kong's democracy through statements 
and meetings at the highest levels and visits to Hong Kong. 
Hong Kong issues should be raised in meetings in Beijing with 
central government officials given their overriding role in 
deciding questions of Hong Kong's political development.
    <bullet> Press Freedom. Members of Congress and the 
Administration should give greater public expression, including 
at the highest levels of the U.S. Government, to the issue of 
press freedom in China, condemning the harassment and detention 
of both domestic and foreign journalists, the denial or delay 
of visas for foreign journalists, and the censoring or blockage 
of foreign media Web sites. U.S. officials should consistently 
link press freedoms to U.S. interests, noting how censorship 
and restrictions on journalists and media Web sites prevent the 
free flow of information on issues of public concern, including 
public health and environmental crises, food safety problems, 
and corruption, and acts as a trade barrier for foreign media 
and companies attempting to access the Chinese market.
    <bullet> Forced Labor, Child Labor, Prison Labor. Members 
of Congress and the Administration should ensure existing laws 
and policies intended to prevent the importation or government 
purchase of goods made with forced labor, prison labor, or 
child labor, including Section 1307 of the Tariff Act of 1930, 
Executive Order 13126 (Prohibition of Acquisition of Products 
Produced by Forced or Indentured Child Labor), Executive Order 
13627 (Strengthening Protections Against Trafficking in Persons 
in Federal Contracts), effectively address forced labor, prison 
labor, and child labor concerns in China. Members of Congress 
and the Administration should consider whether additional 
legislation or other measures are necessary to increase supply 
chain transparency, close loopholes such as the consumptive 
demand exemption in the Tariff Act, remove obstacles to 
effective enforcement of U.S. trade law, and ensure that 
parties live up to existing agreements regarding trade and 
forced and prison labor products being exported to the United 
States.
    <bullet> Commercial Rule of Law. Members of Congress and 
the Administration should ensure China makes concrete 
improvements in ending currency controls, subsidies for state-
owned enterprises, and other policies outlined in this report 
that violate China's existing international trade obligations 
as a condition for progress in any U.S. trade-related 
negotiations with China, and ensure transparency and full 
public participation by all segments of American society in 
such negotiations.
    <bullet> Ethnic Minorities. The Administration should 
address issues of human rights, security, and stability in 
China's ethnic minority regions at bilateral security dialogues 
and any exchanges with Chinese military or police officials by 
sharing best practices and strategies and building cooperative 
exchanges on ways to balance civil rights and national security 
policy, to differentiate between peaceful dissent and acts of 
violence, to protect human rights during ``anti-terrorism'' 
campaigns, and to recognize the international protections 
applying to refugee populations.
    <bullet> Population Planning. Members of Congress and the 
Administration should publicly link, wherever there is 
supporting evidence, the imbalanced sex ratios exacerbated by 
China's coercive population planning policies with potential 
regional humanitarian and security concerns--trafficking, 
crime, increased internal and external migration, and other 
possible serious social problems--and discuss these issues in 
bilateral security dialogues. Members of Congress and 
Administration officials should urge the Chinese government to 
abolish all birth restrictions for families and instead employ 
a human rights-based approach to providing freedom to build 
their families as they see fit and privacy for all citizens, 
especially women.
    <bullet> Internet Freedom. Members of Congress and the 
Administration should sustain, and where appropriate expand, 
programs that develop and widely distribute technologies that 
will assist Chinese human rights advocates and civil society 
organizations in circumventing Internet restrictions in order 
to access and share content protected under international human 
rights standards. They should continue to expand Internet 
freedom programs for China at the Department of State and the 
Broadcasting Board of Governors to provide digital security 
training and capacity-building efforts for bloggers, 
journalists, civil society organizations, and human rights and 
Internet freedom activists in China.
    <bullet> Areas of Potential Progress. Members of Congress 
and the Administration should consider acknowledging and 
further inquiring with Chinese officials about areas of 
potential progress, including the announced abolition of the 
reeducation through labor system, efforts to curb wrongful 
convictions and increase protections for criminal defendants, 
amendments to the PRC Trademark Law that increase statutory 
damages for trademark infringement, revisions to the PRC 
Environmental Protection Law that include provisions that could 
improve transparency, and efforts to strengthen protections for 
persons with disabilities and victims of domestic violence, as 
well as other potentially positive developments noted 
throughout this report.
    <bullet> Raising Political Prisoner Cases. Members of 
Congress and the Administration should consider raising more 
frequently with Chinese officials, both privately and publicly, 
cases of political or religious detention or imprisonment in 
China. In addition to calling for the release of individuals, 
Members of Congress and the Administration should also 
consider, where relevant and credible, raising specific issues 
of concern, including prison conditions, an individual's health 
and access to medical treatment, the possibility of sentence 
reductions and medical parole, an individual's access to family 
and legal representation, and harassment of the individual's 
family or friends. Members of Congress and the Administration 
are encouraged to consult the Political Prisoner Database 
(http://ppdcecc.gov) for reliable, up-to-date information on 
individual prisoners or groups of prisoners. Below are some of 
the many cases requiring legal and/or humanitarian efforts 
across the issues covered by this report:

------------------------------------------------------------------------
   Name and CECC
    record no.              Case Summary              Current Issues
------------------------------------------------------------------------
Pu Zhiqiang         Pu Zhiqiang, a prominent      Pu Zhiqiang suffers
2014-00174           public interest lawyer, was   from several medical
                     detained in May 2014 and      ailments including
                     formally arrested in June     diabetes, high blood
                     2014. Pu had attended a       pressure, and high
                     private event commemorating   cholesterol. Pu told
                     the 1989 Tiananmen protests   his lawyer during a
                     prior to his detention.       detention visit in
                                                   June 2014 that ``his
                                                   health was
                                                   worsening,'' in part
                                                   due to inadequate
                                                   medical treatment for
                                                   his diabetes.
------------------------------------------------------------------------
Lobsang Jinpa       Lobsang Jinpa, a Tibetan      Lobsang Jinpa was
2012-00275           Buddhist monk, was            described in a May
                     sentenced to 5 years in       2014 media report to
                     prison in February 2013. He   be in ``failing
                     may have provided             health'' due to
                     information to foreign        kidney and liver
                     media about a June 2012       ``ailments,'' to be
                     double self-immolation.       suffering from poor
                                                   nutrition, and to
                                                   have been denied
                                                   medical care. Based
                                                   on his detention date
                                                   and sentence, he
                                                   would have been
                                                   eligible for medical
                                                   parole in May 2014.
------------------------------------------------------------------------
Zhang Shaojie       Zhang Shaojie, a Christian    Zhang Shaojie's case
2014-00126           pastor at an officially       was reportedly marred
                     sanctioned church, was        by several procedural
                     sentenced to 12 years in      violations, including
                     prison in July 2014. Zhang    repeated attempts by
                     had reportedly been in a      authorities to impede
                     dispute with local            his access to legal
                     officials over land that      counsel and reports
                     was to be allocated for the   of officials
                     building of a new church.     detaining or coercing
                                                   false testimony from
                                                   witnesses.
------------------------------------------------------------------------
Liu Xiaobo          Liu Xiaobo, a prominent       Liu Xiaobo remains
2004-03114           intellectual and long-time    imprisoned at the
                     political reform advocate,    Jinzhou Prison in
                     was sentenced to 11 years     Liaoning province.
                     in prison in December 2009.   Based on his
                     Liu was a drafter and         detention date and
                     organizer of Charter 08, a    sentence, he would
                     treatise advocating           have been eligible
                     political reform and human    for parole in June
                     rights.                       2014. Liu was awarded
                                                   the Nobel Peace Prize
                                                   in December 2010 for
                                                   ``his long and non-
                                                   violent struggle for
                                                   fundamental human
                                                   rights in China.''
------------------------------------------------------------------------
Liu Xia             Liu Xia, wife of political    Authorities continue
2010-00629           reform advocate Liu Xiaobo,   to subject Liu Xia to
                     has been confined to her      surveillance and
                     home in Beijing               other restrictions on
                     municipality since October    her freedom of
                     2010. Authorities have not    movement and
                     charged or convicted her of   expression. In
                     any crime.                    February 2014, Liu
                                                   was hospitalized amid
                                                   reports of her
                                                   worsening health due
                                                   to heart problems and
                                                   severe depression.
                                                   Authorities
                                                   reportedly refused to
                                                   allow her to travel
                                                   abroad for medical
                                                   treatment.
------------------------------------------------------------------------
Liu Ping            Liu Ping, a rights advocate,  Liu's lawyer reported
2013-00161           was sentenced to 6 years      in July 2013 that she
                     and 6 months in prison in     had become ``very
                     June 2014. Liu had            weak'' and ``lost a
                     participated in peaceful      great deal of
                     demonstrations calling for    weight'' in
                     officials to disclose their   detention.
                     assets.                       Authorities have
                                                   denied Liu Ping
                                                   medical care for
                                                   severe diarrhea
                                                   reportedly caused by
                                                   poor sanitary
                                                   conditions in
                                                   detention.
------------------------------------------------------------------------
Ilham Tohti         Ilham Tohti, a professor and  Ilham Tohti suffers
2012-00275           prominent Uyghur advocate,    from several medical
                     was convicted of the charge   ailments including
                     of ``separatism'' and         heart disease,
                     sentenced to life in prison   pharyngitis,
                     in September 2014.            prostatitis, and an
                                                   unknown liver
                                                   condition. Tohti
                                                   reportedly told his
                                                   lawyers during a
                                                   visit in June 2014
                                                   that he had ``been
                                                   mistreated in
                                                   detention,''
                                                   including
                                                   authorities'
                                                   depriving him of food
                                                   and adequate water
                                                   for 10 days.
------------------------------------------------------------------------
Chen Kegui          Chen Kegui, the nephew of     Chen Kegui suffers
2013-00120           legal advocate Chen           from appendicitis.
                     Guangcheng, was sentenced     Chen's mother
                     to 3 years and 3 months in    reported after a
                     prison in November 2012       December 2013 prison
                     following his uncle's         visit that his
                     escape from illegal home      ``complexion looked
                     confinement in April 2012.    very bad'' and that
                                                   ``he was clutching
                                                   his abdomen and
                                                   sweating profusely.''
                                                   Authorities have
                                                   repeatedly rejected
                                                   appeals for his
                                                   release on medical
                                                   parole.
------------------------------------------------------------------------
Zhu Yufu            Zhu Yufu, a long-time         Zhu Yufu suffers from
2004-02253           democracy activist, was       several medical
                     sentenced to 7 years in       ailments including
                     prison in February 2012.      coronary heart
                     Authorities have imprisoned   disease, cerebral
                     him in the Zhejiang No. 4     arteriosclerosis, a
                     Prison in Zhejiang            lumbar disc
                     province.                     herniation, and
                                                   hypertension.
                                                   Authorities have
                                                   reportedly denied Zhu
                                                   adequate medical care
                                                   in detention and have
                                                   repeatedly refused
                                                   applications for his
                                                   release on medical
                                                   parole.
------------------------------------------------------------------------
Chen Xi             Chen Xi, a democracy          Chen Xi suffers from
2008-00379           advocate, was sentenced to    chronic enteritis.
                     10 years in prison in         Chen's wife reported
                     December 2011. Authorities    after a May 2014
                     have imprisoned him at the    prison visit that his
                     Xinyi prison in Guizhou       ``body had become
                     province.                     very weak and thin.''
                                                   Authorities
                                                   reportedly have
                                                   denied Chen adequate
                                                   medical care despite
                                                   suffering ``severe
                                                   diarrhea'' for over a
                                                   year.
------------------------------------------------------------------------
Xu Zhiyong          Xu Zhiyong, a prominent       Xu Zhiyong's case was
2005-00199           rights advocate and a         reportedly marred by
                     promoter of the New           procedural
                     Citizens' Movement (NCM),     violations, including
                     was sentenced to 4 years in   intimidation of
                     prison in January 2014. Xu    witnesses and barring
                     had been active for many      independent observers
                     years in legal reform and     from the courtroom.
                     educational equality          Xu had told an
                     causes.                       associate that the
                                                   police offered him a
                                                   deal that suggests
                                                   the political
                                                   motivation behind his
                                                   case: renounce the
                                                   NCM and be spared
                                                   prison.
------------------------------------------------------------------------

                 Findings and Recommendations by Issue

    A summary of specific findings follows below for each 
section of this Annual Report, covering each area that the 
Commission monitors. In each area, the Commission has 
identified a set of issues that merit attention over the next 
year, and, in accordance with the Commission's legislative 
mandate, submits for each a set of recommendations to the 
President and the Congress for legislative or executive action.

                         Freedom of Expression

                                Findings

        <bullet> The Chinese government and Communist Party 
        continued to restrict expression in ways that 
        contravened international human rights standards, 
        including Article 19 of the International Covenant on 
        Civil and Political Rights and Articles 19 and 29 of 
        the Universal Declaration of Human Rights. While such 
        standards permit countries in limited circumstances to 
        restrict expression to protect interests such as 
        national security and public order, official Chinese 
        restrictions covered a broader range of activity, 
        including peaceful dissent and expression critical of 
        the Chinese Communist Party and government.
        <bullet> The Chinese government continued to take steps 
        to expand the country's telecommunications 
        infrastructure and provide greater Internet access, 
        particularly via mobile devices. There were 632 million 
        Internet users in China at the end of June 2014, 
        including 527 million who accessed the Internet from 
        mobile devices.
        <bullet> Officials in the Chinese government and 
        Communist Party expressed heightened concerns regarding 
        their ability to control the Internet and signaled a 
        renewed effort to strengthen control. Some reports 
        described the Internet or online public opinion as a 
        ``struggle,'' ``battleground,'' or ``new challenge and 
        new test'' for authorities, and some cited ``propaganda 
        and ideological work'' guidance from President Xi 
        Jinping as their basis. Authorities launched a campaign 
        against popular microblogs, detaining over 100 
        microbloggers and contributing to, according to one 
        study, a decrease in posts of as much as 70 percent on 
        Weibo, the most popular microblogging platform.
        <bullet> Chinese authorities continued to block and 
        filter sensitive online content, in some cases through 
        censorship campaigns. Under high-level Party 
        leadership, officials launched a ``Sweep Away 
        Pornography, Strike Down Illegal Publications'' 
        campaign that appeared to give authorities leeway to 
        strengthen government and Party control over the 
        Internet more broadly. Among the topics censored this 
        year were environmental protests, corruption 
        investigations, and the 25th anniversary of the 1989 
        Tiananmen protests and their violent suppression. U.S. 
        company Google experienced service disruptions in China 
        shortly before the Tiananmen anniversary. Another U.S. 
        company, LinkedIn, began censoring sensitive online 
        content originating in China, including a video 
        expressing support for victims of the violent 
        suppression of the 1989 Tiananmen protests.
        <bullet> Authorities continued to detain or harass 
        rights and democracy advocates, Internet writers, human 
        rights lawyers, citizen journalists, and others who 
        exercised their right to freedom of speech in a 
        crackdown that some international media and individuals 
        in China described as the worst in recent decades. 
        Authorities used vaguely worded criminal charges and 
        extralegal harassment to punish citizens for free 
        expression. Those detained or harassed for exercising 
        freedom of expression included 16-year-old microblog 
        user Yang Zhong; rights advocate Hu Jia; ``citizen 
        journalists'' Liu Xuehong, Xing Jian, and Wang Jing; 
        and Internet user Qin Zhihui. Liu Xia--an artist and 
        poet, and the wife of imprisoned Nobel Peace Prize 
        laureate Liu Xiaobo--remained under illegal home 
        confinement with no charges reported against her. 
        Authorities also targeted individuals who sought to 
        commemorate the 1989 Tiananmen protests in private 
        meetings, memorial services, or online spaces. Examples 
        include leaders of the advocacy group Tiananmen Mothers 
        Ding Zilin and You Weijie; filmmaker He Yang; Internet 
        users Gu Yimin and Zhang Kunle; journalist Gao Yu; 
        commemoration participants Chen Wei, Yu Shiwen, Shi Yu, 
        Fang Yan, and Hou Shuai; and university student Zhao 
        Huaxu.
        <bullet> The Chinese government and Communist Party 
        continued to control the press in violation of 
        international standards. Beginning in 2014, China's 
        media regulator, the State Administration for Press, 
        Publications, Radio, Film, and Television (SAPPRFT), 
        began requiring the country's 250,000 news reporters 
        and staff to participate in a political training 
        program as part of the annual press card renewal 
        process. The program reportedly would include a test 
        with content related to ``socialism with Chinese 
        characteristics'' and the ``Marxist view on the 
        press.'' SAPPRFT also instructed media organizations to 
        forbid journalists from publishing reports that are 
        critical without receiving approval from their 
        employers, from reporting on issues outside of their 
        designated issue areas, and from publishing critical 
        reports through their own personal Web sites or 
        publications.
        <bullet> Outspoken journalists and newspaper staff 
        continued to face reprisals for making comments 
        officials deemed sensitive or conducting investigative 
        reporting. Examples include the arrest of journalist 
        Liu Hu, the firing of China Central Television 
        journalist Wang Qinglei, the firing of Tencent 
        journalist Zhang Jialong, the reassignment of 
        journalist Luo Changping, and the detention of 
        newspaper employee Xin Jian.
        <bullet> International media organizations and U.S. 
        Government officials expressed heightened concerns over 
        the ability of foreign journalists to report 
        independently in China. In December 2013, authorities 
        delayed visa renewals for approximately two dozen 
        journalists in connection with reports from their media 
        organizations on the assets of Chinese leaders' family 
        members.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Give greater public expression, including at the 
        highest levels of the U.S. Government, to the issue of 
        press freedom in China, condemning the harassment and 
        detention of both domestic and foreign journalists, the 
        denial or delay of visas for foreign journalists, and 
        the censoring or blockage of foreign media Web sites. 
        Consistently link press freedoms to U.S. interests, 
        noting how censorship and restrictions on journalists 
        and media Web sites prevents the free flow of 
        information on issues of public concern, including 
        public health and environmental crises, food safety 
        problems, and corruption, and acts as a trade barrier 
        for foreign media and companies attempting to access 
        the Chinese market. Raise these issues with Chinese 
        officials during the Strategic and Economic Dialogue 
        and other bilateral dialogues. Assess the extent to 
        which China's treatment of foreign journalists 
        contravenes its WTO or other obligations.
        <all> Continue, and where appropriate expand, programs 
        that develop and distribute widely technologies that 
        will assist Chinese human rights advocates and civil 
        society organizations in circumventing Internet 
        restrictions, in order to access and share content 
        protected under international human rights standards. 
        Continue to expand Internet freedom programs at the 
        Department of State and the Broadcasting Board of 
        Governors for China to provide digital security 
        training and capacity-building efforts for bloggers, 
        journalists, civil society organizations, and human 
        rights and Internet freedom activists in China.
        <all> Raise with Chinese officials, during all 
        appropriate bilateral discussions, the costs to U.S.-
        China relations and to the Chinese public's confidence 
        in government institutions that occurs when the Chinese 
        government restricts political debate, advocacy for 
        democracy or human rights, and other forms of peaceful 
        political expression. Emphasize that such restrictions 
        contravene international standards for the restrictions 
        on free expression, particularly those contained in 
        Article 19 of the International Covenant on Civil and 
        Political Rights and Articles 19 and 29 of the 
        Universal Declaration of Human Rights. Emphasize that 
        such restrictions erode confidence in media and 
        government institutions. Submit questions for China's 
        next Universal Periodic Review asking China to explain 
        what steps it will take to ensure its restrictions on 
        free expression conform to international standards.
        <all> Urge Chinese officials to end unlawful detention 
        and official harassment of Chinese activists, lawyers, 
        and journalists subject to reprisals for exercising 
        their right to freedom of expression. Call on officials 
        to end the illegal home confinement of individuals such 
        as Liu Xia; and release or confirm the release of 
        individuals detained or imprisoned for exercising 
        freedom of expression, such as Qin Zhihui, Gu Yimin, 
        Zhang Kunle, Gao Yu, Yu Shiwen, and Hou Shuai. Raise 
        these cases in bilateral dialogues, such as the U.S.-
        China Human Rights Dialogue, U.S.-China Legal Experts 
        Dialogue, and Strategic and Economic Dialogue, as well 
        as through multilateral mechanisms, such as the UN 
        Human Rights Council's Universal Periodic Review and 
        the UN Working Group on Arbitrary Detention.

                             Worker Rights

                                Findings

        <bullet> The Chinese government's laws and practices 
        continue to contravene international standards on 
        freedom of association. Chinese workers are not free to 
        form or join trade unions of their own choosing. The 
        All-China Federation of Trade Unions (ACFTU), the 
        official union under the direction of the Chinese 
        government and Communist Party, is the only legal trade 
        union organization in China.
        <bullet> The ACFTU continues to prioritize economic 
        development and ``social stability'' in its approach to 
        labor relations, while ACFTU support for workers has 
        remained largely absent amid continued labor unrest.
        <bullet> Collective bargaining in China remains limited 
        in both law and practice. Despite the ACFTU's promotion 
        of collective contracts and collective wage bargaining 
        in recent years, the collective contract and 
        consultation process remains problematic in part 
        because trade unions lack autonomy and genuine worker 
        representation.
        <bullet> In the absence of effective support by the 
        ACFTU, labor non-governmental organizations (NGOs) and 
        other civil society actors have emerged to play a 
        larger role in advising and supporting workers. 
        Representatives of such organizations, however, face 
        harassment and detention. In April 2014, authorities 
        detained labor NGO workers Zhang Zhiru and Lin Dong for 
        assisting striking workers at a shoe factory in 
        Dongguan municipality, Guangdong province. Many labor 
        rights organizations also operate under uncertain 
        conditions as they often are unable to register as a 
        ``social organization'' with authorities.
        <bullet> The Commission continued to observe reports of 
        workers organizing strikes and demonstrations in a 
        variety of industries and regions across China, often 
        prompted by systemic labor-
        related grievances, such as factory closings or 
        relocations, and nonpayment of wages and benefits. 
        Chinese authorities had varied responses to labor 
        protests, in some cases tolerating strikes that were 
        limited to demands for wages and benefits. At the same 
        time, the Commission continued to observe reports of 
        authorities using force against or detaining 
        demonstrating workers.
        <bullet> A reported increase in labor unrest comes amid 
        widespread economic and demographic shifts that 
        observers contend are emboldening workers and affording 
        them greater bargaining power in the workplace. 
        Moreover, experts contend the increased activism of 
        workers reflects a growing awareness of their rights 
        and a greater confidence in taking collective action to 
        redress workplace grievances.
        <bullet> Migrant workers remained marginalized and 
        vulnerable to exploitation in the workplace, facing 
        problems such as wage arrears, social discrimination, 
        and low levels of labor and social welfare protection. 
        Continued barriers to public services in urban areas 
        have led to an estimated 61 million migrant children 
        being left behind by their parents to be raised in the 
        countryside by other guardians or alone. These children 
        reportedly have higher school dropout rates and are 
        more at risk of sexual abuse.
        <bullet> Despite China's laws and commitments under 
        international standards prohibiting child labor, the 
        use of underage workers remained evident in the 
        electronics manufacturing industry, with instances also 
        reported in other sectors. In December 2013, Chinese 
        media reported on the discovery of at least nine 
        underage workers working in two electronics factories 
        in Shenzhen municipality, Guangdong province. Systemic 
        problems in enforcement and a lack of sufficient 
        resources reportedly continue to constrain efforts to 
        reduce child labor.
        <bullet> Dispatch labor continues to be a significant 
        problem despite legal reforms in recent years intended 
        to limit its proliferation. In January 2014, the 
        Ministry of Human Resources and Social Security issued 
        the Interim Provisions on Labor Dispatch, which should 
        restrict the use of dispatch labor. At the same time, 
        the heavy reliance on dispatch labor by a number of 
        industries presents a clear challenge to achieving 
        these limits.
        <bullet> Despite wage levels continuing to increase 
        this past year, the rate of increase has not kept pace 
        with rising living costs, particularly for food and 
        housing. Income inequality between different regions, 
        industrial sectors, and groups of workers has steadily 
        increased.
        <bullet> Workers in China continue to face significant 
        occupational health and safety risks. Officially 
        reported fatalities have been consistently reduced over 
        the past few years; however, unsafe working conditions 
        and workplace abuses remain common. Despite legal 
        measures aimed at preventing workplace accidents and 
        establishing a system to handle safety violations, 
        systemic problems in implementation and enforcement, as 
        well as the lack of meaningful worker participation in 
        workplace decisions that impact safety and health 
        continue to constrain efforts to reduce industrial 
        accidents.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Ensure existing laws and policies intended to 
        prevent the importation or government purchase of goods 
        made with forced labor, prison labor, or child labor, 
        including Section 1307 of the Tariff Act of 1930, 
        Executive Order 13126 (Prohibition of Acquisition of 
        Products Produced by Forced or Indentured Child Labor), 
        Executive Order 13627 (Strengthening Protections 
        Against Trafficking in Persons in Federal Contracts), 
        effectively address forced labor, prison labor, and 
        child labor concerns in China, and consider whether 
        additional legislation or other measures are necessary 
        to increase supply chain transparency, close loopholes 
        such as the consumptive demand exemption in the Tariff 
        Act, remove obstacles to effective enforcement of U.S. 
        trade law, and ensure that parties live up to existing 
        agreements regarding trade and forced and prison labor 
        products being exported to the United States.
        <all> Reexamine the 1992 Memorandum of Understanding on 
        Prison Labor and 1994 Statement of Cooperation between 
        the United States and China in light of the Chinese 
        government's lack of compliance with its obligations 
        under these bilateral agreements and consider whether 
        additional legislation or other measures are necessary 
        to prevent the importation of goods from China 
        manufactured through prison labor. Increase the 
        presence and resources of Immigration and Customs 
        Enforcement officers in China to better pursue 
        investigations into the importation of forced labor 
        products.
        <all> Engage in dialogue with government officials, 
        workers, and trade union officials in locations that 
        have experienced successful cases of collective 
        bargaining and identify ways to increase awareness of 
        those experiences including through sponsoring 
        education initiatives and conferences on collective 
        bargaining that bring together civil society, trade 
        union officials, workers, and government officials. 
        Where possible, prioritize programs that demonstrate 
        the ability to conduct collective bargaining pilot 
        projects in enterprises with no functioning union 
        present.
        <all> Convey support in all appropriate bilateral 
        dialogues for functioning collective bargaining and 
        direct elections of trade union representatives, 
        emphasizing the benefits increased worker 
        representation have for resolving workplace grievances 
        and preventing wildcat strikes. Engage in dialogue with 
        government, trade union officials, and employers to 
        identify opportunities to increase awareness of 
        successful experiences with direct elections of trade 
        union representatives and to provide elected trade 
        union officials with ongoing training and support.
        <all> Support the U.S. Department of Labor's annual 
        Labor Dialogue and its annual Work Safety Dialogue with 
        the Chinese government. Support the ongoing cooperation 
        between the U.S. Department of Labor and the China 
        National Coal Association by increasing work on and 
        funding for technical cooperation and exchange projects 
        regarding industry regulatory compliance, worker 
        representation at coal mines, and safety and health 
        improvements.
        <all> Encourage the expansion of exchanges among U.S. 
        collective bargaining practitioners and Chinese labor 
        rights advocates in non-governmental organizations, 
        lawyers' associations, academia, and the official trade 
        union through conferences and other exchange projects 
        sponsored by relevant U.S. government agencies. 
        Prioritize exchanges that emphasize face-to-face 
        meetings with hands-on practitioners and trainers.
        <all> Engage the Chinese government in discussions 
        about establishing a multi-stakeholder initiative to 
        address the challenges of child labor and its root 
        causes, including policies and programs to provide 
        access to education and to alleviate poverty. 
        Participants in the initiative would include the U.S. 
        and Chinese Governments, multinational corporations, 
        and relevant civil society organizations.
        <all> Encourage Chinese officials through all 
        appropriate bilateral discussions to publish detailed 
        statistical data on child labor and information on 
        measures taken to prevent the employment of children 
        under the age of 16. Seek opportunities to support 
        capacity-building programs to strengthen Chinese labor 
        and legal aid organizations involved in defending the 
        rights of workers. Encourage Chinese officials at local 
        levels to develop, maintain, and deepen relationships 
        with labor organizations and businesses inside and 
        outside of China, and to invite these groups to 
        increase the number of training programs in China.
        <all> Support China's increased engagement and 
        cooperation with the International Labour Organization 
        (ILO) through selected funding for ILO technical 
        cooperation projects with China. Request that the ILO 
        increase its work with China on observing core labor 
        standards including freedom of association and the 
        right to organize.

                            Criminal Justice

                                Findings

        <bullet> Developments in criminal justice this year 
        were driven by the Chinese Communist Party and 
        government's paramount concerns: ``maintaining social 
        stability'' (weiwen) and ensuring the continuance of 
        one-party rule.
        <bullet> Chinese authorities have intensified their use 
        of vaguely defined non-political crimes to suppress and 
        punish dissent, rights advocacy, and perceived 
        challenges to Party rule. For example, Xu Zhiyong, a 
        prominent rights advocate and a promoter of the New 
        Citizens' Movement was sentenced to four years in 
        prison in January 2014 for ``gathering a crowd to 
        disturb order in a public place.'' Authorities 
        criminally detained public interest lawyer Pu Zhiqiang 
        and a number of other rights advocates and lawyers for 
        ``picking quarrels and provoking trouble'' in the run-
        up to the 25th anniversary of the violent suppression 
        of the 1989 Tiananmen protests.
        <bullet> The Chinese government announced the abolition 
        of the extrajudicial reeducation through labor (RTL) 
        system, a move that was welcomed domestically and by 
        the international community, including this Commission. 
        However, many other forms of extrajudicial detention 
        remain (including custody and education, compulsory 
        drug detox centers, ``legal education centers,'' 
        ``reprimand centers,'' and other forms of ``black 
        jails''), which authorities are reportedly using more 
        frequently to arbitrarily detain citizens in the 
        aftermath of the abolition of RTL.
        <bullet> Reports indicate that since the revised PRC 
        Criminal Procedure Law (CPL) took effect on January 1, 
        2013 the ability of criminal defense lawyers to meet 
        with their detained clients has improved except in 
        ``politically sensitive'' cases. Although the revised 
        CPL contains provisions aimed at increasing the rate at 
        which witnesses appear in court to provide testimony in 
        criminal cases and excluding illegally obtained 
        evidence, thus far there has been little improvement. 
        Provisions in the CPL that, if implemented effectively, 
        would enhance rights of criminal suspects and 
        defendants, are routinely ignored by authorities in 
        ``politically sensitive'' cases. For example, Uyghur 
        scholar Ilham Tohti was held incommunicado for more 
        than five months without access to his lawyer, and 
        Urumqi procuratorial authorities failed to provide 
        advance notice to Tohti's lawyer before his indictment, 
        in contravention of the CPL. Courts also denied 
        lawyers' witness requests in the trials of Pastor Zhang 
        Shaojie and rights advocate Xu Zhiyong.
        <bullet> A disturbing development that emerged during 
        this reporting year was authorities' use of state 
        television to broadcast the videotaped ``confessions'' 
        of several high-profile suspects, including veteran 
        journalist Gao Yu and Sichuan mining tycoon Liu Han. 
        Such ``confessions''--obtained while in police custody 
        and without the presence of a lawyer--deprive detainees 
        of their fair trial rights and presumption of 
        innocence.
        <bullet> The government and Party have continued to 
        highlight the problem of confessions coerced through 
        torture and wrongful convictions. Torture and abuse in 
        custody nevertheless remained prevalent. In spring 
        2014, for example, authorities detained and tortured 
        four human rights lawyers who sought to provide legal 
        assistance to unlawfully detained Falun Gong 
        practitioners in Heilongjiang province. Torture is 
        pervasive in ``legal education centers'' and other 
        detention facilities that are used to detain Falun Gong 
        practitioners.
        <bullet> The denial of adequate, timely medical care 
        for detainees garnered much attention this year when 
        authorities denied necessary medical care to activist 
        Cao Shunli, who died two weeks after her release from 
        detention. Other detainees whose health was at risk in 
        2014 include Ilham Tohti and Chen Kegui.
        <bullet> The government continued to treat data on the 
        use of the death penalty as a ``state secret'' and 
        rejected recommendations made during its Universal 
        Periodic Review in October 2013 that it publish 
        official statistics on the application of the death 
        penalty. Although the trend is toward fewer executions 
        in China, according to Amnesty International, the 
        Chinese government executed more people in 2013 than 
        the rest of the world combined. The government has 
        stated that it will further reduce the number of death 
        penalty eligible crimes, which currently stands at 55.
        <bullet> Organs are still harvested from executed 
        prisoners. In April 2014, a health official stated that 
        the Chinese government was unable to announce a 
        specific timetable for ending the practice of using the 
        organs of executed prisoners for organ transplants 
        because of the low number of donors and a severe organ 
        shortage.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Urge the Chinese government to publicly commit to 
        a specific timetable for ratification of the 
        International Covenant on Civil and Political Rights 
        (ICCPR), which the Chinese government signed in 1998 
        but has not yet ratified.
        <all> Call on the Chinese government to abolish all 
        forms of extrajudicial detention, including compulsory 
        drug detoxification centers, custody and education 
        facilities, ``legal education centers,'' ``reprimand 
        centers,'' and other forms of ``black jails,'' and 
        ensure that the fair trial rights of Chinese citizens 
        under the Universal Declaration of Human Rights and the 
        ICCPR are guaranteed.
        <all> Encourage the Chinese government to establish an 
        independent national human rights institution (NHRI) 
        for the protection and promotion of human rights 
        according to the Paris Principles, as was recently 
        recommended by the UN Committee on Economic, Social and 
        Cultural Rights after its review of China's compliance 
        with the International Covenant on Economic, Social and 
        Cultural Rights in May 2014. The NHRI could focus its 
        work in a manner that reflects priorities established 
        by the UN Office of the High Commissioner for Human 
        Rights, such as prevention of arbitrary detention and 
        torture.
        <all> Urge China to release Chinese citizens who have 
        been detained or imprisoned for vague crimes in 
        connection with their rights activism and advocacy, 
        such as Xu Zhiyong, and public interest lawyers Pu 
        Zhiqiang and Chang Boyang. Support technical assistance 
        and exchange programs that focus on issues relating to 
        health care in detention facilities, including health 
        care standards and their formulation, funding 
        mechanisms, delivery of services, complaint procedures, 
        and monitoring and oversight.
        <all> Remind the Chinese government of its commitment 
        to invite the UN High Commissioner for Human Rights to 
        visit China, and encourage China to issue an invitation 
        promptly.
        <all> Press China to extend invitations to all UN 
        special rapporteurs and other special procedures that 
        have requested to visit China, including the UN Working 
        Group on Enforced or Involuntary Disappearances, the 
        special rapporteurs on freedom of association and 
        assembly, the situation of human rights defenders, and 
        the independence of judges and lawyers.
        <all> Support programs and international cooperation on 
        issues relating to the role of criminal defense lawyers 
        in defending rights of suspects and defendants through 
        the criminal justice process, in particular the 
        critical role of witnesses in criminal trials and 
        mechanisms for their protection.
        <all> Urge China to announce a specific timetable for 
        ending the practice of harvesting organs from executed 
        prisoners.

                          Freedom of Religion

                                Findings

        <bullet> The Chinese government continued to restrict 
        Chinese citizens' freedom of religion during the 
        Commission's 2014 reporting year. China's Constitution 
        guarantees ``freedom of religious belief'' but limits 
        protection only to ``normal religious activities,'' a 
        term applied in a manner that contravenes international 
        human rights protections for freedom of religion, 
        including Article 18 of the Universal Declaration of 
        Human Rights and Article 18 of the International 
        Covenant on Civil and Political Rights. The Chinese 
        government continued to recognize only five religions--
        Buddhism, Catholicism, Islam, Protestantism, and 
        Taoism. Groups wishing to practice these religions are 
        required to register with the government and are 
        subject to ongoing government controls. Both registered 
        and unregistered religious groups deemed to run afoul 
        of state-set parameters continued to face harassment, 
        detention, imprisonment, and other abuses, and the 
        government continued to outlaw some religious and 
        spiritual communities, including Falun Gong.
        <bullet> The Chinese government continued to use laws, 
        regulations, and policy measures to control religious 
        practices in China, rather than protect the religious 
        freedom of all Chinese citizens.
        <bullet> Authorities continued to ensure that Buddhist 
        doctrine and practice conform to government and Chinese 
        Communist Party objectives.
        <bullet> Authorities continued to deny Catholics in 
        China the freedom to accept the authority of the Holy 
        See to select bishops. Authorities harassed and 
        detained Catholic clergy who refused to cooperate with 
        the government and Party, including Bishop Joseph Fan 
        Zhongliang (d. March 2014), Bishop Thaddeus Ma Daqin, 
        priests Tian Dalong and Peng Weizhao.
        <bullet> Authorities launched a three-year (2013-2015) 
        ``decisive battle'' campaign aimed at reducing Falun 
        Gong activities and ``transforming'' Falun Gong 
        practitioners. The new campaign has been carried out at 
        all levels of government, and authorities set specific 
        ``transformation'' quotas to meet local goals. 
        Authorities harassed and detained persons who attempted 
        to assist Falun Gong practitioners, including four 
        lawyers who attempted to provide legal assistance to 
        Falun Gong practitioners detained at the Jiansanjiang 
        ``legal education center'' in Heilongjiang province.
        <bullet> Authorities continued to regulate the 
        confirmation of Islamic religious leaders and annual 
        overseas pilgrimages. Local governments across China 
        continued to control the content of sermons and the 
        interpretation of Islamic scriptures. Authorities in 
        the Xinjiang Uyghur Autonomous Region banned Uyghur 
        Muslim students, civil servants, and hospital employees 
        from observing Ramadan. In contrast, Chinese 
        authorities afforded Hui Muslims greater freedom of 
        religion, allowing them to observe Ramadan and to make 
        overseas pilgrimages in growing numbers.
        <bullet> The government and Party continued to control 
        and guide the interpretation of Protestant doctrine and 
        theology in an effort to conform the Christian faith to 
        Party goals and ideology. Chinese authorities harassed, 
        detained, imprisoned, and interfered with religious 
        activities of members of both registered and 
        unregistered Protestant communities who ran afoul of 
        government or Party policy. This past year, the 
        Commission observed a trend of increasing government 
        harassment against officially sanctioned churches. In 
        particular, authorities in Zhejiang province launched a 
        three-year campaign (2013-2015) to address ``illegal 
        structures'' and targeted both registered and 
        unregistered protestant churches for church demolition 
        and cross removal.
        <bullet> Authorities maintained control over Taoist 
        doctrine, clergy appointments, sites of worship, and 
        religious activities.
        <bullet> Despite lacking formal central government 
        recognition, some religious communities, such as the 
        Eastern Orthodox Church, have been able to operate 
        inside China, and continued to appeal to the Chinese 
        government for official recognition.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Call on the Chinese government to guarantee to 
        all citizens freedom of religion in accordance with 
        Article 18 of the Universal Declaration of Human Rights 
        and to remove its framework for recognizing only select 
        religious communities for limited state protections. 
        Stress to Chinese authorities that freedom of religion 
        includes the right to freely adopt and practice 
        religious beliefs, and that China's limited protections 
        for ``normal religious activities'' do not meet 
        international standards for freedom of religion.
        <all> Stress to the Chinese government that the right 
        to freedom of religion includes: the right of Buddhists 
        to carry out activities in temples independent of state 
        controls over religion, the right of Buddhist clergy to 
        select monastic teachers under Buddhist procedures and 
        standards, and the right of Tibetan Buddhists to 
        express openly their respect or devotion to Tibetan 
        Buddhist teachers, including the Dalai Lama; the right 
        of Catholics to recognize the authority of the Holy See 
        in matters relating to the practice of their faith, 
        including to make bishop appointments; the right of 
        Falun Gong practitioners to freely practice Falun Gong 
        inside China; the right of Muslims to engage in 
        preaching, overseas pilgrimage, the selection and 
        training of religious leaders, and the observance of 
        Ramadan without state interference; the right of 
        Protestants to worship free from state controls over 
        doctrine and worship, free from harassment, detention, 
        and other abuses for public and private manifestations 
        of their faith, including the display of crosses; and 
        the right of Taoists to interpret their teachings free 
        from government guidance.
        <all> Call for the release of Chinese citizens 
        confined, detained, or imprisoned for peacefully 
        pursuing their religious beliefs including the right to 
        hold and exercise those beliefs. Such prisoners 
        include: Sonam Lhatso (a Tibetan Buddhist nun sentenced 
        in 2009 to 10 years' imprisonment for her activism 
        calling for Tibetan independence and the Dalai Lama's 
        return to Tibet); Thaddeus Ma Daqin (the Auxiliary 
        Bishop of the Shanghai diocese who has been under 
        extralegal confinement since July 2012 for renouncing 
        his affiliation with the Chinese Catholic Patriotic 
        Association); Wang Zhiwen (a Falun Gong practitioner 
        serving a 16-year sentence for organizing peaceful 
        protests in 1999); Abdukiram Abduveli (a Uyghur 
        religious leader who has been imprisoned for 21 years, 
        and is now serving an additional sentence that expires 
        in 2019); Zhang Shaojie (a pastor of an officially 
        sanctioned church in Nanle county, Henan province, 
        sentenced to 12 years in prison for a church land 
        dispute with the local government); and other prisoners 
        mentioned in this report and in the Commission's 
        Political Prisoner Database.
        <all> Call on the Chinese government to implement 
        accepted recommendations from its October 2013 UN 
        Universal Periodic Review, including: taking necessary 
        measures to ensure that rights to freedom of religion, 
        as well as religious culture and expression, are fully 
        observed and protected; cooperating with the UN human 
        rights system, specifically UN special procedures and 
        mandate holders; facilitating visits for UN High 
        Commissioners and special procedures to China; taking 
        steps to ensure lawyers working to advance human 
        rights, including religious rights, can practice their 
        profession freely and promptly investigate allegations 
        of violence and intimidation impeding their work; and 
        considering possible revisions to legislation and 
        administrative restrictions to provide better 
        protection of freedom of religion.
        <all> Call on China to eliminate criminal and 
        administrative penalties that target religious and 
        spiritual movements, which have been used to punish 
        Chinese citizens for exercising their right to freedom 
        of religion. Specifically, call on China to abolish 
        Article 300 of the PRC Criminal Law (which criminalizes 
        using a ``cult'' to undermine implementation of state 
        laws) and Article 27 of the PRC Public Security 
        Administration Punishment Law (which stipulates 
        detention or fines for organizing or inciting others to 
        engage in ``cult'' activities and for using ``cults'' 
        or the ``guise of religion'' to disturb social order or 
        to harm others' health).
        <all> Encourage U.S. political leaders to visit 
        religious sites in China to raise awareness and promote 
        freedom of religion, in keeping with international 
        human rights standards.

                         Ethnic Minority Rights

                                Findings

        <bullet> During the 2014 reporting year, Chinese 
        authorities enforced harsh restrictions and crackdowns 
        on ethnic minorities, particularly those living in the 
        Tibet Autonomous Region (TAR) and other Tibetan 
        autonomous areas of China, the Xinjiang Uyghur 
        Autonomous Region (XUAR), and the Inner Mongolia 
        Autonomous Region (IMAR). Authorities tightened 
        controls on ethnic minority advocates who sought to 
        peacefully assert their distinct cultural, linguistic, 
        and religious identities and who criticized state 
        policies.
        <bullet> During the 2014 reporting year, Mongol herders 
        protested state and private exploitation of their 
        traditional grazing lands, raising concerns such as 
        inadequate compensation, loss of livelihood due to 
        environmental destruction, and involuntary 
        resettlement. Security officials reportedly detained 
        and beat many of the herders and obstructed the 
        protests.
        <bullet> On May 13, 2014, Mongolian authorities 
        reportedly forcibly returned Mongol rights advocates 
        Dalaibaatar Dovchin and Tulguur Norovrinchen to China. 
        The forced repatriation of the two rights advocates 
        suggests increased Chinese government pressure on 
        Mongolian authorities to restrict rights advocacy 
        carried out by Chinese citizens in Mongolia. At the 
        time of their deportation, Dovchin reportedly had a 
        valid student visa and Norovrinchen reportedly had a 
        valid Asylum Seeker Certificate issued by the UN High 
        Commissioner for Refugees.
        <bullet> During the 2014 reporting year, Mongol rights 
        advocate Hada remained in poor health in extralegal 
        detention despite his completion of a 15-year prison 
        sentence on December 10, 2010. Hada's case highlights 
        state repression of Mongols' peaceful protest and 
        assertions of cultural identity. According to Hada's 
        wife Xinna, authorities threatened her with detention 
        after she spoke publicly about her husband's continued 
        extralegal detention, and maintained restrictions, 
        including on the freedom of movement, on her and the 
        couple's son, Uiles.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Continue to build the capacity of Mongol, Uyghur, 
        and Tibetan groups working to advance human rights, 
        environmental, and economic development and rule of law 
        in China through U.S. foreign assistance funding and 
        through encouraging additional support from both United 
        Nations and non-governmental sources.
        <all> Using forums including the U.S.-China Joint 
        Committee on Environmental Cooperation and the U.S.-
        China Energy Policy Dialogue, urge Chinese officials to 
        investigate the environmental impact of the dumping of 
        toxic waste due to mining activities in the IMAR, and 
        urge IMAR officials to examine herders' complaints 
        regarding the death of livestock and degradation of 
        grazing lands due to pollution caused by mining and 
        other development projects. Convey to the Chinese 
        government the importance of respecting and protecting 
        ethnic minority cultures and languages. In accordance 
        with the Regional Ethnic Autonomy Law, urge Chinese 
        officials to provide ethnic minority students and 
        parents a choice of what language or languages of 
        instruction should be used at schools they attend in 
        the TAR, XUAR, and IMAR.
        <all> Urge Chinese authorities to refrain from 
        pressuring the government of Mongolia to forcibly 
        return Mongol Chinese citizens due to their rights 
        advocacy. Under the 1951 UN Convention relating to the 
        Status of Refugees and its 1967 Protocol, to which 
        China has acceded and to which Mongolia is considering 
        accession, countries are obligated to refrain from 
        repatriating those who fear persecution upon return to 
        their country of origin.
        <all> Call on the Chinese government to release people 
        detained or imprisoned for advocating ethnic minority 
        rights, including Mongol rights advocate Hada, former 
        medical school principal Batzangaa, and other prisoners 
        mentioned in this report and in the Commission's 
        Political Prisoner Database.
        <all> Urge Chinese authorities to end restrictions on 
        the freedom of movement and other unlawful restrictions 
        against Hada's wife Xinna and son Uiles. The Universal 
        Declaration of Human Rights grants ``everyone . . . the 
        right to freedom of movement and residence within the 
        borders of each state.'' Urge Chinese authorities to 
        engage with the Chairperson-Rapporteur of the UN 
        Working Group on Arbitrary Detention regarding Hada's 
        continued detention.

                          Population Planning

                                Findings

        <bullet> In November 2013, the Chinese government 
        announced a slight modification of China's population 
        planning policy, allowing couples to bear a second 
        child if one parent is an only child. Experts predict 
        the change will affect a limited number of couples, 
        mostly concentrated in urban areas. In addition, 
        experts anticipate that many couples may choose not to 
        bear a second child even if they are now eligible. Thus 
        far China has seen a smaller increase in births than 
        predicted. Meanwhile, Chinese and international experts 
        continued calls for the cancellation of the one-child 
        policy.
        <bullet> Chinese government officials continued to 
        implement population planning policies that interfere 
        with and control the reproductive lives of Chinese 
        citizens, especially women. Officials employed various 
        methods including fines, withholding of social benefits 
        and permits, forced sterilization, forced abortion, and 
        arbitrary detention to punish policy violators.
        <bullet> The PRC Population and Family Planning Law is 
        not consistent with standards set forth in 
        international agreements, including the 1995 Beijing 
        Declaration and the 1994 Programme of Action of the 
        Cairo International Conference on Population and 
        Development. Controls imposed on Chinese women and 
        their families, and additional abuses engendered by the 
        system, from forced abortion to discriminatory policies 
        against ``out-of-plan'' children, also violate 
        standards set in the Convention on the Rights of the 
        Child and the International Covenant on Economic, 
        Social and Cultural Rights. China is a State Party to 
        these treaties and has committed to upholding their 
        terms.
        <bullet> Chinese law prohibits official infringement 
        upon the rights and interests of citizens while 
        implementing population planning policies but does not 
        define what constitutes a citizen's right or interest. 
        Chinese law does not stipulate punishments for 
        officials who demand or implement forced abortions. 
        Provincial population planning regulations in at least 
        22 of China's 31 provinces explicitly instruct 
        officials to implement abortions for ``out-of-plan'' 
        pregnancies, often referred to as a ``remedial 
        measure'' (bujiu cuoshi), with no apparent requirement 
        for parents' consent.
        <bullet> The Chinese government's population planning 
        policies continue to exacerbate the country's 
        demographic challenges, which include an aging 
        population, diminishing workforce, and skewed sex 
        ratio.
        <bullet> Reports emerged highlighting local 
        governments' misuse or incomplete disclosure of money 
        collected through population planning fines (termed 
        ``social maintenance fees''), noting that in some 
        localities officials were permitted to retain a 
        percentage of proceeds made from these fees, and that 
        in some cases officials spent collected ``fees'' on 
        personal expenditures. Such monetary benefits could 
        serve as incentives for officials to implement illegal 
        or coercive collection measures.
        <bullet> Authorities in some localities denied birth 
        permits and hukous--household registration permits--for 
        children whose parents disobeyed local family planning 
        requirements. People who lack hukous in China face 
        considerable difficulty accessing social benefits 
        afforded to registered citizens.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Publicly link, wherever there is supporting 
        evidence, the imbalanced sex ratios exacerbated by 
        China's population planning policies with potential 
        regional humanitarian and security concerns--
        trafficking, crime, increased internal and external 
        migrations, and other possible serious social, 
        economic, and political problems--and discuss these 
        issues in bilateral security dialogues.
        <all> Urge the Chinese government to take recent policy 
        relaxations further, abolishing all birth restrictions 
        on families, and instead employing a human rights-based 
        approach to providing freedom to build their families 
        as they see fit and privacy for all citizens, 
        especially women. In meetings with the Chinese 
        government, highlight the concluding observations of 
        the Committee on the Rights of the Child.
        <all> Press Chinese officials to reevaluate the PRC 
        Population and Family Planning Law and bring it into 
        conformance with international standards set forth in 
        international agreements, including the 1995 Beijing 
        Declaration; the 1994 Programme of Action of the Cairo 
        International Conference on Population and Development; 
        the Convention on the Rights of the Child; and the 
        International Covenant on Economic, Social and Cultural 
        Rights.
        <all> Call on China's central and local governments to 
        vigorously enforce provisions under Chinese law that 
        provide for punishment of officials and other 
        individuals who violate the rights of citizens when 
        implementing population planning policies and to 
        clearly define what these rights entail. Urge the 
        Chinese government to establish penalties, including 
        specific criminal and financial penalties, for 
        officials and individuals found to commit abuses such 
        as coercive abortion and coercive sterilization--
        practices that continue in China. Urge the Chinese 
        government to prohibit material, career, and financial 
        incentives and disincentives that motivate officials to 
        use coercive or unlawful practices in implementing 
        family planning policies.
        <all> Encourage the Chinese government to ensure 
        citizens' lawful right to the knowledge of various 
        contraceptive methods available to them and to ensure 
        citizens' right to choose whether and which to use.
        <all> Support the development of international 
        cooperation and legal aid and training programs that 
        help citizens pursue compensation under the PRC State 
        Compensation Law and that help citizens pursue other 
        remedies from the government for injuries suffered as a 
        result of official abuse related to China's population 
        planning policies.
        <all> Urge Chinese authorities to heed the 
        recommendations of the UN Committee on the Rights of 
        the Child to ``reform family planning policies in order 
        to remove all forms of penalties and practices that 
        deter parents or guardians from registering their 
        children'' and ``abandon the hukou system in order to 
        ensure birth registration for all children.''

                   Freedom of Residence and Movement

                                Findings

        <bullet> The Chinese government continued to largely 
        enforce the household registration (hukou) system first 
        established in 1958. This system limits the right of 
        Chinese citizens to freely determine their place of 
        residence. The hukou system's regulations classify 
        Chinese citizens as either rural or urban and 
        confer legal rights and access to social services based 
        on that classification. The implementation of these 
        regulations discriminates against rural hukou holders 
        who migrate to urban areas by denying them equal access 
        to social benefits and public services enjoyed by 
        registered urban residents. The hukou system conflicts 
        with international human rights standards guaranteeing 
        freedom to choose one's residence and prohibiting 
        discrimination on the basis of ``national or social 
        origin, birth or other status.''
        <bullet> The Chinese government continued to make 
        uneven progress toward reforming the hukou system. The 
        State Council and Central Committee of the Chinese 
        Communist Party issued a plan for urbanization in March 
        2014 that anticipates 100 million people obtaining 
        urban hukou status by 2020. The plan, however, does not 
        provide for issuing urban hukous to all migrants moving 
        to cities. Instead, it calls for easing restrictions on 
        urban hukous according to city size, retaining strict 
        control over the populations of large cities but 
        loosening restrictions on smaller cities.
        <bullet> Several local governments have proposed or 
        implemented policies that seek to ease restrictions on 
        some rights and privileges of migrants lacking urban 
        hukous. However, a number of these reforms carry 
        qualifying conditions which many migrants find 
        difficult to meet, including educational, financial, 
        and employment requirements, among others.
        <bullet> Chinese officials continued to deny citizens 
        who criticize the government their internationally 
        recognized right to leave the country. There were 
        numerous reports of dissidents being denied passports 
        and the right to exit the country. Uyghurs and 
        Tibetans, in particular, continued to face heavy 
        restrictions on obtaining passports. The Chinese 
        government also continued to deny the right of return 
        to those expressing views the government perceives to 
        be threatening, in violation of international 
        standards.
        <bullet> Chinese authorities continued to violate the 
        internationally recognized right which provides that 
        ``[e]veryone lawfully within the territory of a State 
        shall . . . have the right to liberty of movement . . . 
        .'' Authorities increased restrictions on freedom of 
        movement during politically sensitive periods, 
        preventing, for example, human rights lawyer Mo 
        Shaoping from meeting with the German vice chancellor 
        in Beijing municipality in April 2014, and Tibetan 
        writer and activist Tsering Woeser from attending an 
        event she had been invited to at the U.S. Embassy 
        during the U.S.-China Strategic and Economic Dialogue 
        in July.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Support programs, organizations, and exchanges 
        with Chinese policymakers and academic institutions 
        engaged in research and outreach to migrant workers in 
        order to advance legal assistance and anti-
        discrimination programs for migrant workers and 
        encourage policy debates on the hukou system.
        <all> Encourage U.S. academic and public policy 
        institutions to consult with the Commission on avenues 
        for outreach to Chinese academic and public policy 
        figures engaged in policy debates on the reform and 
        eventual abolition of the hukou system.
        <all> Stress to Chinese government officials that 
        noncompliance with international agreements regarding 
        freedom of movement negatively affects confidence 
        outside of China that the Chinese government is 
        committed to complying with international standards 
        more generally.
        <all> Raise specifically Chinese authorities' 
        restrictions on the freedom of movement of rights 
        defenders, advocates, critics, and their families, 
        including, among others: Liu Xia, an artist and poet, 
        and the wife of imprisoned Nobel Peace Prize laureate 
        Liu Xiaobo; Catholic bishop Thaddeus Ma Daqin; and 
        Tibetan writer and activist Tsering Woeser; and 
        restrictions on the right to leave the country and the 
        right of return, for example, in the cases of the late 
        human rights defender Cao Shunli and rights advocate 
        Yang Jianli.

                            Status of Women

                                Findings

        <bullet> Chinese laws contain provisions that aim to 
        protect women's rights, but ambiguity and lack of 
        clearly outlined duties for law enforcement agencies 
        and private entities hamper implementation.
        <bullet> The UN Committee on Economic, Social and 
        Cultural Rights issued its concluding observations on 
        the second periodic report of China in May 2014, noting 
        persistent gender disparities in China, ``especially in 
        relation to employment, wages, housing and access to 
        higher education'' as well as ``the disadvantaged 
        position of rural women, in particular in having access 
        to education, health, employment and land tenure . . . 
        .''
        <bullet> Female representation in all levels of 
        government in China falls short of international 
        standards and standards under Chinese law, underscoring 
        long-held concerns about protection of women's rights 
        and interests.
        <bullet> Gender-based discrimination continues in 
        employment and education in China despite provisions 
        under Chinese law that prohibit it. Employers continue 
        to discriminate against women in recruitment, 
        promotion, wages, and retirement. Universities across 
        China implement gender restrictions in enrollment.
        <bullet> Domestic violence reportedly affects 25 
        percent of Chinese families, yet national-level legal 
        provisions lack a clear definition of domestic violence 
        and do not specify the duties of public and private 
        sector organizations in prevention, punishment, and 
        treatment. The Supreme People's Court issued a report 
        in February 2014 providing 10 model cases that aimed to 
        guide lower courts in adjudication of domestic violence 
        criminal cases. As of June 2014, draft domestic 
        violence legislation reportedly had been included in 
        the State Council's 2014 legislative work plan.
        <bullet> Chinese law fails to adequately define, 
        prevent, and punish acts of sexual violence against 
        women, including rape, forced prostitution, and sexual 
        harassment. Central authorities issued several guiding 
        documents this past year that aim to strengthen 
        prevention and punishment of the sexual assault of a 
        child. Advocates continue to call for authorities to 
        close loopholes in Chinese law that may allow lighter 
        punishments for perpetrators whose victims are between 
        12 and 14 years old.
        <bullet> Local officials continue to employ coercion 
        and violence against women--including forced abortions, 
        forced sterilizations, and forced contraceptive use--
        while implementing national and local population 
        planning policies. Over 1,000 Chinese women sent a 
        letter calling on Chinese officials to ``protect 
        women's right to life and health'' during the drafting 
        and execution of China's population planning policies.
        <bullet> In violation of Chinese law, authorities 
        continue to subject women to arbitrary detention, 
        extortion, physical violence, verbal abuse, and forced 
        labor in the enforcement of anti-prostitution laws.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Support exchanges, training, and legal programs 
        in China that increase women's political participation, 
        promote women's land rights, educate women vis-a-vis 
        rights awareness and advocacy, and increase supervision 
        over village committees to ensure adequate protection 
        of women's rights and interests in accordance with 
        national-level laws and policies.
        <all> Press the Chinese government to faithfully 
        implement the recommendations from the UN Committee on 
        Economic, Social and Cultural Rights following its 
        review of China in May 2014, to adopt measures to (a) 
        ``ensure the strict enforcement of the Law on the 
        Protection of the Rights and Interests of Women''; (b) 
        ``eliminate the persistent disparities between men and 
        women and promote full access to higher education, 
        employment and housing''; (c) ``eliminate the 
        persistent gender wage gap''; and (d) ``eliminate 
        multiple-discrimination faced by rural women, in 
        particular in access to education, health, employment 
        and land tenure.''
        <all> Press the Chinese government to enact 
        comprehensive national-level legislation that clearly 
        defines domestic violence in criminal and civil law, 
        allocates adequate resources for addressing domestic 
        violence, assigns responsibilities to government and 
        civil society organizations in addressing domestic 
        violence, details procedures for victim support and 
        protection, and specifies punishments for offenders. 
        Urge officials to release drafts of this legislation 
        for public comment. Support technical assistance 
        programs that increase awareness among judicial and law 
        enforcement personnel on issues pertaining to domestic 
        violence.
        <all> Urge the Chinese government to revise or enact 
        comprehensive national-level legislation to provide a 
        clear definition of sexual harassment and specific 
        standards and procedures for prevention and punishment. 
        Support technical assistance programs that increase 
        awareness among judicial and law enforcement personnel 
        on issues pertaining to sexual harassment. One area in 
        which the U.S. Government could offer technical 
        assistance is in developing workplace protocols and 
        reporting mechanisms that ensure confidentiality and 
        prevent retaliation.
        <all> Encourage the Chinese government to heed the 
        recommendations of the UN Committee on the Elimination 
        of Discrimination against Women to incorporate gender 
        education into the training of judges, judicial 
        officers, lawyers, and prosecutors.
        <all> Call on the Chinese government to stop coercion 
        and violence against women during population planning 
        implementation and to clarify provisions under Chinese 
        law that would protect women against such abuses. Urge 
        the Chinese government to establish specific penalties 
        for those who engage in coercive or violent population 
        planning enforcement, including forced abortion, forced 
        sterilization, and forced contraceptive use.

                           Human Trafficking

                                Findings

        <bullet> China remains a country of origin, transit, 
        and destination for the trafficking of men, women, and 
        children. The majority of human trafficking cases are 
        domestic and involve trafficking for sexual 
        exploitation, forced labor, and forced marriage. The 
        full extent of the forced labor problem in China is 
        unclear, as the Chinese government releases limited 
        relevant statistics.
        <bullet> Chinese and international experts link China's 
        ongoing human trafficking problem to several political, 
        demographic, economic, and social factors, including a 
        severely skewed sex ratio, lack of awareness and 
        education on trafficking prevention, and challenging 
        conditions in border countries.
        <bullet> The Chinese government acceded to the UN 
        Protocol to Prevent, Suppress and Punish Trafficking in 
        Persons, Especially Women and Children (UN TIP 
        Protocol) in December 2009 and has since taken steps to 
        revise domestic legislation and update policy efforts 
        to comply with the UN TIP Protocol. The State Council 
        tasked local governments with implementing a 2013-2020 
        national anti-trafficking action plan, and one year in, 
        it is difficult to assess whether the State Council has 
        provided adequate resources and training to local 
        authorities for implementing the plan's objectives or 
        whether local governments are able to budget the funds 
        necessary to finance anti-trafficking work as the plan 
        has recommended.
        <bullet> As Chinese law conflates human smuggling, 
        illegal adoption, and child abduction with human 
        trafficking, accurate official statistics on the number 
        of trafficking cases the government investigated and 
        prosecuted during this reporting year are not 
        available. In cooperation with international 
        organizations, Chinese authorities took steps to 
        improve protection, services, and care for victims of 
        trafficking, but appeared to continue focusing efforts 
        only on women and children. Chinese authorities did not 
        release detailed information on services provided or 
        the number of victims identified and assisted.
        <bullet> The Chinese government does not offer legal 
        alternatives to deportation for foreign victims of 
        trafficking and continues to deport North Korean 
        refugees under the classification of ``economic 
        migrants,'' regardless of whether or not they are 
        victims of trafficking.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Urge the Chinese government to abide by its 
        commitments under the UN Protocol to Prevent, Suppress 
        and Punish Trafficking in Persons, Especially Women and 
        Children and to bring anti-trafficking legislation into 
        alignment with international standards. Specifically, 
        urge the Chinese government to distinguish in 
        legislation the crimes of human smuggling, child 
        abduction, and illegal adoption from that of human 
        trafficking, and to expand the current legal definition 
        of trafficking to include all forms of trafficking, 
        including offenses against adult male victims, certain 
        forms of non-physical coercion, and the commercial sex 
        trade of minors. Such legal distinctions could be added 
        to the agenda for discussion at the next U.S.-China 
        Legal Experts Dialogue. Accordingly, urge the Chinese 
        government to undertake rigorous and methodical 
        research on human trafficking in order to publish data 
        that reflects an accurate definition of human 
        trafficking as provided under the UN TIP Protocol.
        <all> Urge the Chinese government to take action to 
        address root factors that contribute to China's 
        trafficking problem. Such action could include working 
        to balance China's sex ratio by raising awareness of 
        the value of women and by combating discrimination 
        against women in education and employment.
        <all> Call on the Chinese government to provide more 
        protective services for trafficking victims. Support 
        expanding training programs for law enforcement 
        personnel and shelter managers that help raise 
        awareness and improve processes for identifying, 
        protecting, and assisting trafficking victims. Support 
        legal assistance programs that advocate on behalf of 
        both foreign and Chinese trafficking victims.
        <all> Object to the continued deportation of North 
        Korean trafficking victims as ``economic migrants.'' 
        Urge the Chinese government to abide by its 
        international obligations under the 1951 Convention 
        relating to the Status of Refugees and its 1967 
        Protocol with regard to North Korean trafficking 
        victims and provide legal alternatives to repatriation.

                     North Korean Refugees in China

                                Findings

        <bullet> Throughout the Commission's 2014 reporting 
        year, the Chinese government continued to detain and 
        repatriate North Korean refugees to the Democratic 
        People's Republic of Korea (DPRK), in violation of its 
        obligations under international human rights and 
        refugee law.
        <bullet> A UN Commission of Inquiry report released in 
        February 2014 condemned China for forcibly repatriating 
        North Korean refugees to the DPRK, stating that such 
        actions ``could amount to the aiding and abetting of 
        crimes against humanity'' in the DPRK.
        <bullet> Throughout the reporting year, China appeared 
        to strengthen measures to stem the flow of North Korean 
        refugees into China, including increasing border 
        security and detaining and repatriating refugees to the 
        DPRK. Christian missionaries and aid groups also 
        reported that Chinese authorities have been cracking 
        down on Christian-run NGOs and businesses working along 
        the China-North Korea border.
        <bullet> Heightened security on both sides of the 
        China-North Korea border appears to be limiting the 
        outflow of North Korean refugees into China and 
        neighboring countries. The number of refugees who 
        reached South Korea in 2013 increased only slightly to 
        1,516 compared with 1,509 in 2012, reflecting a trend 
        that has seen a significant drop in the number of 
        refugees entering South Korea since 2009.
        <bullet> Trafficking of North Korean women in China 
        remained a significant problem. Reports suggest that 
        over 70 percent of North Korean refugees in China are 
        women, of which a high number are being trafficked 
        primarily for the purposes of forced marriage or sexual 
        exploitation.
        <bullet> Children born to North Korean women remained 
        largely deprived of basic rights to education and other 
        public services in China.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Insist Chinese officials respect the principle of 
        non-refoulement and stop forcibly repatriating North 
        Korean refugees to the DPRK.
        <all> Incorporate regular discussion on North Korean 
        refugees into all appropriate bilateral and 
        multilateral dialogues with China, including ongoing 
        dialogue with China on denuclearization of the Korean 
        Peninsula.
        <all> Formulate a multilateral framework with China and 
        other concerned governments for the handling of North 
        Korean refugees that addresses China's concerns about 
        stability and criminal activity along the border with 
        international principles on human rights and refugee 
        protection.
        <all> Urge Chinese officials to abide by their 
        obligations under the UN Protocol to Prevent, Suppress 
        and Punish Trafficking in Persons, Especially Women and 
        Children and the Convention on the Elimination of All 
        Forms of Discrimination against Women to prosecute 
        human traffickers operating in China and along the 
        North Korea-China border.
        <all> Urge Chinese officials to legalize the status of 
        North Korean women who marry or have a child with a 
        Chinese citizen, and ensure that all such children are 
        granted residency status and access to education and 
        other public services.

                             Public Health

                                Findings

        <bullet> Violence against hospital personnel was a 
        focal public health issue in China during the 
        Commission's 2014 reporting year. Medical experts 
        attribute the increasing number of violent incidents 
        against hospital personnel to weak mechanisms for 
        resolving medical disputes, among other factors.
        <bullet> The first year of implementation of China's 
        first-ever Mental Health Law was marred by reports of 
        public security officials forcibly committing 
        petitioners to psychiatric hospitalization despite 
        provisions in the law intended to prevent this form of 
        abuse.
        <bullet> In May, the UN Working Group on Arbitrary 
        Detention censured China in an opinion on the case of 
        Xing Shiku, a petitioner from Heilongjiang province, 
        whom authorities have kept in a psychiatric facility 
        for more than seven years, concluding that Xing's 
        detention violated Articles 9 and 19 of the Universal 
        Declaration of Human Rights.
        <bullet> The Commission observed reports of detention 
        and deprivation of personal freedom of individuals who 
        have been engaged in public health outreach and 
        advocacy. In January, public security officials 
        criminally detained Akbar Imin, a Uyghur public health 
        worker. Beijing authorities kept advocate Hu Jia under 
        home confinement for almost six months, releasing him 
        after the 25th anniversary of the 1989 Tiananmen 
        protests. Public security authorities also raided the 
        office of Zhengzhou Yirenping, a public health and 
        anti-discrimination non-governmental organization (NGO) 
        in Henan province, in connection with the arrest of 
        human rights lawyer and Zhengzhou Yirenping co-founder 
        Chang Boyang.
        <bullet> During this reporting year, the Chinese 
        government issued government work plans to strengthen 
        the existing legislative framework to prohibit health-
        based discrimination in access to employment and 
        education. For example, a plan issued in January 2014 
        aims to increase access to compulsory education for 
        students with physical and intellectual disabilities. 
        Physical eligibility standards for employment as civil 
        servants and teachers, however, still contain 
        provisions that discriminate against individuals with a 
        range of health-related conditions.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Recommend that the Chinese government work with 
        hospitals, medical and legal professionals, and 
        community groups to develop rule-based mechanisms to 
        resolve patient-hospital disputes, including support 
        for the registration of non-governmental patient 
        rights' advocacy groups.
        <all> Call on the Chinese government to strengthen 
        implementation of the Mental Health Law (MHL) and stop 
        forcibly committing petitioners and others without 
        mental illness to psychiatric facilities (bei 
        jingshenbing). Urge the Chinese government to establish 
        an independent panel made up of legal and medical 
        professionals from both within and outside of the 
        government to monitor and report on implementation of 
        the MHL, particularly in the use of involuntary 
        commitment and treatment. Increase support to Chinese 
        civil society organizations and advocates in monitoring 
        implementation of the MHL.
        <all> Call on the Chinese government to immediately 
        release from custody Akbar Imin, a Uyghur public health 
        worker who has worked with Uyghur migrants in Beijing 
        on HIV/AIDS treatment and prevention, and drug abuse 
        harm reduction; Zhengzhou-based human rights lawyer 
        Chang Boyang; petitioner Xing Shiku; and other public 
        health advocates and petitioners mentioned in this 
        report and the Commission's Political Prisoner 
        Database. Call on the Chinese government to cease 
        harassing public health advocacy NGOs.
        <all> Urge Chinese officials to focus attention on 
        effective implementation of laws and regulations that 
        prohibit health-based discrimination in access to 
        employment and education, and in the development of a 
        barrier-free environment, including revision of the 
        national physical eligibility standards for civil 
        servants and teachers that discriminate against persons 
        with health-related conditions. Where appropriate, 
        share with Chinese officials the United States' ongoing 
        experience and efforts through legal, regulatory, and 
        non-governmental means to promote the rights of persons 
        with disabilities in education and employment. Expand 
        the number of site visits and other exchanges for 
        Chinese officials to observe and share experience with 
        U.S. rights groups, lawyers, and state and federal 
        agencies.

                            The Environment

                                Findings

        <bullet> During the Commission's 2014 reporting year, 
        widespread and severe environmental challenges 
        continued to confront China. Pollution problems have 
        had consequences for citizens' health and reportedly 
        have led to increasing environmental migration by 
        China's more prosperous citizens. Soil pollution in 
        China has been linked to food safety concerns both 
        domestically and internationally. Overall, groundwater 
        quality worsened over the past year and 280 million 
        people in China still use unsafe drinking water. Dirty 
        migration--whereby polluting industries move to less 
        developed areas where environmental protection efforts 
        have been weaker and information disclosure has been 
        lower--also remains problematic. Chinese citizens, as 
        well as U.S. and South Korean officials, expressed 
        concern about China's worsening air pollution.
        <bullet> Developments during the reporting year 
        indicate central authorities have raised the priority 
        of regulating threats to environmental quality. Chinese 
        authorities made substantial revisions to the 
        Environmental Protection Law, the first revisions since 
        1989, which if duly implemented have the potential to 
        improve transparency and public oversight, diminish lax 
        implementation and enforcement, and reduce non-
        compliance. The revised law allows for a narrow, select 
        range of environmental organizations to file public 
        interest cases in court, although it is uncertain if 
        authorities will grant standing to groups lacking 
        strong links to government agencies.
        <bullet> Despite regulatory advances, significant 
        challenges still hinder the development of the rule of 
        law in the area of environmental protection, including 
        citizen access to the courts, weak deterrence 
        mechanisms, and noncompliance with environmental 
        statutes. Environmental authorities increased 
        application of criminal statutes to environmental 
        cases. Nevertheless, many companies in China surveyed 
        in 2013 reportedly remained out of compliance with 
        pollution standards. Corruption and disregard for the 
        law are widespread in the environmental sector, and in 
        some cases have been linked to pollution incidents. 
        Problems with pollution and environmental degradation 
        are among the primary triggers of environmental mass 
        incidents. There were several mass protests against 
        pollution, including a peaceful protest against a 
        chemical plant in Maoming municipality, Guangdong 
        province, that turned violent. Chinese citizens and a 
        human rights group have called for an investigation 
        into the possible excessive use of force by security 
        officials during the Maoming protest.
        <bullet> During the reporting period, observers 
        asserted that Chinese authorities advanced 
        environmental transparency to some degree. As of 
        January 2014, 179 cities had started to disclose to the 
        public real-time information on air quality. A national 
        measure also came into force in January requiring 
        China's approximately 15,000 ``key enterprises'' to 
        self-monitor and disclose air, water, noise, and other 
        pollutant emissions data. The revised Environmental 
        Protection Law stipulated requirements for authorities 
        to make full environmental impact assessment reports 
        available to the public. Authorities publicly disclosed 
        limited general data from a national study on soil 
        pollution after previously refusing to provide 
        information in response to a Chinese citizen's 2013 
        open information request on the grounds that the data 
        was a ``state secret.'' Censorship on environmental 
        issues continued, however, and Chinese citizens still 
        face significant challenges in accessing environmental 
        information.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Acknowledge revisions to the Environmental 
        Protection Law and encourage Chinese leaders to 
        strengthen the rule of law in the environmental sector. 
        Support U.S.-China bilateral exchanges focused on 
        improving regulatory enforcement and compliance tools 
        and urge Chinese authorities to be more responsive to 
        citizen demands for a cleaner environment. Engage 
        Chinese officials and others who seek to devise a fair 
        compensation system for environmental and ecological 
        damages.
        <all> Continue to fund programs under the U.S.-China 
        Ten-Year Framework for Cooperation on Energy and 
        Environment. Add reduction of soil contamination and 
        environmental transparency to the list of Focus Areas 
        for U.S.-China EcoPartnership projects. In addition, 
        urge the participation of independent Chinese 
        environmental non-governmental organizations in the 
        U.S.-China EcoPartnership projects.
        <all> Support programs that seek to raise the technical 
        and operational capacity of Chinese environmental non-
        governmental organizations (NGOs), including programs 
        that build the capacity of NGOs to fully utilize 
        opportunities to file environmental public interest 
        lawsuits. Urge Chinese authorities to fully implement 
        provisions providing for public participation in 
        environmental policy and project decisions.
        <all> Support efforts by Chinese and U.S. groups 
        working to expand awareness of citizens' environmental 
        rights in China and to promote the protection of those 
        rights. Include environmental law and transparency 
        issues in the U.S.-China Human Rights and Legal Experts 
        Dialogues. Also include discussion of human rights 
        dimensions of climate change in the U.S.-China Climate 
        Change Working Group.
        <all> Support continued expansion of environmental 
        information disclosure in China and encourage Chinese 
        leaders to fully implement strengthened provisions for 
        disclosure of full-text environmental impact assessment 
        reports to the public. Share with Chinese officials 
        U.S. Government experiences with the Toxics Release 
        Inventory Program and other U.S. programs that seek to 
        provide more environmental transparency. Continue U.S. 
        Government engagement with relevant individuals and 
        organizations in developing China's capacity to 
        reliably measure, report, publicize, and verify carbon 
        emissions reduction strategies and techniques. In 
        future U.S.-China Strategic and Economic Dialogue 
        meetings, expand upon previous discussions regarding 
        environmental transparency and the reliability and 
        transparency of greenhouse gas data.

                             Civil Society

                                Findings

        <bullet> During the Commission's 2014 reporting year, 
        the Chinese government and Party continued a crackdown 
        on civil society activists that began in early 2013 
        that violated international standards of freedom of 
        expression, association, and assembly. Authorities 
        sentenced a number of individuals previously detained 
        in 2013 because of their calls for greater government 
        accountability and citizen participation. These 
        individuals included Xu Zhiyong, a legal rights 
        advocate and promoter of the New Citizens' Movement 
        whom authorities sentenced in January 2014 to four 
        years in prison. Authorities also harassed and detained 
        individuals who attempted to monitor China's compliance 
        with its international human rights obligations and to 
        commemorate the 25th anniversary of the 1989 Tiananmen 
        protests and their violent suppression.
        <bullet> The Commission also observed increased 
        harassment of Chinese non-governmental organizations 
        (NGOs) this past year, especially those working on 
        public health and anti-discrimination advocacy.
        <bullet> The government and Party neither engaged nor 
        consulted with independent civil society advocates and 
        organizations in formulating country reports submitted 
        for reviews of China's compliance with several of its 
        international human rights obligations that took place 
        during this reporting year, an issue raised by several 
        UN commissions and Chinese and international rights 
        organizations. Some organizations asserted that the 
        approximately 16 to 22 NGOs and government-affiliated 
        organizations listed as consulting groups in China's 
        reports were primarily government- or Party-organized 
        groups. The Chinese government also rebuffed UN and 
        international human rights organizations' inquiries 
        into the detention, deteriorating health, and death in 
        March 2014 of human rights defender Cao Shunli.
        <bullet> Central government and Party documents, such 
        as the Party Central Committee Third Plenum Decision on 
        Certain Major Issues Regarding Comprehensively 
        Deepening Reforms, included support for the 
        participation of non-governmental ``social forces'' in 
        the social services sector. This policy support 
        reiterated points in the institutional reform plan of 
        March 2013 that aim to shift some government functions 
        in the provision of public services to non-governmental 
        ``social organizations''--the government's term for 
        non-governmental entities.
        <bullet> The Chinese government and Party missed its 
        own stated deadline to issue revisions to the three key 
        national regulations on ``social organizations'' by the 
        end of 2013, although at least 26 provinces and 
        municipalities moved forward with interim regulations. 
        The local provisions promote direct registration of a 
        limited spectrum of ``social organizations,'' but 
        maintain a ``dual management'' system for religious, 
        political, and legal groups, among others, which 
        compromises such groups' organizational autonomy by 
        requiring the oversight of sponsoring organizations.
        <bullet> Government procurement of services from the 
        non-
        governmental sector in China is still in its early 
        phase and the regulatory framework is not fully 
        developed.
        <bullet> Beijing and Shenzhen municipalities issued 
        draft or interim charity regulations during this 
        reporting year, but the timing for national charity 
        legislation remains unclear. Two areas of contention in 
        the development of the regulatory framework for 
        philanthropy concern the types of charitable 
        organizations allowed to publicly fundraise and to what 
        extent the government will control charitable giving.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Call for the release of Xu Zhiyong as well as 
        other civil society and rights advocates sentenced to 
        prison terms for politically motivated reasons. Call on 
        the Chinese government to cease harassment of civil 
        society advocates and organizations who work on rights 
        protection and public advocacy, or who seek to exercise 
        their right to public participation. Strongly urge the 
        Chinese government to establish an independent 
        investigation panel that includes Chinese human rights 
        lawyers to examine Cao Shunli's treatment in detention 
        in the months prior to her death in March 2014.
        <all> Urge China to comply with international human 
        rights conventions regarding the role and participation 
        of civil society organizations in country reporting, 
        policy development, and monitoring the implementation 
        of its human rights obligations.
        <all> Encourage the Chinese government to revise its 
        regulatory framework for ``social organizations'' in 
        China to allow all non-governmental organizations 
        (NGOs) to benefit from planned reforms in accordance 
        with the rights to freedom of association and assembly 
        guaranteed in Articles 21 and 22 of the International 
        Covenant on Civil and Political Rights.
        <all> Increase support to U.S. non-governmental 
        organizations in China to develop projects that build 
        the capacity of independent grassroots NGOs to advocate 
        for equal legal and operating rights for all 
        organizations, including for registration and open and 
        transparent competition for government procurement 
        projects.

                 Institutions of Democratic Governance

                                Findings

        <bullet> China's political institutions do not comply 
        with Article 25 of the International Covenant on Civil 
        and Political Rights (ICCPR) or standards in the 
        Universal Declaration of Human Rights (UDHR). During 
        the October 2013 UN Human Rights Council's Universal 
        Periodic Review of the Chinese government's human 
        rights record, China rejected numerous recommendations 
        to ``ratify'' or ``establish a clear timeframe'' to 
        ratify the ICCPR. China did, however, accept 
        recommendations to ``[t]ake steps toward the 
        ratification of ICCPR.''
        <bullet> While central Chinese leaders expressed a 
        commitment to reining in excessive government power, 
        they gave no indication that they would undertake 
        political reforms to bring China into compliance with 
        the ICCPR or the UDHR. Central leaders in the Chinese 
        Communist Party issued a major policy document in 
        November 2013 that used only general language about 
        improving China's existing ``socialist democratic 
        political system'' and ``strengthening the system for 
        restraining and supervising the use of power.'' The 
        document emphasized the continuing dominance of the 
        Party and the goal of ``strengthening and improving the 
        Party's leadership over overall reform.''
        <bullet> The Party continued to dominate political 
        affairs, penetrating every level of society. To 
        facilitate recentralization of Party authority, top 
        leaders created new leadership organizations, headed by 
        Party General Secretary and President Xi Jinping. 
        Central Party officials sought to increase intraparty 
        discipline and exert ideological control through a 
        ``mass line'' campaign, which involved political 
        indoctrination and self-
        criticism sessions for officials, and a society-wide 
        campaign to promote the cultivation and practice of 
        several ``core socialist values.''
        <bullet> Authorities continued to harass, detain, and 
        impose prison sentences on individuals who exercised 
        their rights to freedom of speech, assembly, 
        association, and demonstration, including over 100 
        people in the two months prior to the 25th anniversary 
        of the 1989 Tiananmen protests and their violent 
        suppression by authorities. Among those affected were 
        Pu Zhiqiang, Xu Guang, Chang Boyang, and Zhao Huaxu, as 
        well as democracy advocates and rights defenders such 
        as Liu Benqi, Qin Yongmin, and Sun Feng. Others 
        remained in prison, including Zhu Yufu (7 years), Cao 
        Haibo (8 years), Chen Xi (10 years), and Liu Xianbin 
        (10 years). The death of human rights defender Cao 
        Shunli, who urged Chinese leaders to allow independent 
        public participation in drafting China's national 
        reports to the United Nations, prompted concern that 
        her death was linked to Chinese authorities' denial of 
        timely and proper medical care while in detention.
        <bullet> People's congress and village committee 
        elections continued to be plagued by government 
        interference, corruption, and procedural 
        irregularities, as exemplified by the spring 2014 
        elections in Wukan village, Guangdong province. While 
        the 2012 elections in Wukan had been held up as a model 
        of democracy, the 2014 elections were marred by 
        detentions of candidates and other problems, 
        illustrating a decline in democratic governance.
        <bullet> Authorities imprisoned anticorruption and 
        transparency advocates, some of whom identified 
        themselves as associated with the New Citizens' 
        Movement, including Yuan Dong (one year and six 
        months), Zhang Baocheng (two years), Ding Jiaxi (three 
        years and six months), Zhao Changqing (two years and 
        six months), Li Wei (two years), Liu Ping (six years 
        and six months), Wei Zhongping (six years and six 
        months), and Li Sihua (three years). Authorities also 
        continued to hold in detention several others awaiting 
        trial, including Huang Wenxun, Yuan Xiaohua, Yuan 
        Fengchu, Yang Maodong, and Liu Jiacai.
        <bullet> Amid increasing public concern over 
        corruption, authorities stepped up detentions and 
        investigations of officials suspected of corruption, 
        including Zhou Yongkang, former secretary of the 
        Communist Party Central Committee Political and Legal 
        Affairs Commission. Despite official reports that the 
        anticorruption campaign has yielded results, there 
        reportedly also have been allegations of torture of 
        several lower level officials detained on suspicion of 
        corruption. Some observers assert that central Party 
        authorities, including Party Secretary General Xi 
        Jinping, are using the anticorruption drive to 
        recentralize authority, purge political rivals, and 
        place their own people into positions of power.
        <bullet> Some Chinese officials and government agencies 
        have sought to be more accessible to the public, but 
        transparency is still lacking. The Ministry of Finance 
        directed all organizations that receive government 
        allocations to publicly disclose their budgets. Central 
        government authorities urged officials to improve 
        transparency in a number of specific sectors, while 
        safeguarding secrets. Open government information 
        requests by Chinese citizens reportedly are increasing 
        but numerous problems with accessing information 
        remain.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Support U.S. academic and intelligence research 
        programs to shed light on the structure, functions, and 
        development of the Chinese Communist Party, including 
        its ideological campaigns, and the Party's roles within 
        companies, government agencies, and legislative, 
        judicial, and non-governmental institutions. Urge 
        Chinese officials to further increase the transparency 
        of Party affairs.
        <all> Call on the Chinese government to release people 
        detained or imprisoned for exercising their right to 
        freedom of speech, association, and assembly; for 
        engaging in peaceful demonstrations; for calling for 
        transparency of officials' personal finances; or for 
        calling for political reforms within China. These may 
        include those who sought to commemorate the 25th 
        anniversary of the 1989 Tiananmen protests, have 
        associated themselves with the New Citizens' Movement, 
        or other prisoners of conscience mentioned in this 
        report and in the Commission's Political Prisoner 
        Database.
        <all> Support joint U.S.-China cooperative programs to 
        develop independent monitoring systems for village 
        committee and local people's congress elections and 
        encourage central and local Party and government 
        leaders to implement free and fair elections across 
        China. Continue to support democracy promotion programs 
        that are adapted to China. Support U.S. academic and 
        other U.S.-China joint programs aimed at expanding 
        public participation in political and policy 
        decisionmaking.
        <all> Support organizations working in China that seek 
        to improve government transparency, especially efforts 
        to expand and improve China's government information 
        disclosure initiatives. Such projects might include 
        joint efforts to better publicize the Open Government 
        Information (OGI) Regulations at local levels and to 
        train citizens and groups on how to submit OGI 
        requests. Encourage Party and government officials to 
        ensure regulations, rules, and policies are made 
        public.

                         Commercial Rule of Law

                                Findings

        <bullet> China acceded to the World Trade Organization 
        (WTO) on December 11, 2001. The Chinese government, 
        however, continues to practice state capitalism. The 
        interventionist policies of the Chinese government, 
        including subsidies and preferential treatment for 
        state-owned enterprises (SOEs), are not compatible with 
        China's WTO commitments. In the first half of 2014, two 
        significant WTO dispute panel decisions were issued 
        addressing a rare earths dispute, where China's export 
        quotas were found to be inconsistent with WTO rules, 
        and an automobile subsidies dispute, where China's 
        duties on American automobiles were found to be in 
        breach of China's WTO obligations. During the reporting 
        year, the Chinese Communist Party Third Plenum Decision 
        emphasized a decisive role for the market in allocating 
        resources, but acknowledged that SOEs would continue to 
        play a primary role in China's economy.
        <bullet> China remained noncompliant with its WTO 
        commitments with regard to disclosing subsidies and 
        providing regulatory transparency on draft laws and 
        regulations. Corporate reporting at Chinese companies 
        is also limited, and the Chinese government tightly 
        controls media reporting on the wealth of government 
        officials and their families. During the 2014 reporting 
        year, American regulators, private companies, and 
        investors had difficulty obtaining information on 
        Chinese companies, including the U.S. Securities and 
        Exchange Commission in its fraud investigations of 
        China-based companies. Many American technology and 
        media companies remained blocked in China, including 
        Facebook, Twitter, YouTube, Dropbox, the New York 
        Times, and Bloomberg News.
        <bullet> Reports of the significant theft of U.S. 
        intellectual property originating from China continued 
        throughout the 2014 reporting year. The U.S. Department 
        of Justice (DOJ) brought an indictment against five 
        Chinese military hackers for allegedly hacking 
        Westinghouse Electric; U.S. subsidiaries of SolarWorld; 
        United States Steel; Allegheny Technologies; United 
        Steel, Paper and Forestry, Rubber, Manufacturing, 
        Energy Allied Industrial and Service Workers 
        International Union (United Steelworkers); and Alcoa. 
        Several of these companies and United Steelworkers had 
        challenged China's trade policies, raising concerns 
        that the alleged hacking may have been done in 
        retaliation. The Chinese government took steps to 
        improve protection for intellectual property rights 
        (IPR) this past year, including higher statutory 
        compensation in the amended PRC Trademark Law and 
        beginning draft revisions to the PRC Anti-Unfair 
        Competition Law. American companies, however, had 
        difficulties in effectively protecting IPR in China. 
        During the reporting year, the DOJ began criminal 
        prosecutions in two significant cases involving the 
        theft of agricultural trade secrets by Chinese 
        nationals.
        <bullet> Chinese outbound investment continued to 
        increase significantly, and annual Chinese foreign 
        direct investment (FDI) into the United States now 
        exceeds U.S. FDI into China. During the 2014 reporting 
        year, major investments by Chinese companies in the 
        United States were in agriculture, IT, health care, and 
        real estate. In the first half of 2014, the Committee 
        on Foreign Investment in the United States (CFIUS) 
        reviewed potential security concerns regarding the 
        planned acquisitions by Lenovo Group of an 
        International Business Machines (IBM) server unit due 
        to the use of the IBM servers by U.S. Government 
        intelligence and defense agencies.
        <bullet> Chinese authorities increased the number of 
        antimonopoly reviews, including reviews of potential 
        abuses of dominant market positions. In June 2014, the 
        Ministry of Commerce blocked a network of A.P. Moller-
        Maersk, CMA CGM, and MSC Mediterranean Shipping Company 
        due to Antimonopoly Law concerns. The proposed network 
        had been approved by the U.S. Federal Maritime 
        Commission and the European Commission. This was the 
        first time since 2009, when Coca-Cola's acquisition of 
        the Chinese beverage company Huiyuan was blocked, that 
        a deal was blocked outright. During the reporting year, 
        Chinese authorities conducted investigations in many 
        sectors, and American companies targeted included 
        Qualcomm and Microsoft. In September 2014, the US-China 
        Business Council reported that 86 percent of firms that 
        responded to its survey had some concern with China's 
        antimonopoly enforcement activities. Companies' 
        concerns included selective and subjective enforcement, 
        lack of regulatory transparency, and use of 
        administrative intimidation tactics. According to a 
        September 2014 U.S. Chamber of Commerce report, China's 
        enforcement activities may be a violation of its WTO 
        commitments.
        <bullet> Intervention by the Chinese government 
        continued to contribute to significant undervaluation 
        of the Chinese yuan. The yuan reportedly reversed a 
        trend of appreciation this past year, depreciating by 
        1.5 percent in February 2014, for the largest two-week 
        decline since 2005, and depreciating 2.68 percent for 
        the year to April 2014.
        <bullet> Serious food safety problems continued in 
        China and were also a concern for U.S. companies 
        operating in China and American consumers. In June 
        2014, the National People's Congress released a revised 
        draft of the PRC Food Safety Law for public comment 
        that strengthens preventative regulations, improves 
        supervision, and provides for stronger penalties. In 
        July 2014, the U.S. Food and Drug Administration had 
        more active import alerts for China than any other 
        country. The U.S. Government plans to increase the 
        number of inspection staff in China, however, there has 
        been difficulty in obtaining visas for them.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Ensure that China makes concrete improvements in 
        ending currency controls, subsidies for state-owned 
        enterprises, and other policies outlined in this report 
        that violate China's existing international trading 
        obligations, as a condition for progress in any U.S. 
        trade-related negotiations with China, and ensure 
        transparency and full public participation by all 
        segments of American society in such negotiations.
        <all> Direct the U.S. Trade Representative (USTR) to 
        create a public database of all of China's commitments 
        in its WTO accession agreements. USTR annual reporting 
        on China's WTO compliance should identify any 
        compliance concerns, together with the individual 
        commitments potentially implicated, and whether or not 
        USTR took action. USTR should also create a public 
        database of all of China's commitments made pursuant to 
        the U.S.-China Joint Commission on Commerce and Trade 
        (JCCT) and the U.S.-China Strategic and Economic 
        Dialogue (S&ED) and its predecessor. USTR, with the 
        assistance of the Department of Commerce and the 
        Department of the Treasury, should use both databases 
        to more comprehensively report on China's 
        implementation of its commitments.
        <all> Develop and support a project surveying Internet 
        restrictions in China and their impact on U.S. 
        businesses. The U.S. Trade Representative should 
        consider reporting on Internet censorship in its annual 
        reports on China's WTO compliance and reports on 
        Foreign Trade Barriers. An additional formal request 
        through the WTO should be made for detailed information 
        on China's Internet restrictions, and a WTO dispute 
        should be considered, if warranted. In meeting with 
        Chinese government officials, urge the Chinese 
        government to stop blocking access to U.S. media and 
        technology companies in China, including the New York 
        Times, Bloomberg News, Google, Facebook, and Dropbox.
        <all> Work with the Chinese government to stop cyber 
        theft originating in China. Efforts should also be made 
        to strengthen the protection of trade secrets in China, 
        including the revision of China's trade secret laws. 
        The U.S. Government should provide additional support 
        to American companies litigating significant 
        intellectual property cases in China, including raising 
        the litigation in discussions with Chinese leaders and 
        at the S&ED and the JCCT. One matter in which the U.S. 
        Government may consider is providing additional support 
        to AMSC's (formerly American Superconductor) ongoing 
        commercial litigation against Sinovel Wind Group 
        Company, which involves over US$1 billion in damages. 
        The U.S. Department of Justice should consider 
        reporting on an annual basis intellectual property 
        cases involving Chinese companies and Chinese 
        nationals.
        <all> Urge the Chinese government to improve 
        transparency on corporate information and stop abusing 
        the state secrets law. The U.S. Securities and Exchange 
        Commission should make obtaining full access to 
        corporate documents for Chinese companies listed on 
        U.S. stock exchanges a key focus of the bilateral 
        dialogue with the China Securities Regulatory 
        Commission. The Chinese government should be encouraged 
        to enhance transparency, provide a clear and narrowly-
        tailored definition of state secrets that complies with 
        international law, and clearly define permissible due 
        diligence activities.
        <all> Discuss with Chinese officials and take further 
        action in the WTO to ensure that China fully implements 
        adverse WTO dispute decisions, eliminates subsidies for 
        Chinese state-owned enterprises, and fulfills its 
        transparency obligations under the WTO Subsidies 
        Agreement. Up-to-date and complete notification by 
        China of Chinese national and provincial subsidies that 
        benefit state-owned enterprises and discriminate 
        against American investment should be obtained.
        <all> Ensure that U.S. Government food and drug safety 
        inspection officials are able to obtain visas and 
        conduct unannounced inspections of Chinese facilities 
        that are exporting to the United States. Strengthen 
        capacity-building programs for Chinese food and drug 
        regulators based on U.S. best practices. Support NGOs 
        working on food safety in China, and encourage Chinese 
        government efforts to improve food safety transparency 
        and oversight.

                           Access to Justice

                                Findings

        <bullet> In June 2014, the Chinese government announced 
        that six provinces and municipalities would serve as 
        pilot sites for certain judicial reforms in an effort 
        to limit interference by local governments in the work 
        of the courts. The reforms include divesting local 
        governments of their control over local court funding 
        and appointments, and centralizing such power at the 
        provincial level. The limits of judicial reform were 
        made clear, however, when, shortly after the 
        announcement, the state-run Global Times stated in an 
        editorial that the goal of improving ``judicial 
        justice'' in the new reforms did not mean that China 
        was moving toward ``judicial independence'' (sifa duli) 
        or ``separation of powers.''
        <bullet> The Supreme People's Court (SPC) took steps to 
        increase judicial transparency and accountability in 
        line with the November 2013 Chinese Communist Party 
        Third Plenum Decision. The SPC issued measures 
        requiring all courts in China to publish their 
        effective written judgments (with some exceptions, such 
        as cases involving state secrets and individual 
        privacy) on the publicly accessible Web site Judicial 
        Opinions of China, effective January 1, 2014. Increased 
        judicial openness was one of eight main areas of focus 
        in the SPC's fourth five-year reform plan released in 
        July 2014.
        <bullet> The Party and central government issued a 
        number of documents instituting reforms to the 
        petitioning (xinfang) system--one of the areas of 
        reform outlined in the Third Plenum Decision. Xinfang, 
        also referred to as the ``letters and visits'' system, 
        is a popular mechanism outside of the formal legal 
        system for citizens to present their grievances to 
        authorities, either in writing or in person. The goals 
        of the petitioning system reforms include, among 
        others, reducing the number of in-person petitions by 
        promoting online and written petitions, and ensuring 
        that all law- and litigation-related petitions are 
        handled by courts and resolved through legal channels. 
        The measures prohibit officials from unlawfully 
        detaining petitioners and accepting complaints from 
        petitioners who have skipped levels in an attempt to 
        reach higher level authorities.
        <bullet> In late December 2013, the first-ever draft 
        amendment to the Administrative Litigation Law (ALL) 
        was submitted to the National People's Congress 
        Standing Committee for review. The proposed revisions 
        address the main problems with the ALL, which are 
        widely referred to as ``the three difficulties'': 
        difficulties filing administrative litigation cases, 
        trying ALL cases, and enforcing ALL judgments. Whether 
        the ALL amendments will lead more petitioners to file 
        lawsuits rather than use the petitioning system--a 
        desired outcome of the revisions--remains to be seen.
        <bullet> Authorities intensified the degree of 
        harassment and abuse of human rights lawyers and 
        defenders this year, particularly in the run-up to the 
        25th anniversary of the violent suppression of the 1989 
        Tiananmen protests. Incidents against human rights 
        lawyers included official violence against lawyers 
        advocating for detained Christian Pastor Zhang Shaojie 
        in Henan province, and the detention and torture of 
        four rights lawyers, Tang Jitian, Jiang Tianyong, Wang 
        Cheng, and Zhang Junjie, in Heilongjiang province. In 
        May and June 2014, officials criminally detained a 
        number of well-known rights lawyers for political 
        reasons, including Beijing-based Pu Zhiqiang, Henan-
        based Chang Boyang and Ji Laisong, and three Guangzhou-
        based human rights lawyers: Tang Jingling, Wang 
        Qingying, and Yuan Xinting.
        <bullet> Rights lawyer Gao Zhisheng was released from 
        prison in early August 2014. Reports emerged soon after 
        that authorities had maltreated him during his more 
        than two and a half years in Shaya Prison in the 
        Xinjiang Uyghur Autonomous Region. As a result of the 
        abuses he suffered, Gao lost 50 pounds, has serious 
        dental problems, and has difficulty speaking 
        coherently.
        <bullet> Despite increased repression, Chinese human 
        rights lawyers took new steps to protect their own 
        rights, for example, by forming the China Human Rights 
        Lawyers Group, which provides legal services and advice 
        to citizens detained for exercising their civil rights. 
        Moreover, in June 2014, more than 40 rights lawyers 
        signed a pledge to voluntarily assist other lawyers and 
        their families if they are targeted by authorities.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Call for the release of detained rights lawyers, 
        including Pu Zhiqiang, Chang Boyang, Tang Jingling, 
        Yuan Xinting, and other rights lawyers whose personal 
        liberty has been unlawfully restricted.
        <all> Call upon the Chinese government to permit rights 
        lawyer Gao Zhisheng to travel to the U.S. for medical 
        treatment and to be reunited with his wife and two 
        children, who now live in the U.S. While Gao is still 
        in China, the Chinese government should ensure his 
        freedom of movement domestically.
        <all> Urge the Chinese government to protect the 
        fundamental civil and professional rights of China's 
        human rights lawyers, and to investigate all 
        allegations of abuse and ensure that those responsible 
        are brought to justice.
        <all> Support programs implemented by U.S. non-
        governmental organizations and other entities that 
        partner with China's human rights lawyers and non-
        profit legal organizations to enhance access to justice 
        and lawyers' rights to represent defendants free of 
        government interference. Expand support to bring 
        Chinese human rights lawyers, advocates, and scholars 
        to the United States for study and capacity building 
        through such programs as the U.S. Department of State's 
        International Visitors Leadership Program.
        <all> Increase support to U.S. law schools and other 
        organizations for programs with Chinese counterparts to 
        advance the judicial and administrative law reforms 
        currently underway in China.
        <all> Consider including regulation of the legal 
        profession and lawyers' codes of conduct in the agenda 
        for future bilateral Legal Experts' Dialogues.

                                Xinjiang

                                Findings

        <bullet> Deadly clashes that took place during the 
        Commission's 2014 reporting year in the Xinjiang Uyghur 
        Autonomous Region (XUAR), or involved Uyghurs outside 
        of the XUAR, led to more than 300 fatalities.
        <bullet> President Xi Jinping and top officials 
        emphasized anti-
        terrorism security measures while also cracking down on 
        peaceful religious activity and failing to address 
        concerns that anti-terrorism measures should also 
        protect civil rights.
        <bullet> Overseas rights advocates and analysts voiced 
        concern that authorities' overly broad security 
        measures and crackdowns, restrictions on peaceful 
        religious activity, and constraints on expressions of 
        Uyghur cultural identity have heightened tensions in 
        the XUAR, and that Chinese officials failed to 
        distinguish between violence or terrorism and peaceful 
        dissent. Officials and state media acknowledged that 
        economic and social inequality have exacerbated 
        regional instability but have emphasized economic 
        development projects without addressing Uyghurs' 
        concerns over threats to their language, culture, and 
        religion.
        <bullet> Overseas rights advocates and analysts also 
        raised concerns that authorities had used excessive 
        force against Uyghur protesters, including during the 
        deadliest violence in the XUAR in five years, which 
        took place in Kashgar prefecture on July 28, 2014. 
        Officials characterized the violence as a terrorist 
        attack that left nearly 100 people dead, but rights 
        advocates disputed the official portrayal of the 
        violence.
        <bullet> Domestic and international observers raised 
        concerns about the Chinese government's lack of 
        transparency regarding the violent events that took 
        place in the XUAR, including restrictions on 
        journalists and social media discussion.
        <bullet> The space for online Uyghur expression 
        remained limited. A report released by a Uyghur human 
        rights organization in June 2014 documented a marked 
        increase in the degree of government- and self-
        censorship of Uyghur online expression in the years 
        since the July 2009 demonstrations and riots in the 
        regional capital of Urumqi, when authorities shut down 
        a number of popular Uyghur-run Web sites and detained 
        more than 100 Uyghur Web site administrators. According 
        to research cited by the report, moderators on at least 
        one Chinese social media site censored a much higher 
        proportion of postings by users in the XUAR than 
        postings by users in Beijing municipality.
        <bullet> Research this past year showed an increase in 
        Uyghurs being prosecuted for ``endangering state 
        security,'' a category of crimes that officials have 
        broadly interpreted at times to include peaceful 
        activism, free expression of ethnic identity, and 
        independent religious activity. Among those prosecuted 
        for this category of crimes include the Uyghur 
        university professor Ilham Tohti, a reportedly peaceful 
        critic of government policy in the XUAR who also sought 
        to build a dialogue between Uyghurs and the majority 
        Han Chinese population. In February 2014, he was 
        arrested along with four young Uyghurs, Mutellip Imin, 
        Perhat Halmurat, Shohret Tursun, and Abduqeyum Ablimit, 
        who had contributed to the Web site Tohti founded, 
        Uyghur Online. In September 2014, Tohti was convicted 
        of ``separatism'' and sentenced to life in prison.
        <bullet> Tohti told his lawyers in June 2014 that 
        detention center authorities had subjected him to 
        abuse, including denying him food for 10 days and 
        shackling him for nearly three weeks. One of Tohti's 
        lawyers, Li Fangping, reported that prosecutors had 
        failed to provide complete evidence for Tohti's defense 
        team to review. The law firm of another lawyer, Wang 
        Yu, withdrew her from the case after receiving pressure 
        from Beijing officials.
        <bullet> Tohti's wife Guzelnur told Radio Free Asia in 
        May 2014 that security personnel had placed her and the 
        couple's two sons under ``heavy surveillance'' at their 
        Beijing home since Tohti's detention in January 2014, 
        although they had recently reduced this surveillance. 
        Guzelnur also said the couple's oldest son was 
        suffering from heart problems due to the psychological 
        stress of his father's detention.
        <bullet> Authorities reportedly detained Abduweli Ayup, 
        Dilyar Obul, and Muhemmet Sidik in August 2013 after 
        they opened a Uyghur-language kindergarten in Kashgar 
        city and attempted to open a Uyghur-language school in 
        Urumqi. The Tianshan District People's Court in Urumqi 
        city reportedly tried Ayup, Obul, and Sidik on July 11, 
        2014, and sentenced them on August 21 to prison terms 
        ranging from one year and six months to two years and 
        three months on charges of ``illegal fundraising.''
        <bullet> During this reporting year, regional 
        authorities monitored, controlled, and punished Uyghurs 
        for peaceful Islamic practices. Civil servants in some 
        localities were required to sign pledges certifying 
        that family members would not engage in ``illegal 
        religious activities,'' with penalties including 
        restrictions on access to higher education for their 
        children.
        <bullet> Regional officials reiterated strategies for 
        economic and political development that prioritize 
        state economic and political goals over respecting the 
        rights of XUAR residents, including those outlined in 
        the PRC Regional Ethnic Autonomy Law.
        <bullet> As in past reporting years, the Commission 
        continued to observe job announcements that reserved 
        positions exclusively for Han Chinese, including civil 
        servant and private-sector jobs, in contravention of 
        Chinese labor and anti-discrimination laws. Private and 
        public employers also continued to reserve more 
        positions for men, leaving non-Han women to face both 
        ethnic and gender discrimination in the employment 
        process.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Support efforts to raise greater public awareness 
        of human rights conditions in the XUAR, as well as 
        initiatives to protect Uyghur culture, and increase 
        avenues for Uyghurs to protect their human rights, and 
        undertake more frequent human rights-focused visits to 
        the XUAR.
        <all> Call on the Chinese government to increase 
        transparency when reporting instances of violence and 
        terrorism or the criminal prosecution of defendants in 
        cases involving violence, separatism, and terrorism, 
        including by providing data on the exact number of 
        ``endangering state security'' trials concluded every 
        year, as it did between 2008 and 2012.
        <all> Call on the Chinese government to allow domestic 
        and international journalists and observers greater 
        freedom to independently verify official media accounts 
        of violent and terrorist incidents.
        <all> Call for the release of Ilham Tohti, Mutellip 
        Imin, Perhat Halmurat, Shohret Tursun, Abduqeyum 
        Ablimit, and other Uyghurs who were detained or 
        imprisoned for exercising their right to freedom of 
        expression.
        <all> Object to the detention, arrest, and conviction 
        of Uyghur educators and language rights advocates like 
        Abduweli Ayup, Dilyar Obul, and Muhemmet Sidik.
        <all> Call on the Chinese government to consult with 
        non-Han Chinese parents, teachers, and students 
        regarding what language or languages of instruction 
        should be used in XUAR schools, from the preschool to 
        the university level. Call on Chinese officials to 
        provide parents and students a choice of instruction in 
        the Uyghur language and other non-Chinese languages 
        prevalent in the XUAR, as mandated in Article 4 of the 
        Chinese Constitution and Article 10 of the PRC Regional 
        Ethnic Autonomy Law. Urge Chinese officials to support 
        the development of educational materials in the Uyghur 
        language and in other non-Chinese languages.
        <all> Call on the Chinese government to adhere to 
        domestic laws and regulations guaranteeing freedom of 
        religious belief, as well as international regulations 
        guaranteeing religious practice free from state 
        restrictions.
        <all> Encourage U.S. companies conducting business or 
        investing in development initiatives in the XUAR to 
        promote equal opportunity employment for ethnic 
        minorities and to support development projects that 
        incorporate consultation with ethnic minorities 
        regarding the economic, political, and social impact of 
        such projects. Encourage U.S. companies investing in 
        XUAR business opportunities to actively recruit ethnic 
        minority candidates for employment positions and 
        implement mechanisms to eliminate hiring and workplace 
        discrimination, and urge Chinese counterparts to 
        provide equal opportunity employment to ethnic 
        minorities.

                                 Tibet

                                Findings

        <bullet> Formal dialogue between the Dalai Lama's 
        representatives and Chinese Communist Party and 
        government officials has been stalled since the January 
        2010 ninth round, the longest interval since such 
        contacts resumed in 2002. The Commission observed no 
        indication during the 2014 reporting year of official 
        Chinese interest in resuming a dialogue that takes into 
        account Tibetan concerns regarding the Tibetan 
        autonomous areas of China.
        <bullet> The frequency of Tibetan self-immolation 
        reportedly focusing on political and religious issues 
        declined steeply during the Commission's 2014 reporting 
        year, and followed an increase in Party and government 
        security and punitive measures. The Commission has not 
        observed any sign that Party and government leaders 
        intend to respond to Tibetan grievances in a 
        constructive manner or accept any accountability for 
        Tibetan rejection of Chinese policies. One Sichuan 
        province county issued provisions in April 2013 
        (unreported until February 2014) imposing collective 
        punishment intended to deter Tibetans from self-
        immolating.
        <bullet> Pressure on Tibetan Buddhists to accept 
        Communist Party and government control of the religion 
        remained high. Party leadership continued to 
        characterize the Dalai Lama as a threat to Tibetan 
        Buddhism's ``normal order'' instead of as a principal 
        teacher, and urged that he be ``separated'' from the 
        religion and the title ``Dalai Lama.'' State-run media 
        reported that a deployment of Party cadres to every 
        Tibet Autonomous Region (TAR) village, monastery, and 
        nunnery, completed in March 2012, involved 60,000 
        cadres--nearly triple the 21,000 initially reported. 
        Officials detained, imprisoned, or beat to death a 
        number of monastic leaders, interfered with identifying 
        a reincarnation, and imposed a ban on travel for 
        religious purposes to Mount Kailash.
        <bullet> The Commission observed no indication this 
        past year that Party and government leaders intend to 
        develop a ``harmonious society'' inclusive of Tibetan 
        preferences toward their culture and language. The 
        government asserted that learning and using Tibetan 
        language is ``protected by law'' but officials closed 
        non-government-run programs and detained Tibetans who 
        promoted use of the language. The Party accepted no 
        accountability for Tibetan grievances contributing to 
        protests and blamed them on external factors, 
        especially the Dalai Lama. In September-November 2013, 
        a prominent example of crackdown developed in one 
        Tibetan county: as of September 1, 2014, the 
        Commission's Political Prisoner Database contained 
        records of 58 detentions related to the crackdown 
        including 15 resulting in prison sentences of up to 18 
        years.
        <bullet> The Party and government continued to 
        prioritize economic development as a prerequisite for 
        ``social stability.'' Authorities reportedly detained 
        or imprisoned Tibetans who protested against mining 
        activity, seizure or forced sale of land related to 
        mining, or development projects that allegedly damaged 
        the environment. The westward railway segment from 
        Lhasa city to Rikaze (Shigatse) city reportedly was 
        ``put into use'' in August 2014 and provided the first 
        extension since the Xining-Lhasa segment of the 
        Qinghai-Tibet railway opened in 2006. After 2009, TAR 
        yearbooks ceased to report county-level population 
        data, hindering demographic analysis.
        <bullet> As of September 1, 2014, the Commission's 
        Political Prisoner Database contained records of 639 
        Tibetan political prisoners believed or presumed 
        currently detained or imprisoned. Of those, 621 are 
        records of Tibetans detained on or after March 10, 
        2008; 44 percent of them are Tibetan Buddhist monks, 
        nuns, teachers, or trulkus. This past year, officials 
        detained, imprisoned, or beat to death monastic leaders 
        including Abbot Gyurme Tsultrim, Abbot Karma Tsewang, 
        chant master Thardoe Gyaltsen, Geshe Ngawang Jamyang, 
        and Abbot Khedrub. Officials detained or imprisoned 
        cultural advocates, including writer Tsultrim Gyaltsen, 
        singer Gebe, and environmental activists Choekyab and 
        Tselha. Officials released filmmaker Dondrub Wangchen 
        upon completion of his sentence in June 2014; as of 
        September 1, authorities had not permitted him to 
        travel to the United States for reunification with his 
        family.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Urge the Chinese government to resume contact 
        with the Dalai Lama or his representatives and engage 
        in dialogue without preconditions. Such a dialogue 
        should aim to protect the Tibetan culture, language, 
        religion, and heritage within the Tibet Autonomous 
        Region (TAR) and the Tibetan autonomous prefectures and 
        counties in Qinghai, Gansu, Sichuan, and Yunnan 
        provinces. A Chinese government decision to engage in 
        dialogue can result in a durable and mutually 
        beneficial outcome for the government and Tibetans that 
        will benefit local and regional security in coming 
        decades.
        <all> Urge the Chinese government to recognize the role 
        of government regulatory measures and Party policies in 
        the wave of Tibetan self-immolations and other 
        protests. Stress to Chinese officials that 
        strengthening the measures and policies that Tibetans 
        resent is unlikely to promote ``social stability'' or a 
        ``harmonious society.'' Urge the government to refrain 
        from using security and judicial institutions to 
        intimidate Tibetan communities by prosecuting and 
        imprisoning Tibetans with alleged links to a self-
        immolator or for sharing self-immolation information.
        <all> Urge the Chinese government to refrain from using 
        intrusive management and legal measures to infringe 
        upon and repress Tibetan Buddhists' right to the 
        freedom of religion. Urge the government to cease 
        treating the Dalai Lama as a security threat instead of 
        as Tibetan Buddhism's principal teacher. Urge the 
        government to respect the right of Tibetan Buddhists to 
        identify and educate religious teachers in a manner 
        consistent with Tibetan Buddhist preferences and 
        traditions. Stress to Chinese officials that increasing 
        pressure on Tibetan Buddhists by aggressive use of 
        regulatory measures, ``patriotic'' and ``legal'' 
        education, and anti-Dalai Lama campaigns is likely to 
        harm social stability, not protect it.
        <all> Request that the Chinese government follow up on 
        a 2010 statement by the Chairman of the TAR government 
        that Gedun Choekyi Nyima, the Panchen Lama whom the 
        Dalai Lama recognized in 1995, is living in the TAR as 
        an ``ordinary citizen'' along with his family. Urge the 
        government to invite a representative of an 
        international organization to meet with Gedun Choekyi 
        Nyima so that he can express to the representative his 
        wishes with respect to privacy.
        <all> Stress to the Chinese government the importance 
        of respecting and protecting the Tibetan culture and 
        language. Urge Chinese officials to promote a vibrant 
        Tibetan culture by honoring the Chinese Constitution's 
        reference to the freedoms of speech, association, 
        assembly, and religion, and refraining from using the 
        security establishment, courts, and law to infringe 
        upon and repress Tibetans' exercise of such rights. 
        Stress the importance of respecting Tibetan wishes to 
        maintain the role of both the Tibetan and Chinese 
        languages in teaching modern subjects, and to refrain 
        from criminalizing Tibetans' passion for their language 
        and culture.
        <all> Encourage the Chinese government to take fully 
        into account the views and preferences of Tibetans when 
        the government plans infrastructure, natural resource 
        development, and settlement or resettlement projects in 
        the Tibetan areas of China. Encourage the government to 
        engage with appropriate experts in assessing the impact 
        of such projects and in advising the government on the 
        implementation and progress of such projects. Encourage 
        the government to report accurately and comprehensively 
        data on population in Tibetan areas of China.
        <all> Continue to stress to the Chinese government the 
        importance of distinguishing between peaceful Tibetan 
        protesters and rioters; condemn the use of security 
        campaigns to suppress human rights; and request the 
        government to provide complete details about Tibetans 
        detained, charged, or sentenced for protest-related and 
        self-immolation-related ``crimes.'' Continue to raise 
        in meetings and correspondence with Chinese officials 
        the cases of Tibetans who remain imprisoned as 
        punishment for the peaceful exercise of human rights.
        <all> Encourage the Chinese government to respect the 
        right to freedom of movement of Tibetans who travel 
        domestically, including for the purpose of visiting 
        Tibetan economic, cultural, and religious centers, 
        including Lhasa; to provide Tibetans with reasonable 
        means to apply for and receive documents necessary for 
        lawful international travel; to respect the right of 
        Tibetan citizens of China to reenter China after 
        traveling abroad; and to allow access to the Tibetan 
        autonomous areas of China to international journalists, 
        representatives of non-governmental organizations, 
        representatives of the United Nations, and U.S. 
        Government officials.

                  Developments in Hong Kong and Macau

                                Findings

        <bullet> The Basic Laws of Hong Kong and Macau confirm 
        the applicability of the International Covenant on 
        Civil and Political Rights (ICCPR) to both territories. 
        The Basic Law of Hong Kong provides specifically for 
        universal suffrage, while Macau's does not.
        <bullet> On August 31, 2014, the National People's 
        Congress Standing Committee (NPCSC) issued a decision 
        on Hong Kong's electoral reform that restricted the 
        ability of candidates to freely run for Chief Executive 
        (CE). Pro-democracy advocates criticized the decision 
        for failing to ensure ``genuine'' democracy, and the 27 
        pro-democracy Legislative Council (LegCo) members 
        pledged to veto electoral reform proposals that follow 
        the decision's framework. The decision followed a five-
        month Hong Kong government consultation on electoral 
        reform in advance of the 2017 CE election and a July 
        2014 report by the CE to the NPCSC on Hong Kong public 
        opinion regarding electoral reform. The NPCSC in 2007 
        ruled that Hong Kong may implement universal suffrage 
        at the earliest in the 2017 CE election.
        <bullet> Statements by mainland Chinese and Hong Kong 
        officials raised concerns that the central government 
        will restrict Hong Kong elections. Some officials and 
        legal scholars rejected pro-democracy activists and 
        legislators' proposals to publicly nominate CE 
        candidates, arguing that only the nominating committee 
        named in Article 45 of Hong Kong's Basic Law could 
        nominate candidates. Pro-Beijing legal experts also 
        said that any candidate for CE must ``love the country 
        and love Hong Kong'' to be eligible, and that a CE who 
        ``confronts the central government'' would be 
        unacceptable.
        <bullet> Pro-democracy legislators and activists 
        continued to press for universal suffrage in electing 
        the CE and LegCo. In June 2014, nearly 800,000 people 
        reportedly voted in an online referendum on electoral 
        reform held by pro-democracy groups. On July 1, 
        hundreds of thousands of people marched through 
        downtown Hong Kong to protest the Chinese government's 
        perceived increasing interference in Hong Kong. The 
        Occupy Central movement threatened to hold civil 
        disobedience protests in Hong Kong's financial district 
        as a last resort if the electoral reform plan presented 
        by the Hong Kong government did not adhere to Hong 
        Kong's Basic Law and international standards for free 
        and fair elections.
        <bullet> Hong Kong journalists and media reported 
        threats to press freedom from self-censorship, direct 
        and indirect governmental and economic pressure on 
        reporting, and violent attacks on journalists. 
        According to one international media non-
        governmental organization, press freedom continued to 
        deteriorate in Hong Kong in 2013, with Hong Kong's 
        international ranking dropping to 61 from 58 the year 
        before.
        <bullet> Macau held its first legislative election 
        since a package of electoral reforms was passed in 
        2012. The Macau Legislative Assembly expanded from 29 
        to 33 members, although only 14 (previously 12) members 
        are directly elected. Incumbent Chief Executive 
        Fernando Chui Sai On won re-election unopposed, winning 
        380 of 400 possible votes in Macau's Election 
        Committee. The Commission observed no progress 
        regarding the UN Human Rights Committee's 2013 
        recommendation that Macau ``set timelines for the 
        transition to an electoral system based on universal 
        and equal suffrage.''
        <bullet> Corruption and money laundering from mainland 
        China tied to Macau's gambling industry continued to be 
        sources of concern. Gamblers continued to evade 
        mainland China's currency-export restrictions, both 
        through the use of junkets and the fraudulent use of 
        credit and debit cards.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Renew the reporting requirements of Section 301 
        of the United States-Hong Kong Policy Act of 1992, 
        paying particular attention to the development of 
        democratic institutions in Hong Kong and China's 
        obligations under international treaties and 
        agreements, and ensure developments in Hong Kong are 
        featured in other reports related to China.
        <all> Urge Hong Kong and central government officials 
        to institute universal suffrage in Hong Kong in line 
        with the requirements of the Basic Law and the 
        International Covenant on Civil and Political Rights 
        (ICCPR) for the elections of the Chief Executive in 
        2017 and the Legislative Council in 2020.
        <all> Increase support for Hong Kong's democracy 
        through statements and meetings at the highest levels 
        and visits to Hong Kong. Hong Kong issues should be 
        raised in meetings in Beijing with central government 
        officials given their overriding role in deciding 
        questions of Hong Kong's political development. U.S. 
        Government delegations' meetings in Hong Kong should 
        include meetings with members of the Hong Kong 
        Legislative Council, the Hong Kong government 
        administration, members of the judiciary, and 
        representatives of reporters' organizations. In Macau, 
        U.S. delegations should meet with members of the 
        Legislative Assembly, especially directly elected 
        members, the Macau government administration, and civic 
        leaders outside the government.
        <all> Urge Hong Kong authorities to take steps to 
        ensure the safety of journalists and resolve several 
        outstanding cases of violence and intimidation of 
        journalists and media executives. Urge Hong Kong and 
        central government officials to refrain from pressuring 
        Hong Kong journalists and media organizations regarding 
        news content and reporting.
        <all> Urge Macau government officials in meetings to 
        begin the process of transitioning to an electoral 
        system based on universal suffrage in accordance with 
        Article 25 of the ICCPR, as recommended by the UN Human 
        Rights Committee.

                      Political Prisoner Database

                            Recommendations

    When composing correspondence advocating on behalf of a 
political or religious prisoner, or preparing for official 
travel to China, Members of Congress and Administration 
officials are encouraged to:

        <bullet> Check the Political Prisoner Database (PPD) 
        (http://ppdcecc.gov) for reliable, up-to-date 
        information on a prisoner or groups of prisoners. 
        Consult a prisoner's database record for more detailed 
        information about the prisoner's case, including his or 
        her alleged crime, specific human rights that officials 
        have violated, stage in the legal process, and location 
        of detention or imprisonment, if known.
        <bullet> Advise official and private delegations 
        traveling to China to present Chinese officials with 
        lists of political and religious prisoners compiled 
        from database records.
        <bullet> Urge U.S. state and local officials and 
        private citizens involved in sister-state and sister-
        city relationships with China to explore the database, 
        and to advocate for the release of political and 
        religious prisoners in China.


                    a powerful resource for advocacy


    The Commission's 2014 Annual Report provides information 
about Chinese political and religious prisoners \1\ in the 
context of specific human rights and rule of law abuses. Many 
of the abuses result from the Chinese Communist Party's and 
government's application of policies and laws. The Commission 
relies on the Political Prisoner Database (PPD), a publicly 
available online database maintained by the Commission, for its 
own advocacy and research work, including the preparation of 
the Annual Report, and routinely uses the database to prepare 
summaries of information about political and religious 
prisoners for Members of Congress and Administration officials. 
The Commission invites the public to read about issue-specific 
Chinese political imprisonment in sections of this Annual 
Report, and to access and make use of the upgraded PPD at 
http://ppdcecc.gov. (Information about the PPD is available at 
http://www.cecc.gov/resources/political-prisoner-database.)
    The PPD received approximately 86,100 online requests for 
prisoner information during the 12-month period ending August 
31, 2014--an increase of approximately 2 percent over the 
84,500 requests during the 12-month period ending August 31, 
2013. During the 12-month period ending in August 2014, the 
United States was the country of origin of the largest share of 
requests for information, with approximately 29.7 percent of 
such requests--a decrease from the 31.9 percent reported for 
the United States in the Commission's 2013 Annual Report. China 
was second with approximately 22.7 percent (a decrease compared 
to 29.2 percent in the 2013 reporting period), followed by 
Japan with 20.3 percent (compared to 19.1 percent in the 2013 
reporting period), Ukraine (3.7 percent), France, (2.2 
percent), India (2.1 percent), Germany (1.8 percent), Poland 
(1.2 percent), the Russian Federation (1.1 percent), and the 
United Kingdom (1.0 percent).
    Approximately 38.4 percent of the approximately 86,100 
requests for PPD information were from numerical Internet 
addresses that do not provide information about the name of the 
registrant or the type of domain. That figure represents an 
18.4 percent decrease from the 56.8 percent reported for such 
addresses during the period ending in August 2013 and may 
correlate with the proportional increase reported below for the 
China (.cn) domain.
    Approximately 19.5 percent of the online requests for PPD 
information during the 12-month period ending in August 2014 
originated from domains in China (.cn)--an increase from 0.2 
percent during the period ending in August 2013. Worldwide 
commercial (.com) Internet domains were second with 
approximately 16.7 percent (compared to 15.5 percent in the 
2013 reporting period), followed by worldwide network (.net) 
domains with approximately 8.9 percent (similar to the 2013 
reporting period), U.S. Government (.gov) domains with 5.0 
percent (compared to 6.7 percent in the 2013 reporting period), 
1.1 percent from domains in Germany (.de), 0.9 percent from 
domains in Poland (.pl), 0.9 percent from domains in Ukraine 
(.ua), 0.8 percent from domains in France (.fr), 0.7 percent 
from domains in Brazil (.br), and 0.5 percent from worldwide 
nonprofit organization (.org) domains. Online requests for PPD 
information from U.S. educational domains fell to 0.2 percent 
from 1.3 percent in the 2013 reporting period.


                          political prisoners


    The PPD seeks to provide users with prisoner information 
that is reliable and up to date. Commission staff members work 
to maintain and update political prisoner records based on the 
staff member's area of expertise. The staff seek to provide 
objective analysis of information about individual prisoners, 
and about events and trends that drive political and religious 
imprisonment in China.
    As of September 1, 2014, the PPD contained information on 
7,689 cases of political or religious imprisonment in China. Of 
those, 1,240 are cases of political and religious prisoners 
currently known or believed to be detained or imprisoned, and 
6,449 are cases of prisoners who are known or believed to have 
been released or executed, who died while imprisoned or soon 
after release, or who escaped. The Commission notes that there 
are considerably more than 1,240 cases of current political and 
religious imprisonment in China. The Commission staff works on 
an ongoing basis to add cases of political and religious 
imprisonment to the PPD.
    The Dui Hua Foundation, based in San Francisco, and the 
former Tibet Information Network, based in London, shared their 
extensive experience and data on political and religious 
prisoners in China with the Commission to help establish the 
PPD. The Dui Hua Foundation continues to do so. The Commission 
also relies on its own staff research for prisoner information, 
as well as on information provided by non-governmental 
organizations (NGOs), other groups that specialize in promoting 
human rights and opposing political and religious imprisonment, 
and other public sources of information.


                   more powerful database technology


    Since its launch in November 2004, the PPD has served as a 
unique and powerful resource for the U.S. Congress and 
Administration, other governments, NGOs, educational 
institutions, and individuals who research political and 
religious imprisonment in China, or who advocate on behalf of 
such prisoners. The July 2010 PPD upgrade significantly 
leveraged the capacity of the Commission's information and 
technology resources to support such research, reporting, and 
advocacy.
    The PPD aims to provide a technology with sufficient power 
to handle the scope and complexity of political imprisonment in 
China. The most important feature of the PPD is that it is 
structured as a genuine database and uses a powerful query 
engine. Each prisoner's record describes the type of human 
rights violation by Chinese authorities that led to his or her 
detention. These types include violations of the right to 
peaceful assembly, freedom of religion, freedom of association, 
and free expression, including the freedom to advocate peaceful 
social or political change and to criticize government policy 
or government officials.
    The design of the PPD allows anyone with access to the 
Internet to query the database and download prisoner data 
without providing personal information to the Commission, and 
without the PPD downloading any software or Web cookies to a 
user's computer. Users have the option to create a user 
account, which allows them to save, edit, and reuse queries, 
but the PPD does not require a user to provide any personal 
information to set up such an account. The PPD does not 
download software or a Web cookie to a user's computer as the 
result of setting up such an account. Saved queries are not 
stored on a user's computer. A user-specified ID (which can be 
a nickname) and password are the only information required to 
set up a user account.

                            II. Human Rights


                         Freedom of Expression


                              Introduction

    During the 2014 reporting year, the Chinese government and 
Communist Party continued to strengthen controls over freedom 
of expression, particularly online expression, violating 
international standards and protections for freedom of 
expression in China's Constitution and other domestic 
legislation. As a result, people ranging from independent 
journalists and media professionals to local organizers and 
rights lawyers faced censorship, official harassment, and 
detention amid ongoing crackdowns, in some cases due to 
sensitivity surrounding the 25th anniversary of the 1989 
Tiananmen protests. Government and Party officials showed 
heightened, high-level concern regarding their ability to 
control the Internet and signaled renewed efforts to strengthen 
their control over the Internet. Such efforts appeared to 
target the online activity of rights and democracy advocates, 
as well as others who used the Internet to express peaceful 
criticism of the government or Party.

               International Standards on Free Expression

    This past year, the Chinese government and Communist Party 
continued to restrict expression in ways that contravened 
international human rights standards. According to the 
International Covenant on Civil and Political Rights (ICCPR)--
which China has signed \1\ and stated its intent to ratify 
\2\--and the UN Special Rapporteur on the Promotion and 
Protection of the Right to Freedom of Opinion and Expression, 
expression may be restricted only if such restrictions are (1) 
for the purpose of respecting the rights or reputations of 
others or protecting national security, public order, public 
health or morals, or the general welfare; (2) set forth in law; 
and (3) necessary and the least restrictive means to achieve 
the purported aim.\3\ Regarding requirement (1), an October 
2009 UN Human Rights Council (UNHRC) resolution stated that 
restrictions on ``discussion of government policies and 
political debate,'' ``peaceful demonstrations or political 
activities, including for peace or democracy,'' and 
``expression of opinion and dissent'' are inconsistent with 
Article 19(3) of the ICCPR.\4\ At the October 2013 session of 
the UNHRC's Universal Periodic Review (UPR) of the Chinese 
government's human rights record, member states expressed 
concerns over restrictions on freedom of expression in China, 
including expression online, and urged China to ratify the 
ICCPR.\5\ In its official response to the UPR recommendations, 
the Chinese government stated that China's Constitution, laws, 
and government protect freedom of expression in China \6\ but 
it did not provide further information on any specific 
protections for freedom of expression.\7\
    Some government and Party sources appealed to the concept 
of ``Internet sovereignty'' to defend the claim that China has 
sole authority to set standards for governance of the Internet 
within its borders.\8\ For example, a June 2014 article in the 
People's Daily--the official news media of the Communist 
Party--asserted that ``the concept of `Internet sovereignty' 
conforms to the rules of international law'' and that ``other 
countries do not have the right to interfere.'' \9\ The UNHRC, 
to which China was reelected in November 2013,\10\ has 
emphasized that international standards for freedom of 
expression online apply to all countries, regardless of state 
borders. In a June 2012 resolution, the UNHRC affirmed that 
``the same rights that people have offline must also be 
protected online, in particular freedom of expression, which is 
applicable regardless of frontiers and through any media of 
one's choice.'' \11\

      Growth and Control of the Internet and Mobile Communications


                        EXPANDING OVERALL ACCESS

    China's Internet landscape has experienced dramatic growth 
in recent years, particularly in the number of Internet users 
accessing the Web through mobile devices. According to the 
China Internet Network Information Center, which operates under 
the Ministry of Industry and Information Technology (MIIT),\12\ 
there were 632 million Internet users in China by the end of 
June 2014, bringing Internet users to 46.9 percent of the total 
population.\13\ Also by late June 2014, 527 million people in 
China reportedly accessed the Internet from mobile devices, 
amounting to 83.4 percent of all Internet users in China.\14\
    Amid this growth, the Chinese government continued to take 
steps to expand the country's telecommunications infrastructure 
and provide greater Internet access. For example, in December 
2013, MIIT issued 4G licenses to three Chinese telecom 
operators,\15\ one of which--China Telecom--reportedly 
announced it would establish the world's largest 4G network 
\16\ and offer commercial 4G services in 340 Chinese cities in 
2014.\17\ In a March 2014 government work report to the 
National People's Congress, Premier Li Keqiang stated the 
government would extend broadband connectivity to rural 
villages, increase Internet speeds, and develop 4G mobile 
communications.\18\

       MAINTAINING GOVERNMENT AND PARTY CONTROL OF ONLINE CONTENT

    The government and Party expressed heightened, high-level 
concerns regarding their ability to control the Internet and 
signaled a renewed effort to strengthen their control over the 
Internet. For example, the November 2013 Chinese Communist 
Party Central Committee Third Plenum Decision on Certain Major 
Issues Regarding Comprehensively Deepening Reforms called 
explicitly for the ``management'' \19\ and ``supervision'' \20\ 
of the Internet, as well as the ``supervision'' of online 
public opinion,\21\ themes government and Party sources have 
emphasized in recent years.\22\ The Commission observed 
documents from government and Party Web sites this past year 
that echoed these themes.\23\ For example, in February 2014, 
during the first meeting of the newly established Central 
Internet Security and Informatization Leading Group, a high-
level group chaired by President Xi Jinping, Xi reportedly 
``called for innovative methods to spread mainstream values and 
stimulate positive energy while maintaining proper guidance of 
online opinions in terms of timing, intensity and impact.'' 
\24\
    Some reports described the Internet or online public 
opinion as a ``struggle,'' \25\ ``battleground,'' \26\ or ``new 
challenge and new test'' \27\ for authorities. A People's 
Liberation Army Daily report stated:

        Enemy forces use the Internet to advocate forcefully 
        for Western values such as ``constitutional democracy'' 
        and ``universal values,'' wantonly discrediting our 
        country's social system . . . . [We] absolutely cannot 
        let erroneous ideological trends tarnish the image of 
        the country and the Party.\28\

    Such reports cited as their basis remarks that Xi made at 
an August 2013 ``national propaganda and ideology work 
meeting'' \29\ and interpreted Xi's remarks to include 
strengthening control over the Internet.\30\
    Chinese officials continued campaigns to control the 
expanding reach of microbloggers. In the latter half of 2013, 
authorities reportedly began to investigate hundreds of Sina 
Weibo microbloggers, detaining over 100 \31\--including 
prominent microbloggers known as ``Big V'' users because of 
their large followings and verified status \32\--as part of 
what some international media described as a crackdown.\33\ For 
example, in July 2014, the social media accounts of ``Big V'' 
and outspoken political commentator Li Chengpeng were 
closed.\34\ Following these developments, the total number of 
Weibo posts dropped \35\ as much as 70 percent from early 2011 
to late 2013, according to a study conducted at East China 
Normal University.\36\ On March 13, 2014, authorities closed an 
unspecified number of accounts on WeChat, a mobile social media 
platform owned by Tencent that reportedly gained users who left 
Weibo.\37\ In August 2014, the State Internet Information 
Office released the Interim Provisions for the Management of 
the Development of Instant Messaging Tools in Providing Public 
Information Services,\38\ which prohibits public microblog 
accounts that have not received approval from posting or 
reposting political news.\39\

                      CENSORSHIP OF ONLINE CONTENT

    Chinese authorities continued to block and filter sensitive 
online content, in some cases through censorship campaigns. For 
example, officials blocked online reports regarding protests 
against the construction of a paraxylene (``PX'') plant in 
Maoming city, Guangdong province.\40\ Officials also blocked 
online reports regarding corruption investigations of Zhou 
Yongkang, former Minister of Public Security and Secretary of 
the Communist Party Central Committee Political and Legal 
Affairs Commission; Zhou's son Zhou Bin; and Li Dongsheng, 
former Vice Minister of Public Security.\41\ Censorship 
initiatives included a ``Sweep Away Pornography, Strike Down 
False Media'' campaign,\42\ which some commentators noted gave 
authorities leeway to strengthen government and Party control 
over the Internet more broadly.\43\ The campaign's leadership 
included a joint government-Party entity under the Party's 
Central Propaganda and Ideology Work Leading Group,\44\ which 
itself was chaired by Liu Yunshan, a member of the Political 
Bureau of the Communist Party Central Committee.\45\ In April 
2014, authorities revoked some of Sina's online publication 
licenses after reportedly finding pornographic content on Web 
sites run by Sina.\46\ Some commentators noted the revocations 
appeared to be connected to the growing influence of Sina 
Weibo,\47\ which filed for an initial public offering in the 
United States shortly before the revocations.\48\
    In the months preceding June 4, 2014--the 25th anniversary 
of the violent suppression of the 1989 Tiananmen protests--
authorities blocked and filtered a range of online content 
related to the protests. For example, in June 2014, the 
University of Toronto's Citizen Lab verified more than 60 
Tiananmen-related keywords censored on Weibo, 9 of which were 
new additions in 2014.\49\ Authorities also deleted online 
discussion of and blocked online searches for content related 
to former Party General Secretary Hu Yaobang, whose death in 
1989 triggered the Tiananmen protests.\50\
    Authorities also increased content restrictions on Internet 
television content providers. In or shortly before mid-July 
2014, China's media regulator, the State Administration of 
Press, Publication, Radio, Film and Television (SAPPRFT), met 
with China's seven licensed Internet television content 
providers and instructed them to filter unapproved content,\51\ 
including ``content from commercial video websites,'' as well 
as ``unauthorized foreign movies, short movies and other video 
products.'' \52\ SAPPRFT reportedly also instructed Internet 
television content providers to remove third-party apps from 
their devices and barred Internet television content providers 
from entering into business agreements with companies under 
investigation by SAPPRFT.\53\ As of mid-July 2014, SAPPRFT 
reportedly ordered Internet television content providers not to 
work with LeTV, a licensed Internet television content provider 
suspected of violating content restrictions.\54\ All these 
actions followed requirements issued by SAPPRFT in 2011 \55\ 
that reportedly restrict content provided through Internet 
television services.\56\

------------------------------------------------------------------------
              Censorship of U.S. Companies' Online Content
-------------------------------------------------------------------------
  According to international media reports, U.S. company LinkedIn--which
 began operating in China in 2014 \57\--began censoring sensitive
 content that originated in China.\58\ Censorship reportedly extended to
 both Chinese- and English-language versions of the site,\59\ as well as
 to users based in Hong Kong or outside of China.\60\ For example, a
 United Kingdom-based artist previously based in China reported some of
 her LinkedIn posts were censored.\61\ A student in Hong Kong reported
 LinkedIn censored a link he posted for a video that reportedly
 ``express[ed] support for relatives and friends of those killed during
 the Tiananmen crackdown.'' \62\
------------------------------------------------------------------------


------------------------------------------------------------------------
         Censorship of U.S. Companies' Online Content--Continued
-------------------------------------------------------------------------
  Shortly before the 25th anniversary of the violent suppression of the
 1989 Tiananmen protests, U.S. company Google began experiencing online
 service disruptions in China.\63\ GreatFire.org, an organization that
 monitors online censorship in China,\64\ reported on June 2, 2014, that
 ``all Google services in all countries, encrypted or not, are now
 blocked in China . . . . [T]he block covers Google Hong Kong . . .,
 Google.com and all other country specific versions . . . .'' \65\
 Chinese authorities did not claim responsibility for the disruptions,
 but international media reports linked the disruptions to broader
 attempts by authorities to censor online content, as well as
 sensitivity surrounding the Tiananmen anniversary.\66\ Reuters quoted a
 Google spokesman as saying ``We've checked extensively and there's
 nothing wrong on our end.'' \67\
------------------------------------------------------------------------

    Rules regarding censorship of online content in China 
remained opaque. Internet regulations contain vague and broad 
prohibitions on content that ``harms the honor or interests of 
the nation,'' \68\ ``spreads rumors,'' \69\ or ``disrupts 
national policies on religion,'' \70\ but they do not define 
these concepts or contain criteria to determine when content 
has violated one of these prohibitions.\71\ On March 1, 2014, 
the Implementing Regulations of the PRC Law on the Protection 
of State Secrets (Implementing Regulations)--which extends to 
information on the Internet \72\--entered into force \73\ but 
did not clarify what could be classified as state secrets.\74\ 
For example, the Implementing Regulations stipulated that 
authorities should not classify as state secrets ``matters that 
should be public in accordance with the law'' \75\ but did not 
explain what kinds of information the law entitles the public 
to access.\76\

               Punishment of Citizens for Free Expression

    Authorities continued to detain and harass rights and 
democracy advocates, Internet writers, human rights lawyers, 
citizen journalists, and others who exercised their 
constitutional right to freedom of speech,\77\ in a crackdown 
that some international media and individuals in China 
described as the worst in recent decades.\78\ Authorities used 
vaguely worded criminal charges and extralegal harassment to 
punish citizens for free expression, as the following selected 
cases illustrate:

        <bullet> In September 2013, officials in Tianshui city, 
        Gansu province, criminally detained 16-year-old 
        microblog user Yang Zhong (aka Yang Hui) on suspicion 
        of ``picking quarrels and provoking trouble'' for 
        online posts.\79\ Yang had posted comments urging 
        people to protest an allegedly hasty investigation by 
        local authorities that had ruled the death of a karaoke 
        club worker to be a suicide.\80\ Police released Yang a 
        week later, following an outcry among Weibo users 
        protesting Yang's detention.\81\
        <bullet> In February 2014, officials in Beijing 
        municipality summoned for questioning human rights 
        advocate Hu Jia on charges of ``picking quarrels and 
        provoking trouble'' and interrogated him regarding 
        allegedly sensitive Twitter postings.\82\ At the time, 
        Hu reportedly was under home confinement.\83\ 
        Authorities released Hu from home confinement in June 
        2014,\84\ and in July 2014, Hu was beaten on the street 
        by men he believed to be plainclothes police.\85\
        <bullet> In late February 2014, Chinese artist and poet 
        Liu Xia was reportedly hospitalized,\86\ and later 
        discharged.\87\ Authorities have held Liu under illegal 
        home confinement since October 2010, following the 
        December 2009 conviction of her husband, Nobel Peace 
        Prize laureate Liu Xiaobo.\88\ According to Reuters, 
        she suffered from ``heart problems, possibly severe 
        depression, and other ailments made worse during her 
        time under guard.'' \89\ On February 27, Radio Free 
        Asia reported authorities discharged Liu Xia from the 
        hospital after her condition improved, according to 
        friend He Jian.\90\ Following her hospitalization, her 
        lawyer Mo Shaoping reported he had ``very little 
        information'' regarding her condition or location.\91\ 
        Chinese officials have said ``there are no charges'' 
        against her and officials ``[have] taken no legal 
        enforcement measures'' against her.\92\
        <bullet> In March 2014, public security officials in 
        Beijing criminally detained ``citizen journalists'' Liu 
        Xuehong, Xing Jian, and Wang Jing on suspicion of 
        ``picking quarrels and provoking trouble'' \93\ after 
        they reported on a self-immolation and other protests 
        in Tiananmen Square.\94\
        <bullet> In April 2014, a Beijing court sentenced Qin 
        Zhihui to three years in prison for allegedly 
        ``defam[ing] celebrities and the government.'' \95\ A 
        September 2013 joint interpretation issued by the 
        Supreme People's Court and the Supreme People's 
        Procuratorate authorizes officials to imprison online 
        authors if ``defamatory'' content is reposted at least 
        500 times or visited at least 5,000 times online.\96\ 
        According to Xinhua, one of Qin's posts was reposted 
        11,000 times.\97\

------------------------------------------------------------------------
 Criminal Punishment and Harassment Surrounding  the 25th Anniversary of
                         the Tiananmen Protests
-------------------------------------------------------------------------
  The crackdown on free expression spanned June 4, 2014--the 25th
 anniversary of the 1989 Tiananmen protests--during which time
 authorities harassed, imprisoned, and detained a variety of individuals
 who sought to commemorate the protests in private meetings, memorial
 services, or online spaces. The following are sample cases:<bullet> Authorities placed Ding Zilin, former leader of the advocacy
 group Tiananmen Mothers, under surveillance at her home in Beijing.\98\
 When filmmaker He Yang attempted to visit Ding in March 2014,
 authorities reportedly detained him on suspicion of ``endangering
 national security'' and released him after he agreed not to film
 subject matter related to the 1989 protests.\99\ After Ding passed
 leadership of Tiananmen Mothers to successor You Weijie, authorities
 reportedly disconnected You's phone line.\100\ Later, authorities
 forced Ding to stay out of Beijing until after June 4.\101\
------------------------------------------------------------------------


------------------------------------------------------------------------
 Criminal Punishment and Harassment Surrounding  the 25th Anniversary of
                    the Tiananmen Protests--Continued
-------------------------------------------------------------------------
<bullet> On March 24, 2014, a district court in Suzhou municipality,
 Jiangsu province, sentenced Gu Yimin to one year and six months in
 prison for ``inciting subversion of state power.'' \102\ Gu's lawyers
 reportedly were assaulted by unknown assailants outside the court.\103\
 Officials detained Gu in June 2013 after he posted a cartoon online
 referencing the 1989 protests.\104\
<bullet> On April 24, 2014, authorities criminally detained journalist
 Gao Yu on suspicion of ``leaking state secrets'' to a foreign Web
 site.\105\ According to a Xinhua report, Gao provided a central
 government document to an overseas Web site, but the report did not
 elaborate on the nature of the document.\106\ Gao reportedly was
 planning to attend a private meeting with others to commemorate the
 1989 protests; authorities later detained some of those who attended
 the meeting.\107\
<bullet> In May 2014, authorities in Zhengzhou city, Henan province,
 detained participants in a February 2014 memorial service commemorating
 former Communist Party leaders Hu Yaobang and Zhao Ziyang and the
 victims of the violent suppression of the 1989 protests.\108\ Officials
 detained organizers Yu Shiwen and Chen Wei--a married couple--as well
 as participants Shi Yu, Fang Yan, and Hou Shuai, on suspicion of
 ``gathering a crowd to disturb order in a public place.'' \109\
 Officials also criminally detained Shi, Fang, and Hou's defense lawyer
 Chang Boyang as he prepared to visit them in detention.\110\
<bullet> In late May or early June 2014, officials in Chaozhou
 municipality, Guangdong province, criminally detained Zhang Kunle on
 suspicion of ``picking quarrels and provoking trouble'' after Zhang
 called for online essay submissions regarding the 1989 protests.\111\
 Previously, authorities reportedly ``compelled'' Zhang to leave
 Shenzhen municipality, where he was living, and return to his family
 home in Chaozhou, due to heightened sensitivity surrounding the 25th
 anniversary of the 1989 protests.\112\
<bullet> On June 9, 2014, officials in Beijing reported that university
 student Zhao Huaxu had been criminally detained on suspicion of
 ``teaching criminal methods.'' \113\ In a May 24 Twitter post, Zhao
 uploaded a link to a document she had written called ``June 4th
 Anniversary--A Conceptual Plan for Using Pseudo Base Station.'' \114\
 Pseudo base station technology allows users to broadcast information to
 mobile phones outside official communication networks.\115\
------------------------------------------------------------------------

                             Press Freedom

    The government and Party continued to control the press in 
violation of international standards. In its 2014 World Press 
Freedom Index, Reporters Without Borders ranked China 175th out 
of 180 countries.\116\ It noted that ``daily `directives' to 
the traditional media from the Department of Propaganda, the 
constant online censorship, the growing number of arbitrary 
arrests and the detention of the largest number of journalists 
and netizens in the world . . . have made China a model of 
censorship and repression.'' \117\ International experts have 
identified as a major challenge to free expression media 
serving ``as government mouthpieces instead of as independent 
bodies operating in the public interest.'' \118\

             POLITICAL CONTROL OF MEDIA THROUGH REGULATION

    The State Administration of Press, Publication, Radio, Film 
and Television (SAPPRFT), enhanced its system of strict 
controls and licensing requirements for media professionals. In 
order to report the news legally, domestic newspapers, 
magazines, Web sites, and journalists must obtain a license or 
accreditation from the government.\119\ In 2014, SAPPRFT began 
requiring the country's 250,000 news reporters and staff to 
participate in a political training program as part of the 
annual press card renewal process.\120\ The program reportedly 
would include a test with content related to ``socialism with 
Chinese characteristics'' and the ``Marxist view on the 
press.'' \121\ On June 18, 2014, SAPPRFT released a circular 
instructing media organizations to forbid journalists from 
publishing reports that are critical without receiving approval 
from their employers, from reporting on issues outside of their 
designated issue areas, and from publishing critical reports 
through their own personal Web sites or publications.\122\
    SAPPRFT also issued the Measures on the Management of 
Information Obtained by Press Personnel in the Conduct of Their 
Duties (the Measures),\123\ which placed vague restrictions on 
the ability of journalists and other media professionals to 
release information obtained in the conduct of their work.\124\ 
For example, the Measures prohibit media professionals from 
``violating the terms of confidentiality agreements''--which 
the Measures require media professionals to sign with their 
employers \125\--``by providing information obtained in the 
conduct of their work to other domestic or foreign media or 
websites. . . .'' \126\ The Measures' definition of such 
information includes ``various kinds of information and 
materials, and all journalistic products collected and 
processed, including state secrets, commercial secrets, and 
information that has not been publicly disclosed.'' \127\ The 
Measures do not clarify what constitutes a state secret.\128\ 
[For more information on the regulation of state secrets, see 
Censorship of Online Content in this section.]

                   PUNISHMENT OF DOMESTIC JOURNALISTS

    Outspoken journalists and newspaper staff continued to face 
reprisals for making sensitive comments or conducting 
investigative reporting. For example, on September 30, 2013, 
authorities approved the arrest of journalist Liu Hu on 
defamation charges \129\ after he published information 
alleging official corruption.\130\ According to the Washington 
Post, Wang Qinglei, a journalist with state-run China Central 
Television, was fired after calling China's media environment 
``stifling'' online.\131\ Tencent journalist Zhang Jialong 
reported that he was fired in May 2014 after discussing press 
freedom in a meeting with U.S. Secretary of State John Kerry 
and publishing an article in Foreign Policy in which he asked 
for U.S. assistance to ``tear down . . . the Great Firewall'' 
(i.e., China's national system of Internet surveillance and 
censorship).\132\ According to a November 2013 South China 
Morning Post (SCMP) article, Caijing media group forced 
journalist Luo Changping to leave the magazine and move to 
Caijing's research institute after he exposed information 
implicating a high-level official in corruption.\133\ In May 
2014, public security officials in Beijing reportedly detained 
Xin Jian, an employee of the Chongqing bureau of Japanese 
newspaper Nihon Keizai Shimbun, on suspicion of ``picking 
quarrels and provoking trouble,'' after Xin reportedly helped 
journalists interview high-profile public interest lawyer Pu 
Zhiqiang.\134\ A November 2013 SCMP article quoted Luo 
Changping as saying, ``The position real investigative 
journalism is in is not ideal. The environment is getting 
worse, the space is getting smaller . . . .'' \135\ Journalists 
in Hong Kong also reported continuing threats to press freedom, 
citing violent attacks on media professionals, self-censorship 
among journalists, and pressure from the Hong Kong and central 
governments and mainland Chinese businesses.\136\ [For more 
information on press freedom in Hong Kong, see Section VI--
Developments in Hong Kong and Macau.]

                   PUNISHMENT OF FOREIGN JOURNALISTS

    International media organizations and U.S. Government 
officials expressed heightened concerns over the ability of 
foreign journalists to report independently in China.\137\ In a 
May 2014 survey conducted by the Foreign Correspondents Club of 
China (FCCC), 99 percent of respondents ``[did] not think 
reporting conditions in China [met] international standards,'' 
and zero respondents believed conditions had improved since the 
previous year.\138\ Respondents to FCCC surveys also reported 
official harassment of reporters, news assistants, and sources; 
attempts to block coverage of issues authorities deemed 
``sensitive''; restrictions on travel to the Xinjiang Uighur 
Autonomous Region and Tibetan areas of China; cyber attacks and 
the blocking of foreign media Web sites in China; and visa 
delays and denials.\139\ In December 2013, Chinese authorities 
delayed visa renewals for approximately two dozen journalists 
working for the New York Times (NYT) and Bloomberg.\140\ Some 
reports linked the late renewals to prominent 2012 reports by 
the NYT and Bloomberg on the overseas assets of Chinese 
leaders' family members.\141\ In a December 2013 statement, 
then NYT Executive Editor Jill Abramson acknowledged that 
Chinese officials ``pointedly objected'' to investigative 
reports by the NYT about China's leaders.\142\ Chinese 
authorities reportedly also warned foreign reporters against 
reporting on the 25th anniversary of the 1989 Tiananmen 
protests.\143\ The following cases highlight some of the 
ongoing challenges foreign journalists faced during the 
reporting year:

        <bullet> On November 9, 2013, the NYT reported that the 
        Ministry of Foreign Affairs (MFA) declined to grant 
        journalist Paul Mooney a resident journalist visa to 
        begin a new reporting job for Thomson Reuters.\144\ The 
        MFA reportedly did not provide a reason for their 
        decision.\145\
        <bullet> On January 22, 2014, Time reported that 
        Chinese authorities and ``plainclothes thugs'' harassed 
        reporters with the Cable News Network, British 
        Broadcasting Corporation, and Sky News as they 
        attempted to cover the trial of rights advocate Xu 
        Zhiyong.\146\
        <bullet> On January 30, 2014, NYT correspondent Austin 
        Ramzy departed China after officials declined to issue 
        him press credentials.\147\
        <bullet> On February 9, 2014, the China Law & Policy 
        blog reported that NYT correspondent Chris Buckley and 
        NYT Beijing bureau head Philip Pan were still awaiting 
        press credentials, which they had been waiting for 
        since 2012.\148\

                             Worker Rights


                         Freedom of Association

    China's laws and practices continue to contravene 
international standards on freedom of association. Chinese 
workers are not free to form or join trade unions of their own 
choosing.\1\ The PRC Trade Union Law largely eliminates 
workers' right to freedom of association by requiring that all 
union activity be approved by and organized under the All-China 
Federation of Trade Unions (ACFTU), an organization under the 
direction of the Chinese Communist Party and government.\2\ The 
ACFTU Constitution and the PRC Trade Union Law mandate that the 
ACFTU protect the legitimate rights and interests of workers 
while ``preserving the leadership of the Communist Party'' and 
broader interests of the government.\3\ Reportedly 280 million 
workers, over 36 percent of China's working population in 2013, 
were members of the ACFTU in 6.3 million unionized enterprises 
by mid-2013.\4\ As an adjunct of the Party and government, the 
ACFTU continues largely to prioritize social stability in its 
approach to labor relations,\5\ garnering criticism from labor 
activists and workers for failing to protect workers' rights 
and interests.\6\
    Changing socio-economic conditions in China have led 
several high-level union and government officials to advocate 
for the need for union reform. During the ACFTU's 16th National 
Congress in October 2013, ACFTU Chairman Li Jianguo 
acknowledged that the ACFTU was failing to meet the challenges 
of ``a series of new circumstances and problems'' brought on by 
unbalanced development, stating that it needed to do more to 
protect the social and economic rights of workers.\7\ In a 
speech in April 2013, President Xi Jinping urged the ACFTU to 
innovate and ``adjust to social changes'' to ``comply with the 
demands of the times.'' \8\
    A small number of municipal and lower level trade unions 
have made efforts during the Commission's 2014 reporting year 
to adopt a more proactive and engaged role with workers.\9\ In 
March 2014, the Shenzhen Municipal Trade Union demanded that 
IBM reinstate 20 worker representatives fired during a 10-day 
strike at an IBM factory in Shenzhen municipality, Guangdong 
province.\10\ The union reportedly sent lawyers to assist the 
fired workers in obtaining compensation and filing for 
arbitration after IBM refused to reinstate them.\11\ At the 
same time, labor advocates and media reports indicate ACFTU 
support for workers has remained largely absent amid continued 
labor unrest, and in those cases where unions have taken a more 
engaged role with workers, those actions have been mostly 
reactive and limited to issuing statements of concern and 
support.\12\

------------------------------------------------------------------------
         Civil Society and Labor Non-Governmental Organizations
-------------------------------------------------------------------------
  Labor non-governmental organizations (NGOs) and other civil society
 actors have emerged in recent years to play a larger role in promoting
 and defending workers' rights. Chinese labor scholars and activists
 give varying estimates of between 50 and 60 labor NGOs in China,
 predominantly located in the southern and eastern coastal provinces
 where there is a high concentration of migrant workers.\13\ Many of
 these organizations provide workers with legal and educational
 services, including information on labor laws and legal counseling for
 individual rights violations.\14\ Amid continued labor activism, some
 labor NGOs have shifted to providing direct support to workers during
 collective labor disputes, including instruction on collective
 bargaining.\15\ In a number of cases during the 2014 reporting year,
 labor NGOs worked closely with striking workers to provide advice on
 collective action and encourage collective bargaining with
 employers.\16\ The support of labor NGOs in several cases was
 reportedly instrumental in getting workers to avoid conflict with the
 authorities and resolve disputes through direct bargaining with
 employers.\17\ Many labor NGOs still operate informally, however, as
 they often are unable to officially register with the authorities.\18\
 Despite a loosening of NGO registration requirements in China beginning
 in 2012, labor NGOs have mostly remained unable to register as ``social
 organizations,'' forcing them either to register as business entities
 or not register at all.\19\ In addition, labor NGOs have been subject
 to harassment by officials for engaging in activities considered
 sensitive.\20\ In April 2014, public security officials in Dongguan
 municipality, Guangdong province, detained Zhang Zhiru and Lin Dong,
 employees at a Guangdong-based labor rights NGO, amid a large-scale
 strike at the Yue Yuen shoe factory in Dongguan.\21\ Zhang and Lin had
 reportedly been in close contact with striking workers and had been
 providing them with assistance at the time of their detention.\22\
------------------------------------------------------------------------

                         Collective Bargaining

    Collective bargaining in China remains limited in both law 
and practice. There is no comprehensive national law on 
collective bargaining, but rather a series of provisions found 
in the PRC Trade Union Law, PRC Labor Contract Law, and PRC 
Labor Law that provide a legal framework for negotiating 
collective contracts and some process of collective 
consultation between management and workers.\23\ In addition to 
national law, a majority of provinces have also issued 
provincial-level regulations on negotiating collective 
contracts, which in some cases contain provisions prohibiting 
workers from taking collective action and allowing employers to 
fire workers engaged in collective action during the 
negotiation of a collective contract.\24\
    In recent years, the ACFTU and government have promoted the 
expansion of collective contracts and the strengthening of 
collective negotiation mechanisms as essential means for 
managing labor relations.\25\ In April 2014, the Ministry of 
Human Resources and Social Security, in conjunction with other 
authorities, including the ACFTU, published a notice calling 
for the ``expansion of collective consultations and coverage of 
collective contracts,'' setting a goal to ``ensure the rate of 
signed collective contracts reaches 80 percent by the end of 
2015.'' \26\ In a development Chinese labor advocates have 
described as having the potential to advance labor rights 
throughout China, the Guangdong Province People's Congress 
began deliberations in April 2014 on Draft Regulations on 
Collective Contracts and Collective Consultations (Draft 
Regulations).\27\ The Draft Regulations, initially proposed by 
the Guangdong Federation of Trade Unions, require employers to 
engage in collective negotiations if more than one-third of 
workers demand it and protect the right of workers to strike if 
employers fail to respond to their demands within 30 days.\28\ 
At the same time, the Draft Regulations also prohibit workers 
from striking during negotiations and make them subject to 
criminal punishment if company operations are disrupted.\29\
    The extent to which ACFTU and government initiatives on 
collective contract and consultation mechanisms expand the 
space for greater and more genuine worker representation is 
unclear. At present, the collective contract and consultation 
system remains weak due in part to ineffective trade union 
representation.\30\ The ACFTU and its local constituent unions 
continue to be subordinate to the interests of the Party, and 
central and local authorities, including in many cases 
employers as well, preventing them from properly representing 
workers in collective negotiations.\31\ Top-down requirements 
from the government and higher level trade unions have also led 
enterprises to enter into formalistic contracts rather than 
actually engage in genuine bargaining between management and 
trade unions.\32\ In many instances, the terms and conditions 
of collective contracts reflect minimum legal standards in the 
locality and reportedly rarely involve actual wage negotiations 
or touch on other interests.\33\
    Workers who requested or took part in collective 
negotiations with their employers independent of the officially 
recognized union have faced reprisals including forced 
resignation, firing, and detention.\34\ In May 2013, public 
security officials detained migrant worker Wu Guijun in 
Dongguan municipality, Guangdong province, for participating in 
a labor protest.\35\ Prior to his detention, Wu was one of 
seven independently elected labor representatives chosen to 
represent workers in collective negotiations with 
management.\36\ Authorities indicted Wu in January 2014 for 
``gathering a crowd to disrupt traffic,'' and tried him in 
several court hearings, before releasing him in May and finally 
dropping the charges in June.\37\ In July 2014, authorities 
awarded Wu over 74,000 yuan (US$12,000) in compensation for 
``wrongful arrest,'' but refused his request for additional 
compensation for ``mental damages'' suffered during his 
detention.\38\ Several Chinese labor experts and lawyers have 
called for greater protections for independent labor 
representatives. In May 2014, several Chinese labor lawyers put 
forward a proposal to amend the PRC Trade Union Law to protect 
workers who engage in collective negotiations independent of 
the officially recognized trade union.\39\ At present, only 
trade union officials and workers who participate in official 
union activities are protected under the PRC Trade Union Law 
from management retaliation.\40\

                             Worker Actions

    During the Commission's 2014 reporting period, widespread 
reports of strikes and demonstrations emerged across a variety 
of industries and regions in China.\41\ Strikes were often 
prompted by labor-related grievances, such as low pay \42\ and 
the nonpayment of wages and benefits,\43\ but have also arisen 
more recently as a result of slowed economic growth.\44\ Faced 
with higher labor costs and a shrinking labor force, many 
multinational companies and domestic enterprises have sought to 
restructure their business operations, relocating and closing 
down factories.\45\ The Chinese government has, in part, 
encouraged this change in an effort to shift from investment- 
to consumption-driven economic growth, endorsing policies that 
reduce low-end manufacturing and overcapacity in other 
industries.\46\ In many cases, workers are not consulted by 
their employers, local ACFTU constituent unions, or local 
officials in advance of restructuring plans, leading to 
conflicts over compensation and remaining contractual 
obligations.\47\ In other cases, strikes have emerged in 
response to cost-cutting measures that have threatened workers' 
wages and benefits.\48\
    The reported increase in labor unrest comes amid widespread 
economic and demographic shifts that observers contend are 
emboldening workers and affording them greater bargaining power 
in the workplace.\49\ Chinese and international labor experts 
indicate workers are increasingly driven by a sense of social 
and economic rights, including ``earning a living wage, 
creating a safe work environment and being treated with dignity 
and respect by the employer.'' \50\ Growing labor shortages and 
opportunities in China's expanding service sector are 
strengthening workers' demands for higher pay and better work 
conditions and benefits.\51\ Moreover, experts contend the 
increased activism of workers reflects a growing awareness of 
their rights and a greater confidence in taking collective 
action to redress workplace grievances.\52\ The proliferation 
of social media and inexpensive smartphones have also made it 
easier for workers to mobilize and increase public awareness of 
strikes.\53\
    Chinese authorities have had varied responses to labor 
protests, in some cases tolerating strikes that are limited to 
demands for wages and benefits.\54\ At the same time, the 
Commission continued to observe reports of authorities using 
force against or detaining demonstrating workers.\55\ The right 
to strike is not protected under Chinese law, leaving workers 
vulnerable to retaliation by their employers and criminal 
prosecution.\56\ In August 2013, security officials in 
Guangzhou municipality, Guangdong province, detained 12 
security guards after they staged a rooftop demonstration in 
protest over the refusal of their employer to continue 
discussion over grievances related to their employment 
contracts and social insurance.\57\ Authorities charged the 
guards with ``gathering a crowd to disturb social order,'' 
tried them in January 2014 at the Baiyun District People's 
Court in Guangzhou, and sentenced nine of them in April 2014 to 
various prison terms ranging between eight and nine months.\58\ 
Authorities released the majority of the guards the day of or 
several days after their sentencing on the basis of time 
served, while three other guards were released in May.\59\

                            Migrant Workers

    Migrant workers--rural residents who have left their place 
of residence to seek non-agricultural jobs in the cities--
remain largely marginalized and vulnerable to mistreatment. 
China's total migrant population grew by 2.4 percent in 2013 
from the previous year to more than 268 million, close to one-
fifth of China's total population.\60\ Over 46 percent of these 
workers were born after 1980 and exhibit different 
characteristics from previous generations of migrants, 
including higher levels of education, a greater understanding 
of their rights, and a stronger desire to integrate into urban 
society.\61\ Many migrant workers, however, remain unable to 
obtain residency status in the cities where they live and work 
due to the continued enforcement of the household registration 
system (huji zhidu), effectively barring them from equal access 
to public services, including social security and public 
education.\62\ Faced with the difficulty of accessing public 
services, an estimated 61 million migrant children have been 
left behind by their parents to be raised in the 
countryside.\63\ These ``left-behind children'' (liushou 
ertong) have been found to suffer from depression and other 
forms of emotional distress, and are reportedly more prone to 
drop out of school or suffer sexual abuse.\64\ Migrant workers 
additionally continue to have low levels of labor and social 
welfare protection. According to a report published in May 2014 
by the National Bureau of Statistics of China, the number of 
migrant workers in 2013 who signed labor contracts with their 
employers declined by 2.6 percent to slightly more than 40 
percent.\65\ The report also indicated that even with a slight 
increase from the previous year, only a minority of migrants 
who worked outside their place of residence had pensions (15.7 
percent), medical insurance (17.6 percent), occupational injury 
insurance (28.5 percent), and unemployment insurance (9.1 
percent).\66\

                             Dispatch Labor

    The overuse and abuse of dispatch labor continues to be a 
significant problem despite legal reforms carried out in recent 
years to limit its proliferation. Dispatch labor (laowu 
paiqian) refers to an employment arrangement whereby a worker 
signs an employment contract with a labor dispatch agency and 
is then sourced by the agency to work for another employer.\67\ 
Dispatch workers are often hired as long-term employees in 
violation of law,\68\ and in many cases paid lower wages and 
social insurance benefits than directly hired workers.\69\ 
While no current official statistics are available on the 
extent of dispatch labor in China, 2011 estimates by the All-
China Federation of Trade Unions put the total number at 37 
million or 13.1 percent of all urban workers.\70\
    As the Commission observed in 2013, the National People's 
Congress amended the PRC Labor Contract Law in December 2012 to 
address the issue of dispatch labor.\71\ The amendments 
included clearer definitions of the types of positions for 
which dispatch labor could be used, raised business standards 
for labor dispatch agencies, and required employers to apply 
the same compensation standards to both directly hired workers 
and dispatch laborers.\72\ Despite these changes, Chinese media 
has continued to report on the misuse of dispatch labor 
following the amendments coming into effect in July 2013.\73\ 
Citing overall weak enforcement of the new regulations, reports 
indicated that no significant changes had been made in terms of 
increased wages or benefits for dispatch workers.\74\ Chinese 
labor scholars have indicated equal pay provisions in the law 
remain difficult to achieve in part because workers lack strong 
bargaining power.\75\ In some cases, employers were found to be 
actively circumventing the law, decreasing welfare benefits or 
citing a lack of clear implementing measures as a reason for 
not fully complying with the regulations.\76\
    In January 2014 the Ministry of Human Resources and Social 
Security issued the Interim Provisions on Labor Dispatch 
(Interim Provisions), effective March 2014.\77\ The Interim 
Provisions expand on the 2012 amendments made to the PRC Labor 
Contract Law, clarifying regulations on dispatch labor set out 
in the 2012 amendments and providing further guidance on their 
implementation.\78\ The Interim Provisions detail obligations 
for both the employer and labor dispatch agency on the signing 
and termination of labor contracts,\79\ social insurance 
contributions,\80\ and work-related injuries,\81\ among other 
issues. The Interim Provisions also restrict the number of 
dispatch workers an employer is allowed to hire to 10 percent 
of their total workforce.\82\ Employers that currently exceed 
this threshold are allowed a two-year transition period to 
adjust to the new restrictions.\83\ The heavy reliance on 
dispatch labor by a number of industries, including state-owned 
enterprises, banking and financial institutions, and government 
organizations, still presents a clear challenge to achieving 
the 10 percent limit outlined in the Interim Provisions.\84\ In 
some cases, dispatch workers were found to account for between 
50 and 70 percent of the total workforce in some 
enterprises.\85\

                              Child Labor

    The use of child labor in China remained a problem during 
the past reporting year. As a member of the International 
Labour Organization (ILO), China has ratified the two core 
conventions on the elimination of child labor.\86\ The PRC 
Labor Law and related legislation also prohibit the employment 
of minors under 16 years old, and both national and local legal 
provisions prohibiting child labor stipulate fines and other 
punishments for illegally hiring minors.\87\ While the extent 
of child labor in China is unclear in part because the 
government does not release data on the issue,\88\ domestic 
media reports from the past year indicate that the use of child 
labor remained evident in the electronics manufacturing 
industry, with instances also reported in other sectors.\89\ 
Labor experts contend a tightening labor market has led 
employers in some cases to hire underage workers to resolve 
labor shortages and reduce labor costs.\90\ Poverty and limited 
access to educational resources were also found to be 
motivating factors for child workers in a number of cases.\91\ 
In December 2013, Chinese media reported on the discovery of at 
least nine underage workers from the Yi ethnic minority group 
working in two electronics factories in Shenzhen municipality, 
Guangdong province.\92\ The underage workers were found to be 
from Liangshan Yi Autonomous Prefecture, Sichuan province, the 
location of a number of child labor trafficking cases reported 
on in recent years.\93\ The December 2013 case follows similar 
incidents in 2008 and 2011 in Guangdong involving underage 
workers from the same prefecture,\94\ indicating problems in 
preventing child labor and the trafficking of underage workers 
remain significant.
    The abuse of student workers in ``work-study'' programs and 
other related activities also continued to be a concern. 
National provisions prohibiting child labor provide that 
``education practice labor'' and vocational skills training 
organized by schools and other educational and vocational 
institutions do not constitute child labor when such activities 
do not adversely affect the safety and health of students.\95\ 
The PRC Education Law also supports schools that establish 
work-study programs, provided they do not negatively affect 
normal studies.\96\ The Commission has continued to observe 
reports,\97\ however, of internship programs that violate 
Chinese law and appear inconsistent with ILO standards.\98\

                              Prison Labor

    The use of forced labor in China's prison system and in 
other forms of detention remains inconsistent with Chinese law 
and in violation of international labor standards. Although the 
International Labour Organization's (ILO) core conventions on 
forced and compulsory labor provide an exception for prison 
labor on condition that the use of such labor is consistent 
with ILO guidelines,\99\ international human rights and non-
governmental organizations have documented cases in China in 
which the use of such labor--for example, in administrative 
detention facilities--conflicts with ILO guidelines.\100\ The 
guidelines include provisions, for example, that permit prison 
labor if it is ``exacted from [a] person as a consequence of a 
conviction in a court of law''; \101\ in China, however, 
administrative detention terms are issued without judicial 
process.\102\ The ILO guidelines also prohibit the use of 
forced labor ``as a means of political coercion or education or 
as a punishment for holding or expressing political views or 
views ideologically opposed to the established political, 
social or economic system.'' \103\ Amnesty International noted 
in a 2014 report submitted in advance of China's periodic 
review at the UN Committee on Economic, Social and Cultural 
Rights that ``falun gong practitioners, activists, and 
petitioners and human rights defenders'' had been subject to 
arbitrary detention in administrative detention facilities 
where forced labor practices are common.\104\ Moreover, the use 
of prison labor for the purpose of profit-making also 
contravenes ILO guidelines prohibiting the use of prison labor 
``for the purposes of economic development.'' \105\ Stuart 
Foster, a U.S. citizen imprisoned in China in 2013, stated in a 
National Public Radio broadcast in May 2014 that Christmas tree 
lights he assembled in prison reportedly were sold to 
``unwitting U.S. companies.'' \106\ The same broadcast 
indicated that a brief search online by National Public Radio 
found at least 24 Chinese prisons advertising prison labor to 
manufacture a number of goods.\107\ Despite not having ratified 
either of the ILO core conventions on forced and compulsory 
labor, as a member of the ILO, China remains obligated to 
respect certain basic internationally recognized labor rights, 
including those relating to forced and compulsory labor.\108\
    The announcement in December 2013 of the abolition of 
reeducation through labor,\109\ a form of administrative 
detention where individuals were often forced to work under 
harsh conditions,\110\ was welcomed by Chinese and 
international human rights groups.\111\ Reports have since 
emerged, however, indicating that Chinese authorities continue 
to use alternative forms of arbitrary detention in which forced 
labor practices and other human rights violations remain 
commonplace.\112\ U.S. government assessments, as well as 
international media reports from the past two years, indicate 
prison labor has been used to manufacture, among other 
products, toys, electronics, and clothing.\113\ The export to 
the United States of products manufactured through the use of 
forced labor in China's prison system and other forms of 
detention reportedly continues despite U.S.-China 
agreements.\114\ The 1992 Memorandum of Understanding on Prison 
Labor and 1994 Statement of Cooperation between the United 
States and China established mechanisms to safeguard against 
the export of prison products to the United States.\115\ 
Despite these agreements, slow and irregular cooperation by 
China in responding to U.S. concerns,\116\ as well as continued 
reports of prison labor exports to the United States,\117\ 
indicate significant obstacles remain.

                                 Wages

    Wages in China continued to increase this past year, 
reflecting growth rates that have seen regular increases in 
average wage levels over the past two decades amid continued 
economic growth.\118\ Reports suggest structural changes in 
China's labor market, in particular a decline in the growth of 
the working age population and continued sporadic labor 
shortages, are partially responsible for the upward pressure on 
wages.\119\ Local governments additionally continued to raise 
minimum wage levels this past year. The increases are in 
keeping with growth targets outlined in the 12th Five-Year Plan 
on Employment Promotion issued in 2011, which call for minimum 
wage levels to increase annually by an average of 13 percent 
and reach 40 percent of average urban salaries by 2015.\120\ 
During the 2014 reporting year, the Commission observed reports 
from Chinese media of increases in the statutory minimum wage 
in nine provincial- and municipal-level areas averaging 13 
percent.\121\
    At the same time, the growth of average wages and minimum 
wage levels has slowed over the past three years, while minimum 
wage levels in many cities are still far less than the 40 
percent target outlined in the 12th Five-Year Plan.\122\ Wages 
for migrant workers in particular continue to be well below the 
national average. Data published by the National Bureau of 
Statistics of China indicated the overall average wage in 2012 
was roughly 70 percent higher than the average wage for migrant 
workers during the same period.\123\ Reports also indicate 
rising living expenses, particularly for food and housing, 
continued to erode wage gains as workers spend a greater 
portion of their income on everyday necessities.\124\ Moreover, 
income inequality between different regions, industrial 
sectors, and groups of workers has been found to be steadily 
increasing.\125\ Chinese and international observers have 
separately calculated China's Gini coefficient, a common 
measure of income inequality, to range between 0.45 and 
0.55.\126\ A level over 0.50 is considered to indicate severe 
income inequality and present significant risks to social 
stability.\127\

                          Occupational Safety

    Workers in China continue to face significant occupational 
safety risks. Systemic problems in implementation and 
enforcement of workplace safety laws, as well as a lack of 
meaningful worker participation in workplace decisions that 
impact health and safety continue to constrain efforts to 
reduce industrial accidents.\128\ Despite officially reported 
deaths from industrial accidents declining by 3.5 percent in 
2013,\129\ an official from the State Administration for Work 
Safety continued to characterize industrial safety overall as 
``grim,'' highlighting a continued lack of effective safety 
oversight by central and local authorities.\130\ Poor safety 
management by factory officials and inadequate supervision by 
local authorities were two factors cited in an investigation 
into an explosion at an auto parts factory in Jiangsu province 
in August 2014 that left 75 workers dead and 185 injured.\131\ 
Safety inspectors from the local government had reportedly 
conducted a safety audit of the factory in July and officials 
confirmed a fire occurred at the factory in June, yet factory 
management still failed to implement remedial safety 
measures.\132\ A group of Chinese labor activists and academics 
issued a letter following the explosion calling for greater 
power to be given to workers to supervise workplace safety and 
engage in collective bargaining on safety-related issues in 
light of the failure of factory management and local government 
to protect workers.\133\
    Officially reported coal mine deaths declined in 2013 by 
24.4 percent,\134\ but human rights organizations suggested the 
actual number of deaths could be significantly higher due to 
underreporting.\135\ Even with the reported decline, the death 
toll for workers in China's coal industry reportedly remained 
more than 10 times higher than the rate in developed 
countries.\136\ Chinese media also continued to report on cases 
in which mine managers and local officials concealed 
information about mine accidents.\137\ During the same time 
period, the number of accidents and deaths that occurred in 
other resource extraction industries reportedly increased.\138\
    Reports from labor NGOs and Chinese and international media 
continue to highlight workplace abuses and poor working 
conditions throughout China.\139\ Low wages,\140\ exposure to 
harmful substances,\141\ and harsh management practices \142\ 
were cited as some of the major problems workers face. 
Excessive overtime in violation of Chinese labor law in 
particular continues to be a common problem.\143\ The director 
of the International Labour Organization's China office called 
excessive overtime in China's white-collar industries 
``worrying as a physical and mental-health hazard.'' \144\ An 
April 2014 Chinese academic report found that close to 700 
workers in the manufacturing hub of Dongguan municipality, 
Guangdong province had died in their sleep since 2004.\145\ 
Labor advocates and academics attributed the deaths in part to 
overwork, stating that low wages encouraged workers to work 
overtime.\146\

                          Occupational Health

    Many workers in China continue to face significant 
occupational health risks. Inadequate government supervision of 
industrial compliance with occupational health standards,\147\ 
illegal practices by employers,\148\ and a lack of training and 
knowledge among workers about health in the workplace \149\ 
reportedly contribute to the high risk of contracting 
occupational disease. According to figures from the National 
Health and Family Planning Commission, over 87 percent of 
officially reported cases of occupational disease in 2013 were 
for the lung disease pneumoconiosis.\150\ The Chinese NGO Love 
Save Pneumoconiosis estimates that six million migrant workers 
are afflicted with pneumoconiosis and that migrant workers 
represent 90 percent of all pneumoconiosis cases in China.\151\ 
Obtaining compensation for occupational disease remains a 
difficult and protracted process, particularly for those with 
pneumoconiosis.\152\ According to a July 2014 report published 
by Love Save Pneumoconiosis, only 17.3 percent of migrant 
workers diagnosed with pneumoconiosis obtained compensation, 
while 82.4 percent did not receive any medical treatment.\153\

------------------------------------------------------------------------
                 Working Conditions at Foxconn Factories
-------------------------------------------------------------------------
  In December 2013, the Fair Labor Association (FLA) released its final
 report on the implementation of labor reforms at three factories owned
 by Foxconn (one in Chengdu municipality, Sichuan province, and two in
 Shenzhen Special Economic Zone),\154\ a Taiwan-based multinational
 electronics manufacturer \155\ and supplier for Apple.\156\ This was
 the third and final progress report FLA released assessing
 implementation of labor reforms developed by Apple and Foxconn in
 response to the disclosure of poor working conditions at these Foxconn
 factories in March 2012.\157\ The report stated Foxconn had made
 ``steady progress'' in improving working conditions in the 15 months to
 December 2013, including reducing working hours and constructing
 additional exits and toilets at the three factories.\158\ At the same
 time, the report also indicated that all three factories continued to
 not be ``in compliance with Chinese labor law regarding hours of
 work,'' and that overtime in excess of the legal limit remained a
 problem during certain periods in 2013.\159\ Independent experts
 criticized the report for in part ``ignor[ing] crucial reforms promised
 by Apple and Foxconn,'' including wage increases and improving worker
 representation.\160\ The report stated FLA expected ``Apple will
 continue to monitor compliance at Foxconn,'' \161\ however it remains
 to be seen what measures it will take to remedy remaining problems at
 Foxconn factories. In addition, international and Chinese media reports
 published throughout the 2014 reporting year uncovered labor rights
 abuses at other Chinese manufacturers for Apple,\162\ highlighting the
 continuing problems Apple faces in managing its supply chain in China.
------------------------------------------------------------------------

                            Criminal Justice


               Abuse of Criminal Law To Suppress Dissent

    Developments in criminal justice during the Commission's 
2014 reporting year were driven by the Chinese Communist Party 
and government's paramount concerns: ``maintaining social 
stability'' (weiwen) and ensuring the continuance of one-party 
rule.\1\ The Commission observed the politically motivated use 
of criminal law and police power to suppress dissent and 
perceived challenges to Party rule.\2\ Authorities detained, 
questioned, disappeared, and threatened rights advocates, human 
rights lawyers, and journalists.\3\ The crackdown intensified 
around the 25th anniversary of the June 1989 Tiananmen protests 
and their violent suppression; as of July 24, 2014, the non-
governmental organization Chinese Human Rights Defenders (CHRD) 
had documented 152 individuals who had been affected, including 
44 criminal detentions, 15 short-term administrative 
detentions, and 20 confirmed arrests.\4\
    As part of the Party and government's ongoing crackdown on 
rights advocates, dissidents, and human rights lawyers, 
authorities have used vague crimes of an ostensibly non-
political nature (also known as ``pocket crimes'' or 
koudaizui),\5\ such as ``picking quarrels and provoking 
trouble'' and ``gathering a crowd to disturb order in a public 
place,'' to silence its critics.\6\ Experts have used the term 
``pocket crime'' to refer to crimes so vague that--as the U.S.-
based Dui Hua Foundation notes--``anything can be stuffed 
into'' them.\7\ According to CHRD, avoiding the use of 
``overtly political charges'' to suppress dissent is the 
government's attempt to downplay ``the political motivations 
behind the crackdown.'' \8\ In January 2014, authorities 
convicted Xu Zhiyong, a promoter of the New Citizens' Movement 
(NCM), of ``gathering a crowd to disturb order in a public 
place.'' \9\ Xu told an associate that the police told him that 
if he renounced the NCM he would be spared prison.\10\ Xu 
refused, and was subsequently sentenced to four years' 
imprisonment.\11\ In mid-April, authorities convicted four 
other NCM-affiliated asset transparency advocates of disturbing 
public order charges and sentenced them to prison terms of 
between two years and three years and six months.\12\ In the 
run-up to the 25th anniversary of the violent suppression of 
the 1989 Tiananmen protests, public security officials charged 
numerous human rights advocates and lawyers, including 
prominent public interest lawyer Pu Zhiqiang, with ``pocket 
crimes.'' \13\

                          Arbitrary Detention

    According to the UN Working Group on Arbitrary Detention 
(WGAD),\14\ the deprivation of personal liberty is 
``arbitrary'' if it meets one of the following criteria: (1) 
There is clearly no basis in law for such deprivation; (2) an 
individual is deprived of his or her liberty for having 
exercised rights under the Universal Declaration of Human 
Rights (UDHR) and the International Covenant on Civil and 
Political Rights (ICCPR); or (3) there is grave noncompliance 
with fair trial standards set forth in the UDHR and other 
international human rights instruments.\15\
    Despite the Chinese government's claim in connection with 
its October 2013 UN Human Rights Council Universal Periodic 
Review (UPR) that ``[t]here are no arbitrary or extrajudicial 
detentions in China,'' \16\ during the past year many human 
rights advocates were arbitrarily detained in detention centers 
or prisons under WGAD's second and/or third criteria (e.g., Xu 
Zhiyong, Pu Zhiqiang, Uyghur scholar Ilham Tohti, and Pastor 
Zhang Shaojie).\17\ Authorities also arbitrarily detained 
Chinese citizens using other venues and methods, which include, 
among others, unlawful detention sites known as ``black jails'' 
(hei jianyu), shuanggui (a form of Communist Party discipline), 
enforced disappearance, ``soft detention'' (ruanjin), and 
various forms of administrative detention such as ``custody and 
education'' (for sex workers and their clients) and compulsory 
drug detoxification centers.\18\ Many forms of arbitrary 
detention violate China's own laws.\19\

                              BLACK JAILS

    The UN Committee against Torture observed in December 2008 
that detention of individuals in secret detention facilities 
``constitutes per se disappearance.'' \20\ ``Black jails'' are 
secret detention facilities that operate completely outside of 
China's official judicial and administrative detention 
systems.\21\ Although the Chinese government stated during its 
October 2013 UPR that China ``would never allow . . . 
establishment of any forms of `black jails,' '' \22\ several 
reports suggest that the use of such facilities has become even 
more prevalent in the aftermath of the abolition of reeducation 
through labor.\23\ The term ``black jails'' is often used to 
refer to different types of extralegal detention in China, 
including ``legal education centers'' (also known as 
``brainwashing classes''),\24\ ``legal education classes,'' 
``reprimand centers,'' and in at least one instance, unlawful 
home confinement.\25\

      ABOLITION OF REEDUCATION THROUGH LABOR AND ITS CONSEQUENCES

    A significant development during the Commission's 2014 
reporting year was the long-awaited abolition of reeducation 
through labor (RTL), a form of administrative detention whereby 
individuals could be detained for up to four years without 
trial.\26\ In November 2013, the Chinese Communist Party 
announced in the Central Committee Third Plenum Decision on 
Certain Major Issues Regarding Comprehensively Deepening 
Reforms (Third Plenum Decision) that it would abolish RTL,\27\ 
and on December 28, 2013, the National People's Congress 
Standing Committee issued a decision officially revoking the 
RTL regulations.\28\ While RTL's abolition was welcomed by 
many, including domestic and international human rights 
groups,\29\ at the same time, concerns were raised about what 
might replace reeducation through labor.\30\ Reports have 
emerged that since the gradual phasing out of RTL, which began 
in early 2013,\31\ Chinese authorities have increasingly relied 
on other forms of arbitrary detention to ``manage'' the 
``targeted population,'' (zhongdian renkou) which include 
groups such as petitioners and Falun Gong practitioners.\32\ In 
November 2013, the mainland-based Chinese Human Rights Lawyers 
Group called on the government to abolish so-called ``legal 
education centers,'' ``legal education classes,'' ``reprimand 
centers,'' and every other kind of ``black jail,'' or RTL ``in 
disguised form.'' \33\ A writer for the Guangdong province-
based magazine South Reviews (Nanfeng Chuang) argued in April 
2014 that the existence of RTL's ``little friends'' 
demonstrates that the ``RTL mindset'' (laojiao siwei) has not 
yet been eradicated.\34\ According to human rights lawyer Jiang 
Tianyong, ``[s]o long as (the authorities) feel a need to 
maintain stability, simply abolishing laojiao [RTL] will not 
solve the problem.'' \35\
    Chinese authorities have transformed many RTL facilities 
into compulsory drug detoxification centers,\36\ which suffer 
from the same legal and human rights problems as RTL.\37\ Human 
Rights Watch estimated that at the beginning of 2013 more than 
half of those detained nationwide in RTL facilities were drug 
offenders.\38\ In a December 2013 report, Amnesty International 
observed that some former RTL inmates have ended up in 
compulsory drug detoxification centers irrespective of whether 
they were drug addicts.\39\
    Some Falun Gong practitioners released from RTL have been 
sent to compulsory drug detoxification centers, including to 
the former Masanjia RTL facility, which has been ``rebranded'' 
as a drug detox center and also serves as part of the Liaoning 
provincial prison system.\40\ Amnesty reports that a former RTL 
facility in Heilongjiang province was repurposed as a 
``brainwashing center'' (i.e., ``legal education center'') to 
detain Falun Gong practitioners.\41\ Authorities have 
reportedly used ``legal education centers'' extensively for 
more than a decade to detain Falun Gong practitioners in 
furtherance of their goal to ``transform'' them.\42\ Such 
centers have reportedly increased as the RTL system has been 
dismantled.\43\ Prominent human rights lawyer and scholar Teng 
Biao writes that even incomplete statistics reveal that six 
times as many Chinese citizens were detained in such centers 
during the second half of 2013, compared with the first half of 
2013 when many RTL facilities were still open.\44\ Amnesty 
documented the case of more than 10 Falun Gong practitioners--
previously detained in the Nanchong RTL facility in Sichuan 
province--who were transferred to a ``brainwashing center'' 
after the RTL facility was shut down because they persisted in 
their beliefs and refused to be ``transformed.'' \45\ In the 
spring of 2014, a ``legal education center'' in Jiansanjiang, 
Fujin county, Heilongjiang, was shut down in the wake of the 
publicity surrounding the detention and torture of four human 
rights lawyers who went to Jiansanjiang to provide legal 
assistance to Falun Gong practitioners detained there.\46\ 
However, authorities have reportedly replaced the Jiansanjiang 
facility with a compulsory drug detoxification center in 
Qiqiha'er city, Heilongjiang, which is being used as a ``legal 
education center'' to detain Falun Gong practitioners.\47\
    Scholars and activists have also raised concerns about 
``custody and education'' (C&E)--a system of extralegal 
detention for female sex workers and their clients--and some 
suspect that it may become another substitute for RTL.\48\ The 
decision to send a sex worker or a client to C&E, for between 
six months and two years, is made by public security officials 
alone, with no judicial involvement or oversight.\49\ Detainees 
are forced to work long hours without pay and are also required 
to pay for their living expenses.\50\ In early May 2014, 108 
lawyers, scholars, retired officials, and others signed an open 
letter to the National People's Congress (NPC) calling for the 
abolition of C&E.\51\ Prominent legal scholar Jiang Ping and 
more than 40 others submitted a similar petition to the NPC in 
June following the announcement that a six-month C&E term had 
been meted out to a well-known actor for allegedly soliciting a 
prostitute.\52\

------------------------------------------------------------------------
                       Community Correction System
-------------------------------------------------------------------------
  Community correction is purportedly a non-custodial system within
 which offenders on parole or probation, or those otherwise subject to
 ``light punishments,'' are monitored, educated, and subjected to
 various restrictions, with the goal of re-integrating the offenders
 into the community.\53\ In the Third Plenum Decision, the Party stated
 not only that it would abolish RTL, but that it would also ``improve
 laws for the punishment and correction of unlawful and criminal acts,
 and perfect the community correction system,'' \54\ leading some
 observers to suspect that community correction might replace RTL.\55\
 In February 2014, as the National People's Congress Standing Committee
 (NPCSC) began reviewing a proposed Community Correction Law drafted by
 the Ministry of Justice (MOJ),\56\ more than 100 lawyers and citizens
 jointly submitted a ``citizens' appeal'' to the NPCSC calling on it to
 cease its review, citing a concern that community correction would be
 the return of RTL in disguised form.\57\ In June 2014, the Dui Hua
 Foundation noted that some former RTL centers had reportedly become
 community correction centers.\58\ Moreover, some former RTL guards have
 been transferred to community correction halfway houses in Beijing
 municipality.\59\ Since community correction was first introduced as a
 pilot program in several cities in 2003, it has expanded
 dramatically.\60\ According to statistics from the MOJ, as of November
 2013, 1.7 million individuals--including 667,000 people then currently
 in the system--had received community correction since 2003.\61\
------------------------------------------------------------------------

           Implementation of the 2012 Criminal Procedure Law

    The 2012 Criminal Procedure Law (CPL), which took effect on 
January 1, 2013,\62\ contains provisions that--if implemented 
effectively--could enhance certain fair trial rights of 
suspects and defendants and the ability of criminal defense 
lawyers to better defend their clients.\63\ In effect for over 
a year, preliminary reports on the implementation of the new 
CPL indicate that there has been improvement in certain areas, 
such as in the ability of lawyers to meet with their detained 
clients.\64\ Implementation of other new provisions, such as 
those aimed at increasing the appearance rate of witnesses and 
excluding illegally obtained evidence, however, has proven more 
difficult.\65\

                           ACCESS TO COUNSEL

    Although most Chinese suspects and defendants face the 
criminal justice process without a defense attorney,\66\ 
lawyers and legal scholars note that detained individuals who 
have legal representation are now more likely to be able to 
meet with their lawyers than before the new CPL took 
effect.\67\ The new CPL stipulates that a lawyer need only show 
``three certificates'' (i.e., a lawyer's license, a law firm 
certificate, and a client engagement letter), and the detention 
center must arrange for a meeting within 48 hours of the 
request.\68\ Prior permission is required, however, in ``three 
categories of cases'' (sanlei anjian)--those involving 
endangering state security, terrorism, or serious bribery.\69\ 
Lawyers across China who responded to a survey on 
implementation of the new CPL conducted by the Beijing-based 
criminal defense firm Shangquan Law Firm (Shangquan survey) 
noted a general improvement in their ability to meet with 
detained clients.\70\ According to the Prison Administration 
Bureau of the Ministry of Public Security, the number of 
attorney-client meetings rose 30 percent between January and 
February 2013, despite there being only 17 work days in 
February.\71\
    Lawyers and legal scholars indicated, however, that new 
problems have emerged that hinder the ability of lawyers to 
meet with their detained clients.\72\ The most pressing issue 
reportedly is the lack of a sufficient number of attorney-
client meeting rooms to handle the increased volume of 
meetings.\73\ Some lawyers who responded to the Shangquan 
survey reported encountering additional conditions imposed by 
detention center staff before they would arrange a lawyer-
client meeting, such as requiring the lawyer to produce the 
original detention notice or proof of the relationship between 
the detainee and the person who retained the attorney.\74\ 
Other lawyers noted that public security officers were 
increasingly and arbitrarily invoking the exception of ``three 
categories of cases'' to reject lawyers' requests to meet 
detained clients.\75\
    In ``politically sensitive'' cases, public security 
officials routinely prevented lawyers from meeting with 
detained clients.\76\ Uyghur scholar Ilham Tohti was held 
incommunicado in an unknown location from January 15, 2014, 
until late June when his lawyers, Li Fangping and Wang Yu, were 
finally permitted to meet with him.\77\ Moreover, in further 
contravention of the CPL, Urumqi procuratorial officials 
indicted Tohti without first informing his lawyers and 
listening to their opinions.\78\ [See Section IV--Xinjiang 
section for more information on Ilham Tohti's case.] In June 
2014, a group of human rights lawyers protested against 
authorities in Zhengzhou city, Henan province, for denying 
detained human rights lawyer Chang Boyang and other activists 
their right to meet with an attorney.\79\ Despite Chang's 
initial charge of ``gathering a crowd to disturb order in a 
public place,'' which was later changed to ``illegal business 
activities,'' \80\ authorities have invoked the ``three 
categories of cases'' to deny lawyers' repeated requests to 
meet with Chang.\81\ It was not until early September 2014 that 
officials finally allowed a meeting between Chang and his 
lawyer.\82\ In the case of veteran journalist Gao Yu, 
authorities held her for two weeks, without access to counsel, 
before broadcasting her videotaped ``confession'' on national 
television in early May 2014.\83\ Officials rejected repeated 
requests by prominent lawyer Zhang Sizhi to meet with Gao, 
permitting a first meeting only in late June 2014.\84\ Lawyers 
also have reported cases of police holding suspects in 
detention centers under false names, thereby denying lawyers' 
access to their clients.\85\

                           WITNESSES IN COURT

    A long-standing problem is the lack of witnesses appearing 
in court in criminal prosecutions; in China less than five 
percent of criminal cases proceed with in-court witnesses.\86\ 
The 2012 revisions to the Criminal Procedure Law (CPL) sought 
to address this issue by authorizing courts to subpoena 
witnesses to appear in court and provide testimony when the 
court believed such testimony was necessary.\87\ Nevertheless, 
according to legal experts and lawyers who responded to the 
Shangquan survey, there has been no discernible increase in the 
rate of witnesses appearing in court to give testimony in 
criminal cases since the revised CPL took effect.\88\ In 
``politically sensitive'' cases, courts routinely reject 
applications by defense attorneys to have witnesses appear to 
present testimony; for example, during this reporting year, 
courts denied lawyers' witness requests in the trials of Pastor 
Zhang Shaojie and New Citizens' Movement promoter Xu 
Zhiyong.\89\

                EXCLUSION OF ILLEGALLY OBTAINED EVIDENCE

    Another important revision in the 2012 CPL was the 
inclusion of provisions requiring the exclusion of illegally 
obtained evidence; in practice, however, the implementation of 
the exclusionary rule has thus far had little success.\90\ In 
March 2014, the Beijing Evening News reported prominent 
Beijing-based criminal law professor Chen Guangzhong as stating 
that even if evidence is occasionally excluded under the rule, 
it is usually not a key piece of evidence, and in the end, its 
exclusion has no impact on the verdict or sentence in the 
case.\91\ In addition, over 40 percent of the lawyers in the 
Shangquan survey indicated that although they had applied to a 
court to exclude illegally obtained evidence, the courts failed 
to respond to their applications.\92\ In April 2014, law 
professor Eva Pils remarked that Chinese criminal defense 
lawyers had told her ``it's extremely difficult to use the 
[exclusionary] rule in trial processes.'' \93\

------------------------------------------------------------------------
                          Televised Confessions
-------------------------------------------------------------------------
  A disturbing development emerged during this reporting year: the
 broadcasting on state television of videotaped ``confessions'' of high-
 profile suspects.\94\ Veteran journalist Gao Yu went missing on April
 24, 2014.\95\ About two weeks later, a national television broadcast
 showed the 70-year-old Gao in an orange jail vest ``confessing'' to the
 alleged charges of ``leaking state secrets.'' \96\ Authorities had
 detained Gao on April 24 and held her incommunicado, without access to
 an attorney.\97\ Her ``confession''--which may have been coerced--
 deprived her of many of the rights accorded suspects and defendants in
 the 2012 CPL \98\--including the prohibition against self-incrimination
 \99\--not to mention the fair trial rights contained in Article 14 of
 the International Covenant on Civil and Political Rights.\100\ Other
 prominent televised ``confessions'' this year included Chinese-American
 businessman and influential blogger Charles Xue,\101\ journalist Chen
 Yongzhou,\102\ and Sichuan mining tycoon Liu Han, who reportedly had
 links to Zhou Yongkang, former Secretary of the Communist Party Central
 Committee Political and Legal Affairs Commission, and who was
 subsequently sentenced to death.\103\ According to human rights lawyer
 Liu Xiaoyuan, not only is the televising of confessions an abuse of
 power but there is no legal basis in the PRC Criminal Procedure Law or
 other relevant regulations that would permit television crews to enter
 detention centers and interview suspects.\104\ Moreover, fairness and
 justice are compromised; as Liu told the Los Angeles Times, ``judges
 will feel a lot of pressure to render guilty verdicts'' in televised
 confession cases.\105\
------------------------------------------------------------------------

                      Torture and Abuse in Custody

    Despite the Chinese government's heightened focus on the 
problem of torture in custody and confessions obtained through 
torture, the practice remains prevalent.\106\ For example, in 
March 2014, police officers in Heilongjiang province tortured 
four human rights lawyers to extract confessions; the lawyers, 
including Tang Jitian, had traveled to Jiansanjiang to assist 
Falun Gong practitioners detained in a ``legal education 
center.'' \107\ Jiansanjiang police officers broke 10 of Tang's 
ribs and domestic security officers interfered when Tang 
subsequently tried to obtain treatment at a hospital.\108\ Liu 
Wei, brother and co-defendant of Sichuan tycoon Liu Han, 
reportedly stated during his trial that his confession had been 
coerced while he was in police custody in Beijing; police 
officers beat him daily and made threats against his family if 
he did not confess.\109\ While detaining Uyghur scholar Ilham 
Tohti incommunicado, authorities reportedly kept Tohti in leg 
irons for 20 days and denied him food for 10 days.\110\
    Torture and abuse are common in extralegal detention 
facilities such as ``black jails,'' ``legal education 
centers,'' and shuanggui (``double regulation'' or ``double 
designation'') facilities.\111\ According to prominent rights 
lawyer and scholar Teng Biao, torture occurs more frequently in 
``legal education centers'' than in any other form of detention 
in China.\112\ Shuanggui is extralegal detention used primarily 
for Chinese Communist Party officials who are suspected of 
corruption or other infractions.\113\ The main objective of 
shuanggui is the extraction of confessions.\114\ Details of 
torture recently emerged in a shuanggui case from 2012 
involving Zhou Wangyan, a former official in Liling city, Hunan 
province.\115\ In order to extract a confession from Zhou, 
authorities broke Zhou's leg and four of his teeth, deprived 
him of sleep and food, whipped him with wires, and forced him 
to eat excrement.\116\
    The U.S. State Department stated in its country report on 
China's human rights situation for 2013 that ``adequate, timely 
medical care for prisoners remained a serious problem.'' \117\ 
Human rights activist Cao Shunli died on March 14, 2014, as a 
result of complications stemming from a chronic medical 
condition for which she did not receive adequate, prompt 
medical care during five months of criminal detention.\118\ 
Authorities denied her lawyer's repeated requests for medical 
parole until Cao was gravely ill; Cao died shortly after her 
release.\119\ While Cao was detained, authorities denied Cao 
access to medication she had with her.\120\ Similarly, 
detention center officials confiscated the personal medications 
of public interest lawyer Pu Zhiqiang and retired scholar Xu 
Youyu, both of whom suffer from diabetes and high blood 
pressure, and instead offered them pills they reportedly did 
not recognize.\121\ According to Ilham Tohti's lawyer, Li 
Fangping, Tohti is suffering from serious illnesses for which 
he is not receiving adequate treatment.\122\ Tohti had 
reportedly lost 17 pounds since he was first detained in mid-
January 2014, and suffers from heart disease, prostatitis, and 
pharyngitis.\123\ Blind legal advocate Chen Guangcheng's 
nephew, Chen Kegui, who is serving a three-year-and-three-month 
sentence for ``intentional injury,'' has not been provided 
adequate medical treatment for appendicitis and injuries 
sustained from beatings in detention.\124\ Moreover, 
authorities have denied multiple requests seeking Chen's 
release on medical parole.\125\

                          Wrongful Convictions

    During the Commission's 2014 reporting year, the Chinese 
Communist Party and government have intensified calls to 
prevent and correct wrongful convictions and miscarriages of 
justice.\126\ From the Third Plenum Decision to related 
opinions issued by the Supreme People's Court (SPC) and Supreme 
People's Procuratorate (SPP) in late 2013, and the SPC and SPP 
annual work reports submitted to the National People's Congress 
(NPC) in March 2014, President and Party General Secretary Xi 
Jinping's message has been clear: wrongful convictions must 
stop.\127\ Xi emphasized the point in a speech in which he said 
that the negative effects of 1 wrongly decided case destroy the 
positive image of 99 fair decisions.\128\ According to official 
statistics, in 2013, procuratorates rectified 72,370 instances 
of collection of evidence by illegal means, confessions coerced 
through torture, and misuse of coercive measures.\129\ Wrongful 
convictions are closely linked to coercion of confessions 
through torture.\130\ As mentioned above, the 2012 Criminal 
Procedure Law prohibits the use of illegally obtained evidence 
in criminal proceedings, but there have been few reports of 
successful implementation of the rule.\131\ While the new 
measures and repeated statements by senior Chinese government 
leaders emphasizing the urgency of the issue of wrongful 
convictions are noteworthy, whether they will make a difference 
in practice remains to be seen. According to China law expert 
Stanley Lubman, these efforts ``are best seen as 
aspirational.'' \132\

                             Death Penalty

    The Chinese government continues to withhold statistics on 
the use of the death penalty on ``state secrets'' grounds.\133\ 
During the October 2013 session of the UN Human Rights 
Council's Universal Periodic Review of the Chinese government's 
human rights record, a number of countries raised the issue of 
the death penalty in China,\134\ including the lack of 
transparency regarding data on its application.\135\ The 
Chinese government rejected recommendations that it publish 
official statistics on the application of the death 
penalty.\136\
    As in 2012, Amnesty International concluded that, based on 
available information, the Chinese government executed more 
people in 2013 than the rest of the world combined.\137\ The 
trend, however, is toward fewer executions; the Dui Hua 
Foundation estimated that 3,000 people were executed in 2012, a 
decrease of 25 percent from the estimated figure for 2011.\138\ 
The Chinese government has indicated that it will continue to 
reduce the number of death penalty-eligible crimes, which 
currently stands at 55.\139\ During the March 2014 annual 
meeting of the National People's Congress (NPC), an official 
with the NPC Standing Committee stated that, in conformance 
with the Third Plenum Decision directive to gradually reduce 
the number of death penalty-eligible crimes,\140\ work on an 
amendment to the PRC Criminal Law along these lines was 
included in the annual legislative plan.\141\ In addition, at 
the NPC annual meeting, 36 delegates proposed that the death 
penalty be abolished for the crime of ``fraudulent 
fundraising,'' an issue that garnered substantial attention 
following the controversial execution of Hunan businessman Zeng 
Chengjie in July 2013.\142\
    Organs are still harvested from executed prisoners in 
China, and the extent to which rules requiring prior informed 
consent are followed is unclear.\143\ As the Commission noted 
last year, in August 2013 former Vice Minister of China's 
Ministry of Health, Huang Jiefu, reportedly announced that 
China would cease relying on the organs of executed prisoners 
within the next two years.\144\ In March 2014, however, Huang 
reportedly stated that to ensure transparency and fairness in 
connection with organs donated by executed prisoners, such 
donations would be included in the national public organ 
donation system.\145\ Moreover, in April, Wang Haibo, the 
director of the China Organ Transplant Response System Research 
Center at the National Health and Family Planning Commission, 
stated that the Chinese government was unable to announce a 
specific timetable for ending the practice of using the organs 
of executed prisoners for organ transplants because of the low 
number of donors and a severe organ shortage.\146\

                          Freedom of Religion


                        International Standards

    During the Commission's 2014 reporting year, the Chinese 
government continued to restrict Chinese citizens' freedom of 
religion. China's Constitution guarantees freedom of religious 
beliefs but limits protection only to ``normal religious 
activities.'' \1\ This narrow protection contravenes 
international human rights standards. Article 18 of the 
Universal Declaration of Human Rights (UDHR) and Article 18 of 
the International Covenant on Civil and Political Rights 
(ICCPR) recognize not only an individual's right to adopt a 
religion or belief, but also the freedom to manifest one's 
religion in ``worship, observance, practice and teaching.'' \2\ 
The Chinese government continued to recognize only five 
religions--Buddhism, Catholicism, Islam, Protestantism, and 
Taoism. Groups wishing to practice these religions were 
required to register with the government and were subject to 
ongoing government controls.\3\ Both registered and 
unregistered religious groups deemed to run afoul of state-set 
parameters continued to face harassment, detention, 
imprisonment, and other abuses, and the government continued to 
outlaw some religious and spiritual communities, including 
Falun Gong.

                    Regulatory and Policy Framework

    During this reporting year, Chinese leaders continued to 
view religion as an instrument to support government and 
Communist Party overall policy goals. In the 2014 government 
work report presented during the 12th National People's 
Congress, Premier Li Keqiang said that the government will 
``fully implement the Party's basic policies for religious work 
to promote harmonious religious relations, and religious people 
and adherents will play an active role in the promotion of 
economic and social development.'' \4\ Wang Zuo'an, Director of 
the State Administration for Religious Affairs (SARA), wrote in 
a November 2013 article that, ``[o]ur Party has consistently 
emphasized that religious work is a key component of the 
Party's united-front work, and religious people are important 
targets of united-front work and a key component of the Party's 
patriotic United Front.'' \5\ Wang stressed that ideological 
work must be carried out by using ``guidance, enlightenment, 
and persuasion,'' and religious adherents are to work with non-
religious people to achieve the ``Chinese dream--the great 
rejuvenation of the Chinese nation.'' \6\ SARA's 2014 work plan 
also noted that in 2014, religious work should reflect the 
``resolute implementation of the Communist Party Central 
Committee and the State Council's strategic decisions.'' \7\
    The Chinese government continued to use laws, regulations, 
and policy measures to control religious practices in China, 
rather than protect the religious freedom of all Chinese 
citizens. During this reporting year, SARA issued or amended a 
number of legal and policy measures to implement the 2005 
Regulations on Religious Affairs (RRA).\8\ These measures have 
added more clarity to ambiguous provisions in the RRA, but also 
articulated more enhanced state control over religious 
activities. The SARA Measures on Administrative Licensing 
clarified RRA provisions concerning procedures for issuing 
various administrative licenses to religious groups.\9\ The 
SARA Measures on Administrative Punishment provided detailed 
procedures for imposing administrative punishments on religious 
groups and government employees that violate relevant laws and 
regulations governing religious activities in China.\10\ SARA 
also issued a guideline stipulating that government personnel 
will be held accountable for misconduct committed during 
administrative enforcement.\11\ While such a guideline 
potentially denotes a positive development, it remains to be 
seen whether authorities will enforce it in practice.

                         Buddhism (Non-Tibetan)

    This past year, the Chinese government and Communist Party 
continued to ensure that Buddhist doctrine and practice 
conformed to government and Party objectives in the non-Tibetan 
areas of China. [For information on Tibetan Buddhists, see 
Section V--Tibet.] In a speech delivered at the opening 
ceremony of a Chinese Buddhism scripture-reading seminar held 
in October 2013, Jiang Jianyong, the Deputy Director of State 
Administration for Religious Affairs (SARA), reiterated the 
expectation that Chinese Buddhists ``raise the banner of loving 
the nation and loving religion, and walk in the path of 
adapting to socialist society''; and that the Chinese Buddhist 
community must ``promote correct beliefs and correct conduct, 
further strengthen the building of faith, [and] oppose 
[religious] fanaticism and various heresies . . . .'' \12\
    SARA's 2014 work plan called for ``intensified 
implementation'' of the 2012 joint opinion, issued by 10 
central government agencies, that regulates the management of 
Buddhist monasteries and Taoist temples.\13\ The 2012 joint 
opinion, in conjunction with the 2005 RRA, prohibits 
unregistered organizations and religious sites from conducting 
religious activities.\14\ For example, in February 2014, local 
authorities in the Xiang'an district of Xiamen city, Fujian 
province, amassed over 100 urban management officers 
(chengguan) to demolish an ``illegally constructed'' Buddhist 
temple, resulting in a violent clash between local residents 
and chengguan.\15\ In addition, on July 29, 2014, public 
security authorities in Zhuhai city, Guangdong province, 
reportedly raided Buddhist group ``Huazang Famen'' \16\ and 
criminally detained 15 people, including its founder Wu Zeheng, 
for ``using a cult to undermine implementation of the law, to 
commit fraud, rape, and other criminal activities.'' \17\ 
According to a letter to the UN Special Rapporteur on Torture 
sent on behalf of Wu, the crackdown on ``Huazang Famen'' 
appears to be an ``extension of China's clampdown on so-called 
`evil cults.' '' \18\

                              Catholicism

    During the Commission's 2014 reporting year, the Chinese 
government and Communist Party continued to interfere with the 
religious activities of China's estimated 12 million Catholics, 
who are split more or less evenly between the state-controlled 
church and an underground Catholic community.\19\ The state-
controlled church continued to deny Catholics in China the 
freedom to accept the authority of the Holy See to select 
bishops, and authorities continued to harass Catholics who 
practice their faith outside of state-approved parameters.\20\

                   HARASSMENT AND DETENTION OF CLERGY

    This past year, two prominent members of the underground 
Catholic clergy who had endured decades of government 
harassment passed away. In October 2013, Bishop Peter Liu 
Guandong--the retired head of the Yixian diocese in Hebei 
province and the key figure in setting up a conference of 
Catholic bishops loyal to the Holy See--died at the age of 
94.\21\ Bishop Liu spent years in prison for his opposition to 
the state-controlled Chinese Catholic Patriotic Association 
(CPA) and had been living in hiding since 1997.\22\ Liu 
reportedly was buried at an unknown location.\23\ In March 
2014, Bishop Joseph Fan Zhongliang, the head of the underground 
conference of Catholic bishops who was appointed the bishop of 
the Shanghai diocese by Pope John Paul II in 2000, died at the 
age of 95.\24\ Bishop Fan spent more than two decades in prison 
and labor camps, and his final years reportedly under ``house 
arrest.'' \25\ Government officials turned down a request to 
hold a funeral for Fan at the city's main cathedral, and 
allowed only a small service at a funeral home.\26\ Over 5,000 
mourners and 61 priests reportedly came to bid farewell to Fan, 
but authorities denied some CPA bishops access to the funeral 
home.\27\
    Bishop Fan's presumed successor, Bishop Thaddeus Ma Daqin, 
continued to be confined at the Sheshan seminary,\28\ following 
his public resignation from the state-run CPA in July 2012.\29\ 
Authorities reportedly subjected Ma to political indoctrination 
three times a week for an unknown period of time.\30\ Overseas 
and underground Chinese Catholics requested that authorities 
allow Ma to preside over Bishop Fan's funeral, but Bishop Ma 
was not present at the service.\31\ In addition, in early 
October 2013, two underground priests, Tian Dalong and an 
unknown priest, reportedly were detained for organizing adult 
catechism classes in Qinyuan county, Baoding municipality, 
Hebei province.\32\ Four lay adherents who helped the priests 
with their pastoral activities were fined 4,000 yuan (US$640) 
each.\33\ On May 30, 2014, authorities in Linchuan district, 
Fuzhou city, Jiangxi province detained underground priest John 
Peng Weizhao at an unknown location; Peng was appointed 
administrator of the Yujiang diocese by the Holy See in 
2012.\34\

                        CHINA-HOLY SEE RELATIONS

    The Chinese government does not maintain diplomatic 
relations with the Holy See, and relations between the two 
sides have been strained since 2011 due to papal rejection of 
unilateral bishop appointments made by the CPA.\35\ Despite the 
lack of formal ties, Pope Francis acknowledged in an interview 
that ``relations exist'' between China and the Holy See, and 
that he exchanged letters with President Xi Jinping.\36\ In 
August 2014, China permitted Pope Francis to fly over China for 
his visit to South Korea, marking the first time a pope has 
been allowed to do so since 1951.\37\ During flights to and 
from South Korea, Pope Francis sent two goodwill messages to 
President Xi Jinping upon entering China's airspace.\38\ The 
Pope also openly expressed his desire to visit China soon, but 
he insisted on one condition, that the Catholic Church be 
allowed to operate freely.\39\ In response to Pope Francis' 
comments, Hua Chunying, a spokesperson of the Ministry of 
Foreign Affairs, indicated that China is willing to have a 
``constructive dialogue'' with the Holy See and improve 
bilateral ties.\40\ CPA Vice President Liu Yuanlong, however, 
warned that ``China will always safeguard its sovereignty and 
territorial integrity and it never allows foreign forces to 
interfere with religion. The Vatican should respect China in 
terms of the personnel of a diocese.'' \41\ In addition, 
Chinese authorities reportedly blocked Chinese Catholics from 
traveling to South Korea,\42\ and threatened those who were 
already in South Korea not to participate in events during the 
papal visit.\43\

                               Falun Gong

    This past year, the Chinese government and Communist Party 
continued to carry out a campaign--initiated in 1999--of 
extensive, systematic, and in some cases violent efforts to 
pressure Falun Gong practitioners to renounce their belief in 
and practice of Falun Gong.\44\ The government and Party refer 
to this process as ``transformation through reeducation,'' or 
simply ``transformation.'' \45\ Starting in 2013, the 
government and Party launched a three-year ``decisive-battle'' 
campaign aimed at reducing Falun Gong activities and 
``transforming'' Falun Gong practitioners.\46\ The campaign has 
been carried out at all levels of government, and authorities 
have set specific ``transformation'' quotas to meet local 
goals.\47\ Words such as ``battle,'' ``attack,'' and ``resist'' 
appeared on official government Web sites, indicating the 
aggressive nature of the campaign and the government and 
Party's continued emphasis on the suppression of Falun 
Gong.\48\ Authorities labeled Falun Gong practitioners as 
``stubborn'' and ``obsessive,'' needing to be ``educated, 
saved, and transformed'' for the creation of a ``harmonious and 
stable social environment.'' \49\ Furthermore, the China Anti-
Cult Association, an organization affiliated with the 
government and Party,\50\ specifically named Falun Gong as the 
first of ``20 cults'' that ``endanger social stability and 
public safety.'' \51\
    The Commission continued to observe reports of targeted 
abuse of Falun Gong practitioners by Chinese government 
authorities and the 610 Office--an extralegal, Party-run 
security apparatus created in June 1999 to implement the ban 
against Falun Gong.\52\ According to Minghui (aka Clear 
Wisdom), a U.S.-based news organization affiliated with Falun 
Gong, in numerous cases authorities abducted Falun Gong 
practitioners from their homes \53\ and detained them at 
various facilities, including public security bureau detention 
centers,\54\ reeducation through labor centers,\55\ 
prisons,\56\ and ``transformation through reeducation centers'' 
(also known as ``legal education centers'' or ``brainwashing 
centers'').\57\ Authorities took measures to ``transform'' 
detainees, subjecting them to sleep deprivation,\58\ food 
deprivation,\59\ forced feeding,\60\ beatings,\61\ electric 
shock,\62\ mental abuse,\63\ sexual abuse,\64\ and other cruel 
treatment.\65\ For example, the Commission observed a May 2014 
report about a Falun Gong practitioner Yang Chunling, who 
passed away in April 2014 due to injuries she allegedly 
sustained during detention.\66\ Prison authorities reportedly 
subjected her to sleep deprivation, suffocation with a plastic 
bag pulled over her head, repeated beatings, and other forms of 
abuse that resulted in physical injuries.\67\ Furthermore, 
international observers asserted that possible organ harvesting 
from Falun Gong practitioners continued in the past reporting 
year.\68\ According to a July 2014 Minghui report, since July 
20, 1999, Chinese authorities' persecution of Falun Gong 
practitioners has resulted in at least 3,769 deaths.\69\
    Authorities also harassed and detained persons who 
attempted to assist Falun Gong practitioners, including lawyers 
who sought to provide legal assistance to their clients. In 
March 2014, lawyers Tang Jitian, Jiang Tianyong, Wang Cheng, 
and Zhang Junjie visited the Jiansanjiang ``legal education 
center'' in Heilongjiang province, attempting to secure the 
release of detained Falun Gong practitioners.\70\ Local 
authorities reportedly abducted the four lawyers from their 
hotel,\71\ detained them at a local public security bureau,\72\ 
and accused them of ``using cult activities to endanger 
society.'' \73\ Authorities then subjected the lawyers to 
beatings during detention, resulting in physical injuries.\74\ 
Local authorities reportedly forced the lawyers to sign a 
statement confessing that they ``disturbed public order,'' and 
threatened Tang Jitian that he would be ``buried alive.'' \75\ 
Authorities also allegedly detained and tortured other lawyers 
and Chinese citizens who came to Jiansanjiang to support the 
detained lawyers.\76\

                                 Islam

    This past year, the Chinese government and Communist Party 
maintained tight controls over the affairs of Muslim 
communities in China. The state-controlled Islamic Association 
of China (IAC) continued to regulate the confirmation of 
religious leaders, the content of sermons, and overseas 
pilgrimages to accord with government and Party objectives.\77\ 
In January 2014, Zhu Weiqun, Director of the Ethnic and 
Religious Affairs Committee of the Chinese People's Political 
Consultative Conference, and Zhang Yijiong, Deputy Head of the 
Communist Party's United Front Work Department (UFWD), visited 
the IAC on two separate occasions.\78\ During their visits, Zhu 
and Zhang stressed their expectation that the IAC will 
``implement the spirit of the 18th Party Congress and its Third 
Plenum, to further assist the government in implementing the 
Party's policy of religious freedom, maintain social stability, 
and guide Islam to adapt to socialist society.'' \79\ IAC 
Director Chen Guangyuan also said in November 2013 that the IAC 
will ``actively serve as a bridge to unite and mobilize Muslim 
masses of every ethnicity . . . actively promote the basic 
Islamic spirit of peace, moderateness, and tolerance . . . to 
create a united, stable and harmonious social environment . . . 
rally closely around the Party Central Committee with Xi 
Jinping as the general secretary . . . work hard in order to 
achieve the Chinese dream--the great rejuvenation of the 
Chinese nation.'' \80\
    Chinese authorities continued to regulate the confirmation 
of religious leaders and overseas pilgrimages. Under the 2006 
Measures for Accrediting Islamic Clergy, the first requirement 
listed for government recognition of imams is that they must 
``love the motherland, support the socialist system and the 
leadership of the Communist Party of China, comply with 
national laws, [and] safeguard national unity, ethnic unity, 
and social stability.'' \81\ Chinese authorities continued to 
guide the training of imams at 10 state-run Islamic 
colleges.\82\ Provincial and local UFWD agencies, religious 
bureaus, and Islamic associations regularly conduct training 
classes for clerics and mosque managers.\83\ The 2005 
Regulations on Religious Affairs (RRA) stipulated that overseas 
pilgrimages must be organized by a national Islamic 
organization.\84\ In April 2014, Zhang Lebin, Deputy Director 
of the State Administration for Religious Affairs (SARA) said 
at the ``2014 Hajj Pilgrimage Work Meeting'' in Qinghai 
province, that in accordance with ``the directives of the 
central government leaders, a comprehensive mechanism must be 
established for the work of Hajj pilgrimage . . . [that is] 
standardized and normalized.'' \85\ The IAC reported that in 
November 2013, 11,800 people completed the 2013 Hajj pilgrimage 
organized by the IAC.\86\ In February 2014, the government sent 
an official delegation from SARA and the IAC to Saudi Arabia to 
discuss matters related to the Hajj pilgrimage with their Saudi 
counterparts.\87\
    Authorities continued to control the content of sermons and 
interpretation of Islamic scripture. In a speech given at the 
China Islamic Affairs Steering Committee meeting in December 
2013, SARA Deputy Director Zhang Lebin stressed the importance 
of ``correct interpretation, correct knowledge, [and] correct 
faith'' for achieving government objectives.\88\ Authorities 
also carried out control of scripture interpretation at the 
provincial and local levels. For example, in December 2013, 
SARA, IAC, the Guizhou provincial religious bureau, and the 
Guizhou Islamic Association jointly organized a scripture 
interpretation training class for more than 80 people, 
including 56 imams and 12 mosque managers.\89\
    This past year, authorities in locations throughout the 
Xinjiang Uyghur Autonomous Region (XUAR) banned Uyghur Muslim 
students,\90\ civil servants,\91\ and hospital employees \92\ 
from observing Ramadan. In contrast, Chinese authorities 
reportedly afforded Hui Muslims\93\ greater freedom of 
religion, allowing them to observe Ramadan \94\ and to make 
overseas pilgrimages in growing numbers.\95\ [For information 
on state controls over Islam in the XUAR, see Section IV--
Xinjiang.]

                             Protestantism

    During the Commission's 2014 reporting year, the Chinese 
government and Communist Party continued to restrict the 
freedom of religion for Protestants in China. The Three-Self 
Patriotic Movement of the Protestant Churches in China (TSPM) 
and the China Christian Council (CCC)--commonly known together 
as the ``Two Associations''--are state-controlled organizations 
that manage registered Protestants.\96\ The Party continued to 
emphasize the role of the Two Associations in carrying out 
Party and state objectives. During his visit to the Two 
Associations on December 23, 2013, Zhang Yijiong, Deputy Head 
of the United Front Work Department, stressed that the Two 
Associations must ``continue to guide believers on the path of 
loving the nation and loving religion, effectively assisting in 
the implementation of Party and state policies . . . to 
contribute to the building of a socialist nation with Chinese 
characteristics.'' \97\ Protestants who choose not to affiliate 
with the TSPM worship with unregistered ``house churches,'' 
which are often subject to interference, harassment, and abuse 
during peaceful religious activities.

    GOVERNMENT AND PARTY CONTROL OF PROTESTANT DOCTRINE AND PRACTICE

    The government and Party continued to control and influence 
the interpretation of Protestant doctrine and theology in an 
effort to conform the Christian faith to Party goals and 
ideology. The government and Party refer to this process as 
``theological reconstruction,'' initiated in 1998 by former 
TSPM Chairman and CCC Director Ding Guangxun.\98\ On August 5, 
2014, speaking at an event in Shanghai municipality celebrating 
the 60th anniversary of the TSPM National Committee, Wang 
Zuo'an, Director of the State Administration for Religious 
Affairs (SARA), emphasized that ``[t]he construction of 
[Christian] theology with Chinese characteristics . . . should 
also adapt to China's national condition and integrate with 
Chinese culture.'' \99\

     HARASSMENT, DETENTION, AND INTERFERENCE WITH PLACES OF WORSHIP

    Chinese authorities continued to harass, detain, imprison, 
and interfere with the religious activities of members of both 
registered and unregistered Protestant communities who ran 
afoul of government or Party policy. Authorities throughout 
China interrupted house church gatherings and proselytizing 
activities, took participants into custody, and blocked access 
to sites of worship.\100\ This past year, the Commission also 
observed a trend of increasing government harassment against 
officially sanctioned TSPM churches. In particular, the 
Zhejiang provincial government launched a three-year (2013-
2015) ``Three Rectifications and One Demolition'' campaign to 
``rectify'' and demolish ``illegal structures.'' \101\ While 
the campaign's stated aim was to address ``illegal 
structures,'' \102\ official rhetoric at meetings and in 
government work plans appeared to demonstrate a negative view 
of the growth of Christianity in Zhejiang and an intention to 
target religious sites, especially Christian sites, for 
demolition.\103\ According to a May 2014 New York Times report, 
an internal Zhejiang government document named Christianity and 
crosses as the intended targets of its campaign against 
``excessive religious sites'' and ``overly popular religious 
activities.'' \104\ The U.S.-based non-governmental 
organization ChinaAid reported that, as of August 7, 2014, the 
campaign has affected at least 231 churches in Zhejiang 
province.\105\ Examples of official persecution of Protestant 
churches include:

        <bullet> On April 3, 2014, authorities in Yongjia 
        county, Wenzhou municipality, Zhejiang, reportedly 
        notified the Sanjiang TSPM Church that its new church 
        building was deemed an ``illegal structure'' with 
        ``safety hazards'' and needed to be demolished.\106\ 
        Over the next few days, nearly 5,000 Christians 
        reportedly stood guard in and around the church.\107\ 
        On April 7, Sanjiang Church members reached a 
        compromise with local authorities, in which authorities 
        agreed not to demolish the church or remove the cross 
        atop the building, and the church agreed to remove 
        parts of the church-owned nursing home.\108\ On April 
        21, however, authorities arrived with demolition 
        machinery, and deployed paramilitary and riot police to 
        block access to the church.\109\ From April 22 to April 
        26, thousands of Christians stood guard at the 
        church.\110\ Authorities began expelling Christians 
        from the church on April 26,\111\ and demolished it on 
        April 28.\112\
        <bullet> On November 16, 2013, public security 
        officials in Nanle county, Henan province detained 
        Nanle county TSPM Christian Church pastor Zhang Shaojie 
        and over 20 church members, after they petitioned in 
        Beijing municipality over a land dispute with the local 
        government.\113\ Authorities charged Zhang with 
        ``fraud'' and ``gathering a crowd to disturb social 
        order.'' \114\ Authorities repeatedly denied lawyers' 
        requests to meet with Zhang, and ``unidentified 
        people'' reportedly assaulted the lawyers and foreign 
        journalists at the county prosecutor's office.\115\ In 
        November and December 2013, Nanle authorities harassed 
        and threatened church members, blocked access to the 
        church, and forbade Christians from attending regular 
        worship services.\116\ After two months in detention, 
        authorities permitted Zhang to meet with his lawyer Liu 
        Weiguo for the first time on January 15, 2014.\117\ The 
        Nanle County People's Court also repeatedly changed 
        Zhang's trial dates, and at one point had the trial 
        date ``indefinitely postponed.'' \118\ The court tried 
        Zhang in April 2014,\119\ and sentenced him to 12 years 
        in prison on July 4.\120\
        <bullet> Authorities continued to interfere with 
        worship gatherings of the Beijing Shouwang Church which 
        has persisted in meeting outdoors in public spaces in 
        Beijing municipality for more than three years.\121\ 
        Beijing authorities continued to hold Shouwang pastor 
        Jin Tianming under ``soft detention'' (ruanjin) and 
        prohibit some members of the church from leaving their 
        homes for worship.\122\ Starting in May 2014, 
        authorities regularly detained members of the Shouwang 
        Church during worship services, including holding some 
        members in administrative detention for ``disrupting 
        public order.'' \123\ According to ChinaAid, these 
        administrative detentions were the first of their kind 
        during the church's three-year history of worshipping 
        outdoors, which signal an escalation of persecution 
        against the Shouwang Church.\124\

    BANNED PROTESTANT GROUPS AND DESIGNATION OF GROUPS AS ``CULTS''

    The Chinese government and Party continued to designate and 
criminalize some Protestant groups as ``cult organizations'' 
(xiejiao zuzhi). On June 3, 2014, several Chinese news media 
organizations republished a list of ``14 cults''--previously 
identified by the General Office of the Chinese Communist 
Party, General Office of the State Council, and the Ministry of 
Public Security--after Chinese state media reported that six 
members of the ``Church of Almighty God'' (quannengshen)--also 
known as ``Eastern Lightning''--killed a woman at a McDonald's 
in Zhaoyuan city, Shandong province on May 28.\125\ Also on 
June 3, the China Anti-Cult Association (CACA), an organization 
affiliated with the Chinese government and Party,\126\ 
published a list of ``20 cults'' that ``endanger social 
stability and public safety.'' The list included Protestant 
groups such as the South China Church, the Full Scope Church 
(quan fanwei jiaohui), and the Local Church, which CACA placed 
under the name of ``the Shouters'' in its list.\127\ Local 
Church groups consequently protested against the CACA 
designation of equating the Local Church to ``the Shouters,'' 
emphasizing that the Local Church is not a cult but a group 
belonging to the orthodox Christian faith.\128\ Authorities 
also appeared to target mainstream underground Protestant 
groups in the anti-cult effort. In June 2014, a commentator at 
the state-controlled Global Times wrote that, ``underground 
churches and cults are spreading extremely fast . . . the 
situation is very serious . . . [local authorities] should try 
their best to suppress the underground churches and cults.'' 
\129\ From June 2014 to August 2014, ChinaAid reported that 
authorities in Guangdong, Guizhou, Hunan, Shandong, and Sichuan 
provinces harassed and in some cases detained members of 
several house churches over alleged ``cult'' activities.\130\

                                 Taoism

    The Chinese government and Communist Party continued to 
exercise control over Taoist doctrine, clergy appointments, 
sites of worship, and religious activities during the 
Commission's 2014 reporting year. The Chinese Taoist 
Association (CTA) continued to work with the Chinese government 
to ensure that Taoist religious groups ``uphold the leadership 
of the Communist Party and the socialist system,'' ``play an 
active role in the building of a harmonious society and in the 
promotion of economic and social development,'' and 
``contribute to the protection of religious harmony, ethnic 
unity, social harmony, unity of the motherland, and world 
peace.'' \131\ In a speech delivered at a CTA conference held 
in March 2014, SARA official Tang Aihua called for 
``intensified implementation'' of the 2012 joint opinion issued 
by 10 central government and Party agencies, which regulates 
the management of Buddhist monasteries and Taoist temples.\132\ 
In preparation for the Third International Taoist Forum to be 
held in Jiangxi province in October-November 2014,\133\ SARA 
Deputy Director Jiang Jianyong said that SARA will ``seriously 
implement the spirit of President Xi Jinping's important talks 
on the promotion of traditional Chinese culture,'' and ``push 
forward the healthy development of Chinese Taoism,'' in order 
to ``contribute to the realization of the Chinese dream--the 
great rejuvenation of the Chinese nation.'' \134\

                      Other Religious Communities

    The Chinese government continued to maintain the framework 
of recognizing only five official religions for limited 
government protection, and did not recognize additional groups 
during this reporting year. Legal regulations allowed foreign 
religious communities, including communities not recognized as 
domestic religions by the government, to hold religious 
services for expatriates, but forbade Chinese citizens from 
participating.\135\ Despite lacking formal central government 
recognition, some religious communities have been able to 
operate inside China.\136\ For example, there are reportedly 
approximately 15,000 Orthodox Christians in China, and the 
Chinese government has allowed four churches to be used for 
Orthodox religious services.\137\ The Russian Orthodox Church 
has expressed its desire for the Chinese government to grant 
recognition to the Chinese Orthodox Church, but it is not clear 
whether the government will do so in the near future.\138\ The 
Chinese government continued to refuse to grant official 
recognition to Judaism, Seventh-Day Adventism, Mormonism, the 
Baha'i faith, and folk religions, among others.\139\

                         Ethnic Minority Rights


                              Introduction

    During the Commission's 2014 reporting year, Chinese 
authorities enforced harsh restrictions and crackdowns on 
ethnic minorities, particularly those living in the Tibet 
Autonomous Region (TAR) and other Tibetan autonomous areas, the 
Xinjiang Uyghur Autonomous Region (XUAR), and the Inner 
Mongolia Autonomous Region (IMAR). Authorities tightened 
controls on ethnic minority advocates who sought to peacefully 
assert their distinct cultural, linguistic, or religious 
identity and who criticized state policies using methods 
conforming to both domestic and international law. [See Section 
IV--Xinjiang and Section V--Tibet for additional information on 
these areas.]

                         State Minority Policy

    State measures to address ethnic minorities' grievances 
remained limited in the 2014 reporting year, while authorities 
emphasized the role of stability and ethnic unity in promoting 
development in areas with large ethnic minority populations. 
Communist Party authorities in the XUAR and TAR assigned cadres 
to rural grassroots positions as part of a ``mass line'' 
campaign aimed, in part, at enhancing stability and ethnic 
unity.\1\ In February 2014, Zhu Weiqun, Director of the Ethnic 
and Religious Affairs Committee of the Chinese People's 
Political Consultative Conference, stated that instead of 
heeding Western criticism of perceived rights violations in 
Tibet and the XUAR, China ``should be focused on its 
development and stability.'' \2\ Official campaigns linking 
stability and ethnic unity with development have raised 
concerns over assimilative pressures and a failure to respect 
ethnic minority languages, religious beliefs, and 
traditions.\3\ In late October 2013, Yu Zhengsheng, a member of 
the Standing Committee of the Political Bureau of the Chinese 
Communist Party and head of the Central Committee Coordinating 
Group for Tibet Affairs, urged officials to actively foster 
ethnic unity and promote the ``three inseparables'' and ``four 
identifies.'' \4\ Under the ``three inseparables'' ideology, a 
concept official media reports prominently featured during the 
reporting year in relation to state ethnic policy,\5\ ``the Han 
ethnicity is inseparable from ethnic minorities, ethnic 
minorities are inseparable from the Han ethnicity, and all 
ethnic minorities are mutually inseparable.'' \6\ The ``four 
identifies'' ideology refers to identification with ``the great 
motherland,'' ``the Chinese nationality,'' ``the Chinese 
culture,'' and ``the road of socialism with Chinese 
characteristics.'' \7\

            Grasslands Policy and Protests in Inner Mongolia

    IMAR officials continued to detain and beat Mongol herders 
and nomads who protested authorities' appropriation of their 
traditional grazing lands for development projects. National 
and regional regulations stipulate penalties for unauthorized 
use of grasslands, but lack protections for the rights of 
herders.\8\ In a number of instances during the 2014 reporting 
year, Mongol herders protested state and private appropriation 
of their traditional grazing lands, raising concerns such as 
inadequate compensation, loss of livelihood due to 
environmental destruction, and involuntary resettlement. 
Representative examples include:

        <bullet> On May 4, 2014, in Ezenee (Eji'na) Banner, 
        Alshaa (Alashan) League, IMAR, security officials armed 
        with automatic weapons prevented the advance of a 
        demonstration by Mongol herders protesting the use of 
        their grazing lands by Han Chinese migrants.\9\
        <bullet> On April 12, 2014, security officials in 
        Horqin (Keerqin) district, Tongliao city, IMAR, 
        detained more than 40 Mongol herders, beating and 
        threatening some, who had protested against a coal 
        transportation company's use of their grazing 
        lands.\10\
        <bullet> In April 2014, authorities in Heshigten 
        (Keshiketeng) Banner, Chifeng municipality, IMAR, 
        detained between seven and eight Mongol herders who had 
        protested a mining company's dumping of toxic waste on 
        their grazing lands since January 2014, which the 
        herders claimed had caused the death of their 
        livestock.\11\
        <bullet> In late March 2014, during and following a 
        visit to the IMAR by Premier Li Keqiang, authorities in 
        Bayannuur (Bayannao'er) municipality and Hohhot city 
        reportedly arrested, detained, and beat a number of 
        Mongol herders protesting against mining companies' 
        destruction of grasslands and lack of compensation for 
        losses they incurred as a result of official grazing 
        bans and resettlement initiatives.\12\

    In January 2014, authorities in Ongniud (Wengniute) Banner, 
Chifeng municipality, sentenced six Mongol herders to one- to 
two-year prison terms for causing damage to the property of a 
forestry company.\13\ Local authorities detained the six 
herders in late May 2013 and formally arrested them on June 24, 
2013, following an April 2013 incident in which they clashed 
with Han Chinese workers from a state-run forestry company they 
said had ``occupied'' their traditional grazing lands for 
decades.\14\ Twelve herders were reportedly beaten and 
hospitalized in the April 2013 clash.\15\ According to the 
official indictment from the Ongniud Banner People's 
Procuratorate, the six men caused damage to the forestry 
company's property during the clash totaling nearly 87,000 yuan 
(US$14,000).\16\ However, the herders asserted they only caused 
minimal damage to the company's property, with an agency hired 
by the herders reportedly assessing the damage at 2,400 yuan 
(US$392).\17\

                Forced Return of Mongol Chinese Citizens

    On May 13, 2014, Mongolian authorities reportedly forcibly 
returned Mongol rights advocates Dalaibaatar Dovchin and 
Tulguur Norovrinchen to China, a move an overseas rights 
advocate suggested may have been carried out under pressure 
from the Chinese government.\18\ Mongolian authorities had last 
forcibly returned a Mongol rights advocate to China in October 
2009, when they deported former medical school principal 
Batzangaa and members of his family.\19\ Friends of the two 
rights advocates said Mongolian police detained them while they 
prepared to attend a press conference regarding another Mongol 
rights advocate, Alhaa Norovtseren, whom Mongolian authorities 
had reportedly threatened with deportation.\20\ At the time of 
their deportation, Dovchin reportedly had a valid student visa 
and Norovrinchen reportedly had a valid Asylum Seeker 
Certificate issued by the UN High Commissioner for 
Refugees.\21\

                          Political Prisoners

    Authorities continued to extralegally detain Mongol rights 
advocate Hada, despite his completion of a 15-year prison 
sentence on December 10, 2010.\22\ According to Hada's wife 
Xinna, during the 2014 reporting year, authorities threatened 
her with detention after she spoke publicly about her husband's 
continued extralegal detention,\23\ and maintained restrictions 
on the freedom of movement and telephone and Internet access of 
her and the couple's son, Uiles.\24\ Xinna also stated in March 
2014 that authorities had not recently allowed her to visit 
Hada.\25\ As of July 9, 2014, Hada remained in poor health in 
extralegal detention in Jinye Ecological Park in Hohhot 
municipality, IMAR.\26\ Authorities imprisoned Hada in 1995 
after he organized peaceful protests for Mongol rights and for 
his role in the banned organization he founded, the Southern 
Mongolian Democratic Alliance.\27\
    In late 2013, Bayanhuaar, the wife of rights advocate 
Batzangaa, reported that he was in poor health, and authorities 
had denied her request for his release on medical parole. 
Batzangaa is now serving a three-year prison sentence for 
economic crimes that authorities originally imposed as a 
suspended sentence in 2011 after he and his family sought 
asylum in Mongolia.\28\ Bayanhuaar stated that the couple's 
daughter was suffering from severe depression as a result of 
her father's imprisonment.\29\
    In January 2014, herders' rights advocate Yunshaabiin 
Seevendoo reportedly stated that due to poor conditions and 
inadequate medical treatment during his detention, doctors had 
diagnosed him with kidney failure.\30\ Authorities in Uzumchin 
Right (Xiwuzhumuqin) Banner, Xilingol (Xilinguole) League, 
IMAR, arrested Seevendoo in July 2013 and released him in 
December 2013 after sentencing him to three years' imprisonment 
suspended for five years.\31\ [For information on Uyghur and 
Tibetan political prisoner cases, see Section IV--Xinjiang and 
Section V--Tibet.]

                        Population Planning \1\


    International Standards and China's Coercive Population Policies

    Chinese officials continue to actively promote and 
implement coercive population planning policies which, as they 
are written and implemented, violate international standards. 
The PRC Population and Family Planning Law and provincial 
implementing guidelines limit couples' freedom to build their 
families as they see fit by stipulating if, when, and how often 
they may bear children.\2\ Local implementing regulations 
across China still require that couples be married and obtain a 
birth permit to lawfully bear a child.\3\ The population 
planning policies of all of China's 31 provincial-level 
jurisdictions limit couples to bearing one child.\4\ Exceptions 
for couples who meet certain criteria vary by province,\5\ and 
include some exceptions for ethnic minorities.\6\ Officials 
continue to coerce compliance with population planning targets 
using methods including heavy fines,\7\ forced abortions,\8\ 
and forced sterilizations.\9\
    Controls imposed on Chinese women and their families, and 
additional abuses engendered by China's stringent population 
and family planning system, violate standards set forth in the 
1995 Beijing Declaration and Platform for Action \10\ and the 
1994 Programme of Action of the Cairo International Conference 
on Population and Development.\11\ China was a state 
participant in the negotiations and adoption of both.\12\ Acts 
of official violence committed in the implementation of 
coercive population planning policies \13\ contravene 
provisions of the Convention against Torture and Other Cruel, 
Inhuman or Degrading Treatment or Punishment,\14\ which China 
has ratified.\15\ Furthermore, discriminatory policies \16\ 
against ``out-of-plan'' children (i.e., children born in 
violation of population planning policies) contravene the 
Convention on the Rights of the Child \17\ and the 
International Covenant on Economic, Social and Cultural 
Rights.\18\ China is a State Party to these treaties and has 
committed to uphold their terms.\19\

                            Policy Revision

    At the Third Plenum of the 18th Party Congress in November 
2013,\20\ central Party authorities issued the Decision on 
Certain Major Issues Regarding Comprehensively Deepening 
Reforms, which called for a broad range of reforms,\21\ 
including the provision of a new exception to China's 
population planning policy.\22\ The exception represents only a 
slight modification of the previous policy, adding couples in 
which just one parent is an only child to the category of 
families permitted to bear a second child.\23\ Rural couples, 
ethnic minority couples, and couples in which both parents are 
only children were among those already permitted under previous 
exceptions to bear a second child.\24\ As of August 2014, at 
least 15 provinces and municipalities had amended population 
and family planning regulations in accordance with the new 
policy.\25\ Experts predict that the impact of this most recent 
policy revision will be more noticeable in urban areas,\26\ and 
that the change may affect 15 to 20 million people across 
China.\27\ Estimates for the additional number of births that 
could result from this change range from 1 to 3 million per 
year.\28\ Reports have also noted, however, that many couples 
would not want to expand their families even if given the 
option,\29\ and thus far China has seen a smaller increase in 
births than predicted.\30\ As for the demographic challenges 
that precipitated the population policy change, a top family 
planning official pointed in particular to China's decreasing 
working-age population, rapidly aging population, and 
persistent sex ratio imbalance.\31\ Chinese officials have 
emphasized the limited scope of the recent population planning 
policy revision, while Chinese and international critics 
continued to call for cancellation of the entire policy on 
family planning.\32\

                        Coercive Implementation

    Chinese law contains provisions that prohibit officials 
from infringing upon the ``legitimate'' rights and interests of 
citizens while implementing population planning policies but 
does not define what constitutes a citizen's ``legitimate'' 
right or interest.\33\ Despite these provisions, however, 
abuses continued during the Commission's 2014 reporting year. 
Provincial-level population planning regulations in at least 22 
of China's 31 provincial-level jurisdictions explicitly 
instruct officials to implement abortions, often referred to as 
``remedial measures'' (bujiu cuoshi), for ``out-of-plan'' 
pregnancies, with no apparent requirement for parents' 
consent.\34\ Officials also reportedly continued to use other 
coercive methods--including forced abortion under arbitrary 
detention,\35\ forced implantation of long-term birth control 
devices,\36\ and forced sterilization \37\--to implement 
population planning policies.

                           OFFICIAL CAMPAIGNS

    Language used in official speeches and government reports 
from jurisdictions across China continued to reflect an 
emphasis on harsh enforcement measures with an apparent 
disregard for restraint. The Commission noted that during this 
reporting year, as in previous years,\38\ official reports from 
several provinces and municipalities across China (e.g., 
Anhui,\39\ Beijing,\40\ Fujian,\41\ Guizhou,\42\ Hebei,\43\ 
Henan,\44\ Hunan,\45\ Jiangxi,\46\ Shandong,\47\ and Zhejiang 
\48\) continued to promote ``family planning implementation 
work'' using phrases such as ``spare no efforts'' (quanli yifu 
or fenli) and ``use all means necessary'' (qian fang bai ji) to 
urge officials to implement harsh and invasive family planning 
measures. Implementation targets promoted in these reports were 
unrelenting, including some reports calling for a 100-percent 
implementation rate in compelling policy offenders to undergo 
``remedial measures'' or the ``four procedures'' (i.e., 
intrauterine device (IUD) implants, first-trimester abortions, 
mid- to late-term abortions, and sterilization).\49\ For 
example, one government report from Guzhang county, Xiangxi 
Shijia and Miao Autonomous Prefecture, Hunan province, called 
upon local officials to implement ``remedial measures'' on 100 
percent of women with ``out-of-plan'' pregnancies during an 
upcoming county-wide population planning ``service'' 
campaign.\50\ The same report promised to give town governments 
specific monetary rewards and public praise or to circulate a 
notice of criticism based on their achievement rate in 
implementing surgical procedures.\51\

------------------------------------------------------------------------
                    Representative Cases of Coercion
-------------------------------------------------------------------------
<bullet> Guizhou. In January 2014, more than 20 government personnel in
 Yuqing county reportedly took Tan Kaimei, who suffered from uterine
 fibroids, to the local family planning office where they signed her
 agreement on an operation consent form and pinned her down while
 performing a sterilization procedure on her.\52\ Tan and her husband
 reported to the U.S.-based human rights organization ChinaAid that
 officials refused to give them a legal explanation for the forced
 procedure.\53\
<bullet> Guangdong. According to a January 2014 Xinkuai Net report,
 family planning officials in Baiyun district, Guangzhou municipality,
 were withholding hukous--household registration permits--for children
 or welfare disbursements from families if the mother refused to have an
 intrauterine device (IUD) inserted.\54\ While one district-level family
 planning official claimed that the registration of hukous and
 disbursement of welfare had been linked to IUD insertion for all 11
 years of her involvement in family planning implementation, a higher
 level official interviewed for the report claimed such linking was not
 permitted.\55\
<bullet> Xinjiang. In December 2013, local family planning officials in
 Hotan prefecture, Xinjiang Uyghur Autonomous Region, reportedly forced
 four Uyghur women to undergo abortions.\56\ According to Radio Free
 Asia, one of the women was in her ninth month of pregnancy.\57\ Local
 officials acknowledged the four abortions had taken place, stating that
 they were only following orders from higher authorities and that they
 planned to conduct two more.\58\ Officials at the hospital where
 authorities reportedly took the women denied having carried out any
 forced abortions.\59\
<bullet> Shandong. In late September 2013, 20 officials in Weifang city
 broke into the home of Liu Xinwen, six months pregnant with her second
 child, and took her to a local hospital for a forced abortion.\60\
 Officials prevented her husband from accompanying her and did not tell
 him where they had taken her.\61\ At the hospital, the officials
 reportedly forced her consent, and administered the abortion before her
 husband could find her.\62\
------------------------------------------------------------------------

                     Punishments for Noncompliance

    Chinese authorities continued to use various methods of 
punishment to manage citizens' compliance with population 
planning policies. In accordance with national measures,\63\ 
local governments have directed officials to punish 
noncompliance with heavy fines, termed ``social maintenance 
fees'' (shehui fuyang fei), which compel many couples to choose 
between undergoing an unwanted abortion or incurring a fine 
much greater than the average annual income of their 
locality.\64\ State-run media reported on one case in December 
2013 in which a villager committed suicide after local 
officials convinced him to sell all his crops to pay ``social 
maintenance fees.'' \65\ The officials reportedly were not 
authorized to collect the fees and were later investigated and 
punished.\66\
    A court in Guangzhou municipality, Guangdong province, 
ruled in March 2014 that the provincial family planning 
authority's decision not to disclose ``social maintenance fee'' 
data in response to a citizen's Open Government Information 
request was an incorrect use of the law and that the family 
planning office must re-address his request.\67\ On July 29, 
the Guangdong province audit department released the results of 
an audit of ``social maintenance fee'' collection across the 
province, finding that some local governments' fee collection 
did not comply with regulations.\68\ During this reporting 
year, other reports emerged highlighting local governments' 
misuse or incomplete disclosure of ``social maintenance fees,'' 
noting that in some localities officials were permitted to 
retain a percentage of the fees, and that in some cases 
officials had spent collected monies on personal 
expenditures.\69\ The PRC Population and Family Planning Law 
(PFPL) prohibits and provides punishment for the misuse of 
population planning-related funds.\70\
    In addition to fines, officials imposed or threatened other 
punishments for family planning offenses. These punishments 
included job termination,\71\ expulsion from the Communist 
Party,\72\ destruction of personal property,\73\ arbitrary 
detention,\74\ forced abortion, and at least one reported 
forced sterilization.\75\ The PFPL prohibits and provides 
punishments for officials' infringement on citizens' personal, 
property, and other rights while implementing population 
planning policies.\76\
    During this reporting year, authorities in some localities 
denied birth permits and hukous for children whose parents 
disobeyed local family planning requirements. In one such 
example, an April 2014 Shanghai Daily article reported that 
officials in Guangzhou municipality withheld birth permits for 
families who were eligible to have a second child, requiring 
that mothers agree to be sterilized after the birth before they 
would issue the permit.\77\ Higher level officials later 
reported that this requirement was not in accordance with the 
law and that family planning staff needed additional 
training.\78\ Authorities in some areas also withheld hukous 
from children born in excess of birth quotas until their 
parents paid the necessary ``social maintenance fees'' 
associated with their birth.\79\ In some localities, 
authorities would not issue hukous to children born to single 
parents, as they required the information of both parents to 
complete the necessary paperwork.\80\ People who lack hukous in 
China are commonly referred to as ``illegal residents'' (heihu) 
\81\ and face considerable difficulty accessing social benefits 
typically afforded to registered citizens, including health 
insurance, public education, and pensions.\82\ The UN Committee 
on the Rights of the Child conducted a periodic review of 
China's compliance with the Convention on the Rights of the 
Child in September 2013. In its concluding observations, the 
Committee stated its concern about low rates of birth 
registration in China--in part due to China's family planning 
policies--and recommended that China ``reform family planning 
policies in order to remove all forms of penalties and 
practices that deter parents or guardians from registering 
their children'' and ``abandon the hukou system in order to 
ensure birth registration for all children.'' \83\ [For 
additional discussion of China's hukou system, see Section II--
Freedom of Residence and Movement.]

                        Demographic Consequences

    The Chinese government's population planning policies 
continue to exacerbate the country's demographic challenges, 
which include an aging population, diminishing workforce, and 
skewed sex ratio. Affected in recent decades by government 
restrictions on the number of births per couple, China's total 
fertility rate has dropped from 6.14 births per woman in 1949 
\84\ to an estimated 1.55 births per woman in 2014,\85\ 
contributing in part to a serious demographic imbalance with 
regard to China's increasing elderly population and shrinking 
working-age population.\86\ Although Chinese authorities 
continue to implement a ban \87\ on ``non-medically necessary 
sex determination and sex-selective abortion,'' \88\ some 
people reportedly continue the practice in response to 
government-imposed birth limits and in keeping with a 
traditional cultural bias for sons.\89\ According to state-run 
media, China's male-female ratio at birth is severely skewed 
and has ``hovered at a high level since fetal ultrasound exams 
became common in China''--an apparent reference to sex-
selective abortion.\90\ Chinese and international experts note 
that while the recent new exception to the one-child rule may 
improve China's sex ratio at birth, it will not resolve the 
problem of China's current sex ratio imbalance.\91\ The UN 
Committee on the Rights of the Child recommended in its October 
2013 concluding observations that China ``take immediate legal, 
policy and awareness-raising measures to prevent sex-selective 
abortions, female infanticide and abandonment of girls, 
including by addressing factors that reinforce cultural norms 
and practices that discriminate against girls.'' \92\ While 
Chinese media reported that China's sex ratio at birth has 
decreased in the past few years,\93\ according to the UN 
Population Division, as of 2012 it remained the highest in the 
world.\94\ Reports have also suggested a link between China's 
large number of ``surplus males'' and an increase in the 
trafficking of women and children for forced marriage or 
commercial sexual exploitation.\95\
    Reports indicate that China's population planning policies 
have contributed in part to what the state-controlled Global 
Times has called China's ``massive and lucrative baby market,'' 
\96\ as a traditional preference for sons combined with birth 
limits is thought to encourage a black market for 
adoptions.\97\ In January 2014, a court in Shaanxi province 
handed down a suspended death sentence to an obstetrician 
involved in the illegal acquisition and sale of seven babies 
under her care.\98\ The doctor allegedly convinced parents to 
relinquish their newborn children, claiming they were seriously 
ill, and then sold them to brokers.\99\
    Further contributing to illicit adoptions, parents who are 
unable to afford ``social maintenance fees'' for ``out-of-
plan'' pregnancies, in some cases, give away their 
children.\100\ In one such case, in Jiangxi province, a couple 
pregnant with their third child attempted to give away their 
baby through an online adoption forum after determining they 
could not afford to pay the necessary family planning fines to 
secure the child's hukou.\101\ The adoption forum was later 
shut down, and its founder arrested, during a February 2014 
crackdown on fraudulent adoptions.\102\

                   Freedom of Residence and Movement


                          Freedom of Residence

    The Chinese government continued to largely enforce the 
household registration (hukou) system established in 1958.\1\ 
The hukou system classifies Chinese citizens as either rural or 
urban, and confers legal rights and access to public services 
based on the classification.\2\ While the hukou system has 
become less restrictive than in the past, it still acts as a 
``mechanism determining one's eligibility for full citizenship, 
social welfare, and opportunities for social mobility.'' \3\ 
The implementation of these regulations discriminates against 
rural hukou holders who migrate to urban areas by denying them 
equal access to social benefits and public services enjoyed by 
registered urban residents.\4\ The hukou system conflicts with 
international human rights standards guaranteeing freedom to 
choose one's residence and prohibiting discrimination on the 
basis of ``national or social origin[,] . . . birth or other 
status.'' \5\
    During the Commission's 2014 reporting year, the Chinese 
government made uneven progress toward reforming the hukou 
system. In March 2014, Premier Li Keqiang reported to the 
National People's Congress on the government's plan for 
``people-centered urbanization,'' saying that the government 
``will grant urban residency . . . to rural people who have 
moved to cities'' and ``will reform the household registration 
system . . . .'' \6\ The State Council and Central Committee of 
the Chinese Communist Party issued a plan in March 2014 that 
lays out the urbanization process from 2014 to 2020 and calls 
for, among other things, 100 million people to ``settle in 
urban areas'' by 2020.\7\ Although the plan calls for 
increasing the proportion of Chinese living in urban areas to 
60 percent of the total population by 2020, according to the 
plan, only 45 percent of the population will hold urban hukou 
status by that time.\8\ Chinese state media reported that while 
53.7 percent of China's population lived in urban areas at the 
end of 2013, approximately 36 percent held an urban hukou.\9\ A 
November 2013 Tsinghua University study, however, found the 
percentage of China's population with urban hukous to be 27.6 
percent.\10\
    It remains unclear what steps the central and local 
governments will take to implement the urbanization plan. 
Government agencies and officials have said that relaxation of 
hukou restrictions will depend on city size, with the smallest 
cities ``relax[ing] overall hukou restrictions,'' while cities 
of over five million people will ``strictly control the scale 
of population.'' \11\ In March 2014, Vice Minister for Public 
Security Huang Ming told reporters that restrictions on 
obtaining urban hukous in China's largest cities will remain 
high to mitigate growing pressure on city resources.\12\ In 
July 2014, in an opinion on hukou reform, the State Council 
announced that it would ``[e]liminate the distinction between 
rural and non-rural household registration,'' \13\ although it 
did not provide details on what steps authorities would take to 
do so.\14\ Similar reforms, previously implemented in several 
provinces and counties, have not completely eliminated the 
disparities between rural- and urban-registered residents.\15\
    This past year, authorities continued to implement reforms 
of the hukou system in select areas, including Guangzhou, 
Beijing, and Shanghai municipalities. In 2013, the Guangdong 
provincial government began to implement provisions allowing 
the children of migrants lacking urban hukous to enroll in 
vocational schools, and in 2016 these children will be eligible 
to take university entrance exams in Guangdong.\16\ In 2014, 
Beijing began allowing, with some qualifying conditions, 
migrant workers' children to enroll in secondary vocational 
schools.\17\ In 2014, the Shanghai municipal government 
continued to implement a points-based residential permit system 
in which migrants' children can enjoy the same educational 
opportunities as urban hukou holders if the parents meet 
several conditions, including age, education, and employment 
conditions.\18\ These limited reforms, however, have not 
removed the connection between hukou status and access to 
education.\19\ Moreover, the conditions for obtaining urban 
hukous are reportedly too onerous for many migrants to meet, 
given their levels of education and income.\20\

                          International Travel

    Chinese officials continued to deny citizens who criticize 
the government, those citizens' relatives, and ethnic minority 
groups, their internationally recognized right to leave the 
country. Article 12 of the International Covenant on Civil and 
Political Rights (ICCPR), which China has signed and committed 
to ratify, guarantees that ``[e]veryone shall be free to leave 
any country . . . .'' \21\ Under Article 12, countries may 
restrict this right only in narrow circumstances to protect 
national security and certain other public interests.\22\ 
Chinese law allows authorities to bar those who threaten state 
security from leaving the country,\23\ but in practice Chinese 
authorities blocked rights defenders, advocates, and critics 
from leaving the country.\24\
    Uyghurs and Tibetans in particular continued to face heavy 
restrictions on obtaining passports. According to the U.S. 
State Department, Uyghurs ``were frequently denied passports to 
travel abroad,'' while authorities in Tibetan areas showed 
``unwillingness . . . to issue or renew passports for ethnic 
Tibetans.'' \25\ Some Uyghurs reported that despite a new 
passport regulation in the Xinjiang Uyghur Autonomous Region 
(XUAR) intended to simplify the passport application process, 
they still faced discrimination and, in many cases, had to pay 
bribes in order to obtain passports.\26\
    Article 12 of the ICCPR provides that ``[n]o one shall be 
arbitrarily deprived of the right to enter his own country,'' 
\27\ while Article 13 of the Universal Declaration of Human 
Rights (UDHR) guarantees ``[e]veryone . . . the right . . . to 
return to his country.'' \28\ The Chinese government, including 
authorities in the Hong Kong Special Administrative Region, 
continued to deny the right to leave the country and the right 
of return to those expressing views the government perceives to 
be threatening, in violation of international standards. The 
Commission observed the following representative cases during 
the 2014 reporting year:

        <bullet> In September 2013, Chinese authorities 
        prevented human rights defender Cao Shunli \29\ from 
        traveling to Geneva to attend a human rights training 
        at a meeting of the UN Human Rights Council.\30\ 
        Chinese authorities criminally detained Cao, reportedly 
        in connection with her advocacy for public 
        participation in China's human rights reports to the 
        United Nations.\31\ Human rights organizations linked 
        Cao's March 2014 death in a military hospital to 
        Chinese authorities' denial of medical care while she 
        was in detention.\32\ [For more information on Cao 
        Shunli, see Section II--Criminal Justice and Section 
        III--Institutions of Democratic Governance.]
        <bullet> In November 2013, Hong Kong authorities 
        refused entry to Wu'er Kaixi, a 1989 student leader and 
        democracy advocate who fled China after the 1989 
        Tiananmen protests, when he attempted to enter China 
        through Hong Kong.\33\ Authorities repeatedly have 
        denied Wu'er entry into China, despite having 
        previously issued an arrest warrant for him.\34\ Wu'er 
        sought to visit his elderly parents, who he claims have 
        been denied passports by authorities, in violation of 
        China's international treaty obligations.\35\
        <bullet> In April 2014, Hong Kong authorities 
        reportedly blocked rights advocate Yang Jianli \36\ 
        from entering Hong Kong. Yang reportedly holds a valid 
        Chinese passport, although mainland Chinese authorities 
        repeatedly have prevented him from entering China.\37\ 
        Yang was invited to visit Hong Kong by the pro-
        democracy organization Hong Kong Alliance in Support of 
        Patriotic Democratic Movements in China to visit a new 
        museum commemorating the 1989 Tiananmen protests.\38\ 
        Yang claimed that the Chinese central government 
        directed Hong Kong authorities to refuse Yang entry to 
        Hong Kong.\39\
        <bullet> In June 2014, authorities in Shenzhen 
        municipality, Guangdong province, sentenced rights 
        advocate Yang Kuang \40\ to eight months' imprisonment 
        for ``illegally crossing the border.'' \41\ Yang, a 
        Hong Kong resident, was returning to Hong Kong in 
        December 2013 after visiting his wife in Henan province 
        when Shenzhen authorities detained him.\42\ Chinese 
        authorities previously detained Yang and canceled his 
        home-return permit after he attempted to visit the 
        artist and poet Liu Xia at her home in Beijing 
        municipality in March 2013.\43\
        <bullet> During the reporting year, Chinese authorities 
        prevented HIV/AIDS advocates from leaving the country 
        to attend international AIDS conferences. In November 
        2013, Chinese authorities prevented Yuan Wenli from 
        traveling to Thailand, reportedly by canceling her 
        passport.\44\ In July 2014, officials refused to allow 
        Ye Haiyan to travel to Australia; \45\ Ye reported that 
        a government employee told her she was on a ``red 
        list'' of those prohibited from leaving China.\46\

                           Domestic Movement

    During the 2014 reporting year, the Commission continued to 
observe Chinese authorities restricting the freedom of movement 
of rights advocates and their families as a form of 
harassment.\47\ Article 12 of the International Covenant on 
Civil and Political Rights provides that ``[e]veryone lawfully 
within the territory of a State shall, within that territory, 
have the right to liberty of movement . . . .'' \48\
    Xinjiang Uyghur Autonomous Region (XUAR) authorities 
reportedly restricted XUAR residents' freedom of movement by 
requiring those 16 years and older to obtain a document known 
as a ``convenient contact card'' if they move from the county-
level jurisdiction in which they hold household registration to 
elsewhere in the XUAR for work, school, or medical treatment, 
among other reasons, and ``rent a home in their new location of 
residence.'' \49\
    Authorities increased restrictions on freedom of movement 
during politically sensitive periods in the 2014 reporting 
year, including the March meetings of the National People's 
Congress and Chinese People's Political Consultative Conference 
and the 25th anniversary of the 1989 Tiananmen protests.\50\ 
Representative cases of restrictions on freedom of movement 
follow:

        <bullet> Chinese authorities continued to detain Liu 
        Xia,\51\ an artist and poet, and the wife of imprisoned 
        dissident Liu Xiaobo, at her home in Beijing 
        municipality. Although Chinese authorities have not 
        convicted Liu Xia of any crime, she reportedly has been 
        detained at home since October 2010, with no access to 
        the Internet or telephone.\52\ Liu Xia's detention is 
        illegal under both Chinese law and international 
        standards.\53\ In February 2014, a Beijing hospital 
        refused to admit Liu Xia, who was suffering from heart 
        disease and severe depression, due to ``political 
        factors,'' \54\ after which she unsuccessfully sought 
        to leave China for treatment.\55\
        <bullet> Chinese authorities reportedly continued to 
        detain Bishop Thaddeus Ma Daqin\56\ due to his public 
        resignation from the Chinese Catholic Patriotic 
        Association during his ordination as auxiliary bishop 
        of the Shanghai diocese.\57\ Authorities reportedly 
        have held Ma in ``soft detention,'' a form of 
        extralegal detention, at the Sheshan Regional Seminary 
        near Shanghai municipality.\58\
        <bullet> In July 2014, public security authorities 
        placed Tibetan writer and activist Tsering Woeser and 
        her husband, writer Wang Lixiong, under extralegal 
        ``soft detention'' at their home in Beijing.\59\ Woeser 
        received an invitation to visit the U.S. Embassy during 
        the U.S.-China Strategic and Economic Dialogue, but 
        ``state security'' reportedly prevented her from 
        attending.\60\ Chinese authorities previously refused 
        to issue Woeser a passport, blocking her from leaving 
        China to accept a U.S. State Department award.\61\
        <bullet> In April 2014, public security authorities 
        reportedly prevented Mo Shaoping, a human rights 
        lawyer, from meeting with the German vice-chancellor in 
        Beijing. Mo said that police told him they had orders 
        ``from above'' to keep him from attending the event at 
        the German embassy.\62\ Political cartoonist Wang 
        Liming said he attended the meeting but was the only 
        attendee, as police had detained the other four invited 
        guests.\63\

                            Status of Women


------------------------------------------------------------------------
     China's Compliance With International Human Rights Obligations
-------------------------------------------------------------------------
  China underwent a periodic review by the UN Committee on Economic,
 Social and Cultural Rights (CESCR) in May 2014 \1\ and will undergo a
 periodic review by the UN Committee on the Elimination of
 Discrimination against Women (Committee) beginning in October 2014.\2\
 In its concluding observations on the second periodic report of China,
 CESCR noted persistent gender disparities in China, ``especially in
 relation to employment, wages, housing and access to higher education''
 and highlighted ``with concern the disadvantaged position of rural
 women.'' \3\ In preparation for the upcoming Committee review, the
 Chinese government submitted a report in January 2014 on its
 implementation of the Convention on the Elimination of All Forms of
 Discrimination against Women (CEDAW) from 2006 to 2010.\4\ The report
 described progress on protecting women's rights in China's laws,
 regulations, and policies,\5\ yet also acknowledged some challenges,
 including persistent gender discrimination, inadequate implementation
 of relevant laws, low percentages of female representation in senior
 decisionmaking bodies, unequal treatment of rural women under local
 village rules, and violence against women.\6\ Non-governmental
 organizations also highlighted areas for improvement in reports to the
 Committee in January and February 2014, specifically noting cases of
 suppression of women's rights advocates.\7\
------------------------------------------------------------------------

                    Women's Political Decisionmaking

    Through its international commitments and domestic laws and 
policies, the Chinese government is obligated to ensure gender-
equal political participation; however, during the Commission's 
2014 reporting year, women remained underrepresented in 
government and Communist Party positions. In accordance with 
its commitments under CEDAW,\8\ the Chinese government has 
passed several laws \9\ and issued policy initiatives \10\ in 
prior years to promote gender equality in government. Yet, 
female representation remains low or non-existent in central 
Party and government leadership bodies, including the Political 
Bureau of the Communist Party Central Committee 
(Politburo),\11\ Politburo Standing Committee,\12\ Communist 
Party Central Committee,\13\ State Council,\14\ and National 
People's Congress,\15\ and falls far short of the 30 percent 
target recommended by the UN Commission on the Status of 
Women.\16\ Women reportedly held 22.1 percent of village 
committee memberships as of 2012 and 2.7 percent of leadership 
positions in village committees as of 2008.\17\ Such 
underrepresentation at the village level leaves rural women 
vulnerable to violations of their rights and interests.\18\ The 
UN Working Group on the Issue of Discrimination Against Women 
in Law and in Practice (Working Group) noted following its 
December 2013 visit to China, ``The imperative for full 
integration of a gender sensitive policy framework into China's 
deepening reform agenda . . . requires the full and effective 
participation of women in political and public life at all 
levels.'' \19\

                      Gender-Based Discrimination


                       EMPLOYMENT DISCRIMINATION

    In ratifying CEDAW, the Chinese government has committed to 
take ``all appropriate measures to eliminate discrimination 
against women in the field of employment,'' \20\ yet women in 
China's workforce continue to face many forms of 
discrimination. Following its December 2013 visit to China, the 
Working Group issued a report \21\ noting China's 
accomplishments in women's rights,\22\ as well as persistent 
challenges, including gender discrimination in recruitment,\23\ 
wages,\24\ and retirement.\25\ When applying for civil service 
positions, women report that they continue to be subjected to 
invasive gynecological examinations and inappropriate 
questioning.\26\ In January 2014, in what is believed to be 
China's first gender discrimination lawsuit, a recent college 
graduate accepted a 30,000 yuan (US$4,845) settlement and a 
formal apology after a company refused to hire her because of 
her gender.\27\

                        EDUCATION DISCRIMINATION

    Gender-based discrimination remains a barrier for some 
young women pursuing a university education in China, despite 
provisions in the PRC Education Law that prohibit 
discrimination on several grounds, including gender.\28\ 
Reports indicate that universities across China continue to 
implement gender quotas that require women to score higher than 
men on the college entrance exam (gaokao) for acceptance into 
certain schools or majors.\29\ Some schools also ban or 
restrict women from certain majors, including mining, 
navigation, naval engineering, tunnel engineering, and police 
work.\30\ Reasons given for preventing or limiting women from 
enrolling in these majors included that the jobs that result 
from these studies are not available to women; or are too 
dangerous, too physically strenuous; or would require too much 
time at sea.\31\ In October 2012, the Ministry of Education 
(MOE) responded to an Open Government Information request, 
stating that gender quotas are permitted in military and 
national defense, marine and mining, and some less-commonly 
studied foreign language majors.\32\ In September 2013, two 
groups of women separately wrote reports to the MOE protesting 
the unfair enrollment practices and requesting an 
explanation.\33\

                         Violence Against Women


                           DOMESTIC VIOLENCE

    Domestic violence is prohibited and punishable under 
Chinese law, yet the problem of domestic violence in China 
remains widespread, affecting approximately one in four 
families.\34\ Current 
national-level legal provisions \35\ that address domestic 
violence leave many victims unprotected by prohibiting domestic 
violence without defining the term or clarifying the specific 
responsibilities of government entities--such as law 
enforcement, judicial organs, and providers of social 
services--in prevention, punishment, and treatment.\36\ The UN 
Working Group on the Issue of Discrimination Against Women in 
Law and in Practice called on the Chinese government this year 
to ``urgently adopt'' a national-level domestic violence 
law,\37\ reiterating advocates' calls from previous years.\38\ 
As of June 2014, draft domestic violence legislation reportedly 
had been submitted to the State Council for review \39\ and 
included in its 2014 legislative work plan.\40\
    In February 2014, the Supreme People's Court (SPC) issued a 
report presenting 10 ``typical cases'' \41\ that serve as 
illustrations for lower courts on how they should handle cases 
involving domestic violence.\42\ According to one international 
expert's analysis of the report, the SPC's selection of typical 
cases provides guidance on issuing civil protection orders; 
expands the scope of who may be protected under protection 
orders to include the elderly and minors; clarifies what may 
constitute evidence in domestic violence cases; expands the 
definition of violence to include non-physical forms; and sets 
a precedent for additional punishments that can be imposed for 
domestic violence, including loss of custody of a child even if 
the child has not suffered physical harm.\43\
    According to one Chinese anti-domestic violence expert, in 
the absence of the authority of a domestic violence law, 
protection orders have not yet gained ground in China, as 
courts ``are afraid of being overrun by applicants and of being 
unable to enforce the orders and therefore becoming a mockery, 
with the police not cooperating.'' \44\ Advocates reportedly 
claim that legislation, including a domestic violence law, 
could help standardize the process of issuing protection 
orders, provide a formal definition for domestic violence, and 
counter the widely held belief in China that domestic violence 
is a private matter by assigning responsibility to courts, 
police, hospitals, and civil society actors to assist 
victims.\45\ In one high-
profile domestic violence case, following Chinese and 
international advocates' calls for a sentence commutation,\46\ 
in June 2014, the SPC overturned \47\ the death sentence of Li 
Yan, who killed her husband in 2010 after enduring months of 
spousal abuse.\48\ The Sichuan Province High People's Court had 
upheld Li's death sentence on appeal in August 2012, stating 
that there was insufficient evidence of long-term domestic 
violence.\49\

                          SEXUAL VIOLENCE\50\

    Central government authorities have taken regulatory steps 
this year to better protect the rights of women and children 
who may be vulnerable to sexual violence. In apparent response 
to citizens' outrage \51\ over a series of high-profile cases 
of sexual violence against girls last year,\52\ in September 
2013, central authorities issued guidelines and a circular, 
both aimed at strengthening the prevention of sexual assault of 
a child.\53\ The following month, the SPC, Supreme People's 
Procuratorate, Ministry of Justice, and Ministry of Public 
Security jointly issued guidelines strengthening punishments 
for child sexual assault.\54\ Perpetrators had previously 
received lighter punishments if they could claim consent or if 
money was involved.\55\ Critics have noted that legal loopholes 
may mean that certain circumstances or conduct will still 
result in lighter punishments for perpetrators.\56\
    Chinese law prohibits sexual harassment yet does not 
provide a clear legal definition or standards for prevention, 
reporting, and punishment.\57\ Two surveys of female factory 
workers in Shenzhen and Guangzhou municipalities, Guangdong 
province, released in November 2013 showed that 70 percent of 
respondents had experienced some degree of sexual harassment in 
the workplace, and few sought assistance from management or the 
police.\58\ Legal experts have called for strengthened 
legislation on sexual harassment, yet authorities have not 
announced any progress on such legislation during this 
reporting year.\59\

                STATE-AUTHORIZED VIOLENCE AGAINST WOMEN

    Officials in localities across China continued to employ 
forms of coercion and violence against women--including forced 
abortion,\60\ forced sterilization,\61\ and forced 
contraceptive use \62\--while implementing population planning 
policies, in contravention of international standards to which 
China has agreed.\63\ Chinese law leaves women unprotected 
against such abuses.\64\ In December 2013, over 1,000 Chinese 
women signed and sent a letter to the National People's 
Congress Standing Committee, the Family Planning Commission, 
and the All-China Women's Federation, noting that the 
implementation of China's population planning policies ``causes 
great harm to women's wombs'' and calling on Chinese officials 
to ``protect women's right to life and health'' during the 
drafting and execution of China's population planning 
policies.\65\
    In February 2014, the Ministry of Public Security launched 
a crackdown on the commercial sex trade, starting in Dongguan 
municipality, Guangdong province, in apparent response to a 
February 9 China Central Television expose on the industry.\66\ 
As of July 2014, Dongguan police reportedly had detained 2,252 
people as part of the crackdown.\67\ In past years, women in 
China have reported suffering unlawful arbitrary detention, 
extortion, physical violence, and forced labor at the hands of 
authorities carrying out enforcement of anti-prostitution 
laws.\68\

                           Human Trafficking


                                 Trends

    China remains a country of origin, transit, and destination 
for the trafficking of men, women, and children, as defined 
under the UN Protocol to Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children (UN TIP 
Protocol).\1\ Chinese men, women, and children are trafficked 
within China's borders for purposes including sexual 
exploitation; forced marriage; forced begging; domestic 
servitude; and forced labor in brick kilns, coal mines, and 
factories.\2\ Human traffickers also continue to traffic men, 
women, and children to and from countries across Asia, the 
Americas, Europe, and Africa.\3\ Cases of men and children in 
China working under forced or otherwise exploitative labor 
conditions that constitute human trafficking under the UN TIP 
Protocol \4\ also emerged during the Commission's 2014 
reporting year.\5\ The full extent of the forced labor problem 
in China remains unclear, as the Chinese government does not 
criminalize and report on all forms of forced labor, including 
the labor trafficking of men.\6\ Some forms of manual labor 
that would qualify as forced labor under international 
standards reportedly occur in state-sponsored detention 
centers.\7\ [See Section II--Worker Rights for more information 
on cases of forced labor and child labor this year.]

                        Anti-Trafficking Efforts

    Since its accession to the UN TIP Protocol in 2009,\8\ the 
Chinese government has steadily taken steps, in concert with 
other national governments \9\ and international non-
governmental organizations,\10\ to revise domestic legislation, 
policies, and anti-trafficking efforts to come into compliance 
with international standards. For example, in 2011, the 
National People's Congress Standing Committee amended the PRC 
Criminal Law to strengthen the provisions on forced labor.\11\ 
In January 2013, the State Council took an additional step to 
bring government efforts into compliance with international 
standards by issuing the China Action Plan to Combat 
Trafficking in Persons (2013-2020),\12\ which is a revised 
version of its predecessor, the China Action Plan to Combat 
Trafficking in Women and Children (2008-2012).\13\ The new 
Action Plan revised the Chinese term for trafficking to include 
all persons (guaimai renkou).\14\ The term used in the previous 
plan referred to only women and children (guaimai funu 
ertong).\15\ This terminology change is not yet reflected in 
Chinese law.\16\ The Action Plan calls for increased 
international cooperation; \17\ improved anti-trafficking laws, 
regulations, and policies; \18\ anti-trafficking funding in 
local budgets; \19\ and increased efforts in prevention \20\ 
and protection.\21\ It is difficult to assess whether the State 
Council has provided adequate resources and training to local 
authorities for implementing the plan's objectives or whether 
local governments are able to budget the funds necessary to 
finance anti-trafficking work as the plan has recommended.\22\
    Chinese authorities took limited steps this year to improve 
prevention, protection, and services for victims of 
trafficking, but did not release detailed information on the 
services provided or the number of victims identified and 
assisted.\23\ In addition to continuing to operate a nationwide 
anti-trafficking hotline, authorities reportedly established a 
local anti-trafficking hotline in Lhasa city, Tibet Autonomous 
Region,\24\ as well as a fund for assisting trafficking victims 
and their families in Guizhou province.\25\ The Chinese 
government did not provide information on how many cases were 
investigated or how many victims were assisted as a result of 
these efforts.\26\ After nine consecutive years on the Tier 2 
Watch List in the U.S. State Department's annual Trafficking in 
Persons (TIP) Report, in June 2013, China was automatically 
downgraded to Tier 3, the lowest tier ranking.\27\ In the 2014 
TIP report, the U.S. State Department returned China to its 
previous Tier 2 Watch List status, stating that the Chinese 
government ``is making significant efforts'' to comply with the 
minimum standards for the elimination of trafficking.\28\ The 
report provided the Chinese government's abolition of 
reeducation through labor centers as an example of such 
efforts.\29\

                      Anti-Trafficking Challenges

    Additional revisions are needed to bring China's domestic 
legislation into compliance with the UN Protocol to Prevent, 
Suppress and Punish Trafficking in Persons, Especially Women 
and Children (UN TIP Protocol).\30\ For example, while the PRC 
Criminal Law prohibits human trafficking,\31\ its provisions do 
not appear to cover all forms of trafficking, such as certain 
types of non-physical coercion \32\ and the commercial sex 
trade of minors.\33\ Nor does the definition of trafficking 
provided under Article 240 of the PRC Criminal Law clearly 
include offenses against male victims,\34\ although other 
articles in the same law address some aspects of these 
crimes.\35\ Each of these forms of trafficking is covered under 
Article 3 of the UN TIP Protocol.\36\ The PRC Criminal Law's 
trafficking definition is also overly broad in some respects 
compared with the UN TIP Protocol, as it includes the purchase 
or abduction of children for subsequent sale without specifying 
the end purpose of these actions.\37\ Under the UN TIP 
Protocol, the purchase or abduction of children for subsequent 
sale constitutes trafficking only if the end purpose of the 
sale is exploitation, such as sexual exploitation, forced 
labor, or servitude.\38\ Due to these key inconsistencies 
between the Chinese legal definition and international 
standards on human trafficking, Chinese official reports and 
statistics on trafficking cases \39\ do not provide an accurate 
picture of the number of trafficking cases being handled 
through the criminal justice system in China.\40\
    Government and Party-controlled media sources issued 
reports in the past year highlighting ``trafficking'' cases 
which involved the purchase and sale of children for the 
purpose of adoption. In mislabeling these cases as child 
trafficking cases instead of cases of fraudulent adoptions, 
these reports reflect the ongoing problem in China of 
authorities focusing ``anti-trafficking'' resources and efforts 
on crimes that do not qualify as trafficking under 
international standards.\41\
    In addition, Chinese officials' anti-trafficking work 
reflects a continued misalignment with international standards, 
especially in officials' conflation of human trafficking with 
human smuggling and their subsequent treatment of trafficking 
victims as criminals.\42\ According to the UN Office on Drugs 
and Crime, the main international body responsible for 
implementing the UN TIP Protocol, ``human trafficking'' and 
``migrant smuggling'' mainly differ with respect to consent, 
exploitation, and transnationality.\43\ Commonly, human 
trafficking involves the exploitation of an individual (either 
domestically or after they have crossed borders) without the 
individual's consent, or if the individual initially consented, 
the consent was ``rendered meaningless by the coercive, 
deceptive, or abusive actions of the traffickers.'' \44\ 
Conversely, migrant smuggling involves the cross-border 
transport of an individual with the individual's consent and 
ends when the migrant arrives at his or her destination.\45\ In 
conflating the two, Chinese officials may punish individuals 
for illegal entry into China without giving adequate 
consideration to the role exploitation may have played in the 
border crossing.\46\ The Chinese government continues to deport 
all undocumented North Koreans as illegal ``economic migrants'' 
and does not provide legal alternatives to repatriation for 
foreign victims of trafficking.\47\ [For more information, see 
Section II--North Korean Refugees in China.]

                              Risk Factors

    Chinese and international experts link China's ongoing 
human trafficking problem to several political, demographic, 
economic, and social factors. Reports indicate that China's sex 
ratio \48\--which has become severely skewed against the 
backdrop of China's population planning policies and Chinese 
families' preference for sons \49\--may have increased the 
demand for trafficking of women for forced marriage and 
commercial sexual exploitation.\50\ A 2010 study issued by the 
Chinese Academy of Social Sciences reported that, by 2020, the 
number of Chinese males of marriageable age may exceed the 
number of Chinese females of marriageable age by 30 to 40 
million.\51\ In recent years, domestic and international 
observers have also linked China's trafficking problem with a 
lack of education on trafficking prevention for vulnerable 
women and parents,\52\ and challenging conditions in bordering 
countries such as conflict, poverty, and limited job 
opportunities.\53\ [For additional information on China's 
skewed sex ratio, see Section II--Population Planning.]

------------------------------------------------------------------------
    Representative Human Trafficking Cases Published During the 2014
                             Reporting Year
-------------------------------------------------------------------------
<bullet> Guangdong:    From March to October 2013, traffickers in Guangzhou municipality,
   Guangdong province, reportedly held 17-year-old Zhou Cheng (alias)
   and two other young boys against their will and forced them to work
   assembling watches in a locked two-bedroom apartment.\54\ During
   their months-long imprisonment, the traffickers reportedly subjected
   the boys to threats, severe beatings, and long hours of work under
   adverse conditions.\55\ After the boys escaped with the help of
   police in October, the Yuexiu District People's Procuratorate
   reportedly charged four persons with the crime of forced labor and
   awarded Zhou Cheng 3,000 yuan (US$484) in compensation.\56\
------------------------------------------------------------------------


------------------------------------------------------------------------
    Representative Human Trafficking Cases Published During the 2014
                        Reporting Year--Continued
-------------------------------------------------------------------------
    In June 2013, 28-year-old Khai Sochoeun and two other Cambodian
   women arrived at the Guangzhou airport, having been given passports,
   short-term tourist visas, money, and the promise of factory jobs.\57\
   Instead, traffickers drove them about 10 hours away to a remote
   village and sold them into marriage. Sochoeun was forced to marry a
   middle-aged laborer with whom she could not communicate and who
   reportedly beat her.\58\ She lived in the home with his extended
   family, and describes her experience as like that of a ``sex slave,''
   recalling that ``all they wanted was for me to get pregnant.'' \59\
   Sochoeun escaped a few months later with the help of a local human
   rights organization and returned home to Cambodia.\60\<bullet> Macau: In April 2014, local public security officials received
 notice of prostitution activity in a hotel in the Central District,
 Macau Special Administrative Region, and upon investigation discovered
 38 female and 2 male Tanzanian nationals, aged 19 to 34, in five hotel
 rooms.\61\ One of the women claimed she had been coerced into sex work
 and that a trafficker had confiscated all her money.\62\ When she tried
 to get out of the work, traffickers confined and beat her.\63\ Security
 officials arrested four Tanzanian women on charges of trafficking and
 housing and controlling prostitutes.\64\
<bullet> Yunnan and Anhui: In March 2013, traffickers lured two 15-year-
 old Burmese girls into leaving the home where they were working as
 childcare providers in Yunnan province for a daytrip to a nearby
 town.\65\ The traffickers held the girls under constant guard,
 prohibiting them from communicating with the outside world, and then
 sold the two for 60,000 yuan (US$9,690) into marriage with villagers in
 Tiefo town, Suixi county, Huaibei municipality, Anhui province.\66\
 Local villagers notified the police, who freed the women.\67\ A court
 in Suixi county sentenced three people to six years in prison each for
 the crime of trafficking.\68\ Others involved in the case remain under
 investigation.\69\
------------------------------------------------------------------------

                     North Korean Refugees in China


                              Introduction

    China's treatment of North Korean refugees came under 
increased scrutiny in 2014 amid growing international concern 
over human rights in the Democratic People's Republic of Korea 
(DPRK). A widely publicized United Nations Commission of 
Inquiry report released in February 2014 condemned China for 
forcibly repatriating North Korean refugees, stating that such 
action could be considered aiding and abetting crimes against 
humanity in the DPRK. Chinese authorities continue to detain 
and repatriate North Korean refugees to the DPRK despite 
repatriated persons facing torture, detention, and other 
inhumane treatment. The Chinese government maintains that North 
Koreans who enter China without proper documentation are 
illegal economic migrants and continues to repatriate them 
based on a 1961 treaty with the DPRK and 1986 border 
protocol.\1\ China's repatriation of North Korean refugees 
contravenes its international obligations under the 1951 UN 
Convention relating to the Status of Refugees and its 1967 
Protocol.\2\ China is also obligated under the UN Convention 
against Torture and Other Cruel, Inhuman or Degrading Treatment 
or Punishment to refrain from repatriating persons if there are 
``grounds for believing that [they] would be in danger of being 
subject to torture.'' \3\

            UN Commission of Inquiry: Findings and Reaction

    On February 17, 2014, the United Nations Commission of 
Inquiry on Human Rights in the Democratic People's Republic of 
Korea (UN COI) released its report on human rights violations 
in the DPRK.\4\ The UN COI explicitly denounced China in its 
report for forcibly repatriating North Korean refugees to the 
DPRK,\5\ declaring that Chinese officials could be held 
accountable for ``the aiding and abetting of crimes against 
humanity'' in cases where repatriation and the exchange of 
information on refugees ``are specifically directed towards or 
have the purpose of facilitating the commission of crimes 
against humanity in the DPRK.'' \6\ The UN COI found that many 
North Koreans crossing the border into China ``do so owing to a 
well-founded fear of being persecuted for reasons of religion 
or political opinion,'' \7\ while repatriated persons are 
regularly ``subjected to torture, arbitrary detention, summary 
execution, forced abortion and other forms of sexual 
violence.'' \8\ Despite China's assertion that North Koreans 
entering China are illegal economic migrants, the UN COI 
concluded that evidence supported recognizing many of them as 
``refugees fleeing persecution or refugees sur place,'' 
entitling them to international protection.\9\
    China opposed the establishment of the UN COI and remained 
unsupportive throughout implementation of its mandate.\10\ 
During the UN COI's investigation, the Chinese government 
refused multiple times to allow UN COI staff entry into China 
and access to regions where refugees are known to reside.\11\ 
The UN COI was also prevented from meeting with Chinese 
experts, religious organizations, and other civil society 
groups working on issues related to North Korea and North 
Korean refugees.\12\
    China has long been reluctant to work with UN agencies on 
issues related to North Korean refugees. The UN COI report 
indicated China continued to deny the United Nations High 
Commissioner for Refugees (UNHCR) ``unimpeded access to asylum 
seekers including those from the DPRK,'' despite a 1995 
agreement between China and the UNHCR.\13\ The UN Special 
Rapporteur on the Situation of Human Rights in the DPRK has 
indicated China's cooperation is ``a key factor in bringing 
meaningful change to the situation of human rights'' in the 
DPRK.\14\ Calling the situation for North Korean refugees ``far 
from ideal'' and ``not at all sustainable,'' the Special 
Rapporteur urged China to ``engage in a constructive dialogue . 
. . to help find a way forward.'' \15\

         Unlawful Repatriation and Worsening Border Conditions

    Throughout the 2014 reporting year, China appeared to 
strengthen measures to stem the flow of North Korean refugees 
into China, including increasing border security and detaining 
and repatriating refugees to the DPRK.\16\ Chinese security 
officials reportedly were provided guidelines in November 2013 
directing them to handle refugees ``in the same way they deal 
with major crimes against the state.'' \17\ South Korean and 
other international media outlets reported on several instances 
throughout the 2014 reporting year in which Chinese authorities 
reportedly detained and, in some cases, repatriated North 
Korean refugees to the DPRK:

        <bullet> November 2. South Korean media, citing a 
        source in China, reported that Chinese authorities 
        detained and later repatriated 17 North Korean refugees 
        in the following three locations: Shenyang 
        municipality, Liaoning province; Yanji city, Yanbian 
        Korean Autonomous Prefecture, Jilin province; and 
        Dandong municipality, Liaoning province.\18\
        <bullet> November 7. South Korean media, citing a South 
        Korean activist, reported that Chinese authorities near 
        Beijing municipality detained and later repatriated 
        five North Korean refugees.\19\
        <bullet> November 15. Chinese authorities reportedly 
        detained between 13 and 15 North Korean refugees, 
        including 2 guides reported to be ethnic Korean Chinese 
        citizens, in Yunnan province.\20\ As of November 19, 
        South Korean media reported Chinese authorities had 
        transferred the refugees to Liaoning in preparation for 
        repatriation.\21\
        <bullet> June 19. Chinese authorities reportedly 
        detained 11 North Korean refugees in Jilin 
        province.\22\ As of July 3, a refugee advocacy 
        organization reported authorities continued to detain 
        the refugees in the cities of Yanji and Tumen in 
        Yanbian Korean Autonomous Prefecture, Jilin.\23\
        <bullet> July 15-17. Chinese authorities reportedly 
        detained between 20 and 29 North Korean refugees and 
        several others assisting them in Shandong and Yunnan 
        provinces.\24\ As of July 24, South Korean media 
        indicated the refugees faced repatriation following 
        their transfer by Chinese authorities to a detention 
        center in Tumen.\25\
        <bullet> August 12. Chinese authorities reportedly 
        detained 11 North Korean refugees in Yunnan along the 
        border with Laos.\26\

    China's heightened efforts to stem the flow of refugees 
came amid increased political instability in the DPRK. Border 
security reportedly increased sharply following the execution 
of Jang Sung-taek, a leading figure in the North Korean 
government and uncle of DPRK paramount leader Kim Jong-un, in 
December 2013.\27\ Christian missionaries and aid groups also 
reported over the last year that Chinese authorities have been 
cracking down on ``Christian-run NGOs and businesses'' working 
along the China-North Korea border,\28\ in some cases detaining 
foreign nationals, including citizens from South Korea,\29\ 
Canada,\30\ and the United States.\31\ International and 
Chinese Christian communities reportedly have been active in 
assisting refugees, in some cases running orphanages for 
refugee children or providing aid to refugees in China.\32\
    Heightened security on both sides of the China-North Korea 
border appears to be limiting the outflow of North Korean 
refugees into China and neighboring countries.\33\ According to 
the South Korean Ministry of Unification, the number of 
refugees who reached South Korea in 2013 changed only 
marginally to 1,516 from 1,509 in 2012.\34\ The low number of 
arrivals continued a trend that has seen a significant drop in 
the number of refugees entering South Korea since 2009.\35\

                   Trafficking of North Korean Women

    Trafficking of North Korean women in China remained a 
significant problem. China's policy of non-recognition of North 
Korean refugees and the risks associated with repatriation 
render North Korean women who illegally enter China unprotected 
by law and extremely vulnerable to abuse.\36\ Investigations 
conducted by the UN COI and other experts estimated that over 
70 percent of North Korean refugees leaving the DPRK are women, 
of whom a high number become trafficking victims, primarily for 
the purposes of forced marriage or sexual exploitation.\37\ A 
sex ratio imbalance in rural areas, particularly in northeast 
China, has exacerbated the problem by creating a demand for 
marriageable women.\38\ China is obligated under the Convention 
on the Elimination of All Forms of Discrimination against Women 
and the UN Protocol to Prevent, Suppress and Punish Trafficking 
in Persons, especially Women and Children to take measures to 
safeguard trafficking victims and suppress all forms of 
trafficking of women.\39\

                  Children and Denial of Basic Rights

    Children born to North Korean women remain largely deprived 
of basic rights to education and other public services in 
China.\40\ While several international experts contend that 
Chinese policies have changed in recent years to allow a 
greater majority of these children access to education and 
other social services,\41\ China's non-recognition of refugees 
and the risk of repatriation continue to influence the decision 
of some parents not to register their child's birth.\42\ 
China's repatriation of North Korean women who have given birth 
to children in China contravenes its obligations under the UN 
Convention on the Rights of the Child prohibiting separation of 
children from their parents.\43\

                             Public Health


        Violent Medical Disputes as a Focal Public Health Issue

    Incidents of violence against hospital personnel, some 
resulting in fatalities,\1\ galvanized top leadership to 
declare ``no tolerance'' for this increasing problem in China 
during the annual legislative meetings in March 2014.\2\ 
Medical professionals have linked ineffective medical dispute 
resolution mechanisms, among other factors, to this problem.\3\ 
Yet pressure from protests or the threat of protest in medical 
disputes have resulted in legal processes and government 
decisionmaking that give priority to ``stability maintenance'' 
over strengthening legal norms and public trust in hospitals 
and the courts, according to a U.S. scholar.\4\

        Problems in Implementation of the PRC Mental Health Law

    Implementation of the PRC Mental Health Law (MHL) during 
its first year was marred by reports of Chinese government 
officials forcibly committing petitioners to psychiatric 
facilities,\5\ despite the MHL's prohibition of such action.\6\ 
The Chinese government did not respond to a written question 
from a UN Committee as to ``whether the 2012 Mental Health Law 
forbids involuntary psychiatric commitment for persons who do 
not suffer from any mental illness'' prior to the review in May 
2014 of China's compliance with the International Covenant on 
Economic, Social and Cultural Rights (ICESCR) under its 
provision on the right to health.\7\ Forcibly committing 
individuals without mental illness to psychiatric facilities 
(bei jingshenbing) in China due to family \8\ or employment 
disputes,\9\ or as a public security tool against 
petitioners,\10\ Falun Gong practitioners,\11\ and political 
dissidents \12\ has been well documented in the past. The 
International Covenant on Civil and Political Rights and the 
Convention on the Rights of Persons with Disabilities prohibit 
arbitrary detention.\13\ In May, the UN Working Group on 
Arbitrary Detention censured China in an opinion on the case of 
Xing Shiku, a petitioner from Heilongjiang province, whom 
authorities have kept in a psychiatric facility for more than 
seven years, concluding that Xing's detention violated Articles 
9 and 19 of the Universal Declaration of Human Rights.\14\
    Domestic Chinese reports during this reporting year 
featured cases in which persons with mental illness or those 
who had been involuntarily committed had uneven access \15\ to 
legal protections and remedies provided for in the MHL.\16\ In 
the case of Wu Chunxia, a domestic violence survivor from Henan 
province whom public security officials forcibly committed to a 
psychiatric facility for 132 days in 2008 for petitioning,\17\ 
the Henan Province High People's Court upheld a lower court's 
decision in May 2014 that found the public security bureau's 
actions in 2008 violated the law.\18\ In another case, a court 
in Liaoning province initially rejected an administrative 
appeal by Liu Gang, a pig farmer who had been involuntarily 
committed in Shandong province twice--once in 2008 and again in 
2009-- for petitioning.\19\ Liu reportedly received 400,000 
yuan (US$64,868) in late July from a court-mediated 
agreement.\20\ In a case described as the first under the 
MHL,\21\ a plaintiff in Shanghai municipality alleged a 
psychiatric facility had deprived him of his personal freedom 
for more than 10 years because his brother refused to authorize 
his discharge and the facility would not release him on his own 
recognizance.\22\ A district court in Shanghai did not permit 
the lawsuit to be filed in May 2013 on the basis that the 
plaintiff ``lack[ed] competence in civil matters'' but allowed 
filing seven months later.\23\ A domestic Chinese human rights 
organization reported that the case went to trial on July 28, 
2014.\24\
    Article 24 of the MHL stipulates implementation of a 
nationwide ``surveillance network'' that includes a ``reporting 
system for severe mental health disorders'' \25\ purportedly to 
provide ``better medical treatment and help prevent [those with 
severe mental health disorders] from harming others.'' \26\ An 
expose in October 2013, however, described problems with a 
local effort to identify individuals with severe mental illness 
that predated passage of the MHL. In its 2012 mental health 
work plan, the public health bureau in Zhengzhou city in Henan 
directed government health workers to register individuals with 
severe mental disorders using a quota of two persons per 1,000 
living in residential districts.\27\ Failure to meet the quota, 
according to the plan, would impact performance reviews of 
community health centers.\28\ Amid widespread criticism of 
Zhengzhou's use of a quota,\29\ a spokesperson from the 
National Health and Family Planning Commission stressed 
statistical indicators are applicable only to provinces and 
province-level municipalities.\30\

         Public Health Advocacy and Health-Based Discrimination


        HARASSMENT OF PUBLIC HEALTH ADVOCATES AND ORGANIZATIONS

    The Commission observed reports of harassment and detention 
of public health advocates and organizations during this 
reporting year, including:

        <bullet> On January 15, 2014, public security officials 
        reportedly arrested Akbar Imin--a former employee of 
        the health advocacy NGO Beijing Aizhixing Institute--on 
        suspicion of ``endangering state security.'' \31\ Imin 
        conducted outreach on HIV/AIDS prevention and harm 
        reduction among the Uyghur community in Beijing 
        municipality and Yunnan province.\32\ International 
        observers suggested that his ethnicity might be a 
        factor in his detention.\33\
        <bullet> Prominent health and rights advocate Hu Jia 
        asserted that public security officials in Beijing kept 
        him under ``soft detention'' (ruanjin) at home from 
        January 17 through June 8, 2014.\34\ Hu also reported 
        that ``plainclothes personnel'' assaulted him on the 
        street in mid-July after he met with a foreign 
        filmmaker regarding the late activist Cao Shunli.\35\ 
        Hu faced government harassment and imprisonment in the 
        past in connection with his HIV/AIDS advocacy,\36\ 
        though media outlets linked his recent detention to 
        ``stability maintenance'' in the lead up to the 25th 
        anniversary of the 1989 Tiananmen protests.\37\
        <bullet> Officials prevented HIV/AIDS advocates from 
        leaving China to participate in international 
        conferences in November 2013 \38\ and July 2014.\39\
        <bullet> In May 2014, a court in Ruzhou city, Henan 
        province, sentenced five persons living with HIV/AIDS 
        to suspended prison terms that ranged from one year and 
        six months to three years on a charge related to their 
        petitioning in November 2013 for improved medical 
        treatment and financial subsidies.\40\
        <bullet> Beijing Aizhixing Institute reported that it 
        closed its Beijing office in October 2013 due to 
        ``funding and the political environment, among other 
        factors.'' \41\
        <bullet> In July 2014, public security officials 
        arrested Chang Boyang, a human rights lawyer and the 
        co-founder of the NGO Zhengzhou Yirenping, and later 
        charged him with ``illegal business operations.'' \42\ 
        Authorities also reportedly raided Zhengzhou 
        Yirenping's office twice in July, closed its 
        organizational bank account, and required staff to list 
        foreign donors.\43\

           ACCESS TO EDUCATION FOR PERSONS WITH DISABILITIES

    The Chinese government continued administrative efforts to 
improve the right to education for persons with disabilities, 
such as a plan to raise the percentage of elementary school-age 
children with visual, hearing, and intellectual disabilities 
receiving compulsory education \44\ from current official 
estimates of 71.9 percent to more than 90 percent by 2016.\45\ 
The Ministry of Education (MOE) issued guidelines in March \46\ 
which included a provision that localities make the college-
entrance exam (gaokao) \47\--the key channel for determining 
whether and where students receive a college education in China 
\48\--available in a format accessible to visually impaired 
students.\49\ Yet an advocate noted that the MOE did not 
adequately consider reasonable accommodations to facilitate 
test-taking, which resulted in difficulties for at least one 
blind test-taker.\50\ Physical examinations required for 
university enrollment, moreover, continue to be a basis to 
``deny enrollment in certain subjects if the applicants have 
certain disabilities.'' \51\ In August 2014, for example, a 
microblog user publicized the case of a student from Fujian 
province whose college rescinded her admission for failing the 
physical exam.\52\ Following considerable criticism in social 
media, Xinhua reported education officials in Fujian 
facilitated the student's admission into another college.\53\

                       EMPLOYMENT DISCRIMINATION

    Health-based employment discrimination is prohibited under 
Chinese law,\54\ yet the Civil Servant Recruitment Physical 
Examination Standards \55\ continued to be the basis to reject 
persons with a range of health conditions from employment in 
government service in this reporting year.\56\ An NGO report 
released in March 2014 pointed out that these standards are not 
in compliance with Chinese law or China's international 
obligations, and close to 200 million people may be 
discriminated against as a result.\57\ The UN Committee that 
reviewed China's compliance with the International Convention 
on Economic, Social and Cultural Rights expressed concern in 
May that the Chinese government is not meeting its own goal of 
reserving 1.5 percent of positions for persons with 
disabilities.\58\

                            The Environment


            China's Pollution Challenges and Health Concerns

    During the Commission's 2014 reporting year, widespread and 
severe environmental challenges continued to confront China and 
to threaten citizens' health,\1\ including soil, air, water, 
and other pollution problems. Environmental problems reportedly 
have led to increasing migration by China's wealthy to less 
polluted areas in China or to locations outside the country.\2\ 
Soil pollution in China has been linked to food safety concerns 
both domestically and internationally.\3\ Results of a national 
soil pollution survey showed that over 19 percent of arable 
land soil samples collected from across China were 
contaminated.\4\ The survey also showed that over 36 percent of 
the soil samples collected from sites around hundreds of heavy 
polluting industries exhibited contamination.\5\ This figure is 
significant given that according to one study, approximately 
110 million Chinese people live within one kilometer of ``key'' 
polluting enterprises \6\ (in 2014, there were 14,410 total 
``key'' enterprises).\7\ Air pollution incidents in several 
locations led authorities to take actions such as closing 
schools, canceling flights, and closing highways because of low 
visibility.\8\ Chinese citizens,\9\ as well as U.S. scientists 
and authorities and South Korean officials, expressed concern 
about China's air pollution, which has crossed international 
boundaries.\10\
    During this reporting year, news articles chronicled a 
number of environmental accidents in China that affected 
drinking water supplies,\11\ highlighting both transparency 
issues and ongoing challenges in maintaining drinking water 
quality. At a United Nations meeting in May 2014, a 
representative of the Chinese government asserted that over 98 
percent of China's city residents have access to ``safe 
drinking water,'' \12\ although it is uncertain whether he was 
referring to all urban areas. One report cited official 
statistics indicating that in 2012, 95.3 percent of the 
drinking water in 113 ``key'' cities met quality standards, but 
pointed out that officials did not disclose drinking water 
quality from thousands of other cities.\13\ The same report 
cited a source asserting that only about half of urban drinking 
water met standards.\14\ Rural residents reportedly face more 
formidable challenges in accessing safe drinking water than 
their urban counterparts.\15\ A Ministry of Land Resources 
survey indicated that 280 million people in China still use 
unsafe drinking water.\16\
    In addition, dirty migration, whereby polluting industries 
move to less developed areas, remains a problem. Environmental 
protection efforts have lagged behind and information 
disclosure has been lower in less developed areas.\17\ This 
situation is problematic because it potentially leaves rural 
residents more vulnerable to the effects of pollution.\18\ A 
news source reported that relocated power plants to the 
Xinjiang Uyghur Autonomous Region (XUAR) have affected public 
health.\19\ The largely minority populations in the XUAR and 
other regions face serious political risks if they speak out in 
opposition to such polluting projects.\20\ For example, court 
authorities in Biru county, Tibet Autonomous Region, sentenced 
three environmentalists to respective prison terms of 3, 9, and 
13 years for allegedly leading a public demonstration against 
pollution from mining activities.\21\ [For more information on 
these three cases, see Section V--Tibet.]

       Regulatory Developments and Challenges to Rule of Law and 
                             Accountability

    Party leaders' speeches \22\ and provisions in a major 
planning document suggest that central authorities have raised 
the priority of regulating threats to environmental quality. 
During the Third Plenum of the 18th National Congress of the 
Chinese Communist Party Central Committee in November 2013,\23\ 
the Party issued a major planning document, the Central 
Committee Third Plenum Decision on Certain Major Issues 
Regarding Comprehensively Deepening Reforms (the Decision), 
which contained provisions in support of environmental 
protection, including provisions to strengthen enforcement.\24\ 
The Decision's provisions highlighted the following objectives: 
publishing environmental information in a timely manner, 
strengthening public supervision, and strictly implementing a 
compensation payments system for ecological or environmental 
damage,\25\ among several other goals.\26\

REVISIONS TO THE ENVIRONMENTAL PROTECTION LAW: STRENGTHS AND WEAKNESSES

    In April 2014, the National People's Congress Standing 
Committee passed substantial revisions to the Environmental 
Protection Law (EPL), the first revisions since 1989,\27\ 
further suggesting that central authorities have raised the 
priority of regulating threats to the environment.\28\ 
Implementation will be a key determinant for the success of the 
revised EPL as it is for other regulatory measures.\29\ If duly 
implemented, the revised EPL provisions could have positive 
effects,\30\ some of which are mentioned below.

1. Certain articles in the revised EPL have the potential to 
        improve transparency, by:

  a. Codifying at the level of law the requirement that 
            relevant departments shall (yingdang) make full 
            environmental impact assessment (EIA) reports 
            available to the public, except for information 
            that is considered a state or company secret.\31\
  b. Stipulating that ``key'' polluting entities should make 
            public the names and amounts of pollutants they 
            emit along with other related details.\32\
  c. Specifying that if ``key'' polluting industries do not 
            disclose or disclose false ``environmental 
            information,'' then environmental protection 
            authorities may, through orders, fines, and 
            exposure, compel them to do so.\33\

2. Provisions from the revised EPL listed below have the 
        potential to address lax implementation and 
        enforcement, and reduce noncompliance:

  a. Article 6 stipulates greater responsibility of local 
            government officials for environmental quality.\34\
  b. Article 26 codifies into law the inclusion of 
            environmental protection targets as criteria in 
            same-level performance evaluations of environmental 
            protection departments and for performance 
            evaluations of lower level governments and 
            officials.\35\
  c. Article 44 specifies that environmental authorities can 
            put on hold approvals for polluting projects in a 
            region if that region is out of compliance with 
            total emission control targets or has not met 
            nationally determined environmental quality 
            targets.\36\
  d. Article 43 allows authorities to collect environmental 
            taxes in some cases instead of pollution emission 
            fees, which remain a policy option, but amounts 
            have been too low to have the desired impact.\37\
  e. Article 59 provides for authorities to impose daily fines 
            on polluting entities under certain conditions.\38\

    In addition, the EPL revisions may also improve public 
oversight of environmental affairs by allowing a narrow, select 
range of environmental groups to file public interest lawsuits, 
although limitations and questions remain. Article 58 provides 
that environmental ``social organizations'' (shehui zuzhi) may 
bring public interest lawsuits only if the group (1) is 
registered with a civil affairs bureau at a municipal-level 
city or above, (2) has been involved in environmental 
protection public interest activities continuously for five 
years, and (3) has not broken the law.\39\ Experts point out 
that there is too much ambiguity in the language about which 
groups will be allowed to file lawsuits and suggest further 
clarification is needed.\40\ Given this ambiguity, there is no 
certainty that authorities will allow groups without close ties 
to government agencies to file public interest lawsuits.
    Some Chinese and international experts welcomed the 
revision of the EPL; \41\ however, some mentioned remaining 
deficiencies, such as the need for a central platform to 
facilitate citizen access to information, and an assessment 
mechanism to assist in monitoring environmental health.\42\ In 
addition, environmental officials still cannot order a 
polluting entity to halt operations other than on a temporary 
basis without approval from the local government.\43\ Under the 
revised EPL, environmental officials can compel ``key'' 
polluting industries to disclose pollution emissions and other 
information, but this authority does not appear to extend to 
the vast majority of enterprises.\44\

          ADDITIONAL INSTITUTIONAL AND REGULATORY DEVELOPMENTS

    In addition to revising the EPL, authorities took 
additional steps to strengthen the environmental protection 
regulatory framework. In November 2013, the Ministry of 
Environmental Protection issued three important documents that 
sought to delegate authority to approve, strengthen supervision 
over, and guide information disclosure regarding environmental 
impact assessments (EIA).\45\ In June 2014, the Supreme 
People's Court established the Environment and Resources 
Tribunal to offer ``unified guidance and coordination'' to 
China's 134 environmental courts.\46\ Central and environmental 
authorities continued to revise several major environmental 
laws; \47\ discuss far-reaching institutional changes; \48\ and 
draft new laws and plans to address soil contamination,\49\ 
institute environmental taxes,\50\ and raise awareness of 
environmental health.\51\ In addition, central and 
environmental authorities instituted an air pollution target 
responsibility system in provincial-level areas; \52\ issued a 
guiding opinion \53\ and began to draft national rules that 
will guide public participation in environmental protection; 
\54\ discussed revamping and expanding pollution permit 
markets; \55\ and planned to expand carbon exchange market 
pilot projects,\56\ including launching trial operation of a 
national unified carbon market in 2016 in select provinces and 
cities.\57\

           AUTHORITIES INCREASED CRIMINAL ENFORCEMENT ACTIONS

    During the 2014 reporting period, authorities increased 
criminal enforcement actions in addition to strengthening the 
environmental protection regulatory framework. In June 2013, 
court and procuratorate authorities issued an interpretation 
that clarified the application of the PRC Criminal Law to 
environmental cases,\58\ and between June and December 2013, 
security agencies reportedly investigated and handled 247 
environmental criminal cases, equivalent to the total number of 
cases handled in the previous 10 years.\59\ The Ministries of 
Environmental Protection and Public Security issued a joint 
opinion in December 2013 that outlined closer cooperation 
between the two ministries in enforcing environmental laws,\60\ 
and by early December, eight provinces and cities had 
established joint enforcement mechanisms.\61\

                      NONCOMPLIANCE AND CORRUPTION

    Rule of law in the environmental sector will require more 
than new or revised laws and regulations, as noncompliance and 
corruption remain problematic. A survey published in 2014 by 
several Chinese non-governmental organizations about real-time 
online air pollution monitoring results from a sampling of 
China's ``key'' enterprises for air emissions found that most 
companies surveyed were in compliance only 30 to 45 percent of 
the time.\62\ An official source indicated that in 2013, 
environmental protection enforcement personnel found nearly 
10,000 infractions of the law and other hazards and risks 
during environmental inspections.\63\ Corruption and disregard 
for the law reportedly are widespread in the environmental 
sector \64\ and in some cases, they have been linked to 
pollution accidents.\65\

                       UNRELIABLE LEGAL REMEDIES

    Despite improved environmental legislation and increased 
application of criminal sanctions, significant challenges 
hinder the development of the rule of law in the area of 
environmental protection, including ongoing barriers faced by 
citizens in accessing the courts.\66\ During this reporting 
year, for example, in February 2014, Li Guixin, a resident of 
Hebei province, tried to file a lawsuit related to air 
pollution against the Shijiazhuang Municipal Environmental 
Protection Bureau (EPB).\67\ While domestic media touted Li's 
efforts as the first lawsuit by an individual against an 
EPB,\68\ Li did not get his day in court because no court would 
accept the case.\69\ In addition, a Chinese news article 
reported that Li was subject to pressure from ``all sides,'' 
including from his lawyer, who decided to drop Li as a 
client.\70\
    Another case illustrating the obstacles citizens faced in 
their efforts to access the courts concerns the April 2014 
major benzene chemical spill in Lanzhou municipality, Gansu 
province.\71\ Five citizens filed a lawsuit over the spill, but 
a court did not accept the lawsuit and, without providing a 
written response, stated that the litigants did not meet the 
criteria to sue, citing legal provisions related to public 
interest cases.\72\ Sources cite assertions that the court's 
reasoning is problematic because the citizens were filing the 
case as individuals directly harmed by the spill, so the case 
should not have been considered a public interest case.\73\ The 
Supreme People's Court responded to questions about the lower 
court's decision not to accept the lawsuit by stating that the 
court where a plaintiff files should be the court that makes 
the determination to accept or reject the case.\74\

                      POLLUTION AND MASS INCIDENTS

    Pollution and environmental degradation problems are among 
the primary triggers of environmental mass incidents.\75\ For 
example, in May 2014, authorities in Hangzhou municipality, 
Zhejiang province, reportedly detained at least 53 people 
linked to their participation in a mass protest \76\ against a 
waste incinerator, and 7 others for ``spreading rumors'' about 
the protest.\77\ In another example, on March 30, 2014, 
thousands of people joined a peaceful protest against a 
paraxylene (PX) plant in Maoming municipality, Guangdong 
province,\78\ that eventually turned violent.\79\ Human Rights 
Watch called upon Chinese authorities to launch an 
investigation into possible excessive use of force in 
Maoming.\80\ Officials administratively detained 26 people and 
criminally detained 18 others on unspecified charges.\81\ One 
resident reportedly said citizens had not been consulted about 
the project.\82\ News articles reported instances of 
censorship,\83\ deletion of journalists' photographs,\84\ and 
journalists being blocked from entering the city \85\ or being 
required to have a special permit.\86\ The government and some 
schools and employers pressured workers and students to support 
the plant and not to participate in the demonstrations.\87\

           Environmental Transparency: Advances and Setbacks

    During the 2014 reporting period, Chinese and international 
media reported that Chinese authorities had made advances in 
environmental transparency. A Chinese NGO research report 
indicated that in more than 100 cities, disclosure of air 
quality data had improved since 2011.\88\ As of January 2014, 
179 cities had started to disclose to the public real-time 
information on air quality.\89\ Also in January, a national 
environmental measure came into force requiring ``key 
enterprises and scaled livestock and poultry farms'' to self-
monitor and disclose air, water, noise, and other pollution 
emissions data.\90\ The measure also required enterprises that 
have automated monitoring systems to disclose emissions data on 
a real-time basis.\91\ A January 2014 preliminary evaluation of 
compliance with the measure indicated some positive 
results.\92\ In April 2014, authorities made available to the 
public limited general data from a sample-based national survey 
on soil pollution,\93\ following a previous refusal to release 
it on the grounds that the data was a ``state secret.'' \94\ 
While the disclosure represents a step forward, the general and 
incomplete nature of the information hinted that officials may 
be reluctant to move toward full disclosure.\95\
    During the reporting year, censorship persisted and 
citizens continued to face obstacles in accessing environmental 
information from governmental agencies. In February 2014, 
sources reported that Chinese officials fired an editor from 
the Finance Channel of Chinese Central Television (CCTV) for 
allowing posts complaining about the air quality in Beijing 
municipality on the channel's official Sina Weibo microblog, 
and ordered CCTV not to report on Beijing's air pollution.\96\ 
Chinese officials reportedly deleted references to a Shanghai 
Academy of Social Sciences research study, which was cited by 
several news media, that said ``Beijing is not livable.'' \97\ 
As China accelerates its development of nuclear power,\98\ a 
source reported on the lack of transparency and some unease 
regarding communication and cooperation on safety issues at the 
Taishan nuclear plant under construction in Guangdong 
province.\99\ Other sources highlighted instances in which 
officials denied environmental information requests. For 
example, in one case, officials denied a request for 
information on pollution emission fees collected by 
environmental officials across the country,\100\ and in another 
case, information regarding environmental impact assessment 
results and emissions data related to an incinerator in 
Hangzhou municipality, Zhejiang province.\101\ One 
international source noted that requests for information about 
the implementation of China's Green Credit Directive (the 
Directive) sent to six Chinese banks went unanswered.\102\ 
Chinese banks are required under the Directive to evaluate the 
social and environmental impacts of their international project 
loans.\103\

                  III. Development of the Rule of Law


                             Civil Society


               Crackdown on Civil Society Advocates and 
                      Increasing Pressures on NGOs

    During the Commission's 2014 reporting year, the Chinese 
government and Communist Party expanded the scope of its 
crackdown against civil society advocates, journalists, and 
rights defenders that began in spring 2013.\1\ Human rights 
organizations and other observers reported on dozens of 
detentions and arrests,\2\ including individuals who attempted 
to monitor the Chinese government's report to the UN Human 
Rights Council for its second Universal Periodic Review on 
human rights in China in October 2013,\3\ and others who sought 
to mark the 25th anniversary of the 1989 Tiananmen protests.\4\ 
Among the targets of the government crackdown were participants 
in the New Citizens' Movement (NCM),\5\ a ``loose association'' 
or ``network'' \6\ of rights defenders engaged in a social 
movement for justice, rule of law, and citizens' rights.\7\ In 
January 2014, a court in Beijing municipality sentenced legal 
scholar and NCM promoter Xu Zhiyong to four years' imprisonment 
based on an indictment that accused him of being the 
``ringleader'' of peaceful demonstrations for equal education 
rights and transparency.\8\ Others associated with the NCM who 
have been sentenced to prison terms include Liu Ping (6 years 
and 6 months),\9\ Wei Zhongping (6 years and 6 months),\10\ and 
Ding Jiaxi (3 years and 6 months),\11\ and some continue to be 
held in detention, such as Zhang Kun \12\ and Li Huaping.\13\ 
Authorities also detained Wang Gongquan, a key NCM financial 
supporter, in September 2013, but released him on bail in 
January 2014 after he reportedly admitted his ``guilt.'' \14\ 
Such acts by the authorities violate international standards on 
freedom of speech, association, and assembly in the 
International Covenant on Civil and Political Rights \15\ 
(Articles 19, 21, and 22) and the Universal Declaration of 
Human Rights \16\ (Articles 19 and 20). Moreover, China's 
Constitution provides for freedom of speech, assembly, 
association, and demonstration in Article 35.\17\ [For further 
information on the crackdown on NCM advocates and others, see 
Section II--Freedom of Expression and Criminal Justice and 
Section III--Institutions of Democratic Governance.]

------------------------------------------------------------------------
                       The New Citizens' Movement
-------------------------------------------------------------------------
  According to Teng Biao, a leading proponent of the New Citizens'
 Movement (NCM), the emergence of the NCM reflects a gradual shift from
 ``legal appeals towards political appeals'' and from ``cyberspace
 activism into real-world activism.'' \18\ The NCM tracks closely to the
 careers of Teng and Xu Zhiyong, former classmates and legal advocates
 whose efforts contributed to the abolition of custody and repatriation
 in 2003 \19\--a form of extralegal detention rife with reported
 abuses.\20\ They later established a legal aid center, the Open
 Constitution Initiative (Gongmeng), which Beijing municipal authorities
 shut down in 2009 after accusing the organization of tax evasion.\21\
 Xu, Teng, and others continued their legal work under the name Citizens
 (Gongmin) following the closure of Gongmeng, and renamed it New
 Citizens' Movement in 2012.\22\ The NCM has been shaped by participant
 activities, including petitioning for equal education rights; \23\
 peaceful demonstrations urging disclosure of government officials'
 assets; \24\ ``same-city dinner gatherings'' that feature discussion of
 issues of public concern; \25\ and a Web site.\26\ A petition initiated
 by NCM participants advocating for education equality for the children
 of migrant workers reportedly garnered 100,000 signatures.\27\
------------------------------------------------------------------------

    Increasing pressures on non-governmental organizations 
(NGOs) went beyond mere regulatory oversight during this 
reporting year.\28\ A leading Chinese expert on civil society 
development stated that there has been no reduction of controls 
or restrictions on NGOs, but rather the government is exerting 
even greater pressure on organizations it deems to be 
``troublemaking,'' i.e., politically sensitive.\29\ In its 2013 
annual report, the international human rights organization 
Chinese Human Rights Defenders noted that ``groups working on 
issues of health and discrimination that had more space in 
previous years faced paralyzing scrutiny.'' \30\ Following the 
Changsha municipality, Hunan province, civil affairs bureau's 
refusal to register an LGBT group as an NGO in November 
2013,\31\ several NGOs planned a seminar in Beijing 
municipality to discuss NGO registration in early May.\32\ 
Police summoned some of the participants for questioning and 
canceled the seminar reportedly due to the seminar's close 
timing to the 25th anniversary of the 1989 Tiananmen 
protests.\33\ Although the arrest of human rights lawyer and 
Zhengzhou Yirenping co-founder Chang Boyang in July was also 
linked to the 25th anniversary events,\34\ authorities in 
Zhengzhou municipality, Henan province, reportedly raided 
Zhengzhou Yirenping's office twice in one month, closed the 
organization's bank account, and required that it produce a 
list of foreign NGOs with which it had contact.\35\ Zhengzhou 
Yirenping is a public health and anti-discrimination NGO.\36\ 
In a separate development, the pioneering anti-domestic 
violence advocacy group Anti-DV Network (ADVN) ceased 
operations during this reporting year.\37\ Based in Beijing and 
active for more than 14 years, ADVN urged the establishment of 
national anti-
domestic violence legislation.\38\ In a letter posted to its 
Web site in April, the group explained that with an anti-
domestic violence law on the legislative calendar for 2014 and 
the rise of other organizations engaged in advocacy, it had 
``achieved its organizational mission.'' \39\ It is unclear, 
however, if political pressures had any bearing on its closure. 
[For information on the harassment of labor and religious 
groups, see Section II--Worker Rights and Freedom of Religion.]
    International news media reported in June that local 
governments posted notices for a security review of foreign 
NGOs operating in China, an investigation reportedly instigated 
by the new Central State Security Commission.\40\ The Global 
Times, a state-run media outlet, and the Hong Kong-based South 
China Morning Post also reported on the increased surveillance 
of Chinese NGOs that had contact with or received program funds 
from foreign NGOs.\41\

                      Government and Party Control

    Scholars have estimated there are anywhere from three to 
eight million non-governmental organizations (NGOs) in China 
\42\--many of which are not registered \43\--that engage in a 
broad range of activities. Government-registered ``social 
organizations'' (shehui zuzhi)--the government's term for non-
governmental entities \44\--make up a subset of Chinese NGOs. 
Most of these registered organizations are government-organized 
NGOs (GONGOs) \45\ whose decisionmaking and operations are not 
independent of the government.\46\ Government statistics for 
2013 reported an 8.4 percent increase overall in government-
registered ``social organizations'' over 2012 estimates,\47\ 
reflecting steady rather than explosive growth.\48\ Of the 
541,000 officially registered organizations in 2013, 286,000 
were membership-based social associations (shehui tuanti); 
251,000 were private, non-commercial units (minban feiqiye 
danwei); and 3,496 were foundations (jijinhui).\49\ In spite of 
regulatory changes to lower the threshold for NGO registration 
that began in a few locations in 2009,\50\ many Chinese NGOs, 
especially those the government deems to be politically 
sensitive, continue to register as business entities, remain 
unregistered due to administrative obstacles in registering, or 
choose not to register to avoid intrusive government 
control.\51\ An academic study of 263 grassroots NGOs in 
Beijing municipality and Guangdong and Yunnan provinces 
published in 2014, for example, found that 70 percent were not 
registered as NGOs.\52\ Grassroots organizations' lack of 
formal registration is a barrier to normalized operations, such 
as opening a bank account and receiving project funding.\53\
    The Chinese government reportedly has not engaged with non-
governmental organizations without ``an official background'' 
\54\ in formulating national reports presented to UN review 
bodies or in monitoring China's compliance with its domestic or 
international commitments, a concern raised during this 
reporting year by UN member states,\55\ the UN Committee on the 
Rights of the Child,\56\ and domestic and international civil 
society organizations.\57\ The government listed 22 and 16 
``non-governmental organizations and academic research 
institutions,'' respectively, for its most recent national 
reports to the UN Human Rights Council (UNHRC) and the 
Committee on Economic, Social and Cultural Rights (CESCR).\58\ 
The U.S.-based NGO Human Rights in China noted that many of the 
listed groups in the country report for the CESCR review ``are 
mass organizations created by or closely affiliated with the 
government.'' \59\ A representative from the China Association 
for the Preservation and Development of Tibetan Culture, an 
organization affiliated with the Communist Party's United Front 
Work Department and one of the NGOs listed as a consultant in 
the Universal Periodic Review (UPR) and CESCR country reports, 
was observed by UN staff taking photos of the computer screen 
of Ti-Anna Wang, the daughter of imprisoned dissident Wang 
Bingzhang, at the March 2014 session of China's UPR.\60\ When 
the representative continued to take photos of Wang despite 
warnings from UN staff, UN officials revoked his authorization 
to attend the session.\61\
    The Chinese government interfered with international NGO 
efforts at UN forums this past year. For example, it attempted 
to use UN procedures to prevent international NGOs from holding 
a moment of silence to honor civil society activist Cao Shunli 
on March 20, 2014, during the session in which the UNHRC 
adopted the outcomes of the second Universal Periodic Review of 
China's human rights record.\62\ Cao died in March 2014, 
following a two-week forcible disappearance, months of 
detention without access to adequate medical care, and alleged 
abuse.\63\ At least two organizations have been unable to 
attain consultative status on the UN Economic and Social 
Council Committee on NGOs (ECOSOC) due to obstruction from 
China. The Child Rights International Network (CRIN), an 
international group based in London, reported that China 
repeatedly has asked that it ``change content on the 
organisation's website regarding Tibet . . . .'' \64\ At a May 
2014 ECOSOC session, a Chinese government representative 
delayed a decision on U.S.-based Freedom Now's application with 
a request for the ``theoretical definition of prisoners of 
conscience.'' \65\

       POLICY SUPPORT TO EXPAND ROLE OF ``SOCIAL ORGANIZATIONS''

    In contrast to the ``chill'' of the government's clampdown 
on more independent civil society development,\66\ central 
government and Party policy documents, such as the Central 
Committee Third Plenum Decision on Certain Major Issues 
Regarding Comprehensively Deepening Reforms of the 18th 
National Congress of the Chinese Communist Party issued in 
November 2013,\67\ included language to support broader 
participation of non-governmental ``social organizations'' as a 
function of China's economic development and reform.\68\ This 
policy support reiterated points in the institutional reform 
plan of March 2013 that aim to shift some government functions 
in the provision of public services to ``social 
organizations.'' \69\ The expansion of social service and 
welfare organizations encompasses several sectors, including 
large-scale urbanization,\70\ public health,\71\ social welfare 
for disabled persons,\72\ services for the elderly,\73\ 
education,\74\ and employment.\75\ The Chinese public 
reportedly is concerned that the government might not willingly 
transfer functions and that ``social organizations' '' autonomy 
may not be guaranteed.\76\

          CHALLENGES TO ``SOCIAL ORGANIZATION'' SYSTEM REFORM

    The central government did not meet the December 2013 
deadline specified in the March 2013 institutional reform plan 
\77\ to issue revisions to the three main administrative 
regulations on ``social organization'' management.\78\ Twenty-
six provinces and regions, however, have issued local 
measures.\79\ One of the key features of these local measures 
reflects a ``combined'' \80\ registration system whereby trade 
and industry associations, science and technical groups, 
foundations, and rural-urban community services organizations 
will be permitted to register directly at civil affairs 
bureaus, but religious, legal, and political groups, among 
others, will continue to be required to first secure a 
governmental or quasi-
governmental professional sponsoring organization prior to 
registration at the civil affairs office, maintaining the 
existing ``dual management'' system.\81\ Other provisions under 
discussion include a stipulation that government officials not 
be permitted to hold joint appointments at both a government 
agency and a ``social organization,'' and measures to de-link 
the operations of the government departments and affiliated 
``social organizations''; \82\ sanctioning the registration of 
more than one organization per sector as a potential spur to 
organizational competition; \83\ and abolishing some 
restrictions on national-level social associations (shehui 
tuanti or shetuan).\84\
    The transition to this ``combined'' system has not resolved 
two key aims of ``social organization'' reform. Registration, 
for example, has been hampered by a lack of human resources at 
the Ministry of Civil Affairs (MCA) and its bureaus throughout 
the country.\85\ The separation of membership organizations 
(shetuan) from the government units to which they were attached 
also has not gone smoothly. For example, a directive to change 
its professional sponsor organization pitted a politically 
well-connected legal research institute against the MCA in a 
case that came to court in April 2014.\86\ The institute's 
professional sponsoring unit was the Ministry of Justice and it 
refused to accept the China Law Society as its professional 
sponsoring unit, which led the MCA to issue a warning to the 
institute for not submitting financial audit information 
according to the regulations.\87\

              GOVERNMENT PROCUREMENT OF SERVICES FROM NGOS

    A central government opinion issued in late September 2013 
gave high-level policy support to the development of the 
procurement of services from non-governmental 
organizations,\88\ yet government outsourcing reportedly 
continued to develop unevenly, with greater development in 
urban areas rather than in central and western China.\89\ 
Research on government contract outsourcing to HIV/AIDS 
organizations in Yunnan province found a tendency toward 
government control of public-private partnerships.\90\ A 
Chinese researcher has raised a concern that continuing 
government control may not only lead to potentially ineffective 
project implementation, but also may thwart growth of ``social 
organizations'' by subsuming the organization as a subsidiary 
of a government department.\91\

                DEVELOPMENTS IN THE PHILANTHROPIC SECTOR

    The regulatory framework for charitable organizations made 
some progress at the provincial level, specifically Beijing 
municipality \92\ and Shenzhen Special Economic Zone,\93\ 
during this reporting year. A national charity law has been on 
the National People's Congress (NPC) legislative agenda since 
2006,\94\ but work on it stalled due to debate over whether 
charity would be ``state-supervised or independent.'' \95\ 
Government officials and scholars have highlighted the need for 
the law to help establish credibility, transparency, and 
accountability in the sector, particularly among government-run 
charities,\96\ and to resolve the current overlapping of the 
charitable sector and government.\97\ The national legislation 
reportedly was raised to a high priority project in the fall of 
2013 and the first-ever meeting of an NPC small working group 
on the charity law took place in February 2014.\98\ According 
to Wang Zhenyao, director of the Philanthropy Research 
Institute at Beijing Normal University, the lack of a national 
charity law has cost China billions of yuan in potential 
donations in one year alone.\99\

                 Institutions of Democratic Governance


         Institutions of Democratic Governance Within China's 
                            One-Party State

    China's political institutions remain out of compliance 
with the standards defined in Article 25 of the International 
Covenant on Civil and Political Rights (ICCPR),\1\ which China 
has signed and declared an intention to ratify.\2\ Chinese 
leaders also have not developed political institutions to be in 
compliance with the standards set forth in Article 21 of the 
Universal Declaration of Human Rights (UDHR).\3\ During the 
October 2013 UN Human Rights Council's Universal Periodic 
Review of the Chinese government's human rights record, several 
countries put forward recommendations regarding China's 
ratification of the ICCPR.\4\ China rejected a number of these, 
including recommendations to ``ratify,'' ``establish a clear 
timeframe'' to ratify, or ``move towards ratification of the 
ICCPR in the near future.'' \5\ China did, however, accept 
recommendations to ``[t]ake steps toward the ratification of 
ICCPR'' and ``move towards ratification of the ICCPR at the 
earliest possible date.'' \6\

        THIRD PLENUM: NO PLANS FOR FUNDAMENTAL POLITICAL REFORM

    During the Commission's 2014 reporting year, while central 
Chinese leaders expressed a commitment to rein in excessive 
government power, they gave no indication that they would 
undertake political reforms to bring China into compliance with 
the ICCPR or the UDHR. During the Third Plenum \7\ of the 18th 
National Congress of the Chinese Communist Party Central 
Committee in November 2013,\8\ the Party issued a major 
planning document, the Central Committee Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms (the 
Decision).\9\ While the Decision included language about 
``strengthening the system for restraining and supervising the 
use of power'' \10\ and made general references to improving 
China's existing ``socialist democratic political system,'' 
\11\ it did not contain plans for fundamental democratic 
reforms \12\ such as democratizing the Party.\13\ The Decision 
emphasized the continuing dominance of the Party and the goal 
of ``strengthening and improving the Party's leadership over 
overall reform.'' \14\
    Referring to China's Constitution in a novel way, the 
Decision stated that authorities should ``raise comprehensive 
implementation of the Constitution to a new level,'' but it is 
unclear what, if anything, this means for the rule of law in 
China.\15\ Previously, a five-year intraparty plan to establish 
rules, issued in November 2013, included another novel phrase, 
the ``constitution is foremost; the Party constitution is the 
foundation.'' \16\ One Chinese scholar noted this phrase simply 
means that the ``Party will conduct its work within the limits 
of state laws.'' \17\ This idea is not new. An amendment to the 
Chinese Communist Party Constitution adopted in 2012,\18\ and 
statements made by Chinese leaders in 2012 and 2013, already 
specify that the Party must operate within the scope of China's 
Constitution and laws.\19\ Similar language also has appeared 
in the State and Party Constitutions as early as 1982,\20\ and 
the novel phrasing does not mean that China is planning to 
shift to a constitutional government.\21\

              PARTY RECENTRALIZES DECISIONMAKING AUTHORITY

    President and Party General Secretary Xi Jinping and top 
Party leaders \22\ continued efforts to recentralize 
decisionmaking authority in the hands of the central Party,\23\ 
enforce Party discipline, and remove potential barriers to 
central Party reform plans through Party campaigns.\24\ To 
facilitate the centralization of Party authority, top leaders 
created new leadership organizations, including the Central 
Leading Small Group for Comprehensively Deepening Reforms 
(Reforms Leading Small Group) \25\ and the Central State 
Security Committee,\26\ among several others.\27\ President Xi 
Jinping will lead each of these groups.\28\ Sources assert that 
top Party officials see the Reforms Leading Small Group as a 
means of managing, rising above, and satisfying entrenched 
powerful interest groups to ensure reforms move forward.\29\ To 
boost intraparty unity, improve the Party's relations with 
citizens, reduce corruption, and lessen ``formalism, 
bureaucracy, hedonism, and extravagance'' among officials, 
along with other goals, Party officials also continued an 
education and ideology campaign termed the ``mass line'' 
campaign.\30\ The campaign included requirements for officials 
to attend political indoctrination and criticism and self-
criticism sessions.\31\ [For more information on anticorruption 
efforts, see Party and Government Accountability in this 
section.]

                REACH OF THE STATE UNDER ONE-PARTY RULE

    The Party continued to dominate political affairs, 
penetrating every level of society and undertaking political 
indoctrination campaigns. Party branches exist at all levels, 
in villages \32\ and urban neighborhoods,\33\ public 
institutions (including hospitals, schools, and research 
institutes),\34\ government departments, and quasi-
governmental organizations.\35\ Sources this year emphasized 
the Party's continuing efforts to strengthen grassroots-level 
Party organizations \36\ and implement Party-loyalty and 
political indoctrination and education campaigns, including 
within the army,\37\ the courts,\38\ the media,\39\ Party 
branches,\40\ and security agencies.\41\ President Xi called 
for innovation in propaganda and publicity work in order to 
ensure their ``correct political direction.'' \42\ The Party 
Central Committee also instituted a campaign to promote the 
cultivation and implementation of a list of ``core socialist 
values'' to impose ideological views and education throughout 
society.\43\ For example, an opinion issued by the central 
Party called for strengthening Marxist ideological education in 
schools and class curriculum \44\ and to infuse ``core 
socialist values'' into economic development and social 
governance.\45\ Central officials replaced the term ``social 
management'' \46\ with the term ``social governance,'' which 
reportedly is meant to convey the idea that social groups work 
together with the government to govern society instead of the 
idea that society is managed in a top-down fashion by the 
government.\47\ It is uncertain how this change in terminology 
will be reflected in practice.

  25th Anniversary of 1989 Protests and the Ongoing Crackdown on Free 
                   Speech, Association, and Assembly

    Authorities continued to harass, detain, and impose prison 
sentences on individuals who exercised their rights to freedoms 
of speech, assembly, association, and demonstration, including 
over 100 people during the two months prior to the 25th 
anniversary of the 1989 Tiananmen protests and their violent 
suppression by authorities (1989 protests).\48\ After the 
anniversary of the 1989 protests, officials formally arrested 
lawyers Pu Zhiqiang \49\ and Qu Zhenhong,\50\ democracy 
advocate Xu Guang,\51\ and student Zhao Huaxu.\52\ Authorities 
also criminally detained lawyer Chang Boyang,\53\ apparently in 
connection with his representation of individuals who had been 
detained for holding an event commemorating the 1989 
protests.\54\ In addition, authorities criminally detained 
dozens of other individuals for Internet postings or for 
participating in private and public events memorializing the 
1989 protests.\55\ Authorities gave numerous other individuals 
short-term administrative detentions.\56\ In an effort to 
silence commemorative activities, officials questioned 
individuals and warned others not to participate in 
commemorative activities, and briefly detained, imposed soft 
detention on, or forced to travel scores of other 
individuals.\57\
    During the Commission's 2014 reporting year, authorities 
continued a crackdown \58\ against democracy and human rights 
advocates. Authorities sentenced democracy advocate Liu Benqi 
\59\ to three years' imprisonment on the charge of ``inciting 
subversion of state power'' \60\ for posting messages 
mentioning ``demonstrations,'' \61\ sentenced democracy 
advocate Zhang Lin to three years and six months' imprisonment 
on the charge of ``gathering a crowd to disrupt order in a 
public place'' for organizing protests advocating for his 
daughter's right to an education,\62\ and arrested democracy 
advocate Lu Gengsong on the charge of ``subversion of state 
power.'' \63\ Other democracy advocates faced harassment and 
detention, including Qin Yongmin \64\ and Sun Feng.\65\ Still 
others remained in prison, including Zhu Yufu (7 years),\66\ 
Cao Haibo (8 years),\67\ Chen Xi (10 years),\68\ and Liu 
Xianbin (10 years).\69\ In addition, when human rights defender 
Cao Shunli died in March 2014, human rights organizations 
voiced concerns that her death \70\ was linked to Chinese 
authorities' denial of timely and proper medical care during 
her time in detention.\71\ Cao had urged leaders to allow 
independent public participation in the drafting of the Chinese 
government's reports for the 2009 and 2013 UN Human Rights 
Council Universal Periodic Reviews.\72\

  Elections: Trends and Update on the Decline of Democratic Governance

    Sources continued to highlight government interference in 
village committee elections,\73\ underscoring China's 
noncompliance with standards outlined in Article 21 of the 
Universal Declaration of Human Rights (UDHR) \74\ and Article 
25 of the International Covenant on Civil and Political 
Rights.\75\ For example, one Chinese elections expert commented 
that over the last 10 years, grassroots government interference 
in village committee elections clearly had increased.\76\ 
Interference took several forms. Some village election plans 
issued by local authorities stipulated prerequisites for 
village committee election candidates, including age limits, 
education requirements, and condition of loyalty to the Party 
line,\77\ which are not in the PRC Organic Law of Village 
Committees.\78\ In addition, officials in at least a few 
locations declared certain categories of people as being 
``unsuitable'' for or prohibited from being nominated to be 
village committee candidates.\79\ These categories included 
villagers who ``distribute suggestions that counter Party 
theories, guidelines, and policies''; ``create or disseminate 
political rumors''; ``organize and incite mass incidents''; and 
``manipulate and incite people to file petitions,'' among other 
politically sensitive activities.\80\ Official media sources 
highlighted perceived problems involving the unfavorable 
influence of clans, religions, and factions.\81\ One survey in 
Guangdong province reportedly found that fraudulent elections 
in some cases were associated with ``abnormal'' channels of 
participation involving big-time criminals, the very rich, and 
members of prominent families who became officials.\82\ In at 
least one province, some election results were nullified 
because of these issues.\83\
    Other sources noted allegations of corruption and numerous 
other undemocratic practices during some village committee and 
local people's congresses' elections. Village elections were 
marred by instances of improper formation of an election 
committee; \84\ unlawful selection of candidates; \85\ 
irregular campaign procedures; \86\ and in at least one case, 
an elected representative was not recognized by higher level 
officials.\87\ Chinese and international news reports also 
noted alleged corruption in some local people's congresses' 
elections. During one investigation of alleged election 
corruption in Hunan province, especially focusing on Hengyang 
city,\88\ authorities punished hundreds of people and stripped 
people's congress delegate status from dozens of individuals at 
the county, city,\89\ and provincial levels.\90\

------------------------------------------------------------------------
                Decline of Democratic Governance in Wukan
-------------------------------------------------------------------------
  In a retreat from democracy, government interference and other issues
 marred the most recent 2014 village committee election in the village
 of Wukan in Lufeng city, Shanwei municipality, Guangdong province.
 Chinese and international media reported allegations of illegalities in
 election processes, including vote buying and vote counting behind
 closed doors,\91\ the lack of transparency,\92\ and government
 interference.\93\ Wukan was the location of a 2011 uprising by
 villagers over land issues and the death of a villager in custody,
 which ended with the election of several of the protest organizers in
 an ad hoc 2012 village committee election.\94\
------------------------------------------------------------------------


------------------------------------------------------------------------
          Decline of Democratic Governance in Wukan--Continued
-------------------------------------------------------------------------
  In mid-March 2014, just prior to the most recent village committee
 elections, officials detained two candidates, Yang Semao \95\ and Hong
 Ruichao, prompting allegations of government interference.\96\ Yang and
 Hong helped to organize the 2011 uprising and later were voted onto the
 2012 village committee.\97\ Suspiciously, Yang's detention came hours
 after he issued a call for a village representative assembly meeting to
 discuss the upcoming election.\98\ National official media sources
 criticized Yang's call for the meeting and attacked him personally.\99\
 Authorities released Yang on bail pending trial.\100\ Hong's wife told
 reporters that people had come to their house and warned Hong not to
 participate in the village committee election.\101\ Hong subsequently
 won a seat on the 2014 village committee \102\ despite being in
 detention for alleged violations that occurred in 2012, and a May 2014
 report indicated authorities were still holding him in detention.\103\
 As of September 2014, the Commission had not observed reports tht Hong
 has been released. Zhuang Liehong, a third organizer of the 2011
 demonstrations voted onto the 2012 village committee,\104\ fled China
 in early 2014 for the United States for fear of retaliation against
 him, and is seeking  asylum.\105\
------------------------------------------------------------------------

                  Party and Government Accountability


                 ANTICORRUPTION AND AUSTERITY MEASURES

    During the Commission's 2014 reporting year, central 
authorities amplified an ongoing significant anticorruption 
campaign.\106\ As part of the campaign, central authorities 
issued new rules and regulations to reduce government waste and 
moderate ostentatious or dishonest behavior by officials; \107\ 
measures to strengthen oversight of officials such as a 
requirement to file internal reports to the Party about their 
finances;\108\ and a five-year anticorruption action plan.\109\ 
Authorities issued a measure prohibiting officials who have a 
spouse or children residing overseas (``naked officials'') from 
being leaders of specified agencies and organizations.\110\ One 
news article reported that authorities in Guangdong province 
disclosed the number of ``naked officials'' uncovered during an 
investigation but relevant departments in 10 other locations 
refused to disclose the same information.\111\ Top authorities 
undertook other steps to prevent corruption and punish 
violators, including undertaking institutional changes within 
Party discipline agencies and modifying their relationships to 
local authorities; \112\ prohibiting Party and government 
officials from holding outside jobs; \113\ increasing audits of 
managed funds, public projects, and state asset management and 
land transfers; \114\ establishing a database of corruption 
suspects; \115\ and publicizing the names of people who had 
been punished for violating rules regarding ``work styles.'' 
\116\ Despite official reports that the serious anticorruption 
and austerity campaigns had yielded some results,\117\ there is 
some doubt regarding the degree to which these measures have 
been implemented \118\ or have been successful in reducing 
corruption.\119\
    Amid news that one percent of Chinese families own more 
than one-third of China's wealth \120\ and increasing citizen 
concern over corruption,\121\ authorities stepped up 
investigations and detentions of officials suspected of 
corruption.\122\ During 2013, authorities reportedly punished 
160,000 cadres for violations of discipline \123\ and an 
additional 20,000 for their ostentatious or extravagant 
behavior.\124\ In the first half of 2014, the number of 
officials disciplined reportedly increased by 30 percent over 
the same period last year.\125\ Top Party officials are among 
those affected by the anticorruption campaign. In October 2013, 
Bo Xilai, former Party Central Committee Political Bureau 
(Politburo) member and Chongqing Party Secretary, who was 
charged with bribery, embezzlement, and abuse of power, lost 
his appeal.\126\ Sources asserted there were procedural 
violations related to Bo's case and trial.\127\ Chinese and 
international media also have raised concerns regarding the 
questioning and detention of people associated with Zhou 
Yongkang, former Politburo Standing Committee member and 
Secretary of the Party Central Committee Political and Legal 
Affairs Commission who had close ties to Bo Xilai.\128\ As of 
March 2014, authorities reportedly had questioned or placed in 
custody over 300 people associated with Zhou, including family 
members, political supporters, staff, and proteges.\129\ Zhou 
has been held incommunicado since late 2013.\130\ In July, 
Xinhua reported that the Central Commission for Discipline 
Inspection had opened an investigation of Zhou Yongkang on 
suspicion of serious violations of discipline.\131\
    Sources highlighted the darker side of the anticorruption 
campaign. Articles reported that several lower level officials 
detained on suspicion of corruption had been tortured or ill-
treated under ``shuanggui,'' a form of arbitrary detention 
utilized by the Party to investigate officials,\132\ and 
included first-hand accounts of torture and forced 
confession.\133\ Two of those officials reportedly had been 
targeted for retribution for talking to the media about their 
torture while under shuanggui.\134\ In July 2014, authorities 
detained one official and opened an investigation of the other, 
highlighting the lack of protections for whistleblowers.\135\ 
Chinese and international reports highlighted a series of 
unusual deaths of officials, linking some of them to the 
anticorruption campaign.\136\ Some sources assert President Xi 
Jinping and other top officials are purging political rivals 
through the anticorruption campaign,\137\ but one article 
reported that the Central Discipline Inspection Commission 
asserted authorities were not ``selectively'' implementing the 
anticorruption campaign.\138\

                SUPPRESSION OF ANTICORRUPTION ADVOCATES

    Despite high levels of official corruption and authorities' 
stated commitment to address official corruption, officials 
have detained and imprisoned anticorruption and transparency 
advocates, often invoking the charge of ``gathering a crowd to 
disturb order in a public place,'' including: \139\

        <bullet> Yuan Dong and Zhang Baocheng. On January 29, 
        2014, authorities sentenced Yuan Dong to one year and 
        six months' imprisonment, and on April 18 sentenced 
        Zhang Baocheng to two years, for unfurling banners with 
        anticorruption slogans, handing out leaflets, and 
        giving speeches in public.\140\
        <bullet> Ding Jiaxi. On April 18, 2014, authorities 
        sentenced Ding to three years and six months' 
        imprisonment.\141\ He reportedly joined peaceful 
        demonstrations advocating for the disclosure of 
        officials' assets and for education equality.\142\
        <bullet> Zhao Changqing and Li Wei. On April 18, 2014, 
        authorities sentenced Zhao to two years and six months' 
        imprisonment and Li to two years \143\ for their roles 
        in organizing and participating in demonstrations 
        advocating for disclosure of officials' assets.\144\
        <bullet> Liu Ping, Wei Zhongping, Li Sihua. On June 19, 
        2014, authorities sentenced Liu and Wei to six years 
        and six months' imprisonment and Li to three 
        years,\145\ for their participation in demonstrations 
        calling for disclosure of officials' assets and 
        planning rights defense activities.\146\ Additional 
        charges against Liu and Wei were related to independent 
        election campaigning in 2011 and for an Internet 
        posting by Liu urging people to attend a trial for a 
        Falun Gong practitioner in 2012.\147\
        <bullet> Trials for additional democracy, rule of law, 
        and anticorruption advocates have not yet begun, 
        including those for Huang Wenxun,\148\ Yuan 
        Xiaohua,\149\ and Yuan Fengchu,\150\ who authorities 
        reportedly charged with ``gathering a crowd to disturb 
        order in a public place,'' as well as Liu Jiacai, whom 
        authorities charged with ``picking quarrels and 
        provoking trouble.'' \151\

  Open Party and Government Affairs and Citizen Access to Information

    Some Chinese officials and government agencies have sought 
to be more open and accessible to citizens, but government 
transparency is still lacking. In March 2014, the Ministry of 
Finance directed that all departments that receive government 
allocations should disclose their budgets and financial 
accounts by 2015, which expanded upon a previous directive that 
required only organizations at the county level and above to 
disclose this information.\152\ Also in March, the National 
People's Congress (NPC) Standing Committee announced it would 
begin to circulate among NPC delegates and disclose to the 
public specialized work reports and enforcement investigation 
reports along with deliberations and opinions.\153\ In August 
2014, the NPC Standing Committee issued a draft amendment to 
the PRC Legislation Law, which included a provision that has 
the potential to strengthen the practice of issuing draft laws 
for public review and comment.\154\ Amid these regulatory and 
policy pronouncements, reports highlighted ongoing barriers to 
transparency. A 2013 survey by the US-China Business Council 
indicated that surveyed member companies believed transparency 
was one of the top 10 challenges faced by the Council's member 
companies.\155\ An October 2013 State Council opinion 
highlighted several barriers to transparency and open 
government affairs, including a failure of governments in 
particular geographic locations to proactively release 
information, respond to information requests in a timely 
manner, respond to citizen concerns, and make public 
statements.\156\ In January 2014, the State Council issued the 
Implementing Regulations for the PRC Law on the Protection of 
State Secrets (Implementing Regulations).\157\ Article 5 of the 
Implementing Regulations stipulates that government agencies 
and companies may not classify as ``secret'' information which 
should be disclosed to the public ``in accordance with the 
law,'' but also cannot ``disclose information involving state 
secrets.'' \158\ Reports noted criticism of the Implementing 
Regulations because they did not provide a definition of state 
secrets or clearly delineate secret classifications.\159\
    In April 2014, the State Council General Office issued an 
open information work plan, which stated that authorities 
should improve transparency in specific areas, including 
environmental protection, production accidents, finances of 
state-owned enterprises, food safety, government and public 
spending, expropriation of village and other land, and mining 
concession rights.\160\ The plan, however, also urged 
authorities to strengthen procedures for collecting opinions 
from the public, discovering and evaluating ``hot issues'' 
earlier, issuing authoritative information in a timely manner, 
``eliminating untrue rumors,'' and ``positively guiding public 
opinion.'' \161\

       IMPLEMENTATION OF OPEN GOVERNMENT INFORMATION REGULATIONS

    Open government information (OGI) requests by citizens 
reportedly are increasing and OGI-related court cases 
constituted 10 percent of China's administrative law cases 
according to an October 2013 report,\162\ but government 
implementation of the 2008 Open Government Information 
Regulations (OGI Regulations) remains problematic. For example, 
during the October 2013 UN Human Rights Council's Universal 
Periodic Review of the Chinese government's human rights 
record, the China Society for Human Rights Studies recommended 
an evaluation of the implementation of the OGI 
Regulations.\163\ In February 2014, the Chinese Academy of 
Social Sciences issued a report evaluating implementation of 
the OGI Regulations in 2013 by some State Council departments 
and provincial and city governments.\164\ The study reportedly 
found that there were still numerous problems with 
implementation, including that a great deal of information that 
should have been proactively released had not been made open to 
the public, had been only partially released, or had not been 
released in a timely manner.\165\ Research by a Chinese 
university institute found that an increasing number of 
administrative agencies are responding to information requests 
by simply saying ``the information does not exist.'' \166\ The 
study also found that frequently courts still dismiss open 
government information administrative law cases.\167\
    The responsiveness of local governments to OGI requests 
varies considerably. The percentage of OGI requests granted or 
denied outright by municipal authorities in Shanghai, Beijing, 
and Guangzhou, for example, compared to the percentage of 
requests for which these authorities did not provide 
information for a variety of other reasons, differed 
substantially, as noted in the table below.
------------------------------------------------------------------------
                                    Shanghai     Beijing      Guangzhou
  Requests granted or outright     Municipal    Municipal    City  Gov't
   denied (*All numbers in the    Gov't \168\  Gov't \169\  \170\ 11,656
 table are expressed in percent    18,563 (In   16,681 (In       (In
 of 2013 requests responded to)     percent)     percent)     percent)
------------------------------------------------------------------------
``agreed to disclose''                   41.7        42.22        91.996
------------------------------------------------------------------------
``agreed to partially disclose''          1.2            1        1.2533
------------------------------------------------------------------------
``information already                                 3.41
 proactively disclosed''
------------------------------------------------------------------------
``did not agree to disclose''             3.9         3.03          1.63
========================================================================
TOTAL PERCENTAGE OF REQUESTS             46.8        49.66        94.879
 OUTRIGHT GRANTED OR DENIED
 [Shanghai = ``are clear and can
 respond'']
========================================================================------------------------------------------------------------------------
Other reasons for not providing      Shanghai      Beijing     Guangzhou
 information
------------------------------------------------------------------------
``does not exist''                       16.9        27.28         2.239
------------------------------------------------------------------------
``outside of the scope of the              14        11.16         1.973
 agency'' (or similar)
------------------------------------------------------------------------
``contents of request unclear''          11.3         7.63          .832
------------------------------------------------------------------------
``not referred to as gov.                 3.9         3.81
 information'' (or similar)
------------------------------------------------------------------------
``repetitive request''                    1.9
------------------------------------------------------------------------
``non-governmental info.                  5.2
 request''; ``applicant
 withdraws request''; or ``other
 circumstances''
------------------------------------------------------------------------
``already sent to records hall''                       .48
========================================================================
PERCENT OF REQUESTS WHERE NO             53.2        50.34         5.044
 INFORMATION WAS PROVIDED
 [Shanghai category = (required)
 ``other types of responses'']
------------------------------------------------------------------------

                         Commercial Rule of Law


                              Introduction

    When China acceded to the World Trade Organization (WTO) on 
December 11, 2001,\1\ the Chinese government made numerous 
commitments to strengthen transparency,\2\ run state-owned 
enterprises (SOEs) on a commercial basis,\3\ open Chinese 
markets,\4\ protect intellectual property rights,\5\ and reform 
China's legal system.\6\ The Chinese government made additional 
transparency, trade, and intellectual property commitments 
through the U.S.-China Joint Commission on Commerce and Trade 
(JCCT) and the U.S.-China Strategic and Economic Dialogue 
(S&ED).\7\ From 2001 to 2013, U.S. imports from China increased 
by US$338 billion, while exports to China increased by US$103 
billion--less than one-third as much.\8\ In 2012, the Ministry 
of Commerce reported that Chinese foreign direct investment 
into the United States exceeded investment by U.S. companies 
into China for the first time,\9\ and the Rhodium Group 
reported that in 2013, Chinese investments in the United States 
doubled from 2012 levels.\10\ The Chinese government has not 
kept its international trade commitments in many respects. 
China continued to discriminate against foreign companies and 
products, had not met its transparency commitments, provided 
large subsidies to SOEs, had poor protection for intellectual 
property, and lacked the rule of law.\11\ During the 
Commission's 2014 reporting year, Chinese leaders committed to 
allowing the market to play a decisive role in allocating 
resources but also reaffirmed that SOEs would continue to play 
a primary role in China's economy.\12\ Authorities also 
established a pilot Shanghai Free Trade Zone,\13\ and an 
amended PRC Trademark Law took effect.\14\

           State-Owned Enterprises and Indigenous Innovation

    During this reporting year, the Chinese government 
continued to provide subsidies to state-owned and state-
controlled enterprises (collectively, ``SOEs'') and to promote 
indigenous innovation.\15\ The state capitalism practiced by 
China also continued to be a key issue in U.S.-China economic 
dialogues and ongoing treaty negotiations.\16\ When China 
acceded to the WTO, it made commitments to running SOEs on a 
market basis, including not interfering in procurement and 
sales decisions, except as provided for by WTO rules.\17\ The 
November 2013 Chinese Communist Party Central Committee Third 
Plenum Decision on Certain Major Issues Regarding 
Comprehensively Deepening Reforms emphasized a decisive role 
for the market in the allocation of resources, but acknowledged 
that SOEs would continue to play a primary role in China's 
economy.\18\ Foreign companies also perceived SOEs as receiving 
preferential treatment in litigation.\19\ In 2014, an American 
Chamber of Commerce in China survey of U.S. companies found 
that the surveyed companies considered Chinese policies 
favoring SOEs to be the most negative type of industrial policy 
in China.\20\ As of July 2014, there were reportedly 113 
central SOEs directly controlled by the national State-owned 
Assets Supervision and Administration Commission (SASAC).\21\ A 
total of 144,700 SOEs, including those controlled by provincial 
and local governments, were reported at the end of 2011.\22\ 
According to the China State Owned Assets Report, 92 of the 100 
Chinese companies on the 2014 Global Fortune 500 List were 
SOEs.\23\ SOEs, however, are less profitable than private 
enterprises.\24\ High-level personnel changes at SOEs are often 
driven by political considerations.\25\ Through direct and 
indirect supervision, the Chinese Communist Party oversees the 
decisionmaking of SOEs,\26\ including using policies and 
subsidies to make non-market-based purchasing and sales 
decisions to support Chinese companies and technology.\27\ The 
Chinese government reportedly encouraged greater private 
investment in SOEs through a mixed-ownership model in which 
private companies take minority stakes in SOEs, but it is 
unclear whether the move was intended to make SOEs more subject 
to market-based decisionmaking or simply to provide SOEs with 
additional capital.\28\
    The Chinese government promoted SOEs and domestic companies 
through indigenous innovation policies, including subsidies, 
incentives, and preferential procurement policies.\29\ Some 
U.S. companies considered implementation of indigenous 
innovation policies to be an even larger problem than 
intellectual property theft.\30\ China's High and New 
Technology Enterprise tax incentives, first implemented in 
2008, continued during the reporting year, and maintained 
unfavorable licensing requirements and the requisite that 
beneficiaries conduct a majority of their research and 
development in China.\31\ Despite China's commitments when it 
joined the WTO, technology transfer requirements are still 
often required of foreign companies, although at times 
described as ``encouraged,'' in order to operate in China.\32\ 
Fiscal and tax benefits were often given to Chinese companies, 
including in strategic industries,\33\ while many foreign 
companies in China believed they had been held to higher 
regulatory standards than Chinese companies.\34\

            Transparency and Access to Corporate Information

    This past year, China remained noncompliant with its WTO 
commitments for disclosing subsidies and providing regulatory 
transparency on draft laws and regulations,\35\ and access to 
government and corporate information in China remained 
challenging.\36\ In 2013, the percentage of Chinese government 
administrative regulations and departmental rules published for 
public comment on the Web site of the State Council Legislative 
Affairs Office (SCLAO) was less than 10 percent.\37\ At the 
June 2008 Strategic Economic Dialogue, according to the Joint 
U.S.-China Fact Sheet, China committed to publish on the SCLAO 
Web site ``in advance for public comment, subject to specified 
exceptions, all trade and economic-
related administrative regulations and departmental rules that 
are proposed for adoption and provide a public comment period 
of not less than 30 days.'' \38\ An industry association of 
multinational corporations with investment in China reportedly 
had some success in strengthening the new PRC Trademark Law 
\39\ through submission of comments on draft amendments.\40\ In 
an October 2013 analysis of corporate reporting on 
anticorruption programs, organizational transparency, and 
financial information in major emerging markets by Transparency 
International, Chinese companies ranked last among companies 
from Brazil, Russia, India and South Africa.\41\ According to 
an October 2013 Bloomberg report, the lack of corporate 
reporting requirements made conditions ``ripe for'' 
corruption.\42\ The Chinese government blocked access to the 
New York Times and Bloomberg News' Web sites in the wake of 
their reporting on the wealth and business connections of 
government officials.\43\ In November 2013, a report on the 
hidden financial ties between China's wealthiest man, Wang 
Jianlin, and family members of China's top leaders reportedly 
was not published by a foreign media company, due to concern it 
would harm the company's access in China.\44\ As of June 2014, 
the New York Times and Bloomberg News remained blocked in 
China, and in late 2013 many reporters had difficulty obtaining 
visas.\45\
    American regulators, private companies, and investors have 
also faced difficulty obtaining corporate information in China. 
In January 2014, the U.S. Securities and Exchange Commission 
(SEC) suspended the activities of the Chinese affiliates of the 
Big Four accounting firms for not providing audit documents of 
China-based companies ``whose securities are registered with 
the SEC'' and that were targets of ``fraud investigation'' by 
the SEC.\46\ The accounting firms did not provide the audit 
documents due to concerns they would be in violation of Chinese 
law, including the China Securities Regulatory Commission's 
(CSRC) announcement 29 of 2009, which requires the approval of 
regulatory authorities before work papers can leave China.\47\ 
The Hong Kong Securities and Futures Commission also had 
difficulties in obtaining documents due to concerns over 
potential conflicts with the PRC State Secrets Law and related 
regulations.\48\ According to a 2014 survey conducted by the 
American Chamber of Commerce in China, 56 percent of businesses 
surveyed indicated that Internet censorship negatively affected 
their businesses.\49\ A lack of corporate transparency created 
obstacles for companies wishing to engage in merger and 
acquisition transactions in China \50\ and investors in Chinese 
companies.\51\ China's vague personal privacy laws also created 
obstacles for due diligence work.\52\ Chinese officials, for 
example, detained and later arrested U.S. citizen Yu Yingzeng 
and her husband Peter Humphrey for purchasing personal 
information to assist them in doing due diligence on behalf of 
corporate clients.\53\ An article in the Atlantic Monthly 
described the arrests as revealing ``a Chinese government that 
fears public exposure of corruption.'' \54\ In August 2014, the 
Shanghai No. 1 Intermediate People's Court sentenced Yu to two 
years in prison and Humphrey to two years and six months in 
prison.\55\

                Commercial Developments and Cyber Theft

    American companies cited the continuing deterioration in 
the business environment in China and continuing bias against 
foreign companies, despite Chinese government claims that 
``China has fully honored its extensive commitments of the WTO 
accession.'' \56\ Chinese subsidies and the lack of 
transparency reportedly had a negative impact on U.S. 
businesses.\57\ In 2014, an American Chamber of Commerce in 
China survey found that 41 percent of member companies surveyed 
believe that China is ``less welcom[ing] than before.'' \58\ A 
European Union Chamber of Commerce in China (EUCCC) survey 
found that 51 percent of member companies believe ``that 
business in China has become more difficult over the last 
couple of years,'' \59\ including 68 percent of large companies 
with over 1,000 employees.\60\ According to 71 percent of 
member companies surveyed by the EUCCC, improved rule of law 
and more transparent policymaking are the most important 
factors for economic progress in China.\61\ Many U.S. 
technology and media companies remained blocked in China, 
including Facebook, Twitter, YouTube, Dropbox, the New York 
Times, and Bloomberg News.\62\ In May 2014, the Central 
Government Procurement Center banned the installation of 
Microsoft's Windows 8 on government computers,\63\ and the 
Financial Times reported that SOEs were ordered to stop using 
U.S. consulting firms.\64\
    The United States and China continued to negotiate a 
bilateral investment treaty and China continued to promote its 
Shanghai Free Trade Zone. In July 2014, during the Strategic 
and Economic Dialogue, the United States and China reportedly 
agreed to ``intensify'' negotiations over a bilateral 
investment treaty culminating in an agreement on ``core 
issues'' and ``major articles'' of the treaty by year's end, 
and to begin negotiations on a ``negative list'' in early 
2015.\65\ In January 2014, China submitted a fourth revised bid 
to join the WTO Government Procurement Agreement, which could 
open China's government procurement market, valued at US$230 
billion in 2012, to foreign companies.\66\ In September 2013, a 
pilot Shanghai Free Trade Zone was opened to reduce 
restrictions on investment and the services market.\67\ 
According to the Chinese government, the Shanghai Free Trade 
Zone is intended as a test area for ``trade and investment 
liberalization'' policies that may be implemented nationwide in 
the future.\68\ As of June 2014, Chinese and foreign media 
noted that modest liberalization of trade and investment 
policies had occurred to date in the Shanghai Free Trade 
Zone,\69\ although over 20 local governments have applied for 
similar free trade zone status.\70\
    There continued to be reports of significant theft of U.S. 
intellectual property originating from China, which caused 
significant losses for American companies.\71\ In May 2014, the 
U.S. Department of Justice (DOJ) charged five Chinese military 
hackers for cyber espionage against Westinghouse Electric Co., 
U.S. subsidiaries of SolarWorld AG, United States Steel Corp., 
Allegheny Technologies Inc., United Steel, Paper and Forestry, 
Rubber, Manufacturing, Energy, Allied Industrial and Service 
Workers International Union (United Steelworkers), and Alcoa 
Inc.\72\ The indictment marks the first time the DOJ has filed 
criminal charges against foreign government officials for 
computer hacking,\73\ although the DOJ has brought criminal 
charges against employees of Chinese companies.\74\ At the 
announcement of the indictment against the alleged military 
hackers, U.S. Federal Bureau of Investigation Director James B. 
Comey said, ``[f]or too long, the Chinese government has 
blatantly sought to use cyber espionage to obtain economic 
advantage for its state-owned industries.'' \75\ The Ministry 
of Foreign Affairs reportedly responded that the DOJ indictment 
included ``intentionally-fabricated facts'' and suspended the 
ongoing China-U.S. Cyber Working Group.\76\ In June 2014, U.S. 
Ambassador to China Max Baucus described cyber theft by state 
actors as a ``major threat'' to U.S. economic and national 
security.\77\ During the reporting year, the DOJ began criminal 
prosecutions in two significant cases involving the theft of 
agricultural trade secrets.\78\ In December 2013, a Chinese 
national was arrested for allegedly conspiring to steal corn-
related trade secrets of several U.S.-based seed manufacturing 
companies, including Monsanto and DuPont Pioneer, from fields 
in Iowa and Illinois.\79\ In July 2014, a second Chinese 
national who was allegedly part of the conspiracy to steal 
corn-related trade secrets was arrested.\80\ According to 
prosecutors, the value of the trade secrets was likely over 
US$500 million.\81\ In December 2013, two agricultural 
scientists from China reportedly were indicted in a different 
case for allegedly stealing seeds from a biopharmaceutical 
company's research center in Kansas and providing them to a 
visiting Chinese delegation.\82\

                      Intellectual Property Rights

    During this reporting year, the State Council implemented 
amendments to the PRC Trademark Law,\83\ and the Chinese 
government and courts worked to strengthen the prosecution and 
enforcement of intellectual property rights (IPR) in China.\84\ 
U.S. companies in China, however, continued to have difficulty 
enforcing IPR through Chinese courts and administrative 
agencies.\85\ Sales of IPR-intensive goods, including 
copyrighted software, music, and movies, remained low for U.S. 
companies in China.\86\ One report estimated that in 2013, 74 
percent of computer software in China was unlicensed.\87\ In 
2014, Microsoft assisted state attorneys general in litigation 
against Chinese companies in U.S. state courts due to 
difficulties in collecting payments in China.\88\ Trade secret 
protection is also difficult in China.\89\ In August 2013, the 
U.S. pharmaceutical company Eli Lilly and its Chinese 
subsidiary were able to obtain the first preliminary injunction 
in a trade secret dispute.\90\ Prior to implementation of the 
revised PRC Civil Procedure Law on January 1, 2013, preliminary 
injunctions were not available in trade secret cases.\91\ In 
2014, Massachusetts-based AMSC had four ongoing lawsuits 
against Sinovel Wind Group (Sinovel) totaling an estimated 
US$1.2 billion in damages, including a trade secrets case, two 
copyright infringement cases, and a commercial arbitration for 
violations of sales contracts.\92\ In June 2013, the DOJ, in a 
related case, also brought a criminal indictment against 
Sinovel, several Sinovel employees, and a former employee of 
AMSC's Chinese subsidiary.\93\ In another significant lawsuit, 
Huawei Technologies (Huawei) filed civil complaints in its 
hometown of Shenzhen municipality, Guangdong province, against 
the Delaware company InterDigital, Inc., for failing to 
negotiate on fair, reasonable, and non-discriminatory terms for 
licensing its standard essential patents and abuse of its 
dominant market position.\94\ According to analysis by an 
international law firm, Huawei's victory in the litigation 
``sends a clear message that China wants to encourage 
indigenous innovation and lower technology barriers against the 
development of domestic technology companies.'' \95\
    In May 2014, the amended PRC Trademark Law and implementing 
regulations took effect, which increased statutory damages for 
trademark infringement from 500,000 yuan (US$80,000) to 3 
million yuan (US$480,000).\96\ In most intellectual property 
cases, however, the recovered compensation is well below the 
statutory damages, and in one database of 5,169 intellectual 
property judgments for 2012, average compensation awarded was 
44,871 yuan (US$7,200).\97\ During this reporting year, the 
State Administration for Industry and Commerce began to draft 
proposed revisions to the 1993 PRC Anti-Unfair Competition Law, 
China's key law for civil protection of trade secrets.\98\

                    Antimonopoly Law and Company Law

    Chinese authorities are conducting an increasing number of 
antimonopoly reviews, including merger reviews and 
investigations of abuse of dominant market positions.\99\ 
Article 7 of the PRC Antimonopoly Law provides preferential 
treatment for SOEs that are important to the national economy 
or security.\100\ Between 2008 and 2013, the Ministry of 
Commerce (MOFCOM) received 866 declarations for ``concentration 
of business operations,'' and among the 740 settled cases, 
MOFCOM unconditionally approved 717 ``concentration of business 
operations,'' conditionally approved 22, and prohibited only 
1.\101\ In June 2014, however, MOFCOM blocked a cooperative 
vessel-sharing agreement between A.P. Moller-Maersk, CMA CGM, 
and MSC Mediterranean Shipping Company (``P3 network'').\102\ 
The P3 network had been approved by the U.S. Federal Marine 
Commission \103\ and the European Commission.\104\ Analysts 
believe that the Chinese P3 network decision may have been 
influenced by a motivation to protect domestic industry; the 
PRC Antimonopoly Law provides for an assessment of the impact 
on ``national economic development.'' \105\ Chinese SOEs in the 
shipping industry had suffered significant losses in recent 
years and reportedly pressured Chinese government officials not 
to approve the P3 network.\106\ The previous deal blocked by 
MOFCOM was the Coca-Cola Company's failed acquisition of 
Chinese beverage company Huiyuan Juice Group in 2009.\107\ In 
2013, 80 price-related investigations were conducted by the 
National Development and Reform Commission (NDRC) under the PRC 
Antimonopoly Law, a number four times greater than the total of 
20 investigations conducted in the previous five years.\108\ 
Investigations against U.S. and foreign firms reportedly have 
also increased.\109\ In July 2014, NDRC reportedly determined 
that Qualcomm Inc., the American semiconductor company, was a 
monopoly, a decision which may result in up to US$1 billion in 
fines.\110\ Also in July 2014, the Chinese government began 
investigating Microsoft for possible violations of the PRC 
Antimonopoly Law.\111\ According to an August 2014 Wall Street 
Journal editorial, ``[t]he investigations are clustered in 
industries in which foreign firms have a competitive advantage 
and Chinese firms are struggling,'' and these ``attacks on 
foreign firms'' may serve to ``distract from the huge cost to 
consumers'' of China's monopolist SOEs.\112\ In September 2014, 
the US-China Business Council reported that 86 percent of firms 
that responded to its survey had some level of concern about 
competition enforcement activities in China.\113\ Foreign 
companies' concerns with China's enforcement activities 
included selective and subjective enforcement, lack of 
regulatory transparency, and the use of administrative 
intimidation tactics.\114\ According to a September 2014 U.S. 
Chamber of Commerce report, China's enforcement activities, 
which ``often appear designed to advance industrial policy and 
boost national champions,'' may be a violation of its WTO 
commitments.\115\
    In December 2013, the National People's Congress passed 
significant amendments to the PRC Company Law that simplified 
the registration process and review procedure for 
companies.\116\ Registered capital will no longer be required 
for registration of most companies, along with other 
reforms.\117\ In the first three months after the amended PRC 
Company Law took effect, the number of new companies increased 
by over 66 percent compared to the same three-month period in 
2013.\118\ The amended PRC Company Law will increase the need 
for due diligence.\119\

                   World Trade Organization Disputes

    During this reporting year, the U.S. Government continued 
to use the World Trade Organization (WTO) dispute settlement 
mechanism to address China's noncompliant trade policies, 
including export restrictions and subsidies, that could not be 
resolved through dialogue.\120\ A lack of transparency in China 
and weak rule of law made WTO disputes challenging, a situation 
exacerbated by the fear of retaliation for companies that are 
involved in trade disputes.\121\ Four U.S. entities--United 
States Steel Corp., Allegheny Technologies Inc., U.S. 
subsidiaries of SolarWorld AG, and the United Steelworkers 
union--were allegedly victims of cyber theft after they 
challenged discriminatory Chinese trade policies.\122\ China 
also continued to challenge U.S. trade policies in WTO 
disputes.\123\ As of July 2014, China had been involved in 12 
WTO disputes as a complainant, 31 cases as a respondent, and 
110 cases as a third party.\124\ China has been a complainant 
in 9 cases against the United States and the United States has 
been a complainant in 15 cases against China.\125\ In December 
2013, China filed a WTO dispute challenging duties the United 
States had imposed on a number of Chinese products, including 
coated paper, steel products, and shrimp.\126\
    In the first half of 2014, significant WTO panel decisions 
were issued in a rare earths dispute involving Chinese export 
quotas and an automobile subsidies dispute involving Chinese 
duties on U.S. automobile imports.\127\ In March 2014, a WTO 
panel found that ``under the circumstances, China's imposition 
of the export duties [on rare earths] in question was found to 
be inconsistent with China's WTO obligations,'' and ``that 
China's export quotas were designed to achieve industrial 
policy goals rather than conservation.'' \128\ In August 2014, 
the WTO Appellate Body upheld the panel's findings that China's 
rare earths export quotas were not measures relating to 
conservation.\129\ In May 2014, a WTO panel in an automobile 
duties case reportedly found a number of errors in China's 
determination of automobile duties, including calculating rates 
without a factual basis and not providing facts used to 
determine the duties.\130\ The U.S. Trade Representative's 
Office (USTR) estimated over US$5 billion of U.S. auto exports 
were affected by these illegal duties in 2013.\131\ USTR 
reported that the Chinese government imposed the duties in 
retaliation against U.S. President Barack Obama's decision in 
September 2009 to impose tariffs on Chinese tire imports.\132\ 
During the reporting year, the United States also initiated a 
WTO compliance proceeding against China's failure to implement 
an October 2012 WTO appellant report that upheld a finding that 
Chinese duties on imports of grain-oriented flat-rolled 
electrical steel from the United States violated WTO 
rules.\133\

           Outbound Investments and Foreign Exchange Controls

    In 2013, Chinese investments in the United States doubled 
from 2012 levels, reaching US$14 billion, and China has now 
invested more in the United States over the past decade than 
any other country.\134\ According to the Rhodium Group, the 
largest of approximately 80 significant investments in 2013 
were in the food industry, energy, and real estate 
sectors.\135\ China's Shuanghui International Holdings' US$7.1 
billion acquisition of the pork processor Smithfield Foods was 
the largest deal of 2013.\136\ In the first quarter of 2014, 
Chinese companies announced new deals totaling over US$8 
billion.\137\ During 2014, the Committee on Foreign Investment 
in the U.S. (CFIUS) reviewed national security concerns 
relating to the announced acquisitions by the Chinese company 
Lenovo Group of an International Business Machines Corporation 
(IBM) server unit and of Motorola Mobility from Google.\138\ In 
January 2014, Lenovo agreed to purchase IBM's x86 server 
business for US$2.3 billion and Motorola Mobility for US$2.9 
billion.\139\ The x86 servers are used by the Department of 
Defense, Department of Homeland Security, and Federal Bureau of 
Investigation.\140\ As of July 2014, the deals were reportedly 
still under review by CFIUS.\141\ The purchase of residential 
properties in the United States by Chinese buyers also 
increased significantly, with US$22 billion in purchases in the 
year ending March 2014, up from US$13 billion in the previous 
year, raising questions about compliance with Chinese law.\142\ 
Chinese regulations prevent Chinese citizens from exchanging 
over US$50,000 in currency per year, but CCTV reported in July 
2014 that the Bank of China provided ``illegal'' foreign 
exchange services above that amount and expressly targeted 
Chinese looking to emigrate and purchase property 
overseas.\143\
    This past year, intervention by the Chinese government 
continued to contribute to significant undervaluation of the 
Chinese yuan.\144\ The yuan reportedly reversed a trend of 
appreciation in 2014, depreciating by 1.5 percent in February 
2014, for the largest two-week depreciation since 2005,\145\ 
and depreciating 2.68 percent for the year ending in April 
2014.\146\ China's currency policy reportedly results in 
increases in the cost of U.S. imports for Chinese consumers and 
lowers the price of Chinese exports, increasing the U.S. trade 
deficit with China.\147\ In 2013, China's inbound foreign 
direct investment (FDI) and current account surplus amounted to 
more than US$446 billion,\148\ and China's foreign currency 
reserves reached approximately US$4 trillion in June 2014.\149\ 
According to February 2014 analysis by the Economic Policy 
Institute, eliminating currency manipulation globally, with 
China as the ``linchpin,'' could reduce the U.S. trade deficit 
in three years by as much as US$500 billion and create up to 
5.8 million U.S. jobs.\150\

                        Food Safety and Labeling

    During the Commission's 2014 reporting year, food safety 
concerns and labeling issues affected consumers in China and 
overseas. Chinese media highlighted official plans \151\ to 
address food safety concerns, including the use of banned 
pesticides,\152\ unsafe veterinary drugs,\153\ illegal food 
additives,\154\ use of expired food,\155\ sale of waste 
oil,\156\ and mislabeled food.\157\ A Pew Research survey 
published in September 2013 found 38 percent of Chinese 
consider food safety to be a ``very big problem,'' an increase 
from the 12 percent reported in 2008.\158\ In June 2014, an 
investigation by a reporter for Chinese state media \159\ found 
widespread use of bribes by Chinese companies to obtain 
certifications for farm produce and other products, including 
pesticide.\160\ During the reporting year, food safety concerns 
affected a number of foreign companies; for example, Wal-Mart 
announced that it would strengthen its food safety inspection 
system in China \161\ after donkey meat sold in its stores 
there was found to contain fox meat.\162\ In July 2014, the 
Chinese subsidiary of the U.S. meat supplier OSI Group was also 
reportedly discovered selling expired meat in China and Japan, 
negatively impacting its customers McDonald's, KFC, Pizza Hut, 
Burger King, and Papa John's.\163\ In June 2014, draft 
amendments to the PRC Food Safety Law, including improvements 
to the supervision and management system and higher penalties 
for violations, were published for public comment.\164\
    China's food safety concerns also affect U.S. consumers who 
may not be aware that a product is sourced from or processed in 
China.\165\ In May 2014, the U.S. Food and Drug Administration 
(FDA) announced that since 2007 more than 1,000 canine deaths 
may be associated with eating jerky pet treats that primarily 
come from China.\166\ Following the FDA announcement, U.S. pet 
food retailers Petco and PetSmart announced they would stop 
selling pet treats from China.\167\ As of July 15, 2014, the 
FDA had 79 active import alerts for China, which is more than 
for any other country.\168\ In August 2013, China became 
eligible to export processed poultry to the United States, 
provided it is slaughtered in the United States or other 
approved countries.\169\ According to the U.S. Department of 
Agriculture, imported processed chicken will not be labeled as 
a product of China if it is repackaged in the United 
States.\170\ Although the U.S. Government plans to increase the 
number of food safety inspectors in China, there reportedly 
were difficulties in obtaining visas for them, despite U.S. 
Vice President Joe Biden addressing the issue during a December 
2013 visit to China.\171\

                           Access to Justice


                              Introduction

    Chinese citizens continue to face substantial obstacles in 
seeking remedies to government actions that violate their legal 
rights and constitutionally protected freedoms. International 
human rights standards require effective remedies for official 
violations of citizens' rights. Article 8 of the Universal 
Declaration of Human Rights provides that ``Everyone has the 
right to an effective remedy by the competent national 
tribunals for acts violating the fundamental rights granted him 
by the constitution or by law.'' \1\ Article 2 of the 
International Covenant on Civil and Political Rights (ICCPR), 
which China has signed but not yet ratified, requires that all 
parties to the ICCPR ensure that persons whose rights or 
freedoms are violated ``have an effective remedy, 
notwithstanding that the violation has been committed by 
persons acting in an official capacity.'' \2\

                  The Third Plenum and Judicial Reform

    The November 2013 Chinese Communist Party Central Committee 
Third Plenum Decision on Certain Major Issues Regarding 
Comprehensively Deepening Reforms (Third Plenum Decision) 
contained several items relating to judicial system reform.\3\ 
In June 2014, the office of the Party's Central Leading Small 
Group for Comprehensively Deepening Reform announced that six 
provinces and municipalities--Shanghai, Guangdong, Jilin, 
Hubei, Hainan, and Qinghai--would serve as pilot sites for 
certain judicial reforms, including divesting local governments 
of their control over local court funding and appointments and 
centralizing such power at the provincial level, in an effort 
to limit interference by local governments in the work of the 
courts.\4\ Following the June announcement of judicial reform 
pilot sites, in July, the Supreme People's Court released its 
fourth five-year reform plan.\5\ According to China law expert 
Stanley Lubman, a ``significant aim of [the plan] is to reduce 
the influence of local government on local courts.'' \6\
    Local protectionism is a longstanding problem that has, 
among other things, damaged judicial credibility.\7\ In March 
2014, Meng Jianzhu, secretary of the Communist Party Central 
Committee Political and Legal Affairs Commission, addressed 
another form of interference in court work. Meng is reported to 
have said in internal meetings that Party officials must not 
intervene in specific cases, although the Party would still 
have final control over outcomes in ``politically sensitive'' 
cases.\8\ The limits of judicial reform were made clear in a 
June 2014 editorial in the state-run Global Times, which stated 
that the goal of improving ``judicial justice'' in the new 
reforms does not mean that China is moving toward ``judicial 
independence'' (sifa duli) or ``separation of powers'' (sanquan 
fenli).\9\
    During this reporting year, the Supreme People's Court 
(SPC) took steps to increase judicial transparency and 
accountability in line with the Third Plenum Decision.\10\ The 
SPC issued measures requiring all courts in China to publish 
their effective written judgments (with some exceptions, such 
as cases involving state secrets and individual privacy) on the 
publicly accessible Web site Judicial Opinions of China, 
effective January 1, 2014.\11\ As of March 2014, more than 
3,800 SPC judgments and over 1.6 million judgments from lower 
level courts had been published on the Web site.\12\ One of the 
eight main areas of focus in the Supreme People's Court new 
five-year plan is strengthening judicial openness.\13\ Specific 
reform measures include improving the systems of open trials 
and trial information databases, and continuing to strengthen 
the establishment of the Judicial Opinions of China Web 
site.\14\
    Improving legal aid and judicial assistance (sifa jiuzhu)--
court funds that are used to mitigate costs and other burdens 
facing parties with economic difficulties \15\--was another 
reform noted in the Third Plenum Decision.\16\ During 2013, the 
SPC and the Ministry of Justice promulgated an opinion on 
enhancing legal aid for plaintiffs seeking state compensation 
``to guarantee that the impoverished people exercise their 
rights claiming for compensation according to law.'' \17\ 
Moreover, courts throughout China ``mitigated 190 million RMB'' 
(US$31 million) ``legal costs for the parties involved in real 
difficulty.'' \18\ The Supreme People's Procuratorate (SPP) 
also indicated it would promote improvements to the national 
judicial assistance system in 2014.\19\ These and other reform 
efforts addressed in the work reports of the SPC and the SPP 
may have played a role in bolstering National People's Congress 
(NPC) delegates' confidence in the two bodies during the annual 
NPC meeting in March 2014; the approval ratings for both the 
SPP and SPC work reports were the highest in seven years.\20\

   Citizen Petitioning and Proposed Revisions to the Administrative 
                             Litigation Law


                          CITIZEN PETITIONING

    During the 2014 reporting year, the Party and central 
government issued a number of documents instituting reforms to 
the petitioning (xinfang) system--one of the areas of reform 
outlined in the Third Plenum Decision.\21\ Xinfang, also 
referred to as the ``letters and visits system,'' is a popular 
mechanism outside of the formal legal system for citizens to 
present their grievances to authorities, either in writing or 
in person.\22\ Over 70 percent of petitions raise issues 
relating to expropriation of rural land, forced evictions and 
home demolitions, labor and social security, and law- and 
litigation-related problems.\23\ The fundamental goal of the 
xinfang reforms is ``social stability''--preventing and solving 
social conflicts at the local level.\24\ Petitioners bring 
unresolved grievances to central government offices in Beijing, 
or resort to disruptive actions to garner attention for their 
cause--actions that the central government wants stopped.\25\
    The Chinese government has acknowledged that the 
petitioning system is flawed.\26\ In April 2014, the state-run 
Global Times declared the petitioning system ``on the verge of 
collapse.'' \27\ According to the official statistics, the 
total number of petitions (letters and visits) received at 
government and Party xinfang offices at county and higher 
administrative levels during the first 10 months of 2013 was 
6,040,000, a decrease of 2.1 percent compared with the same 
time period in 2012.\28\ Only a very small percentage of 
petitions are actually resolved--less than 1 percent, according 
to a 2004 study conducted by the Chinese Academy of Social 
Sciences, and there is nothing to suggest that the resolution 
rate has improved significantly since then.\29\
    Collectively, the various measures and guidelines on 
petitioning issued during the 2014 reporting year, not unlike 
previous efforts to reform the petitioning system,\30\ seek to 
accomplish the following aims, among others:\31\

        <bullet> Handle and resolve complaints in a timely 
        manner at the local level or one level higher; 
        petitioners are not permitted to skip levels and higher 
        level agencies are prohibited from accepting ``skipped-
        level'' petitions; \32\
        <bullet> Prevent petitioners from traveling to Beijing 
        and ``from bypassing local authorities to file 
        petitions in Beijing''; \33\
        <bullet> Increase online and written petitions, and 
        decrease in-person visits; \34\
        <bullet> Handle all law- and litigation-related 
        petitions (shefa shesu) in courts or through other 
        political-legal entities and resolve them through legal 
        channels (fazhi guidao); government and Party petition 
        offices are prohibited from accepting such petitions; 
        \35\
        <bullet> Reverse the widespread tendency among 
        petitioners ``to believe in petitioning, not law'' (xin 
        fang, bu xin fa).\36\

    In addition, the government and Party have again stated 
that officials are prohibited from blocking or restricting 
``normal'' petitioning by any means and they must not 
unlawfully detain petitioners.\37\ In February 2013, the 
central government reportedly ceased ranking localities based 
on the number of repeat ``abnormal'' (feizhengchang) 
petitioners who bring their grievances to Beijing.\38\ The 
previous ranking system reportedly helped to spawn the ``black 
jail'' industry, which the Commission has written about in 
previous annual reports.\39\ [See Section II--Criminal Justice 
for more information regarding ``black jails.'']

                     ADMINISTRATIVE LITIGATION LAW

    Adopted in 1989, the PRC Administrative Litigation Law 
(ALL) \40\ enables citizens to file lawsuits challenging 
certain government actions; it is popularly referred to as the 
``people suing officials'' law (``min gao guan'').\41\ 
Implementation of the ALL has been problematic, however, and in 
large part explains the petitioners' creed: ``believe in 
petitioning, not law'' (xin fang, bu xin fa).\42\ Dismay with, 
and distrust of, the legal system has itself spawned vast 
numbers of petitions; individuals who are dissatisfied with 
judicial decisions or court inaction often turn to 
petitioning.\43\ Various estimates over the past 10 years put 
the range of law- and litigation-related petitions between 40 
percent and 70 percent of all petitions.\44\
    In late December 2013, the first-ever draft amendment to 
the ALL was submitted to the National People's Congress 
Standing Committee for review.\45\ The substantial draft 
contained 23 new provisions and amended 36 existing 
provisions.\46\ The proposed revisions address the main 
problems with the ALL--widely referred to as ``the three 
difficulties'' (san nan): difficulties filing ALL cases, trying 
ALL cases, and enforcing ALL judgments.\47\ It is because of 
``the three difficulties'' that many ALL cases end up in 
petitioning channels.\48\ Proposed amendments to the ALL 
include increasing the range of official conduct that can be 
challenged (including, for example, infringement of private 
rights relating to ownership or use of land and other natural 
resources, and failure to provide appropriate social benefits), 
clarifying that plaintiffs may file cases orally, strengthening 
the procedures for accepting cases, and increasing penalties on 
courts that fail to file cases (li'an).\49\ The ultimate aim of 
the revision, which has been in the works since 2009, is to 
encourage people to ``believe in law'' rather than 
petitioning.\50\
    Whether the ALL amendments will lead more petitioners to 
file lawsuits rather than use the petitioning system remains to 
be seen. As noted above, local protectionism is a serious 
problem, which several of the judicial reform initiatives are 
attempting to address.\51\ Moreover, with both the petitioning 
reforms and the proposed ALL amendments aiming to funnel more 
cases into a weak and already overburdened judicial system 
\52\--one of the reasons why petitioning is still deemed to be 
necessary--the ALL and petitioning reforms are not likely to 
lead to enhanced credibility for the judicial system or a 
change in the widely held belief among petitioners that 
petitioning is better than filing a lawsuit.\53\

              Harassment and Abuse of Human Rights Lawyers

    During the 2014 reporting year, authorities intensified the 
degree of harassment and abuse of both human rights lawyers and 
defenders, particularly in the run-up to the 25th anniversary 
of the violent suppression of the 1989 Tiananmen protests, 
which the non-governmental organization Chinese Human Rights 
Defenders (CHRD) described as the ``harshest June 4 anniversary 
yet'' \54\ and China analyst Willy Lam described as ``markedly 
more draconian'' \55\ than the 20th anniversary in 2009.\56\ 
Official violence against human rights lawyers and detentions 
of lawyers increased substantially during this reporting 
year.\57\ Incidents include violence against lawyers advocating 
for a detained Christian pastor, Zhang Shaojie, in Nanle 
county, Puyang municipality, Henan province,\58\ and the 
detention and torture of four rights lawyers--Tang Jitian, 
Jiang Tianyong, Wang Cheng, and Zhang Junjie--in Jiansanjiang, 
Fujin county, Jiamusi municipality, Heilongjiang province.\59\ 
The four lawyers were in Jiansanjiang to investigate a ``legal 
education center'' and to represent several Falun Gong 
detainees who sought to protest their unlawful detention.\60\ 
[See Section II--Freedom of Religion for more information on 
the Nanle and Jiansanjiang incidents, and Section II--Criminal 
Justice for more information on ``legal education centers.''] 
Rights lawyer Gao Zhisheng was released from prison in early 
August 2014.\61\ Shortly thereafter reports emerged that 
authorities had maltreated him during his more than two and a 
half years in Shaya Prison in the Xinjiang Uyghur Autonomous 
Region (XUAR).\62\ According to the non-profit organization 
Freedom Now and Gao's U.S.-based wife, Geng He, as a result of 
the abuses and deprivations meted out to Gao by authorities, 
including solitary confinement, Gao lost 50 pounds, has serious 
dental problems that have not been treated, and has difficulty 
speaking coherently.\63\ Since Gao's release, public security 
officers in Urumqi municipality, XUAR have been closely 
monitoring Gao and restricting his activities and movement.\64\ 
In early August, the state-run Global Times published an 
opinion piece on Gao, which, among other things, warned that he 
must ``adjust his conduct'' as he reenters society, or else, 
the commentary implied, he might cross the ``red line of the 
law'' and face legal sanctions.\65\
    During this reporting year, authorities also criminally 
detained a number of human rights lawyers for political 
reasons. Authorities in Beijing municipality detained and then 
arrested prominent public interest lawyer Pu Zhiqiang on 
charges of ``picking quarrels and provoking trouble'' and 
``illegally obtaining personal information'' after he attended 
a private gathering in early May 2014 to discuss the legacy of 
the 1989 Tiananmen protests and their violent suppression.\66\ 
In early June, officials in Henan province criminally detained 
two human rights lawyers, Chang Boyang and Ji Laisong, who were 
reportedly representing individuals whom authorities had 
detained earlier for taking part in a February 2014 memorial 
service related to the 1989 Tiananmen protests.\67\ Also in 
June 2014, authorities in Guangzhou municipality, Guangdong 
province, arrested three human rights lawyers--Tang Jingling, 
Wang Qingying, and Yuan Xinting--for ``inciting subversion'' 
reportedly in connection with their promotion of nonviolent 
civil disobedience.\68\
    While repression of Chinese human rights lawyers 
intensified this reporting year, they took new steps to protect 
their own rights.\69\ In September 2013, Tang Jitian, Jiang 
Tianyong, and Wang Cheng founded the China Human Rights Lawyers 
Group (CHRLG), which provides legal services and advice to 
citizens who have been detained for exercising their civil 
rights.\70\ More than 100 lawyers affiliated with CHRLG signed 
a public statement in December 2013 condemning the violation of 
lawyers' professional rights by Nanle county authorities in the 
case of Pastor Zhang Shaojie.\71\ In June 2014, more than 40 
rights lawyers signed a pledge to voluntarily assist other 
lawyers and their families if they are targeted by authorities, 
in what one lawyer described as a ``crisis situation'' for 
rights lawyers.\72\ Later that month, proposed revisions to the 
Lawyers' Code of Conduct and other rules relating to lawyers 
and law firms, drafted by the state-run All China Lawyers' 
Association (ACLA), were leaked on social media.\73\ Provisions 
prohibiting lawyers from stirring up public opinion and using 
the Internet ``to express radical or improper commentary on 
cases or public matters, or attack or disparage [China's] legal 
system, political system and Party guidelines [and] policies'' 
were viewed by some as an apparent attempt to silence human 
rights lawyers.\74\ In response, over 100 lawyers signed a 
joint letter strongly condemning the proposed revisions, 
claiming that they violated China's Constitution, the PRC 
Lawyers' Law, and the Universal Declaration of Human 
Rights.\75\

                              IV. Xinjiang


                     Security Measures and Conflict

    Against a backdrop of escalating security controls 
targeting the broader Uyghur population in the Xinjiang Uyghur 
Autonomous Region (XUAR), the frequency and scope of violent 
clashes and attacks in the region increased during the 
Commission's 2014 reporting year. High-level central and 
regional Chinese Communist Party and government officials 
highlighted the need to ``maintain stability'' by strengthening 
the XUAR's anti-terrorism security capacity and combating 
``illegal religious activities'' or ``religious extremism.'' 
\1\ Overseas rights advocates and analysts raised concerns that 
authorities had used excessive force against Uyghur 
protesters.\2\ They also voiced concern that authorities' 
overly broad security measures and crackdowns, ongoing  
economic marginalization, restrictions on peaceful religious 
activity, and constraints on expressions of Uyghur cultural 
identity have exacerbated tensions in the XUAR.\3\ In addition, 
they expressed concern that Chinese officials failed to 
distinguish between violence or terrorism and peaceful 
dissent.\4\ Domestic and international observers and 
international media reports also raised questions about the 
government's reported versions of violent events and the denial 
of access to foreign journalists to areas linked to violent 
clashes or attacks, underscoring the government's lack of 
transparency and failure to release key details about violent 
conflict and subsequent criminal procedures.\5\
    Throughout this reporting year, authorities implemented 
repressive security measures targeting Uyghur communities 
inside and outside the XUAR. Such measures included arbitrary 
detentions,\6\ domestic repatriation of migrant communities to 
the XUAR,\7\ crackdowns on peaceful religious practices,\8\ 
police and paramilitary patrols and searches of the general 
Uyghur population,\9\ restrictions on Uyghurs' access to hotels 
in areas outside of the XUAR,\10\ and requests to citizens 
living outside of the XUAR to report on the presence of any 
Uyghur tenants or other Uyghurs or ``people from Xinjiang'' 
within their communities.\11\
    At a December 2013 meeting, President Xi Jinping reportedly 
told the Political Bureau of the Communist Party Central 
Committee (Politburo) that officials should focus on 
``maintaining stability'' in the XUAR, marking a strategic 
shift from an official emphasis on promoting regional 
development that had been in place since 2010.\12\ In January 
2014, the XUAR government released plans to increase regional 
public security spending by 24 percent to 6.1 billion yuan 
(US$1 billion), which included a 100 percent rise in the XUAR 
public security bureau's budget to fight terrorism.\13\ In late 
April 2014, during a visit to military and paramilitary posts 
in Kashgar city, President Xi stated that the Kashgar region 
formed the ``front line'' against terror.\14\
    At the Third Plenum of the 18th Party Congress, held in 
Beijing municipality in November 2013,\15\ central government 
officials reportedly established a new Central State Security 
Committee, which will focus heavily on domestic security 
measures, including in the XUAR.\16\ At the annual meetings of 
the National People's Congress and Chinese People's Political 
Consultative Conference in March 2014, central legislators also 
considered drafting the nation's first anti-terrorism law.\17\ 
Also in March, a Chinese legal expert urged lawmakers to use 
caution when drafting anti-terrorism legislation in order to 
achieve a balance between combating extremism and protecting 
civil rights.\18\
    Both domestic and overseas media and rights defenders 
criticized Chinese officials' lack of transparency regarding 
violent events involving Uyghurs that took place during this 
reporting year.\19\ Journalists and rights groups reported on 
authorities' detention of reporters,\20\ refusal to allow 
foreign reporters to visit areas linked to violent clashes or 
attacks,\21\ restrictions on social media comments,\22\ and 
issuance of official directives to media organizations to 
proscribe reporting that strayed from the official 
narrative.\23\
    During this reporting year, deadly incidents and attacks 
that likely involved political or ethnic tensions and that took 
place in the XUAR or involved Uyghurs outside of the XUAR led 
to more than 300 fatalities. Violence that took place on July 
28, 2014, in Yarkand (Shache) county, Kashgar prefecture, 
likely resulted in more deaths on a single day than at any time 
since the July 2009 demonstrations and riots in the regional 
capital of Urumqi.\24\ [For more information on the July 28 
violence, see the text box below.] On July 30, 2014, three 
Uyghur attackers allegedly killed Jume Tahir, the imam of the 
historic Id Kah Mosque in Kashgar city \25\ and deputy 
president of the Islamic Association of China \26\ who was 
reportedly unpopular among many Uyghurs due to his support of 
government and Party policy and official restrictions on the 
practice of Islam in the XUAR.\27\ On May 22, 2014, Uyghur 
attackers allegedly drove through a vegetable market in Urumqi 
city, killing 39 people and injuring more than 90.\28\ Central 
government officials responded by launching a year-long 
crackdown on terrorism \29\ and heightening security in the 
XUAR and in major cities in eastern China.\30\ In May, 
President Xi Jinping called for ``nets spread from the earth to 
the sky'' to fight terrorism in the XUAR, and stressed the need 
to ensure long-term stability in the region, as well as to 
foster patriotism among religious clergy and deter ``illegal 
and extreme'' religious activities.\31\ Also in May, XUAR 
Communist Party Secretary Zhang Chunxian pledged a ``people's 
war'' against terrorism in the region, encompassing security 
measures and ``special campaigns to regulate illegal religious 
activities.'' \32\

------------------------------------------------------------------------
 July 28 Deadly Violence in Yarkand (Shache) County,  Kashgar Prefecture
-------------------------------------------------------------------------
  On July 28, 2014, at the end of Ramadan, violent clashes took place in
 Yarkand county, Kashgar prefecture, involving local residents and
 security personnel. In the wake of the clashes, officials prevented any
 independent assessment of the violent events by reportedly heightening
 the local security presence,\33\ shutting down or censoring online
 communications forums,\34\ and blocking foreign reporters from entering
 the area.\35\ State media first reported the violence on July 29,
 describing it as a terrorist attack in which a ``mob'' armed with
 knives and axes attacked government offices and a police station,
 burned vehicles, and killed dozens of civilians, and stating that
 police shot and killed dozens of attackers.\36\ State media later
 reported that police had shot and killed 59 ``terrorists'' and arrested
 215 people, and that the attackers had killed 37 civilians.\37\
 Overseas Uyghur rights advocates and Uyghur sources cited by overseas
 media, however, disputed the official account, reporting that police
 had shot and killed 20 or more Uyghur residents who were protesting
 against a harsh official crackdown during Ramadan.\38\
------------------------------------------------------------------------

    On May 20, 2014, police in Kucha county, Aksu prefecture, 
reportedly fired on a group of Uyghurs protesting in front of 
local government offices, after the protesters assaulted the 
principal of a local middle school and the head of the local 
township government.\39\ Eyewitnesses stated the gunfire killed 
at least two protesters and wounded several others.\40\ Local 
residents had gathered to protest the detention of up to 25 
Uyghur women and girls who had violated government instructions 
not to wear headscarves,\41\ which one local resident 
reportedly said was part of an ongoing crackdown on men wearing 
beards, women wearing headscarves, and schoolgirls wearing 
``Islamic dress.'' \42\ Police reportedly detained more than 
100 people in security sweeps in the days following the 
protest.\43\
    On April 30, 2014, two Uyghurs allegedly set off an 
explosive device at a train station in Urumqi city, killing 
themselves and a bystander and injuring at least 79 others.\44\ 
The attack took place at the end of President Xi's four-day 
visit to the region, during which he had underscored the need 
to fight terrorism and maintain stability in the XUAR.\45\ 
Dozens of additional fatal clashes or attacks took place within 
the XUAR during the reporting year, many in locations in Aksu, 
Kashgar, and Hotan prefectures.\46\ These incidents reportedly 
included attacks committed by Uyghurs \47\ and clashes 
involving authorities' deadly force against Uyghurs in 
instances rights groups said were excessive or unwarranted.\48\
    Government officials attributed to Uyghurs at least two 
major violent incidents that took place beyond the XUAR during 
the reporting year, indicating a possible expansion of conflict 
outside of XUAR borders. A March 1, 2014, knife attack, 
allegedly carried out by 8 Uyghurs at the Kunming Railway 
Station in Kunming city, Yunnan province, left 29 dead and more 
than 140 injured.\49\ On October 28, 2013, a Uyghur drove an 
SUV through a crowd of people, crashing into a bridge in 
Tiananmen Square in Beijing city, killing himself, his wife, 
and his mother, who were with him in the vehicle, and 2 
bystanders, and injuring 40 bystanders.\50\

                   Criminal Law and Access to Justice

    During this reporting year, authorities in the XUAR 
detained hundreds of Uyghurs on terror-related charges,\51\ 
sentenced hundreds of Uyghurs to prison terms or death for 
terror-related crimes,\52\ and executed at least 13 people 
convicted of terror-related crimes,\53\ in criminal and 
judicial procedures that rights groups criticized for lack of 
due process.\54\ In one case including Uyghurs sentenced on 
terror-related charges, on May 27, 2014, following central and 
regional authorities' pledges to crack down on terrorism in the 
XUAR,\55\ authorities in Yili Kazakh Autonomous Prefecture held 
a mass sentencing rally for 55 people that was attended by more 
than 7,000 local residents and officials.\56\ State media 
reported that at the event, authorities also announced the 
arrests of 38 criminal suspects and the criminal detentions of 
27 criminal suspects.\57\ The names provided of those 
sentenced, arrested, and criminally detained all appear to be 
Uyghur.\58\ Those arrested and criminally detained reportedly 
included terrorists, separatists, rapists, and people who had 
``illegally read the Nikah,'' \59\ an important part of 
Uyghurs' Islamic wedding ceremony.\60\
    Research into trials in the XUAR involving charges of 
``endangering state security'' (ESS) in 2013 suggests an 
increase in the prosecution of Uyghurs on ESS charges compared 
to 2012.\61\ XUAR authorities have used ESS charges to punish 
people for peaceful activism, free expression of ethnic 
identity, and independent religious activity.\62\ According to 
estimates provided by the Dui Hua Foundation, an international 
human rights advocacy organization, based on statistics 
reported by the XUAR government,\63\ the number of ESS trials 
held in the XUAR rose by 10 percent to nearly 300 in 2013.\64\ 
According to Dui Hua's research, ESS trials are concentrated in 
certain areas of the XUAR, with courts in Kashgar prefecture 
trying more than 60 percent of the XUAR's ESS cases.\65\ Dui 
Hua also noted that while the XUAR High People's Court had 
provided the exact number of ESS trials concluded every year 
since 2008, it did not provide this information for 2013.\66\
    This past reporting year, authorities convicted Uyghur 
scholar Ilham Tohti, a professor at Minzu University and 
founder of the Web site Uyghur Online, of ``separatism,'' a 
crime falling under the category of ``endangering state 
security.'' On September 23, 2014, the Urumqi Intermediate 
People's Court sentenced Tohti to life in prison and ordered 
the confiscation of his property.\67\ Authorities had detained 
Tohti on January 15, 2014, at his home in Beijing municipality, 
in apparent connection with his public discussion of Uyghur 
rights issues.\68\ Around the same time in January 2014, 
authorities also detained around eight or more young Uyghurs 
who reportedly either had been Tohti's students or had 
contributed to Uyghur Online.\69\ In February 2014, Chinese 
authorities formally arrested Tohti \70\ and four young Uyghurs 
who had contributed to Uyghur Online: Mutellip Imin,\71\ Perhat 
Halmurat,\72\ Shohret Tursun,\73\ and Abduqeyum Ablimit.\74\
    Other cases of Uyghurs reportedly detained or arrested on 
political charges during the reporting year include:

        <bullet> Akbar Imin,\75\ an HIV/AIDS advocate 
        reportedly detained on January 15, 2014, in Urumqi city 
        on charges of ``endangering state security''; \76\ and
        <bullet> Abduweli Ayup, Dilyar Obul, and Muhemmet 
        Sidik, whom authorities reportedly detained in August 
        2013 in separate locations in the XUAR after opening a 
        Uyghur-language kindergarten in Kashgar and attempting 
        to open a Uyghur-language school in Urumqi.\77\ In May 
        2014, authorities reportedly issued a letter indicating 
        Ayup had been formally charged with soliciting illegal 
        donations for the kindergarten in Kashgar.\78\ The 
        Tianshan District People's Court in Urumqi city 
        reportedly tried Ayup, Obul, and Sidik on July 11, 
        2014, and sentenced them on August 21 to prison terms 
        ranging from one year and six months to two years and 
        three months on charges of ``illegal fundraising.'' 
        \79\

------------------------------------------------------------------------
     Life Sentence for Ilham Tohti; Abuses Reported in Tohti's Case
-------------------------------------------------------------------------
  On September 23, 2014, an Urumqi court sentenced Uyghur scholar Ilham
 Tohti to life in prison on the charge of ``separatism.'' \80\ According
 to a September 23 Xinhua report, the court heard that Tohti had
 ``spread lessons containing separatist thoughts'' via Uyghur Online,
 ``coerced students to work for the website and built a criminal
 syndicate,'' and ``incited ethnic hatred by distorting the causes of a
 number of riots and disputes that occurred in Xinjiang and Beijing.''
 \81\ According to media reports regarding Tohti's indictment, which
 Chinese authorities announced on July 30, 2014,\82\ authorities charged
 him under Article 103 of the PRC Criminal Law.\83\ Numerous overseas
 government bodies and rights groups criticized Tohti's life sentence,
 raising concerns that Chinese authorities persecuted Tohti for
 peacefully exercising his rights under Chinese law.\84\ The court
 reportedly refused to call any of the 10 witnesses Tohti's defense
 lawyers had requested to testify at his trial.\85\
  Overseas advocacy groups have criticized the lack of due process in
 Chinese authorities' handling of Tohti's case, including officials'
 initial denial of access to his defense attorney.\86\ During Tohti's
 first meeting with his lawyers Li Fangping and Wang Yu on June 26,
 2014--more than five months after he was first detained--he reportedly
 stated that detention center authorities had subjected him to abuse,
 including denying him food for 10 days and shackling him for nearly
 three weeks.\87\ Wang Yu's law firm withdrew her from Tohti's case in
 late July, citing pressure from officials in Beijing.\88\ Li Fangping
 and another lawyer, Liu Xiaoyuan, met with Tohti for about three hours
 on August 5, 2014.\89\ Later in August, Li stated on social media that
 prosecutors had failed to provide complete evidence for Tohti's defense
 team to review.\90\
------------------------------------------------------------------------


------------------------------------------------------------------------
    Life Sentence for Ilham Tohti; Abuses Reported in Tohti's Case--
                                Continued
-------------------------------------------------------------------------
  In May 2014, Tohti's wife Guzelnur told Radio Free Asia (RFA) that
 security personnel had placed her and the couple's two sons under
 ``heavy surveillance'' at their Beijing home since Tohti's detention in
 January 2014, although they had recently reduced this surveillance.\91\
 In the same interview, Guzelnur said the couple's oldest son was
 suffering from heart problems due to the psychological stress of his
 father's detention.\92\ In February 2014, Guzelnur told RFA that police
 stationed outside the family's apartment were preventing anyone from
 meeting with her, including Tohti's lawyer, Li Fangping.\93\
------------------------------------------------------------------------

                           Development Policy

    During the Commission's 2014 reporting year, central 
government and XUAR officials launched large-scale development 
initiatives prioritizing the XUAR's integration with the rest 
of China and neighboring countries, including through the 
upcoming launch of the region's first high-speed railway,\94\ a 
new desert expressway,\95\ and projects designed to develop the 
region as an economic hub for the new ``Silk Road.'' \96\ 
Central and regional officials also made assurances to raise 
living standards \97\ and address the unequal distribution of 
wealth in the region \98\ that analysts continued to observe 
during the reporting year.\99\ Officials pledged to provide 
employment for at least one person from every family,\100\ 
abolished fees for high school students in southern areas of 
the XUAR,\101\ ordered state-owned enterprises in the XUAR to 
hire 25 percent of staff from local ethnic minorities,\102\ and 
issued a plan to develop the XUAR's textile industry.\103\ Some 
commentators observed that authorities' launching of new 
development initiatives likely constituted tacit 
acknowledgement of the role economic and social inequality had 
played in exacerbating regional instability.\104\ Some 
observers cautioned that new development policies would likely 
fail to engender stability or equitable regional 
development.\105\
    At the second Xinjiang Work Forum, held in Beijing 
municipality in May 2014, President Xi Jinping prescribed 
policy measures to further assimilate Uyghurs and other non-Han 
groups in the XUAR into the Han Chinese cultural and economic 
spheres. Alongside recommendations for more state investment in 
promoting employment and reducing poverty in the region, 
President Xi stressed the importance of ``ethnic unity'' to 
bringing about stability in the XUAR.\106\ Government and Party 
officials have historically used ``ethnic unity'' initiatives 
to impose state-defined interpretations of identity.\107\ 
Toward the goal of supporting ``ethnic unity,'' President Xi 
advocated the promotion of ``bilingual education,'' as well as 
the expansion of programs to send ethnic minority XUAR 
residents to other regions of China to study, work, and 
live.\108\ In addition, President Xi called for teachings by 
religious leaders to be grounded in patriotism.\109\
    On February 14, 2014, regional officials launched a ``Down 
to the Grassroots'' campaign, which officials and state media 
billed as aiming to boost development, improve people's 
livelihoods, and enhance stability and ``ethnic unity.'' \110\ 
In March 2014, more than 70,000 XUAR officials assumed one-year 
``grassroots'' positions in villages throughout the 
region,\111\ as part of a three-year regional plan to dispatch 
200,000 ``grassroots'' cadres.\112\ State media articles and 
social media posts by ``grassroots'' cadres indicated that 
alongside efforts such as agricultural and environmental 
initiatives,\113\ ``grassroots'' cadres had carried out 
projects that may be less well-received,\114\ such as forums on 
``illegal religious activities,'' \115\ the partial demolition 
of a local mosque,\116\ and the construction of shops selling 
alcohol and tobacco to counter local resistance to the sale of 
these products.\117\ The ``grassroots'' campaign in the XUAR is 
part of the larger nationwide ``mass line'' campaign that began 
in June 2013.\118\ XUAR Communist Party Secretary Zhang 
Chunxian reportedly stated that the regional campaign ``leaves 
no blanks'' in its coverage of 10,000 XUAR villages and 
communities.\119\

                   Demolitions in Kashgar's Old City

    Authorities continued to tear down homes and other 
structures in the Old City section of Kashgar city \120\--an 
area with deep cultural and historic resonance for Uyghurs 
\121\--amid concerns that local authorities had failed to 
include Uyghur residents' input into how or whether the Old 
City demolition project should be carried out.\122\ Since 2009, 
officials have overseen the Old City's demolition and 
redevelopment, together with the resettlement of the Old City's 
220,000 residents,\123\ alongside broader state efforts to 
transform Kashgar into an economic development hub.\124\ 
According to a November 2013 China Daily article, four square 
kilometers remained \125\ out of the Old City's original eight 
square kilometers.\126\ The New York Times reported in March 
2014 that most Uyghurs who have returned to live in the Old 
City have been relatively well-off government workers and 
merchants, with many less wealthy former residents unable to 
afford to return.\127\ A British journalist wrote in January 
2014 that authorities had razed much of Yar Beshi, a section of 
the Old City authorities had previously designated for 
preservation.\128\

                                 Labor

    Some government and private employers in the XUAR continued 
to discriminate against non-Han job candidates.\129\ As in past 
reporting years,\130\ the Commission continued to observe job 
announcements that reserved positions exclusively for Han 
Chinese, including civil servant and private-sector jobs, in 
contravention of Chinese labor and anti-discrimination 
law.\131\ Private and public employers also continued to 
reserve more positions for men, leaving non-Han women to face 
both ethnic and gender discrimination in the employment 
process.\132\

                         Freedom of Expression

    Government authorities continued to restrict media coverage 
and online expression over violent incidents involving Uyghurs 
during the reporting period.\133\ Chinese officials moved 
quickly to suppress news and online discussion about violent 
incidents.\134\ On October 28, 2013, an SUV driven by a Uyghur 
man crashed into a guardrail next to Tiananmen Square after 
driving through a crowd of people, killing 2 and injuring 
40.\135\ Shortly thereafter, Chinese authorities detained a 
number of foreign and Hong Kong reporters who sought to cover 
the incident.\136\ Security agents also threatened Uyghur 
scholar Ilham Tohti on November 2 after he provided interviews 
to foreign media in which he questioned the government's 
portrayal of the Tiananmen crash as a terrorist attack and 
raised concerns about government policies in the XUAR.\137\
    In March 2014, XUAR Communist Party Secretary Zhang 
Chunxian told reporters that the Internet was the driving force 
behind terrorism in the XUAR, and that almost all terrorism in 
the XUAR was aided by the use of VPNs (virtual private 
networks).\138\ XUAR authorities punished Internet users for 
online expression and online discussion of religious issues 
during the reporting year. In October 2013, state media 
reported that regional authorities had ``punished 256 people 
for spreading online rumors that jeopardized social stability 
and another 139 for spreading extreme religious ideas during a 
recent crackdown on Internet crimes.'' \139\ In spring 2014, 
state media articles reported that disciplinary inspection 
officials in Aksu prefecture had fired a Uyghur official for 
online activities that had ``incited separatism and ethnic 
hatred.'' \140\ In a separate case, in May 2014, the Aksu 
Intermediate People's Court sentenced Mehmetniyazi Ayni to five 
years in prison for ``inciting ethnic hatred'' and ``inciting 
ethnic discrimination'' in online chat groups as part of 
officials' efforts to stop the spread of violent terrorist 
audiovisual materials.\141\
    The space for online Uyghur expression remained limited 
during the reporting year. A report released by a Uyghur human 
rights organization in June 2014 documented a marked increase 
in the degree of government- and self-censorship of Uyghur 
online expression in the years since the July 2009 
demonstrations and riots in Urumqi, when authorities shut down 
a number of popular Uyghur-run Web sites and detained more than 
100 Uyghur Web site administrators.\142\ According to research 
cited by the report, moderators on at least one Chinese social 
media site censored a much higher proportion of postings by 
users in the XUAR than postings by users in Beijing 
municipality.\143\

                          Freedom of Religion

    During this reporting year, regional authorities monitored, 
controlled, and punished Uyghurs for peaceful Islamic 
practices.\144\ In comments made during the reporting year, top 
central and regional officials underscored the need to combat 
``religious extremism'' in order to maintain stability in the 
XUAR, and vowed to increase controls on religious activities 
carried out outside of government-sanctioned parameters.\145\ 
Authorities enforced tight restrictions on religious aspects of 
Uyghur marriage customs,\146\ tightened rules preventing civil 
servants and others from engaging in religious activities,\147\ 
and enforced controls on Uyghurs' religious practices during 
Ramadan.\148\
    This past year, local governments throughout the XUAR 
enforced rules and regulations prohibiting certain displays of 
peaceful religious expression.\149\ In April 2014, authorities 
in Shayar (Shaya) county, Aksu prefecture, publicized a system 
of rewards, some exceeding more than 50,000 yuan (US$8,015), 
for ``whistle-blowers'' who reported on a range of ``illegal 
religious activities,'' including the wearing of beards and the 
practice of Nikah, a key religious component of Islamic 
marriages.\150\ During a public sports event in August, 
authorities in Qaramay (Kelamayi) city prohibited women wearing 
veils, men with long beards, and others wearing clothes with 
religious connotations from riding public transportation.\151\ 
Local authorities throughout the XUAR also required welfare 
recipients, lawyers, and civil servants to sign pledges 
prohibiting them from engaging in ``illegal religious 
activities,'' including the wearing of beards and veils and the 
wearing of clothes with religious connotations.\152\ For civil 
servants, some pledges reportedly required them to prevent 
family members from engaging in prohibited religious 
activities, with penalties including restrictions on access to 
higher education for their children.\153\ In addition, local 
authorities led ideological campaigns and educational sessions 
encouraging students in the XUAR to refrain from engaging in 
``illegal religious activities.'' \154\
    Regional and local authorities trained female religious 
specialists, known as buwi, in how to educate other Muslim 
women to oppose illegal religious activities and dress in a 
``modern'' fashion, without wearing a jilbab or covering their 
face.\155\ XUAR officials and buwi promoted the ``beauty 
project,'' a campaign under which Muslim women are exhorted to 
``let their beautiful hair fly freely'' instead of covering 
their hair according to religious or cultural beliefs.\156\
    Some Uyghur Muslims and Christians continued to serve 
prison sentences as a result of exercising their faith.\157\ 
Authorities sentenced Uyghur Muslim religious leader Abdukiram 
Abduveli \158\ to a fifth consecutive extension of his prison 
term after detaining him for more than 23 years, beginning in 
1990, for ``organizing a counter-revolutionary group,'' among 
other charges.\159\
    As in the previous reporting year,\160\ local government 
officials throughout the XUAR reportedly maintained 
restrictions over Uyghurs' observance of Ramadan, forbidding 
government employees, students, and teachers from fasting.\161\ 
According to an overseas Uyghur rights advocate, officials in 
Urumqi had stationed 10 to 18 security officials inside each of 
the city's mosques for the Ramadan period, installed cameras in 
mosques, and ordered mosques frequented by Uyghurs to publicize 
an anti-terrorism campaign during Ramadan.\162\

              Language Policy and ``Bilingual Education''

    During this reporting year, both central and XUAR 
government authorities broadened the scope of Mandarin-focused 
``bilingual education'' in the region, a policy some Uyghur 
students and rights advocates fear is aimed at assimilating 
young Uyghurs into Han Chinese society at the expense of their 
Uyghur identity.\163\ The expansion of the policy was carried 
out in line with targets set in 2010 to universalize and 
develop ``bilingual education'' in preschool through secondary 
school instruction throughout the region.\164\ Under 
``bilingual education,'' class instruction takes place 
primarily in Mandarin Chinese, largely replacing instruction in 
languages spoken by ethnic minority groups.\165\
    In June 2014, one month after President Xi Jinping 
highlighted the importance of ``bilingual education'' for 
``ethnic unity'' in a speech at the second Xinjiang Work 
Forum,\166\ the National Development and Reform Commission 
issued a total of 530 million yuan (US$85.1 million) in 
``special funding'' to support the development of ``bilingual 
education'' at primary and secondary schools in the XUAR.\167\

                      Population Planning Policies

    In December 2013 and January 2014, Radio Free Asia reported 
that authorities in Arish township, Keriya (Yutian) county, 
Hotan prefecture, forced at least four Uyghur women to undergo 
abortions, including a woman who was nine months pregnant.\168\ 
The deputy chief of Arish township and the head of the local 
family planning department reportedly confirmed that 
authorities forced the women to undergo abortions,\169\ but 
officials at the hospital where the women were taken denied 
that they had carried out any forced abortions.\170\

                                V. Tibet


  Status of Negotiations Between the Chinese Government and the Dalai 
                      Lama or His Representatives

    Formal dialogue between the Dalai Lama's representatives 
and Chinese Communist Party and government officials has been 
stalled since the January 2010 ninth round,\1\ the longest 
interval since such contacts resumed in 2002.\2\ The Commission 
observed no indication during the 2014 reporting year of 
official Chinese interest in resuming a dialogue that takes 
into account Tibetan concerns in the Tibetan autonomous areas 
of China.\3\

                 Tibetan Self-Immolation: Steep Decline

    The frequency of Tibetan self-immolation reportedly 
focusing on political and religious issues declined steeply 
during the Commission's 2014 reporting year, and followed an 
increase in Party and government security and punitive 
measures. During the 12-month period September 2012-August 
2013, the Commission recorded 66 self-immolations focused on 
political and religious issues; \4\ during the 12-month period 
September 2013-August 2014, the Commission recorded 10 such 
self-immolations.\5\ The Commission has not observed any sign 
that Party and government leaders intend to respond to Tibetan 
grievances in a constructive manner or accept any 
accountability for Tibetan rejection of Chinese policies.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The general character of self-immolations--acts committed 
publicly and featuring calls for Tibetan freedom and the Dalai 
Lama's return \6\--remained consistent with previous years and 
concurrent with government use of regulatory measures to 
control and repress principal elements of Tibetan culture and 
religion, including Tibetan Buddhist monastic institutions,\7\ 
and with the apparent collapse of the China-Dalai Lama 
dialogue.\8\ Since 2009, Tibetans have self-immolated in 10 of 
17 Tibetan autonomous prefectures and 1 ordinary prefecture; 
\9\ during the 12-month period September 2013-August 2014, 
Tibetans self-immolated in 5 Tibetan autonomous prefectures 
located in 3 provinces.\10\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Since the first Tibetan self-immolation in February 
2009,\11\ the profile of Tibetan self-immolators shifted from 
an initial pattern of less frequent self-immolations mainly in 
Sichuan province by a majority of current or former 
monastics,\12\ to a pattern of more frequent self-immolations 
mostly outside Sichuan by a majority of laypersons.\13\ 
Concurrent with recently declining self-immolation, however, 
Sichuan monastics resumed the majority: during the 12-month 
period September 2013-August 2014, of 10 self-immolators, 6 
were monastics \14\ and 4 were laypersons; \15\ 6 were in 
Sichuan \16\ and 4 were in Qinghai or Gansu provinces.\17\ 
Overall, the proportions of monastic and lay self-immolators, 
and of Sichuan and non-Sichuan residents, were similar as of 
April 15, 2014, when 126 Tibetan self-immolations reportedly 
focused on political and religious issues had occurred.\18\
  See CECC 2012 and 2013 Annual Reports for Self-Immolations 1-116 \19\
------------------------------------------------------------------------
                                                     Self-
                                                   Immolation
     Date of Self-   Name Sex /    Occupation       Location
No.    Immolation   Approx. Age    Affiliation      (Prov. /     Status
                                                     Pref./
                                                    County)
------------------------------------------------------------------------
     2013
------------------------------------------------------------------------
117  September 28   Shichung     Farmer,         Sichuan / Aba  Deceased
                    M/41          tailor,         T&QAP / Aba     \20\
                                  husband,        county
                                  father
------------------------------------------------------------------------
118  November 11    Tsering      Monk            Qinghai /      Deceased
                     Gyal        Akyong           Guoluo TAP /    \21\
                    M/20          Monastery       Banma county
------------------------------------------------------------------------
119  December 3     Konchog      Nomad,          Sichuan / Aba  Deceased
                     Tseten       husband,        / Aba           \22\
                    M/30          father
------------------------------------------------------------------------
120  December 19    Tsultrim     Monk            Gansu /        Deceased
                     Gyatso      Achog            Gannan TAP /    \23\
                    M/43          Monastery       Xiahe county
------------------------------------------------------------------------
     2014
------------------------------------------------------------------------
121  February 5     Phagmo       Tantric         Qinghai /      Deceased
                     Samdrub      Buddhist        Huangnan TAP    \24\
                    M/late 20s    practitioner,   / Zeku
                                  husband,        county
                                  father
------------------------------------------------------------------------
122  February 13    Lobsang      Former monk     Sichuan / Aba  Deceased
                     Dorje       Kirti            / Aba           \25\
                    M/25          Monastery
------------------------------------------------------------------------
123  March 16       Lobsang      Monk            Sichuan / Aba  Deceased
                     Palden      Kirti            / Aba           \26\
                    M/early 20s   Monastery
------------------------------------------------------------------------
124  March 16       Jigme        Monk            Qinghai /      Deceased
                     Tenzin      Sonag (Shador)   Huangnan /      \27\
                    M/29          Monastery       Zeku
------------------------------------------------------------------------
125  March 29       Drolma       Nun             Sichuan /      Hospital
                    F/31                          Ganzi TAP /    ized \2
                                                  Batang         8\
                                                  county
------------------------------------------------------------------------
126  April 15       Trinle       Layperson       Sichuan /      Deceased
                     Namgyal                      Ganzi /         \29\
                    M/32                          Daofu county
------------------------------------------------------------------------

                         Collective Punishment

    This past year, the Commission observed for the first time 
reports of county-level governments turning to collective 
punishment in apparent attempts to deter individuals from 
engaging in prohibited behavior.

                            RUO'ERGAI COUNTY

    In the initial and best-documented of two reports, on April 
8, 2013, the Ruo'ergai (Dzoege) County People's Government, in 
Aba (Ngaba) Tibetan and Qiang Autonomous Prefecture, Sichuan 
province, issued provisions imposing collective punishment 
intended to deter Tibetans from self-immolating.\30\ The 
Interim Anti-Self-Immolation Provisions (the Provisions), first 
reported on in February 2014,\31\ could place at risk access to 
housing, livelihood, or financial security of a family, 
community, village, or monastic institution if a member of that 
group committed self-immolation or was deemed to be associated 
with an act of self-immolation.
    The Provisions target groups classified as ``immediate 
family''; \32\ a ``household'' or ``residence''; \33\ a 
``village'' or ``community''; \34\ a monastery or nunnery 
(``temple''); \35\ and the monks and nuns who reside within a 
monastic institution.\36\ The following summary provides 
examples of how the Provisions would punish such groups 
collectively by targeting their ability to remain functional 
and establishing an intimidating political environment.

        <bullet> Housing. Obstructing the ability to maintain 
        housing for persons officials deem to have been 
        ``actively involved'' in a self-immolation by canceling 
        household benefits for three years and social benefits 
        for one year.\37\
        <bullet> Livelihood. Preventing or obstructing the 
        ability of a self-immolator's family members to secure 
        a livelihood by revoking the right to use land for 
        farming or grazing; \38\ and preventing or obstructing 
        the ability of residents of a village where a self-
        immolator lived to secure a livelihood by freezing the 
        right of villagers to use land for farming or 
        grazing.\39\
        <bullet> Employment. Restricting career, employment, 
        and housing opportunities for a self-immolator's family 
        members by canceling their eligibility to apply for 
        national-level government, worker or service positions, 
        or military employment.\40\
        <bullet> Business. Preventing or obstructing the 
        ability of a self-immolator's family members and the 
        households of persons deemed to have been ``active 
        participants'' \41\ in a self-immolation to secure a 
        livelihood by withholding approval to conduct business 
        activity for three years; \42\ and by imposing 
        financial hardships and imperiling function in monastic 
        institutions associated with a self-immolator by 
        ordering them to ``halt all business activities.'' \43\
        <bullet> Property. Preventing the ability of a self-
        immolator's family members and the households of 
        persons deemed to have been ``active participants'' in 
        a self-immolation from accessing full use of real 
        estate by only ``confirming'' (household) land and 
        building rights (que quan), but not issuing 
        ``certification'' (zheng).\44\
        <bullet> Finance. Imposing financial and other 
        hardships on a community, village, or monastic 
        institution associated with a self-immolator by 
        designating them as ``untrustworthy'' and withholding 
        the granting of new loans for three years, and by only 
        receiving payments on existing loans but not disbursing 
        funds from the loans; \45\ and by imperiling financial 
        status by requiring a community, village, or monastic 
        institution where a self-immolation takes place to pay 
        a ``security deposit'' of 10,000 to 500,000 yuan 
        (US$1,600 to 80,000) that would be returned only if 
        another self-immolation does not occur within two 
        years.\46\
        <bullet> Development. Imposing financial and other 
        hardships on a village, community, or monastic 
        institution associated with a self-immolator by 
        canceling or postponing national-level investment in 
        that village, community, or monastic institution; \47\ 
        and by imposing financial and other hardships on a 
        village or community associated with a self-immolator 
        by halting ``all investment and civil society capital 
        projects.'' \48\
        <bullet> Religion. Imposing a reduction in religious 
        function in monastic institutions associated with a 
        self-immolator through temporary ``strict limitations'' 
        on monks' and nuns' activities, and on large-scale 
        Tibetan Buddhist activities across an undefined broader 
        ``area.'' \49\
        <bullet> ``Education.'' Requiring family members and 
        others linked to a self-immolation by ``minor 
        evidence'' or ``actions [that] do not constitute a 
        crime'' to attend a minimum of 15 days' ``legal 
        education classes'' located at a ``separate locality''; 
        \50\ and requiring residents of villages, communities, 
        and monastic institutions where a self-immolation takes 
        place to attend ``legal study sessions.'' \51\
        <bullet> Intimidation. Implementing ``the strictest 
        comprehensive administrative enforcement possible'' 
        anywhere that a self-immolation takes place, and 
        imposing the ``strictest'' comprehensive administrative 
        law enforcement and corrective punishment.\52\

                              BIRU COUNTY

    In the more recent instance involving apparent collective 
punishment, a Tibetan advocacy organization obtained a partial 
copy of a Tibetan-language manual titled to indicate that it 
explained ``a temporary regulation'' issued in June 2014 by the 
Biru (Driru) County People's Government in Naqu (Nagchu) 
prefecture, Tibet Autonomous Region.\53\ [See Biru Crackdown in 
this section.] A copy of the actual regulations was unavailable 
as of August 2014. The regulations in certain cases could 
impose significant financial hardship collectively on an entire 
family if a single family member engaged in prohibited 
behavior.\54\ Examples of types of behavior and punishment 
follow.

        <bullet> Behavior. Attending a specific religious 
        teaching by the Dalai Lama in India in July 2014; \55\ 
        traveling beyond one's residential area for ``illegal 
        acts of religious education; \56\ ``having strong 
        nationalistic fervor;'' \57\ ``propagating harmful 
        information'' over the Internet; \58\ ``propagating 
        videos or songs'' praising the Dalai Lama; \59\ and 
        failure to ``hoist the Chinese flag'' when 
        required.\60\
        <bullet> Punishment. An individual \61\ or family 
        (collective) \62\ ban for one to five years on 
        harvesting cordyceps sinensis (``caterpillar 
        fungus'')--a principal source of cash income for many 
        Tibetan families; \63\ loss of welfare benefits; \64\ 
        cancelation of household registration; \65\ periods of 
        legal education of up to six months; \66\ and, in the 
        case of monks and nuns, expulsion from a monastic 
        institution.\67\

                COLLECTIVE PUNISHMENT UNDER CHINESE LAW

    Available information about the Ruo'ergai and Biru measures 
raises questions regarding their application and consistency 
with China's Constitution and laws.

        <bullet> Has either measure resulted in actual 
        application of collective punishment? As of August 
        2014, the Commission had not observed a report of 
        specific collective punishment of a family, household, 
        community, village, or monastic institution.
        <bullet> Does China's Constitution provide support for 
        collective punishment? Commission research failed to 
        locate any article within the Constitution that appears 
        either to explicitly permit the collective punishment 
        of families, households, communities, villages, or 
        monastic institutions irrespective of individual 
        activity; or that explicitly protects citizens from 
        collective punishment.
        <bullet> Are collective punishments in line with 
        relevant Chinese laws? Based on Commission research, 
        the PRC Criminal Law and PRC Criminal Procedure Law do 
        not contain language explicitly addressing collective 
        punishment of families, households, communities, 
        villages, or institutions based solely on proximity to 
        an action the government treats as illegal, or based 
        solely on a family relationship with a person who 
        committed such an act. The Ruo'ergai measures contain 
        no reference to any means by which a punished entity 
        could appeal against a punishment; information is 
        incomplete on the Biru measures.

                Religious Freedom for Tibetan Buddhists

    Pressure on Tibetan Buddhists to accept Communist Party and 
government control of the religion remained high.\68\ Party 
leadership continued to characterize the Dalai Lama as a threat 
to Tibetan Buddhism's ``normal order'' \69\ instead of as a 
principal teacher,\70\ and urged that he be ``separated'' from 
the religion and the title ``Dalai Lama.'' \71\ Representative 
developments this past year included the following examples.

        <bullet> ``Healthy'' Buddhism. Yu Zhengsheng, a member 
        of the Standing Committee of the Political Bureau of 
        the Communist Party Central Committee, stated that 
        strengthening ``the motherland'' and boosting social 
        and economic development are preconditions for the 
        ``healthy development'' of Tibetan Buddhism.\72\
        <bullet> Cadre deployment. State-run media reported 
        that a deployment of Party cadres to every Tibet 
        Autonomous Region (TAR) village, monastery, and 
        nunnery, completed in March 2012,\73\ involved 60,000 
        cadres, according to a September 2013 report \74\--
        nearly triple the 21,000 initially reported in March 
        2012.\75\ An official described the cadres' deployment 
        as the most extensive since the 1951 ``peaceful 
        liberation of Tibet.'' \76\
        <bullet> Heightened control. Qinghai province officials 
        reportedly pressured monks and monasteries in Yushu 
        (Yulshul) and Guoluo (Golog) Tibetan Autonomous 
        Prefectures to accept greater Party and government 
        control.\77\ In Yushu, where Tibetan Buddhist affairs 
        regulations took effect in September 2013,\78\ 
        authorities ordered some monasteries to replace 
        monastic members of management committees with 
        ``government and Party appointees'' by June 2014.\79\ 
        In Guoluo,\80\ officials launched a campaign in May 
        2014 requiring monks and residents to ``demonstrate 
        their support'' for the Party, obey laws and 
        regulations, and not engage in protest activity.\81\
        <bullet> Targeting leaders. Officials detained, 
        imprisoned, or beat to death monastic leaders, 
        including: Abbot Gyurme Tsultrim (detained November 
        2013; under home confinement after urging promotion of 
        Tibetan religion, language, and ethics); \82\ Abbot 
        Karma Tsewang (detained December 2013; a Tibetan 
        culture advocate accused of harboring ``fugitive'' 
        monks); \83\ chant master Thardoe Gyaltsen (detained 
        December 2013; sentenced to 18 years' imprisonment for 
        ``inciting splittism'' by possessing copies of the 
        Dalai Lama's teachings); \84\ Geshe Ngawang Jamyang 
        (detained November 2013; beaten to death in custody in 
        December; attained Geshe status \85\ in India; 
        previously imprisoned for ``leaking state secrets''); 
        \86\ and Abbot Khedrub (detained April 2014; suspected 
        of ``links'' to prayers for Tibetans who self-
        immolated).\87\
        <bullet> Reincarnation identification.\88\ A report 
        emerged of the July 2013 closure of Shag Rongpo 
        Monastery in Naqu (Nagchu) prefecture, TAR, over 
        resentment of government attempts to ``enthrone its own 
        choice'' of a teacher Tibetan Buddhists regard as a 
        reincarnation.\89\ A mother of two children reportedly 
        attempted suicide in protest and authorities allegedly 
        beat and detained up to 50 Tibetans.\90\ In 2010, a 
        court reportedly sentenced the monastery's senior 
        monastic, Dawa Khyenrab Wangchug, to imprisonment for 
        contacting the Dalai Lama during the search for the 
        reincarnation.\91\ In August 2014, officials apparently 
        allowed him to leave the site where he served medical 
        parole and resume teaching at Shag Rongpo.\92\
        <bullet> Preventing pilgrimage. In late May 2014, 
        People's Armed Police reportedly imposed a ban on 
        travel for religious purposes to Mount Kailash (Gang 
        Rinpoche), one of Tibetan Buddhism's principal 
        pilgrimage sites.\93\ The ban coincided with Tibetan 
        Buddhism's most sacred month and day,\94\ and in 2014 
        (the Wood Horse year) coincided with the most 
        propitious year for such pilgrimage in the 60-year 
        Tibetan astrological cycle.\95\ The ban immediately 
        preceded the period when the Dalai Lama provided a 
        public Kalachakra teaching in a Himalayan area of 
        northern India.\96\ [See Biru County in this section 
        for information on punishment linked to attending the 
        teaching.]

                       Status of Tibetan Culture

    The Commission observed no indication this past year that 
Party and government leaders intend to develop a ``harmonious 
society'' inclusive of Tibetan preferences toward their culture 
and language. The Party accepted no accountability for Tibetan 
grievances contributing to protests and blamed them on external 
factors, especially the Dalai Lama--``the ultimate cause of 
social unrest'' in Tibetan areas of China, according to Tibet 
Autonomous Region (TAR) Communist Party Secretary Chen 
Quanguo.\97\ Examples of Party intentions to increase political 
pressure on Tibetans to accept and adhere to Party policies on 
culture, education, and the notion of unity follow.

        <bullet> Political culture. Chen called for 
        establishing Party ``propaganda, ideology, and culture 
        teams,'' and placing a full-time cadre responsible for 
        propaganda in every town or township.\98\
        <bullet> Political education. Chen called for extensive 
        implementation of ``thematic educational activities'' 
        and a ``patriotic revolutionary history and culture 
        exploration project'' prioritizing younger 
        Tibetans.\99\
        <bullet> Political unity. Chen instructed cadres to 
        ``deeply conduct the national unity propaganda and 
        education . . . to firmly establish the `three 
        inseparables' mindset.'' \100\ At the same time, 
        security officials detained Tibetans who called for 
        unity among themselves.\101\

                             BIRU CRACKDOWN

    Consistent with such policies, authorities compelled 
Tibetans to engage in displays of patriotism toward China and 
imposed crackdowns if Tibetans were noncompliant. In September-
November 2013, a prominent example developed in Biru (Driru) 
county, Naqu (Nagchu) prefecture, TAR, in the run-up to China's 
October 1 National Day.\102\ As of September 1, 2014, the 
Commission's Political Prisoner Database contained records of 
58 Biru detentions related to the crackdown \103\ including 15 
resulting in prison sentences of up to 18 years.\104\ 
Authorities reportedly disabled communication systems locally, 
ensuring that information is incomplete.\105\ [See Collective 
Punishment--Biru County in this section.] The sequence of 
events in the Biru crackdown follows.

        <bullet> September 3, 2013: Elderly villager detained. 
        Sixty-eight-year-old Dayang staged a political protest 
        after a ``political propaganda team and dance troupe'' 
        arrived. Security officials detained, beat, and 
        hospitalized him.\106\
        <bullet> September 24: Sentencing. The Biru County 
        People's Court sentenced Dayang to two years and six 
        months' imprisonment.\107\
        <bullet> September 27: Compulsory flag display. 
        Preceding National Day, ``thousands'' of government 
        officials and workers arrived in Naqu and forced 
        residents to raise the Chinese national flag above 
        their residences.\108\
        <bullet> September 28: Disposing of flags. In one Biru 
        village, Tibetans threw Chinese flags into a river 
        rather than display them. People's Armed Police (PAP) 
        may have fired at villagers (possibly with anti-riot 
        projectiles \109\), leading to ``open confrontation.'' 
        \110\
        <bullet> September 29: Police beat protesters. In 
        another village, security officials beat and detained 
        about 40 villagers who appealed against forceful 
        suppression of protests. Police beat and hospitalized 
        ``main splittist'' Tsering Gyaltsen.\111\
        <bullet> October 3: Another protest leader detained. 
        Police detained Dorje Dragtsal for participating in the 
        protests against compulsory flag display. He reportedly 
        had been ``especially vocal'' in disapproving political 
        education campaigns.\112\
        <bullet> October 6: Weapons fire, injuries. PAP 
        reportedly used tear gas, batons, and weapons fire 
        (possibly anti-riot projectiles \113\) against Tibetans 
        who gathered to ``confront'' police searching Dorje 
        Dragtsal's residence.\114\ ``At least 60'' Tibetans 
        were ``wounded.'' \115\
        <bullet> October 8: Weapons fire, fatalities. PAP 
        (``security forces'') reportedly opened fire on Tibetan 
        protesters in Biru. Weapons fire allegedly killed 4 
        Tibetans and wounded about 50 (none identified).\116\ 
        The Commission has not observed published corroboration 
        of the report.
        <bullet> October 11: Social media user detained. Police 
        detained Biru resident Kalsang, a mother of three young 
        children, for expressing ``anti-China'' views on social 
        media and having ``Tibetan patriotic'' songs and the 
        Dalai Lama's image on her mobile phone.\117\
        <bullet> October 11: Writer detained. Public security 
        officials detained writer Tsultrim Gyaltsen, seized his 
        mobile phone, computer, and documents, and accused him 
        of ``separatist activities.'' \118\ School students 
        staged a hunger strike in protest.\119\
        <bullet> October 12: Former policeman detained. Police 
        detained Tsultrim Gyaltsen's friend, Yulgyal, and 
        accused him of ``separatist activities.'' From 2005-
        2012 he worked as a Biru policeman and reportedly was 
        ``frustrated by the political nature'' of the 
        work.\120\
        <bullet> October 15: Nun, villager detained. Police 
        detained nun Jampa and layperson Dawa Lhundrub for 
        allegedly ``revealing state secrets through mobile 
        phones and other means.'' \121\
        <bullet> October 17: Biru monks detained in Lhasa. 
        Police in Lhasa city detained Shugding Monastery monks 
        Jampa Legshe and Kalnam on suspicion of ``leaking state 
        secrets.'' They arrived in Lhasa a month prior to 
        detention.\122\
        <bullet> October 18: Father detained. Police detained 
        and ``disappeared'' Tenzin Rangdrol after he walked his 
        children to a village school. The report implied that 
        locals regarded the detention as politically 
        motivated.\123\
        <bullet> October 19: Tibetans protest father's 
        detention. At least 40 Tibetans gathered on October 19 
        outside a township government office to protest Tenzin 
        Rangdrol's detention.\124\ Overnight, their number 
        increased by at least 100.\125\
        <bullet> October 20: Police detain protesters. PAP 
        surrounded Tibetans protesting outside the government 
        office against Tenzin Rangdrol's detention, detained 
        10,\126\ and later released them.\127\ An official told 
        protesters they were like ``eggs hitting a rock.'' 
        \128\
        <bullet> October 28: Lengthy sentences. An unidentified 
        court sentenced writer Tsultrim Gyaltsen and ex-
        policeman Yulgyal to 13 and 10 years' imprisonment 
        respectively following their October 11 and 12 
        detentions.\129\
        <bullet> November 3: Tibetans detained after 
        ``education.'' Tibetans attending a compulsory 
        ``political education'' session pressed officials to 
        release Tsultrim Gyaltsen and Yulgyal. That evening, 
        officials detained 15 persons.\130\ All were released 
        by December.\131\
        <bullet> November 20: Activists detained. Police 
        detained environmental activists Choekyab and Tselha in 
        late November and activist-singer Trinle Tsekar on 
        November 20,\132\ and reportedly charged them with 
        leading a large-scale May 2013 anti-mining 
        protest.\133\
        <bullet> December 19: Activists sentenced. The Biru 
        County People's Court reportedly sentenced Choekyab and 
        Tselha to 13 and 3 years' imprisonment respectively, 
        and Trinle Tsekar to 9 years.\134\
        <bullet> January 14, 2014: Village leaders sentenced. A 
        court sentenced Ngangdrag and Rigsal, village leaders 
        detained in November when Tibetans protested against 
        mandatory display of the Chinese flag, to 10 years' 
        imprisonment.\135\

                            TIBETAN LANGUAGE

    The government asserted that learning and using Tibetan 
language is ``protected by law'' \136\ but officials closed 
non-government-run programs and detained Tibetans who promoted 
use of the language. Representative examples follow.

        <bullet> Observance canceled. Authorities reportedly 
        forced the cancellation of a February 21, 2014, Tibetan 
        language ``competition'' coinciding with International 
        Mother Language Day,\137\ claiming the event had 
        ``political implications.'' \138\
        <bullet> Programs pressured. Officials reportedly 
        ordered local Tibetan ``leaders'' to ``monitor and 
        discourage'' community programs underway in May 2014 at 
        which Tibetans studied language and religion.\139\ 
        Authorities planned ``to impose restrictions.'' \140\
        <bullet> School shut. Authorities reportedly shut down 
        in April 2013 a school for poor Tibetan students that 
        had operated since 2003.\141\ Officials provided no 
        explanation for the shutdown; ``security'' reportedly 
        delayed emergence of the report.\142\
        <bullet> Singer detained. Security officials detained 
        singer Gebe on May 24, 2014,\143\ as he left a concert 
        where he performed a song before cheering Tibetans 
        warning, among other things, ``we will be perished if 
        we ignore our mother tongue.'' \144\

                          Economic Development

    The Communist Party and government continued to prioritize 
economic development as a prerequisite for ``social stability'' 
\145\ even though some official initiatives have resulted in 
Tibetan protests \146\ and alleged harm to the 
environment.\147\ Representative developments included the 
following examples.

        <bullet> Mining, environment. Authorities reportedly 
        detained or imprisoned Tibetans who protested against 
        mining activity,\148\ seizure or forced sale of land 
        related to mining,\149\ or development projects that 
        allegedly damaged the environment.\150\ The Commission 
        observed such reports on the Tibet Autonomous Region 
        (November-December 2013),\151\ and on Qinghai 
        (September, December 2013),\152\ Gansu (March-April 
        2014),\153\ Sichuan (April 2014),\154\ and Yunnan (June 
        2014) \155\ provinces.
        <bullet> Railroad construction. The westward railway 
        segment from Lhasa city to Rikaze (Shigatse) city, 
        initially slated for completion in 2010,\156\ 
        reportedly was ``put into use'' in August 2014 \157\ 
        and provided the first extension since the Xining-Lhasa 
        segment of the Qinghai-Tibet railway opened in 
        2006.\158\
        <bullet> Population data withheld. Tibetans reportedly 
        expressed anxiety about increasing non-Tibetan 
        population in Lhasa following the 2006 Qinghai-Tibet 
        railway startup,\159\ a concern that could develop in 
        Rikaze. The Commission published a 2009 analysis \160\ 
        noting that official statistics indicated substantial 
        increase in the TAR Tibetan population after 2006, but 
        little increase in non-Tibetan population.\161\ TAR 
        statistics \162\ indicated fewer Han Chinese in 2007 
        than the national census \163\ recorded in 2000.\164\ 
        After 2009, TAR yearbooks ceased to report county-level 
        population data, hindering demographic analysis.\165\

         Summary: Tibetan Political Detention and Imprisonment

    As of September 1, 2014, the Commission's Political 
Prisoner Database (PPD) contained 1,733 records--a figure 
certain to be far from complete--of Tibetan political prisoners 
detained on or after March 10, 2008, the beginning of a period 
of mostly peaceful political protests that swept across the 
Tibetan plateau.
    Among the 1,733 PPD records of Tibetan political detentions 
reported since March 2008 are 28 Tibetans ordered to serve 
reeducation through labor (26 are believed released) and 385 
Tibetans whom courts sentenced to imprisonment ranging from six 
months to life (198 are believed released upon sentence 
completion).\166\ Of the 385 Tibetan political prisoners 
sentenced to imprisonment since March 2008, sentencing 
information is available for 370 prisoners, including 363 with 
fixed-term sentences averaging 4 years and 11 months, based on 
PPD data as of September 1, 2014.

          CURRENT TIBETAN POLITICAL DETENTION AND IMPRISONMENT

    As of September 1, 2014, the PPD contained records of 639 
Tibetan political prisoners believed or presumed currently 
detained or imprisoned. Of those, 621 are records of Tibetans 
detained on or after March 10, 2008; \167\ 18 are records of 
Tibetans detained prior to March 10, 2008. PPD information for 
the period since March 10, 2008, is certain to be far from 
complete.
    Of the 621 Tibetan political prisoners who were detained on 
or after March 10, 2008, and who were believed or presumed to 
remain detained or imprisoned as of September 1, 2014, PPD data 
indicated that:

        <bullet> 273 (44 percent) are Tibetan Buddhist monks, 
        nuns, teachers, or trulkus.\168\
        <bullet> 540 (87 percent) are male, 52 (8 percent) are 
        female, and 29 are of unknown gender.
        <bullet> 251 (40 percent) are believed or presumed 
        detained or imprisoned in Sichuan province and 202 (32 
        percent) in the Tibet Autonomous Region. The rest are 
        believed or presumed detained or imprisoned in Qinghai 
        province (103), Gansu province (64), and the Xinjiang 
        Uyghur Autonomous Region (1).
        <bullet> Sentencing information is available for 174 
        prisoners: 167 reportedly were sentenced to fixed terms 
        ranging from 1 year and 6 months to 20 years,\169\ and 
        7 were sentenced to life imprisonment or death with a 
        2-year reprieve.\170\ The average fixed-term sentence 
        is 7 years and 6 months. Seventy-three (43 percent) of 
        the prisoners with known sentences are Tibetan Buddhist 
        monks, nuns, teachers, or trulkus.

    Sentencing information is available for 15 of the 18 
Tibetan political prisoners detained prior to March 10, 2008, 
and believed imprisoned as of September 1, 2014. Their 
sentences range from 8 years to life imprisonment; the average 
fixed-term sentence is 12 years and 4 months.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                VI. Developments in Hong Kong and Macau


                               Hong Kong

    During the Commission's 2014 reporting year, the Commission 
continued to observe developments that raised concerns about 
the state of democratic development, press freedom, and 
government transparency in Hong Kong. Hong Kong's Basic Law 
guarantees freedom of speech, religion, and assembly, promises 
Hong Kong a ``high degree of autonomy,'' and affirms that the 
International Covenant on Civil and Political Rights (ICCPR) 
applies to Hong Kong.\1\ The Basic Law also states that the 
``ultimate aim'' is the election by universal suffrage of Hong 
Kong's Chief Executive (CE) and Legislative Council (LegCo).\2\ 
The CE is currently chosen by a 1,200-member Election 
Committee,\3\ largely consisting of members elected in 
functional constituencies made up of professionals, 
corporations, and trade and business interest groups; \4\ many 
functional constituencies reportedly have close ties to or are 
supportive of the Chinese government.\5\ Half the LegCo members 
are elected directly by voters and half by functional 
constituencies.\6\

                    UNIVERSAL SUFFRAGE AND AUTONOMY

    Despite agreeing in principle to allow Hong Kong to elect 
the Chief Executive (CE) by universal suffrage in 2017, 
statements and actions by the Chinese government prompted 
concerns this past year that by controlling the CE nomination 
process, it would not allow genuinely free and fair elections. 
The Basic Law calls for electing the CE ``by universal suffrage 
upon nomination by a broadly representative nominating 
committee in accordance with democratic procedures.'' \7\ The 
Hong Kong government has insisted that only a nominating 
committee similar to the current Election Committee \8\ can 
nominate the CE, and has claimed that ``mainstream opinion'' 
supports this view.\9\ Members of the pro-democratic opposition 
claimed the nominating process proposed by the Hong Kong and 
Chinese governments would deny voters a genuine choice in the 
election by ``screening'' out CE candidates unacceptable to the 
Chinese government.\10\ Instead, pro-democracy advocates 
pressed for allowing voters a more direct say in nominating CE 
candidates, for example, by directly electing part of the 
nominating committee \11\ or submitting signatures to nominate 
candidates.\12\
    Statements and actions by Chinese and Hong Kong government 
officials regarding reform proposals continued to raise 
concerns that the central government will restrict Hong Kong 
elections. In March 2014, National People's Congress Standing 
Committee (NPCSC) Chairman Zhang Dejiang reportedly warned that 
``Western-style democracy'' in Hong Kong could produce 
``disastrous consequences.'' \13\ The head of the State 
Council's Hong Kong and Macau Affairs Office rejected the 
possibility of CE candidates who ``confront the central 
government'' or do not ``love the country [China].'' \14\ In 
April 2014, the head of the Central Government Liaison Office, 
China's official representative in Hong Kong, participated in a 
fundraiser for the largest pro-Beijing political party.\15\ In 
June 2014, the State Council Information Office released a 
White Paper detailing the Chinese government's position that 
Hong Kong's autonomy is ``subject to the level of the central 
leadership's authorization.'' \16\ In a July 2014 report to the 
NPCSC, Chief Executive Leung Chun-ying wrote that ``mainstream 
opinion'' in Hong Kong supported a CE nomination process 
restricted to the nominating committee.\17\ Pro-democracy 
politicians and groups criticized the report as disregarding 
substantial pro-democratic viewpoints in Hong Kong.\18\
    On August 31, 2014, the NPCSC issued a decision \19\ on 
Hong Kong's electoral reform that restricted the ability of 
candidates to freely run for Chief Executive (CE). The NPCSC 
decision limits power of nomination to a committee reportedly 
dominated by members supportive of the central government, a 
majority of whose votes are needed for nomination.\20\ Pro-
democracy legislators \21\ and activists \22\ condemned the 
decision for failing to ensure ``genuine'' democracy, while 
some legal experts said the decision violated international 
standards on universal suffrage.\23\ All 27 pro-democracy LegCo 
members pledged to veto any electoral reform proposal that 
follows the NPCSC decision's framework.\24\
    Various political and professional groups continued to 
criticize Chinese government interference in Hong Kong and 
press for universal suffrage in electing the CE. In June 2014, 
hundreds of lawyers held a rare silent protest against the 
State Council White Paper, claiming that, by requiring judges 
to ``love the country,'' the White Paper threatened the rule of 
law and judicial independence in Hong Kong.\25\ The Occupy 
Central movement held an unofficial referendum in June 2014 on 
several proposals for electoral reform that would have led to 
an open and liberal candidate nomination system; \26\ nearly 
800,000 people reportedly voted in the referendum, despite a 
massive cyber-attack on the referendum's online voting systems 
just before voting began.\27\ ``Occupy'' organizers planned to 
block traffic with civil disobedience protests in Hong Kong's 
Central financial district as a last resort if the Hong Kong 
government presented an electoral reform proposal that does not 
comply with international standards.\28\ On July 1, the 
anniversary of Hong Kong's handover from Great Britain to 
China, hundreds of thousands of people marched through downtown 
Hong Kong, calling for ``genuine'' democracy and protesting the 
Chinese government's perceived increasing interference in Hong 
Kong.\29\ After the march, Hong Kong police arrested several 
hundred pro-democracy protesters at a sit-in in downtown Hong 
Kong; protesters criticized police for using ``excessive 
force'' in clearing the demonstration.\30\ On August 17, tens 
of thousands of people marched against Occupy Central; \31\ 
Hong Kong and international media reported that organizers 
bussed in some marchers from mainland China and paid them for 
their participation.\32\

                             PRESS FREEDOM

    Hong Kong journalists and media organizations reported 
continuing threats this past year to press freedom, citing 
violent attacks on individuals associated with the press, self-
censorship among journalists, and pressure from the Hong Kong 
and central governments and mainland Chinese businesses.\33\ 
Hong Kong dropped from 58 to 61 out of 180 countries in 
Reporters Without Borders' 2014 World Press Freedom Index.\34\ 
Polls from 2013 and 2014 by Hong Kong University found that 
about half of respondents believed journalism in Hong Kong 
suffered from self-
censorship.\35\ In January 2014, the owner of Ming Pao, an 
independent newspaper, abruptly replaced Kevin Lau Chun-to as 
chief editor.\36\ The following month, two men attacked and 
severely injured Lau with meat cleavers in public.\37\ In March 
2014, four men assaulted two executives from a soon-to-be 
launched newspaper.\38\ Other cases of physical intimidation of 
media from recent years remain unresolved.\39\ In July 2014, 
pro-democracy news Web site House News abruptly ceased 
operations.\40\ Co-founder Tsoi Tung-ho cited a climate of 
fear, political pressure, and lack of advertising due to the 
site's criticism of the government as reasons for closing the 
site.\41\
    Several pro-democracy media organizations said that 
companies with ties to mainland China withdrew their 
advertising from Hong Kong publications, reportedly at the 
behest of Chinese and Hong Kong officials.\42\ More than half 
of Hong Kong's major media owners are reportedly members of the 
National People's Congress (NPC) or Chinese People's Political 
Consultative Conference (CPPCC).\43\ In February 2014, 
Commercial Radio Hong Kong fired a popular radio host known for 
criticizing the government; the radio host previously alleged 
that the Hong Kong government made her dismissal a condition 
for renewing the radio station's broadcasting license.\44\

                              TRANSPARENCY

    During this reporting year, the Commission observed that 
access to government and public organizations' records 
continued to be impeded by ineffective management and the 
government's inability to enforce compliance with its open 
information guidelines. Hong Kong's Office of the Ombudsman 
issued reports criticizing the lack of legislation governing 
public records and access to information.\45\ Hong Kong has no 
laws governing its public record archives and inadequate laws 
on access to information; additionally, there is no independent 
adjudicating agency nor are there penalties for not following 
the guidelines.\46\

                                 Macau

    Unlike Hong Kong, Macau's Basic Law does not mention 
``universal suffrage,'' although it includes a provision 
ensuring the applicability of the International Covenant on 
Civil and Political Rights (ICCPR) in Macau.\47\ The Commission 
has not observed developments during the 2014 reporting year 
consistent with the UN Human Rights Committee's 2013 
recommendation that Macau ``set timelines for the transition to 
an electoral system based on universal and equal suffrage . . . 
.'' \48\ The Commission observed reports of self-censorship and 
restrictions on freedom of the press in contravention of the 
ICCPR.\49\

                           POLITICAL FREEDOM

    Macau's September 15, 2013, Legislative Assembly elections 
were the first held since the electoral system was reformed in 
2012.\50\ In that 2012 reform, the Legislative Assembly 
expanded by 4 members, 2 of whom are elected directly and 2 
indirectly by functional constituencies, for a total of 33 
members.\51\ In the September 2013 election, pro-democracy 
parties won 2 of 14 directly-elected seats, while the Chief 
Executive (CE) appointed 7 legislators, and functional 
constituencies, seen as pro-establishment and pro-Beijing, 
chose 12 legislators.\52\ Incumbent CE Fernando Chui Sai On won 
reelection on August 31, 2014; running unopposed, he received 
380 of 400 possible votes in the Election Committee.\53\ The 
election was the first held since the 2012 electoral reform 
increased the Election Committee by 100 members to 400.\54\
    Several pro-democracy groups in Macau held an unofficial 
referendum in late August to gauge public opinion on universal 
suffrage in future Macau elections.\55\ The Chinese and Macau 
governments condemned the referendum as ``invalid'' and 
``illegal,'' \56\ with National People's Congress Standing 
Committee Chairman Zhang Dejiang saying that it ``violates the 
Basic Law.'' \57\ On August 24, Macau police detained five 
referendum organizers on suspicion of ``aggravated 
disobedience,'' including Jason Chao Teng-hei, president of the 
pro-democracy Open Macau Society.\58\ The Macau Office for 
Personal Data Protection said the referendum's collection of 
voters' official identification card numbers and phone numbers 
was ``inherently illegitimate.'' \59\ On August 29, Macau 
police detained two journalists and later named Chao as a 
suspect in the illegal use of Judiciary Police insignia in 
relation to the referendum.\60\ Chao accused the Macau 
government of ``political persecution'' for actions taken 
against the referendum and expressed fear for his safety.\61\

                         FREEDOM OF EXPRESSION

    The Commission observed continued reports of self-
censorship by journalists and concern over government control 
of broadcast media.\62\ Although the government pledged to 
liberalize the telecommunications market, government-owned 
Teledifusao de Macau (TDM) retained a monopoly on broadcast 
television, while the Macau government and TDM together own 95 
percent of the shares in Macau's only cable television 
provider, Macau Cable TV.\63\
    Two cases this year raised concerns regarding freedom of 
expression in Macau after prominent university professors were 
dismissed. The rector of the University of Saint Joseph, a 
private Catholic school, said that professor Eric Sautede's 
contract was not renewed due to Sautede's pro-democracy 
political commentary.\64\ Sautede claimed that pressure from a 
Macau government education agency contributed in part to his 
firing.\65\ In August 2014, the University of Macau (UM) fired 
professor Bill Chou Kwok-ping, who also serves as vice 
president of the pro-democratic New Macau Association.\66\ 
Although UM claimed that Chou had ``impos[ed] his political 
beliefs on students,'' \67\ Chou alleged that the university 
fired him due to his ``political activism.'' \68\

                               CORRUPTION

    Corruption and money laundering from mainland China in 
Macau's gambling industry continued to be sources of concern. 
Tens of billions of yuan reportedly are routed illegally 
through Macau each year.\69\ In addition to the ``junket'' 
system, which reportedly arranges gambling credit and debt 
collection for wealthy gamblers,\70\ gamblers evaded Chinese 
currency-export restrictions by using state-backed UnionPay 
bank cards to make phony purchases and immediately return them 
in exchange for cash.\71\ Amid reports that mobile point-of-
sale terminals are brought to Macau from mainland China to 
facilitate transferring cash to gamblers, UnionPay announced 
after meeting with Macau authorities that it would take steps 
to fight illegal money transfers.\72\ Following a May 2014 CCTV 
expose on mainland visitors abusing third-country transit visas 
to illegally extend stays in Macau, Macau's Public Security 
Police shortened the time allowed for mainland travelers 
holding transit visas to stay in Macau.\73\

                             VII. Endnotes

    <dagger>Voted to adopt: Senators Brown, Levin, Feinstein, Merkley, 
and Hagan; Representatives Smith, Wolf, Meadows, Pittenger, Walz, 
Kaptur, and Honda; Deputy Secretary Lu, Under Secretary Sewall, Under 
Secretary Selig, Assistant Secretary Russel, and Assistant Secretary 
Malinowski.

    Notes to Section I--Political Prisoner Database

    \1\ The Commission treats as a political prisoner an individual 
detained or imprisoned for exercising his or her human rights under 
international law, such as peaceful assembly, freedom of religion, 
freedom of association, free expression, including the freedom to 
advocate peaceful social or political change, and to criticize 
government policy or government officials. (This list is illustrative, 
not exhaustive.) In most cases, prisoners in the PPD were detained or 
imprisoned for attempting to exercise rights guaranteed to them by 
China's Constitution and law, or by international law, or both. Chinese 
security, prosecution, and judicial officials sometimes seek to 
distract attention from the political or religious nature of 
imprisonment by convicting a de facto political or religious prisoner 
under the pretext of having committed a generic crime. In such cases 
defendants typically deny guilt but officials may attempt to coerce 
confessions using torture and other forms of abuse, and standards of 
evidence are poor. If authorities permit a defendant to entrust someone 
to provide him or her legal counsel and defense, as China's Criminal 
Procedure Law guarantees in Article 32, officials may deny the counsel 
adequate access to the defendant, restrict or deny the counsel's access 
to evidence, and not provide the counsel adequate time to prepare a 
defense.
    Notes to Section II--Freedom of Expression

    \1\ United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Civil and Political Rights, last visited 23 
June 14. China signed the convention on October 5, 1998.
    \2\ See, e.g., State Council Information Office, ``White Paper on 
Progress in China's Human Rights in 2012,'' reprinted in Xinhua, 14 May 
13; Permanent Mission of the People's Republic of China to the UN, 
``Aide Memoire,'' reprinted in United Nations, 13 April 06; State 
Council, European Council, Prime Minister's Office of Sweden, and 
European Commission, ``Joint Statement of the 12th China-EU Summit,'' 
reprinted in Ministry of Foreign Affairs, 30 November 09. Upon 
presenting its candidacy for the 2013 UN Human Rights Council 
elections, China reportedly promised to ``further protect civil and 
political rights,'' although it did not specifically state intent to 
ratify the ICCPR. UN General Assembly, Note Verbale Dated 5 June 2013 
from the Permanent Mission of China to the United Nations Addressed to 
the President of the General Assembly, A/68/90, 6 June 13.
    \3\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 19(3); UN Human Rights Council, 
Report of the Special Rapporteur on the Promotion and Protection of the 
Right to Freedom of Opinion and Expression, Frank La Rue, A/HRC/17/27, 
16 May 11, para. 24.
    \4\ UN GAOR, Hum. Rts. Coun., 12th Sess., Promotion and Protection 
of All Human Rights, Civil, Political, Economic, Social and Cultural 
Rights, Including the Right to Development, adopted by Human Rights 
Council resolution 12/16, A/HRC/RES/12/16, 12 October 09, para. 
5(p)(i).
    \5\ UN GAOR, Hum. Rts. Coun., 25th. Sess., Report of the Working 
Group on the Universal Periodic Review: China (Including Hong Kong, 
China and Macao, China), A/HRC/25, 4 December 13, paras. 126, 129, 176, 
178, 186.1, 186.21, 186.127, 186.136, 186.137, 186.138, 186.151, 
186.152, 186.153, 186.154, 186.155, 186.156, 186.157, 186.159, 186.160, 
186.230.
    \6\ UN GAOR, Hum. Rts. Coun., 25th. Sess., Agenda Item 6, Report of 
the Working Group on the Universal Periodic Review: China, Addendum, A/
HRC/25/5/Add.1, 27 February 14, 186.115, 186.137, 186.149, 186.156, 
186.159, 186.170 (position of the Chinese government regarding 
recommendations).
    \7\ Ibid.
    \8\ The Commission has not observed an official or uniform 
definition of the term ``Internet sovereignty,'' but Fang Binxing 
offers his own explanation of the term in Wang Yuan, ``Internet 
Sovereignty: An Issue Difficult To Avoid'' [Wangluo zhuquan: yi ge bu 
rong huibi de wenti], People's Daily, 23 June 14. Fang Binxing 
reportedly developed key components of China's national system of 
surveillance and censorship, commonly known as the Great Firewall. See, 
e.g., ``Great Firewall Father Speaks Out,'' Global Times, 18 February 
11.
    \9\ Wang Yuan, ``Internet Sovereignty: An Issue Difficult To 
Avoid'' [Wangluo zhuquan: yi ge bu rong huibi de wenti], People's 
Daily, 23 June 14.
    \10\ See, e.g., Jonathan Kaiman, ``China Granted Seat on UN's Human 
Rights Council,'' Guardian, 13 November 13.
    \11\ UN GAOR, Hum. Rts. Coun., 20th. Sess., Promotion and 
Protection of All Human Rights, Civil, Political, Economic, Social and 
Cultural Rights, Including the Right to Development, Agenda Item 3, A/
HRC/20/L.13, 29 June 12, para. 1; ``Human Rights Council Backs Internet 
Freedom,'' Agence France-Presse, reprinted in Vanguard, 5 July 12.
    \12\ Lu Wei, ``Chinese Domain Set To Surf,'' China Daily, 7 July 
10.
    \13\ China Internet Network Information Center, ``The 34th 
Statistical Report on Internet Development in China'' [Di 34 ci 
zhongguo hulian wangluo fazhan zhuangkuang tongji baogao], July 2014, 
4.
    \14\ Ibid.
    \15\ Ministry of Industry and Information Technology, ``Ministry of 
Industry and Information Technology Grants 4G Licenses'' [Gongye he 
xinxihua bu fafang 4G paizhao], 4 December 13; ``China Mobile Expands 
4G Network in Beijing,'' China Daily, 12 December 13; ``China Issues 4G 
Licenses,'' Xinhua, reprinted in Economic and Commercial Counsellor's 
Office of the Mission of the People's Republic of China to the European 
Union, 3 December 13.
    \16\ ``World's Largest 4G Network To Be Established Next Year, 
Terminal 4G Sales Predicted To Exceed 100 Million Next Year'' [Mingnian 
jiang jiancheng quanqiu zuida 4G wangluo, yuji mingnian 4G zhongduan 
xiaoshouliang chao 1 yi], Southern Daily, 19 December 13.
    \17\ Shen Jingting, ``China Mobile Set for 4G services in 340 
cities,'' China Daily, 18 December 13.
    \18\ State Council, ``Report on the Work of the Government,'' 
reprinted in Xinhua, 5 March 14, sec. 3(3).
    \19\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], reprinted in Xinhua, 15 November 13, sec. 13(50).
    \20\ Ibid., sec. 10(36).
    \21\ Ibid.
    \22\ See, e.g., Zhang Xiaoming, ``Standardizing Interactions 
Between the Government and the People in the Management of Public 
Opinion'' [Guifan wangluo yuqing guanli zhong de zhengmin hudong 
guanxi], Study Times, reprinted in Seeking Truth, 9 June 13; ``Chinese 
Official Media Focuses on Internet Management; Internet Users Worry 
About Limits to Anticorruption'' [Zhongguo guan mei jujiao wangguan 
wangmin danxin fanfu shou xian], BBC, 23 December 12; ``Opinion: 
Strengthening of Internet Management Has Won Popular Support'' 
[Sheping: jiaqiang hulianwang guanli shi derenxin de], Global Times, 21 
December 12; ``China Continues To Strengthen Internet Management; 
Internet Spring Difficult Now'' [Zhongguo chixu jiaqiang wangguan 
wangluo chuntian nan xian], BBC, 21 December 12.
    \23\ ``Xi Jinping Leads Internet Security Group,'' Xinhua, 27 
February 14; ``Student Recruitment Brochure for First `Internet Public 
Opinion Management for Professionals' Seminar'' [Shou qi ``wangluo 
yuqing guanli shi'' yanxiu ban zhaosheng jianzhang], Xinhua, 26 
February 14; Zou Jixiang et al., ``Chairman Xi's `Eight Emphases' 
Specify Direction'' [Xi zhuxi ``ba ge qiangdiao'' zhiming fangxiang], 
Seeking Truth, 17 January 14; Peng Zhubin, ``Speed Up the Completion of 
the Internet Management Leadership System'' [Jiakuai wanshan hulianwang 
guanli lingdao tizhi], reprinted in Hunan Provincial Bureau of Civil 
Affairs, 12 December 13; Communist Party Central Commission for 
Discipline Inspection and Ministry of Supervision, ``Analysis of the 
Third Plenum `Decision,' No. 5: How To Strengthen and Advance 
Restrictions and Supervision of the Exercise of Power by Leading 
Cadres'' [Sanzhong quanhui ``jueding'' jiedu zhi wu: ruhe jiaqiang he 
gaijin dui zhuyao lingdao ganbu xingshi quanli de zhiyue he jiandu], 4 
December 13; Zeng Huafeng et al., ``An Interpretation of Important 
Initiatives in the `Decision' of the Third Plenum of the 18th Party 
Congress'' [Dang de shiba jie san zhong quanhui ``jueding'' zhongyao 
jucuo shiyi], People's Liberation Army Daily, 22 November 13; Xi 
Jinping, ``Explanation Regarding the `Chinese Communist Party Central 
Committee Decision on Certain Major Issues Regarding Comprehensively 
Deepening Reforms' '' [Guanyu ``zhonggong zhongyang guanyu quanmian 
shenhua gaige ruogan zhongda wenti de jueding'' de shuoming], Xinhua, 
reprinted in Central People's Government, 15 November 13; Lan Zhengyan, 
``Military's Propaganda and Ideological Work Must Be at the Forefront'' 
[Jundui xuanchuan sixiang gongzuo yao zou zai qianlie], People's 
Liberation Army Daily, 29 October 13.
    \24\ ``Xi Jinping Leads Internet Security Group,'' Xinhua, 27 
February 14. See also Paul Mozur, ``China's Xi Presides Over Internet 
Security Committee--Update,'' Wall Street Journal, 27 February 14.
    \25\ Zou Jixiang et al., ``Chairman Xi's `Eight Emphases' Specify 
Direction'' [Xi zhuxi ``ba ge qiangdiao'' zhiming fangxiang], Seeking 
Truth, 17 January 14; Lan Zhengyan, ``Military's Propaganda and 
Ideological Work Must Be at the Forefront'' [Jundui xuanchuan sixiang 
gongzuo yao zou zai qianlie], People's Liberation Army Daily, 29 
October 13.
    \26\ Ibid.
    \27\ Lan Zhengyan, ``Military's Propaganda and Ideological Work 
Must Be at the Forefront'' [Jundui xuanchuan sixiang gongzuo yao zou 
zai qianlie], People's Liberation Army Daily, 29 October 13; Sun 
Shougang, ``Having a Responsibility To Defend the Country, Taking 
Responsibility To Defend the Country, and Defending the Country With 
Utmost Responsibility'' [Shou tu youze, shou tu fuze, shou tu jinze], 
China Association for Culture Construction, reprinted in State Council 
Information Office, 9 September 13.
    \28\ Lan Zhengyan, ``Military's Propaganda and Ideological Work 
Must Be at the Forefront'' [Jundui xuanchuan sixiang gongzuo yao zou 
zai qianlie], People's Liberation Army Daily, 29 October 13.
    \29\ Xu Jingyue and Hua Chunyu, ``Xi Jinping: Ideological Work Is 
Extremely Important Work of the Party'' [Xi jinping: yishixingtai 
gongzuo shi dang de yi xiang jiduan zhongyao de gongzuo], Xinhua, 20 
August 13; Zou Jixiang et al., ``Chairman Xi's `Eight Emphases' Specify 
Direction'' [Xi zhuxi ``ba ge qiangdiao'' zhiming fangxiang], Seeking 
Truth, 17 January 14; Lan Zhengyan, ``Military's Propaganda and 
Ideological Work Must Be at the Forefront'' [Jundui xuanchuan sixiang 
gongzuo yao zou zai qianlie], People's Liberation Army Daily, 29 
October 13; Sun Shougang, ``Having a Responsibility To Defend the 
Country, Taking Responsibility To Defend the Country, and Defending the 
Country With Utmost Responsibility'' [Shou tu youze, shou tu fuze, shou 
tu jinze], China Association for Culture Construction, reprinted in 
State Council Information Office, 9 September 13.
    \30\ Zou Jixiang et al., ``Chairman Xi's `Eight Emphases' Specify 
Direction'' [Xi zhuxi ``ba ge qiangdiao'' zhiming fangxiang], Seeking 
Truth, 17 January 14; Lan Zhengyan, ``Military's Propaganda and 
Ideological Work Must Be at the Forefront'' [Jundui xuanchuan sixiang 
gongzuo yao zou zai qianlie], People's Liberation Army Daily, 29 
October 13; Sun Shougang, ``Having a Responsibility To Defend the 
Country, Taking Responsibility To Defend the Country, and Defending the 
Country With Utmost Responsibility'' [Shou tu youze, shou tu fuze, shou 
tu jinze], China Association for Culture Construction, reprinted in 
State Council Information Office, 9 September 13. For background 
information on Xi's August 2013 speech, see Qian Gang, ``Parsing the 
`Public Opinion Struggle,' '' China Media Project, 24 September 13.
    \31\ Malcolm Moore, ``China Kills Off Discussion on Weibo After 
Internet Crackdown,'' Telegraph, 30 January 14; David Wertime, 
``Closing Time? China's Social Media Crackdown Has Hit Weibo Hard,'' 
Tea Leaf Nation, 30 January 14; Chris Buckley, ``Crackdown on Bloggers 
Is Mounted by China,'' New York Times, 10 September 13; Zhong Xuefeng 
and Niu Muge, ``Police Campaign Against Spread of `Net Rumors' 
Intensifies,'' Caixin, 29 August 13; ``Company Boss Arrested for 
Creating Online Rumors,'' Xinhua, 26 August 13.
    \32\ See, e.g., Lessons From Tiananmen and Implications for the 
United States, Hearing of the U.S.-China Economic and Security Review 
Commission, 15 May 14, Written Testimony of David Wertime, Senior 
Editor, Foreign Policy; Josh Chin, ``Out on Bail, Chinese Social Media 
Star Xue Manzi Returns to Weibo,'' Wall Street Journal, China Real Time 
Report (blog), 19 April 14; Keith Zhai, ``Celebrity Blogger Charles Xue 
Biqun Released on Bail,'' South China Morning Post, 17 April 14; 
``Chinese Blogger Charles Xue Gets Bail After Illness,'' BBC, 17 April 
14; Kevin Tang, ``For Chinese Bloggers, Going Viral Can Mean Jail 
Time,'' Buzzfeed, 30 September 13; Phil Muncaster, ``China's `Big Vs' 
Disown Selves Online To Avoid New Gossip Laws,'' Register, 18 September 
13; Te-Ping Chen and Brian Spegele, ``CCTV Scrutinizes `Big V' 
Target,'' Wall Street Journal, China Real Time Report (blog), 29 August 
13.
    \33\ See, e.g., Tyler Roney, ``China's Sudden WeChat Crackdown,'' 
Diplomat, 14 March 14; Malcolm Moore, ``China Kills Off Discussion on 
Weibo After Internet Crackdown,'' Telegraph, 30 January 14; David 
Wertime, ``Closing Time? China's Social Media Crackdown Has Hit Weibo 
Hard,'' Tea Leaf Nation, 30 January 14. See also CECC, 2013 Annual 
Report, 10 October 13, 61.
    \34\ Patrick Boehler, ``Outspoken Commentator Li Chengpeng Silenced 
on Chinese Social Media,'' South China Morning Post, 8 July 14; Tom 
Philips, ``Li Chengpeng: Football Commentator to Voice of the People,'' 
Telegraph, 7 March 14; Shan Renping, ``Shan Renping: @LiChengpeng 
Closed, Destined To Happen Sooner or Later'' [Shan renping: 
@lichengpeng bei xiaohao, zaowan zhuding fasheng], Global Times, 
reprinted in Global Times Net, 8 July 14.
    \35\ Paul Mozur, ``Crossing Lines: Sina Punishes More Than 100,000 
Weibo Accounts,'' Wall Street Journal, China Real Time Report (blog), 
13 November 13; Tyler Roney, ``China's Sudden WeChat Crackdown,'' 
Diplomat, 14 March 14; Malcolm Moore, ``China Kills Off Discussion on 
Weibo After Internet Crackdown,'' Telegraph, 30 January 14; David 
Wertime, ``Closing Time? China's Social Media Crackdown Has Hit Weibo 
Hard,'' Tea Leaf Nation, 30 January 14.
    \36\ Malcolm Moore, ``China Kills Off Discussion on Weibo After 
Internet Crackdown,'' Telegraph, 30 January 14; Gerry Shih and Yimou 
Lee, ``Analysis--Weibo Debut Highlights Complicated Dance With Chinese 
Censors,'' Reuters, 18 April 14.
    \37\ Tyler Roney, ``China's Sudden WeChat Crackdown,'' Diplomat, 14 
March 14; David Wertime, ``Exclusive: Surprising Crackdown on China's 
Hottest Social Media Platform,'' Foreign Policy, 13 March 14; China 
Digital Times, ``Partial List of Deleted WeChat Accounts,'' 13 March 
14; Ian Johnson, ``An Online Shift in China Muffles an Open Forum,'' 
New York Times, 4 July 14.
    \38\ State Internet Information Office, Interim Provisions for the 
Management of the Development of Instant Messaging Tools in Providing 
Public Information Services [Jishi tongxin gongju gongzhong xinxi fuwu 
fazhan guanli zanxing guiding], reprinted in Xinhua, issued 7 August 
14; China Economic Information Network, ``State Internet Information 
Office Spokesperson Answers Reporters' Questions Regarding the `Interim 
Provisions for the Management of the Development of Instant Messaging 
Tools in Providing Public Information Services' '' [Wangxinban fayanren 
jiu ``jishi tongxin gongju gongzhong xinxi fuwu fazhan guanli zanxing 
guiding'' da jizhe wen], 8 August 14.
    \39\ State Internet Information Office, Interim Provisions for the 
Management of the Development of Instant Messaging Tools in Providing 
Public Information Services [Jishi tongxin gongju gongzhong xinxi fuwu 
fazhan guanli zanxing guiding], reprinted in Xinhua, issued 7 August 
14, art. 7.
    \40\ Shannon Tiezzi, ``Maoming Protests Continue in Southern 
China,'' Diplomat, 5 April 14.
    \41\ Jason Q. Ng, ``How Chinese Internet Censorship Works, 
Sometimes,'' ChinaFile, 13 March 14; Patrick Boehler, ``Beijing Paper's 
Investigative Report on Zhou Yongkang's Son Censored,'' South China 
Morning Post, 27 February 14; ``Censors Crack Down on Li Dongsheng--
Zhou Yongkang Rumors,'' Want China Times, 26 December 13.
    \42\ National ``Sweep Away Pornography, Strike Down False Media'' 
Working Group, State Internet Information Office, Ministry of Industry 
and Information Technology, and Ministry of Public Security, 
Announcement Regarding Launching the Special Operation To Strike Down 
Pornographic Information Online [Guanyu kaizhan daji wangshang yinhui 
seqing xinxi zhuanxiang xingdong gonggao], 13 April 14; ``Making the 
Internet the Primary Battleground for `Sweeping Away Pornography and 
Striking Down False Media' '' [Ba hulianwang zuowei ``saohuang dafei'' 
de zhu zhanchang], People's Daily, 16 January 14; ``Striking Down 
Pornographic Information Online, Creating a Clean, Bright, and 
Harmonious Cyberspace'' [Daji wangshang yinhui seqing xinxi, yingzao 
qinglang hexie wangluo kongjian], Seeking Truth, 14 April 14.
    \43\ See, e.g., Li Hui and Michael Martina, ``China Steps Up Purge 
of Online Porn Amid Wider Censorship Push,'' Reuters, 21 April 14; Paul 
Carsten and Michael Martina, ``Sina Penalized for Porn as China 
Censorship Bodies Jockey for Power,'' Reuters, 25 April 14; Zhang 
Jialong, ``China's New Internet Crackdown: Not About Porn,'' Foreign 
Policy, Tea Leaf Nation, translated by David Wertime, 16 April 14; 
Tyler Roney, ``China's Latest Porn Purge Underway,'' Diplomat, 18 April 
14; Fong Juk-kwan, ``Sina Encounters Calamity in Sweeping Away Online 
Pornography, Young Netizens Joke About `Experiencing the Cultural 
Revolution' '' [Wangluo saohuang xinlang zao yang, nianqing wangmin 
xixue ``jingli wen'ge''], InMediaHK, 26 April 14; Zhang Jialong, 
``Circumstances of My Dismissal From Tencent,'' reprinted in China 
Change, 24 May 14.
    \44\ ``Sweep Away Pornography, Strike Down False Media'' Working 
Group, ``About Us'' [Guanyu women], last visited 23 June 14.
    \45\ Zhang Hailin, `` `High-Grade' Central Leading Groups'' 
[``Gaojingjian'' de zhongyang lingdao xiaozu] People's Digest, Issue 
11, 2013; ``Biography'' [Renwu jianli], Xinhua, last visited 23 June 
14.
    \46\ ``National Office Against Pornographic and Illegal 
Publications Communication Regarding the Situation of Investigating and 
Dealing With Sina's Alleged Dissemination of Pornographic Information'' 
[Quanguo saohuang dafei ban tongbao guanyu chachu xinlangwang shexian 
chuanbo yinhui seqing xinxi de qingkuang], Xinhua, 24 April 14.
    \47\ See, e.g., Li Hui and Michael Martina, ``China Steps Up Purge 
of Online Porn Amid Wider Censorship Push,'' Reuters, 21 April 14; Fong 
Juk-kwan, ``Sina Encounters Calamity in Sweeping Away Online 
Pornography, Young Netizens Joke About `Experiencing the Cultural 
Revolution' '' [Wangluo saohuang xinlang zao yang, nianqing wangmin 
xixue ``jingli wen'ge''], InMediaHK, 26 April 14; Adam Pasick, ``Sina 
Weibo's IPO Will Have a Government Censorship Discount,'' Quartz, 17 
March 14.
    \48\ U.S. Securities and Exchange Commission, Form F-1 Registration 
Statement Under the Securities Act of 1933: Weibo Corporation, 14 March 
14.
    \49\ Jason Q. Ng, ``64 Tiananmen-Related Words China Is Blocking 
Online Today,'' Wall Street Journal, China Real Time (blog), 4 June 14.
    \50\ Zoe Li, ``Twenty-Five Years Later, Tiananmen Square No Less 
Taboo for China's Censors,'' CNN, 16 April 14.
    \51\ Marbridge Consulting, ``GAPPRFT To Regulate Internet TV 
Platform License Holders,'' 15 July 14; Zheng Peishan et al., ``SAPPRFT 
Reorganizes the Box, Alibaba and LeTV Obstructed'' [Guangdianzongju 
zhengdun hezi, ali leshi shouzu], Caixin, 16 July 14; Zheng Peishan et 
al., ``Internet TV, Set-Top Box Makers Slapped With More Content 
Restrictions,'' Caixin, 17 July 14.
    \52\ Zheng Peishan et al., ``Internet TV, Set-Top Box Makers 
Slapped With More Content Restrictions,'' Caixin, 17 July 14.
    \53\ Ibid.
    \54\ Tan Min et al., ``[Exclusive] LeTV's Deep Regulatory Crisis 
(Update)'' [[Dujia] leshi shenxian jianguan weiji (gengxin)], Caixin, 
17 July 14.
    \55\ State Administration of Press, Publication, Radio, Film and 
Television, ``Operations and Management Requirements for Organizations 
With Internet Television Licenses'' [Chiyou hulianwang dianshi paizhao 
jigou yunying guanli yaoqiu], reprinted in Ministry of Commerce, 28 
October 11. This document, reprinted on the official Web site of the 
Ministry of Commerce, requires a password to view. The Commission has 
not observed a publicly available copy of the document.
    \56\ Dong Tongjian, ``Gov't Order May Fray Television Set-Top 
Market,'' Global Times, 29 June 14; Zheng Peishan et al., ``Internet 
TV, Set-Top Box Makers Slapped With More Content Restrictions,'' 
Caixin, 17 July 14.
    \57\ Paul Mozur, ``LinkedIn Said It Would Censor in China. Now That 
It Is, Some Users Are Unhappy,'' Wall Street Journal, China Real Time 
Report (blog), 4 June 14.
    \58\ See, e.g., Paul Mozur, ``LinkedIn Said It Would Censor in 
China. Now That It Is, Some Users Are Unhappy,'' Wall Street Journal, 
China Real Time Report (blog), 4 June 14; Peter Cai and Fergus Ryan, 
``In the Shadow of Tiananmen, LinkedIn Succumbs to China's 
Censorship,'' Business Spectator, 4 June 14; Tania Branigan, ``LinkedIn 
Under Fire for Censoring Tiananmen Square Posts,'' Guardian, 4 June 14.
    \59\ Peter Cai and Fergus Ryan, ``In the Shadow of Tiananmen, 
LinkedIn Succumbs to China's Censorship,'' Business Spectator, 4 June 
14.
    \60\ Ibid.
    \61\ GreatFire.org, ``Google Disrupted Prior to Tiananmen 
Anniversary; Mirror Sites Enable Uncensored Access to Information,'' 2 
June 14; Tania Branigan, ``LinkedIn Under Fire for Censoring Tiananmen 
Square Posts,'' Guardian, 4 June 14.
    \62\ Paul Mozur, ``LinkedIn Said It Would Censor in China. Now That 
It Is, Some Users Are Unhappy,'' Wall Street Journal, China Real Time 
Report (blog), 4 June 14.
    \63\ GreatFire.org, ``Google Disrupted Prior to Tiananmen 
Anniversary; Mirror Sites Enable Uncensored Access to Information,'' 2 
June 14; ``China Crackdown on Google Reflects Tiananmen Anniversary,'' 
Bloomberg News, 4 June 14; ``China Disrupts Google Services Ahead of 
Tiananmen Anniversary,'' Reuters, 2 June 14; Kim Hjelmgaard, ``Google's 
China Services Disrupted Before Anniversary,'' USA Today, 2 June 14.
    \64\ GreatFire.org, ``What Are You Trying To Accomplish? '' last 
visited 23 June 14.
    \65\ GreatFire.org, ``Google Disrupted Prior to Tiananmen 
Anniversary; Mirror Sites Enable Uncensored Access to Information,'' 2 
June 14.
    \66\ ``China Crackdown on Google Reflects Tiananmen Anniversary,'' 
Bloomberg, 4 June 14; ``China Disrupts Google Services Ahead of 
Tiananmen Anniversary,'' Reuters, 2 June 14; Kim Hjelmgaard, ``Google's 
China Services Disrupted Before Anniversary,'' USA Today, 4 June 14.
    \67\ ``China Disrupts Google Services Ahead of Tiananmen 
Anniversary,'' Reuters, 2 June 14.
    \68\ State Council, Measures for the Administration of Internet 
Information Services [Hulianwang xinxi fuwu guanli banfa], issued and 
effective 25 September 00, art. 15(3).
    \69\ Ibid., art. 15(6).
    \70\ Ibid., art. 15(5).
    \71\ Ibid.
    \72\ State Council, Implementing Regulations for the PRC Law on the 
Protection of State Secrets [Zhonghua renmin gonghe guo baoshou guojia 
mimi fa shishi tiaoli], issued 17 January 14, effective 1 March 14., 
art. 32(8).
    \73\ Ibid.
    \74\ For analyses of the Implementing Regulations, see Richard 
Silk, ``China's Secret Anti-
Secrecy Act,'' Wall Street Journal, China Real Time Report (blog), 3 
February 14; Hogan Lovells, ``New State Secrets Implementing 
Regulations: More of a Damp Fizzle Than a Bang? '' March 2014.
    \75\ State Council, Implementing Regulations for the PRC Law on the 
Protection of State Secrets [Zhonghua renmin gongheguo baoshou guojia 
mimi fa shishi tiaoli], issued 17 January 14, effective 1 March 14, 
art. 5.
    \76\ Ibid.
    \77\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 35.
    \78\ Malcolm Moore, ``China's Human Rights Situation `Worst in 
Decades,' '' Telegraph, 2 March 14; Tom Phillips, ``Chinese Activists 
Face Jail as Crackdown Continues,'' Telegraph, 7 April 14; Human Rights 
Watch, ``China: Reverse Judgment in Show Trial of Xu Zhiyong,'' 26 
January 14; ``China Detains Two Rights Lawyers in Widening Crackdown on 
Activists,'' Reuters, 17 May 14.
    \79\ Jonathan Kaiman, ``China Detains Teenager Over Web Post Amid 
Social Media Crackdown,'' Guardian, 20 September 2013; Zhangjiachuan 
Public Security Bureau: ``Regarding Yang X Suspected of Picking 
Quarrels and Provoking Trouble'' [Zhangjiachuan gongan: guanyu yang mou 
shexian xunxin zishi yi an], freeweibo.com, 20 September 13. For 
Commission analysis, see ``Gansu Teenager Detained Under New Rules on 
Online Rumors,'' CECC China Human Rights and Rule of Law Update, No. 2, 
23 December 13.
    \80\ Andrew Jacobs, ``China's Crackdown Prompts Outrage Over Boy's 
Arrest,'' New York Times, 23 September 13; Oiwan Lam, ``Chinese 
Teenager Accused of Spreading Rumors Online Arrested,'' Global Voices 
Online, 23 September 13. For Commission analysis, see ``Gansu Teenager 
Detained Under New Rules on Online Rumors,'' CECC China Human Rights 
and Rule of Law Update, No. 2, 23 December 13.
    \81\ ``Detained Gansu Teen Tweeter Expelled From School After 
Release,'' Radio Free Asia, 24 September 13.
    \82\ Rights Defense Network, ``Police Again Take Hu Jia Into 
Custody for Questioning on Suspicion of `Picking Quarrels and Provoking 
Trouble' '' [Hu jia zai bei jingfang yi shexian ``xunxin zishi'' daizou 
zhuanhuan], 25 February 14; Verna Yu, ``Activist Hu Jia Accepts He 
Faces Jail Again After Latest Police Questioning,'' South China Morning 
Post, 27 February 14.
    \83\ Verna Yu, ``Activist Hu Jia Accepts He Faces Jail Again After 
Latest Police Questioning,'' South China Morning Post, 27 February 14; 
``Hu Jia's Soft Detention Ends, Returns to Tiananmen'' [Jieshu ruanjin 
de hu jia, chonghui tiananmen], Deutsche Welle, 9 June 14.
    \84\ ``Hu Jia's Soft Detention Ends, Returns to Tiananmen'' [Jieshu 
ruanjin de hu jia chonghui tiananmen], Deutsche Welle, 9 June 14.
    \85\ Rebecca Valli, ``Prominent Chinese Activist Beaten in 
Beijing,'' Voice of America, 17 July 14. For more information on Hu 
Jia's case, see the Commission's Political Prisoner Database record 
2004-05295.
    \86\ Sui-Lee Wee, ``Wife of China's Jailed Nobel Laureate Liu 
Hospitalized,'' Reuters, 19 February 14; Tania Branigan, ``Nobel 
Winner's Wife Liu Xia Speaks Out From House Arrest Through Her Poems,'' 
Guardian, 15 January 14. For more information on Liu Xia's case, see 
the Commission's Political Prisoner Database record 2010-00629.
    \87\ ``Liu Xia Discharged, Condition Improves'' [Liu xia chuyuan, 
bingqing haozhuan], Radio Free Asia, 27 February 14. For Commission 
analysis, see ``Detained Liu Xia Hospitalized as Health Reportedly 
Worsens,'' Congressional-Executive Commission on China, 27 March 14.
    \88\ Frontline Defenders, ``China: Liu Xia, Wife of Liu Xiaobo, 
Appeals to Chinese Government Amid Worsening Health While Under House 
Arrest,'' 3 December 13; ``Liu Xia Discharged, Condition Improves'' 
[Liu xia chuyuan, bingqing haozhuan], Radio Free Asia, 27 February 14; 
UN Working Group on Arbitrary Detention, Opinion No. 16/2011 (China), 
A/HRC/WGAD/2011/16, 5 May 11, para. 7. For more information on Liu 
Xia's case, see the Commission's Political Prisoner Database record 
2010-00629.
    \89\ Sui-Lee Wee, ``Wife of China's Jailed Nobel Laureate Liu 
Hospitalized,'' Reuters, 19 February 14.
    \90\ ``Liu Xia Discharged, Condition Improves'' [Liu xia chuyuan, 
bingqing haozhuan], Radio Free Asia, 27 February 14.
    \91\ Didi Kirsten Tatlow, ``Two Prominent Women Under Detention Are 
Hospitalized,'' New York Times, Sinosphere (blog), 21 February 14.
    \92\ UN Working Group on Arbitrary Detention, Opinion No. 16/2011 
(China), A/HRC/WGAD/2011/16, 5 May 11, para. 9.
    \93\ Huang Qi, 64 Tianwang, ``Three 64 Tianwang Journalists 
Criminally Detained in Beijing'' [Liusi tianwang san jizhe beijing zao 
xingshi juliu], 10 March 14.
    \94\ Committee to Protect Journalists, ``Three Journalists Detained 
After Reporting on Tiananmen,'' 18 March 14; Huang Qi, 64 Tianwang, 
``Three 64 Tianwang Journalists Criminally Detained in Beijing'' [Liusi 
tianwang san jizhe beijing zao xingshi juliu], 10 March 14. For more 
information on these cases, see the Commission's Political Prisoner 
Database records 2014-00123 on Liu Xuehong, 2014-00125 on Xing Jian, 
and 2014-00104 on Wang Jing.
    \95\ ``Internet Rumormonger Gets 3-Year Jail Term,'' Xinhua, 17 
April 14.
    \96\ Supreme People's Court and Supreme People's Procuratorate, 
Interpretation on Several Questions Regarding Applicable Law When 
Handling the Use of Information Networks To Commit Defamation and Other 
Such Criminal Cases [Zuigao renmin fayuan, zuigao renmin jianchayuan 
guanyu banli liyong xinxi wangluo shishi feibang deng xingshi anjian 
shiyong falu ruogan wenti de jieshi], issued 2 September 13 and 5 
September 13, effective 10 September 13, art. 2(1); PRC Criminal Law 
[Zhonghua renmin gongheguo xingfa], passed 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, art. 246. See also Xu Xin, ``Xu Xin: Exceeding the 
Law To Combat Rumors Is Much More Damaging Than the Rumors Themselves'' 
[Xu xin: chaoyue falu daji yaoyan, weihai yuan shenyu yaoyan], Caijing, 
10 September 13.
    \97\ ``Internet Rumormonger Gets 3-Year Jail Term,'' Xinhua, 17 
April 14.
    \98\ Malcolm Moore and Tom Phillips, ``Tiananmen Victims' Families 
Feel the Heat,'' London Daily Telegraph, reprinted in Leader-Post, 30 
April 14; Human Rights in China, ``China Escalates Persecution Before 
25th Anniversary of June Fourth,'' 8 May 14.
    \99\ Malcolm Moore and Tom Phillips, ``Tiananmen Victims' Families 
Feel the Heat,'' London Daily Telegraph, reprinted in Leader-Post, 30 
April 14.
    \100\ Tyler Roney, ``Arrests, Censorship and Propaganda: China's 
Tiananmen Anniversary Dance,'' Diplomat, 2 May 14.
    \101\ Human Rights in China, ``China Escalates Persecution Before 
25th Anniversary of June Fourth,'' 8 May 14; ``Tiananmen Mother Stopped 
From Memorializing During 25th Anniversary of `June Fourth,' Surveilled 
and Prohibited From Meeting With Journalists for 24 Hours'' [``Liu si'' 
25 zhounian tiananmen muqin gongji bei zu, 24 xiaoshi shou jiankong jin 
jian jizhe], Radio Free Asia, 28 May 14.
    \102\ Rights Defense Network, ``Gu Yimin Tried and Sentenced in 
`Inciting Subversion Case,' Lawyers Beaten and Injured'' [Gu yimin 
``shandian an'' kaiting xuanpan, daili lushi bei dashang], 24 March 14. 
For more information on Gu Yimin's case, see the Commission's Political 
Prisoner Database record 2013-00215.
    \103\ Ibid.
    \104\ ``Netizen Forwards June Fourth Picture, Is Criminally 
Detained, QQ Groups Eagerly Disseminate Picture Depicting Model of 
Sacrifice and Bravery'' [Wangmin zhuan liu si tupian bei xingju, QQ qun 
re chuan jidian bajiu yinglie tu], Radio Free Asia, 4 June 13; 
``Dissident Gu Yimin Arrested on Incitement Charge, Du Bin's Younger 
Sister Holds Up Sign in Protest Outside Detention Center'' [Yiyi renshi 
gu yimin bei kou shandong zui daibu, du bin meimei kanshousuo wai jupai 
kangyi], Radio Free Asia, 17 June 13; Rights Defense Network, ``Jiangsu 
Dissident Gu Yimin Arrested for `Inciting Subversion Charge' '' 
[Jiangsu yiyi renshi gu yimin bei yi ``shexian shandong dianfu zui'' 
daibu], 15 June 13.
    \105\ Charlie Campbell, ``Chinese Journalist Arrested Amid 
Crackdown for Tiananmen Anniversary,'' Time, 8 May 14.
    \106\ ``Gao Yu Suspected of Illegally Supplying State Secrets 
Internationally, Criminally Detained'' [Gao yu shexian wei jingwai 
feifa tigong guojia mimi zui bei xingshi juliu], Xinhua, 8 May 14.
    \107\ Rights Defense Network, `` `Rights Defense Network' Statement 
Regarding Beijing Authorities' Oppression of People Who Attended `June 
Fourth' Discussion Forum'' [``Weiquanwang'' jiu beijing dangju daya 
canjia ``liu si'' yantaohui renshi de shengming], 7 May 14; Malcolm 
Moore and Tom Phillips, ``Tiananmen Victims' Families Feel the Heat,'' 
London Daily Telegraph, reprinted in Leader-Post, 30 April 14; Michael 
Forsythe and Chris Buckley, ``Journalist Missing Ahead of Tiananmen 
Anniversary,'' New York Times, 29 April 14. For more information on 
Gao's background, see International Press Association, ``Gao Yu, 
China,'' last visited 23 June 14.
    \108\ China Free Press, ``Chen Wei, Yu Shiwen Detained for 
Organizing Popular June Fourth Memorial Event'' [Yin zuzhi minjian liu 
si gongji huodong chen wei, yu shiwen zao jubu], 29 May 14. For more 
information on the criminal detention and arrest of memorial 
participants, see ``Retribution for Multiple People Who Attended `June 
Fourth' Memorial, Authorities Establish Special Group To Investigate'' 
[Canyu ``liu si'' gongji duo ren bei qiuhou suanzhang, dangju chengli 
zhuan'an zu diaocha], Radio Free Asia, 27 May 14; Rights Defense 
Network, ``Retribution Against Multiple People Criminally Detained 
Several Months After June Fourth Memorial, Lawyer Prevented From 
Visiting'' [Liu si gongji shu yue hou zao qiuhou suanzhang duo ren bei 
xingju, lushi huijian shouzu], 30 May 14.
    \109\ Ibid.; ``June Fourth Stability Maintenance Measures Increase, 
Multiple People Detained'' [Liu si weiwen cuoshi jiada, duo ren bei 
ju], Radio Free Asia, 29 May 14. For more information on these cases, 
see the Commission's Political Prisoner Database records 2014-00192 on 
Yu Shiwen, 2014-00191 on Chen Wei, 2014-00194 on Shi Yu, 2014-00196 on 
Fang Yan, and 2014-00195 on Hou Shuai.
    \110\ ``June Fourth Stability Maintenance Measures Increase, 
Multiple People Detained'' [Liu si weiwen cuoshi jiada, duo ren bei 
ju], Radio Free Asia, 29 May 14; Rights Defense Network, ``Retribution 
Against Multiple People Criminally Detained Several Months After June 
Fourth Memorial, Lawyer Prevented From Visiting'' [Liu si gongji shu 
yue hou zao qiuhou suanzhang duo ren bei xingju, lushi huijian shouzu], 
30 May 14. For more information on Chang Boyang's case, see the 
Commission's Political Prisoner Database record 2014-00252.
    \111\ Rights Defense Network, ``Post-'80 Youth Zhang Kunle 
Criminally Detained for Posting June Fourth Essay Online'' [80 hou 
qingnian zhang kunle yin zai wangshang juban liu si zhengwen bei 
xingju], 2 June 14; ``Guangdong Rights Defender Youth Zhang Kunle Calls 
for `June Fourth' Essay Submissions Online, Criminally Detained'' 
[Guangdong weiquan qingnian zhang kunle juban wangshang ``liu si'' 
zhengwen bei xingju], Radio Free Asia, 2 June 14. For more information 
on Zhang Kunle's case, see the Commission's Political Prisoner Database 
record 2014-00198.
    \112\ Rights Defense Network, ``Post-'80 Youth Zhang Kunle 
Criminally Detained for Posting June Fourth Essay Online'' [80 hou 
qingnian zhang kunle yin zai wangshang juban liu si zhengwen bei 
xingju], 2 June 14.
    \113\ China Change, ``Young Chinese Twitter User Arrested for 
Proposing Method To Spread Truth About June Fourth Massacre,'' 9 June 
14; ``Woman Uses Foreign Web Site To Transmit Criminal Methods, 
Criminally Detained by Beijing Police'' [Yi nuzi liyong jingwai 
wangzhan chuanshou fanzui fangfa bei beijing jingfang xingju], China 
News Net, 9 June 14. For more information on Zhao Huaxu's case, see the 
Commission's Political Prisoner Database record 2014-00204.
    \114\ For an image of the Twitter post, see China Change, ``Young 
Chinese Twitter User Arrested for Proposing Method To Spread Truth 
About June 4th Massacre,'' 9 June 14.
    \115\ ``Woman Uses Foreign Web Site To Transmit Criminal Methods, 
Criminally Detained by Beijing Police'' [Yi nuzi liyong jingwai 
wangzhan chuanshou fanzui fangfa bei beijing jingfang xingju], China 
News Net, 9 June 14.
    \116\ Reporters Without Borders, ``World Press Freedom Index 
2014,'' February 2014, 31.
    \117\ Ibid., 16.
    \118\ UN Human Rights Council, ``Tenth Anniversary Joint 
Declaration: Ten Key Challenges to Freedom of Expression in the Next 
Decade,'' Addendum to Report of the Special Rapporteur on the Promotion 
and Protection of the Rights to Freedom of Opinion and Expression, A/
HRC/14/23/Add.2, 25 March 10, art. 1(a).
    \119\ State Council Information Office and Ministry of Industry and 
Information Technology, Provisions on the Administration of Internet 
News Information Services [Hulianwang xinwen xinxi fuwu guanli 
guiding], issued and effective 25 September 05, arts. 11, 14; State 
Council, Regulations on the Administration of Publishing [Chuban guanli 
tiaoli], issued 25 December 01, effective 1 February 02, arts. 15, 36; 
General Administration of Press and Publication, Measures for 
Administration of News Reporter Cards [Xinwen jizhe zheng guanli 
banfa], issued 24 August 09, effective 15 October 09, arts. 11, 12, 16.
    \120\ State Administration of Press, Publication, Radio, Film, and 
Television, Circular Regarding the Launch of Editorial Staff Job 
Training [Guanyu kaizhan xinwen caibian renyuan gangwei peixun de 
tongzhi], 29 September 13; Benjamin Carlson, ``China Will Require Its 
250,000 Journalists To Pass a `Marxism Test,' '' Global Post, 21 
December 13.
    \121\ State Administration of Press, Publication, Radio, Film, and 
Television, Circular Regarding the Launch of Editorial Staff Job 
Training [Guanyu kaizhan xinwen caibian renyuan gangwei peixun de 
tongzhi], 29 September 13, sec. 3.
    \122\ State Administration of Press, Publication, Radio, Film, and 
Television, Circular Regarding the Situation of the Investigation and 
Handling of Cases of News Organizations and Journalists, Including the 
``Henan Youth Daily,'' Breaking the Law [Guanyu ``henan qingnian bao'' 
deng xinwen danwei he jizhe weifa anjian chachu qingkuang de tongzhi], 
issued 16 June 14. See also Megha Rajagopalan, ``China Bans 
Unauthorized Critical Coverage by Journalists,'' Reuters, 18 June 14.
    \123\ State Administration of Press, Publication, Radio, Film, and 
Television, Measures on the Management of Information Obtained by Press 
Personnel in the Conduct of Their Duties [Xinwen congye renyuan zhiwu 
xingwei xinxi guanli banfa], issued 30 June 14.
    \124\ For more information, see Hannah Beech, ``Weirdly, Chinese 
Journalists Can No Longer Publish `Unpublicized Information,' '' Time, 
9 July 14; Kiki Zhao, ``Chinese Journalists Warned Not To Work With 
Foreign Media,'' New York Times, Sinosphere (blog), 10 July 14.
    \125\ State Administration of Press, Publication, Radio, Film, and 
Television, Measures on the Management of Information Obtained by Press 
Personnel in the Conduct of Their Duties [Xinwen congye renyuan zhiwu 
xingwei xinxi guanli banfa], issued 30 June 14, art. 5.
    \126\ Ibid.
    \127\ Ibid., art. 2.
    \128\ Ibid.
    \129\ ``China Arrests Journalist Who Posted Claims of Graft 
Online,'' Bloomberg, 11 October 13.
    \130\ Ibid.; Patrick Boehler, ``Award-Winning Journalist Luo 
Changping on the State of Chinese Media,'' South China Morning Post, 8 
November 13. For more information on Liu Hu's case, see the 
Commission's Political Prisoner Database record 2013-00315.
    \131\ Simon Denyer, ``Chinese Journalists Face Tighter Censorship, 
Marxist Retraining,'' Washington Post, 10 January 14.
    \132\ Zhang Jialong, ``Circumstances of My Dismissal From 
Tencent,'' reprinted in China Change, 24 May 14; Zhang Jialong, 
``Everything I Wish I'd Told John Kerry,'' Foreign Policy, 19 February 
14.
    \133\ Zhang Hong, ``Hard-Hitting Caijing Editor Luo Changping 
Removed From Post: Sources,'' South China Morning Post, 28 November 13.
    \134\ ``China Detains Assistant at Japanese Newspaper in Latest 
Action Ahead of Tiananmen Anniversary,'' Associated Press, reprinted in 
Fox News, 28 May 14; Hannah Beech, ``Weirdly, Chinese Journalists Can 
No Longer Publish `Unpublicized Information,' '' Time, 9 July 14.
    \135\ Patrick Boehler, ``Award-Winning Journalist Luo Changping on 
the State of Chinese Media,'' South China Morning Post, 8 November 13.
    \136\ See, e.g., Hong Kong Journalists Association, ``First Hong 
Kong Press Freedom Index Announced,'' 23 April 14; Sarah Hoffman, PEN 
American Center, ``Attacks and Censorship in Hong Kong,'' 25 March 14; 
International Federation of Journalists, ``Back to a Maoist Future--
Press Freedom in China 2013,'' January 2014, 38, 41-42, 45-46.
    \137\ Malcolm Moore, ``New York Times and Bloomberg Facing 
Expulsion From China,'' Telegraph, 5 December 13; Damian Grammaticas, 
``Will China Expel Foreign Journalists? '' BBC, 10 December 13; 
``Beijing `Tightens Controls' on Foreign Journalists,'' Radio Free 
Asia, 9 December 13.
    \138\ Foreign Correspondents Club of China, ``FCCC Annual Working 
Conditions Report 2014,'' 30 May 14.
    \139\ Ibid.
    \140\ Mark Landler and David E. Sanger, ``China Pressures U.S. 
Journalists, Prompting Warning From Biden,'' New York Times, 4 December 
13.
    \141\ See, e.g., Mary Kay Magistad, ``Is Beijing About To Pull the 
Plug on Two Major American News Operations in China? '' Public Radio 
International, 12 December 13; Malcolm Moore, ``New York Times and 
Bloomberg Facing Expulsion From China,'' Telegraph, 5 December 13; 
Damian Grammaticas, ``Will China Expel Foreign Journalists? '' BBC, 10 
December 13.
    \142\ China's Treatment of Foreign Journalists, Staff Roundtable of 
the Congressional-Executive Commission on China, 11 December 13, 
Written Statement of the New York Times, Submitted by Jill Abramson, 
Executive Editor, New York Times, Presented by Edward Wong, 
Correspondent, New York Times.
    \143\ Rebecca Valli, ``Tiananmen Crackdown Casts Long Shadow Over 
China's Press,'' Voice of America, 29 May 14; ``Foreign Journalists in 
China Harassed Over Tiananmen Square Anniversary,'' Guardian, 
Greenslade Blog (blog), last visited 31 July 14.
    \144\ Andrew Jacobs, ``Reporter for Reuters Won't Receive China 
Visa,'' New York Times, 9 November 13.
    \145\ Ibid.
    \146\ Emily Rauhala, ``CNN, BBC Reporters Covering China Activist 
Trial Manhandled on Live TV,'' Time, 22 January 14.
    \147\ William Wan, ``China Forces New York Times Reporter To Leave 
Country,'' Washington Post, 30 January 14.
    \148\ Elizabeth M. Lynch, ``Another One Bites the Dust but Does 
Anyone Care? Congress Is Silent as NY Times Reporter Leaves Beijing,'' 
China Law & Policy (blog), 9 February 14. See also Adam Gabbatt, 
``China Forces New York Times Reporter Chris Buckley To Leave 
Country,'' Guardian, 31 December 12; ``Visa Issue in China Forces Out 
Times Reporter,'' New York Times, 31 December 12.
    Notes to Section II--Worker Rights

    \1\ The Network of Chinese Human Rights Defenders and a Coalition 
of NGOs, Report Submitted to the Committee on Economic, Social and 
Cultural Rights for Its Review at the 52nd Session of the Second Report 
by the People's Republic of China on Its Implementation of the 
International Covenant on Economic, Social and Cultural Rights, April 
2014, 4, para. 15.
    \2\ PRC Trade Union Law [Zhonghua renmin gongheguo gonghui fa], 
passed and effective 3 April 92, amended 27 October 01, arts. 9-12; 
Constitution of the Chinese Trade Unions [Zhongguo gonghui zhangcheng], 
adopted 26 September 03, amended 21 October 08, arts. 9, 11.
    \3\ Ibid., arts. 4-6; Constitution of the Chinese Trade Unions 
[Zhongguo gonghui zhangcheng], adopted 26 September 03, amended 21 
October 08, General Principles.
    \4\ Chang Hong, ``ACFTU Membership Reaches 280 Million, Minimum 
Wage Standards Annual Average Increase 12.6 Percent'' [Quanguo gonghui 
huiyuan da 2.8 yi ren zuidi gongzi biaozhun nianjun tigao 12.6%], 
People's Daily, 11 October 13. According to data published in January 
2014 by the National Bureau of Statistics of China, there were 769.77 
million employed persons (jiuye renyuan) in China by the end of 2013. 
See National Bureau of Statistics of China, ``2013 National Economic 
Development Steady for the Better'' [2013 nian guomin jingji fazhan wen 
zhong xiang hao], 20 January 14.
    \5\ Bethany Allen-Ebrahimian, ``The World's Largest Union: `A 
Capitalist Running Dog,' '' Foreign Policy, 23 April 14; Tom Mitchell 
and Demetri Sevastopulo, ``China Labour Activism: Crossing the Line,'' 
Financial Times, 7 May 14.
    \6\ Geoffrey Crothall, ``In China, Labour Activism Is Waking Up,'' 
South China Morning Post, 1 May 14; John Ruwitch, ``Fired From Walmart, 
Mrs. Wang Is Now Gunning for China's State Labor Union,'' Reuters, 11 
May 14.
    \7\ ``Chairman of the All-China Federation of Trade Unions Li 
Jianguo: Firmly Grasp the Themes of the National Workers' Movement'' 
[Zhonghua quanguo zonggonghui zhuxi li jianguo: laolao bawo woguo 
gongren yundong de shidai zhuti], People's Daily, 5 December 13; Chang 
Hong et al., ``Li Jianguo: Advance Migrant Workers and Workers in 
Challenging Enterprises Fair Rights to Social Security'' [Li jianguo: 
cujin nongmingong, kunnan qiye zhigong gongping xiangyou shehui 
baozheng], People's Daily, 18 October 13.
    \8\ ``Speech at All-China Model Worker Representative Forum'' [Zai 
tong quanguo laodong mofan daibiao zuotan shi de jianghua], People's 
Daily, 29 April 13.
    \9\ China Labour Bulletin, ``Searching for the Union: The Workers' 
Movement in China 2011-13,'' February 2014, 38-40.
    \10\ Huang Dan, ``Trade Union Offers Legal Aid to 20 Workers Sacked 
by IBM'' [Gonghui wei 20 ming IBM bei chao yuangong tigong fa yuan], 
Southern Metropolitan Daily, 13 March 14; China Labour Bulletin, 
``Shenzhen Trade Union Seeks To Help Striking Workers Sacked by IBM,'' 
13 March 14.
    \11\ Ibid.
    \12\ China Labour Bulletin, ``The Fast Emerging Labour Movement in 
China and Its Impact on the Country's Future,'' 6 September 13; Tom 
Mitchell and Demetri Sevastopulo, ``China Labour Activism: Crossing the 
Line,'' Financial Times, 7 May 14.
    \13\ Mimi Lau, ``Fertile Ground for Labour Activism,'' South China 
Morning Post, 2 May 14; ``Douban Columnist Shangguan Luan Interview 
With Wang Jiangsong: Most Important Channel To Remove Gap Between 
Intellectuals and Labor--Chinese Labor NGOs Present and Future'' 
[Douban wang zhuanlan zuojia shangguan luan zhuanfang wang jiangsong: 
datong zhishifenzi yu laogong gehe de zhongyao tongdao--zhongguo 
laogong NGO de dangxia yu weilai], Wang Jiangsong Sina Blog, 20 May 14; 
Wang Jing, ``Guangdong Labor Bill Puts HK Companies, Workers at Odds,'' 
Caixin, 23 June 14.
    \14\ ``Douban Columnist Shangguan Luan Interview With Wang 
Jiangsong: Most Important Channel To Remove Gap Between Intellectuals 
and Labor--Chinese Labor NGOs Present and Future'' [Douban wang 
zhuanlan zuojia shangguan luan zhuanfang wang jiangsong: datong 
zhishifenzi yu laogong gehe de zhongyao tongdao--zhongguo laogong NGO 
de dangxia yu weilai], Wang Jiangsong Sina Blog, 20 May 14; Ivan 
Franceschini, ``Labour NGOs in China: A Real Force for Political 
Change? '' China Quarterly, Vol. 218 (June 2014), 482-83.
    \15\ Geoffrey Crothall, ``Striking Behavior: Chinese Workers 
Discover a Weapon Against Labour-Market Turmoil,'' openDemocracy, 29 
March 14; ``Douban Columnist Shangguan Luan Interview With Wang 
Jiangsong: Most Important Channel To Remove Gap Between Intellectuals 
and Labor--Chinese Labor NGOs Present and Future'' [Douban wang 
zhuanlan zuojia shangguan luan zhuanfang wang jiangsong: datong 
zhishifenzi yu laogong gehe de zhongyao tongdao--zhongguo laogong NGO 
de dangxia yu weilai], Wang Jiangsong Sina Blog, 20 May 14.
    \16\ See, e.g., China Labour Bulletin, ``The Making of a Labour 
Activist,'' 14 November 13; China Labour Bulletin, ``Playing Hardball: 
Workers Solidarity Forces Boss To Make Concessions,'' 7 November 13; 
Mimi Lau, ``Fertile Ground for Labour Activism,'' South China Morning 
Post, 2 May 14.
    \17\ See, e.g., China Labour Bulletin, ``The Making of a Labour 
Activist,'' 14 November 13; China Labour Bulletin, ``Playing Hardball: 
Workers Solidarity Forces Boss To Make Concessions,'' 7 November 13.
    \18\ Dexter Roberts, ``China's Officials Muzzle Labor Activists,'' 
Bloomberg Businessweek, 8 May 14; Mimi Lau, ``Fertile Ground for Labour 
Activism,'' South China Morning Post, 2 May 14.
    \19\ Ibid.
    \20\ Mimi Lau, ``Fertile Ground for Labour Activism,'' South China 
Morning Post, 2 May 14; Ivan Franceschini, ``Labour NGOs in China: A 
Real Force for Political Change? '' China Quarterly, Vol. 218 (June 
2014), 482-84.
    \21\ ``Assisting Striking Workers at Dongguan Yue Yuen in Rights 
Defense, Two Labor Organization Staff `Go Missing' '' [Zhu dongguan yu 
yuan gongren bagong weiquan liang laogong zuzhi chengyuan ``bei 
shizong''], Radio Free Asia, 23 April 14; Rights Defense Network, 
``Shenzhen Labor Organization Staff Taken Away by Police in Dongguan'' 
[Shenzhen laogong zuzhi yuangong zai dongguan bei jingfang daizou], 13 
April 14. For more information on the detention of Lin Dong, see the 
Commission's Political Prisoner Database record 2014-00171.
    \22\ ``Assisting Striking Workers at Dongguan Yue Yuen in Rights 
Defense, Two Labor Organization Staff `Go Missing' '' [Zhu dongguan yu 
yuan gongren bagong weiquan liang laogong zuzhi chengyuan ``bei 
shizong''], Radio Free Asia, 23 April 14; ``Chinese Shoe Strike 
Activist Held on Public Order Charges,'' Radio Free Asia, 30 April 14.
    \23\ Hong Kong Federation of Trade Unions, Submission to the 
Committee on Economic, Social and Cultural Rights (CESCR) on the 
Implementation of the International Covenant on Economic, Social and 
Cultural Rights (ICESCR) in the Hong Kong Special Administrative Region 
(HKSAR) and the Mainland, China, March 2014; Chris King-Chi Chan and 
Elaine Sio-ieng Hui, ``The Development of Collective Bargaining in 
China: From `Collective Bargaining by Riot' to `Party State-Led Wage 
Bargaining,' '' China Quarterly, Vol. 217 (March 2014), 226.
    \24\ Hong Kong Federation of Trade Unions, Submission to the 
Committee on Economic, Social and Cultural Rights (CESCR) on the 
Implementation of the International Covenant on Economic, Social and 
Cultural Rights (ICESCR) in the Hong Kong Special Administrative Region 
(HKSAR) and the Mainland, China, March 2014.
    \25\ ``Zhang Jianguo: Status and Purpose of Constructing a 
Collective Consultation System in Deepening Reform'' [Zhang jianguo: 
jiti xieshang zhidu jianshe zai shenhua gaige zhong de diwei zuoyong], 
Workers' Daily, 22 April 14; Wang Jiaoping et al., ``Labor Capital 
Collective Consultations Three Year Work Plan Mission Complete'' 
[Gongzi jiti xieshang gongzuo san nian guihua renwu wancheng], All-
China Federation of Trade Unions, 25 December 13.
    \26\ Ministry of Human Resources and Social Security, Notice 
Regarding Promoting Implementation of Collective Contract System Attack 
Plan [Guanyu tuijin shishi jiti hetong zhidu gong jian jihua de 
tongzhi], 14 April 14.
    \27\ Mimi Lau, ``Guangdong Collective Bargaining Proposal Seen as 
Bellwether for China,'' South China Morning Post, 6 July 14; Wang Jing, 
``Wrestling With Collective Labor Consultations'' [Jueli laogong jiti 
xieshang], Caixin, 16 June 14; Wang Jing, ``Guangdong Labor Bill Puts 
HK Companies, Workers at Odds,'' Caixin, 23 June 14.
    \28\ Wang Jing, ``Guangdong Labor Bill Puts HK Companies, Workers 
at Odds,'' Caixin, 23 June 14; Wang Jing, ``Wrestling With Collective 
Labor Consultations'' [Jueli laogong jiti xieshang], Caixin, 16 June 
14.
    \29\ Ibid.
    \30\ Wang Jing, ``Wrestling With Collective Labor Consultations'' 
[Jueli laogong jiti xieshang], Caixin, 16 June 14; Chris King-Chi Chan 
and Elaine Sio-ieng Hui, ``The Development of Collective Bargaining in 
China: From `Collective Bargaining by Riot' to `Party State-Led Wage 
Bargaining,' '' China Quarterly, Vol. 217 (March 2014), 226-27.
    \31\ Chris King-Chi Chan and Elaine Sio-ieng Hui, ``The Development 
of Collective Bargaining in China: From `Collective Bargaining by Riot' 
to `Party State-Led Wage Bargaining,' '' China Quarterly, Vol. 217 
(March 2014), 227.
    \32\ Ibid., 226.
    \33\ Ibid.
    \34\ China Labour Bulletin, ``Protecting Workers' 
Representatives,'' 7 December 12. See also ``Detention of Labor 
Representative Highlights Challenges for Collective Bargaining in 
China,'' Congressional-Executive Commission on China, 20 December 13.
    \35\ ``Worker Representative Faces Criminal Responsibility, 10 
Labor Organizations Issue Joint Protest Declaration'' [Gongren daibiao 
mianlin xingze shi laogong zuzhi lianshu kangyi], Radio Free Asia, 26 
September 13. See also ``Detention of Labor Representative Highlights 
Challenges for Collective Bargaining in China,'' Congressional-
Executive Commission on China, 20 December 13. For additional 
information on Wu Guijun's case, see the Commission's Political 
Prisoner Database record 2013-00316.
    \36\ China Labour Bulletin, ``Public Outcry Grows Over Shenzhen 
Labour Activist's Five Month Detention,'' 18 October 13. See also 
``Detention of Labor Representative Highlights Challenges for 
Collective Bargaining in China,'' Congressional-Executive Commission on 
China, 20 December 13. For additional information on Wu Guijun's case, 
see the Commission's Political Prisoner Database record 2013-00316.
    \37\ China Labour Bulletin, ``Third Hearing in Trial of Labour 
Activist Wu Guijun Gets Underway in Shenzhen,'' 13 May 14; China Labour 
Bulletin, ``Shenzhen Authorities Drop Charges Against Labour Activist 
Wu Guijun,'' 9 June 14. For additional information on Wu Guijun's case, 
see the Commission's Political Prisoner Database record 2013-00316.
    \38\ ``Beiguo: Labor Leader Wu Guijun, Imprisoned Under Stability 
Maintenance, Finally Obtains State Compensation'' [Beiguo: laogong 
lingxiu wu guijun bei weiwen ruyu zhong huo guojia peichang], New 
Citizens' Movement, 11 August 14.
    \39\ Wang Jing, ``Expert Lawyers Recommend Revising `Trade Union 
Law' Article'' [Zhuanjia lushi jianyi xiugai gonghui fa tiaokuan], 
Caixin, 23 May 14.
    \40\ Ibid.
    \41\ China Labour Bulletin, ``Searching for the Union: The Workers' 
Movement in China 2011-13,'' February 2014, chaps. 2-3, 17, 25-31; 
Geoffrey Crothall, ``Striking Behaviour: Chinese Workers Discover a 
Weapon Against Labour-Market Turmoil,'' openDemocracy, 29 March 14; 
Alexandra Harney, ``China's Workforce: Smaller, More Savvy, More 
Restive,'' Reuters, 17 April 14.
    \42\ See, e.g., ``Several Hundred Workers at Lutianhua in Sichuan 
Block Roads Protesting Increased Work Hours Without Raise in Wages'' 
[Sichuan lutianhua shubai gongren dulu kangyi gongshi zengjia daiyu wei 
tigao], Radio Free Asia, 10 February 14; Amy Li, ``Guangzhou Bank 
Security Van Workers End Strike After Management Agrees Pay Deal,'' 
South China Morning Post, 17 February 14; ``Close to One Hundred 
Workers Strike at Foxconn Factory in Chongqing'' [Fushikang chongqing 
changfang jin bai gongren bagong], Radio Free Asia, 13 December 13.
    \43\ See, e.g., ``Doctors, Nurses and Workers Suppressed for 
Petitioning for Wages'' [Yihu, gongren shangfang tao xin jun shou 
zhenya], Radio Free Asia, 6 March 14; ``China Steel Plant Halts as 
Workforce Protests Over Unpaid Wages,'' Radio Free Asia, 16 September 
13; ``Over a Hundred Workers Striking, Blocking Factory Gate in 
Shanghai Arrested and Beaten, Boss in Guangdong Runs Out as Workers 
Block Road, 40 People Arrested'' [Shanghai yu bai gongren du chang men 
bei zhua da guangdong laoban paolu gongren dulu 40 ren bei zhua], Radio 
Free Asia, 20 February 14.
    \44\ John Ruwitch, ``China Strike Illustrates Shift in Labor 
Landscape,'' New York Times, 10 March 14; China Labour Bulletin, 
``Searching for the Union: The Workers' Movement in China 2011-13,'' 
February 2014, chap. 1, 7-10.
    \45\ ``Striking Chinese Workers Are a Headache for Nike, IBM, 
Secret Weapon for Beijing,'' Bloomberg, 6 May 14; Tom Mitchell and 
Demetri Sevastopulo, ``China Labour Activism: Crossing the Line,'' 
Financial Times, 7 May 14; Alexandra Harney, ``China's Workforce: 
Smaller, More Savvy, More Restive,'' Reuters, 17 April 14.
    \46\ ``Striking Chinese Workers Are a Headache for Nike, IBM, 
Secret Weapon for Beijing,'' Bloomberg, 6 May 14; Liyan Qi, ``China To 
Offer Subsidies to Firms Hit by Overcapacity,'' Wall Street Journal, 7 
May 14; Wayne Ma and Chuin-Wei Yap, ``First Up on the Reform Plans: 
Tackling Overcapacity,'' Wall Street Journal, 15 November 13.
    \47\ See, e.g., ``Week Long Strike at Towada Electronics Factory, 
Factory Management Issues Ultimatum'' [Shihetian dianzi chang bagong yi 
zhou changfang fa zuihoutongdie], Radio Free Asia, 13 November 13; 
``Two Electronics Factories in Guangdong Strike, Over a Thousand 
Workers at Shenzhen Factory Participate'' [Yue liang dianzi chang 
bagong shenzhen changfang guo qian ren canyu], Radio Free Asia, 31 
October 13; ``Electronics Factory To Close, Two Thousand Workers Strike 
for Compensation'' [Dianzi chang jiang jieye liang qian gongren zheng 
peichang bagong], Radio Free Asia, 25 February 14.
    \48\ See, e.g., ``Over a Thousand Workers Strike, Dissatisfied With 
Benefits Reduction'' [Qian duo gongren bagong buman fuli bei xue], 
Radio Free Asia, 2 December 13; ``Two Large Scale Factories in Shenzhen 
Troubled by Strikes'' [Shenzhen liang daxing gongchang nao gong chao], 
Radio Free Asia, 15 November 13; ``Two Thousand Workers Strike at 
Japanese-Financed Dongguan Electronics Factory Protesting Salary 
Deductions'' [Dongguan ri zi dianzi chang liang qian gongren bagong 
kangyi kou xin], Radio Free Asia, 18 September 13.
    \49\ ``Striking Chinese Workers Are Headache for Nike, IBM, Secret 
Weapon for Beijing,'' Bloomberg, 6 May 14; John Ruwitch, ``China Strike 
Illustrates Shift in Labor Landscape,'' Reuters, reprinted in New York 
Times, 10 March 14; Geoffrey Crothall, ``In China, Labour Activism Is 
Waking Up,'' South China Morning Post, 1 May 14.
    \50\ China Labour Bulletin, ``Searching for the Union: The Workers' 
Movement in China 2011-13,'' February 2014, 46; Alexandra Harney, 
``China's Workforce: Smaller, More Savvy, More Restive,'' Reuters, 17 
April 14; Zhang Yiwei, ``Wave of Strikes Shows Neglect of Labor 
Rights,'' Global Times, 22 April 14.
    \51\ Dan Levin, ``Plying Social Media, Chinese Workers Grow Bolder 
in Exerting Clout,'' New York Times, 2 May 14.
    \52\ Zhang Yiwei, ``Wave of Strikes Shows Neglect of Labor 
Rights,'' Global Times, 22 April 14; Geoffrey Crothall, ``Striking 
Behavior: Chinese Workers Discover a Weapon Against Labour-Market 
Turmoil,'' openDemocracy, 29 March 14.
    \53\ Dan Levin, ``Plying Social Media, Chinese Workers Grow Bolder 
in Exerting Clout,'' New York Times, 2 May 14.
    \54\ ``Striking Chinese Workers Are Headache for Nike, IBM, Secret 
Weapon for Beijing,'' Bloomberg, 6 May 14; China Labour Bulletin, 
``Searching for the Union: The Workers' Movement in China 2011-13,'' 
February 2014, chap. 4, 32-33.
    \55\ See, e.g., ``Construction Contractor Owes 5 Million in Back 
Wages, Dozens of Workers Demanding Salaries Encounter Stability 
Maintenance'' [Jianzhu chengbaoshang qianxin wu baiwan shu shi ming 
gongren tao xin zao weiwen], Radio Free Asia, 16 January 14; ``Over a 
Hundred Workers Striking, Blocking Factory Gate in Shanghai Arrested 
and Beaten, Boss in Guangdong Runs Out as Workers Block Road, 40 People 
Arrested'' [Shanghai yu bai gongren du chang men bei zhua da guangdong 
laoban paolu gongren dulu 40 ren bei zhua], Radio Free Asia, 20 
February 14.
    \56\ Alexandra Harney, ``China's Workforce: Smaller, More Savvy, 
More Restive,'' Reuters, 17 April 14.
    \57\ ``12 Guangzhou Rights Defense Workers Are Collectively 
Arrested by Authorities, Citizen Watch Group in Guo Feixiong Case Calls 
Again for His Release'' [Guangzhou 12 ming weiquan gongren zao dangju 
jiti daibu guo feixiong an gongmin guancha tuan fasheng zai huyu fang 
ren], Radio Free Asia, 3 October 13; China Labour Bulletin, ``Hospital 
Security Guards Detained for 50 Days After Staging Protest,'' 8 October 
13. For more information on the 12 security guards and their cases, see 
the following records in the Commission's Political Prisoner Database: 
2014-00026 on Meng Han; 2014-00027 on Ou Guanglong; 2014-00028 on Ma 
Qing; 2014-00029 on He Tao; 2014-00030 on Hu Zhihui; 2014-00031 on Gu 
Dalu; 2014-00032 on Zhang Ke; 2014-00033 on Zhong Rujiao; 2014-00034 on 
Li Bin; 2014-00035 on Yang Yanguang; 2014-00036 on Chen Tao; and 2014-
00037 on Zheng Jianfeng.
    \58\ ``Verdict Announced Today in First Large Scale Arrest and 
Prosecution of Rights Defense Workers: 12 Coworkers Sentenced'' [Shouci 
daguimo daibu qisu weiquan gongren jin xuanpan: 12 ming gongyou bei 
panxing], New Citizens Movement, 15 April 14. For more information on 
the 12 security guards and their cases, see the following records in 
the Commission's Political Prisoner Database: 2014-00026 on Meng Han; 
2014-00027 on Ou Guanglong; 2014-00028 on Ma Qing; 2014-00029 on He 
Tao; 2014-00030 on Hu Zhihui; 2014-00031 on Gu Dalu; 2014-00032 on 
Zhang Ke; 2014-00033 on Zhong Rujiao; 2014-00034 on Li Bin; 2014-00035 
on Yang Yanguang; 2014-00036 on Chen Tao; and 2014-00037 on Zheng 
Jianfeng.
    \59\ China Labour Bulletin, ``Several Guangzhou Hospital Security 
Guards Vow To Appeal Jail Sentences,'' 15 April 14.
    \60\ National Bureau of Statistics of China, ``2013 Nationwide 
Migrant Worker Monitoring Survey Report of China'' [2013 nian quanguo 
nongmingong jiance diaocha baogao], 12 May 14.
    \61\ Ibid.; ``Investigation on Migrant Workers' Integration Into 
Cities: Without Enough Points, Children Unable To Attend Public Primary 
Schools'' [Nongmingong rongru chengshi diaocha: jifen bugou zinu wufa 
du gongban xiaoxue], People's Daily, reprinted in China News Service, 8 
December 13; Zhuang Pinghui, ``Chinese Migrants Seek More Stability in 
New Homes,'' South China Morning Post, 11 September 13.
    \62\ Huang Yueping, Beijing Yilian Labor Legal Aid and Research 
Center, ``When Will Migrant Workers Circle Around the `China Dream? ' 
'' [Nongmingong heshi yuan shang ``zhongguo meng''], 13 September 13; 
Amnesty International, China: Submission to the UN Committee on 
Economic, Social and Cultural Rights, 52nd Session, May 2014, ASA 17/
014/2014, March 2014, chaps. 1.3, 7.
    \63\ Amnesty International, China: Submission to the UN Committee 
on Economic, Social and Cultural Rights, 52nd Session, May 2014, ASA 
17/014/2014, March 2014, chaps. 1.3, 7; Dexter Roberts, ``China's 
Migrant Workers Want Their Children,'' Bloomberg Businessweek, 10 
January 14.
    \64\ Ibid.
    \65\ National Bureau of Statistics of China, 2013 Nationwide 
Migrant Worker Monitoring Survey Report [2013 nian quanguo nongmingong 
jiance diaocha baogao], 12 May 14.
    \66\ Ibid.
    \67\ ``Labor Dispatch and Labor Agencies'' [Laowu paiqian yu laowu 
zhongjie], Jilin Worker News, reprinted in China Trade Union Net, 12 
March 14.
    \68\ Article 66 of the PRC Labor Contract Law states that ``labor 
dispatch generally carries out temporary, supplementary, or 
substitution work positions.'' PRC Labor Contract Law [Zhonghua renmin 
gongheguo laodong hetong fa], issued 29 June 07, effective 1 January 
08, amended 28 December 12, art. 66.
    \69\ China Labour Bulletin, ``Labour Rights Groups and Workers Call 
for Action on China's Employment Agencies,'' 10 September 13; Lin Jia, 
`` `Fixed Definition + Fixed Quantity' Will Limit Misuse of Labor 
Dispatch'' [``Dingxing + dingliang'' ezhi laowu paiqian lanyong], 
Workers' Daily, 27 January 14.
    \70\ Sources citing data from the All-China Federation of Trade 
Unions in 2011 report the total number of dispatch workers in China was 
37 million; however, other reports provide estimates that range between 
10 million and 60 million. See Zhang Zhilong et al., ``Xinhua 
Viewpoint: Labor Dispatch Personnel's `Equal Pay for Unequal Work' 
Problem Draws Concern'' [Xinhua shidian: laowu paiqian renyuan 
``tonggong bu tongchou'' wenti yin guanzhu], Xinhua, 16 January 13; 
Mary Gallagher et al., ``China's 2008 Labor Contract Law: 
Implementation and Implications for China's Workers,'' World Bank, 
Policy Research Working Paper 6542, July 2013, 16; China Labour 
Bulletin, ``Labour Rights Groups and Workers Call for Action on China's 
Employment Agencies,'' 10 September 13.
    \71\ See National People's Congress, Decision of the Standing 
Committee of the National People's Congress Regarding Amendments to 
``PRC Labor Contract Law'' [Quanguo renmin daibiao dahui 
changwuweiyuanhui guanyu xiugai ``zhonghua renmin gongheguo laodong 
hetong fa'' de jueding], issued 28 December 12, effective 1 July 13; 
CECC, 2013 Annual Report, 10 October 13, 71-72.
    \72\ National People's Congress, Decision of the Standing Committee 
of the National People's Congress Regarding Amendments to ``PRC Labor 
Contract Law'' [Quanguo renmin daibiao dahui changwuweiyuanhui guanyu 
xiugai ``zhonghua renmin gongheguo laodong hetong fa'' de jueding], 
issued 28 December 12, effective 1 July 13, arts. 57, 63, 66.
    \73\ Jiang Gang et al., ``To Evade New Regulations, Enterprises 
Have Hundreds of Tricks, Equal Pay for Equal Work Becomes `A Right on 
Paper' '' [Guibi xin gui qiye huayang bai chu tonggong tongchou cheng 
``zhi shang quanli''], China Comment, reprinted in China News Service, 
1 November 13; Wang Weijian et al., ``How To Use `Temporary Workers' Is 
a Big Headache for Work Units'' [``Linshigong'' za yong, danwei hen 
touteng], People's Daily, 6 May 14.
    \74\ Ibid.
    \75\ Jiang Gang et al., ``To Evade New Regulations, Enterprises 
Have Hundreds of Tricks, Equal Pay for Equal Work Becomes `A Right on 
Paper' '' [Guibi xin gui qiye huayang bai chu tonggong tongchou cheng 
``zhi shang quanli''], China Comment, reprinted in China News Service, 
1 November 13.
    \76\ Ibid.
    \77\ Ministry of Human Resources and Social Security, Interim 
Provisions on Labor Dispatch [Laowu paiqian zanxing guiding], issued 26 
January 14, effective 1 March 14.
    \78\ `` `Fixed Definition + Fixed Quantity' Will Limit Misuse of 
Labor Dispatch'' [``Dingxing + dingliang'' ezhi laowu paiqian lanyong], 
Workers' Daily, 27 January 14.
    \79\ Ministry of Human Resources and Social Security, Interim 
Provisions on Labor Dispatch [Laowu paiqian zanxing guiding], issued 26 
January 14, effective 1 March 14, arts. 5-7, 12-17.
    \80\ Ibid., arts. 9, 18-19.
    \81\ Ibid., art. 10.
    \82\ Ibid., art. 4.
    \83\ Ibid., art. 28.
    \84\ Li Peike, ``Standardizing Labor Dispatch Depends on Strength 
of Enforcement'' [Guifan laowu paiqian guanjian hai yaokan zhixingli], 
Lanzhou Daily, 13 May 14; Cao Yongquan, ``[Exploring the Labor 
Movement] Analysis of Highlights and Effects of the Interim Provisions 
on Labor Dispatch'' [``Gongyun tantao'' qianxi ``laowu paiqian zhanxing 
guiding'' de liangdian ji qi yingxiang], Workers' Daily, 18 March 14; 
Jin Yanming, ``Dispatch Labor Not To Exceed 10 Percent Overall'' 
[Paiqian yonggong bude chao zongliang 10%], Southern Daily, 5 March 14.
    \85\ Jin Yanming, ``Dispatch Labor Not To Exceed 10 Percent 
Overall'' [Paiqian yonggong bude chao zongliang 10%], Southern Daily, 5 
March 14.
    \86\ ILO Convention (No. 138) Concerning Minimum Age for Admission 
to Employment, 26 June 73; ILO Convention (No. 182) Concerning the 
Prohibition and Immediate Action for the Elimination of the Worst Forms 
of Child Labour, 17 June 99; International Labour Organization, 
``Ratifications of C138--Minimum Age Convention, 1973 (No. 138),'' last 
visited 16 July 14; International Labour Organization, ``Ratifications 
of C182--Worst Forms of Child Labour Convention, 1999 (No. 182),'' last 
visited 16 July 14.
    \87\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 
July 94, effective 1 January 95, amended 10 October 01, arts. 15, 94. 
Article 15 of the PRC Labor Law prohibits an employer from hiring 
minors under the age of sixteen, with exceptions made for institutions 
of literature, art, physical culture, and special crafts which may 
employ minors through prior examination and approval of the government 
authorities while also ensuring their right to receive a compulsory 
education. See also PRC Law on the Protection of Minors [Zhonghua 
renmin gongheguo wei chengnian ren baohu fa], passed 4 September 91, 
effective 1 January 92, arts. 28, 49. See generally Provisions on 
Prohibiting the Use of Child Labor [Jinzhi shiyong tonggong guiding], 
issued 1 October 02, effective 1 December 02.
    \88\ International Labour Organization, ``Observation (CEACR)--
C138--Minimum Age Convention, 1973 (No. 138)--China,'' adopted 2010, 
published 100th ILC Session 2011.
    \89\ ``Two Companies in Shenzhen Confirmed To Have Illegally Used 
Child Labor Are Fined 10,000 and 35,000 Yuan'' [Shenzhen liang qiye bei 
zhengshi feifa shiyong tonggong fenbie bei fa 1 wan he 3.5 wan yuan], 
Southern Weekend, 21 January 14; ``18 Child Laborers Discovered in 
Rented Room in Taizhou, Zhejiang, Youngest Is 10 Years Old'' [Zhejiang 
taizhou yi chuzu wu nei xian 18 ming tonggong zui xiao 10 sui], China 
Central Television, reprinted in Sohu, 4 April 14.
    \90\ ``15 Year Old Child Worker at Taiwanese Subcontractor Factory 
in Shanghai for Apple Dies of Illness, 4 Deaths in Half a Year Point to 
Overwork as Main Cause'' [Hu pingguo taizi daigongchang 15 sui tonggong 
bingshi bannian 4 si guolao bei zhi zhuyin], Radio Free Asia, 13 
December 13.
    \91\ ``A Factory in Shenzhen Employs Large Number of 12-Year-Old 
Girls'' [Shenzhen yi gongchang guyong daliang 12 sui nutong], Radio 
Free Asia, 31 December 13; ``18 Child Laborers Discovered in Rented 
Room in Taizhou, Zhejiang, Youngest Is 10 Years Old'' [Zhejiang taizhou 
yi chuzu wu nei xian 18 ming tonggong zui xiao 10 sui], China Central 
Television, reprinted in Sohu, 4 April 14.
    \92\ ``Two Companies in Shenzhen Confirmed To Have Illegally Used 
Child Labor Are Fined 10,000 and 35,000 Yuan'' [Shenzhen liang qiye bei 
zhengshi feifa shiyong tonggong fenbie bei fa 1 wan he 3.5 wan yuan], 
Southern Weekend, 21 January 14; ``A Factory in Shenzhen Employs Large 
Number of 12 Year Old Girls'' [Shenzhen yi gongchang guyong daliang 12 
sui nutong], Radio Free Asia, 31 December 13. While 9 workers were 
confirmed as being underage, investigators were not able to verify 
identification information for an additional 20 workers.
    \93\ China Labour Bulletin, ``Chinese Media Uncovers Another Case 
of Child Labour Trafficking in Shenzhen,'' 30 December 13.
    \94\ Ibid.
    \95\ State Council, Provisions on Prohibiting the Use of Child 
Labor [Jinzhi shiyong tonggong guiding], issued 1 October 02, effective 
1 December 02, art. 13.
    \96\ PRC Education Law [Zhonghua renmin gongheguo jiaoyu fa], 
passed 18 March 95, effective 1 September 95, amended 27 August 09, 
art. 58.
    \97\ See, e.g., Sarah Mishkin, ``Foxconn Admits Student Intern 
Labour Violations at China Plant,'' Financial Times, 10 October 13; 
``Foshan 16 Year Old Vocational Student Dies From Overwork in Forced 
Internship'' [Foshan 16 sui zhongzhuansheng bei qiangpo shixi guolao 
si], Radio Free Asia, 8 October 13.
    \98\ See ILO Convention (No. 138) Concerning Minimum Age for 
Admission to Employment, 26 June 73. ILO guidelines on the subject of 
vocational training, apprenticeships and related internships vis-a-vis 
child labor permits such work ``in accordance with conditions 
prescribed by the competent authority'' and in programs involving 
education, training, or ``guidance or orientation [on] . . . the choice 
of an occupation or of a line of training.'' ILO Recommendation 146 on 
the Minimum Age for Admission to Employment, 26 June 73, item 12.2. 
Furthermore, the General Conference of the International Labour 
Organization adopted Recommendation 146 relating to the 1973 Minimum 
Age Convention, which urged that measures ``be taken to safeguard and 
supervise the conditions in which children and young persons undergo 
vocational orientation and training within undertakings, training 
institutions and schools for vocation or technical education and to 
formulate standards for their protection and development.'' See 
International Labour Organization (ILO), Convention Concerning Forced 
or Compulsory Labour (No. 29), adopted by 14th ILC Session, 28 June 30, 
entry into force 1 May 32; International Labour Office, ``General 
Survey Concerning the Forced Labour Convention, 1930 (No. 29), and the 
Abolition of Forced Labor Convention, 1957 (No. 105),'' International 
Labour Conference, 96th Session, 2007, 19-20. ILO's Committee of 
Experts noted that vocational training does not necessarily constitute 
compulsory work or service within the meaning of the Forced Labour 
Convention (No. 29), but states that `` . . . vocational training 
usually entails a certain amount of practical work, and for that 
reason, the distinction between training and employment is sometimes 
difficult to draw. It is therefore only by reference to the various 
elements involved in the general context of a particular scheme of 
training that it becomes possible to determine whether such scheme is 
unequivocally one of vocational training or on the contrary involves 
the exaction of work or service within the definition of `forced or 
compulsory labor.' ''
    \99\ International Labour Organization, Convention concerning 
Forced or Compulsory Labour (No. 29), adopted by 14th ILC Session, 28 
June 30, entry into force 1 May 32, art. 2.2(c); International Labour 
Organization, Convention concerning the Abolition of Forced Labour (No. 
105), adopted by 40th ILC Session, 25 June 57, entry into force 17 
January 59, art. 1. Article 2.2(c) of the Convention concerning Forced 
or Compulsory Labour allows for ``any work or service exacted from any 
person as a consequence of a conviction in a court of law, provided 
that the said work or service is carried out under the supervision and 
control of a public authority and that the said person is not hired to 
or placed at the disposal of private individuals, companies or 
associations.''
    \100\ See, e.g., Asia Catalyst, `` `Custody and Education': 
Arbitrary Detention for Female Sex Workers in China,'' December 2013, 
8, 20, 25-27; Amnesty International, China: Submission to the UN 
Committee on Economic, Social and Cultural Rights, 52nd Session, May 
2014, ASA 17/014/2014, March 2014, 5-6.
    \101\ International Labour Organization, Convention concerning 
Forced or Compulsory Labour (No. 29), adopted by 14th ILC Session, 28 
June 30, entry into force 1 May 32, art. 2.2(c).
    \102\ See, e.g., ``China Has Many Forms of Arbitrary Detention, 
Lawyers Say,'' Radio Free Asia, 19 November 13; Amnesty International, 
China: Submission to the UN Committee on Economic, Social and Cultural 
Rights, 52nd Session, May 2014, ASA 17/014/2014, March 2014, 5-6.
    \103\ International Labour Organization, Convention concerning the 
Abolition of Forced Labour (No. 105), adopted by 40th ILC Session, 25 
June 57, entry into force 17 January 59, art. 1(a).
    \104\ Amnesty International, China: Submission to the UN Committee 
on Economic, Social and Cultural Rights, 52nd Session, May 2014, ASA 
17/014/2014, March 2014, 6.
    \105\ International Labour Organization, Convention concerning the 
Abolition of Forced Labour (No. 105), adopted by 40th ILC Session, 25 
June 57, entry into force 17 January 59, art. 1(b). For a report on the 
use of prison labor for the purpose of profit-making, see Chai Huiqun, 
``Confessions of Disgraced RTL Officers'' [Luoma laojiao jingcha de 
jiantao], Southern Weekend, 2 May 13.
    \106\ Frank Langfitt, ``U.S. Teacher: I Did Seven Months of Forced 
Labor in a Chinese Jail,'' National Public Radio, 29 May 14.
    \107\ Ibid.
    \108\ International Labour Organization, ``Ratifications of 
Fundamental Human Rights Conventions by Country,'' last visited 6 
September 13; International Labour Organization, ILO Declaration on 
Fundamental Principles and Rights at Work, 18 June 98, art. 2. Other 
rights member countries are obligated to respect include the effective 
abolition of child labor; the elimination of discrimination in respect 
of employment and occupation; and freedom of association and the 
``effective recognition'' of the right to collective bargaining.
    \109\ Decision of the Standing Committee of the National People's 
Congress on Abolishing Laws and Regulations Related to Reeducation 
Through Labor [Quanguo renmin daibiao dahui changwu weiyuanhui guanyu 
feizhi youguan laodong jiaoyang falu guiding de jueding], issued and 
effective, 28 December 13.
    \110\ ``Prospects for Reforming China's Reeducation Through Labor 
System,'' Congressional-
Executive Commission on China, 9 May 13, 2-3, 4, 6; John Dotson and 
Teresa Vanfleet, U.S.-China Economic and Security Review Commission, 
``Prison Labor Exports From China and Implications for U.S. Policy,'' 9 
July 14, 5.
    \111\ Amnesty International, `` `Changing the Soup but Not the 
Medicine? ': Abolishing Re-
Education Through Labour in China,'' ASA 17/042/2013, 17 December 13, 
5; Human Rights Watch, ``China: Fully Abolish Re-Education Through 
Labor,'' 8 January 13; Chinese Human Rights Defenders, ``[CHRB] Lawyers 
Warn Against Other Forms of Arbitrary Detention To Replace RTL (11/14-
11/20, 2013),'' 21 November 13; Rights Defense Network, ``Statement of 
Chinese Lawyers for the Protection of Human Rights on Issues Related to 
the Abolition of the Reeducation Through Labor System'' [Zhongguo 
baozhang renquan lushituan lushi dui laojiao zhidu feizhi xiangguan 
wenti de shengming], 19 November 13.
    \112\ Amnesty International, `` `Changing the Soup but Not the 
Medicine? ': Abolishing Re-
Education Through Labour in China,'' ASA 17/042/2013, 17 December 13, 
8-9, 39-41; Chinese Human Rights Defenders, ``A Nightmarish Year Under 
Xi Jinping's `Chinese Dream': 2013 Annual Report on the Situation of 
Human Rights Defenders in China,'' March 2014, 4-5, 7-8; Amnesty 
International, ``China: Submission to the UN Committee on Economic, 
Social and Cultural Rights, 52nd Session, May 2014,'' ASA 17/014/2014, 
March 2014, 5-6.
    \113\ Frank Langfitt, ``U.S. Teacher: I Did Seven Months of Forced 
Labor in a Chinese Jail,'' National Public Radio, 29 May 14; U.S. 
Department of Labor, List of Goods Produced by Child Labor or Forced 
Labor, last visited 26 August 14; Lisa Murray and Angus Grigg, ``Qantas 
in China Prison Labour Row,'' Australian Financial Review, 26 June 13; 
Frank Langfitt, ``Ex-
Inmates Speak Out About Labor Camps as China Considers `Reforms,' '' 
National Public Radio, 22 February 13.
    \114\ See, e.g., Frank Langfitt, ``U.S. Teacher: I Did Seven Months 
of Forced Labor in a Chinese Jail,'' National Public Radio, 29 May 14; 
John Dotson and Teresa Vanfleet, U.S.-China Economic and Security 
Review Commission, ``Prison Labor Exports From China and Implications 
for U.S. Policy,'' 9 July 14, 7-10.
    \115\ Memorandum of Understanding Between the United States of 
America and the People's Republic of China on Prohibiting Import and 
Export Trade in Prison Labor Products, effective 7 August 92; Statement 
of Cooperation on the Implementation of the Memorandum of Understanding 
Between the United States of America and the People's Republic of China 
on Prohibiting Import and Export Trade in Prison Labor Products, 14 
March 94.
    \116\ Shujie Leng, ``Made in China--But Was It Made in a Prison? '' 
National Public Radio, 29 March 14; John Dotson and Teresa Vanfleet, 
U.S.-China Economic and Security Review Commission, ``Prison Labor 
Exports From China and Implications for U.S. Policy,'' 9 July 14, 5-6, 
11-12.
    \117\ See, e.g., Frank Langfitt, ``U.S. Teacher: I Did Seven Months 
of Forced Labor in a Chinese Jail,'' National Public Radio, 29 May 14.
    \118\ China Labour Bulletin, ``Wages in China,'' last visited 8 
July 14.
    \119\ Julie Zhu, ``Is the Manufacturing Industry Withdrawing From 
the Pearl River Delta? '' [Zhizaoye chili zhusanjiao?], Financial 
Times, 7 February 14; Qiu Yue, ``Number of Areas Facing `Labor 
Shortage' Following Holiday, Where Have All the `Migrant Workers' Gone? 
'' [Duo di jie hou yu ``yonggong huang'' ``nongmingong'' dou qu naer 
le?], Guangming Daily, reprinted in Xinhua, 22 February 14; Wang Huiyu 
et al., ``In Many Provinces Cheap Labor Is Increasingly Difficult To 
Obtain, Turning Point Is Forcing Transformation and Upgrade'' [Duo 
sheng lianjia laoli huoqu yuelaiyue nan guaidian daolai dao bi 
zhuangxing shengji], Economic Information News, reprinted in China News 
Service, 5 November 13.
    \120\ State Council, Plan on Employment Promotion (2011-2015) 
[Cujin jiuye guihua (2011-2015 nian)], 24 January 12.
    \121\ Li Tangning and Zhou Rui, ``9 Provinces and Cities Raise 
Minimum Wage Standards 13 Percent'' [9 sheng shi shangtiao zuidi gongzi 
biaozhun zhang 13%], Economic Information News, 22 April 14.
    \122\ China Labour Bulletin, ``Wages in China,'' last visited 8 
July 14; Li Tangning and Zhou Rui, ``9 Provinces and Cities Raise 
Minimum Wage Standards 13 Percent'' [9 sheng shi shangtiao zuidi gongzi 
biaozhun zhang 13%], Economic Information News, 22 April 14; ``26 
Provinces Raise Minimum Wage Levels by Average of 18 Percent, Basically 
in Line With 2012'' [26 sheng tiao zuidi gongzi biaozhun pingjun zeng 
18% yu 2012 nian jiben chiping], China News, 15 January 14.
    \123\ China Labour Bulletin, ``Wages in China,'' last visited 8 
July 14; China Labour Bulletin, ``Real Wages for China's Migrant 
Workers Stagnate as Cost of Living Escalates,'' 14 May 14.
    \124\ Ibid.
    \125\ China Labour Bulletin, ``Wages in China,'' last visited 8 
July 14.
    \126\ National Bureau of Statistics of China, ``2013 National 
Economy Developing Steadily for the Better'' [2013 nian guomin jingji 
fazhan wen zhong xiang hao], 20 January 14; ``Income Inequality Now 
Greater in China Than in US,'' University of Michigan News, 28 April 
14. See also Yu Xie and Xiang Zhou, ``Income Inequality in Today's 
China, ``Proceedings of the National Academy of Sciences, Vol. 111, No. 
19, 13 May 14.
    \127\ Lorraine Woellert and Sharon Chen, ``China's Income 
Inequality Surpasses U.S., Posing Risk for Xi,'' Bloomberg, 29 April 
14.
    \128\ See, e.g., Chen Weiwei, ``State Administration of Work 
Safety: Comparatively More Accidents Last Year at Central Enterprises 
Reveals Many Problems'' [An jian zongju: qunian yangqi shigu jiao duo 
baolu zhuduo wenti], Xinhua, 9 January 14; China Labour Bulletin, 
``Factory Bosses Detained After Explosion at Jiangsu Auto Plant Kills 
69,'' 3 August 14; Shannon Van Sant, ``China Factory Blasts Highlight 
Gaps in Workplace Safety,'' Voice of America, 4 August 14.
    \129\ State Administration of Work Safety, ``2013 National Work 
Safety Situation'' [2013 nian quanguo anquan shangchan gongzuo 
qingkuang], 19 February 14.
    \130\ Chen Weiwei, ``State Administration of Work Safety: 
Comparatively More Accidents Last Year at Central Enterprises Reveals 
Many Problems'' [An jian zongju: qunian yangqi shigu jiao duo baolu 
zhuduo wenti], Xinhua, 9 January 14.
    \131\ ``Xinhua Insight: Official Blames Factory Blast on `Serious 
Dereliction of Duty,' '' Xinhua, 4 August 14.
    \132\ Ibid.; Zhao Zhijiang, ``Xinmin Evening News: Kunshan's Pain 
`Mayor Weeps at the Scene' Again Proving Importance of Safety'' [Xinmin 
wanbao: kunshan zhi tong ``shizhang danchang kuqi'' zai zheng anquan 
zhi zhong], Xinmin Evening News, reprinted in People's Daily, 4 August 
14; China Labour Bulletin, ``Activists Demand That Workers Be Given the 
Right To Supervise Workplace Safety,'' 4 August 14.
    \133\ Wang Jing, ``Labor Community Calls for Workers To Be Given 
Power To Supervise Production Safety'' [Laogong jie huyu jiang anquan 
shengchan jiandu quan jiaogei gongren], Caixin, 4 August 14; China 
Labour Bulletin, ``Activists Demand That Workers Be Given the Right To 
Supervise Workplace Safety,'' 4 August 14.
    \134\ PRC Central Government, ``2013 National Coal Mine Safety 
Production Achieves Three Substantial Declines'' [2013 nian woguo 
meikuang anquan shengchan shixian san ge dafu xiajiang], 4 January 14.
    \135\ ``Coal Mine Accident Mortality Rate Declines 24 Percent Last 
Year in China'' [Zhongguo meikuang shigu siwanglu qunian xiajiang 24%], 
Radio Free Asia, 6 January 14.
    \136\ Wang Yichen, ``State Administration of Work Safety: Safe 
Production in Coal Mining Remains Key Problem To Tackle'' [Guojia an 
jian zongju: meikuang reng shi anquan shengchan gongguan zhongdian], 
Economic Daily, reprinted in China News Service, 10 January 14.
    \137\ ``China Reports Cover-Ups in Coal Mine Accidents,'' Xinhua, 
reprinted in Global Times, 5 August 14.
    \138\ ``Number of Non-Mining Accidents and Deaths Both Increase 
Last Year'' [Qunian fei meikuangshan zhongda shigu qishu he 
siwangrenshu tongbi jun shangsheng], China News Service, 27 February 
14.
    \139\ See, e.g., China Labor Watch, ``Another Samsung Supplier 
Exploiting Child Labor: Investigation of Shinyang Electronic Co. Ltd. 
(Dongguan),'' 10 July 14, 3, 14; Zhou Jing et al., ``Tracing Fire at 
Shoe Factory: Hidden Dangers Amass Leading to Enormous Fire, Lack of 
Training Leads to Death of Many People by Smoke Inhalation'' [Xie chang 
huozai zhuizong: yinhuan ji chong tianda huo zhong fasheng que peixun 
duo ren jing bei xunsi], Xinhua, 15 January 14; ``Frequent News of 
Deaths at Apple Subcontractors Suspected To Be Related to Working 
Environment'' [Pingguo daigongchang pinchuan sixun yi yu gongzuo 
huanjing youguan], Radio Free Asia, 21 November 13.
    \140\ See, e.g., ``Several Hundred Workers at Lutianhua in Sichuan 
Block Roads Protesting Increased Work Hours Without Raise in Wages'' 
[Sichuan lutianhua shubai gongren dulu kangyi gongshi zengjia daiyu wei 
tigao], Radio Free Asia, 10 February 14; Amy Li, ``Guangzhou Bank 
Security Van Workers End Strike After Management Agrees To Pay Deal,'' 
South China Morning Post, 12 February 14; Sophie Stracke et al., 
DanWatch, ``IT Workers Still Pay the Price for Cheap Computer: Case 
Study of Labour Conditions at 4 Dell Suppliers in China,'' November 
2013, 10-12.
    \141\ See, e.g., Sophie Stracke et al., DanWatch, ``IT Workers 
Still Pay the Price for Cheap Computer: Case Study of Labour Conditions 
at 4 Dell Suppliers in China,'' November 2013, 13-14; China Labour 
Bulletin, ``Another Ammonia Leak at a Chinese Factory Claims 15 
Lives,'' 2 September 13; China Labor Watch, ``Another Samsung Supplier 
Exploiting Child Labor: Investigation of Shinyang Electronic Co. Ltd. 
(Dongguan),'' 10 July 14, 3, 14.
    \142\ See, e.g., ``Workers in Dongguan Blocking Streets, Demanding 
Back Wages Suppressed'' [Dongguan gongren dulu tao xin zao daya], Radio 
Free Asia, 14 October 13; Sophie Stracke et al., DanWatch, ``IT Workers 
Still Pay the Price for Cheap Computer: Case Study of Labour Conditions 
at 4 Dell Suppliers in China,'' November 2013, 28; China Labor Watch, 
``Mattel's Unceasing Abuse of Chinese Workers: An Investigation of Six 
Mattel Supplier Factories,'' October 2013, 21-22, 45.
    \143\ See, e.g., Shai Oster, ``They're Dying at Their Desks in 
China as Epidemic of Stress Proves Fatal,'' Bloomberg, 30 June 14; 
Sarah Mishkin, ``Overtime Work at Foxconn Still Beyond China's Legal 
Limits,'' Financial Times, 12 December 13; Yan Ying and Song Taowei, 
``Why Do Apple Subcontractor Workers Vie for Overtime? `Double 
Overtime' Can Earn Two or Three Thousand More'' [Pingguo daigongchang 
yuangong weihe zheng zhe jiaban? ``shuangjia'' neng duo na liang san 
qian], East Day, 16 December 13.
    \144\ Shai Oster, ``They're Dying at Their Desks in China as 
Epidemic of Stress Proves Fatal,'' Bloomberg, 30 June 14.
    \145\ Wang Wanli, ``In Past 10 Years, At Least 697 Young Adults in 
Prime of Life Suddenly Die'' [10 nian zhishao 697 qingzhuangnian cusi], 
Guangzhou Daily, 21 July 14.
    \146\ Zheng Caixiong, ``Syndrome Killing Young Workers in `World's 
Factory,' '' China Daily, reprinted in People's Daily, 22 July 14; 
Andrea Chen, ``Mystery as Hundreds of Young Chinese Workers Are Dying 
in Their Sleep,'' South China Morning Post, 22 July 14.
    \147\ See, e.g., ``Xinhua Insight: Official Blames Factory Blast on 
`Serious Dereliction of Duty,' '' Xinhua, 4 August 14; ``Fire Takes 
Place at Shoe Factory in Wenling, Zhejiang, Analysts Doubt It Is 
Arson'' [Zhejiang wenling xie chang fasheng huozai fenxirenshi huaiyi 
ren wei zonghuo], Radio Free Asia, 14 January 14; China Labour 
Bulletin, ``Factory Bosses Detained After Explosion at Jiangsu Auto 
Plant Kills 69,'' 3 August 14.
    \148\ Zhou Jing et al., ``Tracing Fire at Shoe Factory: Hidden 
Dangers Amass Leading to Enormous Fire, Lack of Training Leads to Death 
of Many People by Smoke Inhalation'' [Xie chang huozai zhuizong: 
yinhuan ji chong tianda huo zhong fasheng que peixun duo ren jing bei 
xun si], Xinhua, 15 January 14; Charles Arthur, ``Samsung Finds Labour 
Violations at Dozens of Its Chinese Suppliers,'' Guardian, 1 July 14; 
Yu Dawei and Bao Zhiming, ``Workers at Jiangsu Auto-Parts Factory Say 
Fatal Blast Wasn't a Surprise,'' Caixin, 4 August 14.
    \149\ See, e.g., Alice Yan, ``Kunshan Explosion Factory Ignored 
Several Danger Warnings, Says Regulator,'' South China Morning Post, 4 
August 14; China Labor Watch, ``Another Samsung Supplier Exploiting 
Child Labor: Investigation of Shinyang Electronic Co. Ltd. 
(Dongguan),'' 10 July 14, 14; China Labour Bulletin, ``Another Ammonia 
Leak at a Chinese Factory Claims 15 Lives,'' 2 September 13.
    \150\ National Health and Family Planning Commission, ``Bulletin 
Concerning 2013 Situation for Occupational Disease Prevention and 
Control Work'' [Guanyu 2013 nian zhiyebing fangzhi gongzuo qingkuang de 
tongbao], 30 June 14.
    \151\ Love Save Pneumoconiosis, ``Research Report on the Living 
Conditions of China's Pneumoconiosis-Affected Migrant Workers (2014)'' 
[Zhongguo chenfeibing nongmingong shengcun zhuangkuang diaocha baogao 
(2014)], 1 July 14, 1, 7-11.
    \152\ Li Xiaocong and Xu Liuping, ``A Majority of the 20,000 People 
Suffering With Occupational Disease in Our Province Lack Medical 
Certification'' [Wosheng 2 wan zhiyebing ren daduo wu zhenduan shu], 
Jiangxi Morning Post, 12 August 14; Xiang Huilian, ``Report States Over 
80 Percent of Migrant Workers With Pneumoconiosis Unable To Obtain 
Compensation'' [Baogao cheng chao ba cheng chenfeibing nongmingong wei 
huo peichang], Caixin, 7 July 14.
    \153\ Love Save Pneumoconiosis, ``Research Report on the Living 
Conditions of China's Pneumoconiosis-Affected Migrant Workers (2014)'' 
[Zhongguo chenfeibing nongmingong shengcun zhuangkuang diaocha baogao 
(2014)], 1 July 14, 35, 40.
    \154\ Fair Labor Association, ``Final Foxconn Verification Status 
Report,'' 12 December 13.
    \155\ ``Profile: Foxconn Technology Co Ltd (2354.TW),'' Reuters, 
last visited 8 September 14.
    \156\ Fair Labor Association, ``Final Foxconn Verification Status 
Report,'' 12 December 13, 1.
    \157\ Ibid.
    \158\ Ibid., 3.
    \159\ Ibid.
    \160\ Isaac Shapiro and Scott Nova, ``Apple Fails To Deliver on Key 
Labor Rights Promises, but Company's Chosen Labor Rights Monitor Finds 
Little Fault,'' Economic Policy Institute (blog), 13 December 13.
    \161\ Fair Labor Association, ``Final Foxconn Verification Status 
Report,'' 12 December 13, 3.
    \162\ See, e.g., Li Na, ``Numerous Violations Again Exposed at 
Apple Subcontractor Factories: Low Wages and Long Work Hours'' [Pingguo 
daigongchang zai bao duo xiang weigui: xinzi di gongzuo shijian chang], 
21st Century Business Herald, 18 August 14; Neil Gough and Brian X. 
Chen, ``Groups Accuse Apple Supplier in China of Labor Violations,'' 
New York Times, 4 September 14; Yan Ying, ``4 Workers at Apple 
Subcontractor Recently Died From Illness, Including One 15 Year Old; 
Pegatron's Response: Problem With Hiring Child Labor Is in Examining 
Identification in Recruitment'' [Pingguo daigongchang 4 ming yuangong 
yin bing zai jinqi siwang, qizhong yi ren jin 15 sui, heshuo keji 
huiying: tonggong yong wenti shenfenzheng tongguo zhao gong hecha], 
Shanghai Morning Post, 13 December 13.
    Notes to Section II--Criminal Justice

    \1\ Understanding China's Crackdown on Rights Advocates: Personal 
Accounts and Perspectives, Hearing of the Congressional-Executive 
Commission on China, 8 April 14, Written Statement Submitted by Teng 
Biao, Human Rights Lawyer and Scholar; Stephanie Balme, Remarks on 
China's Domestic Policy and Human Rights Webcast, 2014 Bernstein China 
Symposium, Panel 1, U.S.-Asia Law Institute, New York University Law 
School, 3 April 14; Eva Pils, Remarks on China's Domestic Policy and 
Human Rights Webcast, 2014 Bernstein China Symposium, Panel 1, U.S.-
Asia Law Institute, New York University Law School, 3 April 14; Teng 
Biao, ``China's Growing Human Rights Movement Can Claim Many 
Accomplishments,'' Washington Post, 18 April 14; ``Chinese Dream Turns 
Sour for Activists Under Xi Jinping,'' Agence France-Presse, 10 July 
14; Stability in China: Lessons From Tiananmen and Implications for the 
United States, Hearing of the U.S.-China Economic and Security Review 
Commission, 15 May 14, Written Statement Submitted by Steve Hess, 
Assistant Professor of Political Science, College of Public and 
International Affairs, University of Bridgeport, 5-6. For similar 
trends in previous years, see also ``The Rule of Law: Bizarrely 
Consistent,'' Economist, 27 July 13; CECC, 2013 Annual Report, 10 
October 13, 77; CECC, 2009 Annual Report, 10 October 09, 88.
    \2\ See, e.g., Chinese Human Rights Defenders, ``A Nightmarish Year 
Under Xi Jinping's `Chinese Dream': 2013 Annual Report on the Situation 
of Human Rights Defenders in China,'' March 2014, 3; Chinese Human 
Rights Defenders, ``China: Reverse Travesty of Justice, Free Persecuted 
Human Rights Defenders in Jiangxi,'' 20 June 14; Understanding China's 
Crackdown on Rights Advocates: Personal Accounts and Perspectives, 
Hearing of the Congressional-Executive Commission on China, 8 April 14, 
Written Statement Submitted by Teng Biao, Human Rights Lawyer and 
Scholar.
    \3\ Chinese Human Rights Defenders, ``149 Individuals Affected by 
Government Crackdown Around 25th Anniversary of Tiananmen Massacre,'' 
last visited 8 July 14.
    \4\ Chinese Human Rights Defenders, ``152 Individuals Affected by 
Government Crackdown Around 25th Anniversary of Tiananmen Massacre,'' 
last visited 25 July 14.
    \5\ Xu Xin, ``Xu Xin: Exceeding the Law To Attack Rumors Is Much 
More Dangerous Than Rumors Themselves,'' Caijing (Xu Xin's blog), 10 
September 13; Xu Xin (xuxin), Tencent Weibo post, 6 May 14, 22:34; Dui 
Hua Foundation, ``Broad Changes to China's Criminal Law Enacted,'' Dui 
Hua Human Rights Journal, 1 March 11. See also ``Si Weijiang: Does a 
Closed-Door Meeting Constitute Picking Quarrels and Provoking Trouble? 
'' [Si weijiang: bimen kaihui goucheng xunxin zishi ma?], New Citizens 
Movement Web site, 7 May 14; ``Fu Dandi: The Crime of Picking Quarrels 
and Provoking Trouble: Origins in Last Century's Crime of Hooliganism; 
The Interpretation in This Life Has Expanded'' [Fu dandi: xunxin zishi 
zui: qian shiji qiyuan liumang zui, jinsheng jieshi kuodahua], New 
Citizen's Movement Web site, 8 May 14; Ying Chan, ``Why Pu Zhiqiang Is 
Not Guilty,'' China Media Project, 16 June 14.
    \6\ Chinese Human Rights Defenders, ``A Nightmarish Year Under Xi 
Jinping's `Chinese Dream': 2013 Annual Report on the Situation of Human 
Rights Defenders in China,'' March 2014, 3; Dexter Roberts, `` `Picking 
Quarrels and Provoking Trouble': The Crime Sweeping China,'' Bloomberg 
Businessweek, 12 May 14; Verna Yu, ``How China Is Using Criminal 
Detention in Place of Re-Education Through Labour,'' South China 
Morning Post, 21 April 14; Gillian Wong, ``Chinese Lawyer, Others Held 
in Tiananmen Clampdown,'' Associated Press, 6 May 14; Didi Tang, 
``China Hits Activists with Common-Crime Charges,'' Associated Press, 
27 May 14; CECC, 2013 Annual Report, 10 October 13, 78.
    \7\ Dui Hua Foundation, ``Broad Changes to China's Criminal Law 
Enacted,'' Dui Hua Human Rights Journal, 1 March 11; Dexter Roberts, `` 
`Picking Quarrels and Provoking Trouble': The Crime Sweeping China,'' 
Bloomberg Businessweek, 12 May 14; Xu Xin (xuxin), Tencent Weibo post, 
6 May 14, 22:34; Verna Yu, ``How China Is Using Criminal Detention in 
Place of Re-Education Through Labour,'' South China Morning Post, 21 
April 14.
    \8\ Chinese Human Rights Defenders, ``A Nightmarish Year Under Xi 
Jinping's `Chinese Dream': 2013 Annual Report on the Situation of Human 
Rights Defenders in China,'' March 2014, 3. See also Didi Tang, ``China 
Hits Activists With Common-Crime Charges,'' Associated Press, 27 May 
14; Verna Yu, ``How China Is Using Criminal Detention in Place of Re-
Education Through Labour,'' South China Morning Post, 21 April 14.
    \9\ ``On Appeal, Xu Zhiyong's Original Verdict of Four Years' 
Imprisonment for Gathering a Crowd To Disturb Public Order Upheld'' [Xu 
zhiyong an ershen weichi yuanpan juzhong raoluan gonggong changsuo 
zhixu beipan 4 nian], Southern Weekend, 11 April 14.
    \10\ Understanding China's Crackdown on Rights Advocates: Personal 
Accounts and Perspectives, Hearing of the Congressional-Executive 
Commission on China, 8 April 14, Written Statement Submitted by Teng 
Biao, Human Rights Lawyer and Scholar.
    \11\ Ibid.
    \12\ Didi Kirsten Tatlow, ``Chinese Court Sentences Four Activists 
to Jail,'' New York Times, 18 April 14. For more information, see the 
Commission's Political Prisoner Database records 2013-00307 on lawyer 
Ding Jiaxi (sentenced to three years and six months in prison), 2004-
05226 on veteran activist Zhao Changqing (sentenced to two years and 
six months in prison), and 2013-00308 and 2013-00132 on anticorruption 
and transparency advocates Li Wei and Zhang Baocheng, respectively. Li 
and Zhang were each sentenced to two years in prison.
    \13\ Verna Yu, ``Human Rights Lawyer Among Four Detained Over 
Tiananmen Commemoration Event,'' South China Morning Post, 7 May 14; 
Rights Defense Network, `` `Rights Defense Network' Statement on 
Beijing Authorities' Crackdown on Participants in the June Fourth 
Discussion Forum'' [``Weiquanwang'' jiu beijing dangju daya canjia 
``liu si'' yantaohui renshi de shengming], 7 May 14; Cao Yaxue, ``The 
Zhengzhou Twelve,'' China Change, 26 June 14; Josh Chin, ``The 
Tiananmen Square Meeting That Sparked a Crackdown in Beijing,'' Wall 
Street Journal, China Real Time Report (blog), 6 May 14.
    \14\ UN Office of the High Commissioner for Human Rights, ``Fact 
Sheet No. 26, The Working Group on Arbitrary Detention,'' May 2000, 
sec. IV(B).
    \15\ Ibid. The rights and freedoms protected under the second 
category include those in Articles 7, 10, 13, 14, 18, 19, and 21 of the 
Universal Declaration of Human Rights and in Articles 12, 18, 19, 21, 
22, and 27 of the International Covenant on Civil and Political Rights. 
See Universal Declaration of Human Rights, adopted and proclaimed by UN 
General Assembly resolution 217A (III) of 10 December 48, arts. 7, 10, 
13, 14, 18, 19, 21; International Covenant on Civil and Political 
Rights, adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 23 March 76, arts. 12, 18, 19, 21, 22, 
27.
    \16\ UN GAOR, Hum. Rts. Coun. 25th Sess., Report of the Working 
Group on the Universal Periodic Review--China, Addendum, Views on 
Conclusions and/or Recommendations, Voluntary Commitments and Replies 
Presented by the State Under Review, A/HRC/25/5/Add.1, 27 February 14, 
para. 186.115; UN GAOR, Hum. Rts. Coun. 25th Sess., Agenda Item 6, 
Universal Periodic Review, Report of the Working Group on the Universal 
Periodic Review--China, A/HRC/25/5, 4 December 13, para. 186.115. The 
recommendation which prompted this statement from the Chinese 
government was offered by the United States: ``End the use of 
harassment, detention, arrest, and extralegal measures such as enforced 
disappearance to control and silence human rights activists as well as 
their family members and friends.''
    \17\ For more information on each of these imprisoned advocates, 
see the following records in the Commission's Political Prisoner 
Database: 2005-00199 on Xu Zhiyong, 2014-00174 on Pu Zhiqiang, 2009-
00315 on Ilham Tohti, and 2014-00126 on Zhang Shaojie. Chinese Human 
Rights Defenders, ``A Nightmarish Year Under Xi Jinping's `Chinese 
Dream': 2013 Annual Report on the Situation of Human Rights Defenders 
in China,'' March 2014, 1-6, 11, 27-28.
    \18\ Amnesty International, `` `Changing the Soup but Not the 
Medicine? ': Abolishing Re-Education Through Labour in China,'' ASA 17/
042/2013, 17 December 13, 8-9; Chinese Human Rights Defenders, ``A 
Nightmarish Year Under Xi Jinping's `Chinese Dream': 2013 Annual Report 
on the Situation of Human Rights Defenders in China,'' March 2014, 1-3; 
Chinese Human Rights Defenders, ``Individuals Detained in Crackdown on 
Peaceful Assembly, Association & Expression,'' last visited 8 July 14; 
Chinese Human Rights Defenders, ``149 Individuals Affected by 
Government Crackdown Around 25th Anniversary of Tiananmen Massacre,'' 
last visited 8 July 14; David Wertime, ``Inside China's Blackest Box: 
Even High Cadres Quake at the Term `Shuanggui,' an Extrajudicial 
Interrogation Method That Has Claimed Lives,'' Foreign Policy, 2 July 
14; Human Rights Watch, ``China: End Arbitrary Detention System for Sex 
Workers,'' 24 June 14; Dui Hua Foundation, ``Detained Actor Spotlights 
Custody and Education, Censors Intervene,'' Dui Hua Human Rights 
Journal, 10 June 14; CECC, 2013 Annual Report, 10 October 13, 79-81.
    \19\ See, e.g., PRC Constitution, issued 4 December 82, amended 12 
April 88, 29 March 93, 15 March 99, 14 March 04, arts. 37, 41; PRC 
Criminal Procedure Law [Zhonghua renmin gongheguo xingshi susong fa], 
passed 1 July 79, amended 17 March 96, 14 March 12, effective 1 January 
13, art. 3; PRC Public Security Administration Punishment Law [Zhonghua 
renmin gongheguo zhian guanli chufa fa], passed 28 August 05, effective 
1 March 06, arts. 2, 3, 10, 16; PRC Legislation Law [Zhonghua renmin 
gongheguo lifa fa], passed 15 March 00, effective 1 July 00, art. 8(5); 
CECC, 2012 Annual Report, 10 October 12, 71; CECC, 2013 Annual Report, 
10 October 13, 81.
    \20\ UN Committee against Torture, Consideration of Reports 
Submitted by States Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture: China, CAT/C/
CHN/CO/4, 12 December 08, para. 14. The 1992 UN Declaration on the 
Protection of All Persons from Enforced Disappearance provides that an 
``enforced disappearance'' occurs when individuals are detained or 
abducted ``or otherwise deprived of their liberty by officials of 
different branches or levels of Government, or by organized groups or 
private individuals acting on behalf of, or with the support, direct or 
indirect, consent or acquiescence of the Government, followed by a 
refusal to disclose the fate or whereabouts of the persons concerned or 
a refusal to acknowledge the deprivation of their liberty, which places 
such persons outside the protection of the law.'' UN General Assembly, 
Declaration on the Protection of All Persons from Enforced 
Disappearance, A/RES/47/133, 18 December 92.
    \21\ Human Rights Watch, `` `An Alleyway in Hell': China's Abusive 
`Black Jails,' '' November 2009, 40-43.
    \22\ UN GAOR, Hum. Rts. Coun., 25th Sess., Agenda Item 6, Universal 
Periodic Review, Report of the Working Group on the Universal Periodic 
Review--China, A/HRC/25/5, 4 December 13, para. 156.
    \23\ Chinese Human Rights Defenders, ``A Nightmarish Year Under Xi 
Jinping's `Chinese Dream': 2013 Annual Report on the Situation of Human 
Rights Defenders in China,'' March 2014, 3; Amnesty International, `` 
`Changing the Soup but Not the Medicine? ': Abolishing Re-Education 
Through Labour in China,'' ASA 17/042/2013,17 December 13, 39; Teng 
Biao, ``What Is a `Legal Education Center' in China,'' China Change, 3 
April 14; ``Joint Statement by Four Lawyers Detained in Jiansanjiang 
After Their Release'' [Jiansanjiang bei ju si lushi huoshi hou de 
lianhe shengming], Boxun, 13 April 14; Rights Defense Network, 
``Statement of Chinese Lawyers for the Protection of Human Rights on 
Issues Related to the Abolition of the Reeducation Through Labor 
System'' [Zhongguo baozhang renquan lushituan lushi dui laojiao zhidu 
feizhi xiangguan wenti de shengming], 19 November 13.
    \24\ Teng Biao, ``What Is a `Legal Education Center' in China,'' 
China Change, 3 April 14.
    \25\ Rights Defense Network, ``Statement of Chinese Lawyers for the 
Protection of Human Rights on Issues Related to the Abolition of the 
Reeducation Through Labor System'' [Zhongguo baozhang renquan lushituan 
lushi dui laojiao zhidu feizhi xiangguan wenti de shengming], 19 
November 13; Teng Biao, ``What Is a `Legal Education Center' in 
China,'' China Change, 3 April 14; Joshua Rosenzweig, ``Chinese Human 
Rights Lawyers Condemn Detention of Lawyers Investigating Black Jail,'' 
Siweiluozi's Blog, 22 March 14; Rights Defense Network, ``Sun Wenguang: 
My Personal Remembrances of Shandong University's `Black Jails' '' [Sun 
wenguang: shandong daxue ``hei jianyu'' qinlin ji], 21 April 14.
    \26\ ``Prospects for Reforming China's Reeducation Through Labor 
System,'' Congressional-Executive Commission on China, 9 May 13, 2-3; 
CECC, 2013 Annual Report, 10 October 13, 81.
    \27\ Chinese Communist Party Central Committee, Decision on Some 
Major Issues Concerning Comprehensively Deepening the Reform, reprinted 
in China Internet Information Center, 16 January 14, sec. 9(34).
    \28\ National People's Congress (NPC) Standing Committee Decision 
on Abolishing Reeducation Through Labor Regulations [Quanguo renmin 
daibiao dahui changwu weiyuanhui guanyu feizhi youguan laodong jiaoyang 
falu guiding de jueding], issued and effective 28 December 13; ``NPC 
Standing Committee Decision on Laojiao,'' China Law Translate (blog), 
30 December 13.
    \29\ Amnesty International, `` `Changing the Soup but Not the 
Medicine? ': Abolishing Re-Education Through Labour in China,'' ASA 17/
042/2013, 17 December 13, 5; Human Rights Watch, ``China: End Re-
Education Through Labor Without Loopholes,'' 15 November 13; Human 
Rights Watch, ``China: Fully Abolish Re-Education Through Labor,'' 8 
January 13; Chinese Human Rights Defenders, ``[CHRB] Lawyers Warn 
Against Other Forms of Arbitrary Detention To Replace RTL (11/14-11/20, 
2013),'' 21 November 13; Rights Defense Network, ``Statement of Chinese 
Lawyers for the Protection of Human Rights on Issues Related to the 
Abolition of the Reeducation Through Labor System'' [Zhongguo baozhang 
renquan lushituan lushi dui laojiao zhidu feizhi xiangguan wenti de 
shengming], 19 November 13.
    \30\ See, e.g., Robert Williams, `` `Community Corrections' and the 
Road Ahead for Re-Education Through Labor,'' China File, 20 December 
13; Chinese Human Rights Defenders, ``[CHRB] Lawyers Warn Against Other 
Forms of Arbitrary Detention To Replace RTL (11/14-11/20, 2013),'' 21 
November 13; Rights Defense Network, ``Statement of Chinese Lawyers for 
the Protection of Human Rights on Issues Related to the Abolition of 
the Reeducation Through Labor System'' [Zhongguo baozhang renquan 
lushituan lushi dui laojiao zhidu feizhi xiangguan wenti de shengming], 
19 November 13; Margaret K. Lewis and Jerome A. Cohen, ``How Taiwan's 
Constitutional Court Reined in Police Power: Lessons for the People's 
Republic of China,'' Fordham International Law Journal, Vol. 37 (2014), 
918-20.
    \31\ Chinese Human Rights Defenders, ``[CHRB] Lawyers Warn Against 
Other Forms of Arbitrary Detention To Replace RTL (11/14-11/20, 
2013),'' 21 November 13.
    \32\ Teng Biao, ``What Is a `Legal Education Center' in China,'' 
China Change, 3 April 14; Dui Hua Foundation, ``For State Security, 
Police Rules Color Code `Targeted Population,' '' Dui Hua Reference 
Materials, 3 October 13; Amnesty International, `` `Changing the Soup 
but Not the Medicine? ' : Abolishing Re-Education Through Labour in 
China,'' ASA 17/042/2013, 17 December 13, 8-9, 39-41; Chinese Human 
Rights Defenders, ``A Nightmarish Year Under Xi Jinping's `Chinese 
Dream': 2013 Annual Report on the Situation of Human Rights Defenders 
in China,'' March 2014, 2-3.
    \33\ Rights Defense Network, ``Statement of Chinese Lawyers for the 
Protection of Human Rights on Issues Related to the Abolition of the 
Reeducation Through Labor System'' [Zhongguo baozhang renquan lushituan 
lushi dui laojiao zhidu feizhi xiangguan wenti de shengming], 19 
November 13; Chinese Human Rights Defenders, ``[CHRB] Lawyers Warn 
Against Other Forms of Arbitrary Detention To Replace RTL (11/14-11/20, 
2013),'' 21 November 13; Joshua Rosenzweig, ``Statement on the 
Abolition of Re-Education Through Labour (RTL) and Related Problems by 
Chinese Lawyers for the Protection of Human Rights,'' Siweiluozi's 
Blog, 19 November 13.
    \34\ Ye Zhusheng, ``How Many `Smaller Versions' of Reeducation 
Through Labor Still Remain? '' [``Xiao laojiao'' haiyou neixie?], South 
Reviews, 29 April 14.
    \35\ John Ruwitch, ``A Jail by Another Name: China Labor Camps Now 
Drug Detox Centers,'' Reuters, 2 December 13.
    \36\ Wang Bixue, ``Work Following the Abolition of RTL Proceeding 
Smoothly'' [Laojiao zhidu feizhi shanhou gongzuo youxu], People's 
Daily, 15 January 14; ``Many Places Throughout China Have Already 
Ceased Approvals for RTL; A Portion Have Become Compulsory Drug 
Treatment Centers'' [Quanguo duodi yijing tingzhi laojiao shenpi bufen 
bianshen qiangzhi jiedusuo], Dazhong Net-Qilu Evening News, reprinted 
in Sina, 24 July 13.
    \37\ Human Rights Watch, ``China: End Arbitrary Detention System 
for Sex Workers,'' 24 June 14; ``Beijing Aizhixing Institute: Report on 
Law and Human Rights With Respect to Chinese Drug Addicts (2013)'' 
[Beijing aizhixing yanjiusuo: zhongguo dupin chengyinzhe falu renquan 
baogao (2013 nian)], New Citizens Movement Web site, 9 May 14, sec. 
3(3); ``Carol Wickenkamp, ``Torture Camp Rebranded in China,'' Epoch 
Times, 17 June 14. For background on compulsory drug detoxification 
centers, see Human Rights Watch, `` `Where Darkness Knows No Limits': 
Incarceration, Ill-Treatment and Forced Labor as Drug Rehabilitation in 
China,'' 7 January 10, 1-3, 19. The 2008 Anti-Drug Law authorizes 
police to send suspected drug users to compulsory treatment centers for 
a minimum of two years with a possible extension of an additional year 
without trial or judicial supervision. See PRC Anti-Drug Law [Zhonghua 
renmin gongheguo jindufa], passed 29 December 07, effective 1 June 08, 
art. 47. In practice, deprivation of personal liberty in drug detention 
centers can last up to six years. See Human Rights Watch, `` `Where 
Darkness Knows No Limits': Incarceration, Ill-Treatment and Forced 
Labor as Drug Rehabilitation in China,'' 7 January 10, 2. In March 
2012, 12 UN agencies issued a joint statement calling for an end to 
compulsory drug treatment and rehabilitation centers worldwide, finding 
not only that they violate a wide range of human rights but that they 
also threaten the health of those detained. See UNAIDS, ``Joint UN 
Statement Calls for the Closure of Compulsory Drug Detention and 
Rehabilitation Centers,'' 8 March 12.
    \38\ John Ruwitch, ``A Jail by Another Name: China Labor Camps Now 
Drug Detox Centers,'' Reuters, 2 December 13.
    \39\ Amnesty International, `` `Changing the Soup but Not the 
Medicine? ': Abolishing Re-Education Through Labour in China,'' ASA 17/
042/2013, 17 December 13, 9, 35-36, 38; Carol Wickenkamp, ``Torture 
Camp Rebranded in China,'' Epoch Times, 17 June 14.
    \40\ Carol Wickenkamp, ``Torture Camp Rebranded in China,'' Epoch 
Times, 17 June 14.
    \41\ Amnesty International, `` `Changing the Soup but Not the 
Medicine? ': Abolishing Re-Education Through Labour in China,'' ASA 17/
042/2013, 17 December 13, 9, 37-38.
    \42\ Ibid., 9.
    \43\ Teng Biao, ``What Is a `Legal Education Center' in China,'' 
China Change, 3 April 14; Amnesty International, `` `Changing the Soup 
but Not the Medicine? ': Abolishing Re-Education Through Labour in 
China,'' ASA 17/042/2013, 17 December 13, 6, 39.
    \44\ Teng Biao, ``What Is a `Legal Education Center' in China,'' 
China Change, 3 April 14.
    \45\ Amnesty International, `` `Changing the Soup but Not the 
Medicine? ': Abolishing Re-Education Through Labour in China,'' ASA 17/
042/2013, 17 December 13, 36.
    \46\ ``Drug Addiction Treatment Centers Becomes [sic] Brainwashing 
Center,'' New Tang Dynasty Television, 6 May 14; ``Joint Statement by 
Four Lawyers Detained in Jiansanjiang After Their Release'' 
[Jiansanjiang bei ju si lushi huoshi hou de lianhe shengming], Boxun, 
13 April 14; Teng Biao, ``What Is a `Legal Education Center' in 
China,'' China Change, 3 April 14.
    \47\ ``Drug Addiction Treatment Centers Becomes [sic] Brainwashing 
Center,'' New Tang Dynasty Television, 6 May 14.
    \48\ Dui Hua Foundation, ``Custody and Education Worse Than 
Reeducation Through Labor? '' Dui Hua Reference Materials, 26 December 
13; Asia Catalyst, `` `Custody and Education': Arbitrary Detention for 
Female Sex Workers in China,'' December 2013; Didi Kirsten Tatlow, 
``Petition Seeks Closure of Extrajudicial Detention Centers,'' New York 
Times, Sinosphere (blog), 5 May 14; Dui Hua Foundation, ``Detained 
Actor Spotlights Custody and Education, Censors Intervene,'' Dui Hua 
Human Rights Journal, 10 June 14.
    \49\ Asia Catalyst, `` `Custody and Education': Arbitrary Detention 
for Female Sex Workers in China,'' December 2013, 18, 38-39; Dui Hua 
Foundation, ``Custody and Education Worse Than Reeducation Through 
Labor? '' Dui Hua Reference Materials, 26 December 13.
    \50\ Ibid., 25-27, 29-31; Dui Hua Foundation, ``Custody and 
Education Worse Than Reeducation Through Labor? '' Dui Hua Reference 
Materials, 26 December 13.
    \51\ ``108 Scholars, Lawyers and Others Jointly Sign [Letter] 
Recommending That Custody and Education Be Abolished'' [108 ming xuezhe 
lushi deng lianming jianyi feichu shourong jiaoyu], Caixin, 5 May 14; 
Didi Kirsten Tatlow, ``Petition Seeks Closure of Extrajudicial 
Detention Centers,'' New York Times, Sinosphere (blog), 5 May 14.
    \52\ ``Jiang Ping and Others in the Legal World Submit Petition to 
NPC Proposing Abolition of Custody and Education Measures'' [Jiang ping 
deng falujie renshi shangshu quanguo renda, tiyi feizhi maiyin 
piaochang renyuan shourong jiaoyu banfa], Radio Free Asia, 8 June 14; 
Elizabeth M. Lynch, ``It's a Man's, Man's, Man's World: Current Efforts 
To Abolish China's Custody & Education System,'' China Law & Policy 
(blog), 23 June 14.
    \53\ Dui Hua Foundation, ``Events,'' Dui Hua Digest, 12 June 14; 
``MOJ Official: At Present There Are 667,000 People Receiving Community 
Correction'' [Sifabu guanyuan: muqian you 66.7 wan ren zheng jieshou 
shequ jiaozheng], Beijing News, reprinted in New North Net, 6 January 
14; Xu Xin and Lu Rongrong, ``Annual Report on China's Judicial Reform 
(2009),'' Caijing, 21 January 09; ``Inquiry into Effectiveness of 
Henan's Community Corrections for Rehabilitating Criminals'' [Tanfang 
henan shequ jiaozheng gaizao zuifan chengxiao ruhe], Henan Daily, 
reprinted in Henan Culture and Industry Net, 17 April 14.
    \54\ Chinese Communist Party Central Committee, Decision on Some 
Major Issues Concerning Comprehensively Deepening the Reform, reprinted 
in China Internet Information Center, 16 January 14, sec. 9(34).
    \55\ Sui-Lee Wee, `` `Community Corrections' System Will Not 
Replace Labour Camps in China,'' Reuters, 29 November 13; Dui Hua 
Foundation, ``Community Correction Expands as RTL Contracts,'' Dui Hua 
Human Rights Journal, 19 December 13; ``MOJ Official: At Present There 
Are 667,000 People Receiving Community Correction'' [Sifabu guanyuan: 
muqian you 66.7 wan ren zheng jieshou shequ jiaozheng], Beijing News, 
reprinted in New North Net, 6 January 14; ``The [Community] Correction 
Law May Turn Communities Into Prisons? Citizens Call on NPC To Stop 
Reviewing the Draft'' [Jiaozhengfa ke zhi shequ jianyuhua? gongmin huyu 
renda tingzhi shenyi], Radio Free Asia, 27 February 14.
    \56\ ``The [Community] Correction Law May Turn Communities Into 
Prisons? Citizens Call on NPC To Stop Reviewing the Draft'' 
[Jiaozhengfa ke zhi shequ jianyuhua? gongmin huyu renda tingzhi 
shenyi], Radio Free Asia, 27 February 14; Dui Hua Foundation, 
``Community Correction Expands as RTL Contracts,'' Dui Hua Human Rights 
Journal, 19 December 13.
    \57\ ``The [Community] Correction Law May Turn Communities Into 
Prisons? Citizens Call on NPC To Stop Reviewing the Draft'' 
[Jiaozhengfa ke zhi shequ jianyuhua? gongmin huyu renda tingzhi 
shenyi], Radio Free Asia, 27 February 14.
    \58\ Dui Hua Foundation, ``Events,'' Dui Hua Digest, 12 June 14.
    \59\ Min Jie, `` `Beijing Model' of Community Correction'' [Shequ 
jiaozheng de ``beijing moshi''], China Newsweek, reprinted in Phoenix 
Net, 3 January 14.
    \60\ Dui Hua Foundation, ``Community Correction Expands as RTL 
Contracts,'' Dui Hua Human Rights Journal, 19 December 13.
    \61\ ``MOJ Official: At Present There Are 667,000 People Receiving 
Community Correction'' [Sifabu guanyuan: muqian you 66.7 wan ren zheng 
jieshou shequ jiaozheng], Beijing News, reprinted in New North Net, 6 
January 14.
    \62\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13.
    \63\ CECC, 2013 Annual Report, 10 October 13, 77, 82.
    \64\ Xu Jun, ``New Criminal Procedure Law in Effect for One Year: 
How Substantial Are Changes in Detention Centers? '' [Xin xingsufa 
shishi yi nian lai: kanshousuo de bianhua you duoda], People's Daily, 
reprinted in Xinhua, 19 March 14; Ji Xin, ``Criminal Defense Lawyers' 
Current `Three New Difficulties' '' [Lushi bianhu xian ``xin san 
nan''], Legal Daily Evening News, 14 May 14; Shangquan Law Firm, 
``Second Unit: Changes in Criminal Defense's `Three Old Difficulties' 
'' [Di er danyuan: xingshi bianhu ``lao san nan'' de bianhua], 
Shangquan Criminal Defense Network, 5 March 14; Wang Feng, ``New 
Criminal Procedure Law `Diagnosis' on First Anniversary'' [Xin xingsufa 
``linchuang'' yi zhounian], 21st Century Business Herald, 15 March 14.
    \65\ Wang Feng, ``New Criminal Procedure Law `Diagnosis' on First 
Anniversary'' [Xin xingsufa ``linchuang'' yi zhounian], 21st Century 
Business Herald, 15 March 14; ``New Criminal Procedure Law in Effect 
for One Year: How Substantial Are Changes in Detention Centers? '' [Xin 
xingsufa shishi yi nian lai: kanshousuo de bianhua you duoda], People's 
Daily, reprinted in Xinhua, 19 March 14; Shangquan Law Firm, ``Second 
Unit: Changes in Criminal Defense's `Three Old Difficulties' '' [Di er 
danyuan: xingshi bianhu ``lao san nan'' de bianhua], Shangquan Criminal 
Defense Network, 5 March 14.
    \66\ Shangquan Law Firm, ``Second Unit: Changes in Criminal 
Defense's `Three Old Difficulties' '' [Di er danyuan: xingshi bianhu 
``lao san nan'' de bianhua], Shangquan Criminal Defense Network, 5 
March 14; Wang Feng, ``New Criminal Procedure Law `Diagnosis' on First 
Anniversary'' [Xin xingsufa ``linchuang'' yi zhounian], 21st Century 
Business Herald, 15 March 14; Jerome A. Cohen, ``Struggling for 
Justice: China's Courts and the Challenge of Reform,'' World Politics 
Review, 14 January 14; CECC, 2009 Annual Report, 10 October 09, 102; 
CECC, 2013 Annual Report, 10 October 13, 161.
    \67\ Xu Jun, ``New Criminal Procedure Law in Effect for One Year: 
How Substantial Are Changes in Detention Centers? '' [Xin xingsufa 
shishi yi nian lai: kanshousuo de bianhua you duoda], People's Daily, 
reprinted in Xinhua, 19 March 14; Wang Feng, ``New Criminal Procedure 
Law `Diagnosis' on First Anniversary'' [Xin xingsufa ``linchuang'' yi 
zhounian], 21st Century Business Herald, 15 March 14; Shangquan Law 
Firm, ``Investigative Report on the Implementation of the New Criminal 
Procedure Law (2013 Annual [Report])'' [Xin xingshi susongfa shishi 
zhuangkuang diaoyan baogao (2013 niandu)], 2 March 14, sec. 4(2.2-2.3).
    \68\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 37; Wang Feng, ``New Criminal Procedure 
Law `Diagnosis' on First Anniversary'' [Xin xingsufa ``linchuang'' yi 
zhounian], 21st Century Business Herald, 15 March 14; CECC, 2013 Annual 
Report, 10 October 13, 82.
    \69\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 37; CECC, 2013 Annual Report, 10 October 
13, 82.
    \70\ Shangquan Law Firm, ``Investigative Report on the 
Implementation of the New Criminal Procedure Law (2013 Annual 
[Report])'' [Xin xingshi susongfa shishi zhuangkuang diaoyan baogao 
(2013 niandu)], 2 March 14, sec. 4(2); Wang Feng, ``New Criminal 
Procedure Law `Diagnosis' on First Anniversary'' [Xin xingsufa 
``linchuang'' yi zhounian], 21st Century Business Herald, 15 March 14.
    \71\ Wang Feng, ``New Criminal Procedure Law `Diagnosis' on First 
Anniversary'' [Xin xingsufa ``linchuang'' yi zhounian], 21st Century 
Business Herald, 15 March 14; Shangquan Law Firm, ``Investigative 
Report on the Implementation of the New Criminal Procedure Law (2013 
Annual [Report])'' [Xin xingshi susongfa shishi zhuangkuang diaoyan 
baogao (2013 niandu)], 2 March 14, sec. 4(2.3).
    \72\ Wang Feng, ``New Criminal Procedure Law `Diagnosis' on First 
Anniversary'' [Xin xingsufa ``linchuang'' yi zhounian], 21st Century 
Business Herald, 15 March 14.
    \73\ Shangquan Law Firm, ``Investigative Report on the 
Implementation of the New Criminal Procedure Law (2013 Annual 
[Report])'' [Xin xingshi susongfa shishi zhuangkuang diaoyan baogao 
(2013 niandu)], 2 March 14, sec. 4(2.3); Xu Jun, ``New Criminal 
Procedure Law in Effect for One Year: How Substantial Are Changes in 
Detention Centers? '' [Xin xingsufa shishi yi nian lai: kanshousuo de 
bianhua you duoda], People's Daily, reprinted in Xinhua, 19 March 14; 
Wang Feng, ``New Criminal Procedure Law `Diagnosis' on First 
Anniversary'' [Xin xingsufa ``linchuang'' yi zhounian], 21st Century 
Business Herald, 15 March 14.
    \74\ Shangquan Law Firm, ``Investigative Report on the 
Implementation of the New Criminal Procedure Law (2013 Annual 
[Report])'' [Xin xingshi susongfa shishi zhuangkuang diaoyan baogao 
(2013 niandu)], 2 March 14, sec. 4(2); Wang Feng, ``New Criminal 
Procedure Law `Diagnosis' on First Anniversary'' [Xin xingsufa 
``linchuang'' yi zhounian], 21st Century Business Herald, 15 March 14.
    \75\ Ibid., sec. 4(2.3); Wang Feng, ``New Criminal Procedure Law 
`Diagnosis' on First Anniversary'' [Xin xingsufa ``linchuang'' yi 
zhounian], 21st Century Business Herald, 15 March 14; CECC, 2013 Annual 
Report, 10 October 13, 82.
    \76\ ``Chinese Rights Lawyers Sign Aid Pledge Amid Growing 
Crackdown,'' Radio Free Asia, 2 June 14; Human Rights Watch, ``China: 
End Nationwide Crackdown on Activists,'' 29 June 14; ``Calls Grow for 
Release of Chinese Student Held Over Tiananmen Tweet,'' Radio Free 
Asia, 13 June 14.
    \77\ Michael Martina and Ben Blanchard, ``Uighur Scholar Kept in 
Chains in China, Lawyer Says,'' Reuters, 26 June 14; ``Ilham Tohti 
Detained for More Than 4 Months, Has Not Met With His Lawyer or 
Family'' [Yilihamu bei ju yu 4 yue lushi jiaren weineng huijian], Radio 
Free Asia, 26 May 14.
    \78\ ``China Indicts Ilham Tohti; His Lawyer Had No Knowledge'' 
[Zhongguo qisu yilihamu lushi wanquan bu zhiqing], Radio Free Asia, 30 
July 14; PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 170.
    \79\ ``China Lawyers Demand Access to Activists Detained Ahead of 
Tiananmen Anniversary,'' Associated Press, reprinted in South China 
Morning Post, 7 June 14; ``Chinese Authorities Now Targeting Lawyers' 
Lawyers,'' Radio Free Asia, 9 June 14; Human Rights in China, ``Photos: 
Lawyers Protest To Demand Access to Activists by Zhengzhou 
Authorities,'' 13 June 14.
    \80\ Didi Kirsten Tatlow, ``Lawyer Charged After Trying To Defend 
June Fourth Commemorators,'' New York Times, Sinosphere (blog), 7 July 
14.
    \81\ ``Chinese Authorities Now Targeting Lawyers' Lawyers,'' Radio 
Free Asia, 9 June 14; Human Rights Watch, ``China: End Nationwide 
Crackdown on Activists,'' 29 June 14; ``Over 120 Chinese Legal 
Professionals Demand Guarantee of Right of Lawyers To Meet With Their 
Clients'' [Zhongguo 120 duo ming falu ren yaoqiu quebao lushi yu 
dangshi ren de huijian quan], Radio Free Asia, 15 June 14; Didi Kirsten 
Tatlow, ``Lawyer Charged After Trying To Defend June Fourth 
Commemorators,'' New York Times, Sinosphere (blog), 7 July 14.
    \82\ ``Chang Boyang's Criminal Detention Extended One Month, Case 
Involves Zhengzhou Yirenping's Receipt of Foreign Funds'' [Chang boyang 
bei yanchang xingju yige yue an she zhengzhou yirenping shou jingwai 
zijin], 6 September 14.
    \83\ Michael Forsythe and Chris Buckley, ``Journalist Missing Ahead 
of Tiananmen Anniversary,'' New York Times, 29 April 14; Gillian Wong, 
``China Detains Veteran Journalist for State Secrets,'' Associated 
Press, 8 May 14; Chinese Human Rights Defenders, ``149 Individuals 
Affected by Government Crackdown Around 25th Anniversary of Tiananmen 
Massacre,'' last visited 8 July 14.
    \84\ ``Calls Grow for Release of Chinese Student Held Over 
Tiananmen Tweet,'' Radio Free Asia, 13 June 14; ``Gao Yu Has Been 
Detained for More Than Two Months; Zhang Sizhi's Request To Meet With 
Her Was Rejected'' [Gao yu bei qiu yi yu liangge yue zhang sizhi yaoqiu 
jian ren bei ju], 24 June 14; Chinese Human Rights Defenders, ``149 
Individuals Affected by Government Crackdown Around 25th Anniversary of 
Tiananmen Massacre,'' last visited 8 July 14; ``Beijing Woman 
Journalist Gao Yu Detained Under Suspicion of Unlawfully Disseminating 
a Top Secret CCP Central Committee Document Overseas'' [Beijing nuzi 
gao yu she xiangwai feifa tigong zhongyang jimi wenjian bei ju], 
Xinhua, reprinted in NetEase, 8 May 14.
    \85\ ``China Holds Two More Rights Lawyers Under Criminal 
Detention,'' Radio Free Asia, 19 May 14; Shangquan Law Firm, 
``Investigative Report on the Implementation of the New Criminal 
Procedure Law (2013 Annual [Report])'' [Xin xingshi susongfa shishi 
zhuangkuang diaoyan baogao (2013 niandu)], 2 March 14, sec. 4(2.3); 
Wang Feng, ``New Criminal Procedure Law `Diagnosis' on First 
Anniversary'' [Xin xingsufa ``linchuang'' yi zhounian], 21st Century 
Business Herald, 15 March 14; ``Lawyer Confirms That Gao Yu's Arrest 
Was Approved One Month Ago; She Was Not Tortured; Her Case Has Not Yet 
Been Sent to the Procuratorate'' [Lushi zhengshi gao yu yi ge yue qian 
bei pibu wei shou kuxing anjian shangwei song jianchayuan], Radio Free 
Asia, 30 June 14.
    \86\ Wang Feng, ``New Criminal Procedure Law `Diagnosis' on First 
Anniversary'' [Xin xingsufa ``linchuang'' yi zhounian], 21st Century 
Business Herald, 15 March 14; Ji Xin, ``Criminal Defense Lawyers' 
Current `Three New Difficulties' '' [Lushi bianhu xian ``xin san 
nan''], Legal Daily Evening News, 14 May 14; Jerome A. Cohen, 
``Struggling for Justice: China's Courts and the Challenge of Reform,'' 
World Politics Review, 14 January 14; CECC, 2009 Annual Report, 10 
October 09, 106; CECC, 2008 Annual Report, 31 October 08, 39.
    \87\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 188; Wang Feng, ``New Criminal Procedure 
Law `Diagnosis' on First Anniversary'' [Xin xingsufa ``linchuang'' yi 
zhounian], 21st Century Business Herald, 15 March 14. See also Jie 
Yang, ``The Development of China's Death Penalty Representation 
Guidelines: A Learning Model Based on the ABA Guidelines for the 
Appointment and Performance of Defense Counsel in Death Penalty 
Cases,'' Hofstra Law Review, Vol. 52 (2013), 593.
    \88\ Wang Feng, ``New Criminal Procedure Law `Diagnosis' on First 
Anniversary'' [Xin xingsufa ``linchuang'' yi zhounian], 21st Century 
Business Herald, 15 March 14.
    \89\ ChinaAid, ``Zhang Shaojie Trial Continues, Attorneys' Request 
To Subpoena 10 Witnesses Refused'' [Zhang shaojie an xushen, lushi 
chuanzhao zhengren chuting bei jue], 29 April 14; ``Xu Zhiyong Appeals: 
Spare Any Talk About Rule of Law in China if the Second Instance Does 
Not Correct the Decision by the First Instance [Court]'' [Xu zhiyong 
shangsu shu: ershen ru bu jiuzheng, zhongguo mo tan fazhi], 3 February 
14, reprinted in China Change, 8 February 14. See also Liu Shuqing, 
``Defense Lawyer in Dr. Xu's Case Applies for 75 Main Witnesses To Give 
Testimony in Court'' [Xu boshi an bianhu ren shenqing 75 ming zhuyao 
zhengren chuting zuozheng beiwanglu], China Free Press, 4 April 14.
    \90\ An Ran, ``New Criminal Procedure Law in Effect for One Year: 
Rarely Has `Illegal Evidence' Been Excluded'' [Xin xingsufa shishi yi 
nian; shao you ``feifa zhengju'' bei paichu], Beijing Evening News, 2 
March 14; Eva Pils, Remarks on China's Domestic Policy and Human Rights 
Webcast, 2014 Bernstein China Symposium, Panel 1, U.S.-Asia Law 
Institute, New York University Law School, 3 April 14.
    \91\ An Ran, ``New Criminal Procedure Law in Effect for One Year: 
Rarely Has `Illegal Evidence' Been Excluded'' [Xin xingsufa shishi yi 
nian; shao you ``feifa zhengju'' bei paichu], Beijing Evening News, 2 
March 14.
    \92\ Shangquan Law Firm, ``Investigative Report on the 
Implementation of the New Criminal Procedure Law (2013 Annual 
[Report])'' [Xin xingshi susongfa shishi zhuangkuang diaoyan baogao 
(2013 niandu)], 2 March 14, sec. 4(2.8); An Ran, ``New Criminal 
Procedure Law in Effect for One Year: Rarely Has `Illegal Evidence' 
Been Excluded'' [Xin xingsufa shishi yi nian; shao you ``feifa 
zhengju'' bei paichu], Beijing Evening News, 2 March 14.
    \93\ Eva Pils, Remarks on China's Domestic Policy and Human Rights 
Webcast, 2014 Bernstein China Symposium, Panel 1, U.S.-Asia Law 
Institute, New York University Law School, 3 April 14.
    \94\ Josh Chin, ``Dissident Journalist Becomes Latest To Confess on 
Chinese State TV,'' Wall Street Journal, China Real Time Report (blog), 
8 May 14; Liu Xiaoyuan, ``Do Law Enforcement Agencies Have the 
Authority To Approve Journalists Entering Detention Centers To 
Interview Suspects? '' [Ban'an jiguan shifou youquan pizhun jizhe jinru 
kanshousuo caifang fanzui xianyi ren?], Liu Xiaoyuan's Blog, 26 October 
13; Chinese Human Rights Defenders, ``A Nightmarish Year Under Xi 
Jinping's `Chinese Dream': 2013 Annual Report on the Situation of Human 
Rights Defenders in China,'' March 2014, 2, 5.
    \95\ Michael Forsythe and Chris Buckley, ``Journalist Missing Ahead 
of Tiananmen Anniversary,'' New York Times, 29 April 14; Gillian Wong, 
``China Detains Veteran Journalist for State Secrets,'' Associated 
Press, 8 May 14; Human Rights in China, ``Restrictions, Detentions, 
Disappearances, and Arrests Related to June 4, 2014,'' 8 July 14.
    \96\ Gillian Wong, ``China Detains Veteran Journalist for State 
Secrets,'' Associated Press, 8 May 14; Chinese Human Rights Defenders, 
``149 Individuals Affected by Government Crackdown Around 25th 
Anniversary of Tiananmen Massacre,'' last visited 8 July 14.
    \97\ Gillian Wong, ``China Detains Veteran Journalist for State 
Secrets,'' Associated Press, 8 May 14; Verna Yu, ``Journalist Gao Yu in 
Detention for Allegedly Leaking Secret Communist Party Document,'' 
South China Morning Post, 9 May 14; Human Rights in China, 
``Restrictions, Detentions, Disappearances, and Arrests Related to June 
4, 2014,'' 8 July 14. Gao was permitted a first meeting with her 
attorney, Zhang Sizhi, only in late June 2014. See ``Lawyer Confirms 
That Gao Yu's Arrest Was Approved One Month Ago; She Was Not Tortured; 
Her Case Has Not Yet Been Sent to the Procuratorate'' [Lushi zhengshi 
gao yu yi ge yue qian bei pibu wei shou kuxing anjian shangwei song 
jianchayuan], Radio Free Asia, 30 June 14.
    \98\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13.
    \99\ CECC, 2013 Annual Report, 10 October 13, 83.
    \100\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 14; Julie Makinen, ``Televised Confessions 
in China Raise Worries,'' Los Angeles Times, 2 March 14.
    \101\ Keith Zhai, ``Celebrity Blogger Charles Xue Biqun Released on 
Bail,'' South China Morning Post, 17 April 14; Julie Makinen, 
``Televised Confessions in China Raise Worries,'' Los Angeles Times, 2 
March 14.
    \102\ Josh Chin, ``Dissident Journalist Becomes Latest To Confess 
on Chinese State TV,'' Wall Street Journal, China Real Time Report 
(blog), 8 May 14.
    \103\ `` `I Was Framed': Court Outburst by Mining Tycoon Liu Han as 
He Is Sentenced to Death,'' South China Morning Post, 24 May 14; Julie 
Makinen, ``Televised Confessions in China Raise Worries,'' Los Angeles 
Times, 2 March 14.
    \104\ Liu Xiaoyuan, ``Do Law Enforcement Agencies Have the 
Authority To Approve Journalists Entering Detention Centers To 
Interview Suspects? '' [Ban'an jiguan shifou youquan pizhun jizhe jinru 
kanshousuo caifang fanzui xianyi ren?], Justice Net, Liu Xiaoyuan Law 
Blog, 26 October 13.
    \105\ Julie Makinen, ``Televised Confessions in China Raise 
Worries,'' Los Angeles Times, 2 March 14.
    \106\ Amnesty International, ``Torture in 2014: 30 Years of Broken 
Promises,'' ACT 40/004/2014, May 2014, 33-34; Eva Pils, Remarks on 
China's Domestic Policy and Human Rights Webcast, 2014 Bernstein China 
Symposium, Panel 1, U.S.-Asia Law Institute, New York University Law 
School, 3 April 14; An Ran, ``New Criminal Procedure Law in Effect for 
One Year: Rarely Has `Illegal Evidence' Been Excluded'' [Xin xingsufa 
shishi yi nian shao you ``feifa zhengju'' bei paichu], Beijing Evening 
News, 2 March 14; Joshua Rosenzweig, ``Tang Jitian Recounts Torture and 
Detention in Heilongjiang,'' Siweiluozi's Blog, 31 May 14; Dui Hua 
Foundation, ``Is Detention Center Law Enough To Prevent Police Abuse? 
'' Dui Hua Human Rights Journal, 2 July 14; CECC, 2013 Annual Report, 
10 October 13, 83.
    \107\ ``Joint Statement by Four Lawyers Detained in Jiansanjiang 
After Their Release'' [Jiansanjiang bei ju si lushi huoshi hou de 
lianhe shengming], Boxun, 13 April 14; Joshua Rosenzweig, ``Tang Jitian 
Recounts Torture and Detention in Heilongjiang,'' Siweiluozi's Blog, 31 
May 14. For more information on these cases, see the Commission's 
Political Prisoner Database records 2011-00180 on Tang Jitian, 2011-
00179 on Jiang Tianyong, 2014-00122 on Wang Cheng, and 2014-00139 on 
Zhang Junjie.
    \108\ ``Liu Xiaoyuan Detained in Jiangsu While Handling a Case; 
Tang Jitian and Others Issue Statements Condemning the Revocation of 
Their Lawyers' Licenses'' [Liu xiaoyuan jiangsu banan bei juya; tang 
jitian deng fa shengming qianze lushizheng bei diaoxiao], Radio Free 
Asia, 1 July 14.
    \109\ ``I Was Framed: Court Outburst by Mining Tycoon Liu Han as He 
Is Sentenced to Death,'' South China Morning Post, 23 May 14.
    \110\ ``Detained Uighur Scholar Went for Days Without Food,'' 
Associated Press, reprinted in Washington Post, 26 June 14; Human 
Rights Watch, ``China: Baseless Charge Against Uighur Scholar,'' 30 
July 14.
    \111\ ``Beijing Court Tries `Interceptors' Over Black Jail Torture 
Claims,'' Radio Free Asia, 14 August 14; Teng Biao, ``What Is a `Legal 
Education Center' in China,'' China Change, 3 April 14; Chris Luo, 
``Chinese Prosecutors `Worse Than Police' in Torturing Suspects for 
Confessions: Legal Experts,'' South China Morning Post, 18 March 14; 
Amnesty International, ``Torture in 2014: 30 Years of Broken 
Promises,'' May 2014; Gillian Wong, ``In China, Brutality Yields 
Confessions of Graft,'' Associated Press, 10 March 14; David Wertime, 
``Inside China's Blackest Box: Even High Cadres Quake at the Term 
`Shuanggui,' An Extrajudicial Interrogation Method That Has Claimed 
Lives,'' Foreign Policy, 2 July 14.
    \112\ Teng Biao, ``What Is a `Legal Education Center' in China,'' 
China Change, 3 April 14. See also Amnesty International, `` `Changing 
the Soup but Not the Medicine? ': Abolishing Re-Education Through 
Labour in China,'' ASA 17/042/2013, 17 December 13, 9.
    \113\ ``Official Discipline: Policing the Party,'' Economist, 1 
September 12; Flora Sapio, ``Shuanggui and Extralegal Detention in 
China,'' China Information, Vol. 22, No. 1, March 2008, 7, 12; CECC, 
2013 Annual Report, 10 October 13, 80; CECC, 2008 Annual Report, 31 
October 08, 35.
    \114\ Andrew Jacobs, ``Accused Chinese Party Members Face Harsh 
Discipline,'' New York Times, 14 June 12; Gillian Wong, ``In China, 
Brutality Yields Confessions of Graft,'' Associated Press, 10 March 14; 
CECC, 2013 Annual Report, 10 October 13, 80.
    \115\ Gillian Wong, ``In China, Brutality Yields Confessions of 
Graft,'' Associated Press, 10 March 14; Leon Watson, ``Limbs Broken, 
Spoon-Fed Excrement and Forced To Smoke Ten Cigarettes Simultaneously: 
Former Chinese Official Reveals How He Was Tortured for Six Months in 
Corruption Probe,'' Daily Mail, 11 March 14.
    \116\ Ibid.
    \117\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Report on Human Rights Practices--2013, China 
(Includes Tibet, Hong Kong and Macau),'' 27 February 14. See also 
Chinese Human Rights Defenders, ``Watch List of Detainees and Prisoners 
of Conscience in Need of Medical Attention,'' 24 June 14.
    \118\ Renee Xia and Perry Link, ``China: Detained to Death,'' New 
York Review of Books (blog), 15 May 14; ``Inadequate Medical Care for 
Cao Shunli Before Her Death Contradicts International Law,'' 
Congressional-Executive Commission on China, 2 April 14; Understanding 
China's Crackdown on Rights Advocates: Personal Accounts and 
Perspectives, Hearing of the Congressional-Executive Commission on 
China, 8 April 14, Written Statement Submitted by Teng Biao, Human 
Rights Lawyer and Scholar.
    \119\ Renee Xia and Perry Link, ``China: Detained to Death,'' New 
York Review of Books (blog), 15 May 14; ``Inadequate Medical Care for 
Cao Shunli Before Her Death Contradicts International Law,'' 
Congressional-Executive Commission on China, 2 April 14.
    \120\ Renee Xia and Perry Link, ``China: Detained to Death,'' New 
York Review of Books (blog), 15 May 14.
    \121\ Ibid.
    \122\ Chinese Human Rights Defenders, ``[CHRB] Arrested Uyghur 
Scholar Ilham Tohti Suffering From Multiple Illnesses & Other News 
(June 20-June 26, 2014),'' 27 June 14.
    \123\ Ibid.; ``Detained Uighur Scholar Went for Days Without 
Food,'' Associated Press, reprinted in Washington Post, 26 June 14.
    \124\ Chinese Human Rights Defenders, ``Watch List of Detainees and 
Prisoners of Conscience in Need of Medical Attention,'' 24 June 14; 
Chen Guangcheng, ``Chen Guangcheng: Still Waiting on China To Honor Its 
Pledges,'' Washington Post, 24 June 14; UN Human Rights Council, 
Working Group on Arbitrary Detention, Opinions Adopted by the Working 
Group on Arbitrary Detention at Its Sixty-Ninth Session, 22 April-1 May 
2014, No. 2/2014 (China), A/HRC/WGAD/2014/xx, 4 June 14, para. 13.
    \125\ Chinese Human Rights Defenders, ``Watch List of Detainees and 
Prisoners of Conscience in Need of Medical Attention,'' 24 June 14.
    \126\ Dui Hua Foundation, ``Is Detention Center Law Enough To 
Prevent Police Abuse? '' Dui Hua Human Rights Journal, 2 July 14; 
Chinese Communist Party Central Committee, Decision on Some Major 
Issues Concerning Comprehensively Deepening the Reform, reprinted in 
China Internet Information Center, 16 January 14, sec. 9(34); Yang 
Jinzhi and Yue Deliang, ``Supreme People's Court and Supreme People's 
Procuratorate Work Reports `Declare War' on Wrongful Convictions and 
Miscarriages of Justice: Will `Correct Mistakes' and `[Investigate] and 
Affix Responsibility' '' [Lianggao baogao xiang yuanjia cuoan 
``xuanzhan'': yao ``jiucuo'' ye yao ``jiuze''], Xinhua, 12 March 14.
    \127\ Chinese Communist Party Central Committee, Decision on Some 
Major Issues Concerning Comprehensively Deepening the Reform, reprinted 
in China Internet Information Center, 16 January 14, sec. 9(34); ``SPC 
Opinion on Completing Systems for Prevention of Wrongful Cases,'' China 
Law Translate (blog), 21 November 13; Yang Jinzhi and Yue Deliang, 
``Supreme People's Court and Supreme People's Procuratorate Work 
Reports `Declare War' on Wrongful Convictions and Miscarriages of 
Justice; Will `Correct Mistakes' and [Investigate] and Affix 
Responsibility'' [Lianggao baogao xiang yuanjia cuoan ``xuanzhan'': yao 
``jiucuo'' ye yao ``jiuze''], Xinhua, 12 March 14.
    \128\ Zhou Bing and Jiang Hao, ``Legal Reforms Must Start From the 
Things the Masses Care Most About'' [Sifa gaige cong qunzhong zui 
guanqie zhi chu gai qi], Legal Daily, 3 June 14.
    \129\ State Council Information Office, ``White Paper on Progress 
in China's Human Rights in 2013,'' reprinted in Xinhua, 26 May 14.
    \130\ He Jiahong and He Ran, ``Empirical Studies of Wrongful 
Convictions in Mainland China,'' 80 U. Cin. L. Rev. Issue 4, 8 
September 13, 11; CECC, 2013 Annual Report, 10 October 13, 83-84.
    \131\ An Ran, ``New Criminal Procedure Law in Effect for One Year: 
Rarely Has `Illegal Evidence' Been Excluded'' [Xin xingsufa shishi yi 
nian shao you ``feifa zhengju'' bei paichu], Beijing Evening News, 2 
March 14; Eva Pils, Remarks on China's Domestic Policy and Human Rights 
Webcast, 2014 Bernstein China Symposium, Panel 1, U.S.-Asia Law 
Institute, New York University Law School, 3 April 14; CECC, 2013 
Annual Report, 10 October 13, 83-84.
    \132\ Stanley Lubman, ``China Will Struggle To Walk the Talk on 
Legal Reform,'' Wall Street Journal, China Real Time Report (blog), 3 
December 13. See also Jeremy Daum, ``Walkthrough for SPC Opinion on 
Wrongful Cases,'' China Law Translate (blog), 21 November 13.
    \133\ Amnesty International, ``Death Sentences and Executions in 
2013,'' ACT 50/001/2014, March 2014, 7.
    \134\ See, e.g., UN GAOR, Hum. Rts. Coun., 25th Sess., Report of 
the Working Group on the Universal Periodic Review--China, A/HRC/25/5, 
4 December 13, paras. 122, 130, 136, 143, 147, 164, 176, and 186.107-
114.
    \135\ UN GAOR, Hum. Rts. Coun., 25th Sess., Agenda Item 6, 
Universal Periodic Review, Report of the Working Group on the Universal 
Periodic Review--China, A/HRC/25/5, 4 December 13, para. 186.108.
    \136\ UN GAOR, Hum. Rts. Coun., 25th Sess., Agenda Item 6, 
Universal Periodic Review, Report of the Working Group on the Universal 
Periodic Review--China, Addendum, Views on Conclusions and/or 
Recommendations, Voluntary Commitments and Replies Presented by the 
State Under Review, A/HRC/25/5/Add.1, 27 February 14, para. 186.108; UN 
GAOR, Hum. Rts. Coun., 25th Sess., Agenda Item 6, Universal Periodic 
Review, Report of the Working Group on the Universal Periodic Review--
China, A/HRC/25/5, 4 December 13, para. 186.108.
    \137\ Amnesty International, ``Death Sentences and Executions in 
2013,'' ACT 50/001/2014, March 2014, 5.
    \138\ Dui Hua Foundation, ``Our Work: Criminal Justice,'' last 
visited 2 July 14; ``The Death Penalty: Strike Less Hard,'' Economist, 
3 August 13; CECC, 2013 Annual Report, 10 October 13, 84.
    \139\ ``Execution With No Farewell Spotlights China Death 
Penalty,'' Agence France-Presse, reprinted in Bangkok Post, 11 February 
14; Chinese Communist Party Central Committee, Decision on Some Major 
Issues Concerning Comprehensively Deepening the Reform, reprinted in 
China Internet Information Center, 16 January 14, sec. 9(34). In 2011, 
with the eighth amendment to the PRC Criminal Law, the National 
People's Congress Standing Committee rendered 13 non-violent crimes no 
longer eligible for the death penalty, reducing the number to 55. See 
Zhang Yan and He Dan, ``13 Crimes Exempted From Death Penalty,'' China 
Daily, 2 May 11.
    \140\ Chinese Communist Party Central Committee, Decision on Some 
Major Issues Concerning Comprehensively Deepening the Reform, reprinted 
in China Internet Information Center, 16 January 14, sec. 9(34).
    \141\ ``China's Top Legislature Considers Trimming Death Penalty 
Crimes,'' Xinhua, 9 March 14; ``36 Delegates Propose Abolishing the 
Death Penalty for Fraudulent Fundraising'' [36 ming daibiao tiyi feichu 
jizi zhapianzui sixing], Southern Weekend, 12 March 14.
    \142\ ``36 Delegates Propose Abolishing the Death Penalty for 
Fraudulent Fundraising'' [36 ming daibiao tiyi feichu jizi zhapianzui 
sixing], Southern Weekend, 12 March 14; Xiaoqing Pi, ``Tough Questions 
After Chinese Court Mishandles Execution,'' Wall Street Journal, China 
Real Time Report (blog), 16 July 13; CECC, 2013 Annual Report, 10 
October 13, 84-85.
    \143\ ``Senior Official Admits Use of Organs of Executed Prisoners 
Has Not Stopped; [Prisoners'] Families Kept in the Dark; Citizen 
Donations Increasing Gradually'' [Gaoguan ren quyong siqiu qiguan 
weizhi benren jiashu jubu zhiqing cheng minzhong juanzeng yi jianduo], 
Ming Pao, 12 March 14; CECC, 2013 Annual Report, 10 October 13, 85.
    \144\ CECC, 2013 Annual Report, 10 October 13, 85.
    \145\ Shan Juan, ``Govt Seeks Fairness in Organ Donor System for 
Inmates,'' China Daily, 7 March 14; Adnan Sharif et al., ``Organ 
Procurement From Executed Prisoners in China,'' American Journal of 
Transplantation 2014, XX, 24 July 14, 4.
    \146\ ``China Plans To Stop Using Organs From Executed Prisoners 
for Transplants'' [Zhongguo jihua quxiao siqiu qiguan yizhi], Deutsche 
Welle, 9 April 14; Matthew Robertson, ``Top Chinese Transplant Official 
Says There's No Plan To Stop Using Prisoner Organs,'' Epoch Times, 11 
April 14; World Health Organization, ``New Era for Organ Donation and 
Transplant in China,'' Bulletin of the World Health Organization, Vol. 
90, No. 11, November 2012.
    Notes to Section II--Freedom of Religion

    \1\ PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 83, 15 March 99, 14 March 04, art. 36.
    \2\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) on 10 December 48, art. 
18; International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) on 16 December 66, entry into 
force 23 March 76, art. 18.
    \3\ State Administration for Religious Affairs, Regulations on 
Religious Affairs [Zongjiao shiwu tiaoli], issued 30 November 04, 
effective 1 March 05, arts. 6, 12.
    \4\ Buddhist Association of China, ``NPC Delegate Shi Yongxin: 
Issue of Most Concern Is Society's Smooth and Sustainable Development'' 
[Quanguo daibiao shi yongxin: zui guanzhu shehui pingwen chixu fazhan 
wenti], 12 March 14.
    \5\ ``Wang Zuo'an: Religious Work Is in Essence Mass Work'' [Wang 
zuo'an: zongjiao gongzuo benzhi shang shi qunzhong gongzuo], People's 
Daily, 26 November 13.
    \6\  Ibid.
    \7\  State Administration for Religious Affairs, ``State 
Administration for Religious Affairs 2014 Work Plan Key Points'' 
[Guojia zongjiao shiwuju 2014 nian gongzuo yaodian], 2 January 14.
    \8\  State Administration for Religious Affairs, Implementation 
Measures on Administrative Licensing [Guojia zongjiao shiwuju xingzheng 
xuke shishi banfa], issued 31 December 13, effective 8 January 14; 
State Administration for Religious Affairs, Implementation Measures on 
Administrative Punishment [Guojia zongjiao shiwuju xingzheng chufa 
shishi banfa], issued 31 December 13, effective 8 January 14; State 
Administration for Religious Affairs, Administrative Enforcement 
Misconduct Accountability System [Guojia zongjiao shiwuju xingzheng 
zhifa guocuo zeren zhuijiu zhidu], issued 31 December 13, effective 8 
January 14.
    \9\  The Regulations on Religious Affairs (RRA) provide that 
religious matters requiring administrative licenses include: the 
establishment of religious academic institutions (arts. 8-9); the 
establishment and registration of sites for religious activities (arts. 
13-16); large-scale religious activities held in multiple provinces, 
autonomous regions and municipalities (art. 22); the building of large 
outdoor religious statues (art. 24); and the succession of ``living 
Buddhas'' in Tibetan Buddhism (art. 27). The RRA, however, does not 
provide specific procedures for obtaining the required administrative 
licenses. See State Administration for Religious Affairs (SARA), 
Regulations on Religious Affairs [Zongjiao shiwu tiaoli], issued 30 
November 04, effective 1 March 05, arts. 8-9, 13-16, 22, 24, 27. The 
new SARA measure on administrative licensing provides details 
specifying SARA's Operations Division shall be in charge of handling 
applications for administrative licenses (art. 5); the circumstances 
under which an application can be rejected or when supplemental 
materials are required for further processing (art. 6); SARA's Politics 
and Law Division shall be in charge of examining the application and 
the SARA leadership shall approve the application (art. 8); and 
approval or rejection of an application shall be communicated to the 
applicant via written notification, and in the case of rejection, the 
applicant shall be notified of the right to administrative 
reconsideration (art. 9). State Administration for Religious Affairs, 
Implementation Measures on Administrative Licensing [Guojia zongjiao 
shiwuju xingzheng xuke shishi banfa], issued 31 December 13, effective 
8 January 14, arts. 5-6, 8-9.
    \10\  The Regulations on Religious Affairs (RRA) provide conditions 
under which religious groups and government employees can be punished. 
The RRA, however, does not provide procedures for imposing 
administrative punishments. State Administration for Religious Affairs, 
Regulations on Religious Affairs (RRA) [Zongjiao shiwu tiaoli], issued 
30 November 04, effective 1 March 05, arts. 38-46. The new SARA measure 
on administrative punishments provides details specifying that SARA's 
Operations Division shall be in charge of implementing administrative 
punishments (arts. 5-6); SARA's Operations Division offers suggestions 
for administrative punishments based on different circumstances (art. 
7); SARA's Politics and Law Division should examine the suggestion and 
report to SARA's leadership for approval, and the Division should 
review appeals (art. 8); the party involved is entitled to a hearing in 
the event a suggestion for administrative punishment has been made 
(art. 9); a written decision containing relevant details shall be given 
to the party involved (arts. 10-11); SARA personnel who violate 
relevant laws and regulations during the process of implementing 
administrative punishment shall be disciplined or punished by the SARA 
Disciplinary Committee and Human Resources Division, and when 
circumstances are serious enough to constitute a crime, SARA personnel 
shall be transferred to judicial authorities (art. 14). State 
Administration for Religious Affairs, Implementation Measures on 
Administrative Punishment [Guojia zongjiao shiwuju xingzheng chufa 
shishi banfa], issued 31 December 13, effective 8 January 14, arts. 5-
11, 14.
    \11\ State Administration for Religious Affairs, Administrative 
Enforcement Misconduct Accountability System [Guojia zongjiao shiwuju 
xingzheng zhifa guocuo zeren zhuijiu zhidu], issued 31 December 13, 
effective 8 January 14.
    \12\ Buddhist Association of China, ``Bureau Deputy Director Jiang 
Jianyong Speaks at Opening Ceremony'' [Jiang jianyong fu juzhang zai 
kaimushi shang jianghua], 27 October 13.
    \13\ State Administration for Religious Affairs, ``State 
Administration for Religious Affairs 2014 Work Plan Key Points'' 
[Guojia zongjiao shiwuju 2014 nian gongzuo yaodian], 2 January 14; 
State Administration for Religious Affairs, United Front Work 
Department, National Development and Reform Commission, Ministry of 
Public Security, Ministry of Housing and Urban-Rural Development, 
Ministry of Culture, State Administration for Industry and Commerce, 
China National Tourism Administration, China Security Regulatory 
Commission, State Administration of Cultural Heritage, Opinion 
Regarding Issues Related to the Management of Buddhist Monasteries and 
Taoist Temples [Guanyu chuli sheji fojiao simiao, daojiao gongguan 
guanli youguan wenti de yijian], issued 8 October 12.
    \14\ Ibid.
    \15\ ChinaAid, ``Fujian: Chengguan Forcibly Demolished Newly-Built 
Temple in the Village, Clashed With Villagers'' [Fujian: chengguan 
qiangchai cunzhong xinjian simiao yu cunmin bao chongtu], 27 February 
14.
    \16\ ``Zhuhai Buddhist Organization `Huazang Famen' Raided by 
Police, Founder and Followers Detained'' [Zhuhai fojiao zuzhi ``huazang 
famen'' zao jingfang chaocha chuangban ren ji duoming dizi beibu], 
Radio Free Asia, 6 August 14.
    \17\ Zhang Ningdan, ``Zhuhai Police Investigate and Deal With 
Illegal Organization `Huazang Famen,' 15 People Criminally Detained'' 
[Zhuhai jingfang chachu ``huazang famen'' feifa zuzhi 15 ren bei 
xingju], Legal Daily, reprinted in Xinhua, 6 August 14; ``Zhuhai 
Buddhist Organization `Huazang Famen' Raided by Police, Founder and 
Followers Arrested'' [Zhuhai fojiao zuzhi ``huazang famen'' zao 
jingfang chaocha chuangban ren ji duoming dizi beibu], Radio Free Asia, 
6 August 14. For more information on Wu Zeheng's case, see the 
Commission's Political Prisoner Database record 2011-00482.
    \18\ Letter from Jared Genser, Perseus Strategies, to Juan E. 
Mendez, Special Rapporteur on Torture and Other Cruel, Inhuman, and 
Degrading Treatment, UN Office of the High Commissioner for Human 
Rights, 19 August 14.
    \19\ ``Thousands Bid Farewell to `Underground' Catholic Bishop 
Joseph Fan,'' Agence France-Presse, reprinted in Gulf News, 22 March 
14.
    \20\ Zhang Yiwei and Bai Tiantian, ``Catholic Patriotic Association 
Warns Vatican Not To Interfere,'' Global Times, 19 March 14; ``Chinese 
Bishop Who Led `Underground' Church Dies at 94,'' Catholic World News, 
reprinted in Catholic Culture, 5 November 13; Austin Ramzy, ``Catholic 
Bishop Who Spent Decades in Prison Dies in Shanghai,'' New York Times, 
Sinosphere (blog), 17 March 14; John Sudworth, ``China's Detained 
Bishop Ma `Given Political Lessons,' '' BBC, 24 December 13; Bernardo 
Cervellera, ``Two Priests From Underground Church in Prison. Doubts 
About Xi Jinping's `Unprecedented' Reforms,'' Asia News, 19 November 
13; ``China Detains Underground Catholic Administrator,'' UCA News, 9 
June 14.
    \21\ ``Chinese Bishop Who Led `Underground' Church Dies at 94,'' 
Catholic World News, reprinted in Catholic Culture, 5 November 13; 
Bernardo Cervellera, ``Remembering Mgr Peter Liu Guangdong, `Standard-
Bearer' of the Underground Church,'' Asia News, 8 November 13.
    \22\ Ibid.
    \23\ Rui Di, ``Chinese Underground Church Bishop Liu Guangdong'' 
[Zhongguo dixia jiaohui zhujiao liu guangdong], Radio France 
Internationale, 7 November 13; Bernardo Cervellera, ``Remembering Mgr 
Peter Liu Guangdong, `Standard-Bearer' of the Underground Church,'' 
Asia News, 8 November 13.
    \24\ Austin Ramzy, ``Catholic Bishop Who Spent Decades in Prison 
Dies in Shanghai,'' New York Times, Sinosphere (blog), 17 March 14; 
Ellen Teague and Abigail Frymann, ``Chinese Officials Refuse Cathedral 
Funeral Request for Bishop,'' Tablet, 19 March 14.
    \25\ Austin Ramzy, ``Catholic Bishop Who Spent Decades in Prison 
Dies in Shanghai,'' New York Times, Sinosphere (blog), 17 March 14.
    \26\ Ellen Teague and Abigail Frymann, ``Chinese Officials Refuse 
Cathedral Funeral Request for Bishop,'' Tablet, 19 March 14; 
``Thousands Bid Farewell to `Underground' Catholic Bishop Joseph Fan,'' 
Agence-France Presse, reprinted in Gulf News, 22 March 14.
    \27\ ``Five Thousand Catholics Bid Farewell to Bishop Fan 
Zhongliang, Memorial Service Held for the Bishop in Shanghai'' [Wuqian 
jiaoyou songbie fan zhongliang shanghai juxing zhujiao zhuisihui], 
Radio Free Asia, 22 March 14.
    \28\ Katie Nelson, ``Shanghai's Bishop Ma Will Remain in 
Detainment, Insiders Say,'' Shanghaiist (blog), 19 June 14; Austin 
Ramzy, ``Catholic Bishop Who Spent Decades in Prison Dies in 
Shanghai,'' New York Times, Sinosphere (blog), 17 March 14; John 
Sudworth, ``China's Detained Bishop Ma `Given Political Lessons,' '' 
BBC, 24 December 13.
    \29\ John Sudworth, ``China's Detained Bishop Ma `Given Political 
Lessons,' '' BBC, 24 December 13. For more information on Thaddeus Ma 
Daqin's case, see the Commission's Political Prisoner Database record 
2013-00336.
    \30\ Ibid.
    \31\ ``Thousands Bid Farewell to `Underground' Catholic Bishop 
Joseph Fan,'' Agence France-Presse, reprinted in Gulf News, 22 March 
14; ``Five Thousand Catholics Bid Farewell to Bishop Fan Zhongliang, 
Memorial Service Held for the Bishop in Shanghai'' [Wuqian jiaoyou 
songbie fan zhongliang shanghai juxing zhujiao zhuisi hui], Radio Free 
Asia, 22 March 14.
    \32\ Bernardo Cervellera, ``Two Priests From Underground Church in 
Prison. Doubts About Xi Jinping's `Unprecedented' Reforms,'' Asia News, 
19 November 13. For more information on Tian Datong's case, see the 
Commission's Political Prisoner Database record 2014-00069.
    \33\ Ibid.
    \34\ ``China Detains Underground Catholic Administrator: Father 
John Peng Weizhao Missing Since May 30,'' UCA News, 9 June 14.
    \35\ ``Pope May Visit China This Summer, Says China and the Vatican 
Are `Close,' '' Catholic Online, 7 March 14; ``Pope Francis Hints at 
Warming Ties With Beijing,'' Want China Times, 21 March 14; CECC, 2013 
Annual Report, 10 October 13, 89.
    \36\ ``Pope May Visit China This Summer, Says China and the Vatican 
Are `Close,' '' Catholic Online, 7 March 14; Zhang Yiwei and Bai 
Tiantian, ``Catholic Patriotic Association Warns Vatican Not To 
Interfere,'' Global Times, 19 March 14.
    \37\ ``Pope Wants China Dialogue, Freedom for Church,'' Associated 
Press, reprinted in Washington Post, 19 August 14; ``Pope Wants China 
Visit, Seeks Church Freedom,'' Agence France-Presse and Associated 
Press, reprinted in China Post, 20 August 14; Calum MacLeod, ``From 
30,000 Feet, Pope Francis Reaches Out to Beijing,'' USA Today, 13 
August 14.
    \38\ ``Pope Francis Message to China Leader Lost in Space,'' Agence 
France-Presse and Associated Press, reprinted in Inquirer, 20 August 
14; ``Pope Wants China Dialogue, Freedom for Church,'' Associated 
Press, reprinted in Washington Post, 19 August 14; Calum MacLeod, 
``From 30,000 Feet, Pope Francis Reaches Out to Beijing,'' USA Today, 
13 August 14.
    \39\ Chang Meng, ``China Willing To Have Dialogue With Vatican: 
FM,'' Global Times, 20 August 14; ``Can He Break Christian Persecution? 
Pope Francis Says He's Ready To Try in China,'' Catholic Online, 19 
August 14; Josephine McKenna, ``China to Pope Francis: Don't 
`Interfere' With Religion,'' Religion News Service, reprinted in 
Washington Post, 20 August 14; ``Pope Wants China Dialogue, Freedom for 
Church,'' Associated Press, reprinted in Washington Post, 19 August 14; 
``Pope Francis Message to China Leader Lost in Space,'' Agence France-
Presse and Associated Press, reprinted in Inquirer, 20 August 14; 
``Pope Wants China Visit, Seeks Church Freedom,'' Agence France-Presse 
and Associated Press, reprinted in China Post, 20 August 14.
    \40\ Chang Meng, ``China Willing To Have Dialogue With Vatican: 
FM,'' Global Times, 20 August 14; Harry W.S. Lee, ``China and the Papal 
Pivot to Asia,'' World Policy (blog), 26 August 14; Christopher Bodeen, 
``Papal Visit to South Korea Brings China Opportunity,'' Associated 
Press, reprinted in Yahoo! News, 14 August 14.
    \41\ Josephine McKenna, ``China to Pope Francis: Don't `Interfere' 
With Religion,'' Religion News Service, reprinted in Washington Post, 
20 August 14.
    \42\ Christopher Bodeen, ``Who Stopped China Catholics Going to 
South Korea,'' Associated Press, reprinted in Taiwan News, 16 August 
14; Harry W.S. Lee, ``China and the Papal Pivot to Asia,'' World Policy 
(blog), 26 August 14.
    \43\ Ibid.; Des Cambaliza, ``Chinese Catholics Cheer Pope's Visit 
Despite News Blackout,'' China Topix, 18 August 14.
    \44\ Yangliuxue Township Communist Party Committee, ``Yangliuxue 
Township 2013-2015 Transformation Decisive Battle Plan'' [Yangliuxue 
zhen 2013-2015 nian jiaoyu zhuanhua juezhan fang'an], reprinted in 
Bingzhou City Yangguang Rural Credit Union Net, 10 September 13; 
Xiyangjiang Township Cult Problem Prevention and Management Team, 
``Xiyangjiang Township 2013-2015 Transformation Decisive Implementation 
Plan'' [Xiyangjiang zhen 2013-2015 nian jiaoyu zhuanhua juezhan shishi 
fang'an], 20 June 13; Falun Dafa Information Center, ``Overview of 
Persecution,'' 4 May 08; CECC, 2013 Annual Report, 10 October 13, 89; 
CECC, 2012 Annual Report, 10 October 12, 81.
    \45\ Falun Dafa Information Center, ``Overview of Persecution,'' 4 
May 08; CECC, 2012 Annual Report, 10 October 12, 81.
    \46\ Yangliuxue Township Communist Party Committee, ``Yangliuxue 
Township 2013-2015 Transformation Decisive Battle Plan'' [Yangliuxue 
zhen 2013-2015 nian jiaoyu zhuanhua juezhan fang'an], reprinted in 
Bingzhou City Yangguang Rural Credit Union Net, 10 September 13; 
Xiyangjiang Township Cult Problem Prevention and Management Team, 
``Xiyangjiang Township 2013-2015 Transformation Decisive Implementation 
Plan'' [Xiyangjiang zhen 2013-2015 nian jiaoyu zhuanhua juezhan shishi 
fang'an], 20 June 13; Jinhe Township government, ``2013-2015 
Transformation Decisive Battle Implementation Plan'' [2013-2015 nian 
jiaoyu zhuanhua juezhan shishi fang'an], 13 August 13; Tongshan Middle 
School, ``Tongshan Middle School 2013-2015 Anti-Cult Transformation 
Decisive Battle Implementation Plan'' [Tongshan zhongxue 2013-2015 nian 
fan xiejiao jiaoyu zhuanhua juezhan shishi fang'an], 13 May 13; 
Fanxingji Township Communist Party Committee, ``Linquan County 2013-
2015 Transformation Decisive Battle Implementation Plan'' [Linquan xian 
2013-2015 nian jiaoyu zhuanhua juezhan shishi fang'an], 9 October 13; 
Xingzipu Township Government, ``Xingzipu Township 2013 Transformation 
Decisive Battle and Consolidation Implementation Work Plan'' [Xingzipu 
zhen 2013 nian jiaoyu zhuanhua juezhan yu gonggu shishi gongzuo 
fang'an], 11 September 13; China Anti-Cult Association, ``2013 Gansu 
Province Anti-Cult Theoretical Research and Practical Experience 
Seminar Convened in Cheng County, Longnan Municipality'' [2013 nian 
gansu sheng fan xiejiao lilun yanjiu yu shijian jingyan yantaohui zai 
longnan chengxian zhaokai], reprinted in Gansu Association for Science 
and Technology, 26 September 13.
    \47\ Yangliuxue Township Communist Party Committee, ``Yangliuxue 
Township 2013-2015 Transformation Decisive Battle Plan'' [Yangliuxue 
zhen 2013-2015 nian jiaoyu zhuanhua juezhan fang'an], reprinted in 
Bingzhou City Yangguang Rural Credit Union Net, 10 September 13; 
Tongshan Middle School, ``Tongshan Middle School 2013-2015 Anti-Cult 
Transformation Decisive Battle Implementation Plan'' [Tongshan zhongxue 
2013-2015 nian fan xiejiao jiaoyu zhuanhua juezhan shishi fang'an], 13 
May 13; Fanxingji Township Communist Party Committee, ``Linquan County 
2013-2015 Transformation Decisive Battle Implementation Plan'' [Linquan 
xian 2013-2015 nian jiaoyu zhuanhua juezhan shishi fang'an], 9 October 
13; Xingzipu Township Government, ``Xingzipu Township 2013 
Transformation Decisive Battle and Consolidation Implementation Work 
Plan'' [Xingzipu zhen 2013 nian jiaoyu zhuanhua juezhan yu gonggu 
shishi gongzuo fang'an], 11 September 13.
    \48\ Yangliuxue Township Communist Party Committee, ``Yangliuxue 
Township 2013-2015 Transformation Decisive Battle Plan'' [Yangliuxue 
zhen 2013-2015 nian jiaoyu zhuanhua juezhan fang'an], reprinted in 
Bingzhou City Yangguang Rural Credit Union Net, 10 September 13; 
Xiyangjiang Township Cult Problem Prevention and Management Team, 
``Xiyangjiang Township 2013-2015 Transformation Decisive Implementation 
Plan'' [Xiyangjiang zhen 2013-2015 nian jiaoyu zhuanhua juezhan shishi 
fang'an], 20 June 13; Jinhe Township Government, ``2013-2015 
Transformation Decisive Battle Implementation Plan'' [2013-2015 nian 
jiaoyu zhuanhua juezhan shishi fang'an], 13 August 13; Fanxingji 
Township Communist Party Committee, ``Linquan County 2013-2015 
Transformation Decisive Battle Implementation Plan'' [Linquan xian 
2013-2015 nian jiaoyu zhuanhua juezhan shishi fang'an], 9 October 13; 
Xingzipu Township Government, ``Xingzipu Township 2013 Transformation 
Decisive Battle and Consolidation Implementation Work Plan'' [Xingzipu 
zhen 2013 nian jiaoyu zhuanhua juezhan yu gonggu shishi gongzuo 
fang'an], 11 September 13.
    \49\ Ibid.
    \50\ World Organization To Investigate the Persecution of Falun 
Gong, ``Investigative Report (17) Regarding the Participation of the 
`China Anti-Cult Association' in the Persecution of Falun Gong'' 
[Zhuicha guoji baogao (shiqi): guanyu ``zhongguo fan xiejiao xiehui'' 
canyu pohai falun gong de diaocha baogao], reprinted in Epoch Times, 26 
March 04.
    \51\ China Anti-Cult Association, ``China Anti-Cult Association: Be 
Highly Vigilant About Various Cults That Harm the Public'' [Zhongguo 
fan xiejiao xiehui: yao gaodu jingti weihai gongzhong de gezhong 
xiejiao], 3 June 14.
    \52\ Lu Chen, ``Ministerial Official Dismissed for Corruption, 
Chinese Authorities Say,'' Epoch Times, 17 April 14; Sarah Cook and 
Leeshai Lemish, Jamestown Foundation, ``The 610 Office: Policing the 
Chinese Spirit,'' China Brief, Vol. 11, No. 17, 16 September 11; CECC, 
2012 Annual Report, 10 October 12, 82.
    \53\ ``Over Ten Fujian Falun Gong Practitioners Abducted During the 
Past Two Weeks'' [Fujian shiji ming falun gong xueyuan jin banyue zao 
bangjia], Clear Wisdom, 10 March 14; ``Ms. Wu Shuyuan of Guanyun 
County, Jiangsu Province Tortured in Detention Center'' [Jiangsu 
guanyun xian wu shuyuan nushi zai kanshousuo zao kuxing zhemo], Clear 
Wisdom, 24 March 14.
    \54\ ``Over Ten Fujian Falun Gong Practitioners Abducted During the 
Past Two Weeks'' [Fujian shiji ming falun gong xueyuan jin banyue zao 
bangjia], Clear Wisdom, 30 April 14.
    \55\ Falun Dafa Information Center, ``Overview of Persecution,'' 4 
May 08.
    \56\ ``What Exactly Did the Gansu Women's Prison Do to Them? '' 
[Gansu nuzi jianyu jiujing dui tamen zuo le shenme], Clear Wisdom, 24 
March 14; ``Liang Bo Released From Prison, Says She Was Sexually 
Assaulted and Mentally Abused in Prison'' [Liang bo chuyu sushuo zai 
yuzhong bei xingqin ji jingshen nuedai], Radio Free Asia, 6 November 
13.
    \57\ Lu Chen, ``Lawyers Expose Torture After Attempt To Rescue 
Falun Gong,'' Epoch Times, 7 April 14; Falun Dafa Information Center, 
``Overview of Persecution,'' 4 May 08; ChinaAid, ``Joint Statement of 
Four Detained Lawyers in Jiansanjiang After [Their] Release'' 
[Jiansanjiang bei ju si lushi huoshi hou de lianhe shengming], 13 April 
14.
    \58\ ``Ms. Wu Shuyuan of Guanyun County, Jiangsu Province Tortured 
in Detention Center'' [Jiangsu guanyun xian wu shuyuan nushi zai 
kanshousuo zao kuxing zhemo], Clear Wisdom, 24 March 14; ``What Exactly 
Did the Gansu Women's Prison Do to Them? '' [Gansu nuzi jianyu jiujing 
dui tamen zuo le shenme?], Clear Wisdom, 24 March 14.
    \59\ ``Ms. Wu Shuyuan of Guanyun County, Jiangsu Province Tortured 
in Detention Center'' [Jiangsu guanyun xian wu shuyuan nushi zai 
kanshousuo zao kuxing zhemo], Clear Wisdom, 24 March 14.
    \60\ Arleen Richards and Gisela Sommer, ``Smuggled Toilet Paper 
Diary Discloses Brutal Torture in Chinese Detention Center,'' Epoch 
Times, 29 April 14.
    \61\ ``What Exactly Did the Gansu Women's Prison Do to Them? '' 
[Gansu nuzi jianyu jiujing dui tamen zuo le shenme?], Clear Wisdom, 24 
March 14.
    \62\ ``Ms. Wu Shuyuan of Guanyun County, Jiangsu Province Tortured 
in Detention Center'' [Jiangsu guanyun xian wu shuyuan nushi zai 
kanshousuo zao kuxing zhemo], Clear Wisdom, 24 March 14.
    \63\ ``Liang Bo Released From Prison, Says She Was Sexually 
Assaulted and Mentally Abused in Prison'' [Liang bo chuyu sushuo zai 
yuzhong bei xingqin ji jingshen nuedai], Radio Free Asia, 6 November 
13.
    \64\ Ibid.
    \65\ ``Deaths Due to Persecution of Falun Gong Practitioners, 
Details of Cases Need Further Confirmation'' [Yin xueguo falun gong er 
bei pohai zhisi zhe he xiangqing xuyao jixu queren anli], Clear Wisdom, 
last visited 14 July 14.
    \66\ Gisela Sommer, ``Falun Gong Practitioner in China Pays 
Ultimate Price for Tapping Into TV Network,'' Epoch Times, 28 May 14.
    \67\ Ibid.
    \68\ Genevieve Belmaker, ``Parallel Lives Meet in New York,'' Epoch 
Times, 16 May 14; Tony Gosgnach, ``China Still Targeting and Murdering 
Religious Minorities for Illegal Organ `Donations': Expert,'' 
LifeSiteNews, 30 May 14; Racheli Hibben, ``Medical Professionals 
Condemn Organ Harvesting in China,'' Epoch Times, 12 June 14.
    \69\ ``Deaths Due to Persecution of Falun Gong Practitioners, 
Details of Cases Need Further Confirmation'' [Yin xueguo falun gong er 
bei pohai zhisi zhe he xiangqing xuyao jixu queren anli], Clear Wisdom, 
last visited 14 July 14.
    \70\ Lu Chen, ``Lawyers Expose Torture After Attempt To Rescue 
Falun Gong,'' Epoch Times, 7 April 14.
    \71\ ChinaAid, ``Joint Statement of Four Detained Lawyers in 
Jiansanjiang After [Their] Release'' [Jiansanjiang bei ju si lushi 
huoshi hou de lianhe shengming], 13 April 14.
    \72\ Ibid.
    \73\ Verna Yu, ``Four Rights Lawyers Detained After Questioning 
Falun Gong Detention,'' South China Morning Post, 24 March 14. For more 
information on the four lawyers and their detentions, see the following 
records in the Commission's Political Prisoner Database: 2011-00180 on 
Tang Jitian; 2011-00179 on Jiang Tianyong; 2014-00122 on Wang Cheng; 
and 2014-00139 on Zhang Junjie.
    \74\ Lu Chen, ``Lawyers Expose Torture After Attempt To Rescue 
Falun Gong,'' Epoch Times, 7 April 14; World Organization To 
Investigate the Persecution of Falun Gong (WOIPFG), ``WOIPFG 
Investigative Announcement on the Kidnapping of Rights Lawyers and 
Falun Gong Practitioners in Jiansanjiang, Heilongjiang Province'' 
[Zhuicha guoji dui heilongjiang jiansanjiang bangjia weiquan lushi he 
falun gong xueyuan de zhuicha baogao], 31 March 14; Didi Tang, 
``Chinese Lawyers Say They Were Tortured by Police,'' Associated Press, 
15 April 14; Rights Defense Network, ``Statement of the Citizen Support 
Group for Jiansanjiang Human Rights Lawyers'' [Jiansanjiang renquan 
lushi gongmin shengyuan tuan shengming], 10 April 14.
    \75\ Didi Kirsten Tatlow, ``Lawyers Say They Were Tortured After 
Protesting `Black Jail,' '' New York Times, Sinosphere (blog), 7 April 
14.
    \76\ World Organization To Investigate the Persecution of Falun 
Gong (WOIPFG), ``WOIPFG Investigative Announcement on the Kidnapping of 
Rights Lawyers and Falun Gong Practitioners in Jiansanjiang, 
Heilongjiang Province'' [Zhuicha guoji dui heilongjiang jiansanjiang 
bangjia weiquan lushi he falun gong xueyuan de zhuicha baogao], 31 
March 14; ChinaAid, ``Joint Statement of Four Detained Lawyers in 
Jiansanjiang After [Their] Release'' [Jiansanjiang bei ju si lushi 
huoshi hou de lianhe shengming], 13 April 14; Rights Defense Network, 
``Statement of the Citizen Support Group for Jiansanjiang Human Rights 
Lawyers'' [Jiansanjiang renquan lushi gongmin shengyuan tuan 
shengming], 10 April 14.
    \77\ Islamic Association of China, ``Introduction to the Islamic 
Association of China'' [Zhongguo yisilan jiao xiehui jianjie], last 
visited 9 April 14; Islamic Association of China, `` Scripture 
Interpretation Work Office'' [Jiejing gongzuo bangongshi], last visited 
9 April 14.
    \78\ Islamic Association of China (IAC), ``CPPCC Ethnic and 
Religious Affairs Committee Director Zhu Weiqun Visits the IAC'' 
[Quanguo zhengxie minzong wei zhuren zhu weiqun yi xing dao zhongguo 
yixie zoufang weiwen], 9 January 14; Islamic Association of China, 
``United Front Work Department Deputy Director Zhang Yijiong Visits the 
IAC'' [Zhongyang tongzhan bu changwu fu buzhang zhang yijiong yixing 
dao zhongguo yixie he jie], 21 January 14.
    \79\ Ibid.
    \80\ Islamic Association of China, ``Deepen Reforms, Benefit the 
People'' [Shenhua gaige zaofu yu min], 15 November 13.
    \81\ State Administration for Religious Affairs, Measures for 
Accrediting Islamic Clergy [Yisilan jiao jiaozhi renyuan zige rending 
banfa], issued 12 May 06, effective 7 August 06.
    \82\ ``Islamic Association of China Education Work Committee 
Established'' [Zhongguo yisilan jiao xiehui jiaoyu gongzuo weiyuan hui 
chengli], China Ethnicity News, reprinted in United Front Work 
Department, 28 March 14.
    \83\ Shaanxi Ethnic and Religious Affairs Committee, ``Our Province 
Launched `Shaanxi Province Young and Middle-Aged Islamic Cleric 
Training Class' at Lanzhou Islamic Institute'' [Wo sheng zai lanzhou 
yisilan jiao jingxue yuan kaiban ``shaanxi sheng yisilan jiao zhong 
qingnian ahong jinxiu ban''], 19 March 14; Kunming Islamic Institute, 
``2013 Yunnan Province Islamic Religious Personnel Training Class Held 
at Kunming Islamic Institute'' [2013 nian yunnan yisilan jiao jiaozhi 
renyuan peixun ban zai kunming jingxue yuan kaiban], 12 November 13; 
Wang Yaoyu, Yunnan Socialism College, ``Province-Wide Islamic Religious 
Personnel Training Class Held in Kunming'' [Quan sheng yisilan jiao 
jiaozhi renyuan peixun ban zai kunming juban], 18 November 13; Li 
Zeqiong, Hunan Islamic Association, ``Changde City Islamic Association 
Holds City-Wide Training Classes for Religious Personnel'' [Changde shi 
yixie juban quanshi jiaozhi renyuan peixun ban], 15 November 13; 
MuslimWWW, ``Zhejiang Province Islamic Association Launches the Third 
Training Class for Religious Personnel'' [Zhejiang sheng yixie juban 
disan qi jiaozhi renyuan peixun ban], 30 December 13.
    \84\ State Administration for Religious Affairs, Regulations on 
Religious Affairs [Zongjiao shiwu tiaoli], issued 30 November 04, 
effective 1 March 05, arts. 11, 43.
    \85\ State Administration for Religious Affairs, ``State 
Administration for Religious Affairs Convenes 2014 Hajj Pilgrimage Work 
Meeting in Xining City, Qinghai Province'' [Guojia zongjiao ju zai 
qinghai sheng xining shi zhaokai 2014 nian chaojin gongzuo huiyi], 11 
April 14.
    \86\ 2013 China Hajj Pilgrimage Working Group Secretarial Section, 
``Our Country's Last Hajj Group Returns Home From Jeddah Airport'' 
[Woguo zuihou yipi haji cong jida jichang qicheng huiguo], reprinted in 
Islamic Association of China, 7 November 13.
    \87\ Islamic Association of China, ``Islamic Association of China 
Hajj Affairs Delegation Visits Saudi Arabia'' [Zhongguo yixie chaojin 
shiwu daibiao tuan fangwen shate], 28 February 14.
    \88\ Islamic Association of China, ``Second Meeting of Third 
Conference of China Islamic Affairs Steering Committee Held in 
Beijing'' [Zhongguo yisilan jiao jiaowu zhidao weiyuan hui san jie er 
ci huiyi zai jing juxing], 13 December 13.
    \89\ Islamic Association of China, ``Guizhou Province Islamic 
Scripture Interpretation Work Training Class Held in Guiyang'' [Guizhou 
sheng yisilan jiao jiejing gongzuo peixun ban zai guiyang juxing], 7 
January 14.
    \90\ Didi Tang, ``China Bans Ramadan Fast in Muslim Northwest,'' 
Associated Press, 3 July 14; Irene Chidinma Nwoye, ``China Bans Ramadan 
Fast in Muslim Region,'' Slate, 3 July 14; Ruoqiang County No. 3 Grade 
School, ``Our School Holds Education Outreach Activity To Prohibit 
Teachers and Students From Fasting [During Ramadan]'' [Wo xiao kaizhan 
jinzhi jiaoshi, xuesheng fengzhai gongzuo xuanchuan jiaoyu huodong], 30 
June 14.
    \91\ Didi Tang, ``China Bans Ramadan Fast in Muslim Northwest,'' 
Associated Press, 3 July 14; Irene Chidinma Nwoye, ``China Bans Ramadan 
Fast in Muslim Region,'' Slate, 3 July 14.
    \92\ Didi Kirsten Tatlow, ``Xinjiang Hospital Asks Staff Not To 
Fast During Ramadan,'' New York Times, Sinosphere (blog), 5 June 14; 
``China Hospital Tells Muslim Staff Not To Fast in Ramadan,'' World 
Bulletin, 5 June 14; Kabita Maharana, ``Ramadan 2014: China Force Feeds 
Muslim Students To Break Fast During Holy Month,'' International 
Business Times, 12 July 14.
    \93\ The Hui ethnic minority, who number more than 10 million 
people, are the predominately Muslim descendants of Persian, Central 
Asian, and Arab traders. Now largely ethnically and linguistically 
assimilated with the majority Han Chinese population, Hui are dispersed 
throughout China. For more information on the Hui ethnic group, see 
Hannah Beech, ``If China Is Anti-Islam, Why Are These Chinese Muslims 
Enjoying a Faith Revival,'' Time, 12 August 14.
    \94\ Hannah Gardner, ``Ramadan Highlights Divisions in China's 
Muslim Community,'' National, 26 July 14; Islamic Human Rights 
Commission, ``Press Release: China's Uighurs Face New Ramadan 
Restrictions,'' 7 July 14; Shannon Tiezzi, ``China's Not Anti-Religion, 
It's Anti-Threat,'' Diplomat, 12 August 14.
    \95\ Hannah Beech, ``If China Is Anti-Islam, Why Are These Chinese 
Muslims Enjoying a Faith Revival,'' Time, 12 August 14.
    \96\ China Christian Council and the Three-Self Patriotic Movement 
of the Protestant Churches in China, ``Charter of the National 
Committee of the Three-Self Patriotic Movement of the Protestant 
Churches in China'' [Zhongguo jidu jiao sanzi aiguo yundong weiyuan hui 
zhangcheng], 10 September 14.
    \97\ China Christian Council (CCC) and the Three-Self Patriotic 
Movement (TSPM) of the Protestant Churches in China, ``CCC & TSPM Two 
Associations Receive United Front Work Department Deputy Head Zhang 
Yijiong'' [Jidu jiao quanguo lianghui jiedai zhonggong zhongyang 
tongzhan bu changwu fu buzhang zhang yijiong yixing diaoyan], 24 
December 13.
    \98\ China Christian Council and the Three-Self Patriotic Movement 
of the Protestant Churches in China, ``The Reconstruction of 
Theological Thinking Is the New Light for the Chinese Church'' [Shenxue 
sixiang jianshe shi zhongguo jiaohui xin de liangguang], Tianfeng 
Magazine, 11 November 08; State Administration for Religious Affairs, 
``Ten-Year Anniversary Commemoration of China's Christian 
Reconstruction of Theological Thinking Grandly Convened'' [Zhongguo 
jidu jiao shenxue sixiang jianshe shi zhounian jinian dahui longzhong 
zhaokai], 19 November 08.
    \99\ Jiang Hongbing, ``People's Daily: Chinese Christians Number 
Between 23 Million-40 Million'' [Renmin ribao: zhongguo jidutu renshu 
zai 2300 wan-4000 wan], People's Daily, 6 August 14; Peter Weber, 
``China Will Create Its Own Version of Christianity,'' Week, 7 August 
14; ``Christianity Also Must Have Chinese Characteristics'' [Jidu jiao 
ye yao you zhongguo tese], Agence France-Presse, reprinted in Deutsche 
Welle, 7 August 14.
    \100\  Qiao Nong, ChinaAid, ``Guiyang Province Fengsheng Church 
Crosses Removed, Xinjiang Christians File Complaints That They Are 
Persecuted, They Are Accused of `Leaking State Secrets' '' [Guiyang 
fengsheng jiaohui shizijia bei qiangchai, xinjiang xintu tousu zao bipo 
bei zhi ``xiemi''], 26 May 14; ChinaAid, ``Wenzhou Bodani House Church 
Persecuted and Seeking Help From Society'' [Wenzhou bodani jiating 
jiaohui shou bipo xunqiu shehui bangzhu], 12 May 14; Qiao Nong, 
ChinaAid, ``Pastor Zhang Mingxuan Banned From Preaching in Zhongzhuang, 
Jiangsu Province, Believers in Nanle, Henan Continue To Face Obstacles 
in Sunday Worship'' [Zhang mingxuan mushi jiangsu zhongzhuang jiangdao 
bei jin, henan nanle xintu zhouri jingbai xu shouzu], 12 May 14; 
Beijing Shouwang Church, ``Beijing Shouwang Church's Report to Church 
Members'' [Beijing shouwang jiaohui gao huizhong shu], 6 May 14; Qiao 
Nong, ChinaAid, ``Urumqi Christian Gathering Dispersed by Police, Four 
Christians Detained, American Pastor Expelled'' [Wulumuqi xintu juhui 
zao jing qusan si jidutu bei ju meiguo mushi zao zhu], 27 May 14.
    \101\ Zhejiang Provincial People's Government, Zhejiang Provincial 
People's Government Circular on the Province-Wide Launch of the Three-
Year ``Three Rectifications and One Demolition'' Operation [Zhejiang 
sheng renmin zhengfu guanyu zai quansheng kaizhan ``san gai yi chai'' 
san nian xingdong de tongzhi], 13 March 13.
    \102\ Ibid.
    \103\ Ethnic and Religious Affairs Committee of Zhejiang Province, 
``Chairman Feng Zhili Mobilizes Our Province's Christian Community To 
Participate In and Support the `Three Rectifications and One 
Demolition' Campaign'' [Feng zhili zhuren dongyuan wo sheng jidu jiao 
jie zhichi canyu ``san gai yi chai'' xingdong], 26 February 14; Yuhuan 
County People's Government, ``Implementation Plan for the Special 
Treatment Work on Illegally Constructed Sites of Religious and Folk 
Religion Activities in Shamen Township'' [Shamen zhen zongjiao he 
minjian xinyang huodong changsuo weifa jianzhu zhuanxiang zhengzhi 
gongzuo shishi fang'an], reprinted in Pu Shi Institute for Social 
Science, 11 April 14; Shaoxing Municipality United Front Work 
Department, ``Shangyu District Does a Solid Job Regarding Religious and 
Folk Religion Sites for the `Three Rectifications and One Demolition 
[Campaign]' '' [Shangyu qu zhashi zuohao zongjiao he minjian xinyang 
huodong changsuo ``san gai yi chai'' gongzuo], 16 May 14; Xietang 
Township People's Government, ``Circular Regarding Effectively Doing 
Special Rectification Work on Religious Sites and Folk Religion Sites'' 
[Guanyu qieshi zuohao zongjiao huodong changsuo he minjian xinyang 
changsuo zhuanxiang zhengzhi gongzuo de tongzhi], reprinted in Shangyu 
District People's Government, 8 April 14; Qiao Nong, ChinaAid, 
``Wenzhou as Testing Ground, a Nationwide Persecution Has Started'' 
[Yichang yi wenzhou wei shidian de quanguoxing bipo yijing kaishi], 9 
April 14.
    \104\ Ian Johnson, ``Church-State Clash in China Coalesces Around a 
Toppled Spire,'' New York Times, 29 May 14.
    \105\ ChinaAid, ``Updated: China Aid Receives Compilation of 
Persecuted Zhejiang Churches,'' 7 August 14.
    \106\ Wu Yu, ``Five Thousand Wenzhou Christians Resist Forced 
Church Demolition by Authorities'' [Wenzhou wuqian jidutu dikang dangju 
qiangchai jiaotang], Deutsche Welle, 4 April 14; Qiao Nong, ChinaAid, 
``Over 1,000 Wenzhou Policemen Wait for Chance To Demolish Sanjiang 
Church Building, 5,000 Christians Take Turns Guarding [the Church]'' 
[Wenzhou qian jing siji qiangchai sanjiang jiaotang wuqian jidutu 
lunliu shouhu], 3 April 14; Xu Yangjingjing, ``Why Chinese Christians 
Are Camping Out To Save Their Church and Cross From Demolition,'' 
Washington Post, 4 April 14.
    \107\ Wu Yu, ``Five Thousand Wenzhou Christians Resist Forced 
Church Demolition by Authorities'' [Wenzhou wuqian jidutu dikang dangju 
qiangchai jiaotang], Deutsche Welle, 4 April 14; Qiao Nong, ChinaAid, 
``Over 1,000 Wenzhou Policemen Wait for Chance To Demolish Sanjiang 
Church Building, 5,000 Christians Take Turns Guarding [the Church]'' 
[Wenzhou qian jing siji qiangchai sanjiang jiaotang wuqian jidutu 
lunliu shouhu], 3 April 14.
    \108\ Qiao Nong, ChinaAid, ``Wenzhou Believers Struggled, Sanjiang 
Church Demolition Avoided, Signed Agreement With Provincial Government, 
Only Parts of Nursing Home To Be Demolished'' [Wenzhou xintu kangzheng 
sanjiang jiaotang mian chai yu shengfu qian xieyi jin chai shuceng 
jinglao yuan], 8 April 14; ChinaAid, ``One TSPM Church in Zhejiang 
Finds Compromise, Others Still Face Forced Demolition,'' 12 April 14.
    \109\ Qiao Nong, ChinaAid, ``Wenzhou [Authorities] Dispatched Heavy 
Machinery Into the Area of Sanjiang Church, Cross Facing Demolition, 
Believers Went To Voice Support and Were Intercepted'' [Wenzhou chudong 
zhongxing jiqi jinru sanjiang jiaotang fanwei shizijia mianlin 
qiangchai xintu wang shengyuan bei lanjie], 21 April 14.
    \110\ ``Crosses Atop Christian Church Buildings in Several 
Locations in Zhejiang Removed, Several Ministers Taken Away'' [Zhejiang 
duochu jidu jiao jiaotang dingbu shizijia bei chai, duoming chuandao 
yuan bei daizou], UCA News, 25 April 14; Qiao Nong, ChinaAid, ``Over a 
Thousand People Expelled From Sanjiang Church on Saturday in Wenzhou, 
Daughter of Nanle Pastor Zhang Shaojie Kidnapped Before Zhang's Trial'' 
[Wenzhou zhouliu qingchang sanjiang jiaohui yu qianren bei zhu, nanle 
zhang shaojie mushi kaiting qian nu er bei bangjia], 28 April 14.
    \111\ Qiao Nong, ChinaAid, ``Over a Thousand People Expelled From 
Sanjiang Church on Saturday in Wenzhou, Daughter of Nanle Pastor Zhang 
Shaojie Kidnapped Before Zhang's Trial'' [Wenzhou zhouliu qingchang 
sanjiang jiaohui yu qianren bei zhu, nanle zhang shaojie mushi kaiting 
qian nu er bei bangjia], 28 April 14.
    \112\ Qiao Nong, ChinaAid, ``Over One Thousand Police in Wenzhou 
Forcibly Demolish Sanjiang Church, Believers' Internet Comments Banned, 
Violators [Warned] Their Entire Families Could Be Implicated'' [Wenzhou 
yu qian jingli qiangchai sanjiang jiaotang, xintu wangluo yanlun bei 
jin weizhe zhulian jiazu], 28 April 14.
    \113\ ChinaAid, ``Henan, Puyang City, Nanle County: Arrested Pastor 
and Christians Still Not Released'' [Henan puyang shi nanle xian jidu 
jiaohui bei zhua mushi he xintu zhijin wei shifang], 18 November 13; 
``More Members of the Nanle Church Detained, Dozens Gathered To 
Petition in Beijing'' [Nanle jiaohui zai you xintu bei zhua, shu shi 
fangming beijing juhui shengyuan], Radio Free Asia, 21 December 13. For 
more information on Zhang Shaojie's case, see the Commission's 
Political Prisoner Database record 2014-00126.
    \114\ ``Pastor Zhang Shaojie Met His Lawyer for the First Time 
Since His Detention Two Months Ago'' [Zhang shaojie mushi bei kou liang 
yue shou wu lushi], Radio Free Asia, 16 January 14.
    \115\ ``Lawyers for Detained China Church Leader Assaulted,'' 
Associated Press, 13 December 13; ``Pastor Zhang Shaojie Met His Lawyer 
for the First Time Since His Detention Two Months Ago'' [Zhang shaojie 
mushi bei kou liang yue shou wu lushi], Radio Free Asia, 16 January 14; 
Rights Defense Network, ``Urgent: Lawyers Beaten a Third Time in Nanle, 
Lawyer Liu Weiguo Hit in the Head With a Brick'' [Jinji guanzhu: nanle 
lushi di san ci bei qun ou, liu weiguo lushi tou bei zhuantou za po], 
13 December 13.
    \116\ ChinaAid, ``Nanle County Christian Church Appeals for Help 
and Applied for Permit To Protest Government Infringement,'' 20 
November 13; ChinaAid, ``Nanle Religion Case Continues To Escalate, 
Local Government Persecutes Christians and Rights Defenders'' [Nanle 
jiao an buduan shengji, difang zhengfu fengkuang pohai jidutu ji 
weiquan renshi], 23 December 13.
    \117\ ``Pastor Zhang Shaojie Met His Lawyer for the First Time 
Since His Detention Two Months Ago'' [Zhang shaojie mushi bei kou liang 
yue shou wu lushi], Radio Free Asia, 16 January 14.
    \118\ Christian Solidarity Worldwide, ``China: Henan Pastor's Trial 
Date Postponed Indefinitely,'' 25 February 14.
    \119\ Qiao Nong, ChinaAid, ``[The Court] Continued With Zhang 
Shaojie's Trial, Denied Lawyers' Request To Call Ten Witnesses To 
Testify'' [Zhang shaojie an xu shen, lushi chuanzhao shi zhengren 
chuting bei ju], 29 April 14; Qiao Nong, ChinaAid, ``Concern Over Nanle 
Religion Case: Zhang Shaojie's Trial Concludes, Judge Scheduled To 
Announce Judgment'' [Guanzhu nanle jiao an: zhang shaojie an shenjie, 
faguan zeqi xuanpan], 30 April 14.
    \120\ ``Pastor Zhang Shaojie of Nanle Religion Case Given Heavy 
Sentence of 12 Years, He Said in Court He Would Appeal, Lawyers Said 
[Sentence] a Setback for Justice'' [Nanle jiao an zhang shaojie mushi 
bei zhongpan 12 nian, dang ting cheng jiang shangsu lushi zhi sifa 
daotui], Radio Free Asia, 4 July 14.
    \121\ Beijing Shouwang Church Governing Committee, ``Three-Year 
Outdoor Worship Anniversary: Beijing Shouwang Church's Report to 
Congregation Members'' [Huwai jingbai san zhounian zhi ji beijing 
shouwang jiaohui gao huizhong shu], 27 March 14.
    \122\ Chen Weizhen, ``Witnessing the Current Condition of Shouwang 
Church and Other House Churches--Freedom of Religion and Rule of Law 
Seminar Speech Text'' [Jianzheng shouwang jiaohui deng jiating jiaohui 
xianzhuang--zongjiao ziyou he fazhi yantao hui yanjiang gao], reprinted 
in ChinaAid, 28 January 14; Qiao Nong, ChinaAid, ``Pastor Zhang 
Mingxuan Banned From Preaching in Zhongzhuang, Jiangsu, Nanle, Henan 
Believers Continued To Be Barred From Sunday Worship'' [Zhang mingxuan 
mushi jiangsu zhongzhuang jiangdao bei jin henan nanle xintu zhouri 
jingbai xu shouzu], 12 May 14.
    \123\ Starting in May 2014, Beijing authorities disrupted Shouwang 
Church's outdoor worship services and detained members of the church on 
a weekly basis. Beijing Shouwang Church, ``Beijing Shouwang Church May 
4, 2014, Outdoor Worship Announcement'' [Beijing shouwang jiaohui 2014 
nian 5 yue 4 ri huwai jingbai tongbao], 5 May 14; Beijing Shouwang 
Church, ``Beijing Shouwang Church May 11, 2014, Outdoor Worship 
Announcement'' [Beijing shouwang jiaohui 2014 nian 5 yue 11 ri huwai 
jingbai tongbao], 13 May 14; Beijing Shouwang Church, ``Beijing 
Shouwang Church May 18, 2014, Outdoor Worship Announcement'' [Beijing 
shouwang jiaohui 2014 nian 5 yue 18 ri huwai jingbai tongbao], 18 May 
14; Beijing Shouwang Church, ``Beijing Shouwang Church May 25, 2014, 
Outdoor Worship Announcement'' [Beijing shouwang jiaohui 2014 nian 5 
yue 25 ri huwai jingbai tongbao], 26 May 14; Beijing Shouwang Church, 
``Beijing Shouwang Church June 1, 2014, Outdoor Worship Announcement'' 
[Beijing shouwang jiaohui 2014 nian 6 yue 1 ri huwai jingbai tongbao], 
2 June 14; Beijing Shouwang Church, ``Beijing Shouwang Church June 8, 
2014, Outdoor Worship Announcement'' [Beijing shouwang jiaohui 2014 
nian 6 yue 8 ri huwai jingbai tongbao], 9 June 14; Beijing Shouwang 
Church, ``Beijing Shouwang Church June 15, 2014, Outdoor Worship 
Announcement'' [Beijing shouwang jiaohui 2014 nian 6 yue 15 ri huwai 
jingbai tongbao], 16 June 14; Beijing Shouwang Church, ``Beijing 
Shouwang Church June 22, 2014, Outdoor Worship Announcement'' [Beijing 
shouwang jiaohui 2014 nian 6 yue 22 ri huwai jingbai tongbao], 23 June 
14; Beijing Shouwang Church, ``Beijing Shouwang Church June 29, 2014, 
Outdoor Worship Announcement'' [Beijing shouwang jiaohui 2014 nian 6 
yue 29 ri huwai jingbai tongbao], 30 June 14; Beijing Shouwang Church, 
``Beijing Shouwang Church July 6, 2014, Outdoor Worship Announcement'' 
[Beijing shouwang jiaohui 2014 nian 7 yue 6 ri huwai jingbai tongbao], 
7 July 14; Beijing Shouwang Church, ``Beijing Shouwang Church July 13, 
2014, Outdoor Worship Announcement'' [Beijing shouwang jiaohui 2014 
nian 7 yue 13 ri huwai jingbai tongbao], 14 July 14; Beijing Shouwang 
Church, ``Beijing Shouwang Church July 20, 2014, Outdoor Worship 
Announcement'' [Beijing shouwang jiaohui 2014 nian 7 yue 20 ri huwai 
jingbai tongbao], 21 July 14; Beijing Shouwang Church, ``Beijing 
Shouwang Church July 27, 2014, Outdoor Worship Announcement'' [Beijing 
shouwang jiaohui 2014 nian 7 yue 27 ri huwai jingbai tongbao], 28 July 
14; Beijing Shouwang Church, ``Beijing Shouwang Church August 3, 2014, 
Outdoor Worship Announcement'' [Beijing shouwang jiaohui 2014 nian 8 
yue 3 ri huwai jingbai tongbao], 4 August 14; Beijing Shouwang Church, 
``Beijing Shouwang Church August 10, 2014, Outdoor Worship 
Announcement'' [Beijing shouwang jiaohui 2014 nian 8 yue 10 ri huwai 
jingbai tongbao], 11 August 14.
    \124\ ChinaAid, ``Three Believers of Shouwang Church Detained, Few 
Attended Sunday Worship Service at Sanjiang Church'' [Shouwang jiaohui 
3 ming xintu bei juliu sanjiang tang zhuri juhui renshu xishao], 6 May 
14. See also an overview of Shouwang Church's three-year history of 
worshipping outdoors. Beijing Shouwang Church Governing Committee, 
``Three-Year Outdoor Worship Anniversary: Beijing Shouwang Church's 
Report to Congregation Members'' [Huwai jingbai san zhounian zhi ji 
beijing shouwang jiaohui gao huizhong shu], 27 March 14.
    \125\ Li Xiangping, ``True Religion Is for People's Good,'' China 
Daily, 5 June 14; Guo Baosheng, ChinaAid, ``Be Alert [Authorities] Use 
`Cult' as Pretext To Persecute Christianity in Large Scale'' [Jingti yi 
``xiejiao'' mingyi da guimo pohai jidu jiao], 9 June 14; ``China 
Clearly Identified 14 Cult Organizations (List) Including the Shouters 
Sect'' [Zhongguo yi mingque rending huhan pai deng 14 ge xiejiao zuzhi 
(mingdan)], Youth Times, reprinted in People's Daily, 3 June 14.
    \126\ World Organization To Investigate the Persecution of Falun 
Gong, ``Investigative Report of the China Anti-Cult Association's Role 
in the Persecution of Falun Gong,'' 23 March 04; ``China Anti-Cult 
Association Reporting Conference Held in Beijing, China Anti-Cult Net 
Launched Concurrently'' [Zhongguo fan xiejiao xiehui baogaohui zai jing 
zhaokai zhongguo fan xiejiao wangzhan tongshi kaitong], Xinhua, 
reprinted in China Net, 24 December 00.
    \127\ China Anti-Cult Association, ``China Anti-Cult Association: 
Be Highly Vigilant About Various Cults That Harm the Public'' [Zhongguo 
fan xiejiao xiehui: yao gaodu jingti weihai gongzhong de gezhong 
xiejiao], reprinted in Kai Wind, 3 June 14.
    \128\ ChinaAid, ``Taipei Local Church Vehemently Protests Against 
Being Mistaken for the Shouters Sect'' [Taibei zhaohui yanzhong kangyi 
bei wudao wei huhan pai], 12 June 14; ``Statement From Many Local 
Churches in the Fuzhou Area to the China Anti-Cult Association'' 
[Fuzhou diqu zhong difang zhaohui zhi zhongguo fan xiejiao xiehui 
shengming], Wnee, 15 June 14.
    \129\ Lu Dewen, ``Lu Dewen: Attacking Cults, a Matter of Great 
Urgency'' [Lu dewen: daji xiejiao keburonghuan], Global Times, 3 June 
14.
    \130\ ChinaAid, ``Guangdong House Church Persecuted in Authorities' 
Attempt To Suppress Eastern Lightning Following Shandong Attack,'' 19 
June 14; Qiao Nong, ChinaAid, ``A House Church in Shenzhen Newly 
Established by a College Student Dispersed by the Police During 
Gathering'' [Shenzhen yi daxuesheng xin chengli jiating jiaohui juhui 
zao jingfang qusan], 11 July 14; Qiao Nong, ChinaAid, ``Twelve Guizhou 
Christians Are Accused of Belonging to a Cult and Administratively 
Detained, Lawyer Files Lawsuit'' [Guizhou 12 ming jidutu bei zhi 
xiejiao xingzheng juliu lushi tiqi susong], 24 June 14; Qiao Nong, 
ChinaAid, ``Christians of Langzhong Church in Sichuan Detained for 
Evangelism, Christians of 80 Households Accused of Being Cult 
[Followers] Cannot Keep Social Insurance'' [Sichuan langzhong jiaohui 
jidutu chuan fuyin bei ju bashi hu jidutu bei zhi xiejiao ``di bao'' bu 
bao], 25 July 14; ChinaAid, `` `Cao County Religion Case' Reappears in 
Heze, Shandong, Lawyers Form Group To Rescue Detained Believers'' 
[Shandong heze zai xian ``cao xian jiao an,'' lushi zu tuan qianwang 
yingjiu bei zhua xintu], 11 July 14; Qiao Nong, ChinaAid, ``Twenty-Two 
Christians in Shandong Accused of Taking Part in a Cult, Dozens of 
Special Police Detain [Believers] and Trick [Them] Into Giving 
Confessions, Over Half [of Those Detained] Are Taken Into Custody'' 
[Shandong 22 ming jidutu juhui bei zhi xiejiao shu shi tejing zhua ren 
ji she yougong yu banshu zao ju], 14 July 14; Qiao Nong, ChinaAid, 
``Public Security [Officials] in Shaoyang, Hunan, Criminally Detain 
More Than Ten Christians, House Churches in Four Counties and Cities in 
Shaoyang Declare Emergency'' [Hunan shaoyang gongan xingju shi duo ming 
jidutu shaoyang si xian shi jiating jiaohui gaoji], 14 August 14.
    \131\ Chinese Taoist Association, ``The Charter of the Chinese 
Taoist Association'' [Zhongguo daojiao xiehui zhangcheng], last visited 
2 April 14, art. 3.
    \132\ Chinese Taoist Association, ``Chinese Taoist Association 
Eighth Conference Ninth Session Meeting Held in Beijing'' [Zhongguo 
daojiao xiehui bajie jiuci huizhang huiyi zai jing zhaokai], 10 March 
14; State Administration for Religious Affairs, United Front Work 
Department, National Development and Reform Commission, Ministry of 
Public Security, Ministry of Housing and Urban-Rural Development, 
Ministry of Culture, State Administration for Industry and Commerce, 
China National Tourism Administration, China Security Regulatory 
Commission, State Administration of Cultural Heritage, Opinion 
Regarding Issues Related to the Management of Buddhist Monasteries and 
Taoist Temples [Guanyu chuli sheji fojiao simiao, daojiao gongguan 
guanli youguan wenti de yijian], issued 8 October 12.
    \133\ ``Chinese Taoist Association's `Third International Taoist 
Forum' '' [Zhongguo daojiao xiehui ``di san jie guoji daojiao 
luntan''], Chinese Daily USA, 1 March 14.
    \134\ State Administration for Religious Affairs, ``Deputy Director 
Jiang Jianyong Went to Jiangxi To Inspect the Third International 
Taoist Forum Preparation Work'' [Jiang jianyong fu juzhang fu jiangxi 
kaocha di san jie guoji daojiao luntan choubei gongzuo], 4 March 14.
    \135\ State Council, Provisions on the Management of the Religious 
Activities of Foreigners Within the PRC [Zhonghua renmin gongheguo 
jingnei waiguoren zongjiao huodong guanli guiding], issued and 
effective 31 January 94, art. 4; State Administration for Religious 
Affairs, Detailed Implementation of Rules for the Provisions on the 
Management of the Religious Activities of Foreigners Within the PRC 
[Zhonghua renmin gongheguo jingnei waiguoren zongjiao huodong guanli 
guiding shishi xize], issued and effective 26 September 00, arts. 7, 
17(5).
    \136\ Magda Hornemann, ``China: When Will Five-Fold State-Backed 
Religious Monopoly End? '' Forum 18 News Service, 16 September 13.
    \137\ Ibid.
    \138\ Ibid.; The Russian Orthodox Church Department for External 
Church Relations, ``Patriarch Kirill: The Dreams of the Chinese 
Orthodox Church's Bright Future Begins [sic] To Come True,'' 13 May 13.
    \139\ Magda Hornemann, ``China: When Will Five-Fold State-Backed 
Religious Monopoly End? '' Forum 18 News Service, 16 September 13; Fan 
Lizhu and Chen Na, ``The Current State of China's Folk Religions and 
Issues of Their Management'' [Zhongguo minjian xinyang de xianzhuang 
jiqi guanli wenti], Religion Weekly, reprinted in China Ethnic News, 22 
October 13.
    Notes to Section II--Ethnic Minority Rights

    \1\ ``Unified Legal Standards Can Help Battle Terror,'' Global 
Times, 11 March 14; ``Xinjiang Officials Flock to Villages for Mass 
Line Campaign,'' Global Times, 20 April 14; Li Yuan and Wen Tao, 
``Tibet Sends More Than 60,000 Cadres to the Grassroots Over Two Years, 
the Most Extensive in 60 Years'' [Xizang liang nian xuanpai yu 6 wan 
ganbu xia jiceng wei 60 nian lai zui da guimo], Xinhua, 10 September 
13. According to Xinhua, `` `[m]ass line' refers to a guideline under 
which CPC officials and members are required to prioritize the 
interests of the people and persist in representing them and working on 
their behalf.'' ``Officials Urged To Promote `Mass Line' Campaign,'' 
Xinhua, 16 July 13. For information on the ``mass line'' and how it 
applies to religion, see Wang Zuo'an, ``Religious Work Is by Nature 
Mass Work'' [Zongjiao gongzuo benzhi shang shi qunzhong gongzuo], 
People's Daily, 26 November 13.
    \2\ Zhu Weiqun, ``Why Has the West Been So Hard on China on `Tibet 
and Xinjiang Issues,' '' China Tibet Online, 18 February 14; Zhu 
Weiqun, ``Why Does the West Interfere in Tibet and Xinjiang Issues and 
Make Things Difficult for China? '' [Xifang weihe zai she zang she 
jiang wenti shang yu zhongguo guobuqu], China Tibet Online, 19 February 
14.
    \3\ James Leibold, Jamestown Foundation, ``Xinjiang Work Forum 
Marks New Policy of `Ethnic Mingling,' '' China Brief, Vol. 14, No. 12, 
19 June 14; Edward Wong, ``China Moves To Calm Restive Xinjiang 
Region,'' New York Times, 30 May 14. For Commission analysis, see ``New 
Science and Technology Plan for Ethnic Minorities Raises Questions 
About Ethnic Minority Rights,'' CECC China Human Rights and Rule of Law 
Update, December 2008, 3; ``Central Leaders Hold Forum on Xinjiang, 
Stress Development and Stability as Dual Goals,'' CECC China Human 
Rights and Rule of Law Update, No. 6, 12 July 10, 3.
    \4\ ``Yu Zhengsheng Visits Guangxi: Continue To Consolidate the 
Excellent Situation of Ethnic Unity and Harmony'' [Yu zhengsheng zai 
guangxi kaocha: buduan gonggu minzu tuanjie hexie de dahao jumian], 
People's Daily, reprinted in State Ethnic Affairs Commission, 31 
October 13.
    \5\ Zhou Yifan, ``Yu Zhengsheng Investigates Xinjiang, Stresses 
Need To Ensure Xinjiang's Social Stability and Long-Term Peace'' [Yu 
zhengsheng zai xinjiang diaoyan qiangdiao quebao xinjiang shehui 
wending he changzhi jiu'an], Tianshan Net, 31 March 14; Nicholas Dynon, 
Jamestown Foundation, ``The Language of Terrorism in China: Balancing 
Foreign and Domestic Policy Imperatives,'' China Brief, Vol. 14, No. 1, 
9 January 14; Nur Bekri, ``Xinjiang Uyghur Autonomous Region Government 
Work Report'' [Xinjiang weiwuer zizhiqu zhengfu gongzuo baogao], 
Tianshan Net, 22 January 14.
    \6\ ``How To Understand `the Han Ethnicity Is Inseparable From 
Ethnic Minorities, Ethnic Minorities Are Inseparable from the Han 
Ethnicity, and All Ethnic Minorities Are Mutually Inseparable' '' [Ruhe 
lijie ``hanzu libukai shaoshu minzu, shaoshu minzu libukai hanzu, ge 
shaoshu minzu zhijian ye xianghu libukai''], People's Daily, reprinted 
in China Ethnicity and Religion Net, 18 March 13; Nicholas Dynon, 
Jamestown Foundation, ``The Language of Terrorism in China: Balancing 
Foreign and Domestic Policy Imperatives,'' China Brief, Vol. 14, No. 1, 
9 January 14.
    \7\ Liu Lei, ``Come Together To Achieve the `Three Guarantees' and 
Do a Solid Job of Ethnic Unity Work'' [Juli shixian ``san ge quebao,'' 
zhashi zuohao minzu tuanjie gongzuo], Seeking Truth, 1 January 14; 
Nicholas Dynon, Jamestown Foundation, ``The Language of Terrorism in 
China: Balancing Foreign and Domestic Policy Imperatives,'' China 
Brief, Vol. 14, No. 1, 9 January 14.
    \8\ State Council, Several Opinions on Promoting and Speeding Up 
Sound Development in Grazing Areas [Guowuyuan guanyu cujin muqu you hao 
you kuai fazhan de ruogan yijian], PRC Central People's Government, 9 
August 11; UN Office of the High Commissioner for Human Rights, Mandate 
of the Special Rapporteur on the Right to Food, Mission to the People's 
Republic of China from 15 to 23 December 2010, Preliminary Observations 
and Conclusions, 23 December 10; China's Regional Ethnic Autonomy Law: 
Does It Protect Minority Rights? Staff Roundtable of the Congressional-
Executive Commission on China, 11 April 05, Written Statement Submitted 
by Christopher P. Atwood, Associate Professor, Department of Central 
Eurasian Studies, Indiana University. For Commission analysis, see 
``State Council Opinion Bolsters Grazing Ban, Herder Resettlement,'' 
Congressional-Executive Commission on China, 18 October 11.
    \9\ Southern Mongolian Human Rights Information Center, 
``Protesting Herders Stopped by Machine Guns,'' 4 May 14; ``Nearly a 
Hundred Herders Protest, Soldiers Face Public With Guns'' [Jin bai 
mumin shiwei junbing yi qiangkou dui minzhong], Radio Free Asia, 5 May 
14.
    \10\ Southern Mongolian Human Rights Information Center, 
``Resisting Land Grab, at Least 48 Mongolian Herders Arrested,'' 17 
April 14.
    \11\ ``Seven Herders Held After Inner Mongolia Clashes,'' Radio 
Free Asia, 17 April 14; Southern Mongolian Human Rights Information 
Center, ``Resisting Land Grab, at Least 48 Mongolian Herders 
Arrested,'' 17 April 14.
    \12\ Southern Mongolian Human Rights Information Center, ``Fresh 
Wave of Herders' Protests Erupts Following Chinese Premier's Visit to 
Southern Mongolia,'' 3 April 14.
    \13\ Sui-Lee Wee, ``China Sentences Six Mongol Herders in Land-Grab 
Case,'' Reuters, reprinted in Yahoo! News, 6 January 14; Southern 
Mongolian Human Rights Information Center, ``Herders Defending Their 
Grazing Lands Face Long Jail Sentences,'' 4 October 13. According to 
the herders' lawyer, authorities had charged them with ``sabotaging 
production management.''
    \14\ Southern Mongolian Human Rights Information Center, ``Herders 
Defending Their Grazing Lands Face Long Jail Sentences,'' 4 October 13; 
Southern Mongolian Human Rights Information Center, ``100 Days and 
Counting, Six Mongolian Herders in Detention for Defending Their 
Grazing Land,'' 16 September 13.
    \15\ Southern Mongolian Human Rights Information Center, ``100 Days 
and Counting, Six Mongolian Herders in Detention for Defending Their 
Grazing Land,'' 16 September 13.
    \16\ Southern Mongolian Human Rights Information Center, ``Herders 
Defending Their Grazing Lands Face Long Jail Sentences,'' 4 October 13.
    \17\ Ibid.
    \18\ Southern Mongolian Human Rights Information Center, ``Two 
Southern Mongolian Exiles Deported From Mongolia to China,'' 16 May 14.
    \19\ Ibid.
    \20\ Ibid.; Southern Mongolian Human Rights Information Center, 
``Southern Mongolian Exile Chooses Self-Immolation Over Deportation,'' 
12 May 14; David Chace, Southern Mongolian Human Rights Information 
Center, `` `Where Is My Homeland? ': Alhaa Norovtseren Fears the Power 
of China in Mongolia,'' 2 July 14.
    \21\ Southern Mongolian Human Rights Information Center, ``Two 
Southern Mongolian Exiles Deported From Mongolia to China,'' 16 May 14.
    \22\ ``Wife of Inner Mongolian Political Prisoner Writes to Chinese 
President,'' Radio Free Asia, 19 March 14; Southern Mongolian Human 
Rights Information Center, ``Hada: `Ready To Sue the Authorities,' 
Xinna: `Ready To Go to Jail Again,' '' 19 March 14; ``Inner Mongolian 
Activist in Safe, Healthy State: Official,'' Xinhua, 6 March 13; 
Southern Mongolian Human Rights Information Center, ``Hada and Family 
Members Still Missing,'' 24 February 13.
    \23\ ``Hada's Appeal to Beijing and UN Blocked, Inner Mongolian 
Politics and Law Officials Threaten Retaliation Against Xinna'' [Hada 
xiang beijing ji lianheguo ti shensu bei zu neimeng zhengfa guanyuan 
deng men konghe baofu xinna], Radio Free Asia, 24 March 14; ``Wife of 
Inner Mongolian Political Prisoner Writes to Chinese President,'' Radio 
Free Asia, 19 March 14; Southern Mongolian Human Rights Information 
Center, ``Hada: `Ready To Sue the Authorities,' Xinna: `Ready To Go to 
Jail Again,' '' 19 March 14; ``Why Are Authorities Still Obstructing 
Me? '' Radio Free Asia, 2 May 14.
    \24\ Southern Mongolian Human Rights Information Center, ``Hada: 
`Ready To Sue the Authorities,' Xinna: `Ready To Go to Jail Again,' '' 
19 March 14.
    \25\ Ibid.
    \26\ ``Tibetan, Mongolian Dissidents Silenced During Kerry Visit,'' 
Radio Free Asia, 9 July 14.
    \27\ ``Inner Mongolian Dissident's Family Targeted,'' Radio Free 
Asia, 5 December 10; Hada, Xinna, and Uiles, Southern Mongolian Human 
Rights Information Center, ``Open Letter From Hada and His Family 
Members,'' 2 July 14; Southern Mongolian Human Rights Information 
Center, ``SMHRIC Statement to the UN Special Rapporteur on the Rights 
to Freedom of Peaceful Assembly and Association,'' 19 February 14. For 
Commission analysis on Hada, Xinna, and Uiles, see ``Authorities 
Heighten Persecution of Detained Mongol Rights Advocate's Wife and 
Son,'' CECC China Human Rights and Rule of Law Update, No. 1, 3 January 
13, 2. For more information on these cases, see the following records 
in the Commission's Political Prisoner Database: 2004-02045 on Hada; 
2010-00704 on Xinna; and 2010-00705 on Uiles.
    \28\ ``China Denies Medical Parole for Inner Mongolian Dissident,'' 
Radio Free Asia, 10 December 13; ``Inner Mongolian Dissident Ill in 
Prison'' [Neimeng yijian renshi yu zhong huanbing], Radio Free Asia, 7 
October 13.
    \29\ ``China Denies Medical Parole for Inner Mongolian Dissident,'' 
Radio Free Asia, 10 December 13.
    \30\ Southern Mongolian Human Rights Information Center, ``Two 
Other Herders Sentenced to 3 Years in Jail, One Suffers From Kidney 
Failure,'' 19 January 14; Southern Mongolian Human Rights Information 
Center, ``Mongolian Herder's Rights Defender in Poor Health at Chinese 
Detention Center,'' 2 September 13.
    \31\ Southern Mongolian Human Rights Information Center, ``Two 
Other Herders Sentenced to Three Years in Jail, One Suffers From Kidney 
Failure,'' 19 January 14.
    Notes to Section II--Population Planning

    \1\ To avoid confusion, the Commission uses the official Chinese 
term ``population planning'' when referring to the Chinese government's 
official policy of limiting the number of children a woman or couple 
may have and the methods employed by Chinese officials to coerce 
compliance with this policy. Some Commissioners also use the term 
``population control'' to describe these policies.
    \2\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, effective 
1 September 02, art. 18. Article 18 stipulates, ``The State maintains 
its current policy for reproduction, encouraging late marriage and 
childbearing and advocating one child per couple. Where the 
requirements specified by laws and regulations are met, plans for a 
second child, if requested, may be made.'' For information on differing 
provincial implementing regulations that permit couples to have more 
than one child, see Chinese Human Rights Defenders, ``I Don't Have a 
Choice Over My Own Body,'' 21 December 10, 6-7. Implementing 
regulations in different provinces vary with respect to the ages at 
which couples may give birth or the spacing permitted between children; 
most provinces have canceled limitations on birth spacing altogether. 
See, e.g., ``Nine Provinces Formally Launch `Two Children for Single 
Only-Child Couples,' 20 Provinces Put Forth Implementing Timetables'' 
[9 shengfen zhengshi qidong ``dandu lianghai'' 20 shengfen tui shishi 
shijianbiao], China News Net, 26 March 14; ``19 Provinces in Our 
Country Cancel [Mandatory] Birth Spacing, Central [Authorities] Call 
for Strict Control of the Births of Multiple Children'' [Wo guo 19 
sheng quxiao shengyu jian'ge zhongyang yaoqiu yankong duohai shengyu], 
Xinhua, reprinted in People's Daily, 31 December 13.
    \3\ See, e.g., Beijing Municipal Population and Family Planning 
Commission, Beijing Municipal Birth Services Certificate Management 
Measures [Beijing shi shengyu fuwu zheng guanli banfa], issued 30 May 
91, amended 31 December 97, effective 1 April 00, art. 4; Beijing 
Municipal Population and Family Planning Commission, Beijing Municipal 
Implementing Details on Birth Services Certificate Management Measures 
[Beijing shi shengyu fuwu zheng guanli banfa shishi xize], issued 23 
March 12, effective 1 May 12, art. 5; Fujian Provincial Population and 
Family Planning Committee, Fujian Province Birth Services Certificate 
Management Measures [Fujian sheng shengyu fuwu zheng guanli banfa], 
issued 27 February 13, effective 1 March 13, sec. 1(1); Guizhou 
Province Ninth People's Congress Standing Committee, Guizhou Provincial 
Population and Family Planning Regulations [Guizhou sheng renkou yu 
jihua shengyu tiaoli], issued 24 July 98, amended 29 September 02, art. 
29; Yecheng County People's Government, Xinjiang Uyghur Autonomous 
Region ``Birth Services Certificate'' Dispensation and Management 
Measures (Trial) Summary [Xinjiang weiwuer zizhiqu ``shengyu fuwu 
zheng'' fafang yu guanli banfa (shixing) zhaiyao], issued 27 March 13, 
arts. 4, 14.
    \4\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, effective 
1 September 02, art. 18. Article 18 stipulates, ``[t]he State maintains 
its current policy for reproduction, encouraging late marriage and 
childbearing and advocating one child per couple. Where the 
requirements specified by laws and regulations are met, plans for a 
second child, if requested, may be made.'' For information on differing 
provincial implementing regulations that permit exceptions to the one 
child policy, see Gu Baochang et al., ``China's Local and National 
Fertility Policies at the End of the Twentieth Century,'' Population 
and Development Review, Vol. 33, No. 1 (2007), 134-135, Table 1.
    \5\ Gu Baochang et al., ``China's Local and National Fertility 
Policies at the End of the Twentieth Century,'' Population and 
Development Review, Vol. 33, No. 1 (2007), 134-135, Table 1. According 
to the report, these criteria include, for example, such conditions as: 
The first child was medically diagnosed as disabled, both members of 
the couple are only children, the couple are rural residents and their 
first child was a girl, or the couple are remarried.
    \6\ Ibid., Table 1. Ethnic minority couples (couples in which at 
least one parent belongs to an officially recognized ethnic minority 
group) are permitted to bear a second child in all provincial-level 
jurisdictions except Jiangsu province, and Shanghai, Tianjin, and 
Beijing municipalities. Ethnic minority couples are permitted to bear a 
third child if they meet certain criteria in the Inner Mongolia, Tibet, 
Xinjiang Uyghur, and Ningxia Hui Autonomous Regions, and Heilongjiang, 
Fujian, Hainan, Sichuan, Guizhou, Yunnan, and Qinghai provinces. 
Population and Family Planning Commission of Hubei Province, ``Hubei 
Provincial Population and Family Planning Regulations'' [Hubei sheng 
renkou yu jihua shengyu tiaoli], 2 February 09, art. 17(5). In Hubei 
province, both members of the couple must belong to an ethnic minority 
to be able to bear a second child.
    \7\ See, e.g., Shaanxi Provincial People's Government, Shaanxi 
Provincial Implementing Measures for Collection and Management of 
Social Maintenance Fees [Shaanxi sheng shehui fuyang fei zhengshou 
guanli shishi banfa], issued 8 June 04, effective 1 August 04, art. 
5(1). In Shaanxi province, individuals in violation of local population 
planning regulations can each be fined three to six times the amount of 
the average annual income of a resident in their locality, sometimes 
more, based on statistics from the previous year. See also Brittany 
Hite et al., ``China Fines Zhang Yimou $1.2 Million,'' Wall Street 
Journal, China Real Time Report (blog), 9 January 14; ``Cost of a 
Second Child: Pair Fined 1.3m Yuan,'' Shanghai Daily, reprinted in 
China Internet Information Center, 31 May 12; Chinese Human Rights 
Defenders, ``I Don't Have a Choice Over My Own Body,'' 21 December 10, 
19-20.
    \8\ See, e.g., Mark Stone, ``China Couple Speak of `Forced 
Abortion,' '' Sky News, 4 October 13; ``Four Uyghur Women Forced To 
Abort Their Babies in Xinjiang,'' Radio Free Asia, 30 December 13.
    \9\ See, e.g., ChinaAid, ``Guizhou Family Planning Official Says 
Woman Should Have Forced Sterilization `Because He Told Her To,' '' 27 
January 14. See also Steven W. Mosher, Population Research Institute, 
``Better To Be a Criminal in China Than a Pregnant Mother,'' Weekly 
Briefing, Vol. 16 (2014).
    \10\ Beijing Declaration and Platform for Action (1995), adopted at 
the Fourth World Conference on Women on 15 September 95, and endorsed 
by UN General Assembly resolution 50/203 on 22 December 95, paras. 9, 
17. The Beijing Declaration states that governments that participated 
in the Fourth World Conference on Women reaffirmed their commitment to 
``[e]nsure the full implementation of the human rights of women and of 
the girl child as an inalienable, integral and indivisible part of all 
human rights and fundamental freedoms . . .'' (para. 9) and ``are 
convinced that . . . [t]he explicit recognition and reaffirmation of 
the right of all women to control all aspects of their health, in 
particular their own fertility, is basic to their empowerment . . .'' 
(para. 17).
    \11\ Programme of Action of the Cairo International Conference on 
Population and Development, 18 October 94, paras. 7.2, 8.25. Paragraph 
7.2 states that, ``[r]eproductive health therefore implies that people 
. . . have the capability to reproduce and the freedom to decide if, 
when and how often to do so. Implicit in this last condition are the 
right of men and women to be informed and to have access to safe, 
effective, affordable and acceptable methods of family planning of 
their choice. . . .'' Paragraph 8.25 states, ``[i]n no case should 
abortion be promoted as a method of family planning.''
    \12\ United Nations, ``Report of the Fourth World Conference on 
Women,'' A/CONF.177/20/Rev.1, 1996. chap. II, para. 3; chap. VI, para. 
12. China was one of the participating States at the Fourth World 
Conference on Women, which adopted the Beijing Declaration and Platform 
for Action. United Nations Population Information Network, A/CONF.171/
13: Report of the International Conference on Population and 
Development (ICPD), 18 October 94, chaps. II.C; VI.1. China was one of 
the participating States at the ICPD, which reached general agreement 
on the Programme of Action. The Programme of Action is provided as an 
annex to the above ICPD report.
    \13\ For recent examples of acts of official violence in the 
implementation of population planning policies, see ChinaAid, ``Guizhou 
Family Planning Official Says Woman Should Have Forced Sterilization 
`Because He Told Her To,' '' 27 January 14; ``Four Uyghur Women Forced 
To Abort Their Babies in Xinjiang,'' Radio Free Asia, 30 December 13; 
Mark Stone, ``China Couple Speak of `Forced Abortion,' '' Sky News, 4 
October 13.
    \14\ UN Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by UN General Assembly 
resolution 39/46 of 10 December 84, art. 1; UN Committee against 
Torture, 41st Session, Consideration of Reports Submitted by State 
Parties Under Article 19 of the Convention: Concluding Observations of 
the Committee against Torture--China, CAT/C/CHN/CO/4, 12 December 08, 
para. 29. In 2008, the Committee against Torture noted again with 
concern China's ``lack of investigation into the alleged use of 
coercive and violent measures to implement the population policy (A/55/
44, para. 122).''
    \15\ See United Nations Treaty Collection, Chapter IV, Human 
Rights, Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, last visited 11 July 14. China 
signed the convention on December 12, 1986, and ratified it on October 
4, 1988.
    \16\ See, e.g., Chinese Human Rights Defenders, ``I Don't Have a 
Choice Over My Own Body,'' 21 December 10, 26. Children born ``out-of-
plan'' in China may be denied household registration (hukou) and thus 
face barriers to accessing education, social services, and in some 
cases employment.
    \17\ UN Convention on the Rights of the Child, adopted and opened 
for signature, ratification, and accession by UN General Assembly 
resolution 44/25 of 20 November 89, entry into force 2 September 90, 
arts. 2-4, 6, 24, 26, 28. China signed the convention on August 29, 
1990, and ratified it on March 2, 1992. Article 2 of the CRC calls upon 
States Parties to ``respect and ensure the rights set forth . . . to 
each child within their jurisdiction without discrimination of any 
kind, irrespective of the child's or his or her parent's or legal 
guardian's . . . national, ethnic or social origin . . . birth or other 
status.'' Article 24 sets forth the right of the child to access 
healthcare, Article 26 sets forth the right of the child to social 
security, and Article 28 sets forth the right of the child to free 
primary education and accessible secondary education and higher 
education.
    \18\ International Covenant on Economic, Social and Cultural 
Rights, adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 10(3). China signed 
the covenant on October 27, 1997, and ratified it on March 27, 2001. 
Article 10(3) calls upon States Parties to recognize that ``[s]pecial 
measures of protection and assistance should be taken on behalf of all 
children and young persons without any discrimination for reasons of 
parentage or other conditions.''
    \19\ UN Convention on the Rights of the Child, adopted and opened 
for signature, ratification, and accession by UN General Assembly 
resolution 44/25 of 20 November 89, entry into force 2 September 90. 
China signed the convention on August 29, 1990, and ratified it on 
March 2, 1992. See also United Nations Treaty Collection, Chapter IV, 
Human Rights, Convention on the Rights of the Child, last visited 8 
July 14; International Covenant on Economic, Social and Cultural 
Rights, adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76; China signed the covenant 
on October 27, 1997, and ratified it on March 27, 2001. UN Treaty 
Collection, Chapter IV, Human Rights, International Covenant on 
Economic, Social and Cultural Rights, last visited 8 July 14.
    \20\ ``China To Ease One-Child Policy,'' Xinhua, 15 November 13. 
See also ``Chinese Communist Party Announces Revision to Population 
Planning Policy,'' CECC China Human Rights and Rule of Law Update, No. 
2, 23 December 13.
    \21\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], reprinted in Xinhua, 15 November 13. See also David 
Shambaugh, ``Breaking Down China's Reform Plan,'' National Interest, 2 
December 13; Christopher K. Johnson, Center for Strategic and 
International Studies, ``China Announces Sweeping Reform Agenda at 
Plenum,'' 15 November 13.
    \22\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], reprinted in Xinhua, 15 November 13, para. 46. See also 
``Chinese Communist Party Announces Revision to Population Planning 
Policy,'' CECC China Human Rights and Rule of Law Update, No. 2, 23 
December 13.
    \23\ Ibid.
    \24\ Gu Baochang et al., ``China's Local and National Fertility 
Policies at the End of the Twentieth Century,'' Population and 
Development Review, Vol. 33, No. 1 (2007), 134-135, Table 1; Tian Yuan 
and Zheng Songbo, ``All 31 Provinces in China Have Launched Two-Child 
Policy for Families in Which Both Parents Are Only Children'' [Quanguo 
31 shengfen jun yi fangkai shuangdu jiating sheng ertai zhengce], 
International Online, reprinted in NetEase, 26 November 11; ``From One-
Child to Two-Child Policy,'' CNC World, 25 January 12. See also 
``Chinese Communist Party Announces Revision to Population Planning 
Policy,'' CECC China Human Rights and Rule of Law Update, No. 2, 23 
December 13; CECC, 2012 Annual Report, 10 October 12, 93-94.
    \25\ Laney Zhang, ``China: Provincial Family Planning Regulations 
Amended Allowing More Couples To Have a Second Child,'' Global Legal 
Monitor, Library of Congress, 6 August 14. See, e.g., Heilongjiang 
Province Population and Family Planning Regulations [Heilongjiang sheng 
renkou yu jihua shengyu tiaoli], effective 1 January 03, amended 22 
April 14, chap. 2, art. 13(2); Jiangsu Province Population and Family 
Planning Regulations [Jiangsu sheng renkou yu jihua shengyu tiaoli], 
effective 1 December 02, amended 17 June 04, 28 March 14, issued and 
effective 28 March 14, chap. 3, art. 22(1); Shanghai Municipal 
Population and Family Planning Regulations [Shanghai shi renkou yu 
jihua shengyu tiaoli], effective 15 April 04, amended 25 February 14, 
issued 25 February 14, effective 1 March 14, chap. 3, art. 25(1).
    \26\ Wei Gu, ``China's Coming Baby Boomlet Will Deliver a Boost,'' 
Wall Street Journal, 22 November 13; Shan Juan, ``Wait a Minute, 
Baby,'' China Daily, 17 November 13. See also ``Chinese Communist Party 
Announces Revision to Population Planning Policy,'' CECC China Human 
Rights and Rule of Law Update, No. 2, 23 December 13.
    \27\ Dai Lili, `` `Single Only-Child' Households Can Have Second 
Child'' [``Dandu'' jiating fangkai sheng ertai], Beijing Evening News, 
reprinted in Beijing Daily, 16 November 13; ``Will a New `Baby Wave' 
Come With the Launch of the `Two Children for Single Only-Child 
Couples' Policy? '' [``Dandu lianghai'' zhengce qidong xin yi lun 
``yinger chao'' hui lai ma?], People's Daily, reprinted in China News 
Net, 13 December 13. See also ``Chinese Communist Party Announces 
Revision to Population Planning Policy,'' CECC China Human Rights and 
Rule of Law Update, No. 2, 23 December 13.
    \28\ Wei Gu, ``China's Coming Baby Boomlet Will Deliver a Boost,'' 
Wall Street Journal, 22 November 13. See also ``Chinese Communist Party 
Announces Revision to Population Planning Policy,'' CECC China Human 
Rights and Rule of Law Update, No. 2, 23 December 13.
    \29\ Liz Carter, ``For Cash-Strapped Chinese Parents, Two Babies 
Are Too Many,'' Foreign Policy, Passport (blog), 20 November 13; Daniel 
Ren, ``Shanghai Parents React Coolly to Relaxation of One-Child 
Policy,'' South China Morning Post, 23 November 13; Dai Lili, `` 
`Single Only-Child' Households Can Have Second Child'' [``Dandu'' 
jiating fangkai sheng ertai], Beijing Evening News, reprinted in 
Beijing Daily, 16 November 13. See also ``Chinese Communist Party 
Announces Revision to Population Planning Policy,'' CECC China Human 
Rights and Rule of Law Update, No. 2, 23 December 13.
    \30\ Zhuang Pinghui, ``Birth Rate Holds Steady After One-Child 
Policy Eased, but There Won't Be Further Easing,'' South China Morning 
Post, 11 July 14; ``One-Child Proclivity,'' Economist, 19 July 14.
    \31\ National Health and Family Planning Commission, ``National 
Health and Family Planning Commission Deputy Director Wang Pei'an 
Answers Reporters' Questions About Maintaining the Basic National 
Family Planning Policy and Launching the Implementation of the Two 
Children for Single Only-Child Couples Policy'' [Guojia weisheng 
jisheng wei fu zhuren wang peian jiu jianchi jihua shengyu jiben guoce 
qidong shishi dandu lianghai zhengce da jizhe wen], 16 November 13. See 
also ``Chinese Communist Party Announces Revision to Population 
Planning Policy,'' CECC China Human Rights and Rule of Law Update, No. 
2, 23 December 13.
    \32\ National Health and Family Planning Commission, ``National 
Health and Family Planning Commission Deputy Director Wang Pei'an 
Answers Reporters' Questions About Maintaining the Basic National 
Family Planning Policy and Launching the Implementation of the Two 
Children for Single Only-Child Couples Policy'' [Guojia weisheng 
jisheng wei fu zhuren wang peian jiu jianchi jihua shengyu jiben guoce 
qidong shishi dandu lianghai zhengce da jizhe wen], 16 November 13; 
Wang Feng, ``Bringing an End to a Senseless Policy: China's `One-Child' 
Rule Should Be Scrapped,'' New York Times, 19 November 13; U.S. 
Representative Chris Smith, ``No Amount of `Easing' Will Fix China's 
Brutal Population Control Policy,'' LifeNews, 17 November 13; Simon 
Denyer and William Wan, ``In Reform Package, China Relaxes One-Child 
Policy, Abolishes Prison Labor Camps,'' Washington Post, 15 November 
13; ``Women's Rights Organization Says `Single Only-Child Couples 
Bearing a Second Child' Does Not Loosen Family Planning Policy'' 
[Nuquan zuzhi cheng ``dandu ertai'' bingfei fangsong jisheng zhengce], 
Voice of America, 19 November 13; Shan Juan, ``Wait a Minute, Baby,'' 
China Daily, 17 November 13. See also ``Chinese Communist Party 
Announces Revision to Population Planning Policy,'' CECC China Human 
Rights and Rule of Law Update, No. 2, 23 December 13.
    \33\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, effective 
1 September 02, arts. 4, 39.
    \34\ This number is based on Commission analysis of population 
planning measures. Jurisdictions that urge officials to adopt 
``remedial measures'' to terminate ``out-of-plan'' pregnancies (with no 
mention of a requirement for parents' consent) include Tianjin and 
Chongqing municipalities; Liaoning, Jilin, Guangdong, Fujian, Hebei, 
Hubei, Shaanxi, Shanxi, Henan, Qinghai, Jiangxi, Sichuan, Anhui, Gansu, 
Yunnan, Guizhou, Hunan, and Hainan provinces; and the Ningxia Hui and 
Xinjiang Uyghur Autonomous Regions. For two specific examples, see 
Guangdong Province Population and Family Planning Regulations Full Text 
2014 [Guangdong sheng renkou yu jihua shengyu tiaoli quanwen 2014], 
reprinted in Lawtime, 10 April 14, art. 25, and Jiangxi Provincial 
People's Congress Standing Committee, Jiangxi Province Population and 
Family Planning Regulations (2014 Revisions) [Jiangxi sheng renkou yu 
jihua shengyu tiaoli (2014 nian xiuding)], reprinted in Lawtime, 16 
January 14, art. 15; Beijing Municipal Population and Family Planning 
Commission, ``Early Term Abortion'' [Zaoqi rengong liuchan], 10 April 
09. The Beijing Municipal Population and Family Planning Commission 
clearly draws the link between the term ``remedial measures'' and 
abortion: ``Early term abortion refers to the use of surgery or 
pharmaceuticals to terminate a pregnancy before the 12th week of 
gestation; it is a remedial measure taken after the failure of 
contraception.''
    \35\ See, e.g., Mark Stone, ``China Couple Speak of `Forced 
Abortion,' '' Sky News, 4 October 13; ``Four Uyghur Women Forced To 
Abort Their Babies in Xinjiang,'' Radio Free Asia, 30 December 13. See 
also Steven Mosher, Population Research Institute, ``Better To Be a 
Criminal in China Than a Pregnant Mother,'' Weekly Briefing, Vol. 16 
(2014).
    \36\ Li Qiuling, ``Baiyun District--Woman Doesn't Want IUD 
Implanted, Residence Committee Threatens Cancellation of Bonus Share'' 
[Baiyun qu--nuzi bu xiang shanghuan juweihui weixie quxiao fenhong], 
Xinkuai Net, 3 January 14.
    \37\ See, e.g., ChinaAid, ``Guizhou Family Planning Official Says 
Woman Should Have Forced Sterilization `Because He Told Her To,' '' 27 
January 14.
    \38\ See CECC, 2013 Annual Report, 10 October 13, 100; CECC, 2012 
Annual Report, 10 October 12, 91; CECC, 2011 Annual Report, 10 October 
11, 111; CECC, 2010 Annual Report, 10 October 10, 118.
    \39\ Duji District Party Committee Propaganda Department, ``Duji 
District Convenes Population and Family Planning Work Meeting'' [Duji 
qu zhaokai renkou he jihua shengyu gongzuohui], reprinted in Duji 
District People's Government, 27 June 14; Bowang District People's 
Government, ``Bowang Township and Village Committee Elections and 
Family Planning Work Mutual Promotion'' [Bowang zhen cun liang wei 
huanjie yu jihua shengyu gongzuo hu cujin], 22 July 14.
    \40\ Changping District Population and Family Planning Commission, 
``Changping District Convenes 2014 Family Planning Work Meeting'' 
[Changping qu zhaokai 2014 nian jihua shengyu gongzuo huiyi], 17 July 
14.
    \41\ Jinjiang City Family Planning Bureau, ``2014 Family Planning 
Work Briefing'' [2014 nian jihua shengyu gongzuo jianbao], No. 3, 
reprinted in Jinjiang News Net, 28 January 14.
    \42\ Guanling Buyi and Miao Autonomous County People's Government, 
``Guanling Autonomous County 2013 Annual Population and Family Planning 
Work Summary'' [Guanling zizhixian 2013 niandu renkou jisheng gongzuo 
zongjie], 27 December 13.
    \43\ Shijiazhuang Municipality Health and Family Planning 
Commission, ``Municipal Government Standing Committee Conference 
Studies Family Planning Work'' [Shi zhengfu changwu huiyi yanjiu jihua 
shengyu gongzuo], 28 July 14.
    \44\ Boai County Population and Family Planning Committee, ``Boai 
County Deputy Chief Li Xiuping Goes to the Grassroots and Inspects and 
Supervises the Spring `Reproductive Health Enters the Household' Top 
Quality Service Activities'' [Boai xian fu xianzhang li xiuping shenru 
jiceng jiancha dudao chunji ``shengzhi jiankang jin jiating'' youzhi 
fuwu huodong], 6 March 14.
    \45\ Guzhang County People's Government, Circular Regarding 
Earnestly Organizing and Launching the All-County 2014 Annual First 
Family Planning Concentrated and Unified Service Activities [Guanyu 
renzhen zuzhi kaizhan quanxian 2014 niandu diyi ci jihua shengyu 
jizhong tongyi fuwu huodong de tongzhi], 10 November 13; Beita District 
People's Government, ``Spare No Efforts in Fighting the Battle of 
Family Planning Concentrated Service Activities'' [Fenli dahao jisheng 
jizhong fuwu huodong gongjian zhan], 12 December 13.
    \46\ Xiangdong District People's Government, ``Regarding the Launch 
of Spring Family Planning and Reproductive Technical Service 
Activities'' [Guanyu kaizhan chunji jihua shengyu jishu fuwu huodong 
de], 21 March 14.
    \47\ Heze City Population and Family Planning Commission, ``Heze 
City Convenes Citywide Population and Family Planning Work Dispatch 
Meeting'' [Hezi shi zhaokai quanshi renkou he jihua shengyu gongzuo 
diaodu huiyi], 11 April 14.
    \48\ Songyang County People's Government, ``Comrade Zhong 
Changming's Speech at the Countywide Population and Family Planning 
Work Meeting (Summary)'' [Zhong changming tongzhi zai quanxian renkou 
he jihua shengyu gongzuo huiyi shang de jianghua (zhaiyao)], 28 March 
14.
    \49\ Beita District People's Government, ``Spare No Efforts in 
Fighting the Battle of Family Planning Concentrated Service 
Activities'' [Fenli dahao jisheng jizhong fuwu huodong gongjian zhan], 
12 December 13; Boai County Population and Family Planning Committee, 
``Boai County Deputy Chief Li Xiuping Goes to the Grassroots and 
Inspects and Supervises the Spring `Reproductive Health Enters the 
Household' Top Quality Service Activities'' [Boai xian fu xianzhang li 
xiuping shenru jiceng jiancha dudao chunji ``shengzhi jiankang jin 
jiating'' youzhi fuwu huodong], 6 March 14. For a report that clearly 
presents which procedures are included in the term ``four procedures,'' 
see ``Township Spring Family Planning Service Activities Program'' 
[Xiangzhen chunji jihua shengyu fuwu huodong fang'an], Mishu Net, 9 
January 14.
    \50\ Guzhang County People's Government, Circular Regarding 
Earnestly Organizing and Launching the All-County 2014 Annual First 
Family Planning Concentrated and Unified Service Activities [Guanyu 
renzhen zuzhi kaizhan quanxian 2014 niandu diyi ci jihua shengyu 
jizhong tongyi fuwu huodong de tongzhi], 10 November 13.
    \51\ Ibid.
    \52\ ChinaAid, ``Guizhou Family Planning Official Says Woman Should 
Have Forced Sterilization `Because He Told Her To,' '' 27 January 14.
    \53\ Ibid. According to ChinaAid, Huang said that he and Tan Kaimei 
``have not violated any family planning policy that would warrant such 
actions against them.''
    \54\ Li Qiuling, ``Baiyun District--Woman Doesn't Want IUD 
Implanted, Residence Committee Threatens Cancellation of Bonus Share'' 
[Baiyun qu--nuzi buxiang shanghuan juweihui weixie quxiao fenhong], 
Xinkuai Net, 3 January 14.
    \55\ Ibid.
    \56\ ``Four Uyghur Women Forced To Abort Their Babies in 
Xinjiang,'' Radio Free Asia, 30 December 13.
    \57\ Ibid.; ``Uyghur Woman Forced To Abort Six-Month Pregnancy 
While Ill,'' Radio Free Asia, 13 January 14.
    \58\ ``Four Uyghur Women Forced To Abort Their Babies in 
Xinjiang,'' Radio Free Asia, 30 December 13.
    \59\ ``Uyghur Woman Forced To Abort Six-Month Pregnancy While 
Ill,'' Radio Free Asia, 13 January 14.
    \60\ Mark Stone, ``China Couple Speak of `Forced Abortion,' '' Sky 
News, 4 October 13.
    \61\ Ibid.
    \62\ Ibid.
    \63\ PRC Measures for Administration of Collection of Social 
Maintenance Fees [Shehui fuyang fei zhengshou guanli banfa], issued 2 
August 02, effective 1 September 02, arts. 3, 7.
    \64\ All Girls Allowed, ``One-Child Policy Fines Relative to Income 
Levels in China,'' 1 November 12. See, e.g., Shaanxi Provincial 
Implementing Measures for Collection and Management of Social 
Maintenance Fees [Shaanxi sheng shehui fuyang fei zhengshou guanli 
shishi banfa], issued 8 June 04, effective 1 August 04, art. 5(1). In 
Shaanxi province, individuals in violation of local population planning 
regulations can each be fined three to six times the amount of the 
average income of a resident in their locality, sometimes more, based 
on their income compared to the average income of rural residents the 
previous year. For a recent example in which local family planning 
authorities required that a woman pay six to nine times the base fine 
for an ``out-of-plan'' child, see Tang Meng, ``Woman Marries Ex-
Husband's Uncle To Have a Second Child, Fined 260,000 [yuan] in Social 
Compensation Fees'' [Nuzi wei sheng ertai gaijia qianfu jiujiu bei 
zheng 26 wan shehui fuyang fei], Southern Daily, reprinted in Sina, 20 
March 14.
    \65\ Qi Leijie and Luo Xuefeng, ``Villager From Qiu County, Hebei 
Exceeds Birth Quota, Commits Suicide by Poison, Cadres Involved Are 
Investigated and Punished for Illegal Collection of Funds'' [Hebei qiu 
xian chaosheng cunmin fu du zisha sheshi ganbu weigui shoufei bei 
chachu], Xinhua, 12 December 13.
    \66\ Ibid.
    \67\ ``Lawyer Wu Youshui's Lawsuit Against Guangdong Provincial 
Health and Family Planning Commission Successful in First Instance 
Trial'' [Lushi wu youshui su guangdong sheng weijiwei an yi shen 
shengsu], Southern Weekend, 1 April 14.
    \68\ Liu Hongcen, ``Guangdong Releases Social Maintenance Fee Audit 
Findings for the First Time'' [Guangdong shouci pilu shehui fuyang fei 
shenji qingkuang], Caixin, 30 July 14.
    \69\ Adam Minter, ``China's Family Planning Commission Forced To 
Come Clean on Fees,'' Sydney Morning Herald, 9 April 14; ``Lawyer Wu 
Youshui's Lawsuit Against Guangdong Provincial Health and Family 
Planning Commission Successful in First Instance Trial'' [Lushi wu 
youshui su guangdong sheng weijiwei an yi shen shengsu], Southern 
Weekend, 1 April 14.
    \70\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, effective 
1 September 02, art. 39(4). According to Article 39, officials are to 
be punished either criminally or administratively for ``withholding, 
reducing, misappropriating or embezzling funds for family planning or 
social maintenance fees.''
    \71\ See, e.g., Sophia Lin, Freedom House, ``China's Population-
Control Machine Churns On,'' 13 January 14; Lin Shining, ``Firing of 
South China University of Technology Associate Professor for Over-Quota 
Second Child Draws Attention, Human Resources' Response--A Verified 
Over-Quota Birth Cannot Go Unpunished'' [Huanan ligong daxue yi fu 
jiaoshou yin chaosheng ertai bei kaichu yin guanzhu, huagong renshichu 
huiying--chaosheng shushi, bu fu ``buyu chuli'' tiaojian], Xinhua, 14 
December 13.
    \72\ See, e.g., ``Five Party Members in Bowang District, Maanshan 
City Expelled From Party for Exceeding Birth Quota'' [Maanshan shi 
bowang qu 5 ming dangyuan yin chaosheng bei kaichu dangji], Zhongan 
Online, 24 December 13.
    \73\ See, e.g., ``What Has Happened to the Countryside? Population 
Planning Policy Violators . . . Tear Down [Your] Home!'' [Nongcun 
zenmela? Weifan jihua shengyu zhe . . . chai fang!], Zhinews, 18 
January 14. For reports of officials destroying or seizing property 
while implementing population planning policies in previous years, see, 
e.g., ``Perils of Motherhood,'' Economist, 16 June 12; Chinese Human 
Rights Defenders, ``I Don't Have a Choice Over My Own Body,'' 21 
December 10, 2, 23. See also CECC, 2008 Annual Report, 31 October 08, 
97.
    \74\ For reports of officials depriving citizens of their personal 
liberty with no legal basis in order to forcefully implement population 
planning policies, see, e.g., Mark Stone, ``China Couple Speak of 
`Forced Abortion,' '' Sky News, 4 October 13; ``Four Uyghur Women 
Forced To Abort Their Babies in Xinjiang,'' Radio Free Asia, 30 
December 13; ``Uyghur Woman Forced To Abort Six-Month Pregnancy While 
Ill,'' Radio Free Asia, 13 January 14. For reports of officials 
imposing arbitrary detention while implementing population planning 
policies in previous years, see, e.g., Chinese Human Rights Defenders, 
``I Don't Have a Choice Over My Own Body,'' 21 December 10, 2, 19, 23. 
See also CECC, 2008 Annual Report, 31 October 08, 97.
    \75\ See, e.g., Mark Stone, ``China Couple Speak of `Forced 
Abortion,' '' Sky News, 4 October 13; ChinaAid, ``Guizhou Family 
Planning Official Says Woman Should Have Forced Sterilization `Because 
He Told Her To,' '' 27 January 14.
    \76\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, effective 
1 September 02, arts. 4, 39. Article 4 of the PRC Population and Family 
Planning Law (PFPL) states that officials ``shall perform their 
administrative duties strictly in accordance with the law, and enforce 
the law in a civil manner, and they may not infringe upon the 
legitimate rights and interests of citizens.'' Article 39 states that 
an official is subject to criminal or administrative punishment if he 
``infringes on a citizen's personal rights, property rights, or other 
legitimate rights and interests'' or ``abuses his power, neglects his 
duty, or engages in malpractices for personal gain'' in the 
implementation of population planning policies.
    \77\ Li Qian, ``2nd Child, If You're Then Sterilized,'' Shanghai 
Daily, 4 April 14.
    \78\ Ibid.
    \79\ See, e.g., Huang Xiuli, `` `Black Residents' Born in Excess 
[of Family Planning Policies]: Living Like Shadows'' [Chaosheng 
``heihu'' de rensheng: xiang yingzi yiyang huozhe], Southern Weekend, 
reprinted in Phoenix Net, 4 June 13; Mu Guangzong, ``The Travails of 
Having a Second Child,'' China Daily, 28 May 13. See also Chinese Human 
Rights Defenders (CHRD), ``I Don't Have a Choice Over My Own Body,'' 21 
December 10, 13, 26. According to the CHRD report, ``The management of 
the hukou system is the domain of the Ministry of Public Security and 
it refuses to issue hukous to children without birth permits, children 
of unmarried parents, and children whose parents for some reasons have 
not completed the required procedures. Without a hukou, a child cannot 
apply for an ID card and thus does not have a legal identity, is not a 
citizen and consequently is deprived of the rights accorded to other 
Chinese citizens.''
    \80\ ``Hard-To-Get Hukous, Who Can Protect the Rights and Interests 
of Children Born Out of Wedlock? '' [Nanluo de hukou feihun sheng zinu 
de quanyi shei neng baozhang], CCTV2, reprinted in China Economic Net, 
18 April 14; Guo Yuanpeng, ``[Responsibility of] Processing Hukous for 
Children Born Out of Wedlock Falls Back on Social Management [System]'' 
[Wei hunwai zinu ban hukou shi shehui guanli de benwei huigui], East 
Day, 3 December 13.
    \81\ ``The Invisible Lives of `Illegal Residents' '' [``Heihu'' de 
yingxing rensheng], CCTV, 3 April 14; Huang Xiuli, `` `Black Residents' 
Born in Excess [of Family Planning Policies]: Living Like Shadows'' 
[Chaosheng ``heihu'' de rensheng: xiang yingzi yiyang huozhe], Southern 
Weekend, reprinted in Phoenix Net, 4 June 13.
    \82\ Huang Xiuli, `` `Black Residents' Born in Excess [of Family 
Planning Policies]: Living Like Shadows'' [Chaosheng ``heihu'' de 
rensheng: xiang yingzi yiyang huozhe], Southern Weekend, reprinted in 
Phoenix Net, 4 June 13; ``Separate and Unequal,'' China Economic 
Review, 5 April 12; Yan Hao and Li Yanan, ``Urban Hukou, or Rural Land? 
Migrant Workers Face Dilemma,'' Xinhua, 10 March 10; Tao Ran, ``Where 
There's a Will, There's a Way To Reform,'' China Daily, 22 March 10.
    \83\ UN Committee on the Rights of the Child, Concluding 
Observations on the Combined Third and Fourth Periodic Reports of 
China, Adopted by the Committee at Its Sixty-Fourth Session (16 
September-4 October 2013), CRC/C/CHN/CO/3-4, 29 October 13, paras. 
39(a), 40(a), 40(b).
    \84\ ``Total Population, CBR, CDR, NIR and TFR in China (1949-
2000),'' China Daily, 20 August 10.
    \85\ U.S. Central Intelligence Agency, ``The World Factbook--
China,'' last visited 4 April 14. See also ``China's Total Fertility 
Rate Grossly Overestimated: Academic,'' Caijing, 17 May 11. While 
China's National Bureau of Statistics estimated China's fertility rate 
at 1.8 in 2007, in May 2011, a group of Chinese academics publicly 
disputed the number, stating that it had been ``grossly 
overestimated.'' These academics estimated in 2011 that China's total 
fertility rate more accurately stood anywhere from 1.63 to below 1.5.
    \86\ ``China's Working-Age Population Drops for a Second Year,'' 
Xinhua, 20 January 14; Yanzhong Huang, ``Population Aging in China: A 
Mixed Blessing,'' Diplomat, 10 November 13.
    \87\ For regulations prohibiting the practices of non-medically 
necessary gender determination tests and sex-selective abortion, see 
National Population and Family Planning Commission, Ministry of Health, 
State Food and Drug Administration, ``Regulations Regarding the 
Prohibition of Non-Medically Necessary Gender Determination 
Examinations and Sex-Selective Termination of Pregnancy'' [Guanyu 
jinzhi fei yixue xuyao de taier xingbie jianding he xuanze xingbie de 
rengong zhongzhi renshen de guiding], issued 29 November 02, effective 
1 January 03. For discussion of these regulations, see ``China Bans 
Sex-Selection Abortion,'' Xinhua, reprinted in China Net, 22 March 03. 
See also PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, effective 
1 September 02, art. 22. According to Article 22, ``Discrimination 
against, maltreatment, and abandonment of baby girls are prohibited.''
    \88\ National Health and Family Planning Commission, ``Several 
Departments Jointly Uncover Cross-Provincial Case of `Two Illegals,' 
Strike Hard Campaign Against the Illegal Practice of Medicine and 
Crimes Against the Law'' [Ji bumen lianhe pohuo kuasheng ``liang fei'' 
xingwei anjian zhong quan daji feifa xingyi weifa fanzui xingdong], 19 
January 14; ``China Breaks Up Gang Offering Sex-Selective Abortions,'' 
Reuters, 18 January 14.
    \89\ Shan Juan, ``Gang Busted for Illegal Gender Selection 
Testing,'' China Daily, 20 January 14. According to Zhai Zhenwu, a 
professor at the Renmin University School of Sociology and Population 
Studies, son preference is the root cause of China's skewed sex ratio, 
and ``the preference for boys became more intense as the three-decade-
old family planning policy restricted most families to just one 
child.'' See also ``Preference for Boys by Migrants,'' China Internet 
Information Center, 15 December 11.
    \90\ ``China's Sex Ratio at Birth Declines Four Years in a Row,'' 
Xinhua, 5 March 13. According to Xinhua, China's sex ratio at birth in 
2012 was 117.7 males for every 100 females.
    \91\ Xu Wei, ``Changes Could Balance Gender Ratio,'' China Daily, 
26 December 13; Peng Xinyun, ``Expert: `Two Children for Single Only-
Child Couples' Policy May Help Mitigate Male/Female Sex Ratio 
Imbalance'' [Zhuanjia: ``dandu lianghai'' zhengce youzhu huanjie nannu 
xingbie bili shiheng], People's Daily, 4 March 14; Susan Scutti, ``One-
Child Policy Is One Big Problem for China,'' Newsweek, 24 January 14.
    \92\ UN Committee on the Rights of the Child, Concluding 
Observations on the Combined Third and Fourth Periodic Reports of 
China, Adopted by the Committee at Its Sixty-Fourth Session (16 
September-4 October 2013), CRC/C/CHN/CO/3-4, 29 October 13, para. 28.
    \93\ ``China's Sex Ratio at Birth Declines Four Years in a Row,'' 
Xinhua, 5 March 13. According to Xinhua, China's sex ratio at birth in 
2012 was 117.7 males for every 100 females, down from 117.78 in 2011, 
117.94 in 2010, and 119.45 in 2009. See also ``China's Sex Ratio at 
Birth Dropping,'' North Side Net, translated in Women of China, 12 July 
12. According to the North Side Net report, which cites a 2012 National 
Population and Family Planning Commission Bulletin, ``China's sex ratio 
at birth in 2011 was 117.78, representing a drop of 0.16 compared to 
2010. . . . The ratios of 2008, 2009 and 2010 were respectively 120.56, 
119.45 and 117.94.''
    \94\ UN Population Division, Department of Economic and Social 
Affairs, ``World Population Prospects: The 2012 Revision,'' June 2013. 
According to UN Population Division statistics, China's sex ratio at 
birth (SRB) from 2005-2010 was the highest in the world at 117 males 
per 100 females born. Equally as high was Azerbaijan's sex ratio at 
117, followed by Armenia's at 115, and India's and Georgia's at 111.
    \95\ See, e.g., Andrea den Boer and Valerie M. Hudson, ``The 
Security Risks of China's Abnormal Demographics,'' Washington Post, 
Monkey Cage (blog), 30 April 14; Susan Scutti, ``One-Child Policy Is 
One Big Problem for China,'' Newsweek, 23 January 14; World Health 
Organization, UN Office of the High Commissioner for Human Rights, UN 
Population Fund, UNICEF, and UN Entity for Gender Equality and the 
Empowerment of Women, ``Preventing Gender-Biased Sex Selection,'' 2011, 
5; Susan W. Tiefenbrun and Christie J. Edwards, ``Gendercide and the 
Cultural Context of Sex Trafficking in China,'' Fordham International 
Law Journal, Vol. 32, No. 3 (2009), 731, 752; Therese Hesketh et al., 
``The Effect of China's One-Child Family Policy After 25 Years,'' New 
England Journal of Medicine, Vol. 353, No. 11 (2005), 1173; Nicholas 
Eberstadt, ``A Global War Against Baby Girls: Sex-Selective Abortion 
Becomes a Worldwide Practice,'' Handbook of Gender Medicine, reprinted 
in All Girls Allowed, 1 May 11. According to the Eberstadt article, 
``Some economists have hypothesized that mass feticide, in making women 
scarce, will only increase their `value'--but in settings where the 
legal and personal rights of the individual are not secure and 
inviolable, the `rising value of women' can have perverse and 
unexpected consequences, including increased demand for prostitution 
and an upsurge in the kidnapping and trafficking of women (as is now 
reportedly being witnessed in some women-scarce areas in Asia)[.]''
    \96\ Zhu Shanshan, ``Shandong Baby Trafficking Ring Taken Down,'' 
Global Times, 4 November 11. For domestic reports, see Shi Jingnan and 
Zheng Liang, ``Xinhua Investigation: Resold Several Thousand Miles 
Away, Changed Hands Seven Times--Tracing the Chain of Black [Market] 
Baby Trafficking Driven by Huge Profit'' [Xinhua diaocha: zhuanmai shu 
qianli, daoshou da 7 ci--zhuizong baoli qudong xia de heise fanying 
lian], Xinhua, 24 December 12; Zhou Ping, ``Two Officials Also Detained 
for Human Trafficking,'' Global Times, 26 December 12. For 
international reports, see Lavinia Mo et al., ``Chinese Parents, 
Trapped in One-Child Web, Give Babies Away on Internet,'' Reuters, 30 
March 14; Chen Weijun, ``One Child Policy Leads to Baby Selling,'' Asia 
News, 4 January 13; ``What Is Fuelling Child Abduction in China? '' Al 
Jazeera, 27 December 12.
    \97\ Erwin Li, ``Erwin Li: Finding China's Missing Children,'' 
Council on Foreign Relations, Asia Unbound (blog), 11 August 14; Sharon 
LaFraniere, ``Chinese Officials Seized and Sold Babies, Parents Say,'' 
New York Times, 4 August 11.
    \98\ ``Baby-Trafficking Doctor Given Suspended Death Sentence,'' 
Xinhua, 14 January 14.
    \99\ Ibid.; Ma Lie and Lei Lei, ``Doctor Suspected of Child 
Trafficking,'' China Daily, 3 August 13; ``China Vows To Seriously 
Punish Newborn Traffickers,'' Xinhua, 6 August 13.
    \100\ Lavinia Mo et al., ``Chinese Parents, Trapped in One-Child 
Web, Give Babies Away on Internet,'' Reuters, 30 March 14; Louise Watt, 
``Wuhan, China To Fine Unwed Mothers,'' Associated Press, reprinted in 
Huffington Post, 3 June 13.
    \101\ Lavinia Mo et al., ``Chinese Parents, Trapped in One-Child 
Web, Give Babies Away on Internet,'' Reuters, 30 March 14.
    \102\ Ibid. For additional information on the crackdown, see Bai 
Tiantian, ``Police Save 382 Babies in Trafficking Crackdown,'' Global 
Times, 1 March 14.
    Notes to Section II--Freedom of Residence and Movement

    \1\ PRC Regulations on Household Registration [Zhonghua renmin 
gongheguo hukou dengji tiaoli], issued and effective 9 January 58.
    \2\ Kam Wing Chan, ``Crossing the 50 Percent Population Rubicon: 
Can China Urbanize to Prosperity? '' Eurasian Geography and Economics, 
Vol. 53, No. 1 (2012), 67.
    \3\ Ibid.
    \4\ Ibid.
    \5\ International Covenant on Civil and Political Rights, adopted 
and proclaimed by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 23 March 76, arts. 2(1), 12(1), 12(3), 
26; Universal Declaration of Human Rights, adopted and proclaimed by UN 
General Assembly resolution 217A (III) of 10 December 48, arts. 2, 
13(1).
    \6\ State Council, ``Report on the Work of the Government,'' 5 
March 14, sec. 5.
    \7\ PRC Central People's Government, ``National New-Type 
Urbanization Plan (2014-2020)'' [Guojia xinxing chengzhenhua guihua 
(2014-2020 nian)], reprinted in Xinhua, 16 March 14; ``China Unveils 
Landmark Urbanization Plan,'' Xinhua, 16 March 14.
    \8\ PRC Central People's Government, ``National New-Type 
Urbanization Plan (2014-2020)'' [Guojia xinxing chengzhenhua guihua 
(2014-2020 nian)], reprinted in Xinhua, 16 March 14.
    \9\ Fu Guangyun, ``Residence Permit: Reform or Buffer? '' [Juzhu 
zheng: gaige haishi huanchong?], People's Daily, 7 April 14.
    \10\ ``Tsinghua University Investigation Shows China's Household 
Registration Urbanization Rate Only 27.6 Percent'' [Qinghua daxue 
diaocha xianshi zhongguo huji chengzhenhua lu jin wei 27.6%], China 
Youth Daily, reprinted in Xinhua, 5 November 13; Hu Jianhui, ``Tsinghua 
Professor: China's Hukou Urbanization Rate Only 27.6 Percent, Hukou 
Reform Lagging Behind'' [Qinghua jiaoshou: zhongguo huji chengzhenhua 
lu jin 27.6% huji gaige zhihou], Legal Daily, reprinted in People's 
Daily, 28 October 13.
    \11\ PRC Central People's Government, ``National New-Type 
Urbanization Plan (2014-2020)'' [Guojia xinxing chengzhenhua guihua 
(2014-2020 nian)], reprinted in Xinhua, 16 March 14; An Baijie, ``Hukou 
Reforms Target 2020: Official,'' China Daily, 18 December 13; State 
Council, Opinion on Further Carrying Out Reform of the Household 
Registration System [Guowuyuan guanyu jin yi bu tuijin huji zhidu gaige 
de yijian], reprinted in PRC Central People's Government, 30 July 14, 
paras. 4-7.
    \12\ Li Hongpeng, ``Deputy Public Security Minister: With New Type 
Urbanization, `Not Much Hope' To Settle in Megacities'' [Gonganbu 
fubuzhang: xinxing chengzhenhua te da chengshi luohu ``xiwang buda''], 
Mirror, reprinted in China News Service, 19 March 14; Liyan Qi, 
``Dashing the China Dream,'' Wall Street Journal, China Real Time 
Report (blog), 20 March 14.
    \13\ State Council, Opinion on Further Carrying Out Reform of the 
Household Registration System [Guowuyuan guanyu jin yi bu tuijin huji 
zhidu gaige de yijian], reprinted in PRC Central People's Government, 
30 July 14, para. 9.
    \14\ Ibid.; ``China Eases Internal Passport System in Urbanization 
Push,'' Bloomberg, 30 July 14.
    \15\ Wang Su, ``Closer Look: Unifying the Hukou System Is a Start, 
but It's Just That,'' Caixin, 31 July 14.
    \16\ Guangdong Provincial Department of Education et al., 
Implementing Measures for the Participation in Entrance Exams in 
Guangdong by Children Accompanying Migrant Workers (Trial) [Jincheng 
wugong renyuan suiqian zinu zai guangdong sheng canjia gaoxiao 
zhaosheng kaoshi shishi banfa (shixing)], issued and effective 27 
November 13, reprinted in Education Examinations Authority of Guangdong 
Province.
    \17\ Beijing Education Examinations Authority, ``Questions and 
Answers on the 2014 Higher Vocational School Entrance Examination 
Policy for Children Accompanying Migrant Workers in Beijing'' [2014 
nian jincheng wugong renyuan suiqian zinu zai jing canjia gaodeng zhiye 
xuexiao zhaosheng kaoshi zhengce wenda], 5 November 13.
    \18\ Shanghai Municipal People's Government et al., Implementing 
Opinion Concerning the Enrollment of Children Accompanying Persons Who 
Migrate to Shanghai in Different Types of Local Schools at Various 
Levels [Guanyu lai hu renyuan suiqian zinu jiudu benshi geji gelei 
xuexiao de shishi yijian], issued 11 December 13, effective 1 January 
14; Shanghai Municipal People's Government, Trial Measures on 
Administering the Accumulation of Points for Shanghai Residential 
Permits [Shanghai shi juzhu zheng jifen guanli shixing banfa], issued 
13 June 13, effective 1 July 13.
    \19\ Beijing Education Examinations Authority, ``Questions and 
Answers on the 2014 Higher Vocational School Entrance Examination 
Policy for Children Accompanying Migrant Workers in Beijing'' [2014 
nian jincheng wugong renyuan suiqian zinu zai jing canjia gaodeng zhiye 
xuexiao zhaosheng kaoshi zhengce wenda], 5 November 13; Shanghai 
Municipal People's Government et al., Implementing Opinion Concerning 
the Enrollment of Children Accompanying Persons Who Migrate to Shanghai 
in Different Types of Local Schools at Various Levels [Guanyu lai hu 
renyuan suiqian zinu jiudu benshi geji gelei xuexiao de shishi yijian], 
issued 11 December 13, effective 1 January 14; Shanghai Municipal 
People's Government, Trial Measures on Administering the Accumulation 
of Points for Shanghai Residential Permits [Shanghai shi juzhu zheng 
jifen guanli shixing banfa], issued 13 June 13, effective 1 July 13; 
Guangdong Provincial Department of Education et al., Implementing 
Measures for the Participation in Entrance Exams in Guangdong by 
Children Accompanying Migrant Workers (Trial) [Jincheng wugong renyuan 
suiqian zinu zai guangdong sheng canjia gaoxiao zhaosheng kaoshi shishi 
banfa (shixing)], issued and effective 27 November 13, reprinted in 
Education Examinations Authority of Guangdong Province.
    \20\ Human Rights in China, ``Parallel Submission in Advance of the 
Review of the People's Republic of China's Second Report on its 
Implementation of the International Covenant on Economic, Social and 
Cultural Rights,'' 17 March 14, paras. 15-22.
    \21\ International Covenant on Civil and Political Rights, adopted 
and proclaimed by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 23 March 76, art. 12(2).
    \22\ Ibid., art. 12(3).
    \23\ PRC Passport Law [Zhonghua renmin gongheguo huzhao fa], issued 
29 April 06, effective 1 January 07, art. 13(7); PRC Exit and Entry 
Control Law [Zhonghua renmin gongheguo chujing rujing guanli fa], 
issued 30 June 12, effective 1 July 13, art. 12(5).
    \24\ See, e.g., Bureau of Democracy, Human Rights, and Labor, U.S. 
Department of State, ``Country Report on Human Rights Practices--2013, 
China (Includes Tibet, Hong Kong and Macau),'' 27 February 14; ``50 
Shanghai Rights Defenders Issue Three Demands to Guangzhou Baiyun 
District Court'' [50 ming shanghai weiquanzhe xiang guangzhou baiyun qu 
fayuan fachu 3 dian yaoqiu], Radio Free Asia, 5 January 14; Rights 
Defense Network, ``Rights Defenders Xu Dali Told on Way to US at Pudong 
Airport Passport Canceled'' [Weiquan renshi xu dali fu mei zai pudong 
jichang bei gaozhi huzhao bei zhuxiao], 16 November 13; Rights Defense 
Network, ``Nanjing 1989 Student Li Yong Refused Hong Kong-Macau Travel 
Permit'' [Nanjing bajiu xuesheng li yong bei ju ban gang'ao 
tongxingzheng], 19 December 13; Rights Defense Network, ``Hunan Rights 
Defenders Ou Biaofeng Prevented From Leaving Country at Luohu Customs'' 
[Hunan weiquan renshi ou biaofeng zai luohu haiguan bei xianzhi 
chujing], 12 January 14; Rights Defense Network, ``Independent Chinese 
PEN Center Writer Tai Ping Prevented by Luohu Customs From Leaving 
Country'' [Duli zhongwen bi hui zuojia tai ping bei luohu haiguan 
xianzhi chujing], 13 January 14; Rights Defense Network, ``Linyi, 
Shandong, Forced Demolition Victim Lu Qiumei Under Strict Control After 
Getting US Visa'' [Shandong linyi qiangchai shouhairen lu qiumei banli 
fu mei qianzheng hou zao yanmi jiankong], 3 May 14; Rights Defense 
Network, ``Military Author Xin Ziling Forbidden From Leaving Country To 
Visit Family Because of Publishing Political Essay'' [Jundui zuojia xin 
ziling yin fabiao zhenglun wenzhang bei jin chuguo tanqin], 21 May 14.
    \25\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Report on Human Rights Practices--2013, China 
(Includes Tibet, Hong Kong and Macau),'' 27 February 14.
    \26\ ``Passport Application Process `Not Easy' for Uyghurs,'' Radio 
Free Asia, 20 November 13; ``Uyghurs Applying for Passports Face One 
Difficulty After Another, Intermediary Companies Get Rich Processing 
Documents'' [Weizu shenqing huzhao nan shang jia nan zhongjie gongsi 
jie ban zheng liancai], Radio Free Asia, 13 November 13.
    \27\ International Covenant on Civil and Political Rights, adopted 
and proclaimed by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 23 March 76, art. 12(4).
    \28\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
13(2). Article 2 of the UDHR states that ``[e]veryone is entitled to 
all the rights and freedoms set forth in this Declaration, without 
distinction of any kind, such as . . . national or social origin . . . 
birth or other status.'' Universal Declaration of Human Rights, adopted 
and proclaimed by UN General Assembly resolution of 10 December 48, 
art. 2.
    \29\ For more information on Cao Shunli, see the Commission's 
Political Prisoner Database record 2009-00195.
    \30\ Sui-Lee Wee, ``Chinese Police Detain Activist Ahead of U.N. 
Human Rights Review,'' Reuters, 30 September 13; ``Inadequate Medical 
Care for Cao Shunli Before Her Death Contradicts International Law,'' 
Congressional-Executive Commission on China, 2 April 14.
    \31\ ``Chinese Activists Face Arrests, Travel Bans Before U.N. 
Forum: Experts,'' Reuters, 16 October 13; Chinese Human Rights 
Defenders, ``Cao Shunli & Her Legacy,'' last visited 8 September 14.
    \32\ Amnesty International, ``China: Authorities Have `Blood on 
Their Hands' After Activist's Death,'' 14 March 14; Front Line 
Defenders, ``Chinese Government Responsible for the Death of Cao 
Shunli,'' 14 March 14; Chinese Human Rights Defenders, ``Cao Shunli & 
Her Legacy,'' last visited 8 September 14.
    \33\ Clifford Coonan, ``Wu'er Kaixi: The Chinese Dissident Who 
Can't Get Himself Arrested--Not Even To Go Home and See His Sick 
Parents,'' Independent, 25 November 13.
    \34\ Perry Link, ``Paying a Price To Cross China's Border,'' 
Washington Post, 20 December 13; Clifford Coonan, ``Wu'er Kaixi: The 
Chinese Dissident Who Can't Get Himself Arrested--Not Even To Go Home 
and See His Sick Parents,'' Independent, 25 November 13; CECC, 2009 
Annual Report, 10 October 09, 164.
    \35\ Clifford Coonan, ``Wu'er Kaixi: The Chinese Dissident Who 
Can't Get Himself Arrested--Not Even To Go Home and See His Sick 
Parents,'' Independent, 25 November 13; International Covenant on Civil 
and Political Rights, adopted and proclaimed by UN General Assembly 
resolution 2200A (XXI) of 16 December 66, entry into force 23 March 76, 
art. 12. Although Chinese law allows authorities to deny passports to 
those whose ``leaving China will do harm to the state security or 
result in serious losses to the benefits of the state,'' article 12(3) 
of the ICCPR only permits narrow restrictions on the right to leave the 
country. For more information, see PRC Passport Law [Zhonghua renmin 
gongheguo huzhao fa], issued 29 April 06, effective 1 January 07, art. 
13(7); PRC Exit and Entry Control Law [Zhonghua renmin gongheguo 
chujing rujing guanli fa], issued 30 June 12, effective 1 July 13, art. 
12(5).
    \36\ For more information on Yang Jianli, see the Commission's 
Political Prisoner Database record 2004-04961.
    \37\ ``Holding Valid Chinese Passport, Dr. Yang Jianli Again 
Refused Entry to Hong Kong'' [Chi youxiao zhongguo huzhao de yang 
jianli boshi zaici bei jujue rujing xianggang], Radio Free Asia, 20 
April 14; Nora Boustany, ``Hong Kong Bars Chinese Dissident,'' 
Washington Post, 7 August 08; Jeffie Lam, ``Tiananmen Square Activist 
Refused Entry to Hong Kong To Attend June 4 Museum Opening,'' South 
China Morning Post, 21 April 14; CECC, 2009 Annual Report, 10 October 
09, 164.
    \38\ ``Holding Valid Chinese Passport, Dr. Yang Jianli Again 
Refused Entry to Hong Kong'' [Chi youxiao zhongguo huzhao de yang 
jianli boshi zaici bei jujue rujing xianggang], Radio Free Asia, 20 
April 14.
    \39\ Jeffie Lam, ``Tiananmen Square Activist Refused Entry to Hong 
Kong To Attend June 4 Museum Opening,'' South China Morning Post, 21 
April 14.
    \40\ For more information on Yang Kuang, see the Commission's 
Political Prisoner Database record 2014-00138.
    \41\ ``Yang Kuang Sentenced to Eight Months in Prison'' [Yang kuang 
bei pan ruyu 8 ge yue], Radio Free Asia, 12 June 14; ``Yang Kuang 
Sentenced by Shenzhen to Eight Months in Prison for Crossing Border'' 
[Yang kuang yin yuejing bei shenzhen pan jian ba ge yue], Ming Pao, 12 
June 14; ``Yang Kuang's Case of `Illegally Crossing the National 
Border' To Be Scheduled for Sentencing, Supporters Intercepted En 
Route'' [Yang kuang ``touyue guo bianjing'' an zeqi xuanpan shengyuan 
renshi tuzhong zao lanjie], Radio Free Asia, 14 April 14.
    \42\ Rights Defense Network, ``Court Record for Hong Kong Democracy 
and Human Rights Activist Yang Kuang, Accused of ``Illegally Crossing 
Border'' [Xianggang minzhu weiquan renshi yang kuang beikong ``touyue 
bianjing zui'' tingshen jishi], 16 April 14; He Huifeng, ``Hong Kong 
Activist Pledges To Continue Human Rights Fight at Trial in Shenzhen,'' 
South China Morning Post, 15 April 14.
    \43\ Ibid.
    \44\ Bill Smith, ``China Quashes Campaign To Probe Blood-Selling 
Scandal,'' Business Recorder, 30 November 13.
    \45\ Sophie Richardson, ``Dispatches: Clipping a Sparrow's Wings in 
China,'' Human Rights Watch, 15 July 14; Patrick Boehler, ``Sex Worker 
Rights Activist Ye Haiyan Says She Is Barred From Leaving China,'' 
South China Morning Post, 16 July 14.
    \46\ Patrick Boehler, ``Sex Worker Rights Activist Ye Haiyan Says 
She Is Barred From Leaving China,'' South China Morning Post, 16 July 
14.
    \47\ See, e.g., ``Sentence Completed and After Two Weeks of Soft 
Detention, Tan Zuoren Returns to Chengdu To Continue Work on His 
Investigative Report of the Sichuan Earthquake'' [Tan zuoren xingman 
bei ruanjin liang zhou hou fan rong, jiang jixu wancheng chuan zhen 
diaocha baogao], Radio Free Asia, 16 April 14; Rights Defense Network, 
``Hangzhou Rights Lawyer Wang Cheng and Family Forcibly Expelled From 
Hangzhou by State Security'' [Hangzhou renquan lushi wang cheng yijia 
bei guobao qiangxing ``quzhu'' chu hangzhou], 13 April 14; Rights 
Defense Network, ``Before Trial of Liu Ping and Two Others Begins, Many 
Xinyu Rights Defenders Under Soft Detention'' [Liu ping san junzi an 
kaiting qian xinyu duo ming weiquan renshi bei ruanjin], 26 October 13; 
Rights Defense Network, ``Petitioner Min Xianguo Held in Soft Detention 
for 11 Hours by Wanggou Public Security Bureau Because of Xi Jinping 
Visit to Linyi'' [Fangmin min xianguo yin xi jinping dao linyi bei 
wanggou paichusuo ruanjin 11 xiaoshi], 26 November 13; Rights Defense 
Network, ``With Xu Zhiyong Trial About To Begin, Many Have Personal 
Freedom Restricted'' [Xu zhiyong an kaiting zaiji, duo ren bei xianzhi 
renshen ziyou], 21 January 14.
    \48\ International Covenant on Civil and Political Rights, adopted 
and proclaimed by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 23 March 76, art. 12(1).
    \49\ Wang Xiaojun, ``Urumqi: It's a Rumor You Will Be Sent Back if 
You Leave Xinjiang Without a Convenient Contact Card'' [Wulumuqi: chu 
jiang budai bian min lianxi ka jiang bei qianfan shu yaoyan], China 
News, 5 August 14.
    \50\ See, e.g., Civil Rights and Livelihood Watch, ``CRLW Founder 
Liu Feiyue Confirmed Detained'' [Minsheng guancha fuzeren liu feiyue 
zhengshi bei juliu], 5 March 14; Rights Defense Network, ``Zhenjiang, 
Jiangsu Petitioners Kidnapped, Taken Away in Beijing Before Two 
Sessions'' [Lianghui qian jiangsu zhenjiang fangmin zai beijing zao 
bangjia daizou], 4 March 14; Rights Defense Network, ``Shandong 
Petitioner Min Xianguo Has Freedom Restricted Due to `Two Sessions' '' 
[Shandong fangmin min xianguo yin ``lianghui'' bei xianzhi ziyou], 3 
March 14; Rights Defense Network, ``Because of `Two Sessions' June 
Fourth Victim Qi Zhiyong Held in Soft Detention by Police at Home in 
Bejing'' [Yin ``lianghui'' beijing liu si shangcanzhe qi zhiyong zao 
jingfang ruanjin jiazhong], 2 March 14; Andrew Jacobs, ``Chinese Artist 
Detained Before Tiananmen Anniversary,'' New York Times, Sinosphere 
(blog), 9 May 14; ``Pu Zhiqiang and Others Incommunicado After June 
Fourth Discussion Forum; Ding Zilin Prohibited From Returning to 
Beijing'' [Pu zhiqiang deng ren `liu si' yantaohui hou shilian ding 
zilin bei jin hui beijing], Voice of America, 5 May 14; Human Rights in 
China, ``China Escalates Persecution Before 25th Anniversary of June 
Fourth,'' 8 May 14; Rights Defense Network, ``As June Fourth 
Approaches, Ji'nan Rights Defender Li Hongwei and Husband Detained'' 
[Liu si linjin, ji'nan weiquan renshi li hongwei fufu bei juliu], 27 
May 14; Rights Defense Network, ``Xi'an Democracy Activist Yang Hai 
Taken Away on Vacation, Guiyang Rights Defenders Under Strict Control'' 
[Xi'an minzhu renshi yang hai bei daizou luyou, guiyang weiquan renshi 
zao yankong], 27 May 14; Rights Defense Network, ``June Fourth 
Stability Maintenance--Guangzhou State Security Drive Sign Brother Liu 
Hui Back to Shaanxi'' [Liu si weiwen guangzhou guobao jiang ju pai ge 
liu hui gan hui shaanxi], 3 May 14.
    \51\ ``Detainee Liu Xia Hospitalized as Health Reportedly 
Worsens,'' Congressional-Executive Commission on China, 27 March 14. 
See also the Commission's Political Prisoner Database record 2010-00629 
for additional information on Liu Xia's case.
    \52\ Desmond M. Tutu and Jared Genser, ``The Ordeal of China's Liu 
Xia,'' Wall Street Journal, 30 March 14.
    \53\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 37; PRC Criminal Law 
[Zhonghua renmin gongheguo xingfa], passed 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, arts. 234, 238; Universal Declaration of Human 
Rights, adopted and proclaimed by UN General Assembly resolution 217A 
(III) of 10 December 48, art. 9; International Covenant on Civil and 
Political Rights, adopted by UN General Assembly resolution 2200A (XXI) 
of 16 December 66, entry into force 23 March 76, art. 9.
    \54\ ``Liu Xia Has Heart Attack, the Hospital Refused To Accept 
Her; Hong Kong Group Shaves Head for Liu Xia'' [Liu xia xinzang bing fa 
zao yiyuan jujue gang tuanti qingren jie titou cheng liu xia], Radio 
Free Asia, 14 February 14; ``Detainee Liu Xia Hospitalized as Health 
Reportedly Worsens,'' Congressional-Executive Commission on China, 27 
March 14.
    \55\ ``Jailed Nobel Dissident's Wife Seeks Treatment in Beijing 
Hospital,'' Radio Free Asia, 20 February 14.
    \56\ For more information on Thaddeus Ma Daqin, see the 
Commission's Political Prisoner Database record 2013-00336.
    \57\ ``New Shanghai Bishop To Leave CPA Posts,'' UCA News, 7 July 
12.
    \58\ Sui-Lee Wee, ``Special Report--The Bishop Who Stood Up to 
China,'' Reuters, 1 April 14; ``Shanghai Bishop in Soft Detention, 
Brainwashed for 17 Months'' [Shanghai zhujiao zao ruanjin xinao 17 
yue], Apple Daily, 25 December 13.
    \59\ ``Woeser Released From House Arrest'' [Weise bei jiechu 
ruanjin], Voice of America, 10 July 14.
    \60\ Edward Wong, ``Tibetan Writer Says Invitation to U.S. Embassy 
Preceded House Arrest,'' New York Times, Sinosphere (blog), 9 July 14.
    \61\ Gillian Wong, ``Denied Passport, Tibet Poet Can't Receive US 
Award,'' Associated Press, 8 March 13; CECC, 2013 Annual Report, 10 
October 13, 107.
    \62\ ``China Prevents Prominent Human Rights Lawyer Mo Shaoping 
From Meeting German Minister,'' Reuters, reprinted in South China 
Morning Post, 24 April 14.
    \63\ Rights Defense Network, ``German Vice-Chancellor Visits China, 
Invites Five Citizen Representatives To Meet, Four of Whom Have Freedom 
Hindered'' [Deguo fu zongli lai hua yuehao huijian 5 wei gongmin 
daibiao, si wei bei xianzhi ziyou], 24 April 14.
    Notes to Section II--Status of Women

    \1\ UN Committee on Economic, Social and Cultural Rights, 
``Committee on Economic, Social and Cultural Rights Concluding 
Observations on the Second Periodic Report of China, Including Hong 
Kong, China and Macao, China,'' 23 June 14, E/C.12/CHN/CO/2.
    \2\ UN Office of the High Commissioner for Human Rights, Committee 
on the Elimination of Discrimination against Women, Provisional Agenda 
and Annotations, 23 June 14, CEDAW/C/59/1. According to this document, 
the 59th session of the Committee on the Elimination of Discrimination 
against Women will take place from October 20 through November 7, 2014.
    \3\ UN Committee on Economic, Social and Cultural Rights, Committee 
on Economic, Social and Cultural Rights Concluding Observations on the 
Second Periodic Report of China, Including Hong Kong, China and Macao, 
China, E/C.12/CHN/CO/2, 23 June 14, para. 16.
    \4\ UN Committee on the Elimination of All Forms of Discrimination 
against Women, Consideration of Reports Submitted by States Parties 
under Article 18 of the Convention on the Elimination of All Forms of 
Discrimination against Women, Combined Seventh and Eighth Periodic 
Report of States Parties, China, CEDAW/C/CHN/7-8, 17 January 13, para. 
2.
    \5\ Ibid., paras. 10-51.
    \6\ Ibid., para. 52.
    \7\ See, e.g., Chinese Human Rights Defenders, ``Information 
Submitted by Joint Chinese NGOs With the Assistance of Chinese Human 
Rights Defenders (CHRD) to Committee on the Elimination of 
Discrimination against Women on the Occasion of the Consideration of 
List of Issues Related to the Combined Seventh and Eighth Periodic 
Report of the People's Republic of China at the Pre-Sessional Working 
Group Meeting of the Committee's 59th Session,'' 20 February 14, art. 
5; Human Rights in China, ``Suggested Questions and Issues To Be Raised 
With the Chinese Government in Advance of the Fifth Review of Its 
Implementation of the Convention on the Elimination of All Forms of 
Discrimination against Women,'' January 2014, para. 30.
    \8\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted and opened for signature, ratification, and 
accession by UN General Assembly resolution 34/180 of 18 December 79, 
entry into force 3 September 81. Under Article 7 of CEDAW, China is 
committed to ensuring the right of women, on equal terms with men, ``to 
participate in the formulation of government policy and the 
implementation thereof and to hold public office and perform all public 
functions at all levels of government.'' UN Treaty Collection, Chapter 
IV, Human Rights, Convention on the Elimination of All Forms of 
Discrimination against Women, last visited 19 June 14. China signed the 
convention on July 17, 1980, and ratified it on November 4, 1980.
    \9\ PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], passed 3 April 92, 
effective 1 October 92, amended 28 August 05, art. 11; PRC Electoral 
Law of the National People's Congress and Local People's Congresses 
[Zhonghua renmin gongheguo quanguo renmin daibiao dahui he difang geji 
renmin daibiao dahui xuanju fa], passed 1 July 79, amended 10 December 
82, 2 December 86, 28 February 95, 27 October 04, 14 March 10, art. 6. 
The PRC Law on the Protection of Women's Rights and Interests and the 
PRC Electoral Law of the National People's Congress and Local People's 
Congresses stipulate that an ``appropriate number'' of female deputies 
should serve at all levels of people's congresses.
    \10\ State Council Information Office, ``National Human Rights 
Action Plan of China (2012-2015),'' reprinted in Xinhua, 11 June 12, 
sec. III(2); State Council, ``PRC Outline for the Development of Women 
(2011-2020)'' [Zhongguo funu fazhan gangyao (2011-2020)], issued 30 
July 11, sec. 3(4).
    \11\ Women (Liu Yandong and Sun Chunlan) held 2 out of 25 positions 
in the Politburo. See Benjamin Kang Lim and Michael Martina, ``China's 
Politburo Has More Women, Is Younger--But Barely,'' Reuters, 15 
November 12.
    \12\ Women held no positions in the Politburo Standing Committee as 
has been the case throughout the history of the CCP. See ``Meet Your 
New Politburo Standing Committee,'' Economic Observer, 15 November 12; 
Cheng Li, ``A Biographical and Factional Analysis of the Post-2012 
Politburo,'' China Leadership Monitor, Hoover Institution, Stanford 
University, No. 41, 7 June 13; Zhuang Pinghui, ``Breaking the Glass 
Ceiling in the Politburo Standing Committee,'' South China Morning 
Post, 19 September 12.
    \13\ Women held 10 positions in the 205-person Communist Party 
Central Committee. See ``Members of the 18th CPC Central Committee,'' 
Xinhua, 14 November 12.
    \14\ Two women (Li Bin and Wu Aiying) held positions on the 35-
person State Council, which was appointed in March 2013. See ``China 
Unveils New Cabinet Amid Function Reform,'' Xinhua, 17 March 13.
    \15\ Women held 23.4 percent of National People's Congress 
memberships in 2014. See Yan Hao et al., ``Percentage of Female 
Delegates to China's Top Authoritative Body Reaches Highest Level in 
History'' [Zhongguo zuigao guojia quanli jiguan nuxing daibiao bili 
dadao lishi zuigao shuiping], Xinhua, 8 March 14; National Bureau of 
Statistics of China, ``Number of Deputies to All the Previous National 
People's Congresses,'' China Statistical Yearbook 2013, 2013, Table 23-
1. According to the 2013 China Statistical Yearbook, female 
representation in the National People's Congress has stayed around 21 
percent since the late 1970s.
    \16\ The target of 30 percent female representation in leadership 
positions by 1995 was recommended by the UN Commission on the Status of 
Women at its 34th session in 1990. ``Target: 30 Percent of Leadership 
Positions to Women by 1995--United Nations Commission on the Status of 
Women,'' UN Chronicle, reprinted in Popline, June 1990.
    \17\ See ``Raising Percentage of Female Village Committee Members 
Is Necessary for Development'' [Tigao cunweihui chengyuan zhong nuxing 
bili shi fazhan suo xu], People's Daily, 12 March 14; Christophe 
Bahuet, ``The Importance of Women's Leadership,'' China Daily, 6 
November 12.
    \18\ Xuyang Jingjing, ``No Woman's Land,'' Global Times, 16 January 
14; Amnesty International, ``China: Submission to the UN Committee on 
Economic, Social and Cultural Rights, 52nd Session, May 2014,'' ASA 17/
014/2014, March 2014, 10; Rangita de Silva de Alwis, ``Introduction,'' 
in Women Leading Lawmaking in China, Global Women's Leadership 
Initiative, Wilson Center, February 2013, 6-7; Li Huiying, ``The Pain 
of Chinese Urbanization: Strengthening of Gender Layering,'' in Women 
Leading Lawmaking in China, Global Women's Leadership Initiative, 
Wilson Center, February 2013, 14-18; UN Entity for Gender Equality and 
the Empowerment of Women, ``Asia-Pacific Calls for Urgent Increase to 
Low Participation of Women in Politics,'' 4 February 13.
    \19\ UN Office of the High Commissioner for Human Rights, 
Preliminary Observations and Conclusions of the Working Group on the 
Issue of Discrimination Against Women in Law and in Practice: End Visit 
to the People's Republic of China From 12 to 19 December 2013, 19 
December 13.
    \20\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted and opened for signature, ratification, and 
accession by UN General Assembly resolution 34/180 of 18 December 79, 
entry into force 3 September 81, art. 11. China signed the convention 
on July 17, 1980, and ratified it on November 4, 1980. See UN Treaty 
Collection, Chapter IV, Human Rights, Convention on the Elimination of 
All Forms of Discrimination against Women, last visited 14 September 
12.
    \21\ UN General Assembly, Report of the Working Group on the Issue 
of Discrimination Against Women in Law and in Practice, Mission to 
China, A/HRC/26/39/Add.2, 12 June 14, paras. 39-45, 109.
    \22\ Ibid., paras. 15-18.
    \23\ Ibid., paras. 39-45, 109. For additional reports of gender 
discrimination in recruitment and hiring, see Joanna Chiu, ``China's 
Women Professionals Challenge Workplace Inequality,'' South China 
Morning Post, 13 October 13; Julie Makinen, ``China's Women Begin To 
Confront Blatant Workplace Bias,'' Los Angeles Times, 28 February 14.
    \24\ UN General Assembly, Report of the Working Group on the Issue 
of Discrimination Against Women in Law and in Practice, Mission to 
China, A/HRC/26/39/Add.2, 12 June 14, paras. 39-45, 109. For the most 
recent available information on gender income gaps in China, see He 
Dan, ``Gender Income Gap Continues To Widen,'' China Daily, 16 May 13; 
Joanna Chiu, ``China's Women Professionals Challenge Workplace 
Inequality,'' South China Morning Post, 13 October 13.
    \25\ UN General Assembly, Report of the Working Group on the Issue 
of Discrimination Against Women in Law and in Practice, Mission to 
China, A/HRC/26/39/Add.2, 12 June 14, paras. 39-45, 109. Currently, 
retirement ages for male and female government and Party officials are 
60 and 55, respectively, while retirement ages for male and female 
workers in general are 60 and 50, respectively. For regulations on 
retirement ages for most workers, see State Council Provisional 
Measures on Workers' Retirement and Withdrawal from Office [Guowuyuan 
guanyu gongren tuixiu, tuizhi de zanxing banfa], issued 2 June 78, art. 
1. For regulations on extended retirement ages for cadres, see State 
Council Provisional Measures on the Settlement of Elderly, Weak, Sick, 
and Disabled Cadres [Guowuyuan guanyu anzhi lao ruo bing can ganbu de 
zanxing banfa], 2 June 78, art. 4. See also ``China's Compulsory 
Retirement Age for Males and Females Challenged for Violating 
Constitution'' [Woguo nannu tuixiu nianling guiding bei tiqing weixian 
shencha], Legal Morning Post, reprinted in China Law Education Net, 16 
March 06. For a recommendation from the UN Working Group on the Issue 
of Discrimination Against Women in Law and in Practice calling for the 
cancellation of early mandatory retirement for women in China, see UN 
General Assembly, Report of the Working Group on the Issue of 
Discrimination Against Women in Law and in Practice, Mission to China, 
A/HRC/26/39/Add.2, 12 June 14, para. 109(f).
    \26\ Julie Makinen, ``China's Women Begin To Confront Blatant 
Workplace Bias,'' Los Angeles Times, 28 February 14. See also Amy Li, 
``Job-Seekers in Wuhan Protest Government-Imposed Gynaecological 
Tests,'' South China Morning Post, 28 November 12.
    \27\ China Labour Bulletin, ``Plaintiff Obtains 30,000 Yuan in 
China's First Gender Discrimination Lawsuit,'' 9 January 14.
    \28\ PRC Education Law [Zhongguo renmin gongheguo jiaoyu fa], 
passed 18 March 95, effective 1 September 95, art. 9.
    \29\ Celia Hatton, ``100 Women: The Jobs Chinese Girls Just Can't 
Do,'' BBC, 16 October 13; ``Room for Improvement in Achieving Gender 
Equality in University Enrollment,'' Phoenix Net, translated and 
reprinted in All-China Women's Federation, 17 January 14; Li Li, 
``Leveling the Playing Field,'' Beijing Review, 8 October 13.
    \30\ Ibid. For additional information on the use of gender quotas, 
see China Labour Bulletin, ``Employment Discrimination in China,'' 20 
November 12; Didi Kirsten Tatlow, ``Women in China Face Rising 
University Entry Barriers,'' New York Times, 7 October 12.
    \31\ Celia Hatton, ``100 Women: The Jobs Chinese Girls Just Can't 
Do,'' BBC, 16 October 13; ``Room for Improvement in Achieving Gender 
Equality in University Enrollment,'' Phoenix Net, translated and 
reprinted in All-China Women's Federation, 17 January 14.
    \32\ Luo Wangshu, ``Ministry Defends Gender Ratios for Colleges,'' 
China Daily, 17 October 12.
    \33\ ``Room for Improvement in Achieving Gender Equality in 
University Enrollment,'' Phoenix Net, translated and reprinted in All-
China Women's Federation, 17 January 14.
    \34\ Supreme People's Court, ``SPC Press Conference Regarding 
People's Court Judicial Intervention in Circumstances Related to 
Domestic Violence'' [Zuigao renmin fayuan guanyu renmin fayuan sifa 
ganyu jiating baoli youguan qingkuang xinwen fabuhui], 27 February 14.
    \35\ See, e.g., PRC Law on the Protection of Women's Rights and 
Interests [Zhonghua renmin gongheguo funu quanyi baozhang fa], passed 3 
April 92, effective 1 October 92, amended 28 August 05, art. 46; PRC 
Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 July 79, 
amended 14 March 97, effective 1 October 97, amended 25 December 99, 31 
August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 06, 
28 February 09, 25 February 11, arts. 234, 236, 237, 260; PRC Marriage 
Law [Zhonghua renmin gongheguo hunyin fa], passed 10 September 80, 
effective 1 January 81, amended 28 April 01, art. 3.
    \36\ PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], passed 3 April 92, 
effective 1 October 92, amended 28 August 05, art. 46; PRC Marriage Law 
[Zhonghua renmin gongheguo hunyin fa], passed 10 September 80, 
effective 1 January 81, amended 28 April 01, art. 3. For Chinese 
experts' discussion of the shortcomings of current national-level 
legislation, see Ng Tze-wei, ``A Clear Definition of Domestic Violence 
Is Needed To Curb the Crime,'' South China Morning Post, 7 February 13; 
Huang Yuli and He Dan, ``Call for Action on Domestic Violence,'' China 
Daily, 26 November 12; ``China Scholars Call for Attention on `Anti-
Domestic Violence' Legislation'' [Zhongguo xuezhe huyu guanzhu ``fan 
jiating baoli'' lifa], Radio Free Asia, 13 January 10; Li Fei, ``All-
China Women's Federation Strongly Promotes Anti-Domestic Violence 
Legislation'' [Quanguo fulian litui fan jiating baoli lifa], People's 
Representative News, 31 December 09. See also ``All-China Women's 
Federation Proposes, Highlights Need for Draft Anti-Domestic Violence 
Legislation,'' Congressional-Executive Commission on China, 2 February 
10.
    \37\ UN Human Rights Council, Report of the Working Group on the 
Issue of Discrimination Against Women in Law and in Practice, Mission 
to China, A/HRC/26/39/Add.2, 12 June 14, para. 107(a).
    \38\ Beijing Children's Legal Aid and Research Center, ``Don't Let 
Children Grow Up Under the Shadow of Domestic Violence'' [Bie rang 
haizi zai jiabao de yinying xia chengzhang], 12 October 12; Huang Yuli 
and He Dan, ``Call for Action on Domestic Violence,'' China Daily, 26 
November 12; Ng Tze-wei, ``A Clear Definition of Domestic Violence Is 
Needed To Curb the Crime,'' South China Morning Post, 7 February 13; 
Zhang Yiqian, ``Battered but Not Beaten,'' Global Times, 18 February 
13. For information on calls for national-level legislation in previous 
years, see CECC, 2013 Annual Report, 10 October 13, 111; CECC, 2012 
Annual Report, 10 October 12, 102; CECC, 2011 Annual Report, 10 October 
11, 124; CECC, 2010 Annual Report, 10 October 10, 132.
    \39\ ``12th National People's Congress Standing Committee 
Legislative Plan'' [Shier jie quanguo renda changweihui lifa guihua], 
Xinhua, reprinted in National People's Congress, 31 October 13.
    \40\ ``Anti-Domestic Violence Law Draft Submitted to State Council 
for Review, 90 Percent of Those Surveyed Support Legislation'' [Fan 
jiabao fa caoan song shen gao bao guowuyuan jiucheng bei diaochazhe 
zhichi lifa], Legal Daily, reprinted in China News, 3 June 14.
    \41\ Supreme People's Court, ``Supreme People's Court Issues 10 
Typical Cases Involving Domestic Violence'' [Zuigao renmin fayuan 
gongbu shi qishe jiating baoli dianxing anli], reprinted in Peking 
University Law Library, 28 February 14.
    \42\ Susan Finder, ``Supreme People's Court Focuses on Domestic 
Violence,'' Supreme People's Court Monitor (blog), 16 March 14.
    \43\ Supreme People's Court, ``Supreme People's Court Issues 10 
Typical Cases Involving Domestic Violence'' [Zuigao renmin fayuan 
gongbu shi qishe jiating baoli dianxing anli], reprinted in Peking 
University Law Library, 28 February 14; Susan Finder, ``Supreme 
People's Court Focuses on Domestic Violence,'' Supreme People's Court 
Monitor (blog), 16 March 14.
    \44\ Didi Kirsten Tatlow, ``Pushing for Law Against Domestic 
Violence in China,'' New York Times, Sinosphere (blog), 26 February 14.
    \45\ Ibid.
    \46\ Raymond Li, ``Outcry Over Sichuan Woman's Death Sentence for 
Killing Abusive Husband,'' South China Morning Post, 30 January 13; 
Amnesty International, ``Document--Chinese Woman Faces Imminent 
Execution: Li Yan,'' 24 January 13; Human Rights Watch, ``China: 
Commute Death Sentence in Domestic Violence Case,'' 30 January 13.
    \47\ Dui Hua Foundation, ``China's Supreme Court Overturns Death 
Sentence of Domestic Violence Survivor,'' 23 June 14.
    \48\ Li Haifu and Cai Xiaoli, ``Sichuan Woman Kills Husband Then 
Dismembers, Boils, and Discards Corpse, Claims She Suffered Domestic 
Violence'' [Sichuan nuzi sha fu hou jinxing fenge pengzhu paoshi cheng 
zaoshou jiabao], Sichuan News Net, reprinted in Xinhua, 30 January 13; 
Human Rights Watch, ``China: Commute Death Sentence in Domestic 
Violence Case,'' 30 January 13; Dui Hua Foundation, ``China's Supreme 
Court Overturns Death Sentence of Domestic Violence Survivor,'' 23 June 
14.
    \49\ Li Haifu and Cai Xiaoli, ``Sichuan Woman Kills Husband Then 
Dismembers, Boils, and Discards Corpse, Claims She Suffered Domestic 
Violence'' [Sichuan nuzi sha fu hou jinxing fenge pengzhu paoshi cheng 
zaoshou jiabao], Sichuan News Net, reprinted in Xinhua, 30 January 13.
    \50\ World Health Organization, ``Violence Against Women,'' Fact 
Sheet No. 239, November 2012. The World Health Organization defines 
sexual violence as ``any sexual act, attempt to obtain a sexual act, 
unwanted sexual comments or advances, or acts to traffic, or otherwise 
directed, against a person's sexuality using coercion, by any person 
regardless of their relationship to the victim, in any setting, 
including but not limited to home and work.''
    \51\ ``Women Lawyers To Campaign for China's Sex Abuse Victims,'' 
Radio Free Asia, 3 June 13.
    \52\ Wu Xiaofeng and Xing Dongwei, ``Hainan, Wanning Primary School 
Principal Takes Four Young Girls to Hotel, Government Worker Takes Two 
Young Girls to Hotel'' [Hainan wanning yi xiao xiaozhang dai 4 younu 
kaifang zhengfu zhiyuan dai 2 younu kaifang], Legal Daily, 13 May 13; 
``China Orders Severe Penalties for Child Abuse,'' Xinhua, 24 October 
13.
    \53\ For discussion of guidelines issued jointly by the Ministry of 
Education, Ministry of Public Security, the Central Committee of the 
Communist Youth League of China, and the All-China Women's Federation 
in September 2013, see ``China Moves To Curb Sexual Assaults Against 
Children,'' Xinhua, 24 September 13. For discussion of the Ministry of 
Education Circular issued in October 2013, see ``China Emphasizes Legal 
Education for Teachers,'' Xinhua, 22 October 13.
    \54\ Supreme People's Court, Supreme People's Procuratorate, 
Ministry of Public Security, Ministry of Justice, Opinion Regarding the 
Lawful Punishment of Sexual Crimes Against Minors [Zuigao renmin fayuan 
zuigao renmin jianchayuan gonganbu sifabu guanyu yifa chengzhi xing 
qinhai wei chengnianren fanzui de yijian], 23 October 13. For 
discussion of these guidelines, see ``China Orders Severe Penalties for 
Child Abuse,'' Xinhua, 24 October 13.
    \55\ For a discussion of these loopholes, see Didi Kirsten Tatlow, 
``In China, a Controversial Law Is Seen To Excuse Sex With Minors,'' 
New York Times, 18 June 13; Sophie Song, ``China's `Child Rape Isn't 
Rape' Law Is Sparking Outrage,'' International Business Times, 13 May 
13.
    \56\ Chris Luo, `` `Left Behind' Girl, Aged 11, Falls Victim to 
Sexual Abuse by Villagers,'' South China Morning Post, 8 January 14.
    \57\ PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], passed 3 April 92, 
effective 1 October 92, amended 28 August 05, arts. 40, 58; State 
Council, Special Provisions for the Work Protection of Female Employees 
[Nu zhigong laodong baohu tebie guiding], issued and effective 28 April 
12, art. 11; Women's Watch-China, ``Annual Report 2008,'' 2008, 30.
    \58\ Shenzhen Hand in Hand Workers' Activity Space, `` `Monitoring 
Sexual Harassment' Survey Report,'' 22 November 13, 4; Sunflower Women 
Workers Centre, ``The Sexual Harassment of Women Factory Workers in 
Guangzhou,'' reprinted in China Labour Bulletin, 25 November 13, 2, 4.
    \59\ Cao Yin, ``What Can Be Done To Prevent Sexual Harassment,'' 
Xinhua, 13 March 13.
    \60\ Mark Stone, ``China Couple Speak of Forced Abortion,'' Sky 
News, 4 October 13; ``Four Uyghur Women Forced To Abort Their Babies in 
Xinjiang,'' Radio Free Asia, 30 December 13.
    \61\ ChinaAid, ``Guizhou Family Planning Official Says Woman Should 
Have Forced Sterilization `Because He Told Her To,' '' 27 January 14.
    \62\ Li Qiuling, ``Baiyun District--Woman Doesn't Want IUD 
Implanted, Residence Committee Threatens Cancellation of Bonus Share'' 
[Baiyun qu--nuzi bu xiang shanghuan juweihui weixie quxiao fenhong], 
Xinkuai Net, 3 January 14.
    \63\ Beijing Declaration and Platform for Action (1995), adopted at 
the Fourth World Conference on Women on 27 October 95, and endorsed by 
UN General Assembly resolution 50/203 on 22 December 95, para. 115; UN 
Women, Convention on the Elimination of All Forms of Discrimination 
against Women, General Recommendations Made by the Committee on the 
Elimination of Discrimination against Women, last visited 16 July 14, 
General Recommendation No. 19 (11th Session, 1992), paras. 22, 24(m), 
General Recommendation No. 21 (13th Session, 1994), paras. 21-23.
    \64\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, effective 
1 September 02, arts. 4, 39. Article 4 of the PRC Population and Family 
Planning Law (PFPL) states that officials ``shall perform their 
administrative duties strictly in accordance with the law, and enforce 
the law in a civil manner, and they may not infringe upon the 
legitimate rights and interests of citizens.'' Article 39 states that 
an official is subject to criminal or administrative punishment if he 
or she ``infringes on a citizen's personal rights, property rights, or 
other legitimate rights and interests'' or ``abuses his or her power, 
neglects his or her duty, or engages in malpractices for personal 
gain'' in the implementation of population planning policies. The 
provision does not define what constitutes an infringement or provide 
punishment for violations. See also Yan Shuang, ``Fury Over `Forced 
Abortion,' '' Global Times, 14 June 12; Stanley Lubman, ``The Law on 
Forced Abortion in China: Few Options for Victims,'' Wall Street 
Journal, China Real Time Report (blog), 4 July 12.
    \65\ ``12 Moments in China's Women's Rights in 2013--A Review of 
the Year's Innovative Public Actions'' [2013 zhongguo de 12 ge nuquan 
shike--niandu gongkai chuangxin xingdong huigu], Women's Net, reprinted 
in China Development Brief, 16 January 14.
    \66\ ``Commentary: Prostitution Crackdown Helps Corruption Fight,'' 
Xinhua, 19 February 14; Edward Wong, ``A Clampdown on Prostitution and 
Gambling Spreads in China,'' New York Times, 18 February 14; Edward 
Wong, ``Red Lights Dim in China's Sin City,'' New York Times, 6 March 
14.
    \67\ He Huifeng, ``Dongguan Massage Parlours Reopen After Sex Trade 
Crackdown,'' South China Morning Post, 31 July 14.
    \68\ Asia Catalyst, `` `Custody and Education': Arbitrary Detention 
for Female Sex Workers in China,'' December 2013, 20-24; Human Rights 
Watch, `` `Swept Away': Abuses Against Sex Workers in China,'' 14 May 
13, 23-24; UN Human Rights Council, Report of the Working Group on the 
Issue of Discrimination Against Women in Law and in Practice, Mission 
to China, 
A/HRC/26/39/Add.2, 12 June 14, para. 81; Ministry of Supervision, 
Ministry of Human Resources and Social Security, Ministry of Public 
Security, Regulations on the Discipline of the People's Police [Gongan 
jiguan renmin jingcha jilu tiaoling], issued 21 April 10, effective 1 
June 10, art. 11.
    Notes to Section II--Human Trafficking

    \1\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by 
General Assembly resolution 55/25 of 15 November 00, entered into force 
25 December 03. This protocol is also commonly referred to as the 
Palermo Protocol because it was adopted in Palermo, Italy, in 2000.
    \2\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2014--China,'' 20 
June 14, 132.
    \3\ Ibid. See also, e.g., Morgan Frances, ``Rockport Police: Spa 
Tied to Human Trafficking of Chinese Women,'' KZTV10, 30 October 13; 
Mahasti Dustmurod, ``Rise in Human Trafficking in Tajikistan,'' IWPR 
Radio, 12 March 14; ``Police Arrests [sic] Tanzanian Human 
Traffickers,'' Macau Daily Times, 7 April 14; Farouk Arnaz and Edi 
Hardum, ``Two Arrests After Trafficked Indonesians Flee China,'' 
Jakarta Globe, 21 March 14; ``A Hundred Victims of Human Trafficking 
Contact Police for Help,'' Eleven, 16 March 14; Bryan Harris, ``Hong 
Kong Women `Being Kept in Slave-Like Conditions in Sydney Brothels,' '' 
South China Morning Post, 13 April 14; ``Two Chinese Men Detained on 
Suspicion of Trafficking Cambodian Women Into Prostitution in China'' 
[Liang zhongguo nanzi shexian guaimai jianbuzhai funu zhi zhongguo 
maiyin bei bu], China News Net, 6 May 14.
    \4\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime (UN TIP 
Protocol), adopted by General Assembly resolution 55/25 of 15 November 
00, entered into force 25 December 03, art. 3. According to Article 
3(a) of the UN TIP Protocol, `` `Trafficking in persons' shall mean the 
recruitment, transportation, transfer, harbouring or receipt of 
persons, by means of the threat or use of force or other forms of 
coercion, of abduction, of fraud, of deception, of the abuse of power 
or of a position of vulnerability or of the giving or receiving of 
payments or benefits to achieve the consent of a person having control 
over another person, for the purpose of exploitation. Exploitation 
shall include, at a minimum, the exploitation of the prostitution of 
others or other forms of sexual exploitation, forced labour or 
services, slavery or practices similar to slavery, servitude or the 
removal of organs.''
    \5\ See, e.g., Xu Yifei, ``Black Room Cannot Keep Three Tricked 
Youths Imprisoned'' [Heiwu qiu bu zhu san ge shoupian shaonian], 
Guangzhou Daily, 13 January 14; Farouk Arnaz and Edi Hardum, ``Two 
Arrests After Trafficked Indonesians Flee China,'' Jakarta Globe, 21 
March 14.
    \6\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2014--China,'' 20 
June 14, 133.
    \7\ Ibid., 132, 134.
    \8\ ``China's Top Legislature Ends Bimonthly Session, Adopts Tort 
Law,'' Xinhua, 26 December 09.
    \9\ ``Cross-Border Cooperation Stressed To Fight Human 
Trafficking,'' Ekantipur, 19 January 14; Zhang Yan, ``Efforts Boosted 
Against Human Trafficking,'' China Daily, 22 January 13. According to 
this report, ``China has signed the Mekong River Sub-regional 
Cooperation Anti-trafficking Memo with Thailand, Myanmar, Vietnam and 
Cambodia, to establish annual high-level exchanges. The ministry has 
also set up eight border offices with neighboring countries.''
    \10\ United Nations Action for Cooperation against Trafficking in 
Persons, ``Monthly Newsletter,'' June 2014; Liu Shiping, ``Human 
Trafficking Crackdown Praiseworthy, but More Remains To Be Done,'' 
Global Times, 4 November 13; Zhang Yan, ``Efforts Boosted Against Human 
Trafficking,'' China Daily, 22 January 13.
    \11\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 244. The revised 
legislation broadens the scope of activity considered punishable for 
forced labor and strengthens punishments for ``serious'' crimes of 
forced labor; however, the legislation still does not clearly define 
what constitutes forced labor. See also CECC, 2011 Annual Report, 10 
October 11, 129.
    \12\ State Council General Office, ``China Action Plan To Combat 
Trafficking in Persons (2013-2020)'' [Zhongguo fandui guaimai renkou 
xingdong jihua (2013-2020 nian)], 2 March 13.
    \13\ State Council General Office, ``China's National Plan of 
Action on Combating Trafficking in Women and Children (2008-2012)'' 
[Zhongguo fandui guaimai funu ertong xingdong jihua (2008-2012 nian)], 
13 December 07.
    \14\ State Council General Office, ``China Action Plan To Combat 
Trafficking in Persons (2013-2020)'' [Zhongguo fandui guaimai renkou 
xingdong jihua (2013-2020 nian)], 2 March 13.
    \15\ State Council General Office, ``China's National Plan of 
Action on Combating Trafficking in Women and Children (2008-2012)'' 
[Zhongguo fandui guaimai funu ertong xingdong jihua (2008-2012 nian)], 
13 December 07.
    \16\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 240. The PRC 
Criminal Law defines trafficking as ``abducting, kidnapping, buying, 
trafficking in, fetching, sending, or transferring a woman or child, 
for the purpose of selling the victim.''
    \17\ State Council General Office, ``China Action Plan To Combat 
Trafficking in Persons (2013-2020)'' [Zhongguo fandui guaimai renkou 
xingdong jihua (2013-2020 nian)], 2 March 13, sec. 2.6.2(2). See also 
CECC, 2013 Annual Report, 10 October 13, 114.
    \18\ Ibid., sec. 2.4.2(1). See also CECC, 2013 Annual Report, 10 
October 13, 114.
    \19\ Ibid., sec. 3.2. See also CECC, 2013 Annual Report, 10 October 
13, 114.
    \20\ Ibid., sec. 2.1.2(2-3). See also CECC, 2013 Annual Report, 10 
October 13, 114.
    \21\ Ibid., secs. 2.1.2(2), 2.2.2(1), 2.3. See also CECC, 2013 
Annual Report, 10 October 13, 114-115.
    \22\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2014--China,'' 20 
June 14, 133.
    \23\ Ibid., 133-34. According to this report, ``[t]he [Chinese] 
government reported that out of 1,400 shelters serving a wide variety 
of people, including victims of crime and the homeless, seven were 
exclusively dedicated to care for victims of human trafficking; victims 
reportedly also had access to basic services at China's general-purpose 
shelter network.''
    \24\ ``Attack Trafficking in Women and Children, Lhasa Announces 
Reporting Line'' [Daji guaimai funu ertong xingwei lasa gongbu jubao 
dianhua], China Tibet News, 7 May 14; Office To Monitor and Combat 
Trafficking in Persons, U.S. Department of State, ``Trafficking in 
Persons Report 2014--China,'' 20 June 14, 134.
    \25\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2014--China,'' 20 
June 14, 134.
    \26\ Ibid., 133-34.
    \27\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2013--China,'' 19 
June 13, 129.
    \28\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2014--China,'' 20 
June 14, 132.
    \29\ Ibid.
    \30\ Topics that need to be addressed in domestic legislation to 
bring it into compliance with the UN TIP Protocol include protection 
and rehabilitation of victims of trafficking (see UN TIP Protocol, art. 
6.3), addition of non-physical forms of coercion into the legal 
definition of trafficking (see UN TIP Protocol, art. 3(a)), commercial 
sexual exploitation of minors (see UN TIP Protocol, art. 3(c and d)), 
and trafficking of men (covered under the definition of ``trafficking 
in persons'' in art. 3(a) of the UN TIP Protocol). See UN Protocol to 
Prevent, Suppress and Punish Trafficking in Persons, Especially Women 
and Children, Supplementing the United Nations Convention against 
Transnational Organized Crime, adopted by General Assembly resolution 
55/25 of 15 November 00, entered into force 25 December 03. See also 
Office To Monitor and Combat Trafficking in Persons, U.S. Department of 
State, ``Trafficking in Persons Report 2009--China,'' 16 June 09, 106. 
``China's definition of trafficking does not prohibit . . . offenses 
committed against male victims . . . .''
    \31\ The PRC Criminal Law defines trafficking as ``abducting, 
kidnapping, buying, trafficking in, fetching, sending, or transferring 
a woman or child, for the purpose of selling the victim.'' PRC Criminal 
Law [Zhonghua renmin gongheguo xingfa], passed 1 July 79, effective 1 
October 97, amended 14 March 97, 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, art. 240.
    \32\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 14 March 
97, 25 December 99, 31 August 01, 29 December 01, 28 December 02, 28 
February 05, 29 June 06, 28 February 09, 25 February 11, arts. 240, 
244, 358. For additional information on this topic, see Office To 
Monitor and Combat Trafficking in Persons, U.S. Department of State, 
``Trafficking in Persons Report 2013--China,'' 19 June 13, 130. 
According to this report, ``it remains unclear whether [articles 240, 
244, and 358] have prohibited the use of common non-physical forms of 
coercion, such as threats of financial or reputational harm, or whether 
acts such as recruiting, providing, or obtaining persons for compelled 
prostitution are covered.''
    \33\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, arts. 240(4), 244, 
358(3). See also Office To Monitor and Combat Trafficking in Persons, 
U.S. Department of State, ``Trafficking in Persons Report 2014--
China,'' 20 June 14, 133. As the TIP report notes, ``Article 359 makes 
it a crime to lure girls under the age of 14 into prostitution, but 
does not criminalize facilitating the prostitution of boys under 18 or 
girls between the ages of 14 and 18, although two provincial supreme 
courts have found Articles 358 and 359 to extend to men, women, and 
children, generally.''
    \34\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 240. The PRC 
Criminal Law defines trafficking as ``abducting, kidnapping, buying, 
trafficking in, fetching, sending, or transferring a woman or child, 
for the purpose of selling the victim.''
    \35\ Ibid., arts. 244, 358. See also Office To Monitor and Combat 
Trafficking in Persons, U.S. Department of State, ``Trafficking in 
Persons Report 2009--China,'' 16 June 09, 106. ``China's definition of 
trafficking does not prohibit non-physical forms of coercion, fraud, 
debt bondage, involuntary servitude, forced labor, or offenses 
committed against male victims, although some aspects of these crimes 
are addressed in other articles of China's criminal law.''
    \36\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime (UN TIP 
Protocol), adopted by General Assembly resolution 55/25 of 15 November 
00, entered into force 25 December 03, art. 3(a). Article 3(a) of the 
UN TIP Protocol states: `` `Trafficking in persons' shall mean the 
recruitment, transportation, transfer, harbouring or receipt of 
persons, by means of the threat or use of force or other forms of 
coercion, of abduction, of fraud, of deception, of the abuse of power 
or of a position of vulnerability or of the giving or receiving of 
payments or benefits to achieve the consent of a person having control 
over another person, for the purpose of exploitation. Exploitation 
shall include, at a minimum, the exploitation of the prostitution of 
others or other forms of sexual exploitation, forced labour or 
services, slavery or practices similar to slavery, servitude or the 
removal of organs.''
    \37\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 240. The PRC 
Criminal Law defines trafficking as ``abducting, kidnapping, buying, 
trafficking in, fetching, sending, or transferring a woman or child, 
for the purpose of selling the victim.''
    \38\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime (UN TIP 
Protocol), adopted by General Assembly resolution 55/25 of 15 November 
00, entered into force 25 December 03, art. 3(a) and (c). The end 
result of exploitation is one of the required elements of a trafficking 
case under Article 3 of the UN TIP Protocol.
    \39\ See, e.g., State Council Information Information Office, 
``White Paper on Progress in China's Human Rights in 2013,'' reprinted 
in Xinhua, 26 May 14; ``Progress Made in Protecting Rights of Person: 
White Paper,'' Xinhua, 26 May 14; Bai Tiantian, ``Police Save 382 
Babies in Trafficking Crackdown,'' Global Times, 1 March 14; ``94 
Children, Women Rescued in Trafficking Case,'' Xinhua, 28 September 13.
    \40\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2014--China,'' 20 
June 14, 133. According to this report, ``In 2013, the government 
reported that police took law enforcement action against 5,000 alleged 
human trafficking organized crime groups and placed over 40,000 alleged 
suspects in criminal detention. Due to the government's continued 
conflation of human smuggling, child abduction, and fraudulent 
adoptions with trafficking offenses--and its lack of judicial due 
process and transparency--it is impossible to ascertain from this data 
the number of trafficking cases the government investigated and 
prosecuted that were in accordance with international law.''
    \41\ See, e.g., Bai Tiantian, ``Police Save 382 Babies in 
Trafficking Crackdown,'' Global Times, 1 March 14; ``Baby-Trafficking 
Doctor Given Suspended Death Sentence,'' Xinhua, 14 January 14. See 
also Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2014--China,'' 20 
June 14, 133.
    \42\ CECC, 2009 Annual Report, 10 October 09, 175. For more 
information on distinctions between ``human smuggling'' and ``human 
trafficking,'' see U.S. Immigration and Customs Enforcement, ``Fact 
Sheet: Human Trafficking and Smuggling,'' 16 January 13.
    \43\ United Nations Office on Drugs and Crime, Liaison and 
Partnership Office (LPO) in Brazil, ``Trafficking in Persons and 
Migrant Smuggling,'' last visited 14 July 14.
    \44\ Ibid.
    \45\ Ibid.
    \46\ See, e.g., Office To Monitor and Combat Trafficking in 
Persons, U.S. Department of State, ``Trafficking in Persons Report 
2014--China,'' 20 June 14, 133. In this report, the U.S. State 
Department called upon China to ``implement procedures to prevent 
victims from being punished for acts committed as a direct result of 
being trafficked.''
    \47\ Ibid. According to this report, ``Chinese authorities 
continued to forcibly repatriate some North Korean refugees by treating 
them as illegal economic migrants--despite reports that many North 
Korean female refugees in China are trafficking victims.'' For more 
information on the Chinese government's repatriation of North Korean 
refugees as illegal economic migrants, see UN Human Rights Council, 
Report of the Detailed Findings of the Commission of Inquiry on Human 
Rights in the Democratic People's Republic of Korea, A/HRC/25/CRP.1, 7 
February 14, paras. 452-54.
    \48\ ``China's Sex Ratio at Birth Declines 4 Years in a Row,'' 
Xinhua, 5 March 13. Xinhua reported in March 2013 that China's sex 
ratio at birth in 2012 was 117.7 males for every 100 females, down from 
117.78 in 2011, 117.94 in 2010, and 119.45 in 2009. Shan Juan, ``Gender 
Imbalance Set To Ease,'' China Daily, 30 March 12. According to the 
article, ``it is estimated that by 2020, China will have 24 million 
more men than women of marriageable age.'' Chinese Academy of Social 
Sciences, ``Difficulty Finding a Wife in 10 Years: 1 Out of Every 5 Men 
To Be a Bare Branch'' [10 nian zhihou quqi nan, 5 ge nanren zhong 
jiuyou 1 ge guanggun], 27 January 10. This study issued by the Chinese 
Academy of Social Sciences reported that, by 2020, the number of 
Chinese males of marriageable age may exceed the number of Chinese 
females of marriageable age by 30 to 40 million.
    \49\ Shan Juan, ``Gang Busted for Illegal Gender Selection 
Testing,'' China Daily, 20 January 14. According to Zhai Zhenwu, a 
professor at the Renmin University School of Sociology and Population 
Studies, son preference is the root cause of China's skewed sex ratio, 
and ``the preference for boys became more intense as the three-decade-
old family planning policy restricted most families to just one 
child.'' See also Mikhail Lipatov et al., ``Economics, Cultural 
Transmission, and the Dynamics of the Sex Ratio at Birth in China,'' 
Proceedings of the National Academy of Sciences, Vol. 105, No. 49 
(December 2008), 19171. According to this study, ``The root of the [sex 
ratio] problem lies in a 2,500-year-old culture of son preference.''
    \50\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2014--China,'' 20 
June 14, 132. According to the report, ``[t]he Chinese government's 
birth limitation policy and a cultural preference for sons create a 
skewed sex ratio of 117 boys to 100 girls in China, which may serve to 
increase the demand for prostitution and for foreign women as brides 
for Chinese men--both of which may be procured by force or coercion.''
    \51\ Chinese Academy of Social Sciences, ``Difficulty Finding a 
Wife in 10 Years: 1 Out of Every 5 Men To Be a Bare Branch'' [10 nian 
zhihou quqi nan, 5 ge nanren zhong jiuyou 1 ge guanggun], 27 January 
10.
    \52\ Liu Shiping, ``Human Trafficking Crackdown Praiseworthy, but 
More Remains To Be Done,'' Global Times, 4 November 13; ``A Hundred 
Victims of Human Trafficking Contact Police for Help,'' Eleven, 16 
March 14; ``Chinese Women Taught To Avoid People-Traffickers,'' Xinhua, 
reprinted in China Daily, 8 March 10.
    \53\ Lee Yu Kyung, ``Burma: Trafficking Worsens With War's 
Return,'' Green Left Weekly, 7 April 14; Mahasti Dustmurod, ``Rise in 
Human Trafficking in Tajikistan,'' IWPR Radio, 12 March 14. See also 
Kathleen E. McLaughlin, ``Borderland: Sex Trafficking on the China-
Myanmar Border,'' Global Post, 26 October 10; ``Women Tricked, 
Trafficked Into China,'' Radio Free Asia, 4 March 11; Zhang Yan, ``More 
Women Kidnapped for Brides,'' China Daily, 3 December 11. According to 
the China Daily report, ``[the director of the Ministry of Public 
Security's anti-trafficking office] said the lack of natural barriers, 
such as rivers or mountains in the border areas between China and 
Southeast Asian countries, in addition to poverty in some regions in 
these countries, contribute to the rising trafficking of foreign 
women.''
    \54\ Xu Yifei, ``Black Room Cannot Keep Three Tricked Youths 
Imprisoned'' [Heiwu qiu bu zhu san ge shoupian shaonian], Guangzhou 
Daily, 13 January 14.
    \55\ Ibid.
    \56\ Ibid.; Xu Yifei, ``17-Year-Old Minor Forced Labor Situation 
for 8 Months, Awarded 3000 Yuan in Compensation'' [17 sui shaonian bei 
qiangpo laodong 8 ge yue huo 3000 yuan jiuzhu jin peichang], Guangzhou 
Daily, reprinted in China News Service, 16 January 14.
    \57\ Kate Barlett, ``China's One-Child Policy Creates Market for 
Cambodian Brides,'' UCA News, 22 April 14.
    \58\ Ibid.
    \59\ Ibid.
    \60\ Ibid.
    \61\ ``Police Arrests [sic] Tanzanian Human Traffickers,'' Macau 
Daily Times, 7 April 14.
    \62\ Ibid.
    \63\ Ibid.
    \64\ Ibid.
    \65\ Wang Chenchen, ``Huaibei, Suixi: Two Girls From Burma 
Trafficked, Three People Each Sentenced to Six Years'' [Huaibei suixi: 
guaimai miandian nuhai san ren jun pan liu nian], Anhui News, 4 March 
14.
    \66\ Ibid.
    \67\ Ibid.
    \68\ Ibid.
    \69\ Ibid.
    Notes to Section II--North Korean Refugees in China

    \1\ Democratic People's Republic of Korea Ministry of State 
Security, People's Republic of China Ministry of Public Security, 
Mutual Cooperation Protocol for the Work of Maintaining National 
Security and Social Order in the Border Areas, signed 12 August 86, 
art. 4, reprinted in North Korea Freedom Coalition. The protocol 
commits each side to treat as illegal those border crossers who do not 
have proper visa certificates, except in cases of ``calamity or 
unavoidable factors.'' According to a report commissioned by the UN 
High Commissioner for Refugees (UNHCR) the validity of ``this document 
cannot be authenticated, but it does not seem implausible.'' James D. 
Seymour, ``China: Background Paper on the Situation of North Koreans in 
China,'' commissioned by UNHCR, Protection Information Section, January 
2005, 13.
    \2\ UN Convention Relating to the Status of Refugees (1951 
Convention), 28 July 51 by the UN Conference of Plenipotentiaries on 
the Status of Refugees and Stateless Persons convened under General 
Assembly resolution 429(V) of 14 December 50, arts. 1, 33. Article 1 of 
the 1951 Convention defines a refugee as someone who, ``owing to well-
founded fear of being persecuted for reasons of race, religion, 
nationality, membership of a particular social group or political 
opinion, is outside the country of his nationality and is unable or, 
owing to such fear, is unwilling to avail himself of the protection of 
that country. . . .'' Article 33 of the 1951 Convention mandates that 
``[n]o Contracting State shall expel or return (`refouler') a refugee 
in any manner whatsoever to the frontiers of territories where his life 
or freedom would be threatened on account of his race, religion, 
nationality, membership of a particular social group or political 
opinion.'' UN Protocol Relating to the Status of Refugees (1967 
Protocol), adopted by UN General Assembly resolution A/RES/2198 of 16 
December 66, entry into force 4 October 67. The Chinese government 
acceded to the 1951 Convention and the 1967 Protocol in September 1982, 
but has not adopted legislation to implement the treaties.
    \3\ UN Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by the UN General Assembly 
10 December 84, entry into force 26 June 87, art. 3. Article 3 states 
that ``[n]o State Party shall expel, return (`refouler') or extradite a 
person to another State where there are substantial grounds for 
believing that he would be in danger of being subjected to torture.'' 
The Chinese government ratified the Convention on 4 October 88.
    \4\ Office of the High Commissioner for Human Rights, ``North 
Korea: UN Commission Documents Wide-Ranging and Ongoing Crimes Against 
Humanity, Urges Referral to ICC,'' 17 February 14.
    \5\ UN Human Rights Council, Report of the Detailed Findings of the 
Commission of Inquiry on Human Rights in the Democratic People's 
Republic of Korea, A/HRC/25/CRP.1, 7 February 14, para. 490.
    \6\ UN Human Rights Council, Report of the Detailed Findings of the 
Commission of Inquiry on Human Rights in the Democratic People's 
Republic of Korea, A/HRC/25/CRP.1, 7 February 14, paras. 448-449, 1197. 
Highlighting evidence that Chinese officials provided North Korean 
authorities with information on detained refugees, including 
information on ``the circumstances and place of their apprehension and 
contacts they had in China,'' the UN Commission found that such conduct 
``could amount to the aiding and abetting of crimes against humanity 
where repatriations and information exchanges are specifically directed 
towards or have the purpose of facilitating the commission of crimes 
against humanity in the DPRK.'' See also UN Human Rights Council, 
Report on the Commission of Inquiry on Human Rights in the Democratic 
People's Republic of Korea, Annex II--Correspondence with China, A/HRC/
25/63, 7 February 14.
    \7\ UN Human Rights Council, Report of the Detailed Findings of the 
Commission of Inquiry on Human Rights in the Democratic People's 
Republic of Korea, A/HRC/25/CRP.1, 7 February 14, para. 446.
    \8\ UN Human Rights Council, Report on the Commission of Inquiry on 
Human Rights in the Democratic People's Republic of Korea, A/HRC/25/63, 
7 February 14, para. 84.
    \9\ UN Human Rights Council, Report of the Detailed Findings of the 
Commission of Inquiry on Human Rights in the Democratic People's 
Republic of Korea, A/HRC/25/CRP.1, 7 February 14, para. 490.
    \10\ UN Human Rights Council, Report on the Commission of Inquiry 
on Human Rights in the Democratic People's Republic of Korea, Annex 
II--Correspondence with China, A/HRC/25/63, 7 February 14; Hamish 
Macdonald, ``UN Unsure How Findings on Rights Violations Will Be 
Received,'' NK News, 6 February 14.
    \11\ Ibid.; UN Human Rights Council, Report of the Detailed 
Findings of the Commission of Inquiry on Human Rights in the Democratic 
People's Republic of Korea, A/HRC/25/CRP.1, 7 February 14, para. 45.
    \12\ Ibid.
    \13\ UN Human Rights Council, Report of the Detailed Findings of 
the Commission of Inquiry on Human Rights in the Democratic People's 
Republic of Korea, A/HRC/25/CRP.1, 7 February 14, para. 444. In a 
December 2013 letter addressed to China's Deputy Permanent 
Representative to the United Nations Office in Geneva, Commission of 
Inquiry Chairman Michael Kirby drew attention to a 1995 agreement 
established between China and the UN Refugee Agency (UN High 
Commissioner for Refugees or UNHCR) that allowed for ``UNHCR to conduct 
refugee status determination for asylum-seekers.'' The letter asked for 
clarification as to why China continued to refuse UNHCR access to areas 
in China where North Korean refugees are believed to reside, despite 
China's agreement in the 1995 accord to ``allow UNHCR personnel 
unimpeded access to asylum seekers.'' See UN Human Rights Council, 
Report on the Commission of Inquiry on Human Rights in the Democratic 
People's Republic of Korea, Annex II--Correspondence with China, A/HRC/
25/63, 7 February 14.
    \14\ UN Human Rights Council, Report of the Special Rapporteur on 
the Situation of Human Rights in the Democratic People's Republic of 
Korea, Marzuki Darusman, 13 June 14, para. 53.
    \15\ Ibid.
    \16\ See, e.g., Sun Haiqiang and Zhao Shuai, ``Jilin Yanbian Border 
Defense: More Than 5,000 High-Definition Monitoring Installations 
Polish Police `Technology Eyes' '' [Jilin yanbian bianfang: 5000 yu ge 
gaoqing jiankong shebei caliang jingwu ``keji shuangmou''], People's 
Daily, 19 November 13; ``13 N. Koreans Face Repatriation From China,'' 
Chosun Ilbo, 19 November 13; ``Uncovering the North Korean Border: 
Panmunjeon Known for Being Most Dangerous, China's Barbed Wire and 
Security Monitoring'' [Jiemi chaoxian bianjing: banmiandian haocheng 
zui weixian zhongguo jia tiesiwang an jiankong], Ta Kung Pao, 21 
January 14; Martin Sieff, ``North Korea Continues Human Trafficking as 
China Tightens Border Security,'' Asia Pacific Defense Forum, 4 
November 13.
    \17\ ``China `Repatriates Dozens of N. Korean Defectors,' '' Chosun 
Ilbo, 21 November 13; Audrey Yoo, ``China Arrested Dozens of North 
Korean Defectors, Says South Korean Media,'' South China Morning Post, 
21 November 13.
    \18\ ``China `Repatriates Dozens of N. Korean Defectors,' '' Chosun 
Ilbo, 21 November 13.
    \19\ Ibid.
    \20\ ``13 N. Korean Defectors Caught in China,'' Yonhap, reprinted 
in Korean Herald, 18 November 13; Lee Sang Yong, ``Capture in Kunming 
Causing Grave Concern,'' Daily NK, 18 November 13; Kim Hee-jin, ``15 
Defectors Nabbed by China Police in Kunming,'' Korea JoongAng Daily, 19 
November 13; ``Activists: China Arrests North Korean Defectors, Guides 
in Kunming,'' Voice of America, 18 November 13.
    \21\ Lee Sang Yong, ``Capture in Kunming Causing Grave Concern,'' 
Daily NK, 18 November 13; ``China `Repatriates Dozens of N. Korean 
Defectors,' '' Chosun Ilbo, 21 November 13; ``13 N. Koreans Face 
Repatriation From China,'' Chosun Ilbo, 19 November 13.
    \22\ ``Eleven North Korea Defectors Arrested by China, Face 
Deportation--Activist,'' Reuters, 2 July 14; Koo Jun Hoe, ``11 
Defectors in Grave Danger of Repatriation,'' Daily NK, 3 July 14.
    \23\ Koo Jun Hoe, ``11 Defectors in Grave Danger of Repatriation,'' 
Daily NK, 3 July 14.
    \24\ ``N. Korean Defectors, Helpers Arrested in China,'' Chosun 
Ilbo, 23 July 14; ``Seoul Pledges To Save Defectors From 
Repatriation,'' Chosun Ilbo, 24 July 14; ``20 North Korean Refugees 
Arrested in China Face Repatriation'' [20 ming tuobeizhe zai zhongguo 
beibu mianlin qianfan], Voice of America, 23 July 14.
    \25\ ``Seoul Pledges To Save Defectors From Repatriation,'' Chosun 
Ilbo, 24 July 14.
    \26\ ``NK Defectors Nabbed Near China-Laos Border,'' Yonhap, 
reprinted in Korean Herald, 12 August 14; ``Chinese Public Security 
Arrests 11 North Korean Refugees'' [Zhongguo gongan daibu shiyi ming 
tuobeizhe], Radio Free Asia, 13 August 14.
    \27\ ``China Ups Security on Northern Border,'' Daily NK, 12 
December 13; John G. Grisafi, ``China Ups Security, Conducts Military 
Training Near N. Korea,'' NK News, 11 December 13; ``N. Korean 
Defectors' Escape Routes Blocked,'' Chosun Ilbo, 13 December 13; 
``Profile: Chang Song-thaek,'' BBC, 12 December 13.
    \28\ James Pearson and Megha Rajagopalan, ``Exclusive: China Police 
Investigate U.S. Citizen Near Border With North Korea--Source,'' 
Reuters, 7 August 14; Megha Rajagopalan and James Pearson, ``China 
Cracking Down on Christian Groups Along North Korea Border: Sources,'' 
Reuters, 11 August 14.
    \29\ Megha Rajagopalan and James Pearson, ``China Cracking Down on 
Christian Groups Along North Korea Border: Sources,'' Reuters, 11 
August 14.
    \30\ Kelly Olsen and Tom Hancock, ``China Probes Canadian 
Christians for Alleged Spying,'' Agence France-Presse, reprinted in 
Yahoo! News, 5 August 14.
    \31\ James Pearson and Megha Rajagopalan, ``Exclusive: China Police 
Investigate U.S. Citizen Near Border With North Korea--Source,'' 
Reuters, 7 August 14.
    \32\ Melanie Kirkpatrick and Victor Cha, ``China Is Complicit in 
North Korea's Human Rights Abuses,'' Foreign Policy, 31 July 14; James 
Pearson and Megha Rajagopalan, ``Exclusive: China Police Investigate 
U.S. Citizen Near Border With North Korea--Source,'' Reuters, 7 August 
14; Megha Rajagopalan and James Pearson, ``China Cracking Down on 
Christian Groups Along North Korea Border: Sources,'' Reuters, 11 
August 14.
    \33\ ``N. Korean Defectors' Escape Routes Blocked,'' Chosun Ilbo, 
13 December 13; UN Human Rights Council, Report of the Detailed 
Findings of the Commission of Inquiry on Human Rights in the Democratic 
People's Republic of Korea, A/HRC/25/CRP.1, 7 February 14, paras. 388-
89.
    \34\ Republic of Korea Ministry of Unification, Resource Archives: 
Major Statistics in Inter-
Korean Relations, last visited 15 July 14; ``More Than 1,500 N. Korean 
Defectors Arrive in S. Korea in 2013,'' Yonhap, 13 January 14; Jeyup S. 
Kwaak, ``North Korean Refugee Flow Still Suppressed,'' Wall Street 
Journal, 14 January 14.
    \35\ Republic of Korea, Ministry of Unification, Resource Archives: 
Major Statistics in Inter-
Korean Relations, last visited 15 July 14; Jeyup S. Kwaak, ``North 
Korean Refugee Flow Still Suppressed,'' Wall Street Journal, 14 January 
14.
    \36\ ``North Korean Visitors'' [Chaoxian laike], Southern 
Metropolitan Weekly, 20 December 13; UN Human Rights Council, Report of 
the Detailed Findings of the Commission of Inquiry on Human Rights in 
the Democratic People's Republic of Korea, A/HRC/25/CRP.1, 7 February 
14, paras. 457-458.
    \37\ A 2013 survey by Dr. Courtland Robinson of Johns Hopkins 
University estimated between 80 and 90 percent of North Korean refugees 
in the three northeastern provinces of China were women. Courtland 
Robinson and Keumsoon Lee, ``Population Estimation of North Korean 
Refugees and Migrants and Children Born to North Korean Women in 
Northeast China: Results From a 2012 Study in Heilongjiang Province,'' 
Korea Institute for National Unification, 12 March 13, 5; UN Human 
Rights Council, Report of the Detailed Findings of the Commission of 
Inquiry on Human Rights in the Democratic People's Republic of Korea, 
A/HRC/25/CRP.1, 7 February 14, paras. 394, 457.
    \38\ UN Human Rights Council, Report of the Detailed Findings of 
the Commission of Inquiry on Human Rights in the Democratic People's 
Republic of Korea, A/HRC/25/CRP.1, 7 February 14, para. 461; Markus 
Bell, ``Empire and Trafficking in Northeast Asia,'' Foreign Policy in 
Focus, reprinted in Asia Times, 5 June 13.
    \39\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted and opened for signature, ratification, and 
accession by UN General Assembly resolution 34/180 of 18 December 79, 
entry into force 3 September 81, art. 6; Protocol to Prevent, Suppress 
and Punish Trafficking in Persons, Especially Women and Children, 
supplementing the United Nations Convention against Transnational 
Organized Crime, adopted and opened for signature, ratification, and 
accession by General Assembly resolution 55/25 of 15 November 2000, 
entry into force 25 December 03, arts. 6, 9.
    \40\ Committee on the Rights of the Child, Concluding Observations 
on the Combined Third and Fourth Periodic Reports of China, adopted on 
29 October 13, CRC/C/CHN/CO/3-4, annex H, para. 81(a-b); Courtland 
Robinson and Keumsoon Lee, ``Population Estimation of North Korean 
Refugees and Migrants and Children Born to North Korean Women in 
Northeast China: Results From a 2012 Study in Heilongjiang Province,'' 
Korea Institute for National Unification, 12 March 13, 6.
    \41\ Courtland Robinson and Keumsoon Lee, ``Population Estimation 
of North Korean Refugees and Migrants and Children Born to North Korean 
Women in Northeast China: Results From a 2012 Study in Heilongjiang 
Province,'' Korea Institute for National Unification, 12 March 13, 27.
    \42\ Life Funds for North Korean Refugees, Stakeholder Report for 
the Universal Periodic Review, 4 March 13; UN Human Rights Council, 
Report of the Detailed Findings of the Commission of Inquiry on Human 
Rights in the Democratic People's Republic of Korea, A/HRC/25/CRP.1, 7 
February 14, paras. 472-474.
    \43\ UN Convention on the Rights of the Child, adopted by the UN 
General Assembly resolution 44/25 of 20 November 89, entry into force 2 
September 90, art. 9. Article 9 calls on state parties to ``ensure that 
a child shall not be separated from his or her parents against their 
will.'' See also UN Human Rights Council, Report of the Detailed 
Findings of the Commission of Inquiry on Human Rights in the Democratic 
People's Republic of Korea, A/HRC/25/CRP.1, 7 February 14, para. 474.
    Notes to Section II--Public Health

    \1\ Chai Huiqun, `` `Cardiogenic Shock' in the Nurse Beating 
Incident in Nanjing? '' [``Xin yinxing'' nanjing hushi bei da 
shijian?], Southern Weekend, 24 April 14; ``In Chaozhou, Another 
Incident of Doctor Surrounded, NHFPC: Violence and Injury of Medical 
Personnel Will Be Severely Punished According to Law'' [Chaozhou you 
xian yisheng zao weizhu weijiwei: baoli shangyi yifa yancheng], China 
National Radio, 7 March 14; Zhang Jin, ``Closer Look: Why Patients in 
China Kill Their Doctors,'' Caixin, 30 October 13; Didi Kirsten Tatlow, 
``Chinese Doctors Becoming the Targets of Patients' Anger,'' New York 
Times, Sinosphere (blog), 1 November 13.
    \2\ Wei Mingyan, ``NHFPC Director Discusses `Parading Doctors on 
the Streets': Violence & Harm to Medical Personnel Will Not Be 
Tolerated'' [Weijiwei zhuren tan ya yisheng ``youjie'': baoli shangyi 
bu keren], Beijing News, 6 March 14.
    \3\ Therese Hesketh et al., ``Violence Against Doctors in China,'' 
BMJ, 7 September 12; Cong Dai et al., ``Re: Violence Against Doctors in 
China,'' BMJ, 1 November 13; Zhou Tian, ``Doctor-Patient Conflicts 
Multiply, Path of New Health Care Reforms Raises Controversy (1)'' 
[Yihuan chongtu duofa xin yigai lujing re zhengyi (shang)], Caixin, 15 
March 14.
    \4\ Benjamin L. Liebman, ``Malpractice Mobs: Medical Dispute 
Resolution in China,'' Columbia Law Review, Vol. 113(1), January 2013, 
187, 243, 247.
    \5\ Civil Rights and Livelihood Watch (CRLW), ``2013 Year-End 
Report on Mental Health and Human Rights in China (Forcibly 
Committed)'' [2013 nian zhongguo jingshen jiankang yu renquan (bei 
jingshenbing) nianzhong baogao], 13 February 14, sec. 2. For more 
information on some of the cases of forcible commitment (bei 
jingshenbing) that CRLW reported in its 2013 year-end report, see the 
following records in the Commission's Political Prisoner Database: 
2014-00121 on Zhang Haiyan; 2013-00088 on Peng Lanlan; 2014-00086 on 
Zhang Zhi; 2014-00094 on Gu Xianghong; 2014-00243 on Fan Miaozhen; 
2014-00225 on Fang Daoming; and 2014-00226 on Tang Xuecheng. Other 
forcible commitment cases reported during this reporting year are 
covered in Rights Defense Network, ``Chongqing Citizen Liu Wei Forcibly 
Sent to Psychiatric Hospital for Going to Beijing Before `June Fourth' 
'' [Chongqing gongmin liu wei yin ``liu si'' qian dao jing bei song 
jingshenbing yuan], 12 June 14. For more information on Liu Wei, see 
the Commission's Political Prisoner Database record 2014-00184. Rights 
Defense Network, ``Beijing Democracy Rights Defender Zhang Wenhe 
Forcibly Committed to Psychiatric Hospital for 4th Time'' [Beijing 
minzhu weiquan renshi zhang wenhe di sici guanru jingshenbing yuan], 4 
April 14; Chinese Human Rights Defenders, ``[CHRB]: Six Months After 
Mental Health Law Took Effect, Involuntary Psychiatric Commitment 
Continues (11/8-13, 2013),'' 14 November 13.
    \6\ PRC Mental Health Law [Zhonghua renmin gongheguo jingshen 
weisheng fa], passed 26 October 12, effective 1 May 13, arts. 27, 30, 
75(5), 78(1); Michael R. Phillips et al., ``China's New Mental Health 
Law: Reframing Involuntary Treatment,'' American Journal of Psychiatry, 
1 June 13.
    \7\ UN GAOR, Committee on Economic, Social and Cultural Rights, 
List of Issues in relation to the Second Periodic Report of China (E/
C.12/CHN/2) including Hong Kong, China (E/C.12/CHN-HKG/3) and Macao, 
China (E/C.12/CHN-MAC/2), adopted by the Pre-Sessional Working Group at 
Its 51st Session, para. 33; UN GAOR, Committee on Economic, Social and 
Cultural Rights, List of Issues in relation to the Second Periodic 
Report of China (E/C.12/CHN/2), including Hong Kong, China (E/C.12/CHN-
HKG/3) and Macao, China (E/C.12/CHN-MAC/2), Addendum, Replies of China 
to the List of Issues, 27 January 14, paras. 204-08.
    \8\ ``China Adopts Mental Health Law, Protecting Rights,'' Xinhua, 
26 October 12; Li Gang, ``Mother and Father `Kidnap' Daughter and 
Forcibly Commit Her to Psychiatric Hospital'' [Fumu ``bangjia'' nuer 
qiangsong jingshenbing yuan''], Beijing Youth Daily, 17 November 13; 
Huang Xuetao, Liu Xiaohu, and Liu Jiajia, Equity and Justice 
Initiative, ``The Involuntary Commitment System of China: A Critical 
Analysis'' [Zhongguo jingshenbing shouzhi zhidu falu fenxi baogao], 10 
October 10, 12-14.
    \9\ Sharon LaFraniere and Dan Levin, ``Assertive Chinese Held in 
Mental Wards,'' New York Times, 11 November 10; Jiang Gewei, ``Woman 
Forcibly Committed to Psychiatric Hospital for 70 Days of Treatment Due 
to Conflict With Colleagues'' [Nuzi yin yu tongshi jiufen bei song zhi 
jingshengbing yuan zhenzhi 70 tian], Legal Weekly, reprinted in Sina, 
30 March 13; Wang Dianxue, ``Third Review of Mental Health Law Draft 
Being `Forcibly Committed to Psychiatric Facility' Is Focus of 
Attention'' [Jingshen weisheng fa caoan sanshen ``bei jingshenbing'' 
cheng guangzhu jiaodian], Southern Metropolitan Daily, 24 October 12.
    \10\ Sharon LaFraniere and Dan Levin, ``Assertive Chinese Held in 
Mental Wards,'' New York Times, 11 November 10; Civil Rights and 
Livelihood Watch, ``2013 Year-End Report on Mental Health and Human 
Rights in China (Forcibly Committed)'' [2013 nian zhongguo jingshen 
jiankang yu renquan (bei jingshenbing) nianzhong baogao], 13 February 
14, sec. 2; Chinese Human Rights Defenders, `` `The Darkest Corners': 
Abuses of Involuntary Psychiatric Commitment in China,'' 6 August 12. 
See also CECC, 2009 Annual Report, 10 October 09, 240.
    \11\ Human Rights Watch, ``Dangerous Meditation: China's Campaign 
Against Falungong,'' January 2002; Human Rights Watch, ``Dangerous 
Minds: Political Psychiatry in China Today and Its Origins in the Mao 
Era,'' August 2002, 160-76.
    \12\ Human Rights Watch, ``Dangerous Minds: Political Psychiatry in 
China Today and Its Origins in the Mao Era,'' August 2002, 2-23.
    \13\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art 9(1); Convention on the Rights of Persons 
with Disabilities, adopted by UN General Assembly resolution 61/106 of 
13 December 06, entry into force 3 May 08, arts. 12, 14. See also Tina 
Minkowitz, ``Why Do So Few People Know That CRPD Prohibits Forced 
Psychiatry? '' Mad in America (blog), 14 October 12.
    \14\ UN Human Rights Council, Working Group on Arbitrary Detention, 
Opinions adopted by the Working Group on Arbitrary Detention at Its 
69th Sess., No. 8/2014 (China), A/HRC/WGAD/2014/xx, 20 May 14; Chinese 
Human Rights Defenders, ``UN Working Group Finds China's Psychiatric 
Detention of Petitioner `Arbitrary,' '' 21 July 14. For more 
information on Xing Shiku, see the Commission's Political Prisoner 
Database record 2011-00093.
    \15\ Lin Ping, ``Case of Female Engineer `Forcibly Committed to 
Psychiatric Hospital' in Beijing Suing Hospital Gets Attention'' 
[Beijing ``bei jingshengbing'' nu gongchengshi qisu yiyuan yinfa 
guanzhu], Democratic China, 13 February 14; Han Junjie and Zhang Yufu, 
``A Life Changed by Petitioning'' [Bei shangfang gaibian de rensheng], 
China Youth Daily, 19 July 13; Equity and Justice Initiative, ``One 
Person One Photo, Protect the Rights of `Persons with Mental Health 
Disorders' Action Advocacy Appeal'' [Yiren yizhaopian, baozhang 
``jingshen zhang'ai renshi'' quanyi huodong changyishu], 24 April 14; 
Civil Rights and Livelihood Watch, ``2013 Year-End Report on Mental 
Health and Human Rights in China (Forcibly Committed)'' [2013 nian 
zhongguo jingshen jiankang yu renquan (bei jingshenbing) nianzhong 
baogao], 13 February 14.
    \16\ PRC Mental Health Law [Zhonghua renmin gongheguo jingshen 
weisheng fa], passed 26 October 12, effective 1 May 13, arts. 78, 82; 
Jeremy Daum, ``Still Crazy After All These Years,'' China Law Translate 
(blog), 20 May 13.
    \17\ Han Junjie and Zhang Yufu, ``A Life Changed by Petitioning'' 
[Bei shangfang gaibian de rensheng], China Youth Daily, 19 July 13. For 
an English translation of the China Youth Daily article, see Dui Hua 
Foundation, ``Petitioning Abuse Survivor Wins Forced Commitment Suit,'' 
Dui Hua Foundation Human Rights Journal, 8 August 13. For more 
information on Wu Chunxia, see the Commission's Political Prisoner 
Database record 2014-00088.
    \18\ Keira Lu Huang, ``Woman Illegally Detained in Mental Hospital 
and Given Electric Shock Treatment Wins Lawsuit,'' South China Morning 
Post, 22 May 14; ``Rural Woman From Henan `Forcibly Committed to 
Psychiatric Facility' Wins Case Against Police'' [Henan nongfu bei 
jingshenbing zhuanggao jingfang zhongshen huo sheng], Beijing Times, 22 
May 14; Luo Jieqi, ``Petitioning Rural Woman Forcibly Committed to 
Psychiatric Hospital for 132 Days, Verdict Is Public Security Violated 
the Law'' [Shangfang nongfu bei jingshenbing 132 tian, gonganju bei pan 
weifa], Caixin, 22 May 14.
    \19\ Wang Ruifeng, ``Lawsuit Against Government Is Rejected for Pig 
Seller Liu Gang Who Was `Forcibly Put in Psychiatric Facility' Due to 
Petitioning'' [Zhufan liu gang yin shangfang ``bei jingshenbing'' qisu 
zhengfu bei bohui], Beijing News, 31 October 13; China Public Interest 
Network, ``Recommendations for the Selection of the `Top Ten Public 
Interest Cases in 2013' '' [``2013 nian zhongguo shi da gongyi susong'' 
pingxuan tuijian anli], China Public Interest Network Blog, 21 January 
14, case 16.
    \20\ Wang Ruifeng, ``Liaoning Pig Seller `Forcibly Committed to 
Psychiatric Hospital' for Petitioning Obtains 400,000 Yuan in Mediation 
at Second Instance Trial'' [Liaoning zhufan yin shangfang ``bei 
jingshenbing'' ershen hejie huo pei 40 wan], Beijing News, 31 July 14; 
Wang Ruifeng, ``In Response to Linyi City's Puzzling New Statement, Pig 
Seller Liu Gang Publicly Releases `Mediation' Receipt'' [Dui linyi shi 
xin biaotai bujie zhufan liu gang gongbu ``hejie'' shoutiao], Beijing 
News, 31 July 14.
    \21\ Zhang Wei, ``First Lawsuit Under the Mental Health Law Is 
Finally Accepted for Filing After Seven Months'' [``Jingshen weisheng 
fa'' diyi an qisu qi ge yue hou zhong huo li'an], Legal Daily, 23 
December 13; Equity and Justice Initiative, ``One Person One Photo, 
Protect the Rights of `Persons With Mental Health Disorders' Action 
Advocacy Appeal'' [Yi ren yi zhaopian, baozhang ``jingshen zhang'ai 
renshi'' quanyi huodong changyishu], 24 April 14.
    \22\ Liu Su'nan, ``Love in a Psychiatric Hospital'' [Jingshenbing 
yuan li de aiqing], Southern Metropolitan Daily, 17 March 14; China 
Public Interest Network, ``Recommendations for the Selection of the 
`Top Ten Public Interest Cases in 2013' '' [``2013 nian zhongguo shi da 
gongyi susong'' pingxuan tuijian anli], China Public Interest Network 
Blog, 21 January 14, case 14.
    \23\ Zhang Wei, ``First Lawsuit Under the Mental Health Law, Case 
Finally Accepted for Filing After Seven Months'' [``Jingshen weisheng 
fa'' diyi an qisu qi ge yue hou zhong huo li'an], Legal Daily, 23 
December 13; Luo Jieqi, ``Involuntarily Committed for 10 Years, Lawsuit 
Against Psychiatric Hospital Allowed To File'' [Fei ziyuan zhuyuan shi 
nian su jingshenbing yuan huo li'an], Caixin, 24 December 13; Ouyang 
Chenyu, `` `Mental Health Law' Still Needs More Judicial Honing'' 
[``Jingshen weisheng fa'' reng xu gengduo sifa dili], Beijing Times, 25 
December 13.
    \24\ Civil Rights and Livelihood Watch, ``Shanghai Xu Wei Case Has 
Faced Many Difficulties During the Year, Finally Received Long-Awaited 
Trial Notification'' [Shanghai xu wei an yinianlai lijin qiannan, 
zhongyu denglai kaiting tongzhi], 4 August 14.
    \25\ PRC Mental Health Law [Zhonghua renmin gongheguo jingshen 
weisheng fa], passed 26 October 12, effective 1 May 13, art 24; 
National Health and Family Planning Commission, Measures for Serious 
Mental Disorder Onset Reporting Management (Trial) [Yanzhong jingshen 
zhang'ai fabing baogao guanli banfa (shixing)], 29 July 13, arts. 3, 
13.
    \26\ ``Mentally-Ill Patients To Be Placed in Database,'' Xinhua, 2 
September 13.
    \27\ Wang Shiyu and Sun Xuyang, `` `Proportional' Mental Illness 
Quotas'' [``Tanpai'' jingshenbing zhibiao], Southern Metropolitan 
Daily, 9 October 13; Patrick Boehler, ``You Are Falling Short of Your 
`Crazy Quota,' Zhengzhou Officials Warned,'' South China Morning Post, 
10 October 13.
    \28\ Wang Shiyu and Sun Xuyang, `` `Proportional' Mental Illness 
Quotas'' [``Tanpai'' jingshenbing zhibiao], Southern Metropolitan 
Daily, 9 October 13.
    \29\ See, e.g., Zhan Wancheng, ``Apportioning Quota for the 
Mentally Ill Is Absurd `Management by Numbers' '' [Tanpai jingshenbing 
zhibiao shi yihua de ``shuzi guanli''], Beijing News, 10 October 13; 
Zhou Tian, ``NHFPC: Zhengzhou's Apportioning Quota of Mentally Ill Is 
Not Scientific'' [Weijiwei: zhengzhou tanpai jingshenbing zhibiao bu 
kexue], Caixin, 11 October 13; Yu Chu, ``Just How Absurd Is 
`Apportioning Mental Illness Quota' '' [``Tanpai jingshenbing zhibiao'' 
heqi huangdan], Beijing Youth Daily, 10 October 13.
    \30\ ``NHFPC: Zhengzhou's `Quota To Assess Persons With Mental 
Illness' Is Not a Scientific Method'' [Weijiwei: zhengzhou ``tanpai 
jingshenbing ren zhibiao'' zuofa bu kexue], China News Service, 10 
October 13.
    \31\ Beijing Aizhixing Institute, ``An Open Letter Regarding Former 
Employee Akbar Imin Who Was Arrested by the Urumqi PSB'' [Guanyu qian 
yuangong akebai'er.yiming bei wulumuqi gong'anju jubu qingkuang de 
shengming], reprinted in China Free Press, 7 March 14; ``Uyghur AIDS 
Rights Defender Arrested on Charges of `Endangering National Security' 
'' [Aizi weiquan ren she ``weihai guojia anquan'' bei bu], Radio Free 
Asia, 7 March 14. For more information on Akbar Imin, see the 
Commission's Political Prisoner Database record 2014-00115.
    \32\ Ibid.; Uyghur Human Rights Project, ``The Uyghur Human Rights 
Project Condemns the Detention of AIDS Activist Akbar Imin and Calls 
for His Immediate Release,'' 13 March 14.
    \33\ ``Uyghur AIDS Rights Defender Arrested on Charges of 
`Endangering National Security' '' [Aizi weiquan ren she ``weihai 
guojia anquan'' bei bu], Radio Free Asia, 7 March 14; Uyghur Human 
Rights Project, ``The Uyghur Human Rights Project Condemns the 
Detention of AIDS Activist Akbar Imin and Calls for His Immediate 
Release,'' 13 March 14.
    \34\ ``Hu Jia's Soft Detention Ends, Visits Tiananmen'' [Jieshu 
ruanjin de hu jia, chonghui tiananmen], Deutsche Welle, 9 June 14; Ian 
Johnson, `` `You Won't Get Near Tiananmen!': Hu Jia on the Continuing 
Crackdown,'' New York Review of Books (blog), 2 June 14. For more 
information on Hu Jia's case, see the Commission's Political Prisoner 
Database record 2004-05295.
    \35\ ``Beijing Activist Hu Jia Attacked by `Trained Men,' '' Radio 
Free Asia, 17 July 14. For more information on Cao Shunli, see 
``Inadequate Medical Care for Cao Shunli Before Her Death Contradicts 
International Law,'' Congressional-Executive Commission on China, 2 
April 14.
    \36\ Mark MacKinnon, ``Love, Dissident-Style: The Saga of Hu Jia 
and Zeng Jinyan,'' Globe and Mail, 20 April 12; CECC, 2012 Annual 
Report, 10 October 12, 111; CECC, 2011 Annual Report, 10 October 11, 
136.
    \37\ ``Hu Jia's Soft Detention Ends, Visits Tiananmen'' [Jieshu 
ruanjin de hu jia, chonghui tiananmen], Deutsche Welle, 9 June 14; 
Stanley Lubman, ``Crackdown Betrays Breadth of Beijing's Challenges,'' 
Wall Street Journal, China Real Time Report (blog), 18 March 14.
    \38\ Bill Smith, ``China Quashes Campaign To Probe Blood-Selling 
Scandal,'' Business Recorder, 30 November 13; Yuan Wenli, ``Why Deprive 
Me of My Right to Participation? '' [Wei shenme boduo wo canyu de 
quanli?], reprinted in Asia Catalyst, 19 November 13.
    \39\ Patrick Boehler, ``Sex Worker Rights Activist Ye Haiyan Says 
She Is Barred From Leaving China,'' South China Morning Post, 16 July 
14; Michelle Chen, ``China Bars Sex Worker Rights Activist From 
Traveling to International AIDS Conference,'' Nation, 21 July 14.
    \40\ Chen Bingzhong, ``Five Innocent PLWHA From Ruzhou Sentenced 
for Petitioning'' [Ruzhou 5 ming wugu ganran aizibing huanzhe shangfang 
bei panxing], Boxun, 10 July 14; ``Government Reckoning, Five PLWHA 
Criminally Detained'' [Zhengfu qiuhou suanzhang 5 ming aizibingren bei 
xingju], Radio Free Asia, 19 December 13. For more information on these 
five cases, see the following records in the Commission's Political 
Prisoner Database: 2014-00245 on Chen Shuxia, 2014-00246 on Liu 
Cuihong, 2014-00247 on Ma Xia, 2014-00248 on Long Huishou, and 2014-
00249 on Ma Jianmin.
    \41\ Beijing Aizhixing Institute, ``[China AIDS: 8078] Important!! 
Description of Aizhixing's HIV/AIDS Prevention and Rights Outreach 
Among Ethnic Minority Populations'' [``China AIDS 8078'' zhongyao!! 
aizhixing guanyu zai shaoshu minzu renkou zhong kaizhan aizibing 
fangzhi he quanyi weihu de shuoming], reprinted in China AIDS Group 
Blogspot, 26 March 14.
    \42\ ``Henan Rights Lawyer Chang Boyang's Arrest Charge Change 
Approved, `Crime of Illegally Operating a Business' Raises Skepticism 
Among All Sectors'' [Henan weiquan lushi chang boyang bei genggai 
zuiming pibu she ``feifa jingying zui'' yinfa gejie zhiyi], Radio Free 
Asia, 7 July 14. For more information on Chang Boyang's case, see the 
Commission's Political Prisoner Database record 2014-00252.
    \43\ ``Office of Zhengzhou NGO Yirenping Once Again Searched, 
Police Investigating Relations With Foreign Organizations'' [Zhengzhou 
NGO yirenping bangongshi zai bei soucha jingfang diaocha yu jingwai 
zuzhi guanxi], Radio Free Asia, 14 July 14. For background information 
on Yirenping's public health advocacy at its Beijing office, see Fu 
Hualing, ``Embedded Socio-Legal Activism in China: The Case of 
Yirenping,'' reprinted in Social Science Research Network, last visited 
11 August 14.
    \44\ General Office of the State Council, ``Promotion Plan for 
Special Education (2014-2016)'' [Teshu jiaoyu tisheng jihua (2014-2016 
nian)], Ministry of Finance, 8 January 14. The Ministries of Education, 
Civil Affairs, and Finance, the National Development and Reform 
Commission, the National Health and Family Planning Commission, and the 
China Federation for Disabled Persons jointly issued this special 
education plan.
    \45\ UN GAOR, Committee on Economic, Social and Cultural Rights, 
List of Issues in relation to the Second Periodic Report of China (E/
C.12/CHN/2), Including Hong Kong, China (E/C.12/CHN-HKG/3) and Macao, 
China (E/C.12/CHN-MAC/2) Addendum, Replies of China to the List of 
Issues, 27 January 14, para. 228; Introductory Statement by H.E. 
Ambassador Wu Hailong, Head of Delegation of the People's Republic of 
China at the Review of the Second Periodic Report of China on the 
Implementation of the International Covenant on Economic, Social and 
Cultural Rights, 8 May 14.
    \46\ Didi Kirsten Tatlow, ``China To Allow the Blind To Take 
College Entrance Exams,'' New York Times, 21 April 14.
    \47\ Human Rights Watch, ``China: Exams Accessible to the Blind a 
Breakthrough,'' 16 April 14; Yu Fei, ``Blind Persons Earnestly Hope for 
the Arrival of Barrier-Free College Entrance Exams'' [Mangren wu 
zhang'ai gaokao jipan ``luodi''], China Workers Net--Workers' Daily, 
reprinted in Tencent, 18 April 14.
    \48\ Edward Wong, ``Test That Can Determine the Course of Life in 
China Gets a Closer Examination,'' New York Times, 30 June 12.
    \49\ Yu Fei, ``Blind Persons Earnestly Hope for the Arrival of 
Barrier-Free College Entrance Exams'' [Mangren wu zhang'ai gaokao jipan 
``luodi''], China Workers Net--Workers' Daily, reprinted in Tencent, 18 
April 14.
    \50\ Huang Shixin, ``Open Column: The Right To Submit a Blank Exam 
Booklet'' [Kaifang zhuanlan: jiao baijuan de quanli], Southern 
Metropolitan Daily, 12 June 14.
    \51\ Maya Wang, Human Rights Watch, ``China's High Test Scores 
Obscure Discriminatory Education System,'' Global Post, reprinted in 
Human Rights Watch, 29 January 14. See also Men Jiedan, ``Disabled 
Student Gets Exception and Is Admitted to University, City Residents' 
Performance Again Calls for Education Equality'' [Canzhang kaosheng 
poge luqu shang daxue, shimin xingwei yishu zai hu jiaoyu pingdeng], 
China News Service, 13 August 13.
    \52\ Meng Zhaoli and Mi Yingting, ``Internet News of `Disabled 
Female Student With College Exam Score of 549 Enrollment Revoked,' 
School Says Not Convenient To Reveal Details of Physical Exam'' 
[Wangchuan ``canji nusheng gaokao 549 fen bei tuidang'' xiaofang cheng 
bubian pilu tijian xijie], Xinhua, 4 August 14; Lin Changsheng, 
``Follow-Up on Disabled Student From Zhangzhou Whose College Revoked 
Her Admission, Education Controversy Triggered by `Failed Physical 
Exam' '' [Zhangzhou canji kaosheng bei gaoxiao tuidang zhuizong: 
``tijian bu hege'' yinfa de jiaoyu fenzheng], People's Daily, reprinted 
in NetEase, 5 August 14.
    \53\ Jiang Liming, ``Fujian Provincial Examination Institute 
Facilitates Disabled Student Liu Wanling's Admission Into Xiamen 
University's Jiageng Institute'' [Fujian sheng kaoshiyuan xietiao xiada 
jiageng xueyuan luqu canji kaosheng liu wanling], Xinhua, 6 August 14.
    \54\ See, e.g., PRC Law on the Protection of Persons with 
Disabilities [Zhonghua renmin gongheguo canjiren baozhang fa], passed 
28 December 90, amended 24 April 08, effective 1 July 08, arts. 3, 30-
40; PRC Employment Promotion Law [Zhonghua renmin gongheguo jiuye cujin 
fa], passed 30 August 07, effective 1 January 08, arts. 3, 29, 30; 
State Council, Regulations on the Treatment and Control of HIV/AIDS 
[Aizibing fangzhi tiaoli], issued 29 January 06, effective 1 March 06, 
art. 3; State Council, Regulations on the Employment of Persons with 
Disabilities [Canjiren jiuye tiaoli], issued 25 February 07, effective 
1 May 07, arts. 3, 8.
    \55\ Ministry of Human Resources and Ministry of Health, Civil 
Servant Recruitment Physical Examination Standards (Trial) [Gongwuyuan 
luyong tijian tongyong biaozhun (shixing)], 17 January 05, reprinted in 
National Public Servant Net, 15 September 10. See Wan Jing, ``Teacher 
Eligibility Standards in Many Places Permit Discrimination Against 
Persons with Disabilities, Disabled Persons Apply for Open 
Information'' [Duodi jiaoshi tijian biaozhun cun canzhang qishi, 
canzhang renshi shenqing gongkai yiju], Legal Daily, reprinted in 
Eastday, 5 December 13. According to Legal Daily, at least 20 provinces 
have physical eligibility standards for teachers that discriminate 
against persons with disabilities.
    \56\ ``Second Instance Trial for First Case in Jiangsu of AIDS 
Employment Discrimination'' [Jiangsu shouli aizi jiuye qishi an 
ershen], China Jiangsu Net, 19 November 13; Zhao Han, ``Top Scholar in 
Civil Service Exam Sues Human Resources Bureau for Refusing To Hire 
Visually Impaired Person'' [Gongwuyuan kaoshi zhuangyuan zhuanggao 
rensheju julu shizhang ren], Caixin, 26 May 14; Ye Yu, ``Attention to 
International Persons With Disability Day, A Disabled Person Who Has 
Taught for 17 Years Not Able To Get Teacher Certificate'' [Guoji 
canjiren ri tebie guanzhu, cong jiao 17 nian canjiren kaobulai 
jiaoshizheng], Eastern Daily, 3 December 13.
    \57\ Zhang Wei, ``Civil Services Physical Examination Standards Are 
Suspected of Being Illegal, Directly Discriminate Against Close to 200 
Million'' [Gongwuyuan luyong tijian biaozhun bei zhi shexian weifa, 
zhijie qishi renchun jin 2 yi], Legal Daily, 26 March 14.
    \58\ UN GAOR, Committee on Economic, Social and Cultural Rights, 
Concluding Observations on the Second Periodic Report of China, 
Including Hong Kong, China and Macao, China, adopted at Its 52nd 
Session, 13 June 14, para. 18. The 1.5 percent minimum hiring quota for 
persons with disabilities is stipulated in State Council, Regulations 
on the Employment of Persons with Disabilities [Canjiren jiuye tiaoli], 
issued 25 February 07, effective 1 May 07, arts. 3, 8.
    Notes to Section II--The Environment

    \1\ See, e.g., ``China Suspends Officials After Lead Poisoning in 
Hunan Children,'' Radio Free Asia, 17 June 14; Cheng Lu and Li Yahong, 
``China Raises Alert Against Surging Cancer Crisis,'' Xinhua, 19 April 
14; Tom Phillips, ``Toxic Smog Threatens Millions of Chinese Lives,'' 
Telegraph, 18 February 14; ``China Says Air Pollution Affecting 
Physical, Mental Health of Citizens,'' Agence France-Presse, reprinted 
in Shanghai Daily, 6 November 13; Xie Haitao and Liu Hongqiao, ``Huai 
River Cancer'' [Huaihe aizheng], Caixin, 30 September 13; ``China Has 
Over 200 `Cancer Villages' Due to Water Pollution: Expert,'' Caijing, 
18 September 13; ``China Tackles the Health Effects of Air Pollution,'' 
Lancet, 14 December 13; Darren Wee, ``Ex-Health Minister Endorses 
Finding China's Smog Kills 350,000 a Year,'' South China Morning Post, 
7 January 14.
    \2\ Han Yuting, ``Environmental Migration'' [Huanjing yimin], 
Economic Observer, 9 February 14.
    \3\ Wang Yue, ``Polluted Farmland Leads to Chinese Food Security 
Fears,'' Chinadialogue, 7 January 14; Didi Kirsten Tatlow, ``After 
`Cadmium Rice,' Now `Lead' and `Arsenic Rice,' '' New York Times, 
Sinosphere (blog), 30 April 14; Liu Hongqiao, ``The Polluted Legacy of 
China's Largest Rice-Growing Province,'' Chinadialogue, 30 May 14. For 
information on food safety and China, including the linkage between 
food safety and pollution and the implications for the United States, 
see Jason J. Czarnezki et al., Global Environmental Law: Food Safety & 
China, 25 Geo. Int'l Envtl. L. Rev., 261 (2013), last visited 26 June 
14, 261-262, 266, 271; Forum on Health, Environment and Development, 
Working Group on Food Safety, ``Food Safety in China: A Mapping of 
Problems, Governance and Research,'' February 2014, chap. 3.4.
    \4\ Ministry of Environmental Protection and Ministry of Land and 
Resources, ``Report of the National Soil Pollution Conditions Survey'' 
[Quanguo turang wuran zhuangkuang diaocha gongbao], 17 April 14, 1, 3; 
Angel Hsu and William Miao, ``Soil Pollution in China Still a State 
Secret Despite Recent Survey,'' Scientific American (blog), 18 June 14. 
The authors explain the methodology of the sample survey and the 
limited nature of the data disclosed by officials.
    \5\ Ministry of Environmental Protection and Ministry of Land and 
Resources, ``Report of the National Soil Pollution Conditions Survey'' 
[Quanguo turang wuran zhuangkuang diaocha gongbao], 17 April 14, 3-5.
    \6\ Jin Yu, ``280 Million Residents Use Unsafe Drinking Water'' 
[2.8 yi jumin shiyong bu anquan yinyong shui], Beijing News, 15 March 
14.
    \7\ The Ministry of Environmental Protection designates the exact 
number of the ``key'' polluting enterprises that it targets for 
monitoring. The number of ``key'' polluting enterprises varies every 
year. See Ministry of Environmental Protection, Circular Regarding the 
National 2014 List of Key Enterprises [To Be] Monitored [Guanyu yinfa 
2014 nian guojia zhongdian jiankong qiye mingdan de tongzhi], issued 26 
December 13; Ministry of Environmental Protection, Circular Regarding 
the National 2013 List of Key Enterprises [To Be] Monitored [Guanyu 
yinfa 2013 nian guojia zhongdian jiankong qiye mingdan de tongzhi], 
issued 22 March 13; Ministry of Environmental Protection, Circular 
Regarding the ``National 2012 List of Key Enterprises [To Be] 
Monitored'' [Guanyu yinfa 2012 nian ``guojia zhongdian jiankong qiye 
mingdan'' de tongzhi], issued 31 December 11; Ministry of Environmental 
Protection, Circular Regarding the ``National 2011 List of Key 
Enterprises [To Be] Monitored'' [Guanyu yinfa 2011 nian ``guojia 
zhongdian jiankong qiye mingdan'' de tongzhi], issued 25 March 11.
    \8\ Edward Wong, ``Response to a City's Smog Points to a Change in 
Chinese Attitude,'' New York Times, 24 October 14; ``Super Smog in 
Northern Chinese City of Harbin Closes Schools, Cancels Flights and 
Halts Buses,'' Associated Press, reprinted in Washington Post, 21 
October 13; ``China Cancels Flights, Closes Roads Due to Pollution,'' 
Agencia EFE, reprinted in Global Post, 6 October 13; ``Third Day of 
Serious Smog in Beijing Forces Highway Closures,'' Voice of America, 7 
October 13; Edward Wong, `` `Airpocalypse' Smog Hits Beijing at 
Dangerous Levels,'' New York Times, Sinosphere (blog), 16 January 14; 
Gu Ruizhen, ``Course of Events in Serious Pollution [Incidents) in 
Beijing, Tianjin, Hebei, and Surrounding Areas'' [Jing jin ji ji 
zhoubian dichu fasheng kongqi zhong wuran guocheng], Xinhua, 14 April 
14; ``China Chases Renewable Energy as Coast Chokes on Air,'' Wall 
Street Journal, China Real Time Report (blog), 6 December 13; 
``Shanghai Cloaked in Smog as Air Pollution Hits Dangerous Peak,'' 
South China Morning Post, 2 December 13.
    \9\ David Stanway, ``Complaints About Air Pollution in China's 
Capital Double in Five Months,'' Reuters, 14 June 14; Pew Research 
Center, ``Environmental Concerns on the Rise in China, Many Also 
Worried About Inflation, Inequality, Corruption,'' 19 September 13, 1. 
The Pew survey found that between 2008 and 2013 citizen concern over 
air quality and water pollution increased by 16 and 12 percent, 
respectively.
    \10\ ``US, S. Korea Voice Concerns Over Drifting Smog From China,'' 
Want China Times, 5 December 13; Jonathan Kaiman, ``China's Air 
Pollution Leading to More Erratic Climate for US, Say Scientists,'' 
Guardian, 15 April 14. According to the Guardian article, the National 
Academy of Sciences found that China's air pollution may be making 
Pacific Ocean storms more intense.
    \11\ Norihiko Shirouzu and Judy Hua, ``Crude Oil Leak Blamed for 
China Water Contamination,'' Reuters, 12 April 14; Yin Yue and Gao 
Shengke, ``Lanzhou Benzene Crisis Highlights Water Safety Issues,'' 
Caijing, 23 April 14; ``Wuhan Han River Ammonia Nitrate [Levels] Exceed 
Standards, Affects Water Use for More Than 300,000 People'' [Wuhan 
hanjiang shuizhi andan chaobiao 30 yu wan ren yong shui shou 
yingxiang], Southern Weekend, 24 April 14; ``Overturned Tanker Truck 
Leads to `Water Crisis,' Eight Tons of Tetrachloroethane Flows Into 
Fuchun River'' [Cao guanche ce fan yinfa ``shui weiji'' 8 dun si lu 
yiwan liuru fuchunjiang], Southern Weekend, 19 May 14.
    \12\ Introductory Statement by H.E. Ambassador Wu Hailong, Head of 
the Delegation of the People's Republic of China at the Review of the 
Second Periodic Report of China on the Implementation of the 
International Covenant on Economic, Social and Cultural Rights, 8 May 
14.
    \13\ Gao Jianghong, ``Scholar Says Water Quality Situation Is a 
Disaster, but Worse Are State Secrets'' [Xuezhe cheng shuizhi qingkuang 
hen zaogao dan duo zao shi guojia jimi], 21st Century Business Herald, 
reprinted in Sina, 27 April 14.
    \14\ Ibid.
    \15\ Luna Lin, ``Chinese Countryside Facing More Serious Drinking 
Water Crisis Than Cities,'' Chinadialogue, 7 May 14.
    \16\ Jin Yu, ``280 Million Residents Use Unsafe Drinking Water'' 
[2.8 yi jumin shiyong bu anquan yinyong shui], Beijing News, 15 March 
14.
    \17\ ``Ministry of Environmental Protection: Rural Pollution 
Emissions Account for `Half of the Country's' Pollution'' [Huanbaobu: 
nongcun wuran paifang yi zhan zhongguo ``banbi jiangshan''], China 
Youth Daily, 3 June 11. Institute of Public and Environmental Affairs 
(IPE) and Natural Resources Defense Council, ``Open Environmental 
Information: Taking Stock: The 2011 Pollution Information Transparency 
Index (PITI), Third Annual Assessment of Environmental Transparency in 
113 Chinese Cities,'' 16 January 12, 2. The IPE study indicates the 
level of information disclosure has been lower in inland and western 
provinces than in coastal areas. Liu Xiaoxing, ``Don't Let Rural 
Environment Become a Forgotten Corner'' [Bie rang nongcun huanjing 
cheng bei yiwang jiaoluo], China Environmental News, 11 March 13. 
According to an official cited in the China Environmental News report, 
only 2.8 percent of China's over 600,000 villages are included in 
comprehensive environmental control efforts.
    \18\ He Guangwei, ``Special Report: The Victims of China's Soil 
Pollution Crisis,'' Chinadialogue, 30 June 14; Luna Lin, ``Chinese 
Countryside Facing More Serious Drinking Water Crisis Than Cities,'' 
Chinadialogue, 7 May 14; Gao Jianghong, ``Scholar Says Water Quality 
Situation Is a Disaster, but Worse Are State Secrets'' [Xuezhe cheng 
shuizhi qingkuang hen zaogao dan duo zao shi guojia jimi], 21st Century 
Business Herald, reprinted in Sina, 27 April 14. This article cites 
official figures from 2012 that indicate a lower percentage of drinking 
water meets standards in rural areas than in urban areas.
    \19\ ``China Outsourcing Smog to West Region Stirs Protest,'' 
Bloomberg, 6 March 14.
    \20\ Ibid.
    \21\ ``China Jails Three Tibetans Over Anti-Mining Protest,'' Radio 
Free Asia, 23 December 13; Tibetan Centre for Human Rights and 
Democracy, ``Diru Crackdown: Three Tibetans Sent to Prison for Up to 13 
Years, Singer Gets 9 Years in Prison,'' 23 December 13. For more 
information on the protest, see CECC, Annual Report 2013, 10 October 
13, 184. For more information on the individuals sentenced, see the 
Commission's Political Prisoner Database records 2014-00010 on 
Choekyab, 2014-00009 on Trinle Tsekar, and 2014-00011 on Tselha.
    \22\ ``Two Sessions Exclusive Release: Government Work Report'' 
[Lianghui shouquan fabu: zhengfu gongzuo baogao], Xinhua, 14 March 14. 
In the 2014 Government Work Report, Premier Li Keqiang emphasized that 
China should ``declare war on pollution.'' Zhang Qiuliu, ``2013 
National Meeting of Environmental Department and Bureau Heads 
Concludes'' [2013 nian quanguo huanbao ting juzhang huiyi bimu], China 
Environment News, reprinted in Ministry of Environmental Protection, 19 
August 13. In a speech that reiterated the words of President Xi 
Jinping, Zhou Shengxian, Minister of Environmental Protection, said 
that China should ``promote environmental protection to optimize 
economic development'' and ``use environmental protection as a 
mechanism to make economic structural adjustments and transform 
development patterns . . . ,'' and that ``protecting the ecological 
environment is protecting productivity and improving the ecological 
environment is developing productivity.''
    \23\ ``Xinhua Insight: Why the CPC's Third Plenary Session Is 
Important,'' Xinhua, 30 August 13. According to Xinhua, traditionally, 
central Party officials use the third meeting of a new Party congress 
to issue plans for key policy changes.
    \24\ Chinese Communist Party Central Committee, ``Decision on 
Certain Major Issues Regarding Comprehensively Deepening Reforms'' 
[Zhonggong zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti 
de jueding], reprinted in Xinhua, 15 November 13. The Decision urged 
authorities to ``increase the weight of resource consumption, 
environmental damage, ecological benefits . . . '' in assessing 
development progress (sec. 4(14)). It also said China would ``enhance 
the duties of local governments'' in environmental protection (sec. 
4(15)) and ``strengthen grassroots law enforcement in . . . 
environmental protection'' (sec. 9(31)).
    \25\ Ibid.
    \26\ Ibid. For more information on other objectives of the 
decision, see the Decision, secs. 5(18), 14(51-54).
    \27\ PRC Environmental Protection Law [Zhonghua renmin gongheguo 
huanjing baohu fa], passed 26 December 89, amended 24 April 14, 
effective 1 January 15.
    \28\ Benjamin Van Rooij and Alex Wang, ``China's Pollution 
Challenge,'' New York Times, 19 May 14.
    \29\ ``China Voice: New Environmental Law Needs Thorough 
Enforcement,'' Xinhua, 29 April 14; Michelle Ker and Kate Logan, ``New 
Environmental Law Targets China's Local Officials,'' Chinadialogue, 28 
April 14; Benjamin Van Rooij and Alex Wang, ``China's Pollution 
Challenge,'' New York Times, 19 May 14; ``Enforcement Key to China's 
Battle on Pollution,'' Wall Street Journal, 6 March 14; Yin Pumin, 
``Saving the Ecosystem,'' Beijing Review, 22 May 14.
    \30\ Barbara Finamore, ``New Weapons in the War on Pollution: 
China's Environmental Protection Law Amendments,'' Switchboard Blog 
(Barbara Finamore's blog), 24 April 14.
    \31\ PRC Environmental Protection Law [Zhonghua renmin gongheguo 
huanjing baohu fa], passed 26 December 89, amended 24 April 14, 
effective 1 January 15, art. 56. In November 2013, authorities issued a 
revised Government Information Disclosure Guide for Construction 
Project Environmental Impact Assessments (provisional) that, among 
other items, mandated that authorities proactively disclose information 
about environmental impact assessment (EIA) processes and full EIA 
reports to the public after exclusion of information considered to be a 
state secret, a company secret, or information that involves state 
security, public safety, economic safety, and social stability. See 
Ministry of Environmental Protection, Government Information Disclosure 
Guide for Construction Project Environmental Impact Assessments 
(Provisional) [Jianshe xiangmu huanjing yingxiang pingjia zhengfu xinxi 
gongkai zhinan (shixing)], 14 November 13, secs. 1(4), 4(1.6). See also 
Ministry of Environmental Protection (MEP), ``To Promote the Reform of 
EIA Approval and the Functional Transformation, MEP Continuously 
Releases Three Documents To Delegate Approval Authorities, Intensify 
Information Disclosure, and Strengthen Supervision of EIA,'' 18 
December 13.
    \32\ PRC Environmental Protection Law [Zhonghua renmin gongheguo 
huanjing baohu fa], passed 26 December 89, amended 24 April 14, 
effective 1 January 15, art. 55.
    \33\ Ibid., art. 62.
    \34\ Ibid., art. 6.
    \35\ Ibid., art. 26. For more information on the evolution of the 
environmental target responsibility system see, Anna Brettell, ``A 
Survey of Environmental Deterrence in China's Evolving Regulatory 
Framework,'' in Chinese Environmental Governance: Dynamics, Challenges, 
and Prospects in a Changing Society, eds. Bingqiang Ren and Huisheng 
Shou (New York: Palgrave Macmillan, 2013), 41-47; Li Xuan, ``Analysis 
of the `12th Five-Year' Plan Outline: `12th Five-Year' Plan Strengthens 
Environmental Protection Evaluation Guiding Function'' [``Shierwu'' 
guihua gangyao jiedu ``shier wu'' guihua huanbao kaohe yindao zuoyong], 
China Environmental News, 26 April 11; Alex L. Wang, ``The Search for 
Sustainable Legitimacy: Environmental Law and Bureaucracy in China,'' 
Harvard Environmental Law Review, Vol. 37, No. 2 (2013), 386-391, 398-
429.
    \36\ PRC Environmental Protection Law [Zhonghua renmin gongheguo 
huanjing baohu fa], passed 26 December 89, amended 24 April 14, 
effective 1 January 15, art. 44.
    \37\ Ibid., art. 43; Zheng Meng, ``Environmental Tax on the 
Horizon,'' Caijing, 11 March 14. For more information about the 
ineffectiveness of pollution levies, see Li Jing, ``Delays Mount for 
New Green Levies,'' South China Morning Post, 12 December 13.
    \38\ PRC Environmental Protection Law [Zhonghua renmin gongheguo 
huanjing baohu fa], passed 26 December 89, amended 24 April 14, 
effective 1 January 15, art. 59. For a reference to the shift to daily 
fines, see Barbara Finamore et al., ``New Weapons in the War on 
Pollution: China's Environmental Protection Law Amendments,'' 
Switchboard Blog (Barbara Finamore's blog), 24 April 14.
    \39\ PRC Environmental Protection Law [Zhonghua renmin gongheguo 
huanjing baohu fa], passed 26 December 89, amended 24 April 14, 
effective 1 January 15, art. 58.
    \40\ Ouyang Yanqin, ``Environmental Protection Law Revisions 
Passed, Limited Relaxation of Public Interest Lawsuit Restrictions'' 
[Huanbao fa xiuding an tongguo gongyi susong youxian fangkai], Caixin, 
24 April 14; ``Environmental Protection Rights Defense Dilemma: High 
Costs of Public Interest Litigation, Resolving Disputes Are Time-
Consuming'' [Huanbao weiquan kunjing: gongyi susong chengben gao jiejue 
jiufen hao shi chang], Xinhua, reprinted in China News, 5 June 14.
    \41\ Barbara Finamore et al., ``New Weapons in the War on 
Pollution: China's Environmental Protection Law Amendments,'' 
Switchboard Blog (Barbara Finamore's blog), 24 April 14; Yin Pumin, 
``Saving the Ecosystem,'' Beijing Review, 22 May 14; Christina Larson, 
``China Gives Teeth, Finally, to Beijing's New `War on Pollution,' '' 
Bloomberg, 28 April 14.
    \42\ Christina Larson, ``China Gives Teeth, Finally, to Beijing's 
New `War on Pollution,' '' Bloomberg, 28 April 14; Yin Pumin, ``Saving 
the Ecosystem,'' Beijing Review, 22 May 14; Geraldine Ding, ``China's 
New Pollution Rules Help Curb Official Interference,'' ABC News, 26 
April 14.
    \43\ PRC Environmental Protection Law [Zhonghua renmin gongheguo 
huanjing baohu fa], passed 26 December 89, amended 24 April 14, 
effective 1 January 15, art. 60.
    \44\ Ibid., arts. 55, 62. The Ministry of Environmental Protection 
(MEP) designates the exact number of the ``key'' polluting enterprises 
that it targets for monitoring. The number of ``key'' polluting 
enterprises varies every year. See, e.g., Ministry of Environmental 
Protection, Circular Regarding the National 2014 List of Key 
Enterprises [To Be] Monitored [Guanyu yinfa 2014 nian guojia zhongdian 
jiankong qiye mingdan de tongzhi], issued 26 December 13; Ministry of 
Environmental Protection, Circular Regarding the National 2013 List of 
Key Enterprises [To Be] Monitored [Guanyu yinfa 2013 nian guojia 
zhongdian jiankong qiye mingdan de tongzhi], issued 22 March 13; 
Ministry of Environmental Protection, Circular Regarding the ``National 
2012 List of Key Enterprises [To Be] Monitored'' [Guanyu yinfa ``2012 
nian guojia zhongdian jiankong qiye mingdan'' de tongzhi], issued 31 
December 11; Ministry of Environmental Protection, Circular Regarding 
the ``National 2011 List of Key Enterprises [To Be] Monitored'' [Guanyu 
yinfa ``2011 nian guojia zhongdian jiankong qiye mingdan'' de tongzhi], 
issued 25 March 11.
    \45\ Ministry of Environmental Protection, ``Announcement Regarding 
Ministry of Environmental Protection Delegation of Authority To Examine 
and Approve Environmental Impact Assessment Documents for Certain 
Construction Projects'' [Huanjing baohubu guanyu xiafang bufen jianshe 
xiangmu huanjing yingxiang pingjia wenjian shenpi quanxian de gonggao], 
15 November 13. This announcement states that the Ministry of 
Environmental Protection (MEP) will delegate authority to provincial 
governments to assess and approve environmental impact assessments 
(EIA) for certain projects. Ministry of Environmental Protection, 
``Government Information Disclosure Guide for Construction Project 
Environmental Impact Assessments (Provisional)'' [Jianshe xiangmu 
huanjing yingxiang pingjia zhengfu xinxi gongkai zhinan (shixing)], 
issued 14 November 13, sec. 4(1.6). This document guides authorities' 
disclosure of full EIA reports and other documents. Ministry of 
Environmental Protection, Circular Regarding Earnestly Strengthening 
Environmental Impact Assessment Supervision and Administration Work 
[Guanyu qieshi jiaqiang huanjing yingxiang pingjia jiandu guanli 
gongzuo de tongzhi], issued 15 November 13. This Circular seeks to 
strengthen the supervision and administration of EIAs.
    \46\ David Stanway, ``China Supreme Court Appoints Top 
Environmental Judge,'' Reuters, 30 June 14. See also ``Supreme People's 
Court Establishes Environment and Resources Tribunal in Response to New 
Expectations of the Judiciary, Mainly Trying Environmental Pollution 
and Natural Resources Civil Cases'' [Zuigao fa chengli huanzi 
shenpanting huiying cifa xin qidai zhu shen huanjing wuran ziran ziyuan 
min an], Legal Daily, 4 July 14.
    \47\ ``12th National People's Congress Standing Committee 
Legislative Plan'' [Shier jie quanguo renda changweihui lifa guihua], 
Xinhua, reprinted in National People's Congress, 31 October 13. This 
October report indicated that the State Council is reviewing draft 
revisions to the PRC Water Pollution Prevention and Control Law and the 
PRC Air Pollution Prevention and Control Law, and that the National 
People's Congress and the Natural Resources and Environmental 
Protection Committee are reviewing the PRC Soil Pollution Prevention 
and Control Law, among several other laws related to environmental 
protection.
    \48\ Zhang Ke, ``Environmental Protection Super Ministry System 
Reform Is Steadily Advancing, Will Implement Independent and Unified 
Supervision'' [Huanbao da buzhi gaige wenbu tuijin jiang shixing duli 
tongyi jianguan], First Financial Daily, reprinted in Sina, 11 February 
14; ``Foreign Media: China Considering Organizational Restructuring, 
Authority of the Ministry of Environmental Protection May Expand'' 
[Waimei: zhongguo yunniang jigou chong zu huanbaobu huo kuo quan], 
China Daily, reprinted in Haiwai Net, 12 February 14.
    \49\ ``Xinhua Insight: No Sure Cure for China's Soil Pollution,'' 
Xinhua, 29 April 14. The Xinhua article indicates authorities are 
drafting a soil pollution law. ``Ministry of Environmental Protection 
Deliberated and Passed Soil Pollution Prevention and Control Action 
Plan, Concept Stock Soars'' [Huanbaobu shenyi tongguo turang wuran 
fangzhi xingdong jihua gainian guwang tengfei], Securities Times, 19 
March 14; Qin Feifei, ``Ministry of Environmental Protection 
Deliberated and Passed `Soil Pollution Prevention and Control Action 
Plan' '' [Huanbaobu shenyi bing tongguo ``turang wuran fangzhi xingdong 
jihua''], Shanghai Securities News, reprinted in Xinhua, 20 March 14. 
According to the Securities Times, Xinhua, and Shanghai Securities News 
articles, in March, the Ministry of Environmental Protection (MEP) 
passed in principle a soil pollution action plan and has forwarded the 
plan to the State Council for review. MEP also established six related 
pilot projects. Angel Hsu and Andrew Moffat, ``China's Soil Pollution 
Crisis Still Buried in Mystery,'' Chinadialogue, 4 August 14. According 
to the Chinadialogue posting, authorities anticipate releasing the soil 
pollution plan by the end of the year.
    \50\ ``Billions in Environmental Taxes Flowing, Heavy and Highly 
Polluting Industries Take Major Pounding'' [Qian yi huanjing shui yuchu 
zhonggongye gao wuran gao paifang hangye shou chongji da], 
International Finance News, reprinted in Xinhua, 3 December 13; Zhao 
Jing and Yang Ye, ``Environmental Taxes Enter the `Fast Lane' '' 
[Huanjing shui kaizheng jinru ``kuai chedao''], Economic Information, 
10 October 13. The October report indicated that the proposal for an 
environmental tax sent up to the State Council was on the ``fast 
track.''
    \51\ Ministry of Environmental Protection, ``Chinese Citizens' 
Environmental and Health Literacy (Provisional)'' [Zhongguo gongmin 
huanjing yu jiankang suyang (shixing)], September 2013.
    \52\ Angel Hsu, ``Provinces in China Commit to Air Pollution 
Targets,'' Angel Hsu's blog, 12 February 14.
    \53\ Ministry of Environmental Protection, Guiding Opinion 
Regarding Advancing Public Participation in Environmental Protection 
[Guanyu tuijin huanjing baohu gongzhong canyu de zhidao yijian], 
reprinted in Environment and Ecology Net, issued 22 May 14; ``Promoting 
Public Participation in Environmental Protection Innovation in 
Environmental Governance Models--Analysis of `Guiding Opinion Regarding 
Advancing Public Participation in Environmental Protection' '' [Tuidong 
huanbao gongzhong canyu chuangxin huanjing zhili moshi--jiedu ``guanyu 
tuijin huanjing baohu gongzhong canyu de zhidao yijian''], China 
Environment News, 31 July 14.
    \54\ Yang Ye, ``Enterprise Environmental Violations Could Face 
Substantive Public Accountability'' [Huanjing weifa qiye huo mianling 
minzong shizhi wenze], Economic Information, 5 August 14. According to 
the Economic Information article, on August 4, authorities began 
drafting the Measures for Public Participation in Environmental 
Protection and at the earliest, may issue it at the end of the year.
    \55\ ``Xinhua Insight: China's Pollution Permit Market Must Be 
Revamped,'' Xinhua, 7 April 14. According to Xinhua, authorities are 
discussing problems with the current pollution permit trading pilot 
projects and the Ministry of Finance announced plans to set up a 
national permit trading system. David Stanway and Kathy Chen, ``China 
Mulls National Pollution Permit Trading System,'' Reuters, 10 January 
14. According to the Reuters article, authorities will issue proposals 
for new pollution permit trading projects.
    \56\ Coco Liu, ``China's Ambitious Cap-and-Trade Plan Rolls Down a 
Long, Bumpy Runway,'' Environment and Energy Publishing, ClimateWire, 
23 May 14. The article notes that before the end of the decade, Chinese 
authorities plan to open more pilot projects in cities and provinces. 
Kathy Chen and David Stanway, ``Update 2--China Completes Pilot Carbon 
Market Rollout, But Take Up Uncertain,'' Reuters, 19 June 14.
    \57\ Li Xueyu, ``National Unified Carbon Market 2016 Trial Run Some 
Provinces and Cities To Enter Market First'' [Quanguo tongyi tan shi 
2016 nian shi yunxing jubu sheng shi xian ruchang], 21st Century 
Business Herald, 2 September 14. This article indicates that 
authorities plan to launch trial operation of a national unified carbon 
market in 2016 with some provinces and cities participating first. 
``World's Biggest Carbon Trading Market? '' Public Radio International, 
Living on Earth, 5 September 14.
    \58\ Supreme People's Court and Supreme People's Procuratorate, 
``Supreme People's Court and Supreme People's Procuratorate 
Interpretation of Certain Issues Related to Laws Applicable in Criminal 
Cases of Environmental Pollution'' [Zuigao renmin fayuan, zuigao renmin 
jianchayuan guanyu banli huanjing wuran xingshi anjian shiyong falu 
ruogan wenti de jieshi], issued 17 June 13, effective 19 June 13.
    \59\ Wang Erde, ``Within Half a Year 247 Environmental Criminal 
Cases Filed'' [Bannian nei huanjing xing'an li'an 247 qi], 21st Century 
Business Herald, reprinted in China Environment Net, 4 December 13.
    \60\ Ibid.
    \61\ Ibid.
    \62\ Kathy Chen and Stian Reklev, ``China's Big Polluters Exceed 
Emission Limits--Report,'' Reuters, 16 January 14. For detailed 
information about the case studies examining real-time data on 
emissions from key enterprises, see Institute of Public and 
Environmental Affairs et al., ``Real-Time Disclosure Begins: Blue Sky 
Roadmap Report II'' [Qidong shishi gongkai: lantian luxiantu II], 14 
January 14, 35, 40-84. According to the Blue Sky report, researchers 
surveyed 2,506 of the 4,181 ``key'' enterprises listed for air 
emissions in 2013. See subsection China's Pollution Challenges and 
Health Concerns in the Blue Sky report for citations to the Ministry of 
Environmental Protection lists of key state-monitored enterprises from 
2011-2014.
    \63\ Ministry of Environmental Protection, ``Report on 2013 China 
Environmental Conditions'' [2013 Zhongguo huanjing zhuangkuang 
gongbao], 27 May 14, Preface.
    \64\ Elizabeth Economy, ``China Wakes Up to Its Environmental 
Catastrophe,'' Bloomberg Businessweek, 13 March 14; Li Jing, ``Ex-
Minister Blames China's Pollution Mess on Lack of Rule of Law,'' South 
China Morning Post, 21 January 13. According to Qu Geping, the former 
Minister of the National Environmental Protection Administration, the 
strategy of coordinating growth with conservation was not implemented 
``because there was no supervision of governments. It is because the 
power [sic] is still above the law.'' William Kazer and Kersten Zhang, 
``China's Environmental Protection Racket,'' Wall Street Journal, China 
Real Time Report (blog), 1 February 13; Hou Shasha, ``Last Year 4,843 
Government Officials at County Level or Above Were Investigated'' 
[Qunian 4843 ming xianchu ji yishang guanyuan bei chachu], Beijing 
Daily, 7 January 12.
    \65\ An Baijie, ``Thousands of Officials Punished,'' China Daily, 
11 January 14; Lu Boan, ``Guangxi He River Water Pollution Case 
Verdict, Former Environmental Monitoring Team Leader Sentenced to Six 
Years'' [Guangxi hejiang shui wuran shijian an yishen huanjing jiancha 
yuan zhiduizhang bei pan liu nian], Xinhua, 19 March 14. The Xinhua 
news report cited one example. In March 2014, authorities sentenced an 
environmental protection official to six years' imprisonment on a 
corruption charge, reportedly for accepting bribes to renew a pollution 
permit to a mining operation and ignoring the company's role in a water 
pollution incident. The official also accepted a second bribe after 
finding out the mine caused a water pollution incident along the He 
River in Guangxi Zhuang Autonomous Region.
    \66\ For previous examples, see, e.g., Rachel E. Stern, ``Poor 
Rural Residents in China Seen As Easy Target for Environmental 
Lawsuits,'' Chinadialogue, 24 April 13; Hu Zhonghua, ``The Limitations 
to China's Environmental Public Interest Litigation System'' [Woguo 
huanjing gongyi susong zhidu de xiandu], Journal of the Wuhan 
University of Technology (Social Science Edition), Vol. 24, No. 6, 
reprinted in China Environment and Resources Law Network, 26 November 
12.
    \67\ Feng Jun, ``Citizens Fight Haze'' [Minjian kang mai], Southern 
Metropolitan Daily, 10 March 14. Li's requests were that the EPB 
fulfill its duty to reduce air pollution, compensate him 10,000 yuan in 
economic damages, and pay the court costs associated with the lawsuit.
    \68\ Ming Hui, ``Resident of Shijiazhuang Sues Environmental 
Protection Bureau Over Air Pollution in First Case of Its Kind'' 
[Shijiazhuang shimin yin kongqi wuran zhuanggao huanbaoju wei quanguo 
shouli], China National Radio, 25 February 14; Feng Jun, ``Citizens 
Fight Haze'' [Minjian kang mai], Southern Metropolitan Daily, 10 March 
14.
    \69\ ``Hebei Resident Sues Gov't Over Heavy Air Pollution,'' China 
Internet Information Center, reprinted in All-China Women's Federation, 
25 February 14; Feng Jun, ``Citizens Fight Haze'' [Minjian kang mai], 
Southern Metropolitan Daily, 10 March 14.
    \70\ Feng Jun, ``Citizens Fight Haze'' [Minjian kang mai], Southern 
Metropolitan Daily, 10 March 14.
    \71\ Sui-Lee Wee, ``China Blames France's Veolia for Tap Water 
Pollution,'' Reuters, 16 April 14; Yin Yue and Gao Shengke, ``Lanzhou 
Benzene Crisis Highlights Water Safety Issues,'' Caijing, 23 April 14; 
Sui-Lee Wee, ``Chinese Court Dismisses Water Pollution Lawsuit,'' 
Reuters, 15 April 14; Sui-Lee Wee, ``Chairman of Lanzhou Veolia 
Apologizes After Water Pollution in China,'' Reuters, 23 April 14. The 
spill forced authorities to shut down the water supply for some 
residents and warn others not to drink the water.
    \72\ Sui-Lee Wee, ``Chinese Court Dismisses Water Pollution 
Lawsuit,'' Reuters, 15 April 14; ``Benzene Levels in Drinking Water 
Exceeded Limits for At Least Eight Days, Lanzhou Residents and Lawyer 
Sue Water Company'' [Yinyong ben chaobiao zilaishui zhishao ba tian 
lanzhou shimin, lushi qisu zilaishui gongsi], Radio Free Asia, 15 April 
14. For information on who is allowed to file public interest lawsuits, 
see PRC Civil Procedure Law, [Zhonghua renmin gongheguo minshi susong 
fa], passed 9 April 91, amended 28 October 07, 31 August 12, effective 
1 January 13, art. 55.
    \73\ Wang Shichuan, ``Water Pollution Incident, Public Interest 
Litigation Reason for Difficulties Moving Forward'' [Shui wuran 
shijian, gongyi susong weihe buluweijian], China Youth Daily, reprinted 
in Xi'an Evening News, 16 April 14; ``Benzene in Drinking Water 
Exceeded Limits for At Least Eight Days, Lanzhou Residents and Lawyer 
Sue Water Company'' [Yinyong ben chaobiao zilaishui zhishao ba tian 
lanzhou shimin, lushi qisu zilaishui gongsi], Radio Free Asia, 15 April 
14.
    \74\ Yuan Dingbo, ``Supreme People's Court Responds to Refusal To 
Accept and Try Lanzhou Water Pollution Lawsuit, The Decision To Accept 
an Individual Lawsuit Rests With the Court Where a Plaintiff Files the 
Case'' [Zuigao fa huiying lanzhou shui wuran shijian qisu wei shouli 
gean shouli you yuangao qisu fayuan ding], Legal Daily, 4 July 14.
    \75\ Luna Lin, ``China's Water Pollution Will Be More Difficult To 
Fix Than Its Dirty Air,'' Chinadialogue (blog), 17 February 14; ``China 
Outsourcing Smog to West Region Stirs Protest,'' Bloomberg, 6 March 14; 
``Chinese Anger Over Pollution Becomes Main Cause of Social Unrest,'' 
Bloomberg, 6 March 13. For a discussion of mass incidents in general, 
including environmental incidents, see Chen Rui, ``2012 Mass Incident 
Research Report'' [2012 nian quntixing shijian yanjiu baogao], Legal 
Daily, 27 December 12, sec. 3. The information presented in Legal Daily 
is a summary of a longer report. The Legal Daily does not provide 
information about the methodology and other important information in 
the longer report. Environmental incidents reportedly comprised a 
relatively small percentage of the incidents examined (8.9 percent). 
See also ``Reported PRC Civil Disturbances in 2012,'' Open Source 
Center, 7 May 13, 12-13.
    \76\ ``China Focus: Hangzhou Protest Tests China's Governing 
Capacity,'' Xinhua, 14 May 14.
    \77\ ``China Arrests 53 for Environmental Protest Turned Violent,'' 
Voice of America, 12 May 14; Rights Defense Network, ``The Yuhang 
District, Hangzhou Protest Incident Against the Building of `Trash 
Incinerator': Officials Say 53 People Have Been Criminally Detained; 
People Say Over 100 Have Been Detained'' [Hangzhou yuhang qu kangyi 
jian ``laji fenshao dianzhan'' shijian guanfang cheng 53 ren bei 
xingju, minjian cheng 100 duo ren bei zhuabu], 12 May 14; ``Violent 
Protest Against Hangzhou Trash Incinerator Project Forces Its 
Postponement'' [Hangzhou laji fenshao chang xiangmu zao baoli kangyi 
beipo tuichi], BBC, 11 May 14.
    \78\ Jennifer Duggan, ``China Petrochemical Plant May Be Halted 
After Protests,'' Guardian, 1 April 14. The number of protesters on the 
first day was estimated to have been more than 1,000. ``China: Anti-PX 
Protests Raise Social Tension, Impede PX Production,'' Open Source 
Center, 16 April 14. This report cited sources indicating there may 
have been as many as 10,000 people at one point during the protests.
    \79\ Ibid.; ``Ten Thousand Protest Construction of PX Plant in 
Maoming, Suppression Leads to Bloody Clash, Authorities' Announcement 
Refuted'' [Maoming wanren kangyi jian PX xiangmu zao zhenya niang 
liuxue chongtu dangju tonggao bei fanbo], Radio Free Asia, 31 March 14.
    \80\ Human Rights Watch, ``China: Investigate Police Violence at 
Eco-Protests,'' 1 April 14; ``Police Detain 18 Over China Chemical 
Plant Protest,'' Associated Press, reprinted in Washington Post, 3 
April 14. According to the Associated Press article, the Maoming deputy 
police chief stated that the police may have unintentionally harmed 
bystanders.
    \81\ ``Maoming Government Holds Closed-Door Press Conference As 
Thousands Protest in Front of City Government [Building], Authorities 
Say 15 Injured and 44 Criminal Suspects Are Being Investigated'' 
[Maoming bimen kai xinwenhui wan ren shi fu qian kangyi dangju cheng 15 
ren shoushang chachu xianfan 44 ren], Radio Free Asia, 3 April 14.
    \82\ ``Chinese Police Fire Tear Gas in Clashes Over PX Plant,'' 
Radio Free Asia, 31 March 14.
    \83\ Patrick Boehler, ``Violence, Arrests in Guangdong City of 
Maoming As Locals Rally Against Petrochemical Plant,'' South China 
Morning Post, 31 March 14; Human Rights Watch, ``China: Investigate 
Police Violence at Eco-Protests,'' 1 April 14; ``China's Censors Block 
Details on Environmental Protest,'' Voice of America, 4 April 14; 
Demetri Sevastopulo and Lucy Hornby, ``Chinese Environmental Protest 
Broken Up,'' Financial Times, 31 March 14.
    \84\ ``Maoming Government Holds Closed-Door Press Conference as 
Thousands Protest in Front of City Government [Building], Authorities 
Say 15 Injured and 44 Criminal Suspects Are Being Investigated'' 
[Maoming bimen kai xinwenhui wanren shi zheng qian kangyi dang ju cheng 
15 ren shoushang chachu xianfan 44 ren], Radio Free Asia, 03 April 14.
    \85\ Jennifer Duggan, ``China Petrochemical Plant May Be Halted 
After Protests,'' Guardian, 1 April 14.
    \86\ ``China's Censors Block Details on Environmental Protest,'' 
Voice of America, 4 April 14.
    \87\ ``China: Maoming Police Violently Suppress Anti-PX Protests,'' 
Open Source Center, 2 April 14; ``Minister of Education Does Not Deny 
Forcing Students To Support PX Project for Their Own Safety'' [Wu foren 
bi xuesheng cheng PX jiaoyu juzhang: weihu anquan], Ming Pao, 4 April 
14; Demetri Sevastopulo and Lucy Hornby, ``Chinese Environmental 
Protest Broken Up,'' Financial Times, 31 March 14; ``Prohibited From 
Leaving Campus, Forced To Sign Pledge of Support for Chemical Project, 
The Maoming Demonstrations Incite Students To Boycott Class'' [Buzhun 
lixiao bi qian zhichi huagong chengnuoshu maoming shiwei yinbao 
xuesheng bake], Apple Daily, 3 April 14.
    \88\ Institute of Public and Environmental Affairs (IPE) et al., 
``Real-Time Disclosure Begins: Blue Sky Roadmap Report II'' [Qidong 
shishi gongkai: lantian luxiantu II], 14 January 14, 1. For additional 
information about specific components of emergency notification plans 
and the locations that have established them, see pages 17-21 of the 
IPE report.
    \89\ Ibid., 5.
    \90\ Ministry of Environmental Protection, Measures for Supervision 
Monitoring and Information Disclosure By Key State-Monitored 
Enterprises (Provisional) [Guojia zhongdian jiankong qiye wuranyuan 
jianduxing jiance ji xinxi gongkai banfa (shixing)], issued 30 July 13, 
effective 1 January 14, arts. 2, 4-9. ``Transparency in the Haze,'' 
Economist, 8 February 14. For more information about the classification 
of key enterprises, see Institute of Public and Environmental Affairs 
et al., ``Real-Time Disclosure Begins: Blue Sky Roadmap Report II'' 
[Qidong shishi gongkai: lantian luxiantu II], 14 January 14, 34-35.
    \91\ Ministry of Environmental Protection, Measures for Supervision 
Monitoring and Information Disclosure By Key State-Monitored 
Enterprises (Provisional) [Guojia zhongdian jiankong qiye wuranyuan 
jianduxing jiance ji xinxi gongkai banfa (shixing)], issued 30 July 13, 
effective 1 January 14, art. 20.
    \92\ Institute of Public and Environmental Affairs et al., ``Real-
Time Disclosure Begins: Blue Sky Roadmap Report II'' [Qidong shishi 
gongkai: lantian luxiantu II], 14 January 14, 40-43.
    \93\ Ministry of Environmental Protection and Ministry of Land and 
Resources, ``Report on National Soil Pollution Conditions Survey'' 
[Quanguo turang wuran zhuangkuang diaocha gongbao], 17 April 14. For 
information on the total percentage of land contaminated, see page 1 of 
the report and page 3 for the percentage of arable land contaminated.
    \94\ Authorities refused to release the data in response to a 
citizen's open government information request. For information on the 
request and the government's response, see Li Yanjie and Xu Hao, 
``Lawyer Applies for Information on China's National Survey of Soil 
Pollution'' [Lushi shenqing gongkai quanguo turang wuran qingkuang 
diaocha xinxi], China Business Review, reprinted in China Transparency, 
3 February 13; Tania Branigan, ``Chinese Pollution Study `Blocked on 
Grounds of State Secrecy,' '' Guardian, 26 February 13; ``Ministry of 
Environmental Protection Indicates Methodology of Soil Pollution Survey 
Factor in Not Disclosing Data on Prevention and Control Measures'' 
[Huanbaobu gaozhi turang wuran diaocha fangfa chengyin fangzhi cuoshi 
shuju bu gongkai], Sina Blog (Dong Zhengwei's blog), 25 February 13; 
``Information Disclosure Request to Ministry of Environmental 
Protection for National Survey Data of Soil Pollution Conditions and 
Prevention and Control Methods'' [Shenqing huanbaobu xinxi gongkai 
quanguo turang wuran zhuangkuang diaocha shuju he fangzhi fangfa], Sina 
Blog (Dong Zhengwei's blog), 2 February 13; ``Administrative 
Reconsideration Requests Ministry of Environmental Protection To 
Disclose Information on Soil Pollution Survey Data'' [Xingzheng fuyi 
qingqiu huanbaobu gongkai turang wuran diaocha shuju xinxi], Sina Blog 
(Dong Zhengwei's blog), 27 February 13. For background information on 
soil contamination as a state secret, see CECC, 2013 Annual Report, 10 
October 13, 129.
    \95\ Angel Hsu and William Miao, ``Soil Pollution in China Still a 
State Secret Despite Recent Survey,'' Scientific American (blog), 18 
June 14. This source notes that the survey was narrow in scope and that 
officials disclosed only limited and general data from the survey. 
Officials did not disclose to the public any of the raw data collected, 
including full information on the sampling sites and the levels of 
contamination at those sites.
    \96\ Dan Levin, ``In Beijing, Complaints About Smog Grow Louder and 
Retaliation Grows Swifter,'' New York Times, Sinosphere (blog), 25 
February 14.
    \97\ `` `Beijing Is Unfit for Human Habitation' `Government Don't 
Feign Blindness' First Circulated, Then Deleted'' [``Beijing bu yiju'' 
``zhengfu bie zhuangxia'' zaoyu xian zhuan hou shan], Deutsche Welle, 
18 February 14; Edward Wong, ``China To Reward Cities and Regions 
Making Progress on Air Pollution,'' New York Times, 13 February 14..
    \98\ ``News Analysis: China To Accelerate Nuclear Power 
Development,'' Xinhua, 16 June 14.
    \99\ Tara Patel and Benjamin Haas, ``Nuclear Regulators 
`Overwhelmed' as China Races To Launch World's Most Powerful Reactor,'' 
Bloomberg, 19 June 14.
    \100\ ``Four Lawyers Have Not Received Responses to the Information 
Requests They Sent to 31 Provinces About Pollution Control Fees'' [Si 
lushi xiang 31 sheng shenqing zhiwufei xinxi gongkai wei de huifu], 
Securities Times Net, reprinted in Sina, 13 December 13. Four lawyers 
did not receive any responses to their information requests regarding 
pollution emission fees sent to 31 provincial-level environmental 
agencies.
    \101\ Kong Lingyu, ``NGO Sues Hangzhou EPB for Not Making 
Information Public, Loses Again'' [NGO su hangzhou huanbaoju xinxi bu 
gongkai zai bai], Caixin, 17 June 14.
    \102\ David Hill, ``What Good Are China's Green Policies If Its 
Banks Don't Listen? '' Guardian, 16 May 14.
    \103\ Ibid.
    Notes to Section III--Civil Society

    \1\ Teng Biao, ``Beyond Stability Maintenance--From Surveillance to 
Elimination,'' China Change, 22 June 14; Chinese Human Rights 
Defenders, ``A Nightmarish Year Under Xi Jinping's `Chinese Dream': 
2013 Annual Report on the Situation of Human Rights Defenders in 
China,'' March 2014, 1-3, 7.
    \2\ Chinese Human Rights Defenders, ``A Nightmarish Year Under Xi 
Jinping's `Chinese Dream': 2013 Annual Report on the Situation of Human 
Rights Defenders in China,'' March 2014; Stanley Lubman, ``Anxiety 
Trumps Law in Party's Crackdown on Activists,'' Wall Street Journal, 
China Real Time Report (blog), 4 February 14.
    \3\ Chinese Human Rights Defenders, ``China Must Stop Excluding 
Civil Society From UN Human Rights Review,'' 7 October 13; Chinese 
Human Rights Defenders, ``[CHRB] Activist Given 3 Years for Inciting 
Subversion, Tibetans Tortured to Death (2/7-13/2014),'' 13 February 14; 
``China: At the Same Time It's Undergoing Human Rights Review, It's 
Arresting Human Rights Defenders'' [Zhongguo: yibian jieshou renquan 
shenyi yibian daibu renquan renshi], Deutsche Welle, 22 October 13.
    \4\ ``Detentions of Chinese Activists Tripled Last Year: Report,'' 
Voice of America, 3 March 14; Michael Forsythe and Chris Buckley, 
``Journalist Missing Ahead of Tiananmen Anniversary,'' New York Times, 
29 April 14; Jonathan Kaiman, ``China Cracks Down on Dissent Ahead of 
Tiananmen Anniversary,'' Guardian, 13 May 14; Chinese Human Rights 
Defenders, ``152 Individuals Affected by Government Crackdown Around 
25th Anniversary of Tiananmen Massacre,'' last visited 30 July 14.
    \5\ Teng Biao, ``China's Growing Human Rights Movement Can Claim 
Many Accomplishments,'' Washington Post, 18 April 14; Patrick Boehler, 
``Chinese Court Hands Down Harsh Jail Sentences to New Citizen Movement 
Activists,'' South China Morning Post, 19 June 14; Xiao Shu, ``Why the 
World Needs To Roar Around the New Citizens Movement Trials,'' 
reprinted in China Change, 22 December 13.
    \6\ Tom Phillips, ``Chinese Activists Face Jail as Crackdown 
Continues,'' Telegraph, 7 April 14; Michael Caster, ``The Contentious 
Politics of China's New Citizens Movement,'' openDemocracy, 6 June 14.
    \7\ Xu Zhiyong, ``For Freedom, Justice and Love--My Closing 
Statement to the Court,'' reprinted in China Change, 22 January 14; 
Teng Biao, ``China's Growing Human Rights Movement Can Claim Many 
Accomplishments,'' Washington Post, 18 April 14; Elizabeth M. Lynch, 
``Wagging the Dog? The Chinese Government Response to the New Citizen 
Movement,'' Interview With Eva Pils (Part 2), China Law & Policy 
(blog), 12 May 14.
    \8\ Andrew Jacobs and Chris Buckley, ``China Sentences Xu Zhiyong, 
Legal Activist, to Four Years in Prison,'' New York Times, 26 January 
14. See also ``Xu Zhiyong Tried for Advocacy of Education Equality and 
Official Transparency,'' CECC China Human Rights and Rule of Law 
Update, No. 1, 5 March 14; ``Officials Detain Xu Zhiyong Amidst a 
Crackdown on Individuals Calling for Greater Government 
Accountability,'' Congressional-Executive Commission on China, 1 August 
13. For more information on Xu Zhiyong, see the Commission's Political 
Prisoner Database record 2005-00199.
    \9\ Patrick Boehler, ``Chinese Court Hands Down Harsh Jail 
Sentences to New Citizen Movement Activists,'' South China Morning 
Post, 19 June 14. For more information about Liu Ping's case, see the 
Commission's Political Prisoner Database record 2013-00161.
    \10\ Ibid. For more information about Wei Zhongping's case, see the 
Commission's Political Prisoner Database record 2013-00310.
    \11\ Didi Kirsten Tatlow, ``Chinese Court Sentences 4 Activists to 
Jail,'' New York Times, Sinosphere (blog), 18 April 14. For more 
information about Ding Jiaxi's case, see the Commission's Political 
Prisoner Database record 2013-00307.
    \12\ ``Xuzhou New Citizen Zhang Kun Criminally Detained, Two 
Lawyers Request To See Him But Encounter Difficulties'' [Xuzhou xin 
gongmin zhang kun bei xingju liang lushi yaoqiu huijian zao diaonan], 
Radio Free Asia, 16 June 14; Josh Chin, ``Tiananmen Crackdown Shaped 
China's Iron-Fisted Approach to Dissent,'' Wall Street Journal, 2 June 
14; Josh Chin, ``Chinese Activists Challenge Beijing by Going to 
Dinner,'' Wall Street Journal, 6 November 13. For more information on 
Zhang Kun, see the Commission's Political Prisoner Database record 
2014-00110.
    \13\ Rights Defense Network, ``Trial for `Norwegian Wood' Li 
Huaping `Gathering Disturbance' Begins Today, More Than 30 Citizens 
Denied Attendance'' [``Nuowei senlin'' li huaping ``ju rao'' an jin 
kaiting, 30 yu gongmin qianwang pangting bei ju], 30 July 14; Xiao Shu, 
``Why the World Needs To Roar Around the New Citizens' Movement 
Trial,'' reprinted in China Change, 22 December 13. For more 
information on Li Huaping, see the Commission's Political Prisoner 
Database record 2014-00085.
    \14\ David Wertime, ``A Billionaire Activist's Brief Public Re-
Emergence,'' Tea Leaf Nation, 30 January 14; Josh Chin, ``Story of Wang 
Gongquan Raises Fears for Some Social Activists in China,'' Wall Street 
Journal, 23 January 14. For more information on Wang Gongquan, see the 
Commission's Political Prisoner Database record 2013-00302.
    \15\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, arts. 19, 21, 22. China has signed, 
and stated its intent to ratify the ICCPR.
    \16\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, arts. 
19, 20.
    \17\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 35.
    \18\ Understanding China's Crackdown on Rights Advocates: Personal 
Accounts and Perspectives, Hearing of the Congressional-Executive 
Commission on China, 8 April 14, Written Statement Submitted by Teng 
Biao, Human Rights Lawyer and Scholar.
    \19\ Teng Biao, ``China's Growing Human Rights Movement Can Claim 
Many Accomplishments,'' Washington Post, 18 April 14; Verna Yu, ``A 
Blow for Freedom: The Campaign in Memory of Sun Zhigang, 10 Years On,'' 
South China Morning Post, 14 May 13.
    \20\ Amnesty International, ``China: Abolition of `Custody and 
Repatriation' Welcomed, But More Needs To Be Done,'' 27 June 03; Keith 
J. Hand, ``Using Law for a Righteous Purpose: The Sun Zhigang Incident 
and Evolving Forms of Citizen Action in the People's Republic of 
China,'' Columbia Journal of Transnational Law, Vol. 45, No. 1, 2006, 
120-21.
    \21\ Zhu Zhe and Cui Xiaohuo, ``Legal Help Group Told To Pack Up,'' 
China Daily, 18 July 09. According to China Daily, Beijing municipal 
authorities closed the Open Constitution Initiative (Gongmeng) for 
improper registration. See also Andrew Jacobs, ``Arrest in China 
Rattles Backers of Legal Rights,'' New York Times, 9 August 09; CECC, 
2009 Annual Report, 10 October 09, 204.
    \22\ Teng Biao, ``China's Growing Human Rights Movement Can Claim 
Many Accomplishments,'' Washington Post, 18 April 14; Xu Zhiyong, 
``China's New Citizens' Movement'' [Zhongguo xin gongmin yundong], Xu 
Zhiyong Collected Works (blog), 29 May 12; Chinese Human Rights 
Defenders, ``A Nightmarish Year Under Xi Jinping's `Chinese Dream': 
2013 Annual Report on the Situation of Human Rights Defenders in 
China,'' March 2014, 5.
    \23\ Xu Zhiyong, ``For Freedom, Justice and Love--My Closing 
Statement to the Court,'' translated and reprinted in China Change, 22 
January 14.
    \24\ Human Rights in China, ``New Citizens Movement Briefing 
Note,'' May 2014.
    \25\ ``Xiao Guozhen: China's `Same-City Dinner Gatherings' Movement 
Is Still Flourishing'' [Xiao guozhen: zhongguo ``tongcheng fanzui'' 
yundong fanxing wei ai], Radio Free Asia, 3 September 13; Josh Chin, 
``Chinese Activists Challenge Beijing by Going to Dinner,'' Wall Street 
Journal, 6 November 13.
    \26\ New Citizens' Movement, ``Standing Firm and Working 
Tirelessly: A Preface for the Launch of the New Citizens' Movement Web 
Site'' [Women yiding hui jianren, women yiding hui nuli--xin gongmin 
yundong wangzhan fakanci], 10 April 14.
    \27\ Human Rights in China, ``New Citizens Movement Briefing 
Note,'' May 2014. The education rights petition commenced in late 2009, 
technically a period prior to the start of the New Citizens' Movement. 
Human Rights in China, however, noted NCM participants launched and 
were actively involved in this advocacy initiative.
    \28\ During this reporting year, Chinese media reported the closure 
and banning of several organizations, as well as reports of fines and 
warnings, reflecting tightened regulatory oversight. See, e.g., Zhu 
Xinyu and Wei Lili, `` `Chinese Montessori Society' Banned'' 
[``Zhongguo mengtaisuoli xiehui'' bei qudi], Bandao Metropolitan News, 
26 October 13; Sun Zhiwen, ``Qingdao Initiates Special Inspection of 
Social Organizations, Bans a Specific Illegal Social Organization'' 
[Qingdao jinxing shehui zuzhi zhuanxiang jiancha qudi gebie feifa 
shehuizuzhi], Qilu Network, 27 October 13; Li Qiang, ``Fraudulent NGOs 
Will Be Blacklisted'' [Bu chengxin shehui zuzhi jiang ru heimingdan], 
Southern Daily, 2 October 13; Lai Yuchen, ``60 Social Organizations in 
Guangzhou Fined for Fraudulent Registration and Other Reasons'' 
[Guangzhou 60 jia shehui zuzhi yin pianqu dengji deng yuanyin shoufa], 
Xinhua, 9 January 14.
    \29\ ``Kang Xiaoguang: The Cycles of `Bureaucratization' and `De-
Bureaucratization' of the Public Interest Sector'' [Kang xiaoguang: 
gongyi lingyu zhong de ``xingzhenghua'' yu ``qu xingzhenghua'' 
shuangzhong bianzou], China Foundation for Poverty Alleviation, 
reprinted in China Development Brief, 30 April 14.
    \30\ Chinese Human Rights Defenders, ``A Nightmarish Year Under Xi 
Jinping's `Chinese Dream': 2013 Annual Report on the Situation of Human 
Rights Defenders in China,'' March 2014, 7.
    \31\ ``Are Homosexuals Against the Spirit of Civilization? Hunan 
Provincial Bureau of Civil Affairs Sued in Court'' [Tongxinglian you 
bei jingshen wenming? hunan sheng minzhengting beigao shang fating], 
Radio Free Asia, 19 February 14.
    \32\ Civil Rights and Livelihood Watch, ``Many NGO Members in 
Beijing To Convene a Legal Research Seminar Receive Police Summons'' 
[Duoming NGO chengyuan zai jing zhaokai falu yantaohui bei jingfang 
chuanhuan], 7 May 14; Didi Kirsten Tatlow, ``Civil Society Activists 
Detained as Anniversary Looms,'' New York Times, Sinosphere (blog), 7 
May 14.
    \33\ Didi Kirsten Tatlow, ``Civil Society Activists Detained as 
Anniversary Looms,'' New York Times, Sinosphere (blog), 7 May 14.
    \34\ Didi Kirsten Tatlow, ``Lawyer Charged After Trying To Defend 
June 4 Commemorators,'' New York Times, Sinosphere (blog), 7 July 14.
    \35\ ``Chang Boyang's Criminal Detention Allegedly Involves 
Receiving Foreign Funds: 60 People Continue To Support `Ten Gentlemen' 
Outside Zhengzhou Detention Center'' [Chang boyang xingju bei zhi 
jieshou jingwai zijin liushi ren zhengzhou kanshousuo wai xucheng ``shi 
junzi''], Radio Free Asia, 28 July 14; ``Office of Zhengzhou NGO 
Yirenping Once Against Searched, Police Investigating Relations With 
Foreign Organizations'' [Zhengzhou NGO yirenping bangongshi zai bei 
soucha jingfang diaocha yu jingwai zuzhi guanxi], Radio Free Asia, 14 
July 14.
    \36\ See Fu Hualing, ``Embedded Socio-Legal Activism in China: The 
Case of Yirenping,'' reprinted in Social Science Research Network, last 
visited 11 August 14.
    \37\ Anti-Domestic Violence Network (Beijing Fan Bao), ``Anti-
Domestic Violence Network's Open Letter'' [Fandui jiating baoli wangluo 
gongkai xin], 18 April 14; Felicia Sonmez, ``China Domestic Abuse 
Victims Voiceless as Network Disbands,'' Agence France-Presse, 
reprinted in Sinchew, 22 July 14; ``The Anti-Domestic Violence Network: 
An Interview With Co-Founder Feng Yuan,'' China Philanthropy, Social 
Venture Group (blog), 1 March 12.
    \38\ Lin Meilian, ``Domestic Violence Law Too Weak To Protect 
Women: Advocates,'' Global Times, 28 June 10.
    \39\ Anti-Domestic Violence Network (Beijing Fan Bao), ``Anti-
Domestic Violence Network's Open Letter'' [Fandui jiating baoli wangluo 
gongkai xin], 18 April 14.
    \40\ Li Hui and Ben Blanchard, ``China Quietly Launches Probe of 
Foreign Non-Govt Outfits--Media,'' Reuters, 20 June 14; Didi Kirsten 
Tatlow, ``New Signs That China Is Scrutinizing Foreign NGOs,'' New York 
Times, Sinosphere (blog), 27 June 14.
    \41\ Huang Jingjing, ``Foreign-Funded NGOs Probed Amid Trojan Horse 
Worries,'' Global Times, 23 July 14; Erin Hale, ``What Is Beijing Up 
To? Summer of Increased Harassment, Surveillance Leaves Chinese NGOs on 
Edge,'' South China Morning Post, 19 August 14.
    \42\ Wang Hairong, ``Springtime for NGOs,'' Beijing Review, 8 April 
13. Yu Keping, a scholar from a government think tank, has estimated 
approximately 3 million ``unrecognized'' groups. Another group of 
scholars has estimated up to 10 million NGOs. See Chao Guo et al., 
``Civil Society, Chinese Style: The Rise of the Nonprofit Sector in 
Post-Mao China,'' Nonprofit Quarterly, 25 October 12.
    \43\ Isabel Hilton and Meng Si, ``Funding Green China,'' 
Chinadialogue, 19 May 13, 29.
    \44\ See Fengshi Wu and Kin-man Chan, ``Graduated Control and 
Beyond: The Evolving Government-NGO Relations,'' in China Perspectives, 
No. 3, 2012, 10. The term ``social organization'' is a broad category 
in Chinese official parlance, according to Chinese University of Hong 
Kong scholars Fengshi Wu and Kin-man Chan, in that it includes 
organizations that also function as quasi- or semi-state-run 
organizations. See Yu Keping, ``China's Civil Society: Concepts, 
Classifications, and Institutional Environment'' [Zhongguo gongmin 
shehui: gainian, fenlei yu zhidu huanjing], Social Sciences in China, 
Issue No. 1, 2006. China's ``people's organizations'' (renmin tuanti) 
or ``mass organizations'' (qunzhong tuanti), such as the All-China 
Women's Federation, the All-China Federation of Trade Unions, and the 
Communist Youth League, are also commonly referred to as ``social 
organizations,'' and sometimes describe themselves as non-governmental 
even though they function as quasi-governmental entities under 
government and Party leadership.
    \45\ Isabel Hilton and Meng Si, ``Funding Green China,'' 
Chinadialogue, 19 May 13, 27.
    \46\ Deng Guosheng and Zhao Xiaoping, ``GONGOs in the Development 
of Health Philanthropy in China,'' in Philanthropy for Health in China, 
eds. Jennifer Ryan et al. (Bloomington: Indiana University Press, 
2014), 198-99, 209.
    \47\ Zhang Mulan, `` `Charity Blue Book' Issued, Four Major Data 
Raise Concern'' [``Cishan lanpishu'' fabu si da shuju yin guanzhu], 
China Philanthropy Times, 20 May 14.
    \48\ State Council Research Office, ``Second Session of the 12th 
National People's Congress `Government Work Report' Study Questions & 
Answers'' [Shier jie quanguo renda erci huiyi ``zhengfu gongzuo 
baogao'' xuexi wenda], 17 March 14, sec. 19(2).
    \49\ Ibid.
    \50\ See, e.g., CECC, 2013 Annual Report, 10 October 13, 133-34; 
CECC, 2012 Annual Report, 10 October 12, 122-23.
    \51\ Anthony J. Spires, Lin Tao, and Kin-man Chan, ``Societal 
Support for China's Grass-Roots NGOs: Evidence From Yunnan, Guangdong 
and Beijing,'' China Journal, No. 71, January 2014, 76-77.
    \52\ Ibid.
    \53\ Deng Guosheng and Zhao Xiaoping, ``GONGOs in the Development 
of Health Philanthropy in China,'' in Philanthropy for Health in China, 
eds. Jennifer Ryan et al. (Bloomington: Indiana University Press, 
2014), 198-99, 209.
    \54\ Justice for All, Little Fish Labor Services, and Promise of 
Love, ``Information Submitted by Three Chinese NGOs, Justice for All, 
Little Fish Labor Services and Promise of Love to the Pre-Sessional 
Working Group of the Committee on Economic, Social and Cultural Rights 
on the Occasion of the Consideration of List of Issues Related to the 
Second Periodic Report of the People's Republic of China during the 
Committee's 51st Session,'' March 2014, para. 3.
    \55\ UN GAOR, Hum. Rts. Coun., 25th Sess., Agenda Item 6, Universal 
Periodic Review, Report of the Working Group on the Universal Periodic 
Review--China, A/HRC/25/5, 4 December 13, paras. 95 (Ireland), 186.35 
(Mexico); UN GAOR, Hum. Rts. Coun., 25th Sess., Agenda Item 1, Report 
of the Human Rights Council on its 25th Session, A/HRC/25/2, 17 July 
14, paras. 818 (Germany), 821 (Ireland).
    \56\ UN Committee on the Rights of the Child, Concluding 
Observations on the Combined Third and Fourth Periodic Reports of 
China, adopted by the Committee at its sixty-fourth session (16 
September-4 October 2013), 29 October 13, sec. III(8).
    \57\ Chinese Human Rights Defenders, `` `Flowers of the Country': 
Mistreated and Abused--A Report of the Rights of the Child in China,'' 
August 2013, 2; Justice for All, Little Fish Labor Services, and 
Promise of Love, ``Information Submitted by Three Chinese NGOs, Justice 
for All, Little Fish Labor Services and Promise of Love to the Pre-
Sessional Working Group of the Committee on Economic, Social and 
Cultural Rights on the Occasion of the Consideration of List of Issues 
Related to the Second Periodic Report of the People's Republic of China 
during the Committee's 51st Session,'' March 2014, para. 3; Human 
Rights in China, ``Suggested Questions and Issues To Be Raised With the 
Government of the People's Republic of China in Advance of the Review 
of Its Second Report on the Implementation of the International 
Covenant on Economic, Social and Cultural Rights,'' April 2013, paras. 
22-25. See also Lawyers for Lawyers (L4L) and Lawyers' Rights Watch 
Canada (LRWC), ``Joint UPR Submission: People's Republic of China,'' 4 
March 13, paras. 14-15. L4L and LRWC asserted in March 2013 that the 
All China Lawyers Association--listed in China's roster of NGOs 
consulted during the formulation of its report for its second Universal 
Periodic Review--``cannot be seen as a proper independent 
organisation.''
    \58\ UN GAOR, Hum. Rts. Coun., 17th Sess., National Report 
Submitted in Accordance with Paragraph 5 of the Annex to Human Rights 
Council Resolution 16/21--China, A/HRC/WG.6/17/CHN/1, 5 August 13, 
annex 2; UN Committee on Economic, Social and Cultural Rights, 
Implementation of the International Covenant on Economic, Social and 
Cultural Rights, Second Periodic Reports Submitted by States Parties 
Under Articles 16 and 17 of the Covenant--China, 
E/C.12/CHN/2, 6 July 12, annex 1. According to the country report China 
submitted to the Committee to review its compliance with the Convention 
on the Elimination of All Forms of Discrimination against Women 
(CEDAW), the Chinese government ``convened a conference in July 2011,'' 
to which it invited 11 ``civil society'' organizations. See UN 
Committee on the Elimination of Discrimination against Women, 
Consideration of Reports Submitted by States Parties Under Article 18 
of the Convention on the Elimination of All Forms of Discrimination 
against Women, Combined Seventh and Eighth Periodic Report of States 
Parties--China, CEDAW/C/CHN/7-8, 17 January 13, Introduction, para. 4.
    \59\ Human Rights in China, ``Suggested Questions and Issues To Be 
Raised With the Government of the People's Republic of China in Advance 
of the Review of Its Second Report on the Implementation of the 
International Covenant on Economic, Social and Cultural Rights,'' April 
2013, 10-11, para. 23.
    \60\ Didi Kirsten Tatlow, ``U.N. Investigates `Intimidation' of 
Activist at Human Rights Council,'' New York Times, Sinosphere (blog), 
21 March 14; Didi Kirsten Tatlow, ``Fissures in China's Ethnic 
Policy,'' New York Times, Sinosphere (blog), 26 March 14.
    \61\ Ibid.
    \62\ Human Rights in China, ``China Deploys Procedural Challenges 
To Control Civil Society Voices at Human Rights Council Session,'' 22 
March 14; International Federation for Human Rights, ``Mounting Attacks 
Against NGOs: The Human Rights Council Should Take a Firm Stand To 
Protect Their Right To Speak,'' 28 March 14; Hans Thoolen, ``China in 
the UN Human Rights Council Manages To Silence Cao Shunli As Well As 
NGOs,'' Hans Thoolen on Human Rights Defenders (blog), 20 March 14.
    \63\ Human Rights in China, ``China Deploys Procedural Challenges 
To Control Civil Society Voices at Human Rights Council Session,'' 22 
March 14. For Commission analysis, see ``Inadequate Medical Care for 
Cao Shunli Before Her Death Contradicts International Law,'' 
Congressional-Executive Commission on China, 2 April 14.
    \64\ Economic and Social Council Committee on NGOs, Department of 
Public Information, ``Committee Grants Special Consultative Status to 
15 Non-Governmental Organizations, While Deferring Action on 
Applications of 38 Others,'' 23 May 14; ``Veronica Yates: The Child 
Rights International Network,'' reprinted in International Service for 
Human Rights, 26 June 14.
    \65\ Economic and Social Council Committee on NGOs, Department of 
Public Information, ``Committee on Non-Governmental Organizations, 
Concluding Review of Applications, Recommends Two Groups for 
Consultative Status,'' 28 May 14.
    \66\ ``Policy Brief No. 14 (January 2014): The Third Plenum Brings 
a Chilly Spring for China's Civil Society,'' China Development Brief, 7 
February 14.
    \67\ Chinese Communist Party Central Committee, ``Decision on 
Certain Major Issues Regarding Comprehensively Deepening Reforms'' 
[Zhonggong zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti 
de jueding], reprinted in Xinhua, 15 November 13, sec. 13(48); State 
Council General Office, Guiding Opinion on Government Procurement of 
Services From Social Forces [Guowuyuan bangongting guanyu zhengfu xiang 
shehui liliang goumai fuwu de zhidao yijian], reprinted in PRC Central 
People's Government, issued 26 September 13.
    \68\ Wang Jianjun, ``Promoting Social Organization Reform 
Development Will Require Solving 10 Major Problems'' [Tuijin shehui 
zuzhi gaige fazhan yao zhuoli jiejue shi da wenti], Journal of China 
Social Organizations, reprinted in Ministry of Civil Affairs NPO 
Bureau, 8 July 14.
    \69\ State Council General Office, ``State Council Institutional 
Reform and Functional Transformation Plan'' [Guowuyuan jigou gaige he 
zhineng zhuanbian fang'an], 28 March 13.
    \70\ PRC Central People's Government, ``National New-Type 
Urbanization Plan (2014-2020) [Guojia xinxing chengzhenhua guihua 
(2014-2020 nian)], reprinted in Xinhua, 16 March 14, chap. 19, sec. 1.
    \71\ Jiang Yanxin, ``Public Servants Responsible for Leading 
Industry Associations Will Decrease Significantly'' [Gongwuyuan ren 
hangye xiehui lingdao jiang dafu jianshao], Beijing News, 14 March 14.
    \72\ Ibid.
    \73\ Ibid.
    \74\ Ibid.
    \75\ Ibid.
    \76\ Du Ke, ``Administrative Reform Blue Book: Society Most Eager 
for Simplification and Decentralization of Government Powers'' 
[Xingzheng gaige lanpishu: jianzheng fangquan zui wei shehui qidai], 
Caixin, 24 March 14.
    \77\ State Council General Office, ``State Council Institutional 
Reform and Functional Transformation Plan'' [Guowuyuan jigou gaige he 
zhineng zhuanbian fang'an], 28 March 13.
    \78\ He Dan, ``NPO Rules Expected in 2014,'' China Daily, 29 
December 13; Karla Simon, ``Civil Society Developments in China,'' 
Alliance (blog), 4 February 14. The three key regulations include the 
Regulations on the Registration and Management of Social Associations 
[Shehui tuanti dengji guanli tiaoli], issued and effective 25 October 
98; Temporary Regulations on the Registration and Management of Non-
Governmental, Non-Profit Organizations [Minban fei qiye danwei dengji 
guanli zanxing tiaoli], issued and effective 25 October 98; and 
Regulations on the Management of Foundations [Jijinhui guanli tiaoli], 
issued 8 March 04, effective 1 June 04.
    \79\ He Dan, ``Reforms Give NGOs a Level Playing Field,'' China 
Daily, 31 March 14; Wang Jianjun, ``Promoting Social Organization 
Reform Development Will Require Solving 10 Major Problems'' [Tuijin 
shehui zuzhi gaige fazhan yao zhuoli jiejue shi da wenti], Journal of 
China Social Organizations, reprinted in Ministry of Civil Affairs NPO 
Bureau, 8 July 14.
    \80\ Zhou Tian, ``MCA Publication Explains Social Organizations and 
State Governance'' [Minzhengbu kanwen jiedu shehui zuzhi yu guojia 
zhili], Caixin, 11 December 13.
    \81\ Wang Jianjun, ``Promoting Social Organization Reform 
Development Will Require Solving 10 Major Problems'' [Tuijin shehui 
zuzhi gaige fazhan yao zhuoli jiejue shi da wenti], Journal of China 
Social Organizations, reprinted in Ministry of Civil Affairs NPO 
Bureau, 8 July 14; Isabel Hilton and Meng Si, ``Funding Green China,'' 
Chinadialogue, 19 May 13, 27.
    \82\ Jiang Yanxin, ``Public Servants Responsible for Leading 
Industry Associations Will Decrease Significantly'' [Gongwuyuan ren 
hangye xiehui lingdao jiang dafu jianshao], Beijing News, 14 March 14.
    \83\ Wang Jianjun, ``Promoting Social Organization Reform 
Development Will Require Solving 10 Major Problems'' [Tuijin shehui 
zuzhi gaige fazhan yao zhuoli jiejue shi da wenti], Journal of China 
Social Organizations, reprinted in Ministry of Civil Affairs NPO 
Bureau, 8 July 14.
    \84\ Ministry of Civil Affairs (MCA), Circular of the Ministry of 
Civil Affairs on Matters Relating to the Implementation of the Decision 
of the State Council on Canceling the Administrative Approval for the 
Registration of Branches and Representative Offices of National Social 
Groups [Minzhengbu guanyu guanche luoshi guowuyuan quxiao quanguoxing 
shehui tuanti fenzhi jigou, daibiao jigou dengji xingzheng shenpi 
xiangmu de jueding youguan wenti de tongzhi], issued 26 February 14; 
State Council Decision on Abolishing and Delegating to Lower Levels 
Administrative Approvals for Some Items [Guowuyuan guanyu quxiao he 
xiafang yipi xingzheng shenpi xiangmu de jueding], issued 8 November 
13, items 76-78.
    \85\ Karla Simon, ``Civil Society Developments in China,'' Alliance 
(blog), 4 February 14.
    \86\ Lan Fang, ``Legal Studies Association Doesn't Accept 
Punishment and Sues MCA'' [Faxue shetuan bufu chufa qisu minzhengbu], 
Caixin, 1 May 14. The Caixin report explains that the Chinese Society 
of International Economic Law refused the MCA's 2007 directive to 
change its professional sponsor organization from the Ministry of 
Justice to another national-level legal association, the China Law 
Society. See Chinese Society of International Economic Law Institute 
Introduction [Zhongguo guoji jingji faxuehui jianjie], Chinese Society 
of International Economic Law Web site, last visited 7 May 14.
    \87\ Lan Fang, ``Legal Studies Association Doesn't Accept 
Punishment and Sues MCA'' [Faxue shetuan bufu chufa qisu minzhengbu], 
Caixin, 1 May 14; Lan Fang, ``Sequel to Social Organization's Lawsuit 
Against the MCA, Questions the Source of Law Society's Authority'' 
[Shetuan gao minzhengbu xupian, zhiyi faxuehui quanli laiyuan], Caixin, 
28 May 14.
    \88\ State Council General Office, Guiding Opinion on Government 
Procurement of Services From Social Forces [Guowuyuan bangongting 
guanyu zhengfu xiang shehui liliang goumai fuwu de zhidao yijian], 
reprinted in PRC Central People's Government, issued 26 September 13; 
``State Council General Office: Gradually Increase the Extent of the 
Government's Procurement of Services From Social Forces'' [Guoban: 
zhubu jiada zhengfu xiang shehui liliang goumai fuwu de lidu], China 
News Service, 30 September 13.
    \89\ Zhu Lan, ``Government Procurement of Services From Society as 
Driver of Social System Reform'' [Zhengfu xiang shehui liliang goumai 
fuwu tuidong shehui tizhi gaige], in The Blue Book of Social 
Institution: Report on Social Institutional Reform in China [Shehui 
tizhi lanpishu: zhongguo shehui tizhi gaige baogao], eds. Gong Weibin 
and Zhao Qiuying (Beijing: Social Sciences Academic Press, 2014), No. 
2, 29.
    \90\ Jessica C. Teets and Marta Jagusztyn, ``The Evolution of a 
Collaborative Governance Model: Public-Nonprofit Partnerships in 
China,'' USAID/Asia and Pepfar, 2013, 21-22. See also Zhu Lan, 
``Government Procurement of Services From Society as Driver of Social 
System Reform'' [Zhengfu xiang shehui liliang goumai fuwu tuidong 
shehui tizhi gaige], in The Blue Book of Social Institution: Report on 
Social Institutional Reform in China [Shehui tizhi lanpishu: zhongguo 
shehui tizhi gaige baogao], eds. Gong Weibin and Zhao Qiuying (Beijing: 
Social Sciences Academic Press, 2014), No. 2, 29.
    \91\ Zhu Lan, ``Government Procurement of Services From Society as 
Driver of Social System Reform'' [Zhengfu xiang shehui liliang goumai 
fuwu tuidong shehui tizhi gaige], in The Blue Book of Social 
Institution: Report on Social Institutional Reform in China [Shehui 
tizhi lanpishu: zhongguo shehui tizhi gaige baogao], eds. Gong Weibin 
and Zhao Qiuying (Beijing: Social Sciences Academic Press, 2014), No. 
2, 29.
    \92\ Lan Fang, ``Beijing Stipulates Only Public Charitable 
Foundations Can Publicly Fundraise, All Others Are Illegal'' [Beijing 
guiding jin gongmu jijinhui ke gongmu, qiyu feifa], Caixin, 30 December 
13.
    \93\ Hou Xuezhu, ``Shenzhen's Local Legislation `Break That Hasn't 
Gone Through' Is a Difficult Labor'' [Shenzhen difang lifa ``tu er bu 
po'' huo nanchan], Beijing Times, 21 October 13; Liu Haiying, ``Using 
the Law To Establish Charity: Shenzhen's Charity Sector Advances 
Regulation and Makes Further Progress'' [Yifa lishan: shenzhen cishan 
shiye cujin tiaoli you you xin jinzhan], China Development Brief, 8 
January 14.
    \94\ ``Li Jian: The Development of China's Charity Law'' [Li jian: 
zhongguo cishan lifa de jincheng], China Development Brief, 29 
September 13.
    \95\ Wu Nan, ``Charity Donations May Become Compulsory for All 
Chinese Earners in Sector Overhaul,'' South China Morning Post, 7 March 
14.
    \96\ ``MCA Minister Li Liguo: Countdown to China's Charity Law'' 
[Minzhengbu buzhang li liguo: woguo cishanfa jinru daojishi], China 
National Radio, 5 March 14.
    \97\ Yang Tuan, ``What Should the Charity Law Do? '' [Cishanfa yao 
zuo shenme?], Caixin, 20 May 14.
    \98\ Guo Jinhui, `` `Charity Law' Legislation Speeding Up, Public 
Hopes Charity Will Return to Being Community-Based'' [``Cishan fa'' 
lifa jisu zhong pan cishan huigui minjian benwei], First Financial, 21 
May 14.
    \99\ Hou Xuezhu, ``Shenzhen's Local Legislation `Break That Hasn't 
Gone Through' Is a Difficult Labor'' [Shenzhen difang lifa ``tu er bu 
po'' huo nanchan], Beijing Times, 21 October 13.
    Notes to Section III--Institutions of Democratic Governance

    \1\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 25; UN Office of the High 
Commissioner for Human Rights, General Comment No. 25: The Right To 
Participate in Public Affairs, Voting Rights and the Right of Equal 
Access to Public Service, CCPR/C/21/Rev.1/Add.7, 12 July 96. Under 
General Comment 25 to the ICCPR, the language requires that: ``Where 
citizens participate in the conduct of public affairs through freely 
chosen representatives, it is implicit in article 25 that those 
representatives do in fact exercise governmental power and that they 
are accountable through the electoral process for their exercise of 
that power'' (para. 7); ``The right to vote at elections and referenda 
must be established by law and may be subject only to reasonable 
restrictions . . . [p]arty membership should not be a condition of 
eligibility to vote, nor a ground of disqualification'' (para. 10); 
``Freedom of expression, assembly and association are essential 
conditions for the effective exercise of the right to vote and must be 
fully protected . . . .'' (para. 12); ``The right of persons to stand 
for election should not be limited unreasonably by requiring candidates 
to be members of parties or of specific parties . . .'' (para. 17); and 
an ``independent electoral authority should be established to supervise 
the electoral process and to ensure that it is conducted fairly, 
impartially and in accordance with established laws which are 
compatible with the Covenant . . . .'' (para. 20).
    \2\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76. China has signed, but has not yet 
ratified, the ICCPR. In the 2009-2010 National Human Rights Action Plan 
issued by the Chinese government in April 2009, officials stated that 
the ``essentials'' of the ICCPR were some of the ``fundamental 
principles'' on which the plan was framed, and that the government 
``will continue legislative, judicial and administrative reforms to 
make domestic laws better linked with this Covenant, and prepare the 
ground for approval of the ICCPR.'' State Council Information Office, 
``National Human Rights Action Plan of China (2009-2010),'' reprinted 
in Xinhua, 13 April 09, Introduction, sec. V(1).
    \3\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
21. ``Everyone has the right to take part in the government of his 
country, directly or through freely chosen representatives . . . . The 
will of the people shall be the basis of the authority of government, 
this will shall be expressed in periodic and genuine elections which 
shall be by universal and equal suffrage and shall be held by secret 
vote or by equivalent free voting procedures.''
    \4\ UN GAOR, Hum. Rts. Coun., 25th Sess., Agenda Item 6, Universal 
Periodic Review, Report of the Working Group on the Universal Periodic 
Review--China, A/HRC/25/5, 4 December 13, paras. 186.1-186.15, 186.17-
186.19, 186.21, 186.32, 186.127.
    \5\ UN GAOR, Hum. Rts. Coun., 25th Sess., Agenda Item 6, Universal 
Periodic Review, Report of the Working Group on the Universal Periodic 
Review--China, Addendum, Views on Conclusions and/or Recommendations, 
Voluntary Commitments and Replies Presented by the State Under Review, 
A/HRC/25/5/Add.1, 27 February 14. China rejected recommendations in 
paragraphs 186.1-186.2, 186.11-186.13, 186.15, 186.17-186.19, 186.21, 
and 186.127 regarding ratification of the ICCPR. Regarding setting a 
timetable for ratifying the ICCPR, China stated in paragraph 186.1: 
``China is now prudently carrying out its judicial and administrative 
reform to actively prepare for the ratification of the ICCPR. No 
specific timetable for the ratification of the ICCPR could be set out 
so far.''
    \6\ Ibid. China accepted recommendations in paragraphs 186.3-
186.10, 186.14, and 186.32 regarding ratification of the ICCPR.
    \7\ ``Xinhua Insight: Why the CPC's Third Plenary Session Is 
Important,'' Xinhua, 30 August 14. According to Xinhua, traditionally, 
central Party officials use the third meeting of a new Party congress 
to issue plans for key policy changes.
    \8\ ``Xi Jinping: Explanation Regarding `Chinese Communist Party 
Central Committee Decision on Certain Major Issues Regarding 
Comprehensively Deepening Reforms' '' [Xi jinping: guanyu ``zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding'' de shuoming], Xinhua, 15 November 13.
    \9\Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], reprinted in Xinhua, 15 November 13.
    \10\ Ibid., sec. 10, para. 1. The Decision emphasized 
``strengthening the system for restraining and supervising the use of 
power,'' specifically referring in part to building ``a system for 
exercising power with scientific decision-making, resolute execution, 
and strong supervision, [and] completing a system for the punishment 
and prevention of corruption.''
    \11\ Ibid., sec. 8. For example, section 8 stated that officials 
should ``perfect'' the people's congress system, the Party-led 
multiparty cooperative and the political consultative system, and the 
system of ``autonomy'' at the grassroots level. Section 8, para. 1 of 
the Decision also urged officials to ``[a]ttach greater importance to 
improving the system of democracy, diversifying the forms of 
democracy,'' and expand citizens' ``orderly political participation'' 
at all levels in order to give ``full play to the strength of the 
socialist political system.''
    \12\ Elizabeth C. Economy, ``China's Unprecedented Political 
Reforms,'' Council on Foreign Relations, Asia Unbound (blog), 16 
January 14.
    \13\ Agatha Kratz, ``Battling Interest Groups: A Case for 
Enlightened Despotism,'' China Analysis: How Far Will the NPC Go in 
Implementing Reform?, European Council on Foreign Relations and Asia 
Centre, March 2014, 3. Central authorities reportedly dismissed 
proposals by dozens of Chinese researchers and experts to add three 
items to the Third Plenum Decision: democratize the Party, standardize 
elections, and extend freedom of expression.
    \14\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], reprinted in Xinhua, 15 November 13, sec. 16.
    \15\ Ibid., sec. 9(30).
    \16\ ``Formulation of Central Party Internal Rules and Regulations 
Five-Year Plan Summary (Full Text)'' [Zhongyang dangnei fagui zhiding 
gongzuo wu nian guihua gangyao (quanwen)], Xinhua, 27 November 13; Cai 
Rupeng, ``Chinese Communist Party Issues Intraparty Plan for 
Formulating Laws, First Time Mentioning Constitution Foremost'' 
[Zhonggong gongbu dangnei fa zhiding shou ti xianfa wei shang], China 
Newsweek, 5 December 13.
    \17\ Cai Rupeng, ``Chinese Communist Party Issues Intraparty Plan 
for Formulating Laws, First Time Mentioning Constitution Foremost'' 
[Zhonggong gongbu dangnei fa zhiding shou ti xianfa wei shang], China 
Newsweek, 5 December 13.
    \18\ Chinese Communist Party Constitution [Gongchandang 
zhangcheng], adopted 6 September 82, amended 1 November 87, 18 October 
92, 18 September 97, 14 November 02, 21 October 07, 14 November 12, 
General Program. The Party revised the General Program of the Party 
constitution to include ``[t]he Party must conduct its activities 
within the framework of the Constitution and laws of the country.''
    \19\ ``Full Text of Hu Jintao's Report at 18th Party Congress 
(Chapters 5-11)'' Xinhua, 17 November 12, reprinted in the Embassy of 
the People's Republic of China, 27 November 12. Chapter 5, paragraph 4 
stated, ``[a]s the Constitution and laws are adopted by the Party and 
the people under its leadership, the Party must act within the scope 
prescribed by the Constitution and laws. No organization or individual 
has the privilege of overstepping the Constitution and laws, and no one 
in a position of power is allowed in any way to take one's own words as 
the law, place one's own authority above the law or abuse the law.'' 
See also Choi Chi-yuk, ``Xi Jinping Vows To Uphold Constitution and 
Rule of Law,'' South China Morning Post, 25 February 13.
    \20\ Constitution of the Communist Party of China [Gongchangdang 
zhangcheng], adopted 6 September 82, amended 1 November 87, 18 October 
92, 18 September 97, 14 November 02, 21 October 07, General Program. 
For example, the 2007 version of the Chinese Communist Party 
Constitution General Program states: ``The Party must conduct its 
activities within the framework of the Constitution and laws of the 
country.'' Similar statements also are included in China's state 
Constitution beginning with the 1982 version. See PRC Constitution, 
issued 4 December 82, art. 5. The 1982 Chinese state Constitution 
stipulated that ``no organization or individual may enjoy the privilege 
of being above the Constitution and the law.'' Similar language in 
Article 5 is also in each of the later versions of the Constitution, 
including those amended on March 29, 1993; March 15, 1999; and March 
14, 2004.
    \21\ Qian Gang, ``The Uncertain Death of `Constitutionalism,' '' 
China Media Project, 2 September 13; Qian Gang, ``Parsing the `Public 
Opinion Struggle,' '' China Media Project, 24 September 13; China Media 
Project, `` `Struggling' Against Constitutionalism,'' 25 September 13; 
Joseph Fewsmith, ``Debating Constitutional Government,'' China 
Leadership Monitor, Hoover Institution, Stanford University, 7 October 
13; Hugo Winkler, ``The Constitutional Government Controversy,'' China 
Analysis: Law and Power in Xi's China, European Council on Foreign 
Relations and Asia Centre, December 2013, 3-4.
    \22\ Alice Miller, ``How Strong Is Xi Jinping,'' China Leadership 
Monitor, Hoover Institution, Stanford University, No. 43 (Spring 2014), 
13 March 14; Mamta Badkar, ``Here's Why People Are Calling Chinese 
President Xi Jinping a Mao-Style Authoritarian,'' Business Insider, 
Australia, 30 November 13. These articles lay out the debate 
surrounding assertions that President Xi Jinping is recentralizing 
power in his hands at the expense of other top leaders. Conversely, the 
articles also discuss the assertion that Xi is not acting alone, but is 
acting together with the collective leadership to recentralize power.
    \23\ Agatha Kratz, ``Battling Interest Groups: A Case for 
Enlightened Despotism,'' China Analysis: How Far Will the NPC Go in 
Implementing Reform?, European Council on Foreign Relations and Asia 
Centre, March 2014, 3-4.
    \24\ Wang Yong, ``Xi Jinping Takes Lead of `Deepening Reforms Small 
Group' '' [Xi jinping churen ``shen gai xiaozu'' zuzhang], Caixin, 30 
December 13; Chris Buckley, ``Xi Puts Himself at Center of China's 
Economic Makeover,'' New York Times, Sinosphere (blog), 20 November 13; 
Jeremy Page, ``China's President Takes Bigger Security Role,'' Wall 
Street Journal, 24 January 14; Simon Denyer, ``China's Leader, Xi 
Jinping, Consolidates Power With Crackdowns on Corruption, Internet,'' 
Washington Post, 3 October 13; Didi Tang, ``China's Vice Crackdown 
Tackles Entrenched Industry,'' Associated Press, 21 February 14; Alice 
Miller, ``The Road to the Third Plenum,'' China Leadership Monitor, 
Hoover Institution, Stanford University, No. 42 (Fall 2013), 7 October 
13, 8.
    \25\ ``Chinese Communist Party Central Committee Establishes 
Leading Small Group for Comprehensively Deepening Reforms'' [Zhongyang 
chengli quanmian shenhua gaige lingdao xiaozu], People's Daily, 12 
November 13. The Reform Leading Small Group is responsible for 
planning, coordinating, advancing, and monitoring the implementation of 
``overall reform.'' ``Central Leading Small Group for Deepening Reforms 
Convenes Meeting, Premier Li Keqiang Is Deputy Head'' [Zhongyang 
shenhua gaige lingdao xiaozu zhaokai huiyi li keqiang ren fuzuzhang], 
China News, reprinted in NetEase, 22 January 14.
    \26\ Christopher K. Johnson, Center for Strategic and International 
Studies, ``China Announces Sweeping Reform Agenda at Plenum,'' 15 
November 13; Chu Zhuqin, ``Xi Jinping Expounds on Overall National 
Security Concepts, First Time System Proposed for `11 Types of 
Security' '' [Xi jinping chanshu zongti guojia anquan guan shouci 
xitong tichu ``11 zhong anquan''], Oriental Morning Post, 16 April 14. 
According to the two sources, the Central State Security Committee 
reportedly is a platform for resolving security problems and 
centralizing decisionmaking over domestic and international state 
security issues. In addition, the second source also notes the Central 
State Security Committee will concern itself with the following 11 
types of security issues: political, territorial, military, economic, 
cultural, social, technological, information, ecological, natural 
resources, and nuclear. For additional information regarding the 
establishment of the commission, its members, and mission, see Marc 
Julienne, ``The New Central National Security Commission,'' China 
Analysis: How Far Will the NPC Go in Implementing Reform?, European 
Council on Foreign Relations and Asia Centre, March 2014, 5-8.
    \27\ ``He Qinglian: Why Are `Small Groups' the Evergreen of CCP 
Politics? '' [He qinglian: ``xiaozu'' weihe shi zhonggong zhengzhi de 
changqingshu?], Voice of America, 19 March 14. According to the VOA, 
one of the other leading groups is called the Leading Small Group for 
Deepening Defense and Military Reforms. Adam Segal, ``China's New 
Leading Small Group on Cybersecurity and Internet Management,'' Forbes 
Asia, 27 February 14; ``Xi Stresses Efforts To Revolutionize Energy 
Sector,'' Xinhua, 13 June 14.
    \28\ Jeremy Page, ``China's President Takes Bigger Security Role,'' 
Wall Street Journal, 24 January 14; Wang Yong, ``Xi Jinping Takes Lead 
of `Deepening Reforms Small Group' '' [Xi jinping churen ``shen gai 
xiaozu'' zuzhang], Caixin, 30 December 13; Adam Segal, ``China's New 
Leading Small Group on Cybersecurity and Internet Management,'' Forbes 
Asia, 27 February 14; ``Xi Stresses Efforts To Revolutionize Energy 
Sector,'' Xinhua, 13 June 14. Xinhua stated President Xi Jinping leads 
the Central Leading Group on Financial and Economic Affairs.
    \29\ Wang Yong, ``Xi Jinping Takes Lead of `Deepening Reforms Small 
Group' '' [Xi jinping churen ``shen gai xiaozu'' zuzhang], Caixin, 30 
December 13; Chris Buckley, ``Xi Puts Himself at Center of China's 
Economic Makeover,'' New York Times, 20 November 13; Jeremy Page, 
``China's President Takes Bigger Security Role,'' Wall Street Journal, 
24 January 14.
    \30\ Alice Miller, ``The Road to the Third Plenum,'' China 
Leadership Monitor, Hoover Institution, Stanford University, No. 42 
(Fall 2013), 7 October 13, 1-7; ``CPC Officials Told To Efficiently 
Carry Out `Mass-Line' Campaign,'' Global Times, 2 October 13; Tyler 
Roney, ``Xi's Mass Line Campaign Casts a Dark Shadow Over China,'' 
Diplomat, 2 October 13; ``Mass Line Hits Xinjiang,'' Global Times, 21 
April 14; ``Consolidate and Expand Education To Realize Campaign 
Outcomes, Implement New Work Style Construction Requirements in Real 
Earnest'' [Gonggu kuoda jiaoyu shixian huodong chengguo ba zuofeng 
jianshe xin yaoqiu luo dao shi chu], Qiushi, 16 June 14.
    \31\ ``CPC Officials Told To Efficiently Carry Out `Mass-Line' 
Campaign,'' Xinhua, reprinted in Global Times, 2 October 13; Tyler 
Roney, ``Xi's Mass Line Campaign Casts a Dark Shadow Over China,'' 
Diplomat, 2 October 13.
    \32\ Sheng Ruowei, ``More Than 60,000 Weak and Disorganized 
Grassroots Party Organizations Reorganized'' [Liuwan duo ge ruanruo 
huansan jiceng dang zuzhi bei zhengdun], People's Daily, 31 May 14.
    \33\ Gao Lei, ``At the End of 2009 Total Number of Party Members 
Throughout the Country Reaches 77,995,000'' [Jiezhi 2009 niandi quanguo 
dangyuan zongshu da 7799.5 wan ming], Chinese Communist Party 
Information Net, 28 June 10. At the end of 2009, there were 6,629 urban 
street Communist Party organizations, 34,224 town organizations, 80,000 
residential committees, and 598,000 village committees.
    \34\ Ibid. At the end of 2009, out of the country's 570,000 public 
institutions (shiye danwei), 471,000 had Party organizations.
    \35\ Ibid. At the end of 2009, the breakdown of the number of Party 
members in various organizations was as follows: Out of 13,000 eligible 
``social associations'' (shehui tuanti), 12,000 had Party 
organizations, and out of 16,000 eligible ``private, non-commercial 
units'' or nonprofit enterprises (minban feiqiye danwei), 15,000 had 
Party organizations.
    \36\ Sheng Ruowei, ``More Than 60,000 Weak and Disorganized 
Grassroots Party Organizations Reorganized'' [Liuwan duo ge ruanruo 
huansan jiceng dang zuzhi bei zhengdun], People's Daily, 31 May 14.
    \37\ ``Xi Urges Army's Implementation of `Mass Line,' '' Xinhua, 13 
February 14.
    \38\ Shannon Tiezzi, ``Xi Jinping's Vision for China's Courts,'' 
Diplomat, 9 January 14.
    \39\ ``Xi Demands Greater Initiative, Innovation in Publicity 
Work,'' Xinhua, 20 August 13; Josh Chin, ``Mass Re-Education for 
China's Reporters,'' Wall Street Journal, China Real Time (blog), 18 
December 13; Qian Gang, ``Parsing the `Public Opinion Struggle,' '' 
China Media Project, 24 September 13; Raymond Li, ``Web `Opinion 
Analyst' Class May Draw Journalism Grads, but Some Are Wary,'' South 
China Morning Post, 20 October 13; Wen Ya, ``Learning the News,'' 
Global Times, 17 December 13.
    \40\ Mamta Badkar, ``Here's Why People Are Calling Chinese 
President Xi Jinping a Mao-Style Authoritarian,'' Business Insider, 
Australia, 30 November 13; Alice Miller, ``The Road to the Third 
Plenum,'' China Leadership Monitor, Hoover Institution, Stanford 
University, No. 42 (Fall 2013), 7 October 13. These articles discuss 
the ``mass line'' campaign, which includes political indoctrination and 
self-criticism sessions for officials.
    \41\ Ben Blanchard, ``China Tells Police To Be Loyal to Party Amid 
Graft Crackdown.'' Reuters, 3 January 14.
    \42\ ``Xi Demands Greater Initiative, Innovation in Publicity 
Work,'' Xinhua, 20 August 13.
    \43\ General Office of the Chinese Communist Party Central 
Committee, ``Opinion Regarding Cultivating and Implementing Socialist 
Core Values'' [Guanyu peiyu he jianxing shehuizhuyi hexin jiazhiguan de 
yijian], reprinted in Xinhua, 23 December 13; Teddy Ng and Li Jing, 
``Communist Party Orders `Core Socialist Values' on the Curriculum,'' 
South China Morning Post, 24 December 13.
    \44\ Ibid., sec. 2, item 4; Teddy Ng and Li Jing, ``Communist Party 
Orders `Core Socialist Values' on the Curriculum,'' South China Morning 
Post, 24 December 13.
    \45\ General Office of the Chinese Communist Party Central 
Committee, ``Opinion Regarding Cultivating and Implementing Socialist 
Core Values'' [Guanyu peiyu he jianxing shehuizhuyi hexin jiazhiguan de 
yijian], reprinted in Xinhua, 23 December 13, sec. 3.
    \46\ For more in-depth information regarding the definition of 
``social management,'' see CECC, 2012 Annual Report, 10 October 12, 
125-26.
    \47\ ``Li Liguo: An Innovative Social Governance System Primarily 
Will Transform Mode of Social Governance'' [Li liguo: chuangxin shehui 
zhili tizhi zhuyao ying zhuanbian shehui zhili fangshi], Xinhua, 5 
December 13.
    \48\ Chinese Human Rights Defenders, ``144 Individuals Affected by 
Government Crackdown Around 25th Anniversary of Tiananmen Massacre,'' 
last visited 18 June 14. See also Human Rights in China, 
``Restrictions, Detentions, Disappearances, Arrests Before and Beyond 
June 4, 2014,'' 16 June 14.
    \49\ Chinese Human Rights Defenders, ``144 Individuals Affected by 
Government Crackdown Around 25th Anniversary of Tiananmen Massacre,'' 
last visited 18 June 14. Rights Defense Network, `` `Rights Defense 
Network' Statement on Beijing Authorities' Crackdown on Participants in 
the `June Fourth' Discussion Forum'' [``Weiquanwang'' jiu beijing 
dangju daya canjia ``liu si'' yantaohui renshi de shengming], 7 May 14. 
For more information on Pu Zhiqiang, see the Commission's Political 
Prisoner Database record 2014-00174.
    \50\ Human Rights in China, ``Restrictions, Detentions, 
Disappearances, Arrests Before and Beyond June 4, 2014,'' 16 June 14. 
For more information on Qu Zhenhong, see the Commission's Political 
Prisoner Database record 2014-00179.
    \51\ Rights Defense Network, ``More Than 1,200 People From All 
Walks of Life Sign a Joint Letter Demanding the Release of China 
Democracy Party Member Xu Guang'' [Yiqian liangbai yu ming gejie renshi 
lianshu yaoqiu shifang zhongguo minzhudang ren xu guang], 10 May 14. 
For more information on Xu Guang, see the Commission's Political 
Prisoner Database record 2004-02203.
    \52\ Chinese Human Rights Defenders, ``144 Individuals Affected by 
Government Crackdown Around 25th Anniversary of Tiananmen Massacre,'' 
last visited 18 June 14. ``University Student Detained for Releasing 
`Return to Tiananmen' Plan, Hu Jia Looking To Hire a Lawyer on Behalf 
of Her Family'' [Daxuesheng fabu ``chonghui tiananmen'' fang'an bei ju 
hu jia xunzhao qi jiaren yuan dai pin lushi], Radio Free Asia, 10 June 
14. For more information on Zhao Huaxu, see the Commission's Political 
Prisoner Database record 2014-00204.
    \53\ Chinese Human Rights Defenders, ``144 Individuals Affected by 
Government Crackdown Around 25th Anniversary of Tiananmen Massacre,'' 
last visited 18 June 14; ``Rights Lawyer Chang Boyang's Criminal 
Detention Draws Concern'' [Weiquan lushi chang boyang bei xingju yin 
guangzhu], Voice of America, 10 June 14.
    \54\ Ibid.
    \55\ Chinese Human Rights Defenders, ``144 Individuals Affected by 
Government Crackdown Around 25th Anniversary of Tiananmen Massacre,'' 
last visited 18 June 14.
    \56\ Ibid.
    \57\ Ibid.
    \58\ Chinese Human Rights Defenders, ``A Nightmarish Year Under Xi 
Jinping's `Chinese Dream': 2013 Annual Report on the Situation of Human 
Rights Defenders in China,'' March 2014, 1. According to CHRD, there 
were more than 220 documented criminal detentions of rights defenders 
in 2013, which amounts to three times the number detained in 2012.
    \59\ For information on Liu Benqi's case, see the Commission's 
Political Prisoner Database record 2013-00028.
    \60\ Rights Defense Network, ``Qinghai Democracy Advocate Liu 
Benqi, Whose Residence Is Registered in Hubei, Sentenced to Three 
Years' Imprisonment for `Inciting Subversion,' Sent To Serve Prison 
Sentence in Xining'' [Hubei ji zai qinghai de minzhu renshi liu benqi 
bei yi ``shandian zui'' pan san nian, jiang wang xining fuxing], 9 
February 14.
    \61\ Ibid.; ``Zhu Yufu's `Medical Parole' Application Refused, Wife 
Is Harassed; Liu Benqi's Case Sent to Court, Will Defend Himself'' [Zhu 
yufu ``baowai jiuyi'' shenqing bei ju qi zao weixie, liu benqi an dao 
fayuan jueding zibian], Radio Free Asia, 8 May 13.
    \62\ ``China Dissident Jailed for 42 Months Over Daughter's 
Schooling,'' Radio Free Asia, 5 September 14.
    \63\ Human Rights in China, ``Zhejiang Activist Lu Gengsong 
Arrested for `Subversion of State Power,' '' 13 August 14.
    \64\ Civil Rights and Livelihood Watch, ``Noted Dissident Qin 
Yongmin Escorted Back to Wuhan, House Searched and Items Confiscated, 
Detained for Nine Days'' [Zhiming yiyi renshi qin yongmin bei ya hui 
wuhan zao chaojia juliu jiu tian], 2 January 14. For information on Qin 
Yongmin's case, see the Commission's Political Prisoner Database record 
2004-02138.
    \65\ Rights Defense Network, ``Shandong Netizen Sun Feng Criminally 
Detained for Holding Up `Constitutional Governance, Democracy, Don't 
Forget June Fourth' Sign'' [Shandong wangyou sun feng jupai ``xianzheng 
minzhu, wuwang liu si'' bei xingju], 26 January 14; ``Will Fearless Sun 
Feng Become China's First Case of Inciting Subversion in 2014? '' [Wu 
ju sun feng jiang chengwei 2014 nian zhongguo di yi ge shan dian zui?], 
Boxun, 30 January 14. For information on Sun Feng's case, see the 
Commission's Political Prisoner Database record 2004-03379.
    \66\ Chen Guangcheng and Gao Zhisheng: Human Rights in China, 
Hearing of the Subcommittee on Africa, Global Health, Global Human 
Rights, and International Organizations, Foreign Affairs Committee, 
U.S. House of Representatives, 9 April 13, Testimony of Bob Fu, Founder 
and President, ChinaAid. For information on Zhu Yufu's case, see the 
Commission's Political Prisoner Database record 2004-02253. See also 
``Authorities Deny Medical Treatment to Zhu Yufu; Condition Serious,'' 
Congressional-Executive Commission on China, 16 April 13.
    \67\ Chinese Human Rights Defenders, ``Submission to UN on Cao 
Haibo--April 1, 2013,'' 3 April 13; Rights Defense Network, ``Creator 
of Society To Strengthen China Cao Haibo Secretly Sentenced to Eight 
Years for `Subversion' '' [Zhenhuahui chuangshi ren cao haibo bei yi 
``dianfu zui'' mimi panxing 8 nian], 1 November 12; ``Democracy 
Advocate Cao Haibo Sentenced to Eight Years for Subversion,'' 
Congressional-Executive Commission on China, 4 December 12. For more 
information about Cao Haibo's case, see the Commission's Political 
Prisoner Database record 2011-00737.
    \68\ Gillian Wong, ``China Activist Given 10 Years' Jail for 
Subversion,'' Associated Press, reprinted in Yahoo! News, 26 December 
11. For more information about Chen Xi, see the Commission's Political 
Prisoner Database record 2008-00379.
    \69\ Rights Defense Network, ``Liu Xianbin Case Trial Oral Sentence 
Announcement of 10 Years, Family and Lawyers Cannot Visit'' [Liu 
xianbin an fating koutou xuanpan shi nian xingqi, jiaren lushi wufa 
huijian], 25 March 11. For more information about Liu Xianbin, see the 
Commission's Political Prisoner Database record 2004-04614.
    \70\ Chinese Human Rights Defenders, ``Chinese Government Must Be 
Held Accountable for Death of Activist Cao Shunli,'' 14 March 14; Ben 
Blanchard, ``China Denies Dead Dissident Refused Medical Treatment,'' 
Reuters, 17 March 14. See also ``Inadequate Medical Care for Cao Shunli 
Before Her Death Contradicts International Law,'' Congressional-
Executive Commission on China, 2 April 14.
    \71\ Chinese Human Rights Defenders, ``Chinese Government Must Be 
Held Accountable for Death of Activist Cao Shunli,'' 14 March 14; 
Amnesty International, ``China: Authorities Have `Blood on Their Hands' 
After Activist's Death,'' 14 March 14; Front Line Defenders, ``Chinese 
Government Responsible for the Death of Cao Shunli,'' 14 March 14; 
``China Denies Mistreating Activist Cao Shunli,'' Agence France-Presse, 
reprinted in Australian Broadcast Company, 18 March 14.
    \72\ Chinese Human Rights Defenders, ``Cao Shunli & Her Legacy,'' 
21 April 14; Chinese Human Rights Defenders, ``Chinese Government Must 
Be Held Accountable for Death of Activist Cao Shunli,'' 14 March 14. 
For more information on Cao Shunli's case, see the Commission's 
Political Prisoner Database record 2009-00195. See also ``Inadequate 
Medical Care for Cao Shunli Before Her Death Contradicts International 
Law,'' Congressional-Executive Commission on China, 2 April 14.
    \73\ For information on undemocratic practices and problems with 
village elections in 2013, see Rights Defense Network, ``China Village 
Grassroots Democracy Watch Report (2013)'' [Zhongguo nongcun jiceng 
minzhu guancha baogao (2013)], 7 January 14.
    \74\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
21. ``Everyone has the right to take part in the government of his 
country, directly or through freely chosen representatives . . . . The 
will of the people shall be the basis of the authority of government, 
this will shall be expressed in periodic and genuine elections which 
shall be by universal and equal suffrage and shall be held by secret 
vote or by equivalent free voting procedures.''
    \75\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 25; UN Office of the High 
Commissioner for Human Rights, General Comment No. 25: The Right To 
Participate in Public Affairs, Voting Rights and the Right of Equal 
Access to Public Service, CCPR/C/21/Rev.1/Add.7, 7 December 96. Under 
General Comment 25 to the ICCPR, the language requires that: ``Where 
citizens participate in the conduct of public affairs through freely 
chosen representatives, it is implicit in article 25 that those 
representatives do in fact exercise governmental power and that they 
are accountable through the electoral process for their exercise of 
that power'' (item 7); ``The right to vote at elections and referenda 
must be established by law and may be subject only to reasonable 
restrictions . . . [p]arty membership should not be a condition of 
eligibility to vote, nor a ground of disqualification . . . '' item 
10); ``Freedom of expression, assembly and association are essential 
conditions for the effective exercise of the right to vote and must be 
fully protected . . . .'' (item 12); ``The right of persons to stand 
for election should not be limited unreasonably by requiring candidates 
to be members of parties or of specific parties . . .'' (item 17); and 
an ``independent electoral authority should be established to supervise 
the electoral process and to ensure that it is conducted fairly, 
impartially and in accordance with established laws which are 
compatible with the Covenant . . . .'' (item 20).
    \76\ Ping Shu, ``Does Wukan's Election Symbolize the Failure of 
Chinese Grassroots Democracy? '' [Wukan xuanju xiangzheng zhongguo 
jiceng minzhu shibai?], BBC, 1 April 14; Wanzhou District Party 
Organization Bureau, Wanzhou District Bureau of Civil Affairs, 
``Community, Village `Two Committees' Term Elections Work 
Implementation Plan'' [Shequ, cun ``liang wei'' huanjie xuanju gongzuo 
shishi fang'an], Zoujiaba Street General Office (Chongqing 
Municipality, Wanzhou District), reprinted in Wanzhou District People's 
Government, 9 October 13. For example, the Wanzhou district program 
document provided justification for potentially interfering in 
elections; the plan called on officials to ``discover and resolve the 
problem of bias in term elections.''
    \77\ Wanzhou District Party Organization Bureau, Wanzhou District 
Bureau of Civil Affairs, ``Community, Village `Two Committees' Term 
Elections Work Implementation Plan'' [Shequ, cun ``liang wei'' huanjie 
xuanju gongzuo shishi fang'an], Zoujiaba Street General Office 
(Chongqing Municipality, Wanzhou District), reprinted in Wangzhou 
District People's Government, 9 October 13; ``Tenth Round Village 
Committee Election Measures'' [Di shi jie cunweihui xuanju banfa], 
Ningbo City, Jiangbei District, Zicheng Township, Zihu Village Net, 3 
January 14.
    \78\ PRC Organic Law of Village Committees (2010 Revision), 
National People's Congress Standing Committee, issued 4 November 98, 
amended 28 October 10, art. 13. According to Article 13, ``Any villager 
who has attained the age of 18 years old shall have the right to elect 
and stand for election regardless of his/her ethnicity, race, gender, 
occupation, family background, religious beliefs, level of education, 
property, and time of residence, except for those who have been 
deprived of their political rights according to law.''
    \79\ Zhang Wu, ``Zijin Rules Eight Categories of People Are Not 
Suitable To Be Village Committee Candidates Including Those Who Violate 
Petitioning Regulations'' [Zijin guiding 8 lei ren buyi houxuan cunwei 
han weifan xinfang tiaoli zhe], Southern Metropolitan Daily, reprinted 
in Sina, 8 December 13; Mapi Township People's Government, ``Mapi 
Township's `Two Committees' Implementation Plan for the 2014 Term 
Village and Community Elections' Work'' [Mapi zhen 2014 nian cun, 
shequ, ``liangwei'' huanjie xuanju gongzuo shishi fang'an], 2 December 
13; Shifang City People's Government, Circular Regarding Undertaking 
Ninth Round of Village (Community) Committee Term Election Work [Guanyu 
zuo hao di jiu jie cun (ju) min weiyuanhui huanjie xuanju gongzuo de 
tongzhi], 31 December 13; Tenth Round Village Committee Election 
Measures [Di shi jie cunweihui xuanju banfa], Ningbo City, Jiangbei 
District, Zicheng Township, Zihu Village Net, 3 January 14.
    \80\ Ibid.
    \81\ Tang Yue, ``Our Province Has Begun 16,000 Village Committee 
Term Elections'' [Wo sheng 1.6 wan cunweihui kaishi huanjie], Xinhua 
Daily, reprinted in Sina, 28 September 13; Wang He, ``Guangdong Village 
Committee Term Elections Will Introduce Notary System and Will Try a 
New Format'' [Guangdong cunwei huanjie xuanju ming nian yinru 
gongzhengzhi bing shixing xin xingshi], Guangzhou Daily, reprinted in 
People's Daily, 21 September 13; Huang Shouyu, ``Suggestions Regarding 
Improving Our Province's 2014 Village Committee Term Elections and 
Supervision'' [Guanyu wanshan wo sheng 2014 nian cunmin weiyuanhui 
huanjie xuanju he jiandu de jianyi], Rednet, 26 May 14; Wanzhou 
District Party Organization Bureau, Wanzhou District Bureau of Civil 
Affairs, ``Community, Village `Two Committees' Term Elections Work 
Implementation Plan'' [Shequ, cun ``liang wei'' huanjie xuanju gongzuo 
shishi fang'an], Zoujiaba Street General Office (Chongqing 
Municipality, Wanzhou District), reprinted in Wangzhou District 
People's Government, 9 October 13.
    \82\ Wang He, ``Guangdong Village Committee Term Elections Will 
Introduce Notary System and Will Try a New Format'' [Guangdong cunwei 
huanjie xuanju ming nian yinru gongzhengzhi bing shixing xin xingshi], 
Guangzhou Daily, reprinted in People's Daily, 21 September 13.
    \83\ Ibid.
    \84\ Rights Defense Network, ``China Election Monitor (2014) No. 
10--Changsha City Yuelu District Government's Influence on Ballots Is 
Illegal'' [Zhongguo xuanju guancha (2014) zhi shi--changsha shi yuelu 
qu zhengfu zhidao zhiding de xuanpiao yangshi shi feifa de], 10 April 
14.
    \85\ Rights Defense Network, ``China Election Monitor (2013) No. 
49--Ningxia Shapotou District Government Directing Village Election Is 
Illegal'' [Zhongguo xuanju guancha (2013) zhi sishijiu--ningxia 
shapotou qu zhengfu zhidao de cunweihui xuanju shi feifa de], 9 
February 14; Rights Defense Network, ``China Election Monitor (2014) 
No. 10--Changsha City Yuelu District Government's Influence on Ballots 
Is Illegal'' [Zhongguo xuanju guancha (2014) zhi shi--changsha shi 
yuelu qu zhengfu zhidao zhiding de xuanpiao yangshi shi feifa de], 10 
April 14; Rights Defense Network, ``China Election Monitor (2014) No. 
18--Hunan Province Anhua County Government Guidance of Village 
Elections Is Illegal'' [Zhongguo xuanju guancha (2014) zhi shiba--hunan 
sheng anhua xian zhengfu zhidao de cunweihui xuanju shi feifa de], 3 
May 14; Rights Defense Network, ``China Election Monitor (2014) No. 
17--Guangdong Taishi Village Committee Elections Have No Democracy To 
Speak of'' [Zhongguo xuanju guancha (2014) zhi shiqi--Guangdong 
taishicun cun weihui xuanju mei you minzhu keyan], 30 April 14.
    \86\ Rights Defense Network, ``China Election Monitor (2014) No. 
10--Changsha City Yuelu District Government's Influence on Ballots Is 
Illegal'' [Zhongguo xuanju guancha (2014) zhi shi--Changsha shi yuelu 
qu zhengfu zhidao zhiding de xuanpiao yangshi shi feifa de], 10 April 
14.
    \87\ Rights Defense Network, ``Election Monitor Briefing No. 22: 
Elected Rights Defender Not Given Representative Certificate'' [Xuanju 
guancha jianbao zhi ershi er: dang xuan weiquan zhe ling bu dao daibiao 
zheng], 1 May 14.
    \88\ Rights Defense Network, ``In Hunan, Hengyang People's Congress 
Election Bribery Case, Hunan and Shandong Lawyers Announce Formation of 
Lawyers' Group'' [Hunan hengyang renda huixuan an xiang lu lushi tuan 
xuangao chengli], 19 March 14; Wang Shu, ``Hengyang Electoral 
Disruption Case Involved 110 Million Yuan, Eligibility of 749 People's 
Congress Representatives Terminated'' [Hengyang pohuai xuanju an she an 
1.1 yi yuan, zhongzhi 749 ming renda daibiao zige], Beijing News, 
reprinted in Caijing, 18 June 14.
    \89\ ``Hunan Hands Out Party Disciplinary Punishments and 
Administrative Sanctions to 409 People in Hengyang Botched Elections 
Case'' [Hunan dui hengyang pohuai xuanju an zhong 409 ren geiyu dang ji 
zheng ji chufen], China News, 9 May 14; ``Hunan Strictly Investigates 
Hengyang Botched Election Case, Elections for 56 Provincial People's 
Congress Representatives Nullified'' [Hunan yancha hengyang pohuai 
xuanju an 56 ming sheng renda daibiao dang xuan wuxiao], People's 
Daily, reprinted in China News, 30 December 13.
    \90\ Wang Shu, ``Hengyang Electoral Disruption Case Involved 110 
Million Yuan, Eligibility of 749 People's Congress Representatives 
Terminated'' [Hengyang pohuai xuanju an she an 1.1 yi yuan, zhongzhi 
749 ming renda daibiao zige], Beijing News, reprinted in Caijing, 18 
June 14; Rights Defense Network, ``In Hunan, Hengyang People's Congress 
Election Bribery Case, Hunan and Shandong Lawyers Announce Formation of 
Lawyers' Group'' [Hunan hengyang renda huixuan an xiang lu lushi tuan 
xuangao chengli], 19 March 14.
    \91\ ``Chinese Grassroots Elections: `Security Gates To Resist 
Chaos' '' [Zhongguo jiceng xuanju: ``diyu dongluan de anquan zhamen''], 
Deutsche Welle, 3 April 14.
    \92\ Ibid.
    \93\ Teddy Ng, ``Suspicion Clouds Wukan Leader's `Bribery' 
Arrest,'' South China Morning Post, 20 March 14; ``Chinese Grassroots 
Elections: `Security Gates To Resist Chaos' '' [Zhongguo jiceng xuanju: 
``diyu dongluan de anquan zhamen''], Deutsche Welle, 3 April 14; Rights 
Defense Network, ``2014 China Election Watch No. 6--Guangdong's Wukan 
Village `Big Election' (No. 2)--Lufeng City Government's Guidance of 
Wukan's Elections Is Illegal'' [Zhongguo xuanju guancha (2014) (zhi 
liu)--guangdong wukan cun ``da xuan'' (zhi er)--lufeng shi zhengfu 
zhidao de wukan cun xuanju shi feifa de], 25 March 14; ``Wukan Votes in 
New Election Amid Fears of Government `Pressure,' '' Radio Free Asia, 
31 March 14; Ping Shu, ``Does Wukan's Election Symbolize the Failure of 
Chinese Grassroots Democracy? '' [Wukan xuanju xiangzheng zhongguo 
jiceng minzhu shibai?], BBC, 1 April 14; Rights Defense Network, ``2014 
China Election Watch No. 3--Guangdong's Wukan Village `Big Election' 
(No. 1)--Decision of Shanwei City Chinese Communist Party Committee Is 
Contrary to the Spirit of Central Authorities'' [Zhongguo xuanju 
guancha (2014) zhisan--guangdong wukan cun ``daxuan'' (zhi yi)--
zhonggong shanwei shiwei de jueding yu zhongyang jingshen xiangbei], 18 
March 14.
    \94\ Thomas Lum, Congressional Research Service, ``Human Rights in 
China and U.S. Policy: Issues for the 113th Congress,'' 19 June 13, 5; 
``Wukan: After the Uprising,'' Al Jazeera, 26 July 13.
    \95\ Echo Hui, ``Wukan Protest Leader Yang Semao Arrested, Accused 
of Taking Bribes,'' South China Morning Post, 14 March 14; ``Chinese 
Grassroots Elections: `Security Gates To Resist Chaos' '' [Zhongguo 
jiceng xuanju: ``diyu dongluan de anquan zhamen''], Deutsche Welle, 3 
April 14.
    \96\ Teddy Ng, ``Suspicion Clouds Wukan Leader's `Bribery' 
Arrest,'' South China Morning Post, 20 March 14; ``Chinese Village 
Official's Detention Sparks Fears of Poll Rigging,'' Radio Free Asia, 
17 March 14; ``Second Wukan Leader Held Ahead of Closed-Door 
Elections,'' Radio Free Asia, 20 March 14. The March 20, 2014, RFA 
article reported that people spoke to Hong Ruichao ``to warn him not to 
take part in the elections.''
    \97\ ``Original Wukan Committee Member Seeks Asylum in America; 
Once Was Called `Wukan's Biggest Troublemaker' '' [Yuan wukan cunwei 
zhuang liehong zhiliu meiguo xunqiu zhengzhi bihu ceng bei cheng 
``wukan shouhai''], Global Times Net, reprinted in Observer, 27 March 
14.
    \98\ Echo Hui, ``Wukan Protest Leader Yang Semao Arrested, Accused 
of Taking Bribes,'' South China Morning Post, 15 March 14; ``Chinese 
Village Official's Detention Sparks Fears of Poll Rigging,'' Radio Free 
Asia, 17 March 14; Lin Meilian, ``Wukan Mired in Infighting Two Years 
After Landmark Election'' Global Times, 7 April 14; Echo Hui, ``Wukan 
Village's Future Under Threat as Ex-Cadres Retake Party Reins,'' South 
China Morning Post (SCMP), 4 March 14. According to the village chief 
quoted in the March 4, 2014, SCMP article, villages should hold four 
assembly meetings each year.
    \99\ Liang Saiyu et al., ``Wukan's Winding Path to China's 
Democratic Reform,'' Xinhua, reprinted in People's Daily, 1 April 14; 
Lin Meilian, ``Wukan Mired in Infighting Two Years After Landmark 
Election,'' Global Times, 7 April 14.
    \100\ ``Chinese Village Official's Detention Sparks Fears of Poll 
Rigging,'' Radio Free Asia, 17 March 14; Liang Saiyu et al., ``Wukan's 
Winding Path to China's Democratic Reform,'' Xinhua, reprinted in 
People's Daily, 1 April 14.
    \101\ ``Second Wukan Leader Held Ahead of Closed-Door Elections,'' 
Radio Free Asia, 20 March 14.
    \102\ Echo Hui, ``Deputy Wukan Chief Secures New Term Despite Graft 
Claims,'' South China Morning Post, 2 April 14.
    \103\ ``Second Wukan Leader Held Ahead of Closed-Door Elections,'' 
Radio Free Asia, 20 March 14; Xu Zhiyuan, ``A Person From Wukan in 
Flushing'' [Falasheng de wukan ren], Financial Times, 24 April 14; 
``Special Topic: Wukan's Democratic Enlightenment, Need Revised Laws To 
Challenge Election Results'' [Zhuanti: wukan minzhu qishi xu xiu fa 
tiaozhan xuanju jieguo], Radio Free Asia, 1 May 14.
    \104\ For more information about Zhuang Liehong and his role in the 
2011 Wukan demonstrations, see ``Wukan Youth: Zhang Jianxing,'' China 
Digital Times, 19 June 14.
    \105\ ``Original Wukan Committee Member Seeks Asylum in America; 
Once Was Called `Wukan's Biggest Troublemaker' '' [Yuan wukan cunwei 
Zhuang liehong zhiliu meiguo xunqiu zhengzhi bihu ceng bei cheng 
``wukan shouhai''], Global Times Net, reprinted in Observer, 27 March 
14; ``Wukan Votes in New Election Amid Fears of Government `Pressure,' 
'' Radio Free Asia, 31 March 14.
    \106\ For information on the earlier phases of the anticorruption 
campaign, see Alice Miller, ``The Road to the Third Plenum,'' China 
Leadership Monitor, Hoover Institution, Stanford University, No. 42 
(Fall 2013), 7 October 13, 8-10.
    \107\ See, e.g., Central Committee of the Communist Party General 
Office, State Council General Office, Regulations Promoting Frugality 
and Curbing Waste in Party and Government Agencies [Dangzheng jiguan 
lixing jieyue fandui langfei tiaoli], reprinted in Xinhua, issued and 
effective 25 November 13; Central Committee of the Communist Party 
General Office, State Council General Office, Party and Government 
Agencies' Domestic Official Receptions Management Provisions [Dangzheng 
jiguan guonei gongwu jiedai guanli guiding], reprinted in Xinhua, 
issued and effective 8 December 13; Ministry of Finance et al., Central 
and State Agency Meeting Funds Management Measures [Zhongyang he guojia 
jiguan huiyi fei guanli banfa], reprinted in People's Daily, issued 13 
September 13, effective 1 January 14; Ministry of Supervision et al., 
Provisions on Punishments for Granting Allowances and Subsidies in 
Violation of Regulations [Weigui fafang jintie butie xingwei chufen 
guiding], reprinted in Chinese Communist Party Information Net, issued 
13 June 13, effective 1 August 13; Central Discipline Inspection 
Commission and Central Party Mass Line Education and Implementation 
Campaign Leading Small Group, Circular Regarding Implementing the 
Spirit of the Central Government's Eight Rules and Resolutely Halting 
the Use of Public Funds To Purchase Gifts During Mid-Autumn Festival 
and National Day Among Other Unhealthy Tendencies [Guanyu luoshi 
zhongyang baxiang guiding jingshen jianjue shazhu zhongqiu guoqing 
qijian gongkuan songli deng buzhengzhifeng de tongzhi], reprinted in 
Xinhua, 3 September 13; ``Central Discipline Inspection Commission: 
Strictly Prohibits Use of Public Funds To Purchase Merchandise Such as 
Fireworks and Firecrackers To Present as Gifts on New Year's Day and 
During the Spring Festival'' [Zhongyang jiwei: yanjin yuandan chunjie 
qijian gongkuan goumai zengsong yanhua baozhu deng], Xinhua, reprinted 
in PRC Central People's Government, 21 November 13.
    \108\ ``CCP Organization Department Issues Notification Regarding 
Moving Forward and Doing Better Reporting Work on Relevant Personal 
Matters by Leading Cadres'' [Zhong zu bu yinfa tongzhi jin yibu zuohao 
lingdao ganbu baogao geren youguan shixiang gongzuo], Xinhua, 29 
December 13. The Party reportedly issued a notification on December 7, 
2013, to strengthen oversight of asset reporting by officials. The full 
text of the notification, however, does not appear to be available to 
the public. It reportedly will require random checks of reports 
submitted by officials. Chinese Communist Party Central Organization 
Department, Comprehensive Measures for Compiling Data on Reporting of 
Relevant Personal Matters by Leading Cadres [Lingdao ganbu geren 
youguan shixiang baogao cailiao huizong zonghe banfa], issued and 
effective 4 September 13. The Party Organization department issued 
related measures to standardize the compilation and analysis of reports 
filed by officials about their finances.
    \109\ ``2013-2017 Work Plan: Highlight of New Anti-Corruption Plan 
Is In Reforming the Disciplinary Inspection System'' [2013-2017 nian 
gongzuo jihua: xin fanfu guihua de liangdian zaiyu gaige jijian tizhi], 
Hubei Internet, Radio and Television, 30 August 13.
    \110\ Chinese Communist Party Central Organization Department, 
Measures for the Administration of Postings for State Personnel With 
Spouses Residing Abroad [Pei'ou yi yiju guo (jing) wai de guojia 
gongzuo renyuan renzhi gangwei guanli banfa], reprinted in Hunan Legal 
Services Net, issued 2014, art. 3. The Commission could not locate a 
copy of these Measures indicating its date of issuance. ``CCP Defines 
Five Types of `Naked Officials' Needing Investigation, 10 Provinces 
Already Examining `Naked Officials' '' [Zhonggong dingyi 5 lei luo guan 
xu qingli 10 sheng qidong diaocha qingli luoguan], Radio Free Asia, 15 
July 14. RFA asserted the Measures were issued in 2013. See also 
``National Probe Into Officials Closes, At the Earliest, Personnel 
Changes Will Be Complete By Month's End'' [Quanguo luoguan modi jieshu 
zuikuai yue di wancheng diao gang], Beijing News, reprinted in People's 
Daily, 6 August 14. According to Beijing News, to avoid being demoted, 
dismissed, or disciplined, an official must accept being reassigned or 
their spouse must renounce their status in the foreign country.
    \111\ ``National Probe Into Officials Closes, At the Earliest, 
Personnel Changes Will Be Complete By Month's End'' [Quanguo luoguan 
modi jieshu zuikuai yue di wancheng diao gang], Beijing News, reprinted 
in People's Daily, 6 August 14.
    \112\ Zhou Dongxu, ``Market Reforms, Fight Against Corruption Go 
Hand in Hand, Expert Says,'' Caixin, 22 July 14.
    \113\ Ting Shi, ``China Orders More Than 200 Top Officials To Quit 
Company Jobs,'' Bloomberg, 23 July 14.
    \114\ ``China Fights Corruption Through Stricter Audits,'' Xinhua, 
5 February 14.
    \115\ ``Supreme People's Procuratorate: To Establish Database of 
Graft Suspects at Large'' [Zuigaojian: jianli zai tao zhiwu fanzui 
xianyiren xinxi shujuku], Procuratorial Daily, reprinted in Legal 
Daily, 28 March 14.
    \116\ Central Discipline Inspection Commission and Ministry of 
Supervision, ``Weekly Report: Central Discipline Inspection Commission 
and Ministry of Supervision Investigate and Punish 220 Classic Cases of 
Violating the Spirit of the Central Party Eight Rules'' [Mei zhou 
tongbao: geji jijian jiancha jiguan chachu 220 jian weifan zhongyang ba 
xiang guiding jingshen dianxing anjian], 14 April 14; Central 
Discipline Inspection Commission and Ministry of Supervision, 
``Exposure Platform--Central Discipline Inspection Commission'' 
[Baoguangtai-zhongyang jiwei], last visited 22 April 14.
    \117\ ``Li Keqiang: Speech at the Second State Council Clean 
Government Work Meeting'' [Li keqiang: zai guowuyuan di erci lianzheng 
gongzuo huiyi shang de jianghua], Xinhua, 23 February 14. In February 
2014, Premier Li Keqiang reported on several achievements of the 
campaigns including a halt to construction of government buildings, a 5 
percent reduction in central agencies' expenditures, a 52 percent 
reduction in the number of government meetings, and a 35 percent 
reduction in the ``three public'' expenditures.
    \118\ ``Disciplinary Inspections Reveal Problems in Anti-Decadence 
Campaign,'' Xinhua, 16 June 14.
    \119\ ``China's Phony War on Corruption,'' Wall Street Journal, 18 
September 13. The Wall Street Journal reported that Xi's anticorruption 
campaign may not have a lasting effect and noted a new motto of 
officials, ``to eat quietly, to take gently and to play secretly.''
    \120\ Zhao Enuo, ``Report Says Top One Percent of the Country's 
Families Hold More Than One-Third of the Nation's Wealth'' [Baogao 
cheng woguo dingduan 1% de jiating zhanyou quanguo san fenzhi yi yi 
shang caichan], People's Daily, 25 July 14.
    \121\ Pew Research Center, ``Environmental Concerns on the Rise in 
China, Many Also Worried About Inflation, Inequality, Corruption,'' 19 
September 14, 2. A 2013 Pew survey found that 53 percent of Chinese 
citizens surveyed were concerned about corruption, a 14 percent 
increase from 2008.
    \122\ See, e.g., Yu Ning and He Xin, ``Inquiry Reveals Tangled Web 
of Graft Linking Officials and Businessmen,'' Caixin, 5 May 14; Central 
Discipline Inspection Commission, Ministry of Supervision, 
``Investigation Organized for Henan Province, Zhumadian City's Party 
Secretary Liu Guoqing'' [Henan sheng zhumadian shiwei shuji liu guoqing 
shou zuzhi diaocha], reprinted in Legal Daily, 25 April 14; Josh Chin, 
``Communist Party Strips China Resources Chairman of Leadership 
Position,'' Wall Street Journal, 19 April 14; Josh Chin, ``Corruption 
Case Cracks Door on China's Internet Police,'' Wall Street Journal, 
China Real Time (blog), 18 April 14; Fayen Wong, ``Senior Official From 
China's Sichuan Under Graft Probe: Xinhua,'' Reuters, 13 April 14; 
``This Year, Six Provincial and Ministerial-Level Officials Have Been 
Investigated'' [Jinnian yi bei diaocha de 6 ming shengbuji guanyuan bei 
diaocha], Dahe Net, 14 April 14; ``Chinese Vice Governor in Corruption 
Investigation,'' Associated Press, reprinted in Washington Post, 18 
February 14; ``2013 Main Cases Investigated'' [2013 chachu da'an 
yaoan], Chinese Communist Party Information Net, last visited 1 June 
14; Yimo Lee, ``Communist Party Expels Former Executive at China Mobile 
Parent,'' Reuters, 14 January 14; ``China Investigates Vice Minister of 
Public Security,'' Xinhua, 20 December 13; Chris Buckley, ``Mayor of 
Chinese City Is Held by Communist Party Investigators,'' New York 
Times, 16 October 13; Chris Buckley, ``China's Antigraft Push Snares an 
Ex-General,'' New York Times, 30 June 14.
    \123\ Keith Zhai, ``Communist Party Seeks To Reform Its `Shuanggui' 
Anti-Corruption Investigations,'' South China Morning Post, 22 November 
13.
    \124\ ``Chinese Government Punishes 20,000 `Extravagant' 
Officials,'' Guardian, 2 December 13.
    \125\ Zhang Xiaosong, ``China Gave 84,000 Officials Disciplinary 
Sanctions During the First Half of This Year, Up 30 Percent From Last 
Year'' [Jinnian shang ban nian zhongguo geiyu dangji zhengji chufen 8.4 
wan ren tongbi zengyu 30%], Xinhua, 14 August 14.
    \126\ Huo Xiaoguang and Yang Weihan, ``Bo Xilai Case Second 
Instance Judgment Pronounced, Shandong High Court Decides To Uphold 
First Instance Judgment of Life Imprisonment'' [Bo xilai an er shen 
xuanpan shandong gaoyuan caiding weichi yi shen wuqi tuxing panjue], 
Xinhua, 25 October 13. The Shandong High People's Court upheld the 
first instance judgment of life imprisonment and other punishments 
against Bo Xilai pronounced in September 2012. For more information on 
Bo's case, see ``Judgment in First Instance Trial of Bo Xilai for 
Bribery, Embezzlement, and Abuse of Power (Full Text)'' [Bo xilai 
shouhui, tanwu, lanyong zhiquan an yishen panjueshu (quanwen)], 
People's Daily, reprinted in China News Service, 22 September 13; 
``Transcript Summary of Bo Xilai's Trial for Bribery, Embezzlement, and 
Abuse of Power,'' People's Daily, 26 August 13; ``Trial of Bo Xilai: 
Evidence, Charges and Defense,'' China Daily, 28 August 13;
    \127\ Donald Clarke, ``The Bo Xilai Trial and China's `Rule of 
Law': Same Old, Same Old,'' Atlantic, 21 August 13. See also CECC, 2013 
Annual Report, 10 October 13, 80-84. Bo reported that his confession 
was made under pressure. ``Lawyer Gu Yushu Says Not Allowed To 
Represent Bo Xilai,'' Reuters, reprinted in South China Morning Post, 8 
August 13. Authorities reportedly also denied him counsel while he was 
held in shuanggui detention and denied permission for a lawyer retained 
by his family to represent him in court. Jerome A. Cohen, ``Criminal 
Justice in China: From the Gang of Four to Bo Xilai,'' Human Rights 
Watch, 25 July 13.
    \128\ Henry Sanderson, ``China Investigates Ex-Security Chief Zhou 
Yongkang, NYT Says,'' Bloomberg, 16 December 13; Benjamin Kang Lim and 
Ben Blanchard, ``China Seizes $14.5 Billion in Assets From Family, 
Associates of Former Security Chief,'' Washington Post, 30 March 14; 
Jeremy Page, ``China Reins in New Security Boss's Clout,'' Wall Street 
Journal, 20 November 12; ``Zhou Yongkang, Former Security Tsar Linked 
to Bo Xilai, Faces Corruption Probe,'' South China Morning Post, 30 
August 13.
    \129\ Benjamin Kang Lim and Ben Blanchard, ``China Seizes $14.5 
Billion in Assets From Family, Associates of Former Security Chief,'' 
Washington Post, 30 March 14.
    \130\ Jerome A. Cohen, ``Zhou Yongkang Case Shows China's Rule of 
Law Still Good Only in Theory,'' South China Morning Post, 18 August 
14; Carrie Gracie, ``China Bares Its Claws for `Caged Tiger' Zhou 
Yongkang,'' BBC, 29 July 14; Chang Ping, ``Zhou Yongkang Case Has 
Nothing to Do With Anti-Corruption Resolve,'' Apple Daily, 6 December 
13, reprinted in China Change, 17 December 13.
    \131\ ``Communist Party Central Committee Decides To Open 
Investigation Into Zhou Yongkang on Suspicion of Serious Disciplinary 
Violations'' [Zhonggong zhongyang jueding dui zhou yongkang yanzhong 
weiji wenti li'an shencha], Xinhua, 29 July 14.
    \132\ Keith Zhai, ``Communist Party Seeks To Reform Its `Shuanggui' 
Anti-Corruption Investigations,'' South China Morning Post, 22 November 
13.
    \133\ Leon Watson, ``Limbs Broken, Spoon-Fed Excrement and Forced 
To Smoke Ten Cigarettes Simultaneously: Former Chinese Official Reveals 
How He Was Tortured for Six Months in Corruption Probe,'' Daily Mail, 
11 March 14; ``Hunan Bureau Chief With Broken Leg Exposes Torture in 
Shuanggui Retaliated Against by Having His `Food Cut Off' '' [Hunan 
duantui juzhang pilu shuanggui xingnue zao ``duanliang'' baofu], Radio 
Free Asia, 10 March 14.
    \134\ Gillian Wong, ``China Ex-Officials See Reprisals for Baring 
Abuses,'' Associated Press, 22 July 14.
    \135\ Ibid.; Chinese Human Rights Defenders, ``[CHRB]: Details of 
Torture Emerge, Official Order Blocks Detainees' Access to Lawyers (8/
7-14/2014),'' 14 August 14.
    \136\ ``54 Officials Die Unnatural Deaths in 2013, More Than 40 
Percent Were Suicides'' [2013 nian yilai 54 ming guanyuan fei 
zhengchang siwang chao sicheng shi zisha], China Youth Daily, reprinted 
in Legal Daily, 11 April 14. Fifty-four officials reportedly died in 
unusual circumstances between January 2013 and April 2014, including 23 
who reportedly committed suicide.
    \137\ Benjamin Kang Lin and Megha Rajagopalan, ``China's Xi Purging 
Corrupt Officials To Put Own Men in Place--Sources,'' Reuters, 17 April 
14; Simon Denyer, ``China's Leader, Xi Jinping, Consolidates Power With 
Crackdowns on Corruption, Internet,'' Washington Post, 3 October 13; 
Didi Tang, ``China's Vice Crackdown Tackles Entrenched Industry,'' 
Associated Press, 21 February 14.
    \138\ ``Central Discipline Inspection Commission Official Web Site: 
Corrupt Officials Very Nervous, There Is No `Selective Anti-Corruption' 
'' [Zhong jiwei guanwang: tanguan gaodu jinzhang bu cunzai ``xuanzexing 
fanfu''], Beijing Times, reprinted in Caijing, 17 April 14.
    \139\ For additional information on the detention and imprisonment 
of anticorruption and transparency advocates, see ``Xi's Anticorruption 
Drive: Trials for Transparency Advocates, New Rules for Officials,'' 
CECC China Human Rights and Rule of Law Update, No. 1, March 2014, 2; 
``Combating Corruption in China: Advances and Problems and Suppression 
of Advocates,'' CECC China Human Rights and Rule of Law Update, No. 2, 
December 2013, 2.
    \140\ Sui-Lee Wee, ``China Convicts Two Anti-Graft Activists in 
Crackdown,'' Reuters, 29 January 14; Chris Buckley, ``In China, A Week 
Full of Trials Over Dissent,'' New York Times, Sinosphere (blog), 21 
January 14; Jonathan Kaiman, ``China Jails Four More New Citizens' 
Movement Activists,'' Guardian, 18 April 14. According to these 
sources, authorities charged Yuan and Zhang with ``gathering a crowd to 
disturb order in a public place.'' For more information, see the 
Commission's Political Prisoner Database records 2013-00131 on Yuan 
Dong and 2013-00132 on Zhang Baocheng.
    \141\ Jonathan Kaiman, ``China Jails Four More New Citizens' 
Movement Activists,'' Guardian, 18 April 14. Authorities sentenced Ding 
on the charge of ``gathering a crowd to disturb order in a public 
place.'' For more information, see the Commission's Political Prisoner 
Database record 2013-00307 on Ding Jiaxi.
    \142\ Beijing Municipal Haidian District People's Procuratorate, 
``Indictment of Ding Jiaxi and Li Wei by Beijing Municipal Haidian 
District People's Procuratorate,'' reprinted in China Change, 21 
December 13.
    \143\ Jonathan Kaiman, ``China Jails Four More New Citizens' 
Movement Activists,'' Guardian, 18 April 14. Authorities charged Zhao 
and Li with ``gathering a crowd to disturb order in a public place.'' 
For more information, see the Commission's Political Prisoner Database 
records 2013-05226 on Zhao Changqing, and 2004-00308 on Li Wei.
    \144\ Rights Defense Network, ``Democracy Rights Activist Zhao 
Changqing Indictment Sent to Haidian Court (Image)'' [Minzhu weiquan 
renshi zhao changqing bei qisu dao haidian fayuan (tu)], 20 December 
13; Beijing Municipal Haidian District People's Procuratorate, 
``Indictment of Ding Jiaxi and Li Wei by Beijing Municipal Haidian 
District People's Procuratorate,'' reprinted in China Change, 21 
December 13.
    \145\ Josh Chin, ``China Hands Out Harsh Sentences to 
Anticorruption Activists,'' Wall Street Journal, 19 June 14. 
Authorities sentenced Liu, Wei, and Li for ``picking quarrels and 
provoking trouble,'' and in addition, sentenced Liu and Wei with the 
additional charges of ``gathering a crowd to disturb order in a public 
place'' and ``using a cult to undermine implementation of the law.'' 
Rights Defense Network, ``Rights Defense Network Statement: Strongly 
Protests Jiangxi, Xinyu Authorities' Heavy Sentences for Liu Ping, Wei 
Zhongping, and Li Sihua'' [Weiquanwang shengming: qianglie kangyi 
jiangxi xinyu dangju zhong pan liu ping, wei zhongping, li sihua], 19 
June 14. According to Rights Defense Network, officials initially 
arrested Liu for ``inciting subversion of state power.'' Rights Defense 
Network, ``Liu Ping, Wei Zhongping, Li Sihua Court of Second Instance 
Refuses To Hold Court Hearing and Upholds Original Verdict, Liu Ping 
Sent to Jiangxi Women's Prison'' [Liu ping, wei zhongping, li sihua jin 
er shen jue bu kaiting weichi yuan pan liu ping ru jiangxi sheng nu 
jian], 11 August 14.
    \146\ Human Rights in China, ``Two New Charges for Asset 
Transparency Advocate Liu Ping,'' 29 August 13; Patrick Boehler, 
``Chinese Activist Detained `For Inciting Subversion of State Power,' 
'' South China Morning Post, 8 May 13; Rights Defense Network, 
``Jiangxi Rights Advocates Liu Ping, Wei Zhongping and Li Sihua Will Be 
Tried for Their `Crimes' on July 18th'' [Jiangxi weiquan renshi liu 
ping, wei zhongping, li sihua bei sanyi zuiming, 18 hao jiang chuting 
shoushen], 11 July 13; Rights Defense Network, `` `Rights Defense 
Network' Strongly Protests Detention of Citizens `Demanding Disclosure 
of Officials' Assets' by Beijing and Jiangxi Authorities'' 
[``Weiquanwang'' yanzheng kangyi beijing he jiangxi dangju jubu 
``yaoqiu guanyuan gongbu caichan'' de gongmin], 8 May 13. According to 
Rights Defense Network, authorities denied Liu access to a lawyer.
    \147\ Rights Defense Network, ``Rights Defense Network Statement: 
Strongly Protests Jiangxi, Xinyu Authorities' Heavy Sentences for Liu 
Ping, Wei Zhongping, and Li Sihua'' [Weiquanwang shengming: qianglie 
kangyi jiangxi xinyu dangju zhong pan liu ping, wei zhongping, li 
sihua], 19 June 14. According to Rights Defense Network, authorities 
tried Liu and Wei on the charges of ``picking quarrels and provoking 
trouble,'' ``gathering a crowd to disturb public order,'' and ``using a 
cult to undermine implementation of the law.'' For additional 
information on the cases of Liu, Wei, and Li, see Human Rights in 
China, ``Two New Charges for Asset Transparency Advocate Liu Ping,'' 29 
August 13; Patrick Boehler, ``Chinese Activist Detained `For Inciting 
Subversion of State Power,' '' South China Morning Post, 8 May 13.
    \148\ ``Huang Wenxun (CPPC Number: 00069)'' [Huang wenxun (CPPC 
bianhao: 00069)], China Political Prisoner of Concern (blog), 10 March 
14.
    \149\ Chinese Human Rights Defenders, ``Prisoner of Conscience--
Yuan Xiaohua,'' 9 April 14.
    \150\ Chinese Human Rights Defenders, ``Prisoner of Conscience--
Yuan Fengchu,'' 9 April 14.
    \151\ ``Liu Jiacai (CPPC Number: 00074)'' [Liu jiacai (CPPC 
bianhao: 00074)], China Political Prisoner of Concern (blog), 16 March 
14.
    \152\ Jiang Yanxin, ``Units Receiving Government Allocations Must 
Disclose All Budgets and Financial Accounts'' [Caizheng bokuan danwei 
yu jue suan xu quan gongkai], Beijing News, 19 March 14.
    \153\ ``Zhang Dejiang: Strengthen Legislative Procedure Propaganda, 
Announcements Through China NPC Net'' [Zhang dejiang: jiaqiang lifa 
quan cheng xuanchuan tongguo zhongguo renda wang gongbu], China News 
Service, 9 March 14.
    \154\ Liu Rong, ``First Major Revision of the Legislation Law: Plan 
To Give 233 New Cities Legislative Authority'' [Lifa fa chuci da xiu: 
nixin zeng 233 ge chengshi de difang lifa quan], People's Daily, 25 
August 14; National People's Congress Standing Committee, Legislation 
Law Amendment (Draft) Provisions [Lifa fa xiuzheng an (caoan) tiaowen], 
31 August 14. Article 35 of the original Law on Legislation stipulated 
that the NPC Standing Committee decided which draft laws could be made 
available for public review and comment. Article 37 of the draft 
amendment stipulated that draft laws on the calendar of the Standing 
Committee shall be announced through the Internet and the media and 
suggestions solicited, except those exempted by the NPC Standing 
Committee.
    \155\ US-China Business Council, ``USCBC 2013 China Business 
Environment Survey Results,'' 10 October 13.
    \156\ State Council General Office, Opinion Regarding Advancing and 
Strengthening Open Government Information in Response to Society's 
Concerns and To Enhance Public Trust in Government [Guanyu jin yi bu 
jiaqiang zhengfu xinxi gongkai huiying shehui guanqie tisheng zhengfu 
gong xin li de yijian], 1 October 13.
    \157\ State Council, Implementing Regulations for the PRC Law on 
the Protection of State Secrets [Zhonghua renmin gonghe guo baoshou 
guojia mimi fa shishi tiaoli], issued 17 January 14, effective 1 March 
14.
    \158\ Ibid., art. 5.
    \159\ ``China's New State Secret Classification Standards Unclear'' 
[Zhongguo xin baomi fa jimi biaozhun dingyi buming], Voice of America, 
5 February 14; Shi Rui, ``New State Secrets Law Details Issued, 
Scholars Say Watching Implementation Will Be Key'' [Xin baomi fa xize 
gongbu xuezhe cheng guanjian kan zhixing], Caixin, 8 February 14; 
Richard Silk, ``China's Secret Anti-Secrecy Act,'' Wall Street Journal, 
China Real Time (blog), 3 February 14; Bingna Gao et al., O'Melveny & 
Myers LLP, ``China Releases New Implementation Regulations for State 
Secrecy Law,'' 5 March 14.
    \160\ ``State Council General Office Issues 2014 Open Government 
Information Key Work Points (Full Text)'' [Guowuyuan bangongting fabu 
2014 nian zhengfu xinxi gongkai gongzuo yaodian (quanwen)], People's 
Daily, 1 April 14, secs. 3-6.
    \161\ Ibid., sec. 1.
    \162\ Wang Dianxue and Wu Bin, ``Open Government Information 
Request Cases Rise Sharply, Majority of Plaintiffs Lose'' [Shenqing 
xinxi gongkai anjian jizeng yuangao baisu ju duo], Southern 
Metropolitan Daily, 16 October 13.
    \163\ UN GAOR, Hum. Rts. Coun., 17th Sess., Summary prepared by the 
Office of the High Commissioner for Human Rights, In Accordance with 
Paragraph 15 (b) of the Annex to Human Rights Council Resolution 5/1 
and Paragraph 5 of the Annex to Council Resolution 16/21, People's 
Republic of China (Including Hong Kong and Macao Special Administrative 
Regions (HKSAR) (MSAR)) National Report--China, A/HRC/WG.6/17/CHN/3, 30 
July 13, para. 45.
    \164\ `` `Government Transparency Statistical Report' Issued: 
Proactive Disclosure Still Not Ideal'' [``Zhengfu touming du zhishu 
baogao'' fabu: zhudong gongkai reng bu lixiang], China Economic Net, 
reprinted in People's Daily, 24 February 14.
    \165\ Ibid.
    \166\ Wang Dianxue and Wu Bin, ``Open Government Information 
Request Cases Rise Sharply, Majority of Plaintiffs Lose'' [Shenqing 
xinxi gongkai anjian jizeng yuangao baisu ju duo], Southern 
Metropolitan Daily, 16 October 13.
    \167\ Ibid.
    \168\ Shanghai Municipal People's Government, ``2013 Shanghai 
Municipality Open Government Information Work Annual Report'' [2013 
nian shanghaishi zhengfu xinxi gongkai gongzuo niandu baogao], March 
2014.
    \169\ Beijing Municipal People's Government, ``2013 Beijing 
Municipality Open Government Information Work Annual Report'' [2013 
nian beijingshi zhengfu xinxi gongkai gongzuo niandu baogao], March 
2014, 12-13.
    \170\ Guangzhou Municipal People's Government, ``2013 Guangzhou 
Municipal Open Government Information Annual Report'' [2013 nian 
guangzhoushi zhengfu xinxi gongkai niandu baogao], March 2014.
    Notes to Section III--Commercial Rule of Law

    \1\ See World Trade Organization, ``Protocols of Accession for New 
Members Since 1995, Including Commitments in Good and Services,'' last 
visited 28 July 14. China became a member of the World Trade 
Organization (WTO) on December 11, 2001. A list of members and their 
dates of membership is available on the WTO Web site.
    \2\ Information on China's participation in the World Trade 
Organization (WTO), including principal accession documents, schedules, 
trade policy reviews, and dispute case documents, can be found on the 
WTO Web site. China's commitments are outlined in these documents, as 
well as in WTO agreements applicable to all members, including the 
General Agreement on Tariffs and Trade (GATT 1947) and the Trade-
Related Aspects of Intellectual Property Rights. See World Trade 
Organization, ``WTO Legal Texts,'' last visited 28 July 14; World Trade 
Organization, WTO Agreement, Marrakesh Agreement, Establishing the 
World Trade Organization, Annex 1A, General Agreement on Tariffs and 
Trade 1994, 15 April 1994, art. X. Transparency requirements include 
those under Article X of GATT: ``Laws, regulations, judicial decisions 
and administrative rulings of general application, . . . , shall be 
published promptly in such a manner as to enable governments and 
traders to become acquainted with them.'' See, e.g., Sijie Chen, 
``China's Compliance With WTO Transparency Requirements: Institution-
Related Impediments,'' Amsterdam Law Forum, Vol. 4, No. 4 (Fall 2012), 
25.
    \3\ World Trade Organization, Report on the Working Party on the 
Accession of China, 
WT/ACC/CHN/49, 1 October 01, 34. See also Claustre Bajona and Tianshu 
Chu, ``China's WTO Accession and Its Effect on State-Owned 
Enterprises,'' East-West Center, No. 70, April 2004, 16.
    \4\ See World Trade Organization, ``Protocols of Accession for New 
Members Since 1995, Including Commitments in Goods and Services,'' last 
visited 28 July 14. See also U.S. Chamber of Commerce, ``China's 
Approval Process for Inbound Foreign Direct Investment: Impact on 
Market Access, National Treatment and Transparency,'' 11 November 12, 
4, 19, 29-30, 39, 41; Trade Lawyers Advisory Group, ``China's 
Compliance With WTO Commitments and Obligations: 2005-2007 Update,'' 
reprinted in U.S.-China Economic and Security Review Commission, 
September 2007, 6-8.
    \5\ See World Trade Organization, WTO Agreement, Marrakesh 
Agreement, Establishing the World Trade Organization, Annex 1C, 
Agreement on Trade-Related Aspects of Intellectual Property Rights, 15 
April 94.
    \6\ See Donald C. Clarke, ``China's Legal System and the WTO: 
Prospects for Compliance,'' Washington University Global Studies Law 
Review, Vol. 2, No. 1 (2003), 113-15.
    \7\ U.S. Government Accountability Office, ``U.S.-China Trade: 
United States Has Secured Commitments in Key Bilateral Dialogues, but 
U.S. Agency Reporting on Status Should Be Improved,'' February 2014, 6.
    \8\ U.S. International Trade Commission, Interactive Tariff and 
Trade DataWeb, last visited 1 July 14; China's Compliance with the 
World Trade Organization and International Trade Rules, Hearing of the 
Congressional-Executive Commission on China, 15 January 14, Written 
Statement Submitted by Elizabeth J. Drake, Partner, Stewart and 
Stewart, 1.
    \9\ Daniel H. Rosen and Thilo Hanemann, Rhodium Group and U.S. 
Chamber of Commerce, ``New Realities in the US-China Investment 
Relationship,'' April 2014, 5. See also Bureau of Economic and Business 
Affairs, U.S. Department of State, ``2014 Investment Climate Statement 
China,'' June 2014, 26-27.
    \10\ Thilo Hanemann and Cassie Gao, Rhodium Group, ``Chinese FDI in 
the US: 2013 Recap and 2014 Outlook,'' 7 January 14.
    \11\ Office of the U.S. Trade Representative, ``2013 Report to 
Congress on China's WTO Compliance,'' December 2013; Chris Wilson, 
Office of the United States Trade Representative, ``United States 
Statement at the World Trade Organization Trade Policy Review of the 
People's Republic of China,'' 1 July 14.
    \12\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], reprinted in Xinhua, 15 November 13, secs. 1(2), 2(intro); 
Chris Wilson, Office of the U.S. Trade Representative, ``United States 
Statement at the World Trade Organization Trade Policy Review of the 
People's Republic of China,'' 1 July 14; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="400b2e2f372c252427250017282132342f2e">[email&#160;protected]</a>, Wharton 
School, University of Pennsylvania, ``Road to the Chinese Dream? Xi 
Jinping's Third Plenum Reform Plan,'' 10 December 13.
    \13\ Shanghai Municipal People's Government, Measures for the 
Administration of China (Shanghai) Pilot Free Trade Zone (Municipal 
Decree No. 7) [Zhongguo (shanghai) ziyou maoyi shiyan qu guanli banfa 
(shi zhengfu ling di 7 hao)], issued 29 September 13, effective 1 
October 13.
    \14\ PRC Trademark Law [Zhonghua renmin gongheguo shangbiao fa], 
passed 23 August 82, amended 22 February 93, 27 October 01, 30 August 
13, effective 1 May 14.
    \15\ Ministry of Finance, ``2014 January to June State-Owned 
Enterprise and State-Controlled Enterprise Economic Situation'' [2014 
nian 1-6 yue guoyou ji guoyou kongqu qiye jingjing yunxing qingkuang], 
17 July 14. The term SOE is often used, including by the Chinese 
government, to refer to both state-owned and state-controlled 
enterprises.
    \16\ Charlene Barshefsky and Long Yongtu, ``A Win-Win Possibility 
for China-U.S. Trade Bilateral Investment Strategy Talk on July 9-10 
Could Pay Big Dividends,'' Wall Street Journal, 30 June 14; Andrew 
Batson, ``The SOE Irritant in U.S.-China Relations,'' Wall Street 
Journal, 7 July 13.
    \17\ World Trade Organization, Report on the Working Party on the 
Accession of China, 
WT/ACC/CHN/49, 1 October 01, 34.
    \18\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], reprinted in Xinhua, 15 November 13, secs. 1(2), 2(intro).
    \19\ See, e.g., Joseph Sternberg, ``The Day the Chinese SOE Went to 
Court,'' Wall Street Journal, 26 March 14.
    \20\ American Chamber of Commerce in the People's Republic of 
China, ``2014 China Business Climate Survey Report,'' 2014, 10.
    \21\ ``List of Central State-Owned Enterprises'' [Yangqi minglu], 
State-Owned Assets Supervision and Administration Commission of the 
State Council, last visited 1 July 14.
    \22\ Note that SOEs includes state-owned enterprises together with 
state-controlled enterprises. See ``China Focus: China Pledges Further 
Reform for State-Dominated Sectors,'' Xinhua, 24 October 12; ``All-
Round Reform,'' China Daily, 13 November 13; Dong Zhang and Owen 
Freestone, Australian Government, The Treasury, ``China's Unfinished 
State-Owned Enterprise Reforms,'' Economic Roundup, Issue 2, 2013.
    \23\ Zhao Lingling and Yang Kai, ``92 State-Owned Enterprises Shine 
on Fortune 500 List'' [92 jia guoyou qiye shanyao shijie 500 qiang 
bangdan], China State-Owned Assets Report, 15 July 14.
    \24\ Dong Zhang and Owen Freestone, Australian Government, The 
Treasury, ``China's Unfinished State-Owned Enterprise Reforms,'' 
Economic Roundup, Issue 2, 2013.
    \25\ KPMG, ``State-Owned Entities: From Centrally-Planned Origins 
to Hybrid Market Competitors,'' June 2013, 4-5; Gao Yu and Wang Heyan, 
``How the Hammer Falls as China Nails Corruption,'' Caixin, 24 July 14; 
James T. Areddy and Laurie Burkitt, ``China Communist Party Ousts 
Chairman of Major State-Owned Firm,'' Wall Street Journal, 22 April 14.
    \26\ KPMG, ``State-Owned Entities: From Centrally-Planned Origins 
to Hybrid Market Competitors,'' June 2013, 3-4; Richard McGregor, The 
Party: The Secret World of China's Communist Rulers (New York: Harper 
Collins, 2010), 34-69; Richard McGregor, ``China's Private Party,'' 
Wall Street Journal, 15 May 10.
    \27\ Daniel C.K. Chow, ``China's Indigenous Innovation Policies and 
the World Trade Organization,'' Northwestern Journal of International 
Law & Business, Vol. 34, Issue 1 (Fall 2013), 81, 84.
    \28\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], reprinted in Xinhua, 15 November 13, sec. 2(6); Zheng 
Yangpeng, ``Private Firms Shy Away From SOEs,'' China Daily, 10 April 
14; Meng Jing, ``Feelings Are Mixed Over Mixed-Ownership Model,'' China 
Daily, 13 March 14.
    \29\ Office of the U.S. Trade Representative, ``2013 Report to 
Congress on China's WTO Compliance,'' December 2013, 46; Daniel C.K. 
Chow, ``China's Indigenous Innovation Policies and the World Trade 
Organization,'' Northwestern Journal of International Law & Business, 
Vol. 34, Issue 1 (Fall 2013), 81, 84.
    \30\ Daniel C.K. Chow, ``China's Indigenous Innovation Policies and 
the World Trade Organization,'' Northwestern Journal of International 
Law & Business, Vol. 34, Issue 1 (Fall 2013), 81, 84.
    \31\ Ministry of Science and Technology, Department of Policies, 
Laws, and Regulations, ``Determination and Administration of New and 
High Technology Companies: Policy Questions and Answers'' [Gao xin 
jishu qiye rending guanli zhengce wenda], October 2013, 2, 4-6; Office 
of the United States Trade Representative, ``2014 Special 301 Report,'' 
April 2014, 35.
    \32\ Office of the U.S. Trade Representative, ``2013 Report to 
Congress on China's WTO Compliance,'' December 2013, 3, 76.
    \33\ Ibid., 46-47.
    \34\ American Chamber of Commerce in the People's Republic of 
China, ``2014 China Business Climate Survey Report,'' 2014, 12; Simon 
Denyer, ``U.S. Companies Feel a Chill in China, Even as Many Still Rake 
in Profits,'' Washington Post, 4 July 14; Benjamin Shobert, ``Three 
Ways To Understand GSK's China Scandal,'' Forbes, 4 September 13.
    \35\ Chris Wilson, Office of the U.S. Trade Representative, 
``United States Statement at the World Trade Organization Trade Policy 
Review of the People's Republic of China,'' 1 July 14; Angelos 
Pangratis, Mission to the World Trade Organization, European Union, 
``European Union Statement on 5th Trade Policy Review of China,'' 
reprinted in China Trade Extra, 1 July 14.
    \36\ Ibid.
    \37\ US-China Business Council, ``China 2014 Regulatory 
Transparency Scorecard,'' March 2014, 4.
    \38\ U.S. Department of the Treasury, Office of Public Affairs, 
Joint U.S.-China Fact Sheet Fourth U.S.-China Strategic Economic 
Dialogue, 18 June 08, sec. IV.
    \39\ PRC Trademark Law [Zhonghua renmin gongheguo shangbiao fa], 
passed 23 August 82, amended 22 February 93, 27 October 01, 30 August 
13, effective 1 May 14.
    \40\ Jack Chang, ``New Trademark Rules Leave Owners Unprotected,'' 
China Law & Practice, July-August 2014; Helen Sloan, ``Inside Track: 
Fighting the Fakes in China,'' World Trademark Review, August-September 
2011; Ron Cai and Amanda Wu, Davis Wright Tremaine LLP, ``Chinese 
Government Issues the Third Amendment to the Trademark Law To 
Strengthen Trademark Protection,'' 27 January 14.
    \41\ Transparency International, ``Transparency in Corporate 
Reporting: Assessing Emerging Market Multinationals,'' 16 October 13, 
35-37.
    \42\ ``China Companies Rank Lowest in Survey of Transparency 
Reporting,'' Bloomberg, 17 October 13.
    \43\ See, e.g., China's Treatment of Foreign Journalists, Staff 
Roundtable of the Congressional-Executive Commission on China, 11 
December 13, Written Statement of The New York Times, Submitted by Jill 
Abramson, Executive Editor, New York Times, Presented by Edward Wong, 
Correspondent, New York Times; Michael Forsythe, ``As China's Leader 
Fights Graft, His Relatives Shed Assets,'' New York Times, 17 June 14; 
Kim Hjelmgaard, `` `Guardian' Says Website Blocked in China for No 
Reason,'' USA Today, 8 January 14; William Wan, ``China Blocks New York 
Times Web Site After Report on Leader's Wealth,'' Washington Post, 26 
October 12.
    \44\ Matt Schiavenza, ``What's at Stake in Bloomberg's China 
Coverage,'' Atlantic, 20 November 13; Edward Wong, ``Bloomberg News Is 
Said To Curb Articles That Might Anger China,'' New York Times, 8 
November 13.
    \45\ Michael Forsythe, ``As China's Leader Fights Graft, His 
Relatives Shed Assets,'' New York Times, 17 June 14; Kathy Chu and 
William Launder, ``U.S. Media Firms Stymied in China,'' Wall Street 
Journal, 6 December 13; China's Treatment of Foreign Journalists, Staff 
Roundtable of the Congressional-Executive Commission on China, 11 
December 13, Written Statement of The New York Times, Submitted by Jill 
Abramson, Executive Editor, New York Times, Presented by Edward Wong, 
Correspondent, New York Times.
    \46\ U.S. Securities and Exchange Commission, In the Matter of BDO 
China Dahua CPA Co., Ltd., et al., Initial Decision (Public), File NOS 
3-14872, 3-15116, Release No. 553 Administrative Proceeding File, 22 
January 14, 3.
    \47\ Ibid., 10, 13; Brian V. Breheny et al., Skadden, Arps, Slate, 
Meagher & Flom LLP, ``SEC Judge Issues Initial Decision Regarding 
Chinese Affiliates of the Big Four Accounting Firms,'' 23 January 14; 
Nathaniel B. Edmonds et al., Paul Hastings LLP, ``Accounting Firms in 
Settlement Negotiations Over SEC Decision: Implications for Doing 
Business in China,'' Stay Current, June 2014.
    \48\ Susanne J. Harris et al., Mayer Brown JSM, ``China: PRC Laws 
No Excuse for Non-Compliance With SFC Requests,'' reprinted in Mondaq, 
9 June 14.
    \49\ American Chamber of Commerce in China (AmCham), ``2014 China 
Business Climate Survey Report,'' 2014, 11. According to the AmCham 
survey, 56 percent of the companies surveyed reported that Internet 
censorship negatively or somewhat negatively affected their business in 
China, and 66 percent of the companies surveyed reported that the 
blocking of Internet search engines negatively or somewhat negatively 
affected their business.
    \50\ Ibid., 12. According to the AmCham survey, 73 percent of the 
companies surveyed identified ``difficulty of obtaining credible data'' 
as the biggest obstacle for pursuing mergers and acquisitions in China.
    \51\ James T. Areddy, ``China's Transparency Standards, U.S. 
Investor Expectations Collide,'' Wall Street Journal, 27 August 13.
    \52\ Ana Swanson, ``China's Chilling Crackdown on Due-Diligence 
Companies,'' Atlantic, 23 October 13.
    \53\ Ibid.; Peter Humphrey, ``How Fraud Investigations Just Got 
Harder in China,'' Fraud Examiner, Association of Certified Fraud 
Examiners, May 2013; Zou Wei, ``Shanghai Public Security Knocks Out 
First Illegal Investigation Company in China Started by a Foreigner'' 
[Shanghai gongan dadiao shou ge waiguoren zai hua kaiban de feifa 
diaocha gongsi], Xinhua, 27 August 13.
    \54\ Ana Swanson, ``China's Chilling Crackdown on Due-Diligence 
Companies,'' Atlantic, 23 October 13.
    \55\ Shanghai No. 1 Intermediate People's Court, Weibo post, 8 
August 14, 10:57 p.m. The Shanghai No. 1 Intermediate People's Court 
sentenced Yu Yingzeng to two years in prison and fined her 150,000 yuan 
(US$24,000). Peter Humphrey was sentenced to two years and six months 
in prison, fined 200,000 yuan (US$32,000), and will be deported upon 
completion of his sentence.
    \56\ World Trade Organization, Trade Policy Review, Trade Policy 
Review Body, Report By China, WT/TPR/G/300, 27 May 14, 23.
    \57\ US-China Business Council, ``USCBC 2013 China Business 
Environment Survey Results,'' 10 October 13, 2.
    \58\ American Chamber of Commerce in the People's Republic of 
China, ``American Business in China 2014 White Paper,'' 2014, 9, 14.
    \59\ European Union Chamber of Commerce in China and Roland Berger 
Strategy Consultants, ``European Business in China: Business Confidence 
Survey 2014,'' May 2014, 14.
    \60\ Ibid.
    \61\ Ibid., 43.
    \62\ Michael Schuman, ``China Escalates Its War on American Tech 
Firms,'' Time, 5 June 14; Michael Kan, ``China Cuts Access to 
Dropbox,'' 19 June 14; Kathy Chu and William Launder, ``U.S. Media 
Firms Stymied in China,'' Wall Street Journal, 6 December 13; Michael 
Forsythe, ``As China's Leader Fights Graft, His Relatives Shed 
Assets,'' New York Times, 17 June 14.
    \63\ Central Government Procurement Center, Important Circular of 
the Central Government Agencies Government Procurement Center 
[Zhongyang guojia jiguan zhengfu caigou zhongxin zhongyao tongzhi], 16 
May 14; ``China Excludes Windows 8 From Government Computers,'' Xinhua, 
20 May 14; Simon Denyer, ``As Cyber Rift Deepens, China Bans Use of 
Windows 8 on Government Computers,'' Washington Post, 21 May 14.
    \64\ Jamil Anderlini, ``China Clamps Down on US Consulting 
Groups,'' Financial Times, 25 May 14.
    \65\ U.S. Department of the Treasury, Press Center, ``Updated: 
U.S.-China Joint Fact Sheet Sixth Meeting of the Strategic and Economic 
Dialogue,'' 11 July 14.
    \66\ Yao Jing, ``China Aims To Open Up Procurement Market,'' China 
Daily, 11 January 14.
    \67\ Shanghai Municipal People's Government, Administrative 
Measures for the China (Shanghai) Pilot Free Trade Zone [Zhongguo 
(shanghai) ziyou maoyi shiyan qu guanli banfa], issued 29 September 13, 
effective 1 October 13.
    \68\ World Trade Organization, Trade Policy Review, Trade Policy 
Review Body, Report By the Secretariat, WT/TPR/S/300, 27 May 14, 51.
    \69\ ``Shanghai Trims List of Restrictions on Foreign Investment,'' 
Reuters, reprinted in New York Times, 1 July 14; ``FTZ Needs 
Predictable Reforms,'' China Daily, 17 June 14.
    \70\ Peggy Sito, ``Pause in China's Trade Zones Unlikely To Dim 
Mood for Pacesetters,'' South China Morning Post, 9 June 14.
    \71\ Office of the U.S. Trade Representative, ``2013 Report to 
Congress on China's WTO Compliance,'' December 2013.
    \72\ United States v. Wang Dong, Sun Kailiang, Wen Xinyu, Huang 
Zhenyu and Gu Chunhui, Western District of Pennsylvania, Criminal No. 
14-118, 1 May 14, 3; U.S. Department of Justice, Office of Public 
Affairs, ``U.S. Charges Five Chinese Military Hackers for Cyber 
Espionage Against U.S. Corporations and a Labor Organization for 
Commercial Advantage,'' 19 May 14.
    \73\ U.S. Department of Justice, Office of Public Affairs, ``U.S. 
Charges Five Chinese Military Hackers for Cyber Espionage Against U.S. 
Corporations and a Labor Organization for Commercial Advantage,'' 19 
May 14.
    \74\ U.S. Department of Justice, Office of Public Affairs, 
``Sinovel Corporation and Three Individuals Charged in Wisconsin With 
Theft of Amsc Trade Secrets,'' 27 June 13; U.S. Federal Bureau of 
Investigation, ``Press Release: Chinese National Arrested for 
Conspiring To Steal Trade Secrets,'' 2 July 14; ``Chinese Woman Charged 
in Trade Secrets Theft Case,'' Associated Press, reprinted in 
Washington Post, 2 July 14.
    \75\ U.S. Department of Justice, Office of Public Affairs, ``U.S. 
Charges Five Chinese Military Hackers for Cyber Espionage Against U.S. 
Corporations and a Labor Organization for Commercial Advantage,'' 19 
May 14.
    \76\ ``China Suspends Cyber Working Group Activities With US To 
Protest Cyber Theft Indictment,'' Xinhua, reprinted in China Daily, 20 
May 14.
    \77\ U.S. Embassy, Beijing, ``Ambassador Baucus's Speech to the 
Business Community,'' 25 June 14; Michael Martina, ``U.S. Ambassador 
Baucus Says China Hacking Threatens National Security,'' Reuters, 25 
June 14.
    \78\ John Eligon and Patrick Zuo, ``Designer Seed Thought To Be 
Latest Target By Chinese,'' New York Times, 4 February 14; U.S. 
Department of Justice, U.S. Attorney Nicholas A. Klinefeldt, Southern 
District of Iowa, ``Chinese National Arrested for Conspiring To Steal 
Trade Secrets,'' 12 December 13; U.S. Department of Justice, U.S. 
Attorney's Office, District of Kansas, ``Two Agricultural Scientists 
From China Charged With Stealing Trade Secrets,'' 12 December 13.
    \79\ U.S. Department of Justice, U.S. Attorney's Office, Southern 
District of Iowa, ``Chinese National Arrested for Conspiring To Steal 
Trade Secrets,'' 12 December 13.
    \80\ U.S. Department of Justice, U.S. Attorney's Office, Southern 
District of Iowa, ``Chinese National Arrested for Conspiring To Steal 
Trade Secrets,'' 2 July 14.
    \81\ ``Chinese Woman in Seed Corn Case Released on Bond,'' 
Associated Press, 22 July 14.
    \82\ U.S. Department of Justice, U.S. Attorney's Office, District 
of Kansas, ``Two Agricultural Scientists From China Charged With 
Stealing Trade Secrets,'' 12 December 13.
    \83\ PRC Trademark Law [Zhonghua renmin gongheguo shangbiao fa], 
passed 23 August 82, amended 22 February 93, 27 October 01, 30 August 
13, effective 1 May 14; PRC Trademark Law Implementing Regulations 
[Zhonghua renmin heguo shangbiao fa shishi tiaoli], issued 29 April 14, 
effective 1 May 14.
    \84\ Trademark Office, Trademark Review and Adjudication Board of 
State Administration of Industry and Commerce, ``Annual Development 
Report on China's Trademark Strategy 2013,'' 25 March 14, 1; Supreme 
People's Court, Intellectual Property Protection by Chinese Courts in 
2013 [2013 nian zhongguo fayuan zhishichanquan sifa baohu zhuangkuang], 
reprinted in China Court Network, 26 April 14; Office of the U.S. Trade 
Representative, ``2014 Special 301 Report,'' April 2014, 10, 30-31.
    \85\ Office of the U.S. Trade Representative, ``2014 Special 301 
Report,'' April 2014, 30-31; American Chamber of Commerce in the 
People's Republic of China (AmCham), ``2014 China Business Climate 
Survey Report 2014,'' 2014, 20. According to the AmCham's survey, 68 
percent of respondents characterized intellectual property enforcement 
in China as ineffective (54 percent) or totally ineffective (14 
percent).
    \86\ Office of the U.S. Trade Representative, ``2014 Special 301 
Report,'' April 2014, 31, 33.
    \87\ BSA, The Software Alliance, ``The Compliance Gap: BSA Global 
Software Survey,'' June 2014, 4.
    \88\ James R. Hagerty and Shira Ovide, ``Microsoft Pursues New Tack 
on Piracy,'' Wall Street Journal, 16 March 14.
    \89\ U.S.-China Business Council, ``Recommendations for 
Strengthening Trade Secret Protection in China,'' September 2013.
    \90\ Ma Xueling and Kan Feng, ``Supreme People's Court Publishes 10 
Innovative Intellectual Property Model Cases'' [Zuigaofa gongbu 10 da 
chuangxinxing zhishi chanquan anli], China News Net, reprinted in China 
Intellectual Property Protection Network, 22 October 13; Christine Yiu 
and Yijun Ge, Bird & Bird LLP, ``Eli Lilly v. Huang: Shanghai Court 
Issues Interlocutory Injunction Against Breach of Trade Secret,'' 21 
August 13; Mark Cohen, ``IPR Model Cases: Part of the Long Journey 
Towards IPR Case Law With `Chinese Characteristics? ' '' China IPR 
(blog), 10 November 13.
    \91\ Ma Xueling and Kan Feng, ``Supreme People's Court Publishes 10 
Innovative Intellectual Property Model Cases'' [Zuigaofa gongbu 10 da 
chuangxinxing zhishi chanquan anli], China News Net, reprinted in China 
Intellectual Property Protection Network, 22 October 13.
    \92\ AMSC, ``China's Supreme People Court Decides in Favor of AMSC 
on Jurisdictional Matters,'' 19 February 14; Justin Doom, ``China 
Supreme Court Ruling Favors AMSC in Two Sinovel Suits,'' Bloomberg, 19 
February 14.
    \93\ U.S. Department of Justice, ``Sinovel Corporation and Three 
Individuals Charged in Wisconsin With Theft of Amsc Trade Secrets,'' 27 
June 13.
    \94\ Guangdong Province High Court Civil Decision No. 305 (2013) 
[2013 yue gaofa minsan zhongzi di 305 hao], Huawei Technology Co. Ltd. 
v. InterDigital Technolgy Corporation [Huawei jishu youxian gongsi su 
jiaohu shuzi jishu gongsi], 16 October 13; Michael Han and Kexin Li, 
Freshfields Bruckhaus Deringer LLP, Beijing, ``Huawei v. InterDigital: 
China at the Crossroads of Antitrust and Intellectual Property, 
Competition and Innovation,'' Competition Policy International, 28 
November 13.
    \95\ Michael Han and Kexin Li, Freshfields Bruckhaus Deringer LLP, 
Beijing, ``Huawei v. InterDigital: China at the Crossroads of Antitrust 
and Intellectual Property, Competition and Innovation,'' Competition 
Policy International, 28 November 13.
    \96\ PRC Trademark Law Implementing Regulations [Zhonghua renmin 
gongheguo shangbiao fa shishi tiaoli], issued 3 August 02, amended 29 
April 14, effective 1 May 14; PRC Trademark Law [Zhonghua renmin 
gongheguo shangbiao fa], passed 23 August 82, amended 22 February 93, 
27 October 01, 30 August 13, effective 1 May 14, art. 63; PRC Trademark 
Law [Zhonghua renmin gongheguo shangbiao fa], passed 23 August 82, 
amended 22 February 93, 27 October 01, art. 56.
    \97\ Rouse LLP, ``China IP Litigation Analysis,'' CIELA, last 
visited 7 May 14.
    \98\ State Administration for Industry and Commerce, ``Anti-Unfair 
Competition Law Revision Official Launch'' [Fan buzhengdang jingzheng 
fa xiufa keti zhengshi qidong], 3 March 14; Laney Zhang, ``Protection 
of Trade Secrets: China,'' Library of Congress, August 2013, last 
visited 28 February 14.
    \99\ Ministry of Commerce, ``MOFCOM Holds a Special Press 
Conference on Anti-Monopoly,'' 4 March 14; Sue Hao and John Lenhart, 
``China's `Golden Year' of Antimonopoly Investigations,'' China 
Business Review, 12 December 13; Lian Hongyang, ``Diluting Monopolies 
Is a Fundamental Antimonopoly Measure'' [Xishi longduan quanwei 
fanlongduan fudi chouxin], Guangzhou Daily, 26 November 13.
    \100\ PRC Antimonopoly Law [Zhonghua renmin gonghe guo fan longduan 
fa], passed 30 August 07, effective 1 August 08, art. 7; Peter Wang, 
Jones Day, ``New Chinese Anti-Monopoly Law,'' October 2007; Hu Shuli, 
``China Must Rein in Its State-Owned Monopolies,'' South China Morning 
Post, 29 August 13.
    \101\ Ministry of Commerce, ``MOFCOM Holds a Special Press 
Conference on Anti-Monopoly,'' 4 March 14.
    \102\ Ministry of Commerce, ``Ministry of Commerce on the 
Prohibition of Maersk, Mediterranean Shipping Company, CMA CGM To 
Establish Concentrated Business Network Operations Antimonopoly Review 
Decision'' [Shangwu bu guanyu jinzhi mashiju, dizhonghai hangyun, da 
fei sheli wangluo zhongxin jingying zhe jizhong fan longduan shencha 
jueding de gonggao], 17 June 14.
    \103\ U.S. Federal Maritime Commission, ``P3 Network Vessel Sharing 
Agreement, FMC Agreement No. 012230,'' 20 March 14.
    \104\ ``Maersk Line and P3 Partners Receive European Commission 
Affirmation,'' Maersk Press Release, 6 June 14.
    \105\ PRC Antimonopoly Law [Zhonghua renmin gongheguo fan longduan 
fa], passed 30 August 07, effective 1 August 08, art. 27(5); Tom 
Mitchell, ``Domestic Factors Key in China's Shipping Rejection,'' 
Financial Times, 18 June 14; Bradley S. Lui and Lei Ouyang, Morrison 
Foerster LLP, ``China: China's MOFCOM Blocks P3 Alliance,'' reprinted 
in Mondaq, 7 July 14.
    \106\ Tom Mitchell, ``Domestic Factors Key in China's Shipping 
Rejection,'' Financial Times, 18 June 14; Bradley S. Lui and Lei 
Ouyang, Morrison Foerster LLP, ``China: China's MOFCOM Blocks P3 
Alliance,'' reprinted in Mondaq, 7 July 14.
    \107\ Ministry of Commerce, ``Ministry of Commerce Spokesman Yao 
Jian on Coca-Cola's Acquisition of Huiyuan Antitrust Review Decision 
Press Conference'' [Shangwu bu xinwen fayan ren yao jian jiu kekoukele 
gongsi shougou huiyuan gongsi fan longduan shencha jueding da jizhe 
wen], 24 March 09; Valerie Bauerlein and Gordon Fairclough, ``Beijing 
Thwarts Coke's Takeover Bid,'' 19 March 09; Tom Mitchell, ``Domestic 
Factors Key in China's Shipping Rejection,'' Financial Times, 18 June 
14.
    \108\ Sue Hao and John Lenhart, ``China's `Golden Year' of 
Antimonopoly Investigations,'' China Business Review, 12 December 13.
    \109\ Paul Carsten, ``China Regulator Announces Anti-Monopoly Probe 
of Microsoft,'' Reuters, 29 July 14; European Union Chamber of Commerce 
in China, ``European Chamber Releases Statement on China AML-Related 
Investigations,'' 13 August 14.
    \110\ Peter Carsten and Michael Martina, ``China Regulator 
Determines Qualcomm Has Monopoly: State-Run Newspaper,'' Reuters, 24 
July 14.
    \111\ Shira Ovide, ``China Raids Microsoft Offices,'' Wall Street 
Journal, 29 July 14.
    \112\ ``Beijing vs. Foreign Capitalist Roaders,'' Wall Street 
Journal, 14 August 14.
    \113\ US-China Business Council, ``Competition Policy and 
Enforcement in China,'' September 2014, 11.
    \114\ American Chamber of Commerce in the People's Republic of 
China, ``Challenges and Opportunities in China's Investment 
Environment: 2014,'' September 2014, Chairman's Message; US-China 
Business Council, ``Competition Policy and Enforcement in China,'' 
September 2014, 1; European Union Chamber of Commerce in China, 
``European Chamber Releases Statement on China AML-Related 
Investigations,'' 13 August 14.
    \115\ U.S. Chamber of Commerce, ``Competing Interests in China's 
Competition Law Enforcement,'' September 2014, ii, 6.
    \116\ Decision of the Standing Committee of the National People's 
Congress To Revise the ``Law of the People's Republic of China on 
Protecting the Marine Environment'' Among Seven Laws [Quanguo renda 
changwei hui guanyu xiugai ``haiyang huanjing baohu fa'' deng qi bu 
falu de jueding], reprinted in Xinhua, 28 December 13; Laney Zhang, 
``China: Company Law Revised To Remove Registered Capital 
Requirements,'' Global Legal Monitor, Library of Congress, 12 March 14.
    \117\ PRC Company Law [Zhonghua renmin gongheguo gongsi fa], passed 
29 December 93, amended 25 December 99, 28 August 04, 27 October 05, 28 
December 13, effective 1 March 14, arts. 26, 28; Laney Zhang, ``China: 
Company Law Revised To Remove Registered Capital Requirements,'' Global 
Legal Monitor, Library of Congress, 12 March 14; Bryan Chan and Eva 
Wang, Linklaters LLP, ``China's New Company Registration Regime,'' 
February 2014; Hogan Lovells, ``China Announces Significant Amendments 
to the PRC Company Law: But What Is In It for Foreign Investors? '' 
Corporate China Brief, January 2014, 1-4.
    \118\ ``China's New Companies Surge on Business Registration 
Reform,'' Xinhua, 7 July 14.
    \119\ Leo Zhou Liang, ``China's Simplified (and Cheaper) Company 
Registration Process,'' Dacheng Law Office, 13 May 14.
    \120\ Office of the U.S. Trade Representative, ``2013 Report to 
Congress on China's WTO Compliance,'' December 2013, 2.
    \121\ Ibid., 3.
    \122\ Keith Bradsher, ``Retaliatory Attacks, Online,'' New York 
Times, 20 May 14.
    \123\ Office of the U.S. Trade Representative, ``WTO Dispute 
Settlement Proceeding Regarding Certain Methodologies and Their 
Application to Anti-Dumping Proceedings Involving China,'' Federal 
Register, 8 April 14.
    \124\ World Trade Organization, ``Disputes by Country/Territory,'' 
last visited 1 July 14.
    \125\ Ibid.
    \126\ World Trade Organization, DS471, United States--Certain 
Methodologies and Their Application to Anti-Dumping Proceedings 
Involving China, Dispute Settlement, last visited, 1 July 14; Office of 
the U.S. Trade Representative, ``WTO Dispute Settlement Proceeding 
Regarding Certain Methodologies and Their Application to Anti-Dumping 
Proceedings Involving China,'' Federal Register, 8 April 14.
    \127\ World Trade Organization, DS431, China--Measures Related to 
the Exportation of Rare Earths, Tungsten and Molybdenum, Dispute 
Settlement, last visited 15 August 14; World Trade Organization, DS440, 
China--Anti-Dumping and Countervailing Duties on Certain Automobiles 
From the United States, Dispute Settlement, last visited 15 August 14.
    \128\ World Trade Organization, DS431, China--Measures Related to 
the Exportation of Rare Earths, Tungsten and Molybdenum, Dispute 
Settlement, last visited 15 August 14.
    \129\ Ibid.; Office of the U.S. Trade Representative, ``U.S. Trade 
Representative Michal Froman Announces U.S. Victory in Challenge to 
China's Rare Earth Export Restraints,'' 7 August 14.
    \130\ World Trade Organization, DS440, China--Anti-Dumping and 
Countervailing Duties on Certain Automobiles From the United States, 
Dispute Settlement, last visited 28 July 14; Office of the U.S. Trade 
Representative, ``United States Wins Trade Enforcement Case Against 
China on Autos,'' May 2014.
    \131\ Office of the U.S. Trade Representative, ``United States Wins 
Trade Enforcement Case Against China on Autos,'' May 2014.
    \132\ Ibid.
    \133\ World Trade Organization, DS414, China--Countervailing and 
Anti-Dumping Duties on Grain Oriented Flat-Rolled Electrical Steel From 
the United States, Dispute Settlement, last visited 15 August 14.
    \134\ Derek M. Scissors, American Enterprise Institute, ``China 
Invests (Somewhat) More in the World,'' January 2014.
    \135\ Thilo Hanemann and Cassie Gao, Rhodium Group, ``Chinese FDI 
in the US: 2013 Recap and 2014 Outlook,'' 7 January 14. The U.S. 
Department of State Bureau of Economic and Business Affairs described 
the Rhodium Group as ``a leading private consultancy focused on U.S.-
China investment.'' See U.S. Department of State, Bureau of Economic 
and Business Affairs, ``2014 Investment Climate Statement--China,'' 
June 2014.
    \136\ Thilo Hanemann and Cassie Gao, Rhodium Group, ``Chinese FDI 
in the US: 2013 Recap and 2014 Outlook,'' 7 January 14.
    \137\ Thilo Hanemann, Rhodium Group, ``Chinese FDI in the United 
States: Q1 2014 Update,'' 8 May 14.
    \138\ David McLaughlin and Alex Barinka, ``Lenovo-IBM Deal Probed 
by U.S. Over Servers at Pentagon,'' Bloomberg, 4 April 14.
    \139\ IBM, ``Lenovo Plans To Acquire IBM's x86 Server Business,'' 
23 January 14; Lenovo, ``Lenovo To Acquire Motorola Mobility From 
Google,'' 29 January 14.
    \140\ Charlie Osborne, ``Lenovo: IBM, Motorola Deals To Close by 
2015,'' CNET, 2 July 14; David McLaughlin and Alex Barinka, ``Lenovo-
IBM Deal Probed by U.S. Over Servers at Pentagon,'' Bloomberg, 4 April 
14.
    \141\ Bien Perez, ``Lenovo Expects All-Clear for IBM, Motorola 
Mobility Deals,'' South China Morning Post, 3 July 14.
    \142\ Nick Timiraos, ``Chinese Lead Way as Foreigners Step Up 
Purchases of U.S. Homes,'' Wall Street Journal, 8 July 14; Lingling 
Wei, ``CCTV Accuses Bank of China of Money Laundering,'' Wall Street 
Journal, 9 July 14.
    \143\ ``CCTV Reports on Fraudulent Money Laundering: Foreign 
Currency Controls Almost Nonexistent'' [Yang shi baodao cheng zhonghang 
gongran zao jia xi hei qian waihui guanzhi xing tong tong xu she], 
CCTV, reposted on Sina, 9 July 14; ``CCTV Exposes Fraud and Money 
Laundering: Employee Says Lots of Dirty Money Can Be Cleaned'' [Yangshi 
puguang zhongxing zaojia xi heiqian yuangong cheng duo hei de qian dou 
neng xi bai], CCTV, reprinted in Xinhua, 9 July 14; Bank of China, 
``Bank of China Explains `Special Exchange Channel' '' [Zhongguo 
yinghang guangyu ``you huitong'' yewu de shouming], 9 July 14; Didi 
Kirsten Tatlow, ``Battle Between Two State Giants, CCTV and Bank of 
China, Unravels,'' New York Times, Sinosphere (blog), 10 July 14.
    \144\ U.S. Department of the Treasury, Office of International 
Affairs, ``Report to Congress on International Economic and Exchange 
Rate Policies,'' 15 April 14, 15-16.
    \145\ World Bank, ``China Economic Update,'' June 2014, 13.
    \146\ U.S. Department of the Treasury, Office of International 
Affairs, ``Report to Congress on International Economic and Exchange 
Rate Policies,'' 15 April 14, 14.
    \147\ Robert E. Scott, Economic Policy Institute, ``Stop Currency 
Manipulation and Create Millions of Jobs,'' EPI Briefing Paper No. 372, 
26 February 14, 3.
    \148\ U.S. Department of the Treasury, Office of International 
Affairs, ``Report to Congress on International Economic and Exchange 
Rate Policies,'' 15 April 14, 4.
    \149\ ``China's Forex Reserves Rise to $4 Trillion,'' Xinhua, 
reprinted in China Daily, 12 June 14; Wayne Arnold and Ken Brown, 
``Currency Reserves Swell in Asia,'' Wall Street Journal, 8 July 14.
    \150\ Robert E. Scott, Economic Policy Institute, ``Stop Currency 
Manipulation and Create Millions of Jobs,'' EPI Briefing Paper No. 372, 
26 February 14, 3.
    \151\ ``Chinese Gov't Urges Food Safety,'' China Daily, 27 May 14; 
Yanzhong Huang, ``The 2008 Milk Scandal Revisited,'' Council on Foreign 
Relations, Asia Unbound (blog), 16 July 14.
    \152\ See ``Chinese Herbs: Elixir of Health or Pesticide Cocktail? 
'' Greenpeace, 2013, 12.
    \153\ See Zhou Wenting, ``Banned Substances Found in Vet Drugs,'' 
China Daily, 12 August 13.
    \154\ See Li Jing, ``Preserved Egg Companies Shut in Toxic Chemical 
Scandal,'' South China Morning Post, 16 June 13.
    \155\ John Balzano, ``China Focuses Regulatory Enforcement on 
Expired Food and Village Markets,'' Forbes, 24 March 14.
    \156\ See Michael Riggs, ``China's Frightening, Unpleasant Cooking-
Oil Scandal,'' Atlantic, 30 October 13.
    \157\ See Laurie Burkitt, ``Wal-Mart Recalls Donkey Meat in 
China,'' Wall Street Journal, 2 January 14.
    \158\ Pew Research Center, Pew Research Global Attitudes Project, 
``Environmental Concerns on the Rise in China,'' 19 September 13.
    \159\ Mao Weihao et al., ``Certification or Recognize Money?--A 
Xinhua Reporter's Undercover Investigation of the Certification 
Market'' [Renzheng, haishi renqian?--xinhua she jizhe diaocha anfang 
renzhen shichang], Xinhua, 15 June 14.
    \160\ Mandy Zuo, ``Mainland Industries Bribing Their Way to 
Quality-Control Certification: Xinhua,'' South China Morning Post, 16 
June 14.
    \161\ Gail Sullivan, ``Wal-Mart To Triple Food Safety Spending in 
China After Donkey Meat Disaster,'' Washington Post, Morning Mix 
(blog), 17 June 14.
    \162\ Laurie Burkitt, ``Wal-Mart Recalls Donkey Meat in China,'' 
Wall Street Journal, 2 January 14.
    \163\ Sophia Yan, ``China Scare Snares Burger King, Papa John's,'' 
CNN Money, 22 July 14.
    \164\ National People's Congress, Food Safety Law (Draft Revisions) 
Full Text [Shipin anquan fa (xiuding caoan) quanwen], 30 June 14; 
``Local Watchdogs Empowered in Food Safety Shake-Up,'' Xinhua, 26 
January 14; ``Chinese Law Makers Review Food Safety Law,'' CCTV, 26 
June 14.
    \165\ For example, during a June 2014 hearing, Dr. Daniel 
Engeljohn, Assistant Administrator for the Food Safety Inspection 
Service, U.S. Department of Agriculture, explained that poultry 
processed in China will not be labeled as being from China if it is 
repackaged in the United States. See Pet Treats and Processed Chicken 
from China: Concerns for American Consumers and Pets, Hearing of the 
Congressional-Executive Commission on China, 17 June 14, Written 
Statement of Dr. Daniel Engeljohn, Assistant Administrator, Office of 
Field Operations, Food Safety and Inspection Service, U.S. Department 
of Agriculture, 4.
    \166\ U.S. Food and Drug Administration, ``Questions and Answers 
Regarding Jerky Pet Treats,'' last visited 16 May 14.
    \167\ Jolie Lee, ``PetSmart, Petco To Stop Selling Dog and Cat 
Treats Made in China,'' USA Today, 21 May 14.
    \168\ U.S. Food and Drug Administration, Number of Import Alerts by 
Country/Area, last visited 1 July 14.
    \169\ U.S. Department of Agriculture, Food Safety and Inspection 
Service, ``Final Report of an Audit Conducted in the People's Republic 
of China, March 4-19, 2013,'' 30 August 13.
    \170\ Pet Treats and Processed Chicken from China: Concerns for 
American Consumers and Pets, Hearing of the Congressional-Executive 
Commission on China, 17 June 14, Written Statement of Dr. Daniel 
Engeljohn, Assistant Administrator, Office of Field Operations, Food 
Safety and Inspection Service, U.S. Department of Agriculture, 4.
    \171\ Adam Minter, ``Is China Blocking FDA Inspectors? '' 
Bloomberg, 28 February 14.
    Notes to Section III--Access to Justice

    \1\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 8.
    \2\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 2. China signed the ICCPR in 
1998 and the government has repeatedly stated its intent to ratify it. 
During the UN Human Rights Council's Universal Periodic Review of the 
Chinese government's human rights record in October 2013, China stated 
it is ``making preparations for the ratification of ICCPR and will 
continue to carry out legislative and judicial reforms.'' UN GAOR, Hum. 
Rts. Coun. 25th Sess., Agenda Item 6, Universal Periodic Review, Report 
of the Working Group on the Universal Periodic Review--China, A/HRC/25/
5, 4 December 13, para. 153.
    \3\ Chinese Communist Party Central Committee, Decision on Some 
Major Issues Concerning Comprehensively Deepening the Reform, reprinted 
in China Internet Information Center, 16 January 14, sec. 9(32-34).
    \4\ Ibid., sec. 9(32); Xing Shiwei, ``Six Provinces and 
Municipalities To Serve as Pilot Sites for Judicial Reforms Aimed at 
`Localization' '' [Liu sheng shidian sixiang sifa gaige jianzhi ``sifa 
difanghua''], Beijing News, 16 June 14; ``Judicial Reform Pilots,'' 
China Law Translate (blog), 16 June 14; Cao Yin, ``Xi Promotes Judicial 
Reform, IP Tribunals,'' China Daily, 27 June 14. See also Jerome A. 
Cohen, ``Struggling for Justice: China's Courts and the Challenge of 
Reform,'' World Politics Review, 14 January 14; Hugo Winckler, ``Rule 
of Law: A Game Plan for the Economy,'' China Analysis: How Far Will the 
NPC Go in Implementing Reform? European Council on Foreign Relations, 
March 2014, 8-10.
    \5\ ``Core Content of People's Courts' `Fourth Five-Year Reform 
Plan' Released'' [Renmin fayuan ``si wu gaige gangyao'' hexin neirong 
fabu], Xinhua, 9 July 14; ``More Information on the Courts' 4th 5-Yr 
Plan,'' China Law Translate (blog), 26 July 14; Stanley Lubman, ``A Key 
Move To Protect Courts in China,'' Wall Street Journal, China Real Time 
Report (blog), 30 July 14.
    \6\ Stanley Lubman, ``A Key Move To Protect Courts in China,'' Wall 
Street Journal, China Real Time Report (blog), 30 July 14.
    \7\ Jeffrey Wasserstrom, ``Trials and Errors: A Roundtable on Law, 
Reform, and Repression in China,'' Dissent, 20 February 14; Stanley 
Lubman, ``A Key Move To Protect Courts in China,'' Wall Street Journal, 
China Real Time Report (blog), 30 July 14; Xing Shiwei, ``Six Provinces 
and Municipalities To Serve as Pilot Sites for Judicial Reforms Aimed 
at `Judicial Localization' '' [Liu shengshi shidian sixiang sifa gaige 
jianzhi ``sifa difanghua''], Beijing News, 16 June 14; ``China's Chief 
Justice Warns of Weakness in Court System,'' Xinhua, reprinted in China 
Daily, 3 March 14; ``Judicial Reform Pilots,'' China Law Translate 
(blog), 16 June 14; ``China Rethinks Its Judicial System,'' New York 
Times, 17 March 14; Li Hui and Megha Rajagopalan, ``China Looks for 
Justice Reform, but Party To Retain Control,'' Reuters, 16 June 14; 
Randall Peerenboom, China's Long March Toward Rule of Law, (Cambridge: 
Cambridge University Press, 2002), 399.
    \8\ ``With Legal Reforms, China Wants Less Interfering in Cases, 
Fewer Death Penalty Crimes,'' Reuters, reprinted in South China Morning 
Post, 9 March 14; Shannon Tiezzi, ``China's Legal Reform: A Balancing 
Act,'' Diplomat, 12 March 14; Li Hui and Megha Rajagopalan, ``China 
Looks for Justice Reform, but Party To Retain Control,'' Reuters, 16 
June 14.
    \9\ ``Global Times: Judicial Reform Will Not Fall Into Liberals' 
Semantic Trap'' [Huanqiu shibao: sifa gaige bu hui diaoru ziyoupai 
yujing], Global Times, 17 June 14.
    \10\ Chinese Communist Party Central Committee, Decision on Some 
Major Issues Concerning Comprehensively Deepening the Reform, reprinted 
in China Internet Information Center, 16 January 14, sec. 9(33).
    \11\ Kelly Buchanan, ``China: Courts Required To Publish All 
Effective Opinions on One Website,'' Global Legal Monitor, Library of 
Congress, 31 December 13; Zhou Qiang, ``Report on the Work of the 
Supreme People's Court'' [Zuigao renmin fayuan gongzuo baogao], 
reprinted in China Court Net, 8 May 14, sec. IV. The official English 
translation of the Supreme People's Court Work Report refers to the Web 
site as the ``China Written Judgments Network,'' but the English name 
on the Web site itself is ``Judicial Opinions of China.''
    \12\ Zhou Qiang, ``Report on the Work of the Supreme People's 
Court'' [Zuigao renmin fayuan gongzuo baogao], reprinted in China Court 
Net, 8 May 14, sec. IV; Judicial Opinions of China Web Site [Zhongguo 
caipan wenshu wang], last visited 2 July 14.
    \13\ ``Core Content of People's Courts `Fourth Five-Year Reform 
Plan' Released'' [Renmin fayuan ``si wu gaige gangyao'' hexin neirong 
fabu], Xinhua, 9 July 14; ``More Information on the Courts' 4th 5-Yr 
Plan,'' China Law Translate (blog), 26 July 14.
    \14\ Ibid.
    \15\ Benjamin L. Liebman, ``A Populist Threat to China's Courts? '' 
in Chinese Justice: Civil Dispute Resolution in Contemporary China, 
eds. Margaret Y.K. Woo and Mary E. Gallagher (Cambridge: Cambridge 
University Press, 2011), 293-94, note 131; Chinese Communist Party 
Central Committee, Decision on Some Major Issues Concerning 
Comprehensively Deepening the Reform, reprinted in China Internet 
Information Center, 16 January 14, sec. 9(34). The official English 
translation of the Third Plenum Decision uses ``judicial relief'' as 
the translation for sifa jiuzhu. In order to avoid confusion with 
``judicial remedies,'' the Commission has translated the term as 
``judicial assistance.''
    \16\ Chinese Communist Party Central Committee, Decision on Some 
Major Issues Concerning Comprehensively Deepening the Reform, reprinted 
in China Internet Information Center, 16 January 14, sec. 9(34).
    \17\ Zhou Qiang, ``Report on the Work of the Supreme People's 
Court'' [Zuigao renmin fayuan gongzuo baogao], reprinted in China Court 
Net, 8 May 14, sec. III; ``SPC and MOJ Jointly Issue Opinion on State 
Compensation Legal Aid; In Urgent Circumstances First Provide Legal 
Aid, Later Handle Procedures'' [Zuigaofa sifabu lianhe chutai guojia 
peichang falu yuanzhu yijian jinji qingkuang ke xian falu yuanzhu hou 
bu shouxu], 27 January 14. See also ``Top Procurator in Beijing: Each 
Year Approximately Two Million Crime Victims Unable To Obtain 
Compensation'' [Beijing jianchazhang: zhongguo meinian yue 200 wan 
xingshi beihairen huo pei wumen], Radio Free Asia, 11 March 14.
    \18\ Zhou Qiang, ``Report on the Work of the Supreme People's 
Court'' [Zuigao renmin fayuan gongzuo baogao], reprinted in China Court 
Net, 8 May 14, sec. III.
    \19\ Cao Jianming, ``Report on the Work of the Supreme People's 
Procuratorate,'' [Zuigao renmin jianchayuan gongzuo baogao], 
Procuratorial Daily, reprinted in Supreme People's Procuratorate Net, 
10 March 14.
    \20\ Wang Shu, `` `Two Supremes' Receive `Most Attractive Report 
Cards' in Seven Years'' [Liang gao jiao 7 nian lai ``zui jing chengji 
dan''], Beijing News, 17 March 14; Susan Finder, ``The Supreme People's 
Court: Reforming the Chinese Courts the Party Way,'' Supreme People's 
Court Monitor (blog), 8 May 13.
    \21\ Chinese Communist Party Central Committee, Decision on Some 
Major Issues Concerning Comprehensively Deepening the Reform, reprinted 
in China Internet Information Center, 16 January 14, sec. 13(49). For 
information about the reform documents, see ``General Offices of CCP 
Central Committee and State Council Issue Opinion on `Handling Law and 
Litigation-
Related Petitions According to Law,' '' Xinhua, reprinted in State 
Bureau for Letters and Calls, 20 March 14; ``State [Bureau] of Letters 
and Calls Measures for Further Standardizing Procedures for Handling 
Petitioning Matters and Guiding Petitioners To Follow the Proper 
Progression When Petitioning'' [Guojia xinfangju guanyu jinyibu guifan 
xinfang shixiang shouli banli chengxu yindao laifangren yifa zhuji 
zoufang de banfa], Xinhua, reprinted in State Bureau of Letters and 
Calls, 23 April 14. For an English translation of the measures, see 
China Law Translate (blog), 24 April 14; Qian Haoping, ``Data From the 
State Bureau of Letters and Calls: 71 Percent of Petitions Are 
Reasonable, 60 Percent Are Repeats'' [Guojia xinfangju shuju: 71% 
shangfang youli 60% que yao chongfang], Southern Weekend, 12 December 
13; Susan Finder, ``The Supreme People's Court's New Petitioning 
Measures,'' Supreme People's Court Monitor (blog), 2 March 14; 
``Supreme Court Allows Online Petitions,'' Xinhua, reprinted in China 
Daily, 28 February 14. For a description of the xinfang system, see, 
e.g., CECC, 2013 Annual Report, 10 October 13, 158-59; CECC, 2009 
Annual Report, 10 October 09, 238.
    \22\ Benjamin L. Liebman, ``A Populist Threat to China's Courts? '' 
in Chinese Justice: Civil Dispute Resolution in Contemporary China, 
eds. Margaret Y.K. Woo and Mary E. Gallagher (Cambridge: Cambridge 
University Press, 2011), 274 (noting that he uses ``petitioning, 
protesting, and the letters and visits system interchangeably''). See 
also CECC, 2013 Annual Report, 10 October 13, 158-59; CECC, 2009 Annual 
Report, 10 October 09, 238.
    \23\ Qian Haoping, ``Data From the State Bureau of Letters and 
Calls: 71 Percent of Petitions Are Reasonable, 60 Percent Are Repeats'' 
[Guojia xinfangju shuju: 71% shangfang youli 60% que yao chongfang], 
Southern Weekend, 12 December 13. Litigation-related petitions may also 
include matters such as land disputes and forced evictions. See 
Benjamin L. Liebman, ``A Populist Threat to China's Courts? '' in 
Chinese Justice: Civil Dispute Resolution in Contemporary China, eds. 
Margaret Y.K. Woo and Mary E. Gallagher (Cambridge: Cambridge 
University Press, 2011), 282.
    \24\ Chinese Communist Party Central Committee, Decision on Some 
Major Issues Concerning Comprehensively Deepening the Reform, reprinted 
in China Internet Information Center, 16 January 14, sec. 13(49). The 
Third Plenum Decision addressed petitioning in the subsection titled 
``Innovating systems that can effectively prevent and solve social 
conflicts.'' See also Wu Chao and Liu Erwei, ``The Reform and 
Innovation in Letter-Call Petition System in China'' [Zhongguo xinfang 
zhidu de gaige he chuangxin] in The Blue Book of Social Institution: 
Report on Social Institutional Reform in China [Shehui tizhi lanpishu: 
zhongguo shehui tizhi gaige baogao], eds. Gong Weibin and Zhao Qiuying 
(Beijing: Social Sciences Academic Press, 2014), No. 2, 191; Samantha 
Hoffman, ``China's New Petitioning Guidelines and Social Governance 
Policy,'' China Policy Institute Blog, 3 March 14; Benjamin L. Liebman, 
``A Populist Threat to China's Courts? '' in Chinese Justice: Civil 
Dispute Resolution in Contemporary China, eds. Margaret Y.K. Woo and 
Mary E. Gallagher (Cambridge: Cambridge University Press, 2011), 305-6. 
One judge who was interviewed stated that `` `[T]he policy is 
stability'; thus, courts do whatever is necessary to maintain 
stability. Courts, like other party-state institutions, are committed 
to this policy, even if short-term concerns about stability risk 
undermining the courts' authority in the long term.''
    \25\ Hualing Fu, ``Mediation and the Rule of Law: The Chinese 
Landscape,'' in Dispute Resolution: Alternatives to Formalization, eds. 
Joachim Zekoll et al. (Leiden: Brill, 2014), 9-11, reprinted in Social 
Sciences Research Network, last visited 28 June 14; Stability in China: 
Lessons From Tiananmen and Implications for the United States, Hearing 
of the U.S.-China Economic and Security Review Commission, 15 May 14, 
Written Statement Submitted by Steve Hess, Assistant Professor of 
Political Science, College of Public and International Affairs, 
University of Bridgeport, 6; CECC, 2009 Annual Report, 10 October 09, 
238-41.
    \26\ See, e.g., ``China Strictly Bans Confinement of Petitioners,'' 
Xinhua, 19 March 14; ``General Offices of Central Committee and State 
Council's Opinion on Innovative Methods of Working With Masses To 
Resolve Prominent Petitioning Issues'' [Zhonggong zhongyang bangongting 
guowuyuan bangongting yinfa ``guanyu chuangxin qunzhong gongzuo fangfa 
jiejue xinfang tuchu wenti de yijian''], Xinhua, 25 February 14; 
``Petition Reform Takes Its Last Stand,'' Global Times, 24 April 14; 
``State Bureau of Letters and Calls' Vice Minister Zhang Enxi: Let the 
Reasonable and Lawful Demands of the Masses Be Timely Resolved On the 
Spot'' [Guojia xinfangju fu juzhang zhang enxi: rang qunzhong heli hefa 
suqiu dedao jishi jiudi jiejue], Xinhua, reprinted in State Bureau for 
Letters and Calls, 24 April 14; Jonathan Kaiman, ``Chinese Hotel 
Becomes Focal Point in Standoff Over Country's Petition System,'' 
Guardian, 14 April 14.
    \27\ ``Petition Reform Takes Its Last Stand,'' Global Times, 24 
April 14.
    \28\ ``State Council Information Office Holds Press Conference on 
Situation of Petitioning System Reform'' [Guoxinban juxing xinfang 
gongzuo zhidu gaige qingkuang xinwen fabuhui], State Council 
Information Office, 28 November 13.
    \29\ Stability in China: Lessons From Tiananmen and Implications 
for the United States, Hearing of the U.S.-China Economic and Security 
Review Commission, 15 May 14, Written Statement Submitted by Steve 
Hess, Assistant Professor of Political Science, College of Public and 
International Affairs, University of Bridgeport, 6; CECC, 2012 Annual 
Report, 10 October 12, 143.
    \30\ See, e.g., Rahul Jacob and Zhou Ping, ``China's Ancient 
Petition System Goes Online,'' Financial Times, 30 September 11; CECC, 
2013 Annual Report, 10 October 13, 159; CECC, 2009 Annual Report, 10 
October 09, 238-39; CECC, 2007 Annual Report, 10 October 07, 149-51.
    \31\ ``China Voice: Rule of Law Essential for Faith in Petition 
System,'' Xinhua, 24 April 14.
    \32\ Zhang Hong, ``Beijing Bans Petitioners Seeking Redress From 
Appealing Directly to Higher Authorities,'' South China Morning Post, 
24 April 14; State [Bureau] of Letters and Calls, Measures for Further 
Standardizing Procedures for Handling Petitioning Matters and Guiding 
Petitioners To Follow the Proper Progression When Petitioning [Guojia 
xinfangju guanyu jinyibu guifan xinfang shixiang shouli banli chengxu 
yindao laifangren yifa zhuji zoufang de banfa], Xinhua, reprinted in 
State Bureau of Letters and Calls, effective 1 May 14, arts. 3, 4. For 
an unofficial English translation of the Measures, see ``Measures for 
Standardizing Petitioning,'' China Law Translate (blog), 24 April 14.
    \33\ Russell Leigh Moses, ``Beijing's Struggle To Keep People in 
Their Place,'' Wall Street Journal, 25 April 14; Zhang Hong, ``Beijing 
Bans Petitioners Seeking Redress From Appealing Directly to Higher 
Authorities,'' South China Morning Post, 24 April 14; ``State Council 
Information Office Holds Press Conference on Situation of Petitioning 
System Reform'' [Guoxinban juxing xinfang gongzuo zhidu gaige qingkuang 
xinwen fabuhui], State Council Information Office, 28 November 13.
    \34\ ``State Council Information Office Holds Press Conference on 
Situation of Petitioning System Reform'' [Guoxinban juxing xinfang 
gongzuo zhidu gaige qingkuang xinwen fabuhui], State Council 
Information Office, 28 November 13; State [Bureau] of Letters and 
Calls, Measures for Further Standardizing Procedures for Handling 
Petitioning Matters and Guiding Petitioners To Follow the Proper 
Progression When Petitioning [Guojia xinfangju guanyu jinyibu guifan 
xinfang shixiang shouli banli chengxu yindao laifangren yifa zhuji 
zoufang de banfa], Xinhua, reprinted in State Bureau of Letters and 
Calls, effective 1 May 14, arts. 3, 4. For an unofficial English 
translation of the Measures, see ``Measures for Standardizing 
Petitioning,'' China Law Translate (blog), 24 April 14.
    \35\ ``The Political Legal System Wants To End `Believing in 
Petitioning, Not Believing in Law'; Judges Must Be Held Responsible for 
Flaws in Court Cases That Result in Petitioning'' [Zhengfa xitong yu po 
``xin fang bu xin fa''; shenpan xiaci yin shangfang yao zhui ze], 
Guangming Daily, reprinted in Legal Daily, 1 April 14; ``State Council 
Information Office Holds Press Conference on Situation of Petitioning 
System Reform'' [Guoxinban juxing xinfang gongzuo zhidu gaige qingkuang 
xinwen fabuhui], State Council Information Office, 28 November 13.
    \36\ Zhou Bin and Wang Kaiguang, ``Ministry of Justice's Seven Work 
Mechanisms To Advance Law and Litigation-Related Petitioning Reform'' 
[Sifabu qi xiang gongzuo jizhi tuijin shefa shesu xinfang gaige], Legal 
Daily, 11 April 14; ``China Voice: Rule of Law Essential for Faith in 
Petition System,'' Xinhua, 24 April 14; CECC, 2012 Annual Report, 10 
October 12, 143; Wu Chao and Liu Erwei, ``The Reform and Innovation in 
Letter-Call Petition System in China'' [Zhongguo xinfang zhidu de gaige 
he chuangxin] in The Blue Book of Social Institution: Report on Social 
Institutional Reform in China [Shehui tizhi lanpishu: zhongguo shehui 
tizhi gaige baogao], eds. Gong Weibin and Zhao Qiuying (Beijing: Social 
Sciences Academic Press, 2014), No. 2, 188.
    \37\ ``State Council Information Office Holds Press Conference on 
Situation of Petitioning System Reform'' [Guoxinban juxing xinfang 
gongzuo zhidu gaige qingkuang xinwen fabuhui], State Council 
Information Office, 28 November 13; ``Data From the State Bureau of 
Letters and Calls: 71 Percent of Petitions Are Reasonable, 60 Percent 
Are Repeats'' [Guojia xinfangju shuju: 71% shangfang youli 60% que yao 
chongfang], Southern Weekend, 13 December 13; ``China Strictly Bans 
Confinement of Petitioners,'' Xinhua, 19 March 14; ``CPC Central 
Committee Notice: `Blocking and Intercepting' Petitioners Not Allowed'' 
[Zhonggong zhongyang tongzhi: jinzhi ``lan ka du jie'' shangfang 
renyuan ], Radio Free Asia, 20 March 14; ``Beijing Reiterates Call To 
End Petitioner Abuses,'' China Digital Times, 20 March 14.
    \38\ Zhang Yang, ``With Respect to Petitioning, Plan Is To Promote 
Submission of Petitions Online and Handling of Them Offline (State 
Council Information Office Press Conference)'' [Xinfang, ni tui 
wangshang shouli wangxia banli (zai guoxinban fabu huishang)], People's 
Daily, 29 November 13.
    \39\ See, e.g., Wu Chao and Liu Erwei, ``The Reform and Innovation 
in Letter-Call Petition System in China'' [Zhongguo xinfang zhidu de 
gaige he chuangxin] in The Blue Book of Social Institution: Report on 
Social Institutional Reform in China [Shehui tizhi lanpishu: zhongguo 
shehui tizhi gaige baogao], eds. Gong Weibin and Zhao Qiuying (Beijing: 
Social Sciences Academic Press, 2014), No. 2, 188; CECC, 2012 Annual 
Report, 10 October 12, 144; CECC, 2011 Annual Report, 10 October 11, 
187; CECC, 2009 Annual Report, 10 October 09, 95-96, 239.
    \40\ PRC Administrative Litigation Law [Zhonghua renmin gongheguo 
xingzheng susong fa], passed 4 April 89, effective 1 October 90.
    \41\ Shangxi Chenqiao, ``Scope of Change in Administration 
Litigation Law Amendments Exceeds One-Half; Draft Adds 23 Articles and 
Amends 36 Articles'' [Xingzheng susong fa xiugai dong fudu guoban, 
caoan zeng 23 tiao xiugai 36 tiao], Beijing Times, 24 December 13; 
``New Version of `Guide for People Suing Officials' Infographic 
Explaining Administrative Litigation Law Revisions'' [Xinban ``min gao 
guan zhinan'' tujie xingzheng susong fa xiugai], Beijing News, 24 
December 13; CECC, 2009 Annual Report, 10 October 09, 237.
    \42\ Ibid.; CECC, 2009 Annual Report, 10 October 09, 237; Susan 
Finder, ``The Supreme People's Court Encourages the Masses To Leave the 
Streets and Go Into the Courtroom: Week Ending 27 December,'' Supreme 
People's Court Monitor (blog), 28 December 13.
    \43\ Hualing Fu, ``Mediation and the Rule of Law: The Chinese 
Landscape,'' in Dispute Resolution: Alternatives to Formalization, eds. 
Joachim Zekoll et al. (Leiden: Brill, 2014), 9-11, reprinted in Social 
Sciences Research Network, last visited 28 June 14; Benjamin L. 
Liebman, ``A Populist Threat to China's Courts? '' in Chinese Justice: 
Civil Dispute Resolution in Contemporary China, eds. Margaret Y.K. Woo 
and Mary E. Gallagher (Cambridge: Cambridge University Press, 2011), 
280-82.
    \44\ Benjamin L. Liebman, ``A Populist Threat to China's Courts? '' 
in Chinese Justice: Civil Dispute Resolution in Contemporary China, 
eds. Margaret Y.K. Woo and Mary E. Gallagher (Cambridge: Cambridge 
University Press, 2011), 278; Wu Chao and Liu Erwei, ``Reform and 
Innovation in Letter-Call Petition System in China'' [Zhongguo xinfang 
zhidu de gaige he chuangxin] in The Blue Book of Social Institution: 
Report on Social Institutional Reform in China [Shehui tizhi lanpishu: 
zhongguo shehui tizhi gaige baogao], eds. Gong Weibin and Zhao Qiuying 
(Beijing: Social Sciences Academic Press, 2014), No. 2, 188.
    \45\ Shangxi Chenqiao, ``Scope of Change in Administration 
Litigation Law Amendments Exceeds One-Half; Draft Adds 23 Articles and 
Amends 36 Articles'' [Xingzheng susong fa xiugai dong fudu guoban, 
caoan zeng 23 tiao xiugai 36 tiao], Beijing Times, 24 December 13; 
``China Proposes Legislation To Resolve the Difficulty in Filing 
Administrative Litigation Cases, Expands Scope of People Suing 
Officials'' [Zhongguo ni lifa jiejue xingzheng susong li'an nan, kuoda 
min gao guan fanwei], People's Daily, reprinted in Legal Daily, 19 
February 14.
    \46\ Shangxi Chenqiao, ``Scope of Change in Administration 
Litigation Law Amendments Exceeds One-Half; Draft Adds 23 Articles and 
Amends 36 Articles'' [Xingzheng susong fa xiugai dong fudu guoban, 
caoan zeng 23 tiao xiugai 36 tiao], Beijing Times, 24 December 13.
    \47\ Ibid.; ``New Version of `Guide for People Suing Officials' 
Infographic Explaining Administrative Litigation Law Revisions'' 
[Xinban ``min gao guan zhinan'' tujie xingzheng susong fa xiugai], 
Beijing News, 24 December 13.
    \48\ Shangxi Chenqiao, ``Scope of Change in Administration 
Litigation Law Amendments Exceeds One-Half; Draft Adds 23 Articles and 
Amends 36 Articles'' [Xingzheng susong fa xiugai dong fudu guoban, 
caoan zeng 23 tiao xiugai 36 tiao], Beijing Times, 24 December 13; 
``China Proposes Legislation To Resolve the Difficulty in Filing 
Administrative Litigation Cases, Expands Scope of `People Suing 
Officials' '' [Zhongguo ni lifa jiejue xingzheng susong li'an nan, 
kuoda min gao guan fanwei], People's Daily, reprinted in Legal Daily, 
19 February 14.
    \49\ Susan Finder, ``The Supreme People's Court Encourages the 
Masses To Leave the Streets and Go Into the Courtroom: Week Ending 27 
December,'' Supreme People's Court Monitor (blog), 28 December 13; 
``China Proposes Legislation To Resolve the Difficulty in Filing 
Administrative Litigation Cases, Expands Scope of People Suing 
Officials'' [Zhongguo ni lifa jiejue xingzheng susong li'an nan, kuoda 
min gao guan fanwei], People's Daily, reprinted in Legal Daily, 19 
February 14; ``Amendment to Administrative Procedure [sic] Law Hailed 
in China,'' Xinhua, 24 December 13.
    \50\ Shangxi Chenqiao, ``Scope of Change in Administration 
Litigation Law Amendments Exceeds One-Half; Draft Adds 23 Articles and 
Amends 36 Articles'' [Xingzheng susong fa xiugai dong fudu guoban, 
caoan zeng 23 tiao xiugai 36 tiao], Beijing Times, 24 December 13; 
Susan Finder, ``The Supreme People's Court Encourages the Masses To 
Leave the Streets and Go Into the Courtroom: Week Ending 27 December,'' 
Supreme People's Court Monitor (blog), 28 December 13; ``China Proposes 
Legislation To Resolve the Difficulty in Filing Administrative 
Litigation Cases, Expands Scope of People Suing Officials'' [Zhongguo 
ni lifa jiejue xingzheng susong li'an nan, kuoda min gao guan fanwei], 
People's Daily, reprinted in Legal Daily, 19 February 14.
    \51\ ``Ma Huaide: Problems With, and Proposed Revisions to the 
`Administrative Litigation Law' '' [Ma huaide: ``xingzheng susong fa'' 
cunzai de wenti ji xiugai jianyi], Aisixiang, 12 February 12, sec. 5, 
para. 1; Xing Shiwei, ``Six Provinces and Municipalities To Pilot Four 
Judicial Reforms Aimed at `Judicial Localization' '' [Liu shengshi 
shidian si xiang sifa gaige jianzhi ``sifa difanghua''], Beijing News, 
16 June 14; ``Judicial Reform Pilots,'' China Law Translate (blog), 16 
June 14. See also Susan Finder, ``The Supreme People's Court Encourages 
the Masses To Leave the Streets and Go Into the Courtroom: Week Ending 
27 December,'' Supreme People's Court Monitor (blog), 28 December 13; 
Jeffrey Wasserstrom, ``Trials and Errors: A Roundtable on Law, Reform, 
and Repression in China,'' Dissent, 20 February 14; ``China Rethinks 
Its Judicial System,'' New York Times, 17 March 14.
    \52\ Zhou Qiang, ``Report on the Work of the Supreme People's 
Court'' [Zuigao renmin fayuan gongzuo baogao], reprinted in China Court 
Net, 8 May 14, secs. III, VII.
    \53\ See, e.g., Zhou Qiang, ``Report on the Work of the Supreme 
People's Court'' [Zuigao renmin fayuan gongzuo baogao], reprinted in 
China Court Net, 8 May 14, secs. III, VII; Benjamin L. Liebman, ``A 
Populist Threat to China's Courts? '' in Chinese Justice: Civil Dispute 
Resolution in Contemporary China, eds. Margaret Y.K. Woo and Mary E. 
Gallagher (Cambridge: Cambridge University Press, 2011), 311-13; ``CPC 
Central Committee Notice: `Blocking and Intercepting' Petitioners Not 
Allowed'' [Zhonggong zhongyang tongzhi: jinzhi ``lan ka du jie'' 
shangfang renyuan], Radio Free Asia, 20 March 14; Wu Chao and Liu 
Erwei, ``Reform and Innovation in Letter-Call Petition System in 
China'' [Zhongguo xinfang zhidu de gaige he chuangxin] in The Blue Book 
of Social Institution: Report on Social Institutional Reform in China 
[Shehui tizhi lanpishu: zhongguo shehui tizhi gaige baogao], eds. Gong 
Weibin and Zhao Qiuying (Beijing: Social Sciences Academic Press, 
2014), No. 2, 188.
    \54\ Chinese Human Rights Defenders, ``[CHRB] Nearly 100 Detained, 
Restricted in Movement Around 25th Anniversary (5/30-6/5/2014),'' 
Chinese Human Rights Briefing, 5 June 14.
    \55\ Willy Lam, Jamestown Foundation, ``Forgetting Tiananmen, and 
What Came Before It,'' China Brief, Vol. 14, No. 11, 4 June 14.
    \56\ Ibid. See also Elizabeth Lynch, ``Reform or Regression? The 
Corruption Inquiry of Zhou Yongkang,'' Interview With Professor Eva 
Pils (Part 3), China Law & Policy (blog), 13 May 14.
    \57\ Chinese Human Rights Defenders, ``A Nightmarish Year Under Xi 
Jinping's `Chinese Dream': 2013 Annual Report on the Situation of Human 
Rights Defenders in China,'' March 2014, 11; Elizabeth Lynch, ``Reform 
or Regression? The Corruption Inquiry of Zhou Yongkang,'' Interview 
With Professor Eva Pils (Part 3), China Law & Policy (blog), 13 May 14; 
Eva Pils, Remarks on China's Domestic Policy and Human Rights Webcast, 
2014 Bernstein China Symposium, Panel 1, U.S.-Asia Law Institute, New 
York University Law School, 3 April 14; ``Chinese Rights Lawyers Sign 
Aid Pledge Amid Growing Crackdown,'' Radio Free Asia, 2 June 14.
    \58\ ``Lawyers for Detained Church Leader Assaulted,'' Associated 
Press, 13 December 13; Rights Defense Network, ``Chinese Human Rights 
Lawyers Group Statement on Nanle's Severe Violation of Lawyers' 
Professional Rights'' [Zhongguo renquan lushituan guanyu nanle yanzhong 
qinfan lushi zhiyequan de shengming], 13 December 13.
    \59\ ``Joint Statement by Four Lawyers Detained in Jiansanjiang 
After Their Release'' [Jiansanjiang bei ju si lushi huoshi hou de 
lianhe shengming], Boxun, 13 April 14. See also the Commission's 
Political Prisoner Database, records 2011-00180 on Tang Jitian, 2011-
00179 on Jiang Tianyong, 2014-00122 on Wang Cheng, and 2014-00139 on 
Zhang Junjie for more information on these cases.
    \60\ Ibid.; Teng Biao, ``What is a `Legal Education Center' in 
China,'' China Change, 3 April 14.
    \61\ Austin Ramzy, ``Family of Dissident Lawyer Fears for His 
Health After Prison,'' New York Times, Sinosphere (blog), 14 August 14. 
For more information on Gao Zhisheng, see the Commission's Political 
Prisoner Database record 2005-00291.
    \62\ Freedom Now, ``Media Release: Gao Zhisheng Tortured in 
Custody; Wife Pleads for U.S. Help To Get Him Urgent Medical Care,'' 13 
August 14; Austin Ramzy, ``Family of Dissident Lawyer Fears for His 
Health After Prison,'' New York Times, 14 August 14; ``Geng He Doesn't 
Recognize the CCP's Verdict of Gao Zhisheng; Returning Home Is Gao 
Zhisheng's Right'' [Geng he: bu chengren zhonggong dui gao zhisheng de 
panxing, huijia shi gao zhisheng de quanli], Radio Free Asia, 12 August 
14.
    \63\ Freedom Now, ``Media Release: Gao Zhisheng Tortured in 
Custody; Wife Pleads for U.S. Help To Get Him Urgent Medical Care,'' 13 
August 14; ``Wife Updates Gao Zhisheng's Condition Since Release From 
Prison,'' China Change, 1 September 14.
    \64\ ``Wife Updates Gao Zhisheng's Condition Since Release From 
Prison,'' China Change, 1 September 14; Teng Biao, ``A Chinese 
Activist: Out of Prison but Not Free,'' Washington Post, 7 September 
14.
    \65\ Shan Renping, ``Shan Renping: Why Is the Released `Rights 
Lawyer' So Popular in the West? '' [Shan renping: xifang weihe repeng 
huoshi de ``weiquan lushi''], Global Times, 8 August 14.
    \66\ For more information, see the Commission's Political Prisoner 
Database record 2014-00174 on Pu Zhiqiang. ``Pu Zhiqiang Arrested on 
Crimes of Suspicion of Picking Quarrels and Provoking Trouble, and 
Illegally Obtaining Citizen Information'' [Pu zhiqiang shexian xunxin 
zishi, feifa huoqu gongmin xinxi zui bei daibu], China New Service, 13 
June 14; ``Families `Shocked' Over Subversion Charge for Chinese Rights 
Lawyers,'' Radio Free Asia, 23 June 14.
    \67\ ``Chinese Authorities Now Targeting Lawyers' Lawyers,'' Radio 
Free Asia, 9 June 14; Tania Branigan, ``Chinese Rights Lawyers Warn of 
Crackdown After Arrest of Pu Zhiqiang,'' Guardian, 17 June 14; Human 
Rights Watch, ``China: End Nationwide Crackdown on Activists,'' 29 June 
14. For more information on these cases, see the Commission's Political 
Prisoner Database records 2014-00197 on Chang Boyang and 2014-00199 on 
Ji Laisong.
    \68\ Human Rights Watch, ``China: End Nationwide Crackdown on 
Activists,'' 29 June 14; ``Families `Shocked' Over Subversion Charge 
for Chinese Rights Lawyers,'' Radio Free Asia, 23 June 14; ``Chinese 
Rights Lawyers Sign Aid Pledge Amid Growing Crackdown,'' Radio Free 
Asia, 2 June 14. For more information on these cases, see the 
Commission's Political Prisoner Database records 2011-00255 on Tang 
Jingling, 2014-00221 on Yuan Xinting, and 2014-00180 on Wang Qingying.
    \69\ ``Chinese Rights Lawyers Sign Aid Pledge Amid Growing 
Crackdown,'' Radio Free Asia, 2 June 14; ``Chinese Authorities Now 
Targeting Lawyers' Lawyers,'' Radio Free Asia, 9 June 14; Elizabeth 
Lynch, ``Reform or Regression? The Corruption Inquiry of Zhou 
Yongkang,'' Interview With Professor Eva Pils (Part 3), China Law & 
Policy (blog), 13 May 14.
    \70\ Rights Defense Network, ``Mainland Lawyers Issue Public 
Announcement Regarding Formation of the Chinese Lawyers Group for the 
`Protection of Human Rights' '' [Dalu lushi fabu zhongguo ``baozhang 
renquan'' lushi fuwutuan chengli gonggao], 14 September 13.
    \71\ Rights Defense Network, ``Chinese Human Rights Lawyers' Group 
Statement on Nanle's Severe Violation of Lawyers' Professional Rights'' 
[Zhongguo renquan lushituan guanyu nanle yanzhong qinfan lushi 
zhiyequan de shengming], 13 December 13.
    \72\ ``Chinese Rights Lawyers Sign Aid Pledge Amid Growing 
Crackdown,'' Radio Free Asia, 2 June 14.
    \73\ Lu Chen, ``China's Bar Association Tells Lawyers To Shut Up,'' 
Epoch Times, 18 June 14; Li Hui and Ben Blanchard, ``China Plan To Gag 
Lawyers Online Denounced as Insult,'' Reuters, 18 June 14; Keira Lu 
Huang et al., ``Lawyers Slam Draft Code To Muzzle Those Who Publicise 
Cases Online,'' South China Morning Post, 18 June 14; ``Realigning 
Justice,'' Economist, 16 August 14.
    \74\ ``ACLA Explanation of Reforms to the Lawyers Code of Conduct'' 
[Guanyu ``lushi zhiye xingwei guifan'' (xiuding caoan zhengqiu yijian 
gao) de shuoming], China Law Translate (blog), 22 June 14; Keira Lu 
Huang et al., ``Lawyers Slam Draft Code To Muzzle Those Who Publicise 
Cases Online,'' South China Morning Post, 18 June 14; Lu Chen, 
``China's Bar Association Tells Lawyers To Shut Up,'' Epoch Times, 18 
June 14; Li Hui and Ben Blanchard, ``China Plan To Gag Lawyers Online 
Denounced as Insult,'' Reuters, 18 June 14.
    \75\ New Citizens' Movement, ``Joint Letter Strongly Condemning the 
All China Lawyers Association's Unlawful `Revision of the Lawyers' Code 
of Conduct' and `ACLA Members Disciplinary Rules (Provisional)' '' 
[Qianglie qianze luxie weifa xiuding ``lushi zhiye xingwei guifan'' he 
``luxie huiyuan weigui xingwei chufen guize (shixing)'' de lianming 
xin], 18 June 14.
    Notes to Section IV--Xinjiang

    \1\ Edward Wong, ``Chinese Governor Signals Crackdown on 
Separatists,'' New York Times, 7 March 14; ``Xinjiang Chairman Pledges 
Firm Crackdown on Terrorism,'' Xinhua, 5 March 14; ``Xinjiang To Fight 
Terror,'' Global Times, 24 March 14; ``Senior Official Calls for 
Xinjiang Stability,'' Xinhua, 31 March 14; Liu Ziyang, ``During 
Nationwide Public Security Video Conference Guo Shengkun Stresses: 
Enhance Abilities, Strengthen Measures and Take Strict Responsibility 
for Thorough and Solid Anti-Terror and Stability Work'' [Guo shengkun 
zai quanguo gongan jiguan shipin huiyi shang qiangdiao: tisheng nengli 
qianghua cuoshi yan'ge zeren shenru zhashi zuohao fankong weiwen 
gongzuo], Legal Daily, 16 June 14; Yang Ping, ``Xinjiang Destroys More 
Than 330,000 Illegal Religious Publications To Curb Illegal Religious 
Activities'' [Xinjiang xiaohui 33 wan yu jian feifa chubanwu ezhi feifa 
zongjiao huodong], Xinjiang Daily, reprinted in China News Service, 25 
April 14.
    \2\ Uyghur American Association, ``State Violence and Intimidation 
of Uyghurs Will Exacerbate, Not Ease, Tensions in East Turkestan,'' 28 
May 14; James Millward, ``China's Two Problems With the Uyghurs,'' Los 
Angeles Review of Books, 28 May 14; Uyghur American Association, ``UAA 
Condemns State Violence Against Uyghur Civilians in Elishku Township,'' 
29 July 14; ``Uighur Congress Disputes Beijing's Account of Xinjiang 
Clash,'' Deutsche Welle, 30 July 14; Barbara Demick, ``Dozens Die in 
Mass Attack in China's Troubled Xinjiang Province,'' Los Angeles Times, 
29 July 14; ``China Controls Narrative of Violence in Tense West,'' 
Associated Press, reprinted in Washington Post, 4 August 14.
    \3\ Human Rights Watch, ``China: Xinjiang Bombing an Atrocity, 
Restraint Needed,'' 23 May 14; Scott Radnitz and Sean Roberts, ``Why 
the Carrot Isn't Working, Either,'' Foreign Policy, 11 November 13; 
Enze Han et al., ``Are Ethnic Tensions on the Rise in China? '' 
ChinaFile, 13 February 14; ``China's Terrorism Problem,'' Wall Street 
Journal, 5 May 14; Michael Forsythe, ``Q & A: Nicholas Bequelin on Why 
Tensions Are Rising in Xinjiang and Beyond,'' New York Times, 2 May 14.
    \4\ Human Rights Watch, ``China: Xinjiang Bombing an Atrocity, 
Restraint Needed,'' 23 May 14; Tania Branigan, ``China Detains More 
Than 200 Suspected Separatists in Xinjiang, State Media Says,'' 
Guardian, 26 May 14; Tom Phillips, ``Beijing Assembles People's Army To 
Crush China Terrorists With an Iron Fist,'' Telegraph, 20 July 14; Dui 
Hua Foundation, ``Xinjiang Obscures State Security Stats, Trials Likely 
Up 10 Percent,'' Dui Hua Human Rights Journal, 10 February 14; Ellen 
Bork, ``In China, an Irrational Indictment,'' Weekly Standard (blog), 1 
August 14.
    \5\ Evan Osnos, ``Tiananmen Mystery: Can China Hold an Open Terror 
Trial? '' New Yorker, 31 October 13; Paul Mooney, ``The Tiananmen 
Square Car Crash: Terrorism or Accident? '' Forbes, 31 October 13; 
Barbara Demick, ``Tiananmen Square Attack Sows Terror in Spiritual 
Heart of China,'' Los Angeles Times, 28 October 13; David Wertime, 
``Horrific Day for Tiananmen Tourists Is Banner Day for Chinese 
Censors,'' Tea Leaf Nation, 28 October 13; John Sudworth, ``China Tries 
To Block Xinjiang Blast Memorial,'' BBC, 24 May 14; Julie Makinen, 
``China Silent on Deadly Knife Attack in Kunming Railway Station,'' Los 
Angeles Times, 19 April 14; Parameswaran Ponnudurai, ``China's Holding 
Back of Terrorism Evidence Seen as Baffling,'' Radio Free Asia, 12 June 
14; Emily Rauhala, ``China: Dozens Dead or Injured in Xinjiang 
`Terror,' but Facts Are Few and Far Between,'' Time, 30 July 14; Kim 
Soon-hi, ``Chinese Police Block Way to Hometown of Suspect in Deadly 
Crash,'' Asahi Shimbun, 31 October 13; Andrew Jacobs, ``China Says 
Nearly 100 Are Killed in Week of Unrest in Xinjiang,'' New York Times, 
3 August 14; Kim Soon-hi, ``Chinese Police Block Entry to Attack Site 
in Xinjiang Uighur Autonomous Region,'' Asahi Shimbun, 31 July 14; 
Emily Rauhala, ``China Now Says Almost 100 Were Killed in Xinjiang 
Violence,'' Time, 4 August 14.
    \6\ ``China Targets Uyghurs Amid Nationwide `Anti-Terror' Drive,'' 
Radio Free Asia, 2 May 14; William Wan, ``Chinese Police Say Tiananmen 
Square Crash Was `Premeditated, Violent, Terrorist Attack,' '' 
Washington Post, 30 October 13; ``More Than 100 Relatives of Urumqi 
Bomber Detained,'' Radio Free Asia, 9 May 14.
    \7\ ``China Deports Hundreds of Uyghur Residents From Yunnan,'' 
Radio Free Asia, 12 March 14; Ross Perlin, ``China's Westward Expansion 
and Its Discontents,'' Al Jazeera, 31 March 14.
    \8\ Didi Kirsten Tatlow, ``In Xinjiang, a Call To Report 
Extremism--and Long Beards,'' New York Times, Sinosphere (blog), 30 
April 14; ``Authorities' Discriminatory Management of Uyghur Students 
and Lawyers'' [Dangju qishixing guanli weizu xuesheng ji lushi], Radio 
Free Asia, 14 November 13.
    \9\ ``Uygurs Facing New Police Scrutiny in Beijing,'' Associated 
Press, reprinted in South China Morning Post, 30 October 13; ``China 
Targets Uyghurs Amid Nationwide `Anti-Terror' Drive,'' Radio Free Asia, 
2 May 14; Andrew Jacobs, ``Train Station Rampage Further Strains Ethnic 
Relations in China,'' New York Times, 3 March 14; Brian Spegele, 
``China Puts Remote Area on Watch,'' Wall Street Journal, 31 October 
13; J.M., ``Tightening the Screws,'' Economist, 4 November 13.
    \10\ Michael Martina, ``China Rights Advocates Rally for Uighurs 
After Knife Attack,'' Reuters, 10 March 14; Andrew Jacobs, ``Train 
Station Rampage Further Strains Ethnic Relations in China,'' New York 
Times, 3 March 14; Tom Hancock, ``Suspicion and Discrimination Facts of 
Daily Life, Say Uighurs,'' Agence France-Presse, reprinted in Google, 
31 October 13.
    \11\ Wenxin Fan, ``China's Uighurs Fear More Prejudice After 
Kunming Killings,'' Bloomberg, 5 March 14; ``China's Uighur Minority 
Targeted After Deadly Knife Attack,'' France 24, 6 March 14; ``China 
Targets Uyghurs Amid Nationwide `Anti-Terror' Drive,'' Radio Free Asia, 
2 May 14.
    \12\ Yang Jingjie, ``Xinjiang To See `Major Strategy Shift,' '' 
Global Times, 9 January 14.
    \13\ Cui Jia and Gao Bo, ``Xinjiang Doubles Terror Fight Budget,'' 
China Daily, 17 January 14.
    \14\ Zhang Hong, ``President Xi Jinping Delivers Tough Message to 
`Frontline of Terror' on Visit to Xinjiang,'' South China Morning Post, 
30 April 14; Shannon Tiezzi, ``Counterterrorism, `Ethnic Unity' the 
Focus as Xi Visits Xinjiang,'' Diplomat, 29 April 14.
    \15\ ``Beijing's Pivotal Plenum,'' Wall Street Journal, 13 November 
13.
    \16\ Wen-Ti Sung, ``China's New State Security Committee,'' 
Diplomat, 25 November 13; Teddy Ng, ``Xinjiang To Work With National 
Security Commission To Curb Violence, Zhang Chunxian Says,'' South 
China Morning Post, 7 March 14.
    \17\ Shi Rui, ``China's National People's Congress To Formulate 
Anti-Terror Law'' [Zhongguo renda jiang zhiding fankong fa], Caixin, 11 
March 14; Teddy Ng, ``New Anti-Terror Laws Must Protect Human Right 
[sic], Say Legal Experts,'' South China Morning Post, 13 March 14; Bai 
Jie and Cui Qingxin, ``National People's Congress To Formulate Anti-
Terrorism Law According to Real Needs of Anti-Terrorism Work [Renda 
jiang genju fankong gongzuo shiji xuyao zhiding fankong fa], Xinhua, 9 
March 14.
    \18\ Teddy Ng, ``New Anti-Terror Laws Must Protect Human Right 
[sic], Say Legal Experts,'' South China Morning Post, 13 March 14.
    \19\ World Uyghur Congress, ``World Uyghur Congress Urges Calm and 
Caution After Beijing Incident on October 28, 2013,'' 29 October 13; 
Sean R. Roberts, ``Tiananmen Crash: Terrorism or Cry of Desperation? '' 
CNN, 31 October 13; Julie Makinen, ``China Silent on Deadly Knife 
Attack in Kunming Railway Station,'' Los Angeles Times, 19 April 14.
    \20\ John Sudworth, ``China Tries To Block Xinjiang Blast 
Memorial,'' BBC, 24 May 14; Simon Denyer, ``China Censors News of an 
SUV Plowing Into a Crowd in Tiananmen Square, Killing Five,'' 
Washington Post, 28 October 13; Reporters Without Borders, ``Massive 
Censorship of Tiananmen Square ``Traffic Incident,'' 29 October 13; 
``Officials Prohibit Unauthorized Reporting on Tiananmen Jeep Crash, 
Six Reporters Are Detained'' [Guanfang jin shan bao jipuche chongzhuang 
tiananmen 6 jizhe yidu bei kou], Duowei, 28 October 13.
    \21\ Kim Soon-hi, ``Chinese Police Block Way to Hometown of Suspect 
in Deadly Crash,'' Asahi Shimbun, 31 October 13; Andrew Jacobs, ``China 
Says Nearly 100 Are Killed in Week of Unrest in Xinjiang,'' New York 
Times, 3 August 14; Kim Soon-hi, ``Chinese Police Block Entry to Attack 
Site in Xinjiang Uighur Autonomous Region,'' Asahi Shimbun, 31 July 14; 
Emily Rauhala, ``China Now Says Almost 100 Were Killed in Xinjiang 
Violence,'' Time, 4 August 14.
    \22\ China Digital Times, ``Information Tightly Controlled After 
Tiananmen Jeep Crash,'' 28 October 13; Keith Zhai, ``Chinese Police 
Launch Manhunt for Eight After Tiananmen Jeep Crash,'' South China 
Morning Post, 30 October 13; Andrew Jacobs, ``Beijing Crash May Be Tied 
to Unrest in Xinjiang,'' New York Times, 28 October 13; William Ide, 
``China Censors Web Posts Following Xinjiang Unrest Rumors,'' Voice of 
America, 29 July 14; William Ide, ``Knife Attack Kills Dozens in 
China's Xinjiang,'' Voice of America, 29 July 14.
    \23\ China Digital Times, ``Minitrue: Jeep Crash in Tiananmen 
Square,'' 30 October 13; China Digital Times, ``Minitrue: Deadly Clash 
in Xinjiang,'' 16 December 13; China Digital Times, ``Minitrue: Uyghur 
Youth Killed by Police in Aksu,'' 14 April 14.
    \24\ For background on the July 2009 demonstrations and riots in 
Urumqi, see CECC, 2009 Annual Report, 10 October 09, 249-53.
    \25\ Feng Jin and Yao Tong, ``XUAR Provides Information Regarding 
the Case of a Murdered Patriotic Religious Figure in Kashgar City'' 
[Zizhiqu tongbao kashi shi aiguo zongjiao renshi bei hai an qingkuang], 
Xinjiang Daily, reprinted in Tianshan Net, 31 July 14; Cui Jia, ``Man, 
18, Accused of Being Mastermind in Imam's Murder,'' China Daily, 24 
August 14.
    \26\ Islamic Association of China, Association Introduction [Xiehui 
jianjie], last visited 8 September 14.
    \27\ Nathan VanderKlippe, ``The Long Campaign To Silence Uighur 
Voice of Dissent,'' Globe and Mail, 31 July 14; Christopher Bodeen, 
``China Says Pro-Government Imam Murdered in NW,'' Associated Press, 
reprinted in Yahoo! News, 31 July 14; ``Xinjiang City Bans Islamic 
Dress on Public Transport,'' BBC, 6 August 14.
    \28\ Damian Grammaticas, ``Urumqi Attack Kills 31 in China's 
Xinjiang Region,'' BBC, 23 May 14; ``Xi Urges Anti-Terrorism `Nets' for 
Xinjiang,'' Xinhua, 29 May 14.
    \29\ ``Xinjiang Is the Battlefront in Yearlong Crackdown on Violent 
Terrorism'' [Yanda baokong yi nian yi xinjiang wei zhu zhanchang], 
Jinghua News, 26 May 14; ``With Xinjiang as the Main Battleground, 
China Launches a One-Year Crackdown Special Operation on Violence and 
Terrorism'' [Yi xinjiang wei zhu zhanchang zhongguo kaizhan weiqi yi 
nian yanda baokong zhuanxiang xingdong], China News Service, 25 May 14.
    \30\ Jamil Anderlini and Tom Mitchell, ``China Puts Security First 
in Xinjiang After Rail Station Attacks,'' Financial Times, 11 May 14; 
Emily Rauhala, ``The Capital of China's Xinjiang Region Is in Lockdown 
After a Deadly Blast,'' Time, 22 May 14; ``China Sends Arms Trainers to 
Xinjiang,'' Xinhua, 13 May 14; Austin Ramzy, ``Extensive Security 
Displays Follow Attacks in China,'' New York Times, 30 May 14; 
``Shanghai 300,000 `Citizen Volunteers' Bolster Xi Security Forum,'' 
Bloomberg, 16 May 14; Tom Phillips and Malcolm Moore, ``China Shuts 
Bomb Factories as `People's War' on Terror Begins,'' Telegraph, 27 May 
14; Barbara Demick and Julie Makinen, ``China Rearms Beijing Beat 
Police After Series of Stabbing Attacks,'' Los Angeles Times, 12 May 
14.
    \31\ ``Xi Urges Anti-Terrorism `Nets' for Xinjiang,'' Xinhua, 29 
May 14.
    \32\ ``Xinjiang's Party Chief Wages `People's War' Against 
Terrorism,'' Xinhua, reprinted in People's Daily, 26 May 14; Feng Jin 
and Yao Tong, ``Zhang Chunxian: Mobilize the Masses To Fight the 
People's War on Anti-Terrorism and Maintaining Stability in Xinjiang'' 
[Zhang chunxian: quanmin dongyuan dahao xinjiang fankong weiwen renmin 
zhanzheng], People's Daily, 26 May 14.
    \33\ Barbara Demick, ``Dozens Die in Mass Attack in China's 
Troubled Xinjiang Province,'' Los Angeles Times, 29 July 14.
    \34\ William Ide, ``China Censors Web Posts Following Xinjiang 
Unrest Rumors,'' Voice of America, 29 July 14; William Ide, ``Knife 
Attack Kills Dozens in China's Xinjiang,'' Voice of America, 29 July 
14; Barbara Demick, ``Dozens Die in Mass Attack in China's Troubled 
Xinjiang Province,'' Los Angeles Times, 29 July 14; ``Dozens of Uyghurs 
Shot Dead in Riots in Xinjiang's Yarkand County,'' Radio Free Asia, 29 
July 14; Uyghur American Association, ``UAA Condemns State Violence 
Against Uyghur Civilians in Elishku Township,'' 29 July 14.
    \35\ Andrew Jacobs, ``China Says Nearly 100 Are Killed in Week of 
Unrest in Xinjiang,'' New York Times, 3 August 14; Kim Soon-hi, 
``Chinese Police Block Entry to Attack Site in Xinjiang Uighur 
Autonomous Region,'' Asahi Shimbun, 31 July 14; Emily Rauhala, ``China 
Now Says Almost 100 Were Killed in Xinjiang Violence,'' Time, 4 August 
14.
    \36\ ``Serious Violent Terrorist Attack Occurs in Shache County, 
Xinjiang'' [Xinjiang shache xian fasheng yiqi yanzhong baoli kongbu 
xiji an], Xinhua, 29 July 14; Andrew Jacobs, ``China's Account of 
Bloodshed in Far West Is Disputed,'' New York Times, 29 July 14.
    \37\ ``China Central TV Reveals Xinjiang Terror Attack Footage,'' 
Xinhua, reprinted in Global Times, 8 August 14; ``Xinjiang Villagers 
Condemn Terror Ringleader,'' Global Times, 8 August 14; Guan Qingfeng, 
``Minister of Public Security Guo Shengkun Traveled to Xinjiang Three 
Times This Year To Investigate Counter-Terrorism [Efforts]'' [Gongan 
buzhang guo shengkun jinnian yi san fu xinjiang diaoyan fankong], 
Beijing News, 6 August 14.
    \38\ Uyghur American Association, ``UAA Condemns State Violence 
Against Uyghur Civilians in Elishku Township,'' 29 July 14; Barbara 
Demick, ``Deadly Clash in China: An Ambush by Uighurs or a Government 
Massacre? '' Los Angeles Times, 7 August 14; Gabriel Dominguez, 
``Uighur Congress Disputes Beijing's Account of Xinjiang Clash,'' 
Deutsche Welle, 30 July 14; Barbara Demick, ``Dozens Die in Mass Attack 
in China's Troubled Xinjiang Province,'' Los Angeles Times, 29 July 14.
    \39\ ``Xinjiang Police Open Fire at Protest Against Clampdown on 
Islamic Dress,'' Radio Free Asia, 20 May 14; ``Bloody Repression of 
Uyghurs in Xinjiang as Number of People Are Shot Dead and Dozens Are 
Detained'' [Xinjiang xuexing zhenya weizu ren zao qiangji shusi shushi 
ren beibu], Radio Free Asia, 21 May 14.
    \40\ ``Over 100 Detained After Xinjiang Police Open Fire on 
Protesters,'' Radio Free Asia, 23 May 14; ``Xinjiang Police Open Fire 
at Protest Against Clampdown on Islamic Dress,'' Radio Free Asia, 20 
May 14; ``Bloody Repression of Uyghurs in Xinjiang as Number of People 
Are Shot Dead and Dozens Are Detained'' [Xinjiang xuexing zhenya weizu 
ren zao qiangji shusi shushi ren beibu], Radio Free Asia, 21 May 14.
    \41\ ``Over 100 Detained After Xinjiang Police Open Fire on 
Protesters,'' Radio Free Asia, 23 May 14.
    \42\ ``Xinjiang Police Open Fire at Protest Against Clampdown on 
Islamic Dress,'' Radio Free Asia, 20 May 14.
    \43\ ``Over 100 Detained After Xinjiang Police Open Fire on 
Protesters,'' Radio Free Asia, 23 May 14.
    \44\ Gillian Wong, ``China Train Station Blast Seen as Suicide 
Attack,'' Associated Press, 2 May 14; J.M., ``Holes in the Iron Wall,'' 
Economist, 1 May 14; ``China Says Two Religious Extremists Carried Out 
Train Station Attack, an Apparent Suicide Blast,'' Associated Press, 
reprinted in Washington Post, 1 May 14.
    \45\ ``President Xi Vows Intense Pressure on Terrorism,'' Xinhua, 
26 April 14; Michael Forsythe, ``China's Leader Warns of Long-Term 
Terror Fight After Blast,'' New York Times, 1 May 14; Gillian Wong, 
``China Points to Suicide Blast in Urumqi Attack,'' Associated Press, 
reprinted in Salon, 1 May 14.
    \46\ For more information on these clashes and attacks, see 
``Chinese Police Shoot Dead Seven Uyghurs in Kashgar: Group,'' Radio 
Free Asia, 7 October 13; ``Police Shoot and Kill Five Uyghurs in 
Shache, Xinjiang'' [Xinjiang shache jingcha zai jibi 5 weiren], Radio 
Free Asia, 14 October 13; ``Five Uyghurs Killed in Third Straight Week 
of Fatal Shootings in Xinjiang County,'' Radio Free Asia, 14 October 
13; ``On Islamic Holiday, Mosques Become Key Point for Stability 
Maintenance, 100 People Are Arrested in Shache and Five Uyghurs Are 
Killed'' [Yisilan zongjiao jie qingzhensi cheng weiwen zhongdian shache 
zhuapu bai ren zai you wu weiren bei dasi], Radio Free Asia, 16 October 
13; ``More Details Revealed About the Recent Incidents of Bloodshed in 
Shache County, Kashgar Prefecture, Xinjiang'' [Xinjiang kashi diqu 
shache xian jinqi duoqi liuxue shijian geng duo xijie puguang], Radio 
Free Asia, 24 October 13; ``Uyghurs Killed in Police Raids Part of 
`Separatist Bomb Plot,' '' Radio Free Asia, 24 October 13; ``Eleven 
Killed in Raid on Police Station in Xinjiang,'' Radio Free Asia, 16 
November 13; Brian Spegele, ``Violence in China's Ethnically Divided 
Xinjiang Leaves 11 Dead,'' Wall Street Journal, 17 November 13; ``First 
Incident of Violence in Xinjiang Since the Third Plenum Occurs in Bachu 
With Death Toll of 11 Caused by Authorities Gunning Down Young Uyghur'' 
[Sanzhong quanhui hou xinjiang shou zong baoli xiji you xian bachu 11 
si you dangju qiangsha weizu qingnian yinfa], Radio Free Asia, 17 
November 13; ``East Turkestan Flag Found Among Bodies of Uyghur 
Attackers in Xinjiang,'' Radio Free Asia, 19 November 13; Uyghur 
American Association, ``Eyewitnesses Give Alternative Account of 
Incident in Siriqbuya on November 16,'' 20 November 13; ``Government 
Account of Violence at Xinjiang Police Station Questioned,'' Radio Free 
Asia, 20 November 13; ``Chinese Police Deployed Unarmed Uyghurs To Halt 
Attack,'' Radio Free Asia, 22 November 13; Zhou Zunyou, ``America's 
Double Standards on Terrorism,'' South China Morning Post, 6 January 
14; Raffaello Pantucci, Jamestown Foundation, ``Tiananmen Attack: 
Islamist Terror or Chinese Protest? '' China Brief, Vol. 14, No. 1, 9 
January 14; ``Uyghur Attack on Police Station Leaves Three Dead, Two 
Injured,'' Radio Free Asia, 22 January 14; Michael Martina, ``China 
Official Seeks Tougher Rules on Religion After Xinjiang Blasts,'' 
Reuters, 27 January 14; ``Police Reveal Details of Xinjiang Terrorist 
Attack,'' Xinhua, 27 January 14; ``Uyghur Official Murdered, Man Killed 
in Xinjiang,'' Radio Free Asia, 3 February 14; ``Officials Say Wushi 
(Uchturpan) County Attack Was Organized and Premeditated'' [Guanfang 
zhi wushi xian kongxi shi you zuzhi ji yumou], Radio Free Asia, 17 
February 14; ``Chinese Police Say Attack Work of Extremists,'' 
Associated Press, reprinted in Washington Post, 16 February 14; 
``Urumqi: Violent Assault Against Police Officer'' [Wulumuqi fasheng 
baoli xijing shijian], Voice of America, 19 March 14; ``Armed Urumqi 
Suspect Who Attacked Policeman Is Killed, a Uyghur Policeman Sacrifices 
[His Life]'' [Wulumuqi chixie xijing an xianfan bei jibi 1 ming weizu 
minjing xisheng], China News, Net, reprinted in Legal Daily, 19 March 
14; ``Three Han Chinese Officials Murdered in Xinjiang During President 
Xi's Trip,'' Radio Free Asia, 14 May 14; Bi Zimo, ``A Number of Violent 
Incidents Took Place in Yecheng, Kashgar Last Month, With Seven People 
Believed Killed'' [Kashi yecheng shangyue ceng fasheng shuqi baoli 
shijian yi 7 ren siwang], Radio Free Asia, 14 May 14; Andrew Jacobs, 
``Three Officials Were Killed in Xinjiang During Chinese President's 
Visit, Report Says,'' New York Times, Sinosphere (blog), 15 May 14; 
``Two Uyghurs Shot Dead After Bombing Raid on Xinjiang Police 
Station,'' Radio Free Asia, 17 May 14; ``Two Uyghur Teens Shot Dead 
After Kashgar Knife Attack,'' Radio Free Asia, 28 May 14; ``Four Killed 
in New Violence, Nine Sentenced to Death in Xinjiang,'' Radio Free 
Asia, 5 June 14; ``Another Bloody `Veil Removal' Incident Occurs in 
Xinjiang, Five Dead and Two Injured'' [Xinjiang zai fasheng ``jie 
miansha'' liuxue shijian 5 si 2 shang], Radio Free Asia, 11 June 14; 
``Six Killed, Two Injured in Fresh Xinjiang Clashes,'' Radio Free Asia, 
11 June 14; ``13 Dead, 3 Injured in Xinjiang Police Station Attack,'' 
Xinhua, 21 June 14; Yang Fan, ``Explosion Attack Takes Place in Yecheng 
County, Kashgar, Xinjiang, Police Kill 13 People on the Spot'' 
[Xinjiang kashi yecheng xian fasheng baozha xiji jingfang dangchang 
jibi 13 ren], Radio Free Asia, 21 June 14; ``Five Police Officers 
Killed in Attack on Xinjiang Security Checkpoint,'' Radio Free Asia, 22 
June 14; ``One Killed and One Injured in Attack on Police in Shache, 
Kashgar, Xinjiang Severely Punishes Uyghur Cadres and Teachers Who 
Violate Regulations'' [Kashi shache jingcha zaodao xiji liangren 
sishang xinjiang yancheng weigui weizu ganbu ji jiaoshi], Radio Free 
Asia, 25 June 14; ``Five Uyghurs Killed in Connection With Raid on 
Xinjiang Suspect,'' Radio Free Asia, 7 July 14; ``Six Han Chinese 
Farmers Stabbed to Death in Xinjiang,'' Radio Free Asia, 14 July 14; 
Andrew Jacobs, ``Six Farmers Killed in Attack in Xinjiang,'' New York 
Times, Sinosphere (blog), 14 July 14; ``Uyghur Judicial Official, Five 
Han Chinese Traders Murdered in Xinjiang,'' Radio Free Asia, 8 August 
14; ``Township Justice Bureau Chief Stabbed to Death in Xinjiang'' 
[Xinjiang yi xiang sifa suozhang bei cisi], Radio Free Asia, 8 August 
14; ``Wife of Party Official Killed in Xinjiang `Revenge Attack,' '' 
Radio Free Asia, 30 July 14; ``Imam of Grand Kashgar Mosque Murdered in 
Xinjiang Violence,'' Radio Free Asia, 30 July 14; Feng Jin and Yao 
Tong, ``XUAR Provides Information Regarding the Case of a Murdered 
Patriotic Religious Figure in Kashgar City'' [Zizhiqu tongbao kashi shi 
aiguo zongjiao renshi bei hai an qingkuang], Xinjiang Daily, reprinted 
in Tianshan Net, 31 July 14; ``More Terrorist Suspects Killed, Captured 
in Xinjiang,'' Xinhua, 1 August 14; Didi Kirsten Tatlow, ``Amateur 
`Terrorist Hunters' Offered Millions in Cash in Xinjiang,'' New York 
Times, Sinosphere (blog), 4 August 14; ``Farmer's Murder Raises New 
Concerns Among Uyghurs in Xinjiang,'' Radio Free Asia, 11 August 14.
    \47\ See, e.g., Brian Spegele, ``Violence in China's Ethnically 
Divided Xinjiang Leaves 11 Dead,'' Wall Street Journal, 17 November 13; 
``Uyghur Attack on Police Station Leaves Three Dead, Two Injured,'' 
Radio Free Asia, 22 January 14; ``Police Reveal Details of Xinjiang 
Terrorist Attack,'' Xinhua, 27 January 14; Michael Martina, ``China 
Official Seeks Tougher Rules on Religion After Xinjiang Blasts,'' 
Reuters, 27 January 14; ``Chinese Police Say Attack Work of 
Extremists,'' Associated Press, reprinted in Washington Post, 16 
February 14; ``Officials Say Wushi (Uchturpan) County Attack Was 
Organized and Premeditated'' [Guanfang zhi wushi xian kongxi shi you 
zuzhi ji yumou], Radio Free Asia, 17 February 14; ``Three Han Chinese 
Officials Murdered in Xinjiang During President Xi's Trip,'' Radio Free 
Asia, 14 May 14; Andrew Jacobs, ``Three Officials Were Killed in 
Xinjiang During Chinese President's Visit, Report Says,'' New York 
Times, Sinosphere (blog), 15 May 14; ``Six Han Chinese Farmers Stabbed 
to Death in Xinjiang,'' Radio Free Asia, 14 July 14; Andrew Jacobs, 
``Six Farmers Killed in Attack in Xinjiang,'' New York Times, 
Sinosphere (blog), 14 July 14; ``Uyghur Judicial Official, Five Han 
Chinese Traders Murdered in Xinjiang,'' Radio Free Asia, 8 August 14; 
``Township Justice Bureau Chief Stabbed to Death in Xinjiang'' 
[Xinjiang yi xiang sifa suozhang bei cisi], Radio Free Asia, 8 August 
14; ``Wife of Party Official Killed in Xinjiang `Revenge Attack,' '' 
Radio Free Asia, 30 July 14; ``Imam of Grand Kashgar Mosque Murdered in 
Xinjiang Violence,'' Radio Free Asia, 30 July 14; Feng Jin and Yao 
Tong, ``XUAR Provides Information Regarding the Case of a Murdered 
Patriotic Religious Figure in Kashgar City'' [Zizhiqu tongbao kashi shi 
aiguo zongjiao renshi bei hai an qingkuang], Xinjiang Daily, reprinted 
in Tianshan Net, 31 July 14; ``Farmer's Murder Raises New Concerns 
Among Uyghurs in Xinjiang,'' Radio Free Asia, 11 August 14.
    \48\ See, e.g., ``Chinese Police Shoot Dead Seven Uyghurs in 
Kashgar: Group,'' Radio Free Asia, 7 October 13; ``Five Uyghurs Killed 
in Third Straight Week of Fatal Shootings in Xinjiang County,'' Radio 
Free Asia, 14 October 13; ``Six Women Among Uyghurs Shot Dead in 
Xinjiang Violence,'' Radio Free Asia, 18 December 13; ``Uyghur Student 
Motorcyclist Who Beat Traffic Light Shot Dead,'' Radio Free Asia, 13 
April 14; ``13 Shot Dead After Attacking Police in West China,'' 
Associated Press, reprinted in Washington Post, 21 June 14.
    \49\ Andrea Chen, ``Four Suspects in Deadly Kunming Station Attack 
Charged With Terror Offences,'' South China Morning Post, 30 June 14; 
`` `East Turkistan' Forces Flags Found at Chinese Station After 
Terrorist Attack,'' Xinhua, reprinted in CRI English, 3 March 14; Paul 
Carsten and Ben Blanchard, ``China Charges Four Surviving Suspects of 
Kunming Attack,'' Reuters, 29 March 14.
    \50\ ``Police Crack `October 28th' Violent Terrorist Attack Case,'' 
[Jingfang pohuo ``10-28'' baoli kongbu xiji anjian], Xinhua, 30 October 
13; Teddy Ng, ``Five Held for Tiananmen Square Terror Attack, All 
Uygurs From Xinjiang,'' South China Morning Post, 30 October 13; Cui 
Jia, ``Tian'anmen Jeep Crash a Terror Attack,'' China Daily, 31 October 
13.
    \51\ ``23 Terror, Religious Extremism Groups Busted in Xinjiang,'' 
Xinhua, reprinted in People's Daily, 26 May 14; ``China Says Five 
Terror Suspects Detained,'' Associated Press, reprinted in Washington 
Post, 27 May 14; Sui Yunyan, ``Xinjiang Police Crack Down on Violent 
Terrorist Activities, Special Operation Again Achieves Great Victory'' 
[Xinjiang jingfang yanda baoli kongbu huodong zhuanxiang xingdong zai 
huo zhongda zhanguo], Xinjiang Daily, reprinted in Tianshan Net, 27 May 
14; Cathy Wong, ``232 Held for Spread of Terrorism in Xinjiang,'' 
Global Times, 12 May 14; Michael Martina, ``China's Crackdown in 
Restive Xinjiang Nets 400 Suspects,'' Reuters, 7 July 14; Pan Congwu, 
``Xinjiang Mobilizes the Masses so All Residents Fight Terror, Through 
People's Reports More Than 10 Violent Terror Gangs Uncovered, More Than 
100 Suspects Detained'' [Xinjiang fadong qunzhong quanmin fankong jing 
qunzhong jubao pohuo baokong tuanho shi yu ge zhuahuo bai yu xianfan], 
Legal Daily, 7 July 14; Cao Bin and Du Gang, ``18 People Suspected of 
Having Taken Part in Serious Violent Terrorist Attack in Shache County, 
Xinjiang, Give Themselves Up'' [Yi you 18 ming canyu xinjiang shache 
xian yanzhong baokong xiji an xianfan touan zishou], Xinhua, 10 August 
14; William Ide, ``More Than 800 Arrested in China's Widening Xinjiang 
Crackdown,'' Voice of America, 15 August 14.
    \52\ Edward Wong and Chris Buckley, ``32 Terrorist Groups Smashed 
in Xinjiang, China Says,'' New York Times, 23 June 14; Ben Blanchard, 
``China Detains 380 in Month-Long Xinjiang Terror Sweep,'' Reuters, 23 
June 14; Christopher Bodeen, ``China Sentences 81 in Xinjiang for 
Terrorism,'' Associated Press, reprinted in Yahoo! News, 5 June 14; Sui 
Yunyan, ``Our Region Jointly Sentences in 16 Criminal Cases Involving 
the Spread of Violent Terrorist Audiovisual Materials'' [Woqu jizhong 
xuanpan 16 qi she chuanbo baoli kongbu yinshipin fanzui anjian], 
Xinjiang Court Net, 21 May 14; Michael Forsythe, ``Three Sentenced to 
Death Over Tiananmen Attack,'' New York Times, Sinosphere (blog), 16 
June 14; Cao Zhiheng and Yu Tao, ``Verdict Announced in First Instance 
Trial of `October 28th' Violent Terrorist Attack Case'' [``10-28'' 
baoli kongbu xiji anjian yishen gongkai xuanpan], Xinhua, reprinted in 
Tianshan Net, 16 June 14; Chen Chen, ``Jiashi County Publicly Arrests 
and Sentences 53 Criminal Suspects and Criminals'' [Jiashi xian gong ju 
gong bu gong pan 53 ming fanzui xianyi ren he fanzui fenzi], Jiashi 
County Government, 14 June 14; ``Nine Jailed for Terror Crimes as 
Xinjiang Holds Latest Public Sentencing,'' Reuters, reprinted in South 
China Morning Post, 26 June 14; ``Xinjiang Kashgar Publicly Sentences 
113 People Involved in 69 Violent Terrorist Cases'' [Xinjiang kashi 
gongkai xuanpan 69 jian she baokong anjian 113 ren bei panxing], 
Tianshan Net, reprinted in People's Daily, 29 June 14; ``China's West 
Jails 32 People for Terror Content,'' Associated Press, reprinted in 
Washington Post, 11 July 14; Zhang Weisheng, ``XPCC First Division 
Intermediate People's Court First Instance Public Trial of a Case of 
Violent Terrorism'' [Bingtuan yi shi zhong yuan yi shen gongshen yiqi 
she baokong anjian], People's Court Daily, 12 August 14.
    \53\ Sui Yunyan, ``13 People Involved in 7 Violent Terrorist Cases 
in Xinjiang Executed'' [Xinjiang she baokong 7 an 13 ren bei zhixing 
sixing], Xinjiang Daily, reprinted in Tianshan Net, 16 June 14.
    \54\ Amnesty International, ``China: Shameful Stadium `Show Trial' 
Is Not Justice,'' 29 May 14; Uyghur American Association, ``State 
Violence and Intimidation of Uyghurs Will Exacerbate, Not Ease, 
Tensions in East Turkestan,'' 28 May 14; ``China Executes 13 for 
Xinjiang Attacks,'' Al Jazeera, 16 June 14; ``High-Pressure Crackdown 
in Xinjiang Fast and Strict, Experts Worried About Fragile Judicial 
Protections'' [Xinjiang gaoya yanda congkuai congyan zhuanjia danxin 
sifa baozhang cuiruo], Voice of America, 5 June 14; ``China Holds 
Hundreds of Uyghurs as `Anti-Terror' Campaign Spreads,'' Radio Free 
Asia, 8 July 14.
    \55\ ``Xi Jinping Issues Important Instructions Regarding May 22nd 
Violent Terrorist Incident in Urumqi Xinjiang'' [Xi jinping dui 
xinjiang wulumuqi shi ``5-22'' baoli kongbu an zuochu zhongyao pishi], 
Xinhua, reprinted in Tianshan Net, 22 May 14; Feng Jin, ``Zhang 
Chunxian: Using Methods and Measures of Zero Tolerance and Zero Slack, 
Resolutely Crush the Brazenness of Violent Terrorists'' [Zhang 
chunxian: yi ling rongren ling xiedai de cuoshi he shouduan jianjue ba 
baokong fenzi de xiaozhang qiyan daxiaqu], Xinjiang Daily, reprinted in 
Tianshan Net, 23 May 14.
    \56\ Li Xin'an, ``Yili, Xinjiang Holds Open Sentencing for 55 
Violent Terrorist Criminals'' [Xinjiang yili zhou dui 55 ming baokong 
fanzui fenzi jinxing gongkai xuanpan], Xinhua, reprinted in People's 
Daily, 27 May 14.
    \57\ Ibid.
    \58\ Ibid.
    \59\ Ibid.
    \60\ For a discussion of the importance of the Nikah to Uyghur 
Muslims' wedding traditions, see Uyghur Human Rights Project, 
``Briefing: China Attempts To Criminalize Every Aspect of Uyghur 
Religious Belief and Practice,'' 8 May 14.
    \61\ Dui Hua Foundation, ``Xinjiang Obscures State Security Stats, 
Trials Likely Up 10 Percent,'' Dui Hua Human Rights Journal, 10 
February 14; Radio Free Asia, ``State Security Trials on the Rise in 
Xinjiang,'' 11 February 14. Endangering State Security (ESS) crimes are 
defined in Articles 102-113 of the PRC Criminal Law to include acts 
such as splitting the state, subversion, espionage, and armed 
rebellion. Many ESS crimes carry the possibility of life imprisonment 
and capital punishment. For Commission Analysis, see ``Number of State 
Security Cases Tried in Xinjiang Decreases in 2010; Number of Longer 
Prison Sentences Increases,'' Congressional-Executive Commission on 
China, 3 February 11.
    \62\ CECC, 2009 Annual Report, 10 October 09, 244, 253-54. For the 
Chinese legal definition of Endangering State Security, see PRC 
Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 July 79, 
amended 14 March 97, effective 1 October 97, amended 25 December 99, 31 
August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 06, 
28 February 09, 25 February 11, arts. 102-13. Following its 2005 visit 
to China, the UN Working Group on Arbitrary Detention (WGAD) noted that 
the vague definition of crimes of endangering national security, 
splitting the state, subverting state power, and supplying state 
secrets ``leaves their application open to abuse particularly of the 
rights to freedom of religion, speech, and assembly.'' WGAD recommended 
that political crimes ``that leave large discretion to law enforcement 
and prosecution authorities such as `endangering national security,' 
`subverting State power,' `undermining the unity of the country,' 
`supplying of State secrets to individuals abroad,' etc. should be 
abolished.'' Manfred Nowak, Report of the Special Rapporteur on Torture 
and Other Cruel, Inhuman or Degrading Treatment or Punishment, Mission 
to China, E/CN.4/2006/6/Add.6, 10 March 06, paras. 34, 82(s).
    \63\ ``Annual Work Report of Xinjiang's Courts (2013)'' [Xinjiang 
fayuan gongzuo niandu baogao (2013 nian)], Xinjiang Court Net, 17 
January 14.
    \64\ Dui Hua Foundation, ``Xinjiang Obscures State Security Stats, 
Trials Likely Up 10 Percent,'' Dui Hua Human Rights Journal, 10 
February 14.
    \65\ Ibid.
    \66\ Ibid.
    \67\ ``Separatist Uygur Teacher Jailed for Life,'' Xinhua, 23 
September 14; Steven Jiang, ``China Sentences Prominent Uyghur Scholar 
to Life in Prison for `Separatism,' '' CNN, 24 September 14.
    \68\ Tania Branigan, ``Chinese Police Detain Leading Uighur 
Academic Ilham Tohti,'' Guardian, 16 January 14. For more information 
on Ilham Tohti, see the Commission's Political Prisoner Database record 
2009-00315.
    \69\ ``No News on Ilham Tohti, One Student Is Detained in Urumqi'' 
[Yilihamu reng wu yinxun yi xuesheng bei guan wulumuqi], Radio Free 
Asia, 29 January 14.
    \70\ Rights Defense Network, ``Uyghur Professor Ilham Tohti 
Arrested on Charges of Inciting State Separatism'' [Weizu jiaoshi 
yilihamu bei kong shexian fenlie guojia zui daibu], 25 February 14; Ben 
Blanchard, ``China Charges Prominent Uighur Professor With 
Separatism,'' Reuters, 25 February 14.
    \71\ ``Uyghur Student Mutellip Arrested, Ilham Tohti's Bank 
Accounts Frozen'' [Weizu liuxuesheng mutalipu bei daibu yilihamu 
yinhang zhanghu zao dongjie], Radio Free Asia, 31 March 14; ``Uyghur 
Exchange Student Mutellip's Case Turned Over to the Procuratorate, 
Ilham Tohti, Detained for Three Months, Is Still Being Investigated'' 
[Weizu liuxuesheng mutalipu an zhuan jianchayuan yilihamu bei ju zheng 
san yue reng zai zhencha], Radio Free Asia, 14 April 14. For more 
information on Mutellip Imin, see the Commission's Political Prisoner 
Database record 2013-00347.
    \72\ ``Three Students of Uyghur Scholar Ilham Tohti Formally 
Arrested,'' Radio Free Asia, 26 February 14. For more information on 
Perhat Halmurat, see the Commission's Political Prisoner Database 
record 2014-00100.
    \73\ Ibid. For more information on Shohret Tursun, see the 
Commission's Political Prisoner Database record 2014-00133. According 
to sources quoted in the RFA report, Halmurat and Tursun have been 
charged with ``separatism.'' Under Articles 103 and 105 of the PRC 
Criminal Law, Halmurat and Tursun likely face punishments of 3 to 10 
years' imprisonment if convicted of ``separatism.'' PRC Criminal Law 
[Zhonghua renmin gongheguo xingfa], passed 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, arts. 103, 105.
    \74\ Ibid. For more information on Abduqeyum Ablimit, see the 
Commission's Political Prisoner Database record 2014-00134. According 
to sources quoted in the RFA report, Ablimit was charged with 
``revealing state secrets.'' The maximum sentence that CL Article 398 
provides for a person who ``intentionally or negligently divulges state 
secrets'' is 7 years, but Article 111 provides a 10-year minimum 
sentence in cases where ``circumstances are especially serious.'' PRC 
Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 July 79, 
amended 14 March 97, effective 1 October 97, amended 25 December 99, 31 
August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 06, 
28 February 09, 25 February 11, arts. 111, 398.
    \75\ For more information on Akbar Imin, see the Commission's 
Political Prisoner Database record 2014-00115.
    \76\ Michael Martina and Megha Rajagopalan, ``China Detains Uighur 
AIDS Activist Amid Crackdown,'' Reuters, 10 March 14; ``Uyghur Rights 
Advocate Akbar Arrested on Same Day Ilham Taken Away and for Similar 
Charge'' [Weizu weiquan renshi akebaier bei bu yu yue yu yilihamu 
tongri bei daizou kongzui xiangtong], Radio Free Asia, 9 March 14; 
``Beijing Aizhixing Issues Statement Regarding Arrest of Uyghur Akbar 
Imin'' [Beijing aizhixing jiu weizu ren yiming bei bu fabiao 
shengming], Radio Free Asia, 7 March 14.
    \77\ ``Uyghur Language Activist To Be Tried in March,'' Radio Free 
Asia, 27 February 14; ``Investigations Into Case of Jailed Uyghur 
Language Activist Extended,'' Radio Free Asia, 31 January 14; Andrew 
Jacobs, ``A Devotion to Language Proves Risky,'' New York Times, 11 May 
14.
    \78\ ``Uyghur Language Activist Formally Charged, Thrown in 
Notorious Prison,'' Radio Free Asia, 20 June 14.
    \79\ ``Uyghur Linguist, Two Associates Sentenced After One Year 
Detention,'' Radio Free Asia, 26 August 14.
    \80\ ``Separatist Uygur Teacher Jailed for Life,'' Xinhua, 23 
September 14; Steven Jiang, ``China Sentences Prominent Uyghur Scholar 
to Life in Prison for `Separatism,' '' CNN, 24 September 14.
    \81\ ``Separatist Uygur Teacher Jailed for Life,'' Xinhua, 23 
September 14.
    \82\ ``Ilham Tohti Charged With Separatism,'' Global Times, 31 July 
14; ``Former Minzu University Lecturer Ilham [Tohti] Indicted on the 
Crime of Splitting the Nation'' [Zhongyang minda yuan jiangshi yilihamu 
she fenlie guojia zui bei tiqi gongsu], People's Daily, 30 July 14.
    \83\ ``Ilham Meets With Lawyer, Will Plead Not Guilty, Eight People 
Suspected of Splitting the State in Same Case'' [Yilihamu huijian lushi 
jiang zuo wuzui zibian she fenlie guojia zui gong ba ming tong an], 
Radio Free Asia, 5 August 14; Adrian Wan, ``Uygur Scholar Ilham Tohti 
Accused of Leading Group of Students in Trying To Split Chinese 
State,'' South China Morning Post, 6 August 14.
    \84\ See, e.g., Office of the Press Secretary, The White House, 
``Statement by the Press Secretary on the Conviction and Sentencing of 
Ilham Tohti,'' 23 September 14; Office of the Spokesperson, U.S. 
Department of State, ``Conviction and Sentencing of Ilham Tohti,'' 23 
September 14; UK Foreign and Commonwealth Office, United Kingdom, 
``Foreign Office Concerned at Sentence of Ilham Tohti,'' 24 September 
14; European Union External Action, European Union, ``Statement by the 
Spokesperson on the Sentencing of Respected Uighur Academic Ilham 
Tohti,'' 23 September 14; Uyghur American Association, ``Uyghur 
American Association Condemns Harsh Sentencing of Ilham Tohti,'' 23 
September 14; Amnesty International, ``China: Deplorable Life Sentence 
for Uighur Academic,'' 23 September 14; Rights Defense Network, 
``Rights Defense Network Editorial: Uyghur Scholar Ilham Tohti's Life 
Sentence Tramples on Conscience, Rule of Law, and Human Rights'' 
[Weiquan wang shelun: dui weizu xuezhe yilihamu de wuqituxing panjue 
shi dui liangzhi, fazhi he renquan de jianta], 23 September 14.
    \85\ Ting Shi and Shai Oster, ``Uighur Scholar Tohti Jailed for 
Life for Inciting Separatism,'' Bloomberg, 23 September 14.
    \86\ Human Rights Watch, ``China: End Nationwide Crackdown on 
Activists,'' 29 June 14; Amnesty International, ``Document--China: 
Further Information: Uighur Scholar at Risk of Death Sentence: Ilham 
Tohti,'' 26 February 14; Scholars at Risk, ``Scholars at Risk Calls for 
Letters on Behalf of Imprisoned Chinese Economist, Professor Ilham 
Tohti,'' reprinted in Universities Ireland, 21 January 14.
    \87\ Human Rights Watch, ``China: Baseless Charge Against Uighur 
Scholar,'' 30 July 14; Andrew Jacobs, ``Jailed Uighur Scholar Rejects 
China's Separatism Charges as `Distorted,' '' New York Times, 6 August 
14; ``Defense Lawyer for Detained Uyghur Scholar `Forced To Quit,' '' 
Radio Free Asia, 1 August 14.
    \88\ ``Defense Lawyer for Detained Uyghur Scholar `Forced To Quit,' 
'' Radio Free Asia, 1 August 14; Andrew Jacobs, ``Jailed Uighur Scholar 
Rejects China's Separatism Charges as `Distorted,' '' New York Times, 6 
August 14; ``International Community Urges China To Release Ilham 
[Tohti], Because of Pressure From Authorities, Lawyer Representing 
[Him], Wang Yu, Forced To Withdraw'' [Guoji shehui duncu zhongguo 
shifang yilihamu dangju shiya daili lushi wang yu yi bei po tuichu], 
Radio Free Asia, 31 July 14.
    \89\ Wu Yu, ``Ilham Meets With Lawyers, Writes Self Defense'' 
[Lushi huijian, yilihamu zheng zhuanxie zibian shu], Deutsche Welle, 5 
August 14.
    \90\ ``Lawyer for Uyghur Scholar Denied Evidence Ahead of Trial,'' 
Radio Free Asia, 13 August 14.
    \91\ ``Jailed Uyghur Academic's Salary Stopped, Wife Says,'' Radio 
Free Asia, 16 May 14. See also ``Daughter of Jailed Academic Says China 
Deaf to Uyghur Grievances,'' Radio Free Asia, 8 April 14.
    \92\ ``Jailed Uyghur Academic's Salary Stopped, Wife Says,'' Radio 
Free Asia, 16 May 14.
    \93\ ``Authorities Bar Lawyer From Meeting With Detained Uyghur 
Scholar's Wife,'' Radio Free Asia, 28 February 14.
    \94\ ``Faster Than a Speeding Bullet,'' Economist, 9 November 13; 
``China Focus: Xinjiang Braces for First High-Speed Railway,'' Xinhua, 
4 June 14; Michelle FlorCruz, ``Chinese High-Speed Railway Test 
Promises Fast Access to Xinjiang, Growth, and Stability,'' 
International Business Times, 9 June 14.
    \95\ Lily Kuo, ``China Says Its $450 Million Desert Expressway Will 
Bring Peace and Riches--But Peace Looks Unlikely,'' Quartz, 13 December 
13.
    \96\ Richard Lourie, ``The US Pivots East, China Marches West,'' Al 
Jazeera, 8 January 14; ``Policy Innovation To Drive China's Opening Up 
Westward,'' Xinhua, reprinted in China News Service, 27 March 14; 
Lauren Dickey, Jamestown Foundation, ``China Takes Steps Toward 
Realizing Silk Road Ambitions,'' China Brief, 4 June 14.
    \97\ ``NDRC Gears Up To Support Xinjiang Development,'' Xinhua, 4 
June 14; Michael Forsythe, ``Politburo Vows To Improve Living Standards 
in Xinjiang,'' New York Times, Sinosphere (blog), 27 May 14.
    \98\ Jiang Chunyuan, ``NDRC: Specially Establish and Promote a 
Development Plan for Southern Xinjiang and Other Regions,'' Xinhua, 
reprinted in Tianshan Net, 10 June 14; Gao Bo, ``Plans on the Horizon 
To Speed Up Development in Southern Xinjiang,'' China Daily, reprinted 
in People's Daily, 12 June 14.
    \99\ Scott Radnitz and Sean Roberts, ``Why the Carrot Isn't 
Working, Either,'' Foreign Policy, 11 November 13; Takahiro Suzuki, 
``Ethnic Uygurs Shackled by Poverty in South Xinjiang,'' Yomiuri 
Shimbun, 9 November 13; Elizabeth Economy, ``China's Xinjiang 
Problem,'' CNN, Global Public Square (blog), 5 November 13.
    \100\ ``Politburo: Adopt Special Measures To Support Development in 
Southern Xinjiang'' [Zhengzhiju: caiqu teshu cuoshi zhichi nanjiang 
fazhan], Xinhua, reprinted in Beijing News, 27 May 14; ``Central 
Government Researches How To Advance Xinjiang Counterterrorism Work'' 
[Zhongyang yanjiu tuijin xinjiang fankong gongzuo], Xinhua, 26 May 14.
    \101\ ``Xinjiang Students To Benefit From Free Education Policy,'' 
Xinhua, 11 June 14; Gao Bo, ``Plans on the Horizon To Speed Up 
Development in Southern Xinjiang,'' China Daily, reprinted in People's 
Daily, 12 June 14.
    \102\ Aynur, ``Xinjiang Introduces New Regulations: New Hires by 
Xinjiang-Based SOEs [Must Be] Comprised of No Less Than 70 Percent 
Local Labor Force'' [Xinjiang chutai xingui: zhujiang qiye xinzeng 
yonggong dangdi laodongli bu diyu qicheng], Xinhua, 31 May 14; Minnie 
Chan, ``State Enterprises in Xinjiang Ordered To Hire 25pc of New Staff 
From Local Minorities,'' South China Morning Post, 1 June 14.
    \103\ Cui Jia, ``Textiles Fuel Push for Jobs in Xinjiang,'' China 
Daily, 19 March 14; Zhu Kaili and Li Min, ``Xinjiang Delegation 
Recommends Promoting Development of Xinjiang Textile and Clothing 
Industry To Promote a Million Jobs'' [Xinjiang daibiaotuan jianyi 
tuijin xinjiang fangzhi fuzhuang chanye fazhan cujin baiwan ren jiuye], 
Tianshan Net, 11 March 14.
    \104\ James Leibold, Jamestown Foundation, ``Xinjiang Work Forum 
Marks New Policy of `Ethnic Mingling,' '' China Brief, 19 June 14; 
Michael Forsythe, ``Politburo Vows To Improve Living Standards in 
Xinjiang,'' New York Times, Sinosphere (blog), 27 May 14; Tom Phillips 
and Malcolm Moore, ``China Shuts Bomb Factories as `People's War' on 
Terror Begins,'' Telegraph, 27 May 14; Megha Rajagopalan, ``China 
Struggles To Assure People of Stability in Wake of Violent Attacks,'' 
Reuters, 12 June 14.
    \105\ James Leibold, Jamestown Foundation, ``Xinjiang Work Forum 
Marks New Policy of `Ethnic Mingling,' '' China Brief, 19 June 14; Ting 
Shi, ``Xi's Gloves-Off Xinjiang Strategy Challenged by Rising 
Violence,'' Bloomberg, 22 May 14; Adrian Wan, ``Pouring Money Into 
Xinjiang Infrastructure Won't Solve Problems, Experts Warn,'' South 
China Morning Post, 17 June 14; William Ide, ``China Pushes 
Assimilation To Calm Xinjiang Unrest,'' Voice of America, 10 June 14; 
Michael Forsythe, ``Politburo Vows To Improve Living Standards in 
Xinjiang,'' New York Times, Sinosphere (blog), 27 May 14.
    \106\ ``Xi Jinping Delivers an Important Speech at the Second 
Central Xinjiang Work Forum'' [Xi jinping zai di er ci zhongyang 
xinjiang gongzuo zuotanhui shang fabiao zhongyao jianghua], People's 
Daily, 30 May 14; Edward Wong, ``China Moves To Calm Restive Xinjiang 
Region,'' New York Times, 30 May 14.
    \107\ See, e.g., Guan Qiaoqiao and Ren Hua, `` `The Four 
Identifies': New `Pragmatic' Model of Ethnic Unity'' [``Sige rentong'': 
minzu tuanjie jiaoyu ``wushi'' xin moshi], Xinhua, 25 July 10; Wu Jing 
and Zhao Chao, ``Ministry of Education Requires Primary and Secondary 
Schools To Establish Specialized Ethnic Unity Education Courses'' 
[Jiaoyu bu yaoqiu zhong xiao xue yao shezhi zhuanmen de minzu tuanjie 
jiaoyu kecheng], Xinhua, reprinted in PRC Central People's Government, 
15 December 08. For Commission analysis, see ``Xinjiang `Ethnic Unity' 
Regulation Imposes Party Policy, Restricts Free Expression,'' CECC 
China Human Rights and Rule of Law Update, No. 3, 16 March 10, 2.
    \108\ ``Xi Jinping Delivers an Important Speech at the Second 
Central Xinjiang Work Forum'' [Xi jinping zai di er ci zhongyang 
xinjiang gongzuo zuotan hui shang fabiao zhongyao jianghua], People's 
Daily, 30 May 14.
    \109\ Ibid.
    \110\ Jiang Jie, ``Xinjiang To Foster Grass Roots,'' Global Times, 
18 February 14; ``Mass Line Hits Xinjiang,'' Global Times, 21 April 14; 
Li Min, ``In Xinjiang, 200,000 Cadres Go `Down to Grassroots' and Live 
in Ten Thousand Villages'' [Xinjiang 20 wan ming jiguan ganbu xia 
jiceng zhu wan cun], Tianshan Net, 14 February 14.
    \111\ ``Unified Legal Standards Can Help Battle Terror,'' Global 
Times, 11 March 14; ``Mass Line Hits Xinjiang,'' Global Times, 21 April 
14; Lin Meilian, ``Winning Uyghurs' Hearts,'' Global Times, 11 May 14.
    \112\ ``Unified Legal Standards Can Help Battle Terror,'' Global 
Times, 11 March 14.
    \113\ See, e.g., Wang Hong, ``Xinjiang Village Cadre's Diary: Only 
With Both Feet in the Mud Can You Realize the Truth'' [Xinjiang ganbu 
zhucun riji: shuangjiao zhan zai nitu li cai you zhenxin zhenqing], 
Yaxin Net, reprinted in Tianshan Net, 10 March 14; Ye'erbaoli Mawuken, 
``Xinjiang Altay Prefecture Agricultural Bureau Grassroots Working 
Group Establishes `Income Fields' '' [Xinjiang aletai diqu nongyeju 
zhucun gongzuozu jianli ``zengshoutian''], Tianshan Net, 20 May 14; 
Jinghe Wind (Jinghe Zhifeng), Sina Weibo post, 16 June 14, 10:39 a.m.; 
Quality Xinjiang (Zhiliang Xinjiang), Sina Weibo post, 9 June 14, 11:39 
a.m.
    \114\ Bethany Allen-Ebrahimian, ``Mild, Mild West,'' Foreign 
Policy, Tea Leaf Nation, 18 March 14.
    \115\ Zhang Jie et al., ``Xinjiang Grassroots Working Group Leader 
Discusses Grassroots Work'' [Xinjiang zhucun gongzuozu zuzhang tan 
zhucun gongzuo], Xinjiang Daily, reprinted in Tianshan Net, 18 March 
14; Chen Xuanbo (lg--xingyuncao), Tianya BBS post, 17 April 14, 10:42 
p.m.
    \116\ Chen Xuanbo (Xingyun cao), Weixin post, 4 June 14.
    \117\ ``Diary of Living in the Village: Xinjiang Kashgar Prefecture 
Village Assistance Cadre Thoroughly Studies Government Policies and 
Regulations'' [Zhucun riji: xinjiang kashi diqu zhucun ganbu shenru 
xuexi zhengce guiding], Xinjiang Daily, reprinted in Tianshan Net, 8 
April 14.
    \118\ ``Mass Line Hits Xinjiang,'' Global Times, 21 April 14.
    \119\ Jiang Jie, ``Xinjiang To Foster Grass Roots,'' Global Times, 
18 February 14.
    \120\ Liam Powers, ``Kashgar's Redevelopment Is About More Than 
Anti-Uyghur Sentiment,'' openDemocracy, 28 March 14.
    \121\ Uyghur Human Rights Project, ``Living on the Margins: The 
Chinese State's Demolition of Uyghur Communities,'' 2 April 12; Dan 
Levin, ``China Remodels an Ancient Silk Road City, and an Ethnic Rift 
Widens,'' New York Times, 5 March 14.
    \122\ Liam Powers, ``Kashgar's Redevelopment Is About More Than 
Anti-Uyghur Sentiment,'' openDemocracy, 28 March 14; Dan Levin, ``China 
Remodels an Ancient Silk Road City, and an Ethnic Rift Widens,'' New 
York Times, 5 March 14.
    \123\ For general background on the project, see ``Demolition of 
Kashgar's Old City Draws Concerns Over Cultural Heritage Protection, 
Population Resettlement,'' CECC China Human Rights and Rule of Law 
Update, No. 3, 2009, 2.
    \124\ Liang Chen, ``Kashi Economic Zone Plans Approved,'' Global 
Times, 5 September 13; Zhu Jingchao, ``Representative Says Kashgar, 
Xinjiang Will Become Economic Hub for Central, Western, and Southern 
Asia'' [Daibiao cheng xinjiang kashi jiang cheng zhong xi nan ya jingji 
quan zhongxin], China News Service, reprinted in Eastday, 7 March 13.
    \125\ Cui Jia, ``Ancient, Modern Under Same Roof,'' China Daily, 6 
November 13.
    \126\ Michael Sainsbury, ``Uighur Tensions Persist as Kashgar's Old 
City Is Demolished,'' Australian, 6 January 10.
    \127\ Dan Levin, ``China Remodels an Ancient Silk Road City, and an 
Ethnic Rift Widens,'' New York Times, 5 March 14.
    \128\ Nick Holdstock, ``The Death of Old Kashgar,'' Unmapped No. 6, 
last visited 24 January 14; Global Heritage Network, ``Site 
Conservation Assessment (SCA) Report,'' 1 January 10.
    \129\ Andrew Jacobs, ``Uighurs in China Say Bias Is Growing,'' New 
York Times, 7 October 13; Michael Martina, ``In China's Xinjiang, 
Poverty, Exclusion Are Greater Threat Than Islam,'' Reuters, 3 November 
13.
    \130\ See, e.g., CECC, 2013 Annual Report, 10 October 13, 167; 
CECC, 2012 Annual Report, 10 October 12, 154; CECC, 2011 Annual Report, 
10 October 11, 203.
    \131\ See, e.g., Circular Regarding Recruitment of Temporary Staff 
Members at Wenquan County Reservoir Management Station [Guanyu zhaopin 
wenquanxian shuiku guanli zhan linshi gongzuo renyuan de tongzhi], 
Xinjiang Human Resources Testing Net, reprinted in Offcn, 9 April 14; 
``Kuqa County, Aksu Prefecture, Xinjiang No. 3 Middle School 2014 Staff 
Recruitment Schedule'' [Xinjiang akesu diqu kuche xian di san zhongxue 
2014 nian rencai yinjin jihuabiao], Harbin Normal University Employment 
Information Network, 20 March 14; ``2014 Shule County, Kashgar 
Prefecture, Xinjiang Administrative Work Unit Selection Table for 65 
Open Positions'' [2014 nian xinjiang kashi diqu shule xian xingzheng 
shiye danwei linxuan 65 ming gangwei biao], 6say.com, 10 April 14. For 
Chinese legal provisions that forbid ethnic discrimination, see PRC 
Constitution, issued 4 December 82, amended 12 April 88, 29 March 93, 
15 March 99, 14 March 04, art. 4; PRC Regional Ethnic Autonomy Law 
[Zhonghua renmin gongheguo minzu quyu zizhi fa], issued 31 May 84, 
effective 1 October 84, amended 28 February 01, art. 9; PRC Labor Law 
[Zhonghua renmin gongheguo laodong fa], issued 5 July 94, effective 1 
January 95, amended 10 October 01, art. 12; PRC Employment Promotion 
Law [Zhonghua renmin gongheguo jiuye cujin fa], issued 30 August 07, 
effective 1 January 08, art. 28. See also ``Governments in Xinjiang 
Continue To Sponsor, Sanction Job Recruitment That Discriminates 
Against Ethnic Minorities,'' CECC China Human Rights and Rule of Law 
Update, No. 2, 2009.
    \132\ ``2014 Yengisar County, Kashgar Prefecture County-Level 
Agencies, Work Unit Staff Member Selection Table (Work Unit)'' [2014 
nian kashi diqu yingjisha xian xianzhi jiguan, shiye danwei linxuan 
gongzuo renyuan zhiwei biao (shiye danwei)], Civil Service Exam 
Information Network, 11 March 14; ``2014 Shule County, Kashgar 
Prefecture, Xinjiang Administrative Work Unit Selection Table for 65 
Open Positions'' [2014 nian xinjiang kashi diqu shule xian xingzheng 
shiye danwei linxuan 65 ming gangwei biao], 6say.com, 10 April 14; 
``Xinjiang Ali International Cultural Communications Co. Ltd. Is 
Recruiting'' [Xinjiang ali guoji wenhua chuanbo youxian gongsi 
zhaopin], Xinjiang Ganji Net, 14 April 14; ``Xinjiang Yashi Creative 
Technology Co. 
Ltd./Job: Assistant to Chairman, Male'' [Xinjiang yashi chuangneng keji 
youxian gongsi/chengpin: dongshizhang zhuli yiming, nanxing], Xinjiang 
Human Resources Net, 21 April 14.
    \133\ See, e.g., ``Sensitive Words: May Thirty-Fifth and More,'' 
China Digital Times, 27 May 14; China Digital Times, ``Minitrue: 
Condemn Violence, Stress Ethnic Cooperation,'' 4 May 14; China Digital 
Times, ``Minitrue: Uyghur Youth Killed by Police in Aksu,'' 14 April 
14; ``Xinjiang Counterterror Measures Change Daily, Microblogs and QQ 
Disabled in Hotan'' [Xinjiang fankong huayang rixin weixin QQ hetian 
jinyong], Radio Free Asia, 28 May 14; ``More Explosions and Field 
Disconnection Chats, Barricades To Stop Morning and Night Markets in 
Urumqi'' [You you baozhao hetian qieduan liaotian gongju wushi she 
luzhang ting zao yeshi], Radio Free Asia, 27 May 14; ``Minitrue: 
Comparing Xinjiang to Chechnya,'' China Digital Times, 27 May 14; John 
Sudworth, ``China Tries To Block Xinjiang Blast Memorial,'' BBC, 24 May 
14; ``China Controls Narrative of Violence in Tense West,'' Associated 
Press, reprinted in Washington Post, 4 August 14.
    \134\ ``Information Tightly Controlled After Tiananmen Jeep 
Crash,'' China Digital Times, 28 October 13; Keith Zhai, ``Chinese 
Police Launch Manhunt for Eight After Tiananmen Jeep Crash,'' South 
China Morning Post, 30 October 13; Andrew Jacobs, ``Beijing Crash May 
Be Tied to Unrest in Xinjiang,'' New York Times, 28 October 13; Simon 
Denyer, ``China Censors News of an SUV Plowing Into a Crowd in 
Tiananmen Square, Killing Five,'' Washington Post, 28 October 13; 
``Minitrue: Uyghur Youth Killed by Police in Aksu,'' China Digital 
Times, 14 April 14; ``Minitrue: Take No Liberties When Covering 
Violence,'' China Digital Times, 18 June 14; ``Xinjiang Counterterror 
Measures Change Daily, Microblogs and QQ Disabled in Hotan'' [Xinjiang 
fankong huayang rixin weixin QQ hetian jinyong], Radio Free Asia, 28 
May 14.
    \135\ Cui Jia, ``Tian'anmen Jeep Crash a Terror Attack,'' China 
Daily, 31 October 13; Michael Forsythe, ``Three Sentenced to Death Over 
Tiananmen Attack,'' New York Times, Sinosphere (blog), 16 June 14.
    \136\ Simon Denyer, ``China Censors News of an SUV Plowing Into a 
Crowd in Tiananmen Square, Killing Five,'' Washington Post, 28 October 
13; Reporters Without Borders, ``Massive Censorship of Tiananmen Square 
`Traffic Incident,' '' 29 October 13; ``Officials Prohibit Unauthorized 
Reporting on Tiananmen Jeep Crash, 6 Reporters Are Detained'' [Guanfang 
jin shan bao jipuche chongzhuang tiananmen 6 jizhe yidu bei kou], 
Duowei, 28 October 13.
    \137\ William Ide, ``China Tightens Media Controls After Tiananmen 
Crash,'' Voice of America, 4 November 13; Andrew Jacobs, ``Uighur 
Scholar in Ugly Confrontation With Security Agents,'' New York Times, 
Sinosphere (blog), 4 November 13; Rui Di, ``Ilham Tohti: Beijing 
Explosion Incident May Worsen the Situation of the Uyghurs'' [Yilihamu: 
beijing de baozha shijian keneng ehua weizu ren de chujing], Radio 
France Internationale, 29 October 13; Andrew Jacobs, ``China Focuses on 
an Ethnic Minority in a Car Explosion,'' New York Times, 29 October 13; 
Yu Han, ``Uyghur Scholar Discusses Tiananmen Attack Incident'' [Weizu 
xuezhe tan tiananmen xiji shijian], Deutsche Welle, 30 October 13. For 
further analysis, see ``Officials Tightly Control the Narrative 
Surrounding Tiananmen Square Vehicle Crash,'' CECC China Human Rights 
and Rule of Law Update, No. 2, 23 December 13.
    \138\ Hannah Beech, ``The Internet Helped Cause the Kunming 
Terrorist Attack, Says China,'' Time, 6 March 14; Philip Wen, 
``Internet Behind Terrorism in China, Including Kunming Railway 
Massacre: Xinjiang Leader,'' Sydney Morning Herald, 7 March 14; Teddy 
Ng, ``Xinjiang To Work With National Security Commission To Curb 
Violence, Zhang Chunxian Says,'' South China Morning Post, 7 March 14.
    \139\ Wen Ya, ``Hundreds Targeted in Online Blitz,'' Global Times, 
9 October 13. See also Megha Rajagopalan and Ben Blanchard, ``China 
Police Target Online `Jihad' Talk Amid Rumour Crackdown,'' Reuters, 8 
October 13.
    \140\ ``One Xinjiang Official Investigated for Ambiguous Attitude 
Toward Violent Terrorism, One Official Double Expelled for Illegal 
Transmissions'' [Xinjiang 1 guanyuan dui baokong taidu aimei bei cha 1 
ganshi feifa chuanbo bei shuangkai], People's Daily, 27 May 14; 
``Politburo Studies Anti-Terrorism Countermeasures, Officials With 
`Ambiguous Attitude' Toward Violence and Terrorism Investigated'' 
[Zhengzhiju yanjiu fankong duice dui baokong ``taidu aimei'' guanyuan 
bei diaocha], Radio Free Asia, 27 May 14.
    \141\ Sui Yunyan, ``Our Region Jointly Sentences in 16 Criminal 
Cases Involving the Spread of Violent Terrorist Audiovisual Materials'' 
[Woqu jizhong xuanpan 16 qi she chuanbo baoli kongbu yinshipin fanzui 
anjian], Xinjiang Court Net, 21 May 14; ``China Jails 39 in Far West 
for Terror Materials,'' Associated Press, reprinted in Washington Post, 
21 May 14.
    \142\ Uyghur Human Rights Project, ``Trapped in a Virtual Cage: 
Chinese State Repression of Uyghurs Online,'' 16 June 14, 2-3, 44-51, 
61, 69-80. For background on the July 2009 demonstrations and riots in 
Urumqi, see CECC, 2009 Annual Report, 10 October 09, 249-53.
    \143\ Ibid., 2, 11. See also David Bamman et al., ``Censorship and 
Deletion Practices in Chinese Social Media,'' First Monday, Vol. 17, 
No. 3 (2012).
    \144\ For information on various legal restrictions on Islamic 
practices in the XUAR, see CECC, 2013 Annual Report, 10 October 13, 
169-70.
    \145\ Dilmurat Kasim, ``Religious Extremist Ideology Is a Malignant 
Tumor Seriously Affecting Social Stability in Xinjiang'' [Zongjiao 
jiduan sixiang shi yanzhong yingxiang xinjiang shehui wending de 
duliu], Xinjiang Daily, reprinted in China National Radio, 10 December 
13; Jonathan Kaiman, ``Xinjiang Steps Up Fight Against Religious 
Extremists in China,'' Guardian, 17 January 14; ``Xinjiang Chairman 
Vows To Stop Religious Extremism,'' Xinhua, 7 April 14; Michael 
Martina, ``China Official Seeks Tougher Rules on Religion After 
Xinjiang Blasts,'' Reuters, 27 January 14; Parezhati, ``Xinjiang 
Launches Campaign To Deal With Illegal Religious Activities, Attack 
Religious Extremist Illegal Crimes'' [Xinjiang kaizhan zhili feifa 
zongjiao huodong daji zongjiao jiduan weifa fanzui], People's Daily, 
reprinted in Xinhua, 11 February 14; ``Islamists Threaten Xinjiang 
Stability, Says Chinese Newspaper,'' Reuters, reprinted in Guardian, 29 
November 13; Cui Jia and Gao Bo, ``Xinjiang Doubles Terror Fight 
Budget,'' China Daily, 17 January 14.
    \146\ Hotan Prefecture People's Government, ``Regional Bureau of 
Quality Supervision Launches Special Action To Combat Religious 
Extremist Illegal Crimes According to Laws on Dealing With Illegal 
Religious Activities and To Comprehensively Deal With Illegal 
Activities in the Area of Weddings'' [Diqu zhijianju zhashi kaizhan 
yifa zhili feifa zongjiao huodong daji zongjiao jiduan weifa fanzui ji 
zonghe zhili hunyin lingyu weifa xingwei zhuanxiang xingdong], 3 March 
14; Didi Kirsten Tatlow, ``In Xinjiang, a Call To Report Extremism--and 
Long Beards,'' New York Times, Sinosphere (blog), 30 April 14.
    \147\ Jiang Jie and Fang Yang, ``Xinjiang County Awards 50,000 Yuan 
for Tip-Offs,'' Global Times, 24 April 14; ``Uyghur Civil Servants 
Forced To Sign Pledge Regarding Political Stance'' [Weizu gongwuyuan 
beipo qian zhengzhi biaotai chengnuoshu], Radio Free Asia, 7 January 
14.
    \148\ ``China Bans Xinjiang Officials From Observing Ramadan 
Fast,'' BBC, 2 July 14; ``Kashgar College in Xinjiang Threatens Fasting 
Muslim Students With Expulsion,'' Radio Free Asia, 8 July 14; Didi 
Kirsten Tatlow, ``Xinjiang Hospital Asks Staff Not To Fast During 
Ramadan,'' New York Times, Sinosphere (blog), 5 June 14; Yining County 
Health Bureau, Sina Weibo post, 4 June 14, 10:26 a.m.
    \149\ Hotan Prefecture People's Government, ``Regional Bureau of 
Quality Supervision Launches Special Action To Combat Religious 
Extremist Illegal Crimes According to Laws on Dealing With Illegal 
Religious Activities and To Comprehensively Deal With Illegal 
Activities in the Area of Weddings'' [Diqu zhijianju zhashi kaizhan 
yifa zhili feifa zongjiao huodong daji zongjiao jiduan weifa fanzui ji 
zonghe zhili hunyin lingyu weifa xingwei zhuanxiang xingdong], 3 March 
14; Yusujiang Yusuyin and Ruziquli Tuerhong, ``Xinjiang: Shache Highway 
Bureau Arranges Deployment of Security and Stability Work'' [Xinjiang: 
shache gonglu fenju anpai bushu anquan wending gongzuo], 
Chinahighway.com, 3 January 14; Brian Spegele, ``China Puts Remote Area 
on Watch,'' Wall Street Journal, 31 October 13; ``New Hotan City Party 
Secretary: Religious Repression Will Be More Stringent'' [Hetian shi 
xinren shuji: zongjiao yazhi jiang hui gengjia yange], Uyghur Online, 
14 January 14; ``Xinjiang Uses Economic Means To Oppress the Faith of 
Welfare Recipients'' [Xinjiang yi jingji shouduan yapo dibao renshi 
xinyang], Radio Free Asia, 4 December 13; ``Authorities' Discriminatory 
Management of Uyghur Students and Lawyers'' [Dangju qishixing guanli 
weizu xuesheng ji lushi], Radio Free Asia, 14 November 13; Michael 
Martina, ``China Pressures Muslim Uighur Lawyer Families on Burqas, 
Beards,'' Reuters, 13 November 13; Turpan Prefecture Bureau of Justice 
Lawyers' Branch, Xinjiang Judicial Affairs Department, ``Turpan 
Prefecture Lawyers Sign Pledge To Resist Extremist Religious Ideology'' 
[Tulufan diqu lushi qianding dizhi zongjiao jiduan sixiang 
chengnuoshu], 12 November 13; ``Kashgar Promotes `Three Kinds of 
Illegal Behavior Model Responsibility Pledge' Signing Activity'' [Kashi 
tuixing qianshu `san zhong feifa xingwei guifan zeren chengnuo shu' 
huodong], Uyghur Online, 15 January 14; ``Uyghur Civil Servants Forced 
To Sign Pledge Regarding Political Stance'' [Weizu gongwuyuan beipo 
qian zhengzhi biaotai chengnuoshu], Radio Free Asia, 7 January 14; 
``New Year's Crackdown in Xinjiang Suppresses Religion Among Uyghur 
Civil Servants, More Than 10 Men and Women in Korla Arrested, Creating 
Panic Among Uyghurs'' [Xinjiang xinnian yanda kongzhi weizu gongzhi 
renyuan yazhi zongjiao ku'erle shi duo nannu beibu zaocheng weiren 
konghuang], Radio Free Asia, 9 January 14.
    \150\ Jiang Jie and Fang Yang, ``Xinjiang County Awards 50,000 Yuan 
for Tip-Offs,'' Global Times, 24 April 14; Te-Ping Chen, ``Spot Beard, 
Get Paid: China Offers Money for Informants in Xinjiang,'' Wall Street 
Journal, China Real Time Report (blog), 25 April 14; ``Shaya County, 
Xinjiang Quietly Removes Announcement of Reward Incentives'' [Xinjiang 
shaya xian qiaoran chechu jiangli jubao gonggao], Deutsche Welle, 28 
April 14; Uyghur Human Rights Project, ``Briefing: China Attempts To 
Criminalize Every Aspect of Uyghur Religious Belief and Practice,'' 8 
May 14.
    \151\ Tian Huaying, `` `Five Types of People' Prohibited From 
Taking Public Transportation'' [``Wu zhong renyuan'' jinzhi cheng 
gongjiao], Karamay Daily, 4 August 14; Alexa Olesen, ``In One Xinjiang 
City, Beards and Muslim Headscarves Banned From Buses,'' Foreign 
Policy, 5 August 14.
    \152\ ``Xinjiang Uses Economic Means To Oppress the Faith of 
Welfare Recipients'' [Xinjiang yi jingji shouduan yapo dibao renshi 
xinyang], Radio Free Asia, 4 December 13; ``Authorities' Discriminatory 
Management of Uyghur Students and Lawyers'' [Dangju qishixing guanli 
weizu xuesheng ji lushi], Radio Free Asia, 14 November 13; Michael 
Martina, ``China Pressures Muslim Uighur Lawyer Families on Burqas, 
Beards,'' Reuters, 13 November 13; Turpan Prefecture Bureau of Justice 
Lawyers' Branch, Xinjiang Judicial Affairs Department, ``Turpan 
Prefecture Lawyers Sign Pledge To Resist Extremist Religious Ideology'' 
[Tulufan diqu lushi qianding dizhi zongjiao jiduan sixiang 
chengnuoshu], 12 November 13; ``Kashgar Promotes `Three Kinds of 
Illegal Behavior Model Responsibility Pledge' Signing Activity'' [Kashi 
tuixing qianshu `san zhong feifa xingwei guifan zeren chengnuo shu' 
huodong], Uyghur Online, 15 January 14; ``Uyghur Civil Servants Forced 
To Sign Pledge Regarding Political Stance'' [Weizu gongwuyuan beipo 
qian zhengzhi biaotai chengnuoshu], Radio Free Asia, 7 January 14; 
``New Year's Crackdown in Xinjiang Suppresses Religion Among Uyghur 
Civil Servants, More Than 10 Men and Women in Korla Arrested, Creating 
Panic Among Uyghurs'' [Xinjiang xinnian yanda kongzhi weizu gongzhi 
renyuan yazhi zongjiao ku'erle shi duo nannu beibu zaocheng weiren 
konghuang], Radio Free Asia, 9 January 14.
    \153\ ``New Year's Crackdown in Xinjiang Suppresses Religion Among 
Uyghur Civil Servants, More Than 10 Men and Women in Korla Arrested, 
Creating Panic Among Uyghurs'' [Xinjiang xinnian yanda kongzhi weizu 
gongzhi renyuan yazhi zongjiao ku'erle shi duo nannu beibu zaocheng 
weiren konghuang], Radio Free Asia, 9 January 14; ``Uyghur Civil 
Servants Forced To Sign Pledge Regarding Political Stance'' [Weizu 
gongwuyuan beipo qian zhengzhi biaotai chengnuoshu], Radio Free Asia, 7 
January 14.
    \154\ Altay Prefecture Education Bureau, ``100 Questions and 
Answers, Deepening Understanding, Teachers and Students Study Together, 
Creating Harmony Together--Prefectural Normal Schools Launch Training 
Activity on Religious Regulations and Policies'' [Bai ti wenda shenhua 
renshi shisheng gongxue tongchuang hexie--diqu shifan xuexiao kaizhan 
zongjiao fagui zhengce peixun jiaoyu huodong], 28 November 13; Lu 
Zhiyan, ``Stay Away From Illegal Religious [Activities], Uphold Ethnic 
Unity'' [Yuanli feifa zongjiao, weihu minzu tuanjie], Karamay City No. 
19 Elementary School, 3 December 13; Akqi County People's Government, 
``Halaqi Township Conducts Mobile Propaganda Education Guidance 
Activities for Rural Winter Vacation Returnee Students'' [Halaqi xiang 
dui ge cun hanjia fanxiang huijia xuesheng jinxing xunhui xuanchuan 
jiaoyu yindao huodong], 8 February 14; Liu Yabei, ``Regional Education 
System Student Representatives' `Worship the Spirit of Science, Resist 
the Infiltration of Religious Extremist Thought' Forum Successfully 
Convenes'' [Zizhiqu jiaoyu xitong xuesheng daibiao ``chongxiang kexue 
jingshen, dizhi zongjiao jiduan sixiang shentou'' zuotanhui chenggong 
juxing], Xinjiang Education Bureau, 5 November 13.
    \155\ Shule County Women's Federation, ``Autonomous Region Women's 
Federation `Improve Mothers' Quality, Display a Beautiful Life' 
Propaganda Team Comes to Shule County To Speak'' [Zizhiqu fulian 
``tigao muqin suzhi zhanshi liangli rensheng'' xuanjiang tuan lai shule 
xian xuanjiang], reprinted in Shule County People's Government, 22 
April 14; Hami Prefecture Women's Federation, ``Hami Prefecture Women's 
Federation Leadership Class 2013 Annual Debriefing Report'' [Hami diqu 
fulian lingdao banzi 2013 niandu shuzhi shulian baogao], reprinted in 
East Tianshan Net, 1 November 13; Xie Fan, ``Be a Beautiful Woman and 
Display the Great Beauty of Xinjiang'' [Zuo liangli nuxing zhan 
xinjiang damei], Yaxin Net, reprinted in China Ethnicity and Religion 
Net, 14 August 13; ``Prefectural Women's Federation Chairman Debriefing 
Report'' [Qu fulian zhuxi shuzhi shulian baogao], Learning World, 6 
November 13; ``Covering the Face, We Cannot Accept'' [Mengmian, women 
bu neng jieshou], Hongshan Net, 26 November 13; Ayixiamu Hejia, ``2013 
Leading Cadres Individual Debriefing Reports on Virtue and Honesty'' 
[2013 nian lingdao ganbu geren shuzhi shude shulian baogao], Hami 
Prefecture Women's Federation, reprinted in East Tianshan Net, 1 
November 13. For information on earlier steps to increase regulation of 
buwi and place them under state control, see ``Xinjiang Authorities 
Tighten Controls Over Muslim Women,'' CECC China Human Rights and Rule 
of Law Update, No. 5, 4 June 10, 2; ``Xinjiang Authorities Train, Seek 
To Regulate Muslim Women Religious Figures,'' CECC China Human Rights 
and Rule of Law Update, No. 4, 2009, 2.
    \156\ Shule County Women's Federation, ``Autonomous Region Women's 
Federation `Improve Mothers' Quality, Display a Beautiful Life' 
Propaganda Team Comes to Shule County To Speak'' [Zizhiqu fulian 
``tigao muqin suzhi zhanshi liangli rensheng'' xuanjiang tuan lai shule 
xian xuanjiang], reprinted in Shule County People's Government, 22 
April 14; Hami Prefecture Women's Federation, ``Hami Prefecture Women's 
Federation Leadership Class 2013 Annual Debriefing Report'' [Hami diqu 
fulian lingdao banzi 2013 niandu shuzhi shulian baogao], reprinted in 
East Tianshan Net, 1 November 13; Xie Fan, ``Be a Beautiful Woman and 
Display the Great Beauty of Xinjiang'' [Zuo liangli nuxing zhan 
xinjiang damei], Yaxin Net, reprinted in China Ethnicity and Religion 
Net, 14 August 13; ``Prefectural Women's Federation Chairman Debriefing 
Report'' [Qu fulian zhuxi shuzhi shulian baogao], Learning World, 6 
November 13; ``Covering the Face, We Cannot Accept'' [Mengmian, women 
bu neng jieshou], Hongshan Net, 26 November 13; Ayixiamu Hejia, ``2013 
Leading Cadres Individual Debriefing Reports on Virtue and Honesty'' 
[2013 nian lingdao ganbu geren shuzhi shude shulian baogao], Hami 
Prefecture Women's Federation, reprinted in East Tianshan Net, 1 
November 13.
    \157\ For representative examples, see the following records in the 
Commission's Political Prisoner Database: 2009-00328 on Kurbanjan 
Semet, 2009-00314 on Merdan Seyitakhun, 2011-00549 on Qurbanjan 
Abdusemet, and 2008-00014 on Alimjan Yimit.
    \158\ For more information on Abdukiram Abduveli, see the 
Commission's Political Prisoner Database record 2005-00054.
    \159\ ``Uyghur Political Prisoner Who Has Served 23 Years in Prison 
Has Sentence Extended by Five Years, Goes on Hunger Strike in Prison To 
Protest, Is Now in Life-Threatening Condition'' [Weizu zhengzhi fan 
fuxing 23 nian hou jiaxing wu nian yuzhong jueshi kangyi xingming 
weidai], Radio Free Asia, 11 April 14; Amnesty International, ``China: 
End Persecution of Detained Uighur Religious Leader After Prison Term 
Increased for Fifth Time'' 23 April 14; Amnesty International, ``Urgent 
Action: Hunger Striking Uighur Prisoner Critically Ill,'' 23 April 14; 
``Uyghur Religious Leader on Hunger Strike After Fifth Jail Term,'' 
Radio Free Asia, 25 April 14.
    \160\ CECC, 2013 Annual Report, 10 October 13, 169.
    \161\ ``China Bans Xinjiang Officials From Observing Ramadan 
Fast,'' BBC, 2 July 14;, ``Kashgar College in Xinjiang Threatens 
Fasting Muslim Students With Expulsion,'' Radio Free Asia, 8 July 14; 
Didi Kirsten Tatlow, ``Xinjiang Hospital Asks Staff Not To Fast During 
Ramadan,'' New York Times, Sinosphere (blog), 5 June 14; Yining County 
Health Bureau, Sina Weibo post, 4 June 14, 10:26 a.m.
    \162\ ``China Steps Up `Anti-Terrorism' Measures Targeting 
Ramadan,'' Radio Free Asia, 26 June 14.
    \163\ Zhang Zhe, ``How My Uyghur `Nationalism' Was Formed'' [Wode 
weiwu'er ``minzuzhuyi'' shi zenyang xingchengde], New York Times, 3 
July 14; World Uyghur Congress, ``Movement for Uyghur Mother Language 
Based Education,'' February 2014, 36, 38; Graham Adams, ``The Xinjiang 
Perspective: Part III,'' Diplomat, China Power (blog), 8 November 12.
    \164\ For additional analysis, see ``Xinjiang Authorities 
Accelerate Promotion of Mandarin-
Focused Bilingual Education,'' Congressional-Executive Commission on 
China, 10 May 11.
    \165\ Ibid.
    \166\ ``Xi Jinping Delivers an Important Speech at the Second 
Central Xinjiang Work Forum'' [Xi jinping zai di er ci zhongyang 
xinjiang gongzuo zuotanhui shang fabiao zhongyao jianghua], People's 
Daily, 30 May 14.
    \167\ Zhang Lei, ``State Issues More Than 500 Million in Funds To 
Support Bilingual Education in Our Region'' [Guojia xiada 5 yi yu yuan 
zijin zhichi woqu shuangyu jiaoyu], Xinjiang Daily, 18 June 14.
    \168\ ``Four Uyghur Women Forced To Abort Their Babies in 
Xinjiang,'' Radio Free Asia, 30 December 13; ``Uyghur Woman Forced To 
Abort Six-Month Pregnancy While Ill,'' Radio Free Asia, 13 January 14.
    \169\ Ibid.
    \170\ ``Uyghur Woman Forced To Abort Six-Month Pregnancy While 
Ill,'' Radio Free Asia, 13 January 14.
    Notes to Section V--Tibet

    \1\ Office of His Holiness the Dalai Lama, ``Press Statement,'' 25 
January 10. According to the January 25 press statement, the Dalai 
Lama's envoys would arrive in China ``tomorrow'' (i.e., January 26, 
2010).
    \2\ ``Press Conference on Central Govt's Contacts With Dalai Lama 
(Text),'' China Daily, 11 February 10. After the ninth round of 
dialogue, Zhu Weiqun referred to the gap between the eighth and ninth 
rounds as ``the longest interval after we resumed contact and talks in 
2002.''
    \3\ For more information on the Tibetan autonomous areas of China, 
see ``Special Topic Paper: Tibet 2008-2009,'' Congressional-Executive 
Commission on China, 22 October 09, 22-24. In China there are 1 
provincial-level area of Tibetan autonomy, 10 prefectural-level areas 
of Tibetan autonomy, and 2 county-level areas of Tibetan autonomy. The 
area of the Tibet Autonomous Region (TAR) (approximately 1.2 million 
square kilometers), the 10 Tibetan Autonomous Prefectures (TAPs) 
(approximately 1.02 million square kilometers), and the 2 Tibetan 
autonomous counties (TACs) (approximately 0.019 million square 
kilometers) totals approximately 2.24 million square kilometers. The 10 
TAPs make up approximately 46 percent of the TAR/TAP/TAC total area. 
Steven Marshall and Susette Cooke, Tibet Outside the TAR: Control, 
Exploitation and Assimilation: Development With Chinese Characteristics 
(Washington, DC: Self-published CD-ROM, 1997), Table 7, citing multiple 
Chinese sources. Table 7 provides the following information. Tibet 
Autonomous Region (1.2 million square kilometers, or 463,320 square 
miles). Qinghai province: Haibei (Tsojang) TAP (52,000 square 
kilometers, or 20,077 square miles), Hainan (Tsolho) TAP (41,634 square 
kilometers, or 16,075 square miles), Haixi (Tsonub) Mongol and Tibetan 
AP (325,787 square kilometers, or 125,786 square miles), Huangnan 
(Malho) TAP (17,901 square kilometers, or 6,912 square miles), Guoluo 
(Golog) TAP (78,444 square kilometers, or 30,287 square miles), and 
Yushu (Yushul) TAP (197,791 square kilometers, or 76,367 square miles). 
Gansu province: Gannan (Kanlho) TAP (45,000 square kilometers, or 
17,374 square miles) and Tianzhu (Pari) TAC (7,150 square kilometers, 
or 2,761 square miles). Sichuan province: Ganzi (Kardze) TAP (153,870 
square kilometers, or 59,409 square miles), Aba (Ngaba) Tibetan and 
Qiang AP (86,639 square kilometers, or 33,451 square miles), and Muli 
(Mili) TAC (11,413 square kilometers, or 4,407 square miles). Yunnan 
province: Diqing (Dechen) TAP (23,870 square kilometers, or 9,216 
square miles). The table provides areas in square kilometers; 
conversion to square miles uses the formula provided on the Web site of 
the U.S. Geological Survey: 1 square kilometer = 0.3861 square mile. 
For population data, see Tabulation on Nationalities of 2000 Population 
Census of China, Department of Population, Social, Science and 
Technology Statistics, National Bureau of Statistics, and Department of 
Economic Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, September 2003), Tables 10-1, 10-4. According to 
China's 2000 census data, the Tibetan population of the TAR 
(approximately 2.43 million persons), the 10 TAPs (approximately 2.47 
million persons), and the 2 TACs (approximately 0.11 million persons) 
totaled approximately 5.01 million Tibetans. The Tibetan population of 
the 10 TAPs made up approximately 49 percent of the TAR/TAP/TAC total 
Tibetan population as of 2000. See also Tabulation on the 2010 
Population Census of the People's Republic of China, National Bureau of 
Statistics, Department of Population and Employment Statistics, 
Population Census Office Under the State Council, 23 April 13, Table 2-
1. The table titled ``Population by Age, Sex, and Nationality'' listed 
the national Tibetan population as 6,282,187. As of June 2014, the 
Commission had not observed detailed data based on the 2010 census for 
ethnic population in provincial-, prefectural-, and county-level 
administrative areas.
    \4\ The Commission has posted under the Special Topics section of 
the Resources tab of its Web site (www.cecc.gov) a series of lists of 
Tibetan self-immolations. See ``CECC Update: Tibetan Self-
Immolations,'' Congressional-Executive Commission on China, 22 April 
14. The summary contains a list showing that self-immolations numbered 
51-116 took place from September 2012-August 2013.
    \5\ The Commission has posted under the Special Topics section of 
the Resources tab of its Web site (www.cecc.gov) a series of lists of 
Tibetan self-immolations. See ``CECC Update: Tibetan Self-
Immolations,'' Congressional-Executive Commission on China, 22 April 
14. The summary contains a list showing that self-immolations numbered 
117-126 took place from September 2013-August 2014. The summary shows 
that self-immolation number 126 took place on April 15, 2014.
    \6\ For reports providing specific detail on self-immolators' 
protests during the period beginning on September 28, 2013 (in 
chronological order), see, e.g., International Campaign for Tibet, 
``Tibetan Father of Two Sets Fire to Himself and Dies in Ngaba,'' 29 
September 13 (Shichung ``set himself . . . and ran along the road 
shouting in protest against the Chinese authorities''); Free Tibet, 
``Tibetan Farmer Self-Immolates and Dies at Prayer Festival,'' 29 
September 13 (prior to self-immolation, Shichung ``lit butter lamps in 
front of a photo of [the Dalai Lama]''); ``Tibetan Protester Dies of 
His Burns,'' Radio Free Asia, 12 November 13 (prior to death, Tsering 
Gyal ``stated that he was sacrificing his body for the sake of the 
unity of Tibetans''); International Campaign for Tibet, ``Tibetans 
Gather at Monastery in Golok After Self-Immolation of Young Monk,'' 11 
November 13 (Tsering Gyal ``was heard calling the name of the Dalai 
Lama''); International Campaign for Tibet, ``Tibetan Father of Two Sets 
Fire to Himself in Ngaba,'' 4 December 13 (Konchog Tseten ``was heard . 
. . calling for the long life of the Dalai Lama, [and his] return to 
Tibet''); Tibetan Centre for Human Rights and Democracy, ``Tibetan Monk 
Dies of Self-Immolation, Calls for Unity Among Tibetans in Last Note,'' 
19 December 13 (Tsultrim Gyatso died ``calling for unity among Tibetans 
and the return of the [Dalai Lama]''); International Campaign for 
Tibet, ``Security Intensified in Ngaba After Former Kirti Monk Self-
Immolates,'' 14 February 14 (as police drove Lobsang Dorje away, ``he 
sat up and joined his palms''); Phuntsok Yangchen, ``Tibetan Self-
Immolator Lobsang Palden Dies,'' Phayul, 23 March 14 (prior to self-
immolating Lobsang Palden left a text message calling for, among other 
things, ``unity among Tibetans''); ``Tibetan Self-Immolation Protesters 
Die of Their Burns,'' Radio Free Asia, 25 March 14 (Jigme Tenzin ``died 
shortly after self-immolating on a path circling the local Sonag 
monastery'').
    \7\ For Commission analysis of Chinese government regulatory 
intrusion upon Tibetan Buddhist affairs, see, e.g., ``Special Report: 
Tibetan Monastic Self-Immolations Appear To Correlate With Increasing 
Repression of Freedom of Religion,'' CECC China Human Rights and Rule 
of Law Update, No. 1, 24 January 12, 1; ``Tibetan Buddhist Affairs 
Regulations Taking Effect in Tibetan Autonomous Prefectures,'' 
Congressional-Executive Commission on China, 10 March 11; ``New Legal 
Measures Assert Unprecedented Control Over Tibetan Buddhist 
Reincarnation,'' Congressional-Executive Commission on China, 22 August 
07. For measures issued by China's central government, see, e.g., State 
Administration for Religious Affairs, Measures for Evaluating the 
Credentials of and Appointing Monastic Teachers in Tibetan Buddhism 
[Zangchuan fojiao simiao jingshi zige pingding he pinren banfa], issued 
and effective 3 December 12; State Administration for Religious 
Affairs, Management Measures for Tibetan Buddhist Monasteries 
[Zangchuan fojiao simiao guanli banfa], issued 30 September 10, 
effective 1 November 10; State Administration for Religious Affairs, 
Measures on the Management of the Reincarnation of Living Buddhas in 
Tibetan Buddhism [Zangchuan fojiao huofo zhuanshi guanli banfa], issued 
18 July 07, effective 1 September 07.
    \8\ During the 2014 reporting year, the Commission did not observe 
indications that dialogue between the Chinese government and the Dalai 
Lama's representatives might soon resume.
    \9\ The Commission has posted under the Special Topics section of 
the Resources tab of its Web site (www.cecc.gov) a series of lists of 
Tibetan self-immolations. See ``CECC Update: Tibetan Self-
Immolations,'' Congressional-Executive Commission on China, 22 April 
14. As of April 15, 2014, 126 Tibetan self-immolations reported or 
believed to focus on political and religious issues took place in the 
following 10 prefectural-level areas of Tibetan autonomy (arranged in 
descending order by number of self-immolations): Aba (Ngaba) Tibetan 
and Qiang Autonomous Prefecture, Sichuan province, 55 self-immolations; 
Gannan (Kanlho) Tibetan Autonomous Prefecture (TAP), Gansu province, 27 
self-immolations; Huangnan (Malho) TAP, Qinghai province, 18 self-
immolations; Ganzi (Kardze) TAP, Sichuan, 7 self-immolations; Yushu 
(Yulshul) TAP, Qinghai, 5 self-immolations; Naqu (Nagchu) prefecture, 
Tibet Autonomous Region (TAR), 4 self-immolations; Lhasa municipality, 
TAR, 3 self-immolations; Guoluo (Golog) TAP, Qinghai, 3 self-
immolations; Changdu (Chamdo) prefecture, TAR, 1 self-immolation; and 
Haixi (Tsonub) Mongol and Tibetan Autonomous Prefecture, Qinghai, 1 
self-immolation. In addition, 2 Tibetans self-immolated in Haidong 
prefecture, Qinghai, which is not an area of Tibetan autonomy. (The 
preceding information does not include Yushu TAP self-immolation 
property protests by females Dekyi Choezom and Pasang Lhamo on June 27 
and September 13, 2012, respectively, and an unidentified woman in 
March 2013; and the April 6, 2012, deaths of a Tibetan Buddhist abbot, 
Athub, and a nun, Atse, in a Ganzi TAP house fire initially reported as 
accidental and later as self-immolation. The Commission continues to 
monitor reports on their deaths.)
    \10\ The Commission has posted under the Special Topics section of 
the Resources tab of its Web site (www.cecc.gov) a series of lists of 
Tibetan self-immolations. See ``CECC Update: Tibetan Self-
Immolations,'' Congressional-Executive Commission on China, 22 April 
14. A total of 10 self-immolations numbered 117-126 took place from 
September 2013-August 2014: Aba Tibetan and Qiang Autonomous 
Prefecture, Sichuan province (117, 119, 122-123); Ganzi Tibetan 
Autonomous Prefecture (TAP), Sichuan (125-126); Huangnan TAP, Qinghai 
province (121, 124); Gannan TAP, Gansu province (120); and Guoluo TAP, 
Qinghai (118).
    \11\ For information on the February 27, 2009, self-immolation of 
Kirti Monastery monk Tashi (or Tabe), see, e.g., ``Xinhua Insight: Who 
Can Put an End to Self-Immolation Tragedy? '' Xinhua, 22 June 12 (Open 
Source Center, 22 June 12); ``Tibetan Monk Admits Spreading Shooting 
Rumors,'' Xinhua, reprinted in China Daily, 5 March 09; Tendar Tsering, 
``Tabey Is Alive but Crippled: Woeser,'' Phayul, 17 December 11; 
International Campaign for Tibet, ``Monk in Tibet Sets Himself on Fire; 
Shot by Police During Protest,'' 27 February 09. See also ``Special 
Report: Tibetan Monastic Self-Immolations Appear To Correlate With 
Increasing Repression of Freedom of Religion,'' CECC China Human Rights 
and Rule of Law Update, No. 1, 24 January 12, 1.
    \12\ See, e.g., ``CECC Update: Tibetan Self-Immolations,'' 
Congressional-Executive Commission on China, 22 April 14. Of the self-
immolations numbered 1-13 spanning the period February 2009-December 
2011, all 13 were current or former monks or nuns; 12 of the 13 took 
place in Sichuan province. For information on the shift during 2012 of 
the profile of Tibetan self-immolations, see ``Special Report: Tibetan 
Self-Immolation--Rising Frequency, Wider Spread, Greater Diversity,'' 
Congressional-Executive Commission on China, 22 August 12. To track 
self-immolation developments, the Commission has posted under the 
Special Topics section of the Resources tab on its Web site 
(www.cecc.gov) a series of summaries of information on Tibetan self-
immolations. The summaries include a breakdown by gender, location, and 
occupation type.
    \13\ See, e.g., ``CECC Update: Tibetan Self-Immolations,'' 
Congressional-Executive Commission on China, 23 January 13. In the 
first of a series of summaries of information on Tibetan self-
immolation, the update states: ``51 of the 95 self-immolators 
reportedly were laypersons; 44 were current or former monks or nuns''; 
and ``52 of the 95 self-immolations reportedly took place in Qinghai 
and Gansu provinces and the Tibet Autonomous Region; 43 took place in 
Sichuan province.'' For additional information on the shift during 2012 
of the profile of Tibetan self-immolations, see ``Special Report: 
Tibetan Self-Immolation--Rising Frequency, Wider Spread, Greater 
Diversity,'' Congressional-Executive Commission on China, 22 August 12.
    \14\ ``CECC Update: Tibetan Self-Immolations,'' Congressional-
Executive Commission on China, 22 April 14. The update contains a list 
of self-immolations. The six monastics who self-immolated during the 
12-month period September 2013-August 2014 were: monk Tsering Gyal 
(November 11, 2013; Akyong Monastery, Qinghai province); monk Tsultrim 
Gyatso (December 19, 2013; Achog Monastery, Gansu province); monk 
Lobsang Dorje (February 13, 2014; Kirti Monastery, Sichuan province); 
monk Lobsang Palden (March 16, 2014; Kirti Monastery, Sichuan); monk 
Jigme Tenzin (March 16, 2014; Sonag Monastery, Qinghai); and nun Drolma 
(March 29, 2014; unidentified nunnery, Sichuan).
    \15\ Ibid. The update contains a list of self-immolations. The four 
laypersons who self-immolated during the 12-month period September 
2013-August 2014 were: male Shichung (September 28, 2013; Sichuan 
province); male Konchog Tseten (December 3, 2013; Sichuan); male Phagmo 
Samdrub (February 5, 2014; Qinghai province); and male Trinle Namgyal 
(Trinley Namgyal, April 15, 2014; Sichuan).
    \16\ Ibid. The update contains a list of self-immolations. The six 
self-immolations in Sichuan province during the 12-month period 
September 2013-August 2014 were: male Shichung (September 28, 2013); 
male Konchog Tseten (December 3, 2013); monk Lobsang Dorje (February 
13, 2014; Kirti Monastery); monk Lobsang Palden (March 16, 2014; Kirti 
Monastery); nun Drolma (March 29, 2014; unidentified nunnery); and male 
Trinle Namgyal (Trinley Namgyal, April 15, 2014).
    \17\ Ibid. The update contains a list of self-immolations. The four 
self-immolations in Qinghai or Gansu province during the 12-month 
period September 2013-August 2014 were: monk Tsering Gyal (November 11, 
2013; Akyong Monastery, Qinghai province); monk Tsultrim Gyatso 
(December 19, 2013; Achog Monastery, Gansu province); male Phagmo 
Samdrub (February 5, 2014; Qinghai); and monk Jigme Tenzin (March 16, 
2014; Sonag Monastery, Qinghai).
    \18\ See, e.g., ``CECC Update: Tibetan Self-Immolations,'' 
Congressional-Executive Commission on China, 22 April 14. The summary 
reported that of 126 self-immolators, 68 were laypersons and 58 were 
current or former monks or nuns. Of the 126 self-immolations, 64 took 
place in Qinghai and Gansu provinces and the Tibet Autonomous Region; 
62 took place in Sichuan province.
    \19\ CECC, 2013 Annual Report, 10 October 13, 174-78; CECC, 2012 
Annual Report, 10 October 12, 157-60.
    \20\ See, e.g., International Campaign for Tibet, ``Tibetan Father 
of Two Sets Fire to Himself and Dies in Ngaba,'' 29 September 13; Free 
Tibet, ``Tibetan Farmer Self-Immolates and Dies at Prayer Festival,'' 
29 September 13; ``Chinese Authorities Order Self-Immolator's Ashes 
`Thrown in River,' '' Radio Free Asia, 30 September 13.
    \21\ See, e.g., ``Tibetan Protester Dies of His Burns,'' Radio Free 
Asia, 12 November 13; International Campaign for Tibet, ``Tibetans 
Gather at Monastery in Golok After Self-Immolation of Young Monk,'' 11 
November 13; ``Tibetan Monk Succumbs to His Burns in the Latest Self-
Immolation in Tibet,'' Voice of America, 12 November 13.
    \22\ See, e.g., International Campaign for Tibet, ``Tibetan Father 
of Two Sets Fire to Himself in Ngaba,'' 4 December 13; ``Tibetan Youth 
Self-Immolates in Ngaba Raising the Toll to 124,'' Voice of America, 4 
December 13; ``Tibetan Father of Two Self-Immolates in Ngaba,'' Radio 
Free Asia, 4 December 13.
    \23\ See, e.g., Tibetan Centre for Human Rights and Democracy, 
``Tibetan Monk Dies of Self-Immolation, Calls for Unity Among Tibetans 
in Last Note,'' 19 December 13; ``Tibetan Monk From Sangchu Dies After 
Setting Himself on Fire,'' Voice of America, 19 December 13; 
``Respected Tibetan Monk Burns Himself to Death in Gansu,'' Radio Free 
Asia, 19 December 13; International Campaign for Tibet, ``Monks Gather 
To Pray After Self-Immolation of Respected Tibetan Monk in Amchok,'' 20 
December 13.
    \24\ See, e.g., International Campaign for Tibet, ``Self-Immolation 
of Tibetan Father of Two in Tsekhog,'' 7 February 14; ``Tibetan Man 
Carries Out Self-Immolation Protest,'' Voice of America, 6 February 14; 
``Tibetan Man Sets Himself Ablaze in First Burning Protest This Year,'' 
Radio Free Asia, 6 February 14.
    \25\ See, e.g., ``Latest Tibetan Self-Immolation Protester Dies,'' 
Radio Free Asia, 17 February 14; International Campaign for Tibet, 
``Security Intensified in Ngaba After Former Kirti Monk Self-
Immolates,'' 14 February 14; ``Ngaba Self-Immolator Lobsang Dead, 
Cremated Without Family's Consent,'' Phayul, 18 February 14.
    \26\ See, e.g., Phuntsok Yangchen, ``Tibetan Self-Immolator Lobsang 
Palden Dies,'' Phayul, 23 March 14; ``Two Tibetan Monks Self-Immolate 
on Crackdown Anniversary,'' Radio Free Asia, 16 March 14; ``Two Tibetan 
Monks Self-Immolate,'' Voice of America, 17 March 14.
    \27\ See, e.g., ``Monk Self-Immolates in NW China,'' Xinhua, 16 
March 14, reprinted in China Internet Information Center (provides name 
of monastery as ``Shaderi''); ``Tibetan Self-Immolation Protesters Die 
of Their Burns,'' Radio Free Asia, 25 March 14 (provides alternate name 
for Sonag Monastery as ``Shador''); ``Tsekhog Self Immolator Died Hours 
After Self Immolation: Sources,'' Phayul, 26 March 14; ``Two Tibetan 
Monks Self-Immolate on Crackdown Anniversary,'' Radio Free Asia, 16 
March 14; Free Tibet, ``March 16 Self-Immolation Protester Identified 
as Jigme Tenzin,'' 25 March 14.
    \28\ See, e.g., International Campaign for Tibet, ``Tibetan Nun 
Sets Fire to Herself Outside Monastery in First Self-Immolation in 
Bathang,'' 31 March 14 (``survived after receiving emergency medical 
treatment at the hospital''); ``Tibetan Nun Self-Immolator 
Identified,'' Radio Free Asia, 31 March 14; ``Tibetan Nun Immolates 
Self in Kham Bathang,'' Phayul, 30 March 14.
    \29\ See, e.g., ``Tibetan Man Burns Himself to Death in Eastern 
Tibet,'' Tibet Express, 16 April 14; ``Tibetan Immolates Self in 
Tawu,'' Phayul, 15 April 14 (``body was . . . later handed over to his 
family''); ``Tibetan Man Self-Immolates in Kham Tawu,'' Voice of 
America, 15 April 14.
    \30\ Ruo'ergai County People's Government, Notice of Interim Anti-
Self-Immolation Provisions [Guanyu fan zifen gongzuo zanxing guiding de 
tongzhi], 8 April 13, reprinted and translated in China Digital Times, 
``Community Punished for Self-Immolations,'' 18 February 14. See also 
Human Rights Watch, ``China: Tibetan Immolations, Security Measures 
Escalate,'' 29 November 12. The HRW report included a translation of a 
November 14, 2012, notice issued jointly by the Communist Party and the 
local government in Huangnan (Malho) Tibetan Autonomous Prefecture, 
Qinghai province, that included collective punishment.
    \31\ Tibetan Centre for Human Rights and Democracy, ``China 
Announces Unprecedented Harsh Measures To Deter Self-Immolations in 
Tibet's Dzoege County,'' 14 February 14; China Digital Times, 
``Community Punished for Self-Immolations,'' 18 February 14; 
International Campaign for Tibet, `` `Absurd and Terrifying' New 
Regulations Escalate Drive To Criminalize Self-Immolations by Targeting 
Family, Villagers, Monasteries,'' 24 February 14.
    \32\ Ruo'ergai County People's Government, Notice of Interim Anti-
Self-Immolation Provisions [Guanyu fan zifen gongzuo zanxing guiding de 
tongzhi], 8 April 13, arts. 1-3, 9-11, 13, reprinted and translated in 
China Digital Times, ``Community Punished for Self-Immolations,'' 18 
February 14.
    \33\ Ibid., arts. 4, 6, 10.
    \34\ Ibid., arts. 5-9, 13.
    \35\ Ibid., arts. 5-8, 13-15.
    \36\ Ibid., arts. 13-14.
    \37\ Ibid., art. 4.
    \38\ Ibid., art. 9.
    \39\ Ibid., art. 9.
    \40\ Ibid., art. 1.
    \41\ Ibid., art. 10. The provisions contain no definition or 
description of an ``active participant.''
    \42\ Ibid., art. 10.
    \43\ Ibid., art. 15.
    \44\ Ibid., art. 10.
    \45\ Ibid., art. 6.
    \46\ Ibid., art. 7. Article 7 also stipulates that if another self-
immolation occurs, the security deposit would be placed in the national 
treasury and payment of an additional security deposit would be 
required.
    \47\ Ibid., art. 5.
    \48\ Ibid., art. 5.
    \49\ Ibid., art. 14; Dzoege County People's Government, Notice of 
Provisional Anti-Self-Immolation Regulations, art. 14, translated in 
International Campaign for Tibet, `` `Absurd and Terrifying' New 
Regulations Escalate Drive To Criminalize Self-Immolations by Targeting 
Family, Villagers, Monasteries,'' 24 February 14.
    \50\ Ruo'ergai County People's Government, Notice of Interim Anti-
Self-Immolation Provisions [Guanyu fan zifen gongzuo zanxing guiding de 
tongzhi], 8 April 13, art. 13, reprinted and translated in China 
Digital Times, ``Community Punished for Self-Immolations,'' 18 February 
14.
    \51\ Ibid., art. 13.
    \52\ Ibid., art. 12.
    \53\ Tibetan Centre for Human Rights and Democracy, ``China Holds 
Tibetan Livelihood to Ransom To Secure Political Stability,'' 30 July 
14. The TCHRD report provided the following translation for the title 
on the cover of the document: ``Information Handbook for the 
Enforcement of Two Separate Regulations Issued by Diru County People's 
Government'' [`Bri-ru rdzong mi-dmangs srid-gzhung gi--``gtan-`bebs 
khag gnyis'' kyi--dril-bsgrags lag-deb]. The date ``June 2014'' is on 
the cover.
    \54\ Ibid. According to TCHRD's partial translation of the 
incomplete document, Articles 2 and 3, which address attending the 
``Great Prayer Festival,'' a reference to the Dalai Lama's July 2014 
Kalachakra teaching in India, according to TCHRD, contain language 
banning individuals who traveled to the event and ``their parents, 
spouses, [and] children'' from gathering cordyceps sinensis 
(``caterpillar fungus'') for a period of three to five years.
    \55\ Ibid. According to TCHRD's partial translation of the 
incomplete document, Articles 2 to 6 address attendance of the ``Great 
Prayer Festival,'' a reference to the Dalai Lama's July 2014 Kalachakra 
teaching in India, according to TCHRD.
    \56\ Ibid. According to TCHRD's partial translation of the 
incomplete document, Article 16 defines ``illegal acts of religious 
education'' as when ``religious professionals, and those people who 
engage in religious pursuits in the society without any permanent 
status, as well as general masses who travel on their own to areas 
outside one's locality without getting permission from the United Front 
and Religious Bureau office of their respective localities.''
    \57\ Ibid. According to TCHRD's partial translation of the 
incomplete document, ``having strong nationalistic fervor'' is included 
in the first of eight categories of ``illegal activities'' listed in 
Article 10.
    \58\ Ibid. According to TCHRD's partial translation of the 
incomplete document, Article 11 includes using the Internet to spread 
``harmful information.''
    \59\ Ibid. According to TCHRD's partial translation of the 
incomplete document, ``propagating videos or songs in praise of the 
14th Dalai and his separatist organization'' is the fifth of eight 
categories of ``illegal activities'' in Article 10.
    \60\ Ibid. According to TCHRD's partial translation of the 
incomplete document, Article 22 addresses ``[those] who fail to hoist 
the Chinese national flag within the specific period.''
    \61\ Ibid. According to TCHRD's partial translation of the 
incomplete document, Articles 10, 11, and 22 stipulate an individual 
prohibition on harvesting ``caterpillar fungus'' for periods of ``more 
than one year,'' two years, and one year, respectively.
    \62\ Ibid. According to TCHRD's partial translation of the 
incomplete document, Articles 2 and 3 stipulate a three- to five-year 
prohibition on harvesting ``caterpillar fungus'' by an individual and 
that person's ``parents, spouses, and children.'' In the case of a 
minor (age 16 or below) who ``[indulged] in making and propagating 
rumors or spreading harmful information on the Internet,'' Article 14 
stipulates a one-year prohibition on harvesting ``caterpillar fungus'' 
for the minor as well as the persons ``responsible for looking after'' 
the minor.
    \63\ For reports on the value and economic importance of cordyceps 
sinensis to Tibetans in some areas, see, e.g., Huang Jingjing, 
``Physicians Challenge Craze for Exorbitantly Priced TCM Fungus,'' 
Global Times, 30 July 14; Daniel Winkler, ``Yartsa Gunbu (Cordyceps 
sinensis) and the Fungal Commodification of Tibet's Rural Economy,'' 
Economic Botany, Vol. 62, No. 3 (2008), 291; Jonathan Watts, ``Fungus 
Gold Rush in Tibetan Plateau Rebuilding Lives After Earthquake,'' 
Guardian, 16 June 10; Human Rights Watch, `` `They Say We Should Be 
Grateful'--Mass Rehousing and Relocation Programs in Tibetan Areas of 
China,'' 27 June 13.
    \64\ Tibetan Centre for Human Rights and Democracy, ``China Holds 
Tibetan Livelihood to Ransom To Secure Political Stability,'' 30 July 
14. According to TCHRD's partial translation of the incomplete 
document, Articles 2-4, 10-11, 17, and 22 include cancellation of 
welfare benefits. Of those, Articles 2-3 appear to involve collective 
punishment of family members.
    \65\ Ibid. According to TCHRD's partial translation of the 
incomplete document, Articles 3 and 6 provide for cancellation of 
household registration.
    \66\ Ibid. According to TCHRD's partial translation of the 
incomplete document, Articles 2, 9-11, 14, 18, and 22 include periods 
of legal education ranging from two to six months. Of those, Articles 2 
and 14 appear to involve collective punishment of family members.
    \67\ Ibid. According to TCHRD's partial translation of the 
incomplete document, Articles 4 and 17 provide for the expulsion of 
monks and nuns from monasteries and nunneries, the revocation of 
certificates permitting them to engage in religious study, and 
cancellation of their welfare benefits.
    \68\ ``Ensure Absolute Security in the Ideological Field--Fourth 
Discussion on Earnestly Implementing the Spirit of the Regional 
Propaganda and Ideological Work Conference'' [Quebao yishixingtai 
lingyu juedui anquan--si lun renzhen guanche quanqu xuanchuan sixiang 
gongzuo huiyi jingshen], Tibet Daily, 3 October 13 (translated in Open 
Source Center, 6 October 13); Wang Zuo'an, ``Religious-Related Work Is 
by Nature Mass Work'' [Zongjiao gongzuo benzhi shang shi qunzhong 
gongzuo], People's Daily, 26 November 13 (translated in Open Source 
Center, 15 January 14). Director Wang Zuo'an of the State 
Administration for Religious Affairs called for the government's 
``religious-related work'' to be ``placed in a more important position 
to further bring the relationship between the Party and religious 
people closer,'' and said that the ``rule of law'' must guide religious 
leaders ``to correctly view the relationship between religious doctrine 
and national laws.''
    \69\ ``Ensure Absolute Security in the Ideological Field--Fourth 
Discussion on Earnestly Implementing the Spirit of the Regional 
Propaganda and Ideological Work Conference'' [Quebao yishixingtai 
lingyu juedui anquan--si lun renzhen guanche quan qu xuanchuan sixiang 
gongzuo huiyi jingshen], Tibet Daily, 3 October 13 (translated in Open 
Source Center, 6 October 13). Tibet Autonomous Region Communist Party 
Secretary Chen Quanguo characterized ``the Dalai'' as ``the biggest 
obstacle to the establishment of normal order in Tibetan Buddhism.''
    \70\ Internet Encyclopedia of Philosophy, ``Tibetan Philosophy,'' 
last visited 23 April 14. The Dalai Lama is the principal teacher of 
the Gelug tradition of Tibetan Buddhism, the dominant tradition from 
the 17th century (i.e., from the time of the Fifth Dalai Lama). The 
Nyingma, Sakya, and Kagyu traditions predate the Gelug and have their 
own spiritual leaders. Office of His Holiness the Dalai Lama, ``The 
Dalai Lamas,'' last visited 23 April 14. The Dalai Lama's official Web 
site provides the dates 1617-1682 for the Fifth Dalai Lama.
    \71\ Chen Quanguo, ``Ensuring Ideological Security in Tibet With 
the Spirit of Daring To Go Into Battle--Earnestly Studying the Thorough 
Implementation of the Spirit of General Secretary Xi Jinping's 
Important Speech at the National Propaganda and Ideology Work 
Conference'' [Yi ganyu liang jian de jingshen quebao xizang 
yishixingtai lingyu anquan--renzhen xuexi guanche xi jinping zongshuji 
zai quanguo xuanchuan sixiang gongzuo huiyi shang de zhongyao jianghua 
jingshen], Seeking Truth, 1 November 13 (translated in Open Source 
Center, 12 November 13). Tibet Autonomous Region Communist Party 
Secretary Chen Quanguo called for ``cadres and masses . . . to separate 
the tradition of Tibetan Buddhism and the 14th Dalai Lama and to 
separate the 14th Dalai Lama and the traditional title of Dalai Lama.''
    \72\ ``While Inspecting Tibet, Yu Zhengsheng Emphatically Says That 
It Is Necessary To Adhere to a Development Path With Chinese 
Characteristics and Tibetan Features, Promote Leap-Forward Economic and 
Social Development and Long-Lasting Stability in Tibet'' [Yu zhengsheng 
zai xizang kaocha diaoyan shi qiangdiao--jianchi zou you zhongguo tese 
xizang tedian de fazhan luzi, cujin xizang jingji shehui kuayueshi 
fazhan he changzhi jiu'an], Tibet Daily, 8 August 13 (translated in 
Open Source Center, 14 August 13). According to Tibet Daily, Yu 
Zhengsheng, member of the Standing Committee of the Political Bureau of 
the Communist Party Central Committee, and Chairman of the National 
Committee of the Chinese People's Political Consultative Conference, 
stated, ``Only when the motherland becomes strong, our society 
develops, and the people improve their living condition, can Tibetan 
Buddhism enjoy healthy development.''
    \73\ Ai Feng, ``Tibet Supervision Head: For the First Time in 
Tibet's History, Work Teams Are Stationed in Every Village'' [Xizang 
jiancha zhang: xizang lishi shang shouci suoyou cun dou paizhu 
gongzuodui], China Net, 8 March 12, reprinted in Phoenix Net.
    \74\ Li Yuan and Wen Tao, ``Tibet Sends More Than 60,000 Cadres to 
the Grassroots Over Two Years, the Most Extensive in 60 Years'' [Xizang 
liang nian xuanpai yu 6 wan ganbu xia jiceng--wei 60 nian lai zui da 
guimo], Xinhua, 10 September 13. According to the article, since 
October 2011, the TAR government and Party had sent ``more than 60,000 
cadres'' to the TAR's ``5,459 villages and 1,877 temples.''
    \75\ Ai Feng, ``Tibet Supervision Head: For the First Time in 
Tibet's History, Work Teams Are Stationed in Every Village'' [Xizang 
jiancha zhang: xizang lishi shang shouci suoyou cun dou paizhu 
gongzuodui], China Net, 8 March 12, reprinted in Phoenix Net. According 
to the article, ``NPC delegate and Supervision Department Head'' Weise 
(Oezer, Woeser) said, ``A total of 21,000 cadres were dispatched for 
the activity, going to a total of 5,451 villages throughout Tibet, and 
this is the first time that work teams have been posted to every 
village in Tibet.'' China Directory 2012 (Tokyo: Radiopress, 2011), 
435. According to China Directory 2012, Weise was Director of the TAR 
Supervision Department.
    \76\ Li Yuan and Wen Tao, ``Tibet Sends More Than 60,000 Cadres to 
the Grassroots Over Two Years, the Most Extensive in 60 Years'' [Xizang 
liang nian xuanpai yu 6 wan ganbu xia jiceng--wei 60 nian lai zui da 
guimo], Xinhua, 10 September 13. According to the article, Tibet 
Autonomous Region People's Congress Deputy Director, Mazi Bishui, made 
the remark. For different perspectives on the People's Liberation Army 
invasion of what would later be named the Tibet Autonomous Region, see, 
e.g., Elliot Sperling, The Tibet-China Conflict: History and Polemics 
(Washington, DC: East-West Center Washington, 2004), xiii-ix, 23, 32-
33; International Campaign for Tibet, ``History, Politics, Legal 
Situation,'' last visited 22 April 14; ``Peaceful Liberation of 
Tibet,'' China Tibet Online, 21 January 11.
    \77\ Tibetan Centre for Human Rights and Democracy, ``China Expands 
New Measures To Directly Control Tibetan Monasteries,'' 18 May 14 (on 
Yushu (Yulshul) Tibetan Autonomous Prefecture (TAP)); ``Chinese 
Authorities Impose New Restrictions on Restive Tibetan County,'' Radio 
Free Asia, 20 May 14 (on Guoluo (Golog) TAP).
    \78\ Yushu Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Yushu zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
issued and effective 11 September 13. The Yushu regulations were under 
preparation by late 2009 and were listed as part of the Qinghai 
Province People's Congress Standing Committee legislative agenda in 
2010. ``Qinghai People's Congress Standing Committee 2010 Legislation 
Program'' [Qinghai sheng renda changweihui 2010 nian lifa jihua], 14 
December 09, reprinted in Qinghai Province People's Congress Standing 
Committee, 3 March 10. The Commission has no information on why the 
regulations were not issued and effective until September 2013. For 
additional information on Tibetan Buddhist affairs regulations that 
took effect in other Tibetan autonomous prefectures, see CECC, Annual 
Report 2011, 10 October 11, 209-12; ``Tibetan Buddhist Affairs 
Regulations Taking Effect in Tibetan Autonomous Prefectures,'' 
Congressional-Executive Commission on China, 10 March 11.
    \79\ Tibetan Centre for Human Rights and Democracy, ``China Expands 
New Measures To Directly Control Tibetan Monasteries,'' 18 May 14. 
According to a TCHRD source, officials in Chenduo (Tridu) county 
ordered the replacement of ``monastic staff and management committee 
members with government and party appointees by 7 June 2014.'' The 
Commission has not observed information on whether or not such activity 
was underway in other Yushu counties.
    \80\ Regulatory measures on Tibetan Buddhist affairs took effect in 
Guoluo in September 2010. Guoluo Tibetan Autonomous Prefecture Tibetan 
Buddhist Affairs Regulations [Guoluo zangzu zizhizhou zangchuan fojiao 
shiwu tiaoli], issued and effective 30 September 10. For additional 
information on Tibetan Buddhist affairs regulations that took effect in 
other Tibetan autonomous prefectures, see CECC, Annual Report 2011, 10 
October 11, 209-12; ``Tibetan Buddhist Affairs Regulations Taking 
Effect in Tibetan Autonomous Prefectures,'' Congressional-Executive 
Commission on China, 10 March 11.
    \81\  ``Chinese Authorities Impose New Restrictions on Restive 
Tibetan County,'' Radio Free Asia, 20 May 14. According to the RFA 
report, officials conducted the campaign in Banma (Pema) county. The 
Commission has not observed information on whether or not such activity 
was underway in other Guoluo counties.
    \82\ ``Chinese Authorities Detain 16 Tibetans Rallying for 
Religious Leader's Release,'' Radio Free Asia, 26 December 13. 
According to an RFA source, ``Another monk, Gyurme Tsultrim, who was 
taken away from Takna monastery in Nangchen on Nov. 29, has been 
released from detention but placed under house arrest.'' (Tagna 
Monastery is in Nangqian (Nangchen) county, Yushu (Yushul) Tibetan 
Autonomous Prefecture, Qinghai province.) ``China Detains Two Senior 
Tibetan Monks,'' Radio Free Asia, 17 December 13. According to an RFA 
source, ``Local Tibetans suspect he was detained because of a speech he 
gave during a prayer festival in Nangchen in which he urged the 
promotion of Tibetan Buddhism, the Tibetan language, and moral 
ethics.'' For more information on Gyurme Tsultrim, see the Commission's 
Political Prisoner Database record 2014-00015.
    \83\ Tsering Woeser, ``Weise: Cross-Province Arrest of Khenpo Karma 
Tsewang,'' [Weise: zao kuasheng zhuabu de nangqian kanbu gama caiwang], 
Invisible Tibet (blog), 8 January 14; ``China Detains Two Senior 
Tibetan Monks,'' Radio Free Asia, 17 December 13; ``Hundreds of Tibetan 
Protesters Demand Release of Detained Monks,'' Radio Free Asia, 16 
January 14. The January 16, 2014, RFA report described Karma Tsewang as 
``well-respected among Tibetans for his work to protect and promote the 
Tibetan language, culture, and religion.'' International Campaign for 
Tibet, ``Rare Vigil Outside Prison To Support Popular Tibetan Monk,'' 
17 January 14. ICT characterized Karma Tsewang as ``well-known for his 
community initiatives to preserve Tibetan language, including teaching 
the language to young Tibetans.'' ``Jailed Tibetan Religious Leader in 
Failing Health, Meets With Lawyer,'' Radio Free Asia, 11 March 14. An 
RFA source stated that officials ``specifically accused [Karma Tsewang] 
of harboring fugitive monks from Chamdo's Karma monastery at his own 
Japa [or Gongya] monastery,'' and that lawyer ``Tang Tian Hao'' (Tang 
Tianhao) ``rejected as unrealistic'' the charges. For more information 
on Karma Tsewang, see the Commission's Political Prisoner Database 
record 2014-00014.
    \84\ ``Driru Area Tibetans Sentenced in Secret,'' Radio Free Asia, 
1 April 14; ``Chantleader of Drongna Monastery in Driru Sentenced to 
Eighteen Years,'' Phayul, 1 April 14. According to the Phayul report, 
chant master Thardoe Gyaltsen of Drongna Monastery in Biru (Driru) 
county, Naqu (Nagchu) prefecture, Tibet Autonomous Region, possessed 
``pictures of the Tibetan leader the Dalai Lama and recordings of his 
speeches and teachings.'' Officials reportedly closed Drongna in 
November 2013 and detained the monastery's ``debate master,'' Kalsang 
Dondrub. For more information, see the Commission's Political Prisoner 
Database records 2014-00141 on Thardoe Gyaltsen and 2014-00056 on 
Kalsang Dondrub.
    \85\ Mandala, ``What Is a Geshe? '' April-May 2007. According to 
the article, a Geshe degree is ``a scholastic degree in large monastic 
universities that can take two decades or more to complete.''
    \86\ ``Senior Tibetan Monk Beaten to Death in Chinese Police 
Custody,'' Radio Free Asia, 19 December 13. According to RFA sources, 
Ngawang Jamyang was titled Geshe and taught at Tarmoe Monastery, 
located in Biru (Driru) county, Naqu (Naqchu) prefecture, Tibet 
Autonomous Region. Tibetan Centre for Human Rights and Democracy, 
``Diru Crackdown: Senior Tibetan Buddhist Scholar Beaten to Death in 
Police Custody,'' 19 December 13. According to a TCHRD source, ``It was 
clear that Ngawang Jampel was beaten to death while in secret 
detention. He was a healthy, robust man when he left his monastery to 
visit Lhasa.'' For more information on Ngawang Jamyang, see the 
Commission's Political Prisoner Database record 2008-00570.
    \87\ Phuntsok Yangchen, ``Abbot Among Five Tibetans Arrested,'' 
Phayul, 17 April 14; ``Monks Among Five Held in Tibet on Suspicion of 
Challenging Chinese Rule,'' Radio Free Asia, 16 April 14. The RFA 
report cited a source from the area who described the prayers as on 
behalf of Tibetans who ``sacrificed their lives for the Tibetan 
cause.'' For more information on Khedrub, see the Commission's 
Political Prisoner Database record 2014-00146. Based on Commission 
monitoring and analysis, such language used from 2011 onward is likely 
to refer principally to Tibetan self-immolators. The Commission has 
posted under the Special Topics section of the Resources tab on its Web 
site (www.cecc.gov) a series of summaries of information on Tibetan 
self-immolations. The summaries include a breakdown by gender, 
location, and occupation type.
    \88\ State Administration for Religious Affairs, Measures on the 
Management of the Reincarnation of Living Buddhas in Tibetan Buddhism 
[Zangchuan fojiao huofo zhuanshi guanli banfa], issued 18 July 07, 
effective 1 September 07. For more information on the measures, see 
CECC, 2007 Annual Report, 10 October 07, 196-97; ``New Legal Measures 
Assert Unprecedented Control Over Tibetan Buddhist Reincarnation,'' 
Congressional-Executive Commission on China, 5 May 08; ``Dalai Lama 
Rejects Communist Party `Brazen Meddling' in Tibetan Buddhist 
Reincarnation,'' CECC China Human Rights and Rule of Law Update, No. 1, 
24 January 12, 1.
    \89\ Tibetan Centre for Human Rights and Democracy, ``Ancient 
Tibetan Monastery Under Siege Over Reincarnation Issue; Mother of Two 
Attempts Suicide Protest,'' 10 September 13. According to the TCHRD 
report, the name of the teacher who Tibetans believe reincarnates is 
Rongpo Choeje (often used with the honorific ``Rinpoche'').
    \90\ Ibid. According to the TCHRD report, the mother, Drolma 
Yangkyi (``Dolma Yangkey''), tried to kill herself by attempting to 
crash her motorcycle at high speed; instead, she fell off and injured 
herself seriously.
    \91\ Ibid. According to the TCHRD report, the court sentenced Dawa 
Khyenrab Wangchug ``on charges that he contacted His Holiness the Dalai 
Lama during the search for [the reincarnation];'' ``at least one'' 
TCHRD source reported that Dawa Khyenrab Wangchug had been released on 
medical parole. Phurbu Thinley, ``Religious Oppression Forces Senior 
Monk To Commit Suicide,'' Phayul, 27 July 10. For more information on 
Dawa Khyenrab Wangchug, see the Commission's Political Prisoner 
Database record 2010-00263.
    \92\ ``Chinese Authorities Allow Tibetan Spiritual Teacher To 
Return to Monastery,'' Radio Free Asia, 13 August 14; ``China Allows 
Banned Tibetan Lama To Visit His Monastery,'' Tibet Express, 11 August 
14; Tibetan Centre for Human Rights and Democracy, ``Ancient Tibetan 
Monastery Under Siege Over Reincarnation Issue; Mother of Two Attempts 
Suicide Protest,'' 10 September 13. See also ``Government Policy on 
Tibetan Reincarnation Leads to Expulsions, Detentions, Suicide,'' CECC 
China Human Rights and Rule of Law Update, No. 8, 9 November 10, 2.
    \93\ International Campaign for Tibet, ``China Tightens Control, 
Prevents Pilgrimage, Before Major Dalai Lama Teaching in Exile,'' 12 
June 14.
    \94\ Ibid. The 15th day of the 4th lunar month traditionally marks 
the birth, death (``paranirvana''), and enlightenment of the historical 
Buddha. For a Tibetan calendar, see Men-Tsee-Khang, ``Calendar,'' last 
visited 3 September 14.
    \95\ ``Happy Tibetan New Year,'' Nine Ways (blog), 2 March 14 
(regarding Wood Horse year); ``A New Beginning: Happy Losar,'' Nine 
Ways (blog), 10 February 13 (regarding 60-year cycle).
    \96\ International Campaign for Tibet, ``China Tightens Control, 
Prevents Pilgrimage, Before Major Dalai Lama Teaching in Exile,'' 12 
June 12.
    \97\ ``Ensure Absolute Security in the Ideological Field--Fourth 
Discussion on Earnestly Implementing the Spirit of the Regional 
Propaganda and Ideological Work Conference'' [Quebao yishixingtai 
lingyu juedui anquan--si lun renzhen guanche quanqu xuanchuan sixiang 
gongzuo huiyi jingshen], Tibet Daily, 3 October 13 (translated in Open 
Source Center, 6 October 13).
    \98\ Chen Quanguo, ``Ensuring Ideological Security in Tibet With 
the Spirit of Daring To Go Into Battle--Earnestly Studying the Thorough 
Implementation of the Spirit of General Secretary Xi Jinping's 
Important Speech at the National Propaganda and Ideology Work 
Conference'' [Yi ganyu liang jian de jingshen quebao xizang 
yishixingtai lingyu anquan--renzhen xuexi guanche xi jinping zongshuji 
zai quanguo xuanchuan sixiang gongzuo huiyi shang de zhongyao jianghua 
jingshen], Seeking Truth, 1 November 13 (translated in Open Source 
Center, 12 November 13). For more information on the Tibet Autonomous 
Region village-level deployment of Communist Party cadres, which began 
in 2011, see Li Yuan and Wen Tao, ``Tibet Sends More Than 60,000 Cadres 
to the Grassroots Over Two Years, the Most Extensive in 60 Years'' 
[Xizang liang nian xuanpai yu 6 wan ganbu xia jiceng--wei 60 nian lai 
zui da guimo], Xinhua, 10 September 13.
    \99\ ``Ensure Absolute Security in the Ideological Field--Fourth 
Discussion on Earnestly Implementing the Spirit of the Regional 
Propaganda and Ideological Work Conference'' [Quebao yishixingtai 
lingyu juedui anquan--si lun renzhen guanche quanqu xuanchuan sixiang 
gongzuo huiyi jingshen], Tibet Daily, 3 October 13 (translated in Open 
Source Center, 6 October 13). According to Tibet Daily, Chen Quanguo 
stated: ``We must extensively carry out thematic educational 
activities, deeply carry out patriotic educational activities, 
implement the `patriotic revolutionary history and culture exploration 
project,' and build a network of patriotic educational bases that 
covers the entire region; we must deeply conduct education on 
comparison between the new and old Tibets and carry out the `new and 
old Tibets comparison historical records exploration project' to 
educate the masses of all ethnic groups, especially the younger 
generation; . . . .''
    \100\ ``Ensure Absolute Security in the Ideological Field--Fourth 
Discussion on Earnestly Implementing the Spirit of the Regional 
Propaganda and Ideological Work Conference'' [Quebao yishixingtai 
lingyu juedui anquan--si lun renzhen guanche quanqu xuanchuan sixiang 
gongzuo huiyi jingshen], Tibet Daily, 3 October 13 (translated in Open 
Source Center, 6 October 13). For an explanation of ``the three 
inseparables,'' see Yang Jing and Yang Chuantang, ``Great Progress in 
Ethnic Minority Relations,'' Seeking Truth Journal, Vol. 2, No. 1 
(2010), updated 19 September 11. According to the article, ``[The third 
generation of the central collective leadership of the CPC with Jiang 
Zemin at the core] advocated the important idea that `the Han ethnic 
group cannot be separated from the minority ethnic groups, the minority 
ethnic groups cannot be separated from the Han ethnic group and no 
minority ethnic group can be separated from the others (This became 
known as the `three inseparables' in Chinese),' stressing that all 
ethnic groups should share a common fate, should all be of one mind and 
should continuously work to strengthen the cohesive force of the 
Chinese nation.''
    \101\ For information on reports observed during the Commission's 
2014 reporting year of Tibetan detentions linked to promoting ``unity'' 
among Tibetans, see, e.g., the Commission's Political Prisoner Database 
records: (arranged in descending chronological order by date of 
detention): records 2014-00193 on Gebhe, 2014-00016 on Phuntsog 
Namgyal, 2014-00017 on Pema Tsultrim, 2014-00018 on Dorje Lodroe, 2014-
00019 on Yungdrung, 2014-00020 on Tatob, 2014-00021 on Tashi Namgyal, 
2014-00022 on Dorje Rigzin, 2014-00023 on Sonam, 2014-00012 on Gonpo 
Tenzin, 2014-00009 on Trinle Tsekar, and 2013-00377 on Tamdrin.
    \102\ ``Tibetans Clash With Police Over Chinese Flag Campaign,'' 
Radio Free Asia, 2 October 13; Tibetan Centre for Human Rights and 
Democracy, ``Beatings, Detention, Threats After Tibetans Reject China's 
`Mass Line' Policy in Diru,'' 5 October 13; Tibetan Centre for Human 
Rights and Democracy, ``Diru Under Lockdown: One Tibetan Sentenced; 
More Injured by Gunshots and Disappeared,'' 8 October 13.
    \103\ As of September 1, 2014, the Commission's Political Prisoner 
Database contained the following 58 records of detention or 
imprisonment linked to the Biru (Driru) county crackdown (arranged in 
descending chronological order by date of detention): records 2014-
00068 on Konchog Dragpa, 2014-00141 on Thardoe Gyaltsen, 2014-00070 on 
Tsultrim Nyandrag, 2014-00061 on Choedron, 2014-00060 on Yangchen, 
2014-00059 on Bumchog, 2014-00010 on Choekyab, 2014-00011 on Tselha, 
2014-00012 on Gonpo Tenzin, 2014-00062 on Sonam Tobgyal, 2014-00137 on 
Ngangdrag, 2014-00135 on Rigsal, 2014-00024 on Kalsang Choglang, 2008-
00570 on Ngawang Jamyang, 2014-00055 on Pasang Tashi, 2014-00009 on 
Trinle Tsekar, 2014-00056 on Kalsang Dondrub, 2014-00047 on Konchog 
Choephel, 2014-00054 on Lobsang Choeying, 2014-00064 on Drolma Tsephel, 
2013-00355 on Gabug, 2013-00360 on Jigme Phuntsog, 2013-00354 on 
Kundrag, 2013-00361 on Lamsang, 2013-00348 on Sarkyi, 2013-00358 on 
Sota, 2013-00353 on Tador, 2013-00357 on Thubchen, 2014-00063 on Trinle 
Palmo, 2013-00351 on Tsering, 2013-00359 on Tsering Jangchub, 2013-
00352 on Tsering Phuntsog, 2013-00356 on Tsering Tenpa, 2013-00362 on 
Tsewang Lhakyab, 2013-00349 on Tsophan, 2013-00350 on Yangkyi, 2014-
00067 on Dargye, 2014-00066 on Konchog Jinpa, 2014-00046 on Tobden, 
2013-00329 on Dorgyal, 2013-00331 on Kalsang Namdrol, 2013-00330 on 
Lhamo, 2013-00332 on Mengyal, 2013-00328 on Shodar, 2013-00327 on 
Tenzin Rangdrol, 2013-00323 on Jampa Legshe, 2013-00324 on Kalnam, 
2013-00325 on Dawa Lhundrub, 2013-00326 on Jampa, 2013-00368 on 
Chogsar, 2013-00366 on Sonam Dondrub, 2013-00367 on Tsering Tashi, 
2013-00319 on Yulgyal, 2013-00321 on Kalsang, 2013-00318 on Tsultrim 
Gyaltsen, 2010-00456 on Dorje Dragtsal, 2013-00317 on Tsering Gyaltsen, 
and 2013-00294 on Dayang.
    \104\ As of September 1, 2014, the Commission's Political Prisoner 
Database contained the following 15 records of imprisonment linked to 
the Biru (Driru) county crackdown (arranged in descending order by 
sentence length and date of detention): records 2014-00141 on Thardoe 
Gyaltsen (18 years), 2014-00010 on Choekyab (13 years), 2013-00318 on 
Tsultrim Gyaltsen (13 years), 2010-00456 on Dorje Dragtsal (11 years), 
2014-00137 on Ngangdrag (10 years), 2014-00135 on Rigsal (10 years), 
2014-00024 on Kalsang Choglang (10 years), 2013-00319 on Yulgyal (10 
years), 2014-00070 on Tsultrim Nyandrag (9 years), 2014-00009 on Trinle 
Tsekar (9 years), 2014-00047 on Konchog Choephel (6 years), 2014-00046 
on Tobden (5 years), 2013-00327 on Tenzin Rangdrol (5 years), 2014-
00011 on Tselha (3 years), and 2013-00294 on Dayang (2 years and 6 
months).
    \105\ See, e.g., ``Tibetans Clash With Police Over Chinese Flag 
Campaign,'' Radio Free Asia, 2 October 13 (``Internet and other 
communication channels in the area are now blocked''); ``Chinese Police 
Fire on Unarmed Tibetan Protesters in Driru,'' Radio Free Asia, 7 
October 13 (``confiscated Tibetans' cell phones and blocked 
communications by phone and the Internet''); Tibetan Centre for Human 
Rights and Democracy, ``China Disappears More Tibetans in Diru as 
Crackdown Spreads,'' 19 October 13 (``all communication channels remain 
blocked''); ``Three More Arrests in Driru,'' Phayul, 2 December 13 
(``strictly monitoring all movements in and out of Driru, intercepting 
all communication lines''); Tibetan Centre for Human Rights and 
Democracy, ``Repression Escalates in Tibet's Diru County: Tibetan Youth 
Beaten to Death, Two Others Given Heavy Sentences and Another 
Disappeared,'' 7 February 14 (``fate of many more remain unknown due to 
restrictions on communication lines'').
    \106\ ``Elderly Tibetan Severely Beaten for Questioning Chinese 
`Political Education,' '' Radio Free Asia, 11 September 13. For more 
information on Dayang, see the Commission's Political Prisoner Database 
record 2013-00294.
    \107\ ``Elderly Tibetan Beaten and Jailed for Seeking Freedom,'' 
Radio Free Asia, 8 October 13. The RFA report did not identify the 
criminal charge against Dayang. For more information on Dayang, see the 
Commission's Political Prisoner Database record 2013-00294.
    \108\ ``Tibetans Clash With Police Over Chinese Flag Campaign,'' 
Radio Free Asia, 2 October 13.
    \109\ Tibetan Centre for Human Rights and Democracy, ``China 
Disappears a Father of Three, Arrests 10 Others in Ongoing Crackdown in 
Diru,'' 21 October 13. An image in the TCHRD report provides a clear 
view of People's Armed Police in Xiachu (Shagchu) township, Biru 
(Driru) county, Naqu (Nagchu) prefecture, Tibet Autonomous Region, with 
what appear to be anti-riot guns slung across their backs, possibly on 
October 19, 2013. The image provides a basis for inferring that similar 
weaponry may have been used in other Biru communities.
    \110\ Tibetan Centre for Human Rights and Democracy, ``Beatings, 
Detention, Threats After Tibetans Reject China's `Mass Line' Policy in 
Diru,'' 5 October 13. According to the TCHRD report, the ``open 
confrontation'' involved Tibetans who ``used sticks and stones to 
respond to the firing from Chinese security forces.''
    \111\ Tibetan Centre for Human Rights and Democracy, ``Diru Under 
Lockdown: One Tibetan Sentenced; More Injured by Gunshots and 
Disappeared,'' 8 October 13; ``Tibetan Man Critical, Severely Beaten 
for Protesting Chinese Flag Campaign,'' Tibet Express, 7 October 13. 
For more information on Tsering Gyaltsen, see the Commission's 
Political Prisoner Database record 2013-00317.
    \112\ ``Chinese Police Fire on Unarmed Tibetan Protesters in 
Driru,'' Radio Free Asia, 7 October 13 (``Dorje Draktsel''); Tibetan 
Centre for Human Rights and Democracy, ``Diru Under Lockdown: One 
Tibetan Sentenced; More Injured by Gunshots and Disappeared,'' 8 
October 13 (``Dorje Dragtsel''). For more information on Dorje 
Dragtsal, see the Commission's Political Prisoner Database record 2010-
00456.
    \113\ Tibetan Centre for Human Rights and Democracy, ``China 
Disappears a Father of Three, Arrests 10 Others in Ongoing Crackdown in 
Diru,'' 21 October 13. An image in the TCHRD report provides a clear 
view of People's Armed Police in Xiachu (Shagchu) township, Biru 
(Driru) county, Naqu (Nagchu), Tibet Autonomous Region, with what 
appear to be anti-riot guns slung across their backs, possibly on 
October 19, 2013. The image provides a basis for inferring that similar 
weaponry may have been used in other Biru communities.
    \114\ ``Chinese Police Fire on Unarmed Tibetan Protesters in 
Driru,'' Radio Free Asia, 7 October 13; Tibetan Centre for Human Rights 
and Democracy, ``Diru Under Lockdown: One Tibetan Sentenced; More 
Injured by Gunshots and Disappeared,'' 8 October 13; ``Chinese Forces 
Fire Live Bullets at Tibetans in Nagchu,'' Tibet Express, 7 October 13. 
See also Tibetan Centre for Human Rights and Democracy, ``China 
Disappears a Father of Three, Arrests 10 Others in Ongoing Crackdown in 
Diru,'' 21 October 13. An image in the TCHRD report provides a clear 
view of People's Armed Police in Xiachu (Shagchu) township, Biru 
(Driru) county, Naqu (Nagchu), Tibet Autonomous Region, with what 
appear to be anti-riot guns slung across their backs, possibly on 
October 19, 2013. The image provides a basis for inferring that similar 
weaponry may have been used in other Biru communities.
    \115\ ``Chinese Police Fire on Unarmed Tibetan Protesters in 
Driru,'' Radio Free Asia, 7 October 13.
    \116\ ``Four Tibetans Shot Dead as Protests Spread in Driru 
County,'' Radio Free Asia, 11 October 13.
    \117\ ``WeChat Leads to Tibetan Woman's Arrest in Driru,'' Phayul, 
17 October 13; Tibetan Centre for Human Rights and Democracy, ``China 
Disappears More Tibetans in Diru as Crackdown Spreads,'' 19 October 13 
(``Kelsang''). According to the TCHRD report, the ``exact details'' of 
accusations against Kalsang were unclear. For more information on 
Kalsang, see the Commission's Political Prisoner Database record 2013-
00321.
    \118\ Tibetan Centre for Human Rights and Democracy, ``Crackdown in 
Diru Widens: Tibetan Writer and a Former Policeman Detained,'' 14 
October 13. According to the TCHRD report, officials also accused 
Tsultrim Gyaltsen of ``[disrupting] social stability by spreading 
rumours.'' For more information on Tsultrim Gyaltsen, see the 
Commission's Political Prisoner Database record 2013-00318.
    \119\ International Campaign for Tibet, ``New Images of Deepening 
Crackdown in Nagchu, Tibet,'' 15 October 13. For more information on 
Tsultrim Gyaltsen, see the Commission's Political Prisoner Database 
record 2013-00318.
    \120\ Tibetan Centre for Human Rights and Democracy, ``Crackdown in 
Diru Widens: Tibetan Writer and a Former Policeman Detained,'' 14 
October 13 (``Yugyal''). According to the TCHRD report, officials also 
accused Yulgyal of ``spreading rumours to harm social stability.'' For 
more information on Yulgyal, see the Commission's Political Prisoner 
Database record 2013-00319.
    \121\ Tibetan Centre for Human Rights and Democracy, ``China 
Disappears More Tibetans in Diru as Crackdown Spreads,'' 19 October 13 
(``Lhundup''). See also PRC Criminal Law [Zhonghua renmin gongheguo 
xingfa], passed 1 July 79, amended 14 March 97, effective 1 October 97, 
amended 25 December 99, 31 August 01, 29 December 01, 28 December 02, 
28 February 05, 29 June 06, 28 February 09, 25 February 11, art. 111. 
Based on TCHRD's report, officials may have suspected Jampa and Dawa 
Lhundrub of sharing ``state secrets or intelligence'' with ``an organ, 
organization or individual outside the territory of China.'' For more 
information, see the Commission's Political Prisoner Database records 
2013-00326 on Jampa and 2013-00325 on Dawa Lhundrub.
    \122\ Tibetan Centre for Human Rights and Democracy, ``China 
Disappears More Tibetans in Diru as Crackdown Spreads,'' 19 October 13 
(``Jampa Lekshay and Kelnam''). See also PRC Criminal Law [Zhonghua 
renmin gongheguo xingfa], passed 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, art. 111. Based on TCHRD's report, officials may 
have suspected monks Jampa Legshe and Kalnam of sharing ``state secrets 
or intelligence'' with ``an organ, organization or individual outside 
the territory of China.'' For more information, see the Commission's 
Political Prisoner Database records 2013-00323 on Jampa Legshe and 
2013-00324 on Kalnam.
    \123\ Tibetan Centre for Human Rights and Democracy, ``China 
Disappears a Father of Three, Arrests 10 Others in Ongoing Crackdown in 
Diru,'' 21 October 13 (``Tenzin Rangdol''). According to TCHRD, 
Tibetans sought Tenzin Rangdrol's release by criticizing ``the Chinese 
government's entrenched practice of criminalising Tibetan people's 
peaceful means of expressing their grievances.'' For more information 
on Tenzin Rangdrol, see the Commission's Political Prisoner Database 
record 2013-00327.
    \124\ ``Tibetan Arrested in Driru, Hundreds Confront Police,'' 
Phayul, 21 October 13; Tibetan Centre for Human Rights and Democracy, 
``China Disappears a Father of Three, Arrests 10 Others in Ongoing 
Crackdown in Diru,'' 21 October 13. For more information on Tenzin 
Rangdrol, see the Commission's Political Prisoner Database record 2013-
00327.
    \125\ Ibid. The Phayul and TCHRD reports are inconsistent on the 
initial and eventual size of the protest. According to Phayul, ``Forty 
Tibetans from Gochu arrived outside the administrative building and 
demanded the release of Rangdol. They were later joined by hundreds 
others . . . .'' According to TCHRD, ``The protest was staged by about 
40 Tibetans from Gochu Village and about a hundred other Tibetans from 
surrounding villages . . . .'' For more information on Tenzin Rangdrol, 
see the Commission's Political Prisoner Database record 2013-00327.
    \126\ Tibetan Centre for Human Rights and Democracy, ``China 
Disappears a Father of Three, Arrests 10 Others in Ongoing Crackdown in 
Diru,'' 21 October 13 (``Tenzin Rangdol''). For more information, see 
the Commission's Political Prisoner Database record 2013-00327 on 
Tenzin Rangdrol.
    \127\ ``Tibetan Arrested in Driru, Hundreds Confront Police,'' 
Phayul, 21 October 13.
    \128\ Tibetan Centre for Human Rights and Democracy, ``China 
Disappears a Father of Three, Arrests 10 Others in Ongoing Crackdown in 
Diru,'' 21 October 13 (``Tenzin Rangdol''). For more information, see 
the Commission's Political Prisoner Database record 2013-00327 on 
Tenzin Rangdrol.
    \129\ ``China Sentences Tibetan Writer and Ex Cop Up to Thirteen 
Years in Prison,'' Phayul, 1 April 14 (``Yougyal''). The Phayul report 
did not identify the court, the criminal charge(s) against the men, or 
provide information on the short interval between detention and 
sentencing. For more information, see the Commission's Political 
Prisoner Database records 2013-00318 on Tsultrim Gyaltsen and 2013-
00319 on Yulgyal. For information on Tsultrim Gyaltsen's and Yulgyal's 
detention, see Tibetan Centre for Human Rights and Democracy, 
``Crackdown in Diru Widens: Tibetan Writer and a Former Policeman 
Detained,'' 14 October 13.
    \130\ ``Fifteen Tibetans Detained for Pushing for Writer's 
Release,'' Radio Free Asia, 8 November 13; Tibetan Centre for Human 
Rights and Democracy, ``No Let-Up in Diru Crackdown: 17 Tibetans 
Detained as Party Officials Greet Armed Police,'' 8 November 13.
    \131\ ``China Arrests Woman in Driru, Releases 12 of 15,'' Phayul, 
25 November 13 (lists names of 12 of the 15 detainees); ``Tibetan Man 
Arrested in Driru, Five Released,'' Phayul, 18 December 13 (lists names 
of the remaining 3 detainees). For more information, see the 
Commission's Political Prisoner Database records 2013-00348 on Sarkyi, 
2013-00349 on Tsophan, 2013-00350 on Yangkyi, 2013-00351 on Tsering, 
2013-00352 on Tsering Phuntsog, 2013-00353 on Tador, 2013-00354 on 
Kundrag, 2013-00355 on Gabug, 2013-00356 on Tsering Tenpa, 2013-00357 
on Thubchen, 2013-00358 on Sota, 2013-00359 on Tsering Jangchub, 2013-
00360 on Jigme Phuntsog, 2013-00361 on Lamsang, and 2013-00362 on 
Tsewang Lhakyab.
    \132\ Tibetan Centre for Human Rights and Democracy, ``Diru 
Crackdown: Three Tibetans Sent to Prison for up to 13 Years, Singer 
Gets 9 Years in Prison,'' 23 December 13. According to TCHRD, police 
detained Choekyab (``Choekyap'') and Tselha in the third week of 
November 2013 and Trinle Tsekar (``Trinley Tsekar'') on November 20.
    \133\ Tibetan Centre for Human Rights and Democracy, ``Diru 
Crackdown: Three Tibetans Sent to Prison for up to 13 Years, Singer 
Gets 9 Years in Prison,'' 23 December 13. According to the TCHRD 
report, the three men were ``charged of instigating one of [2013's] 
largest protests against Chinese mining activities at the sacred Naglha 
Dzamba Mountain in Diru County''; the TCHRD report links the quoted 
text to a May 28, 2013, Radio Free Asia report that states: ``As many 
as 5,000 Tibetans have protested against Chinese mining operations at a 
site considered sacred by local residents.'' ``Thousands of Tibetans 
Protest Against Mine,'' Radio Free Asia, 28 May 13. For more 
information on the protest, see CECC, Annual Report 2013, 10 October 
13, 184. For more information, see the Commission's Political Prisoner 
Database records 2014-00010 on Choekyab, 2014-00009 on Trinle Tsekar, 
and 2014-00011 on Tselha.
    \134\ ``China Jails Three Tibetans Over Anti-Mining Protest,'' 
Radio Free Asia, 23 December 13 (RFA source: ``sentenced for their 
roles in the protest against Chinese mining activities''); Tibetan 
Centre for Human Rights and Democracy, ``Diru Crackdown: Three Tibetans 
Sent to Prison for up to 13 Years, Singer Gets 9 Years in Prison,'' 23 
December 13 (TCHRD: sentenced for ``allegedly `attempting to split the 
Chinese nation' '' ). The TCHRD report of sentencing for charges 
related to ``separatist activities'' may be inaccurate since the case 
was tried before the Biru (Driru) County People's Court which, by law, 
cannot try a case involving state security such as separatism. PRC 
Criminal Procedure Law [Zhonghua renmin gongheguo xingshi susong fa], 
passed 1 July 79, amended 17 March 96, 14 March 12, effective 1 January 
13, art. 20. Article 20 requires an intermediate people's court to 
``have jurisdiction as courts of first instance'' in cases including 
``cases endangering State security.'' PRC Criminal Law [Zhonghua renmin 
gongheguo xingfa], passed 1 July 79, amended 14 March 97, effective 1 
October 97, amended 25 December 99, 31 August 01, 29 December 01, 28 
December 02, 28 February 05, 29 June 06, 28 February 09, 25 February 
11, art. 103 (``splitting the State or undermining unity of the 
country''). For more information, see the Commission's Political 
Prisoner Database records 2014-00010 on Choekyab, 2014-00009 on Trinle 
Tsekar, and 2014-00011 on Tselha.
    \135\ Tibetan Centre for Human Rights and Democracy, ``China 
Sentences Two Tibetan Village Leaders to 10 Years' Imprisonment in Diru 
County,'' 3 April 14; ``Tibetan Village Leaders Sentenced for Anti-Flag 
Campaign,'' Radio Free Asia (RFA), 4 April 14. Neither the TCHRD or RFA 
report identified the court or criminal charge(s) against the men. For 
more information, see the Commission's Political Prisoner Database 
records 2014-00137 on Ngangdrag and 2014-00135 on Rigsal.
    \136\ State Council Information Office, ``White Paper on Progress 
in China's Human Rights in 2013,'' reprinted in Xinhua, 26 May 14.
    \137\ See United Nations, ``International Mother Language Day: 21 
February,'' last visited 29 May 14. According to the UN Web site, the 
United Nations Educational, Scientific, and Cultural Organization 
(UNESCO) established International Mother Language Day in November 1999 
in order ``to promote the preservation and protection of all languages 
used by peoples of the world.'' International Mother Language Day has 
been observed on February 21 since 2000.
    \138\ ``Tibetan Language Promotion Event Blocked by China,'' Radio 
Free Asia, 22 April 14. According to the RFA report, the event was to 
have been held in Songpan (Zungchu) county, Aba (Ngaba) Tibetan and 
Qiang Autonomous Prefecture, Sichuan province.
    \139\ ``Authorities Concerned Over Popular Tibetan Language, 
Religious Classes,'' Radio Free Asia, 21 May 14. According to the RFA 
report, which used present progressive verb tenses to describe events 
underway in May 2014, the programs were operating in Ganzi (Kardze) 
county, Ganzi Tibetan Autonomous Prefecture, Sichuan province.
    \140\ ``Authorities Concerned Over Popular Tibetan Language, 
Religious Classes,'' Radio Free Asia, 21 May 14.
    \141\ ``Tibetan Private School Ordered Shut in China's Qinghai 
Province,'' Radio Free Asia, 8 May 14. According to the RFA report, the 
school was located in Jianzha (Chentsa) county, Huangnan (Malho) 
Tibetan Autonomous Prefecture, Qinghai province. The report implied a 
link between the alleged political imprisonment of a teacher, Phagpa, 
and the school's shutdown, but does not provide any details about 
Phagpa's alleged crime or the reason for the school's closure.
    \142\ ``Tibetan Private School Ordered Shut in China's Qinghai 
Province,'' Radio Free Asia, 8 May 14.
    \143\ ``Tibetan Singer Held After Belting Out Song Calling for 
Language Protection, Radio Free Asia, 26 May 14. According to the RFA 
report, the concert where Gebe (or Gebhe) performed took place in 
Songpan (Zungchu) county, Aba (Ngaba) Tibetan and Qiang Autonomous 
Prefecture. For more information, see the Commission's Political 
Prisoner Database record 2014-00193 on Gebe.
    \144\ Amy Qin, ``Tibetan Protest Singer Is Said To Be Under 
Arrest,'' New York Times, 28 May 14. The New York Times article 
provides a translation of the song that allegedly resulted in the 
detention of Gebe (or Gebhe) and cites the translation to Free Tibet. 
Free Tibet, ``Gaybay,'' last visited 29 May 14. For more information, 
see the Commission's Political Prisoner Database record 2014-00193 on 
Gebe.
    \145\ ``While Inspecting Tibet, Yu Zhengsheng Emphatically Says 
That It Is Necessary To Adhere to a Development Path With Chinese 
Characteristics and Tibetan Features, Promote Leap-Forward Economic and 
Social Development and Long-Lasting Stability in Tibet'' [Yu zhengsheng 
zai xizang kaocha diaoyan shi qiangdiao--jianchi zou you zhongguo tese 
xizang tedian de fazhan luzi--cujin xizang jingji shehui kuayueshi 
fazhan he changzhi jiu'an], Tibet Daily, 8 August 13 (translated in 
Open Source Center, 14 August 13). According to Tibet Daily, Yu 
Zhengsheng, member of the Standing Committee of the Political Bureau of 
the Communist Party Central Committee, and Chairman of the National 
Committee of the Chinese People's Political Consultative Conference, 
stressed that Party members should, among other things, ``make more 
contributions to promoting leap-forward economic and social development 
and long-lasting stability in Tibet.'' Xu Wenhui et al., ``Theoretical 
Meanings of the Strategic Thinking of Managing Borders, Stabilizing 
Tibet'' [Zhi bian wen zang zhanlue sixiang de lilun yiyun], Tibet 
Daily, 17 August 13 (translated in Open Source Center, 26 August 13). 
The article calls on the Party to ``. . . correctly handle the 
relationship among reform, development, and stability, handle well the 
relationship among the resource environment, the masses' interests, and 
economic development, step up social construction efforts, regard 
livelihoods construction as the top priority in economic and social 
development, . . . .''
    \146\ See, e.g., ``Tibetan Mine Protesters Detained in Palyul,'' 
Radio Free Asia, 24 April 14; ``Tibetans Renew Protest Over Land Seized 
for Highway,'' Radio Free Asia, 2 April 14; ``Hundreds of Tibetans 
Protest Land Seizure Over Gold Mining Activities,'' Radio Free Asia, 22 
March 14; ``China Jails Three Tibetans Over Anti-Mining Protest,'' 
Radio Free Asia, 23 December 13.
    \147\ See, e.g., ``Officials in Tibetan Protest Area Block 
Investigation by Beijing,'' Radio Free Asia, 7 November 13; ``Chinese 
Mine Spill Kills Animals, Pollutes Water in Tibetan Area,'' Radio Free 
Asia, 18 October 13; ``Tibetans Clash with Chinese Poachers in a 
Protected Zone,'' Radio Free Asia, 27 August 13.
    \148\ See, e.g., ``China Detains Two Tibetan Activists, Frees 
Jailed Writer,'' Radio Free Asia, 14 January 14; ``China Jails Three 
Tibetans Over Anti-Mining Protest,'' Radio Free Asia, 23 December 13.
    \149\ ``China Detains Four Tibetans for Refusing To Sell Land,'' 
Tibet Express, 25 April 14; ``Tibetan Mine Protesters Detained in 
Palyul,'' Radio Free Asia, 24 April 14; ``Tibetans Renew Protest Over 
Land Seized for Highway,'' Radio Free Asia, 2 April 14; ``Hundreds of 
Tibetans Protest Land Seizure Over Gold Mining Activities,'' Radio Free 
Asia, 22 March 14.
    \150\ ``Hundreds of Tibetans Protest Land Seizure Over Gold Mining 
Activities,'' Radio Free Asia, 22 March 14; ``Officials in Tibetan 
Protest Area Block Investigation by Beijing,'' Radio Free Asia, 7 
November 13; ``Chinese Mine Spill Kills Animals, Pollutes Water in 
Tibetan Area,'' Radio Free Asia, 18 October 13; ``Tibetans Clash with 
Chinese Poachers in a Protected Zone,'' Radio Free Asia, 27 August 13.
    \151\ Tibetan Centre for Human Rights and Democracy, ``Repression 
Escalates in Tibet's Diru County: Tibetan Youth Beaten to Death, 2 
Others Given Heavy Sentences and Another Disappeared,'' 7 February 14; 
``Young Tibetan Mining Protester Dies in Prison After Torture,'' Radio 
Free Asia, 6 February 14. The TCHRD and RFA reports cite sources 
linking Konchog Dragpa's December 2013 detention and death in custody 
to his protests against environmental damage linked to mining. For more 
information on Konchog Dragpa, see the Commission's Political Prisoner 
Database record 2014-00068. Tibetan Centre for Human Rights and 
Democracy, ``Diru Crackdown: Three Tibetans Sent to Prison for up to 13 
Years, Singer Gets 9 Years in Prison,'' 23 December 13; ``China Jails 
Three Tibetans Over Anti-Mining Protest,'' Radio Free Asia, 23 December 
13. The TCHRD and RFA reports cite sources linking the imprisonment of 
Choekyab, Trinle Tsekar (or ``Trinley''), and Tselha to ``opposing 
mining operations deemed harmful to the environment.'' For more 
information, see the Commission's Political Prisoner Database records 
2014-00010 on Choekyab, 2014-00009 on Trinle Tsekar, and 2014-00011 on 
Tselha.
    \152\ ``China Detains Two Tibetan Activists, Frees Jailed Writer,'' 
Radio Free Asia, 14 January 14. According to the report, public 
security officials detained Tseten Dondrub on September 18, 2013, and 
Dzumga on December 25, allegedly because they ``opposed Chinese mining 
operations over environmental concerns.'' For more information, see the 
Commission's Political Prisoner Database records 2014-00048 on Tseten 
Dondrub and 2014-00049 on Dzumga.
    \153\ ``Tibetans Renew Protest Over Land Seized for Highway,'' 
Radio Free Asia, 2 April 14; ``Hundreds of Tibetans Protest Land 
Seizure Over Gold Mining Activities,'' Radio Free Asia, 22 March 14. 
According to the March RFA report, which cited local sources, Tibetans 
in Xiahe (Sangchu) county, Gannan (Kanlho) Tibetan Autonomous 
Prefecture, reportedly protested against ``the seizure of farm land for 
the construction of highways catering to state-linked gold mining and 
industrial activities that are polluting the environment and destroying 
livestock.''
    \154\ ``China Detains Four Tibetans for Refusing To Sell Land,'' 
Tibet Express, 25 April 14; ``Tibetan Mine Protesters Detained in 
Palyul,'' Radio Free Asia, 24 April 14. According to the RFA report, 
citing local and exiled sources, on April 21, 2014, public security 
officials detained four village leaders in Baiyu (Palyul) county, Ganzi 
(Kardze) Tibetan Autonomous Prefecture, after villagers refused ``to 
sell land to Chinese miners for the excavation of gold in the area.'' 
For more information, see the Commission's Political Prisoner Database 
records 2014-00155 on Thubga, 2014-00156 on Gade, 2014-00157 on Kyamo, 
and 2014-00158 on Jamyang.
    \155\ ``Tibetan Women Attacked, Beaten at Anti-Mine Rally,'' Radio 
Free Asia, 2 July 14. According to the RFA report, ``armed police and 
paramilitary forces'' beat ``a group of Tibetan women'' who were 
protesting against copper mining on land they regarded as ``sacred.'' 
Phuntsok Yangchen, ``Nine Arrested in Anti-Mining Protests in Dechen 
County,'' Phayul, 2 July 14. According to the Phayul report, ``around 
two hundred policemen'' came to the protest site and ``several 
Tibetans'' were injured; some Tibetans reportedly alleged that the 
mining was ``illegal.''
    \156\ ``Tibet Starts Building 5th Civil Airport,'' Xinhua, 30 April 
09. According to the report, ``Construction on the 11-billion-yuan 
[US$1.61 billion] Qinghai-Tibet railway's extension line started in 
2008 and was expected to be completed in 2010.''
    \157\ ``Xinhua Insight: Tibet's Second Railway Line Opens,'' 
Xinhua, 15 August 14. The August 15 Xinhua report stated that the first 
passenger train to Shigatse (``Xigaze,'' Rikaze) would depart on 
``Saturday'' (August 16). See also ``China Finishes Railway Connecting 
Lhasa to Shigatse,'' Xinhua, 13 August 14. The August 13 Xinhua report 
described the railway as ``completed'' and stated, ``Testing on the 
line . . . is set to begin soon.'' (Information was unavailable on 
whether passenger service was planned to begin before testing was 
completed.)
    \158\ ``Qinghai-Tibet Railway Ready for Operation on July 1,'' 
Xinhua, 29 June 06. According to the Xinhua report, ``The Qinghai-Tibet 
railway stretches 1,956 km from Xining, capital of Qinghai Province, to 
Lhasa, capital of Tibet Autonomous Region. The 814 km section from 
Xining to Golmud began operation in 1984.'' Zhu Zhensheng, the vice 
director of an office managing the railway, reportedly stated that the 
railway startup is one year ahead of schedule due to ``good 
construction, environment, and safety conditions.''
    \159\ ``Callers Decry Impact of Tibet Railway,'' Radio Free Asia, 
31 July 07 (RFA callers: ``wherever you go, you get the impression of 
overcrowding''; ``Chinese migrants were moving fast into formerly 
Tibetan neighborhoods and businesses''); Tibetan Centre for Human 
Rights and Democracy, ``Tibetan People in Lhasa Reel Under Influx of 
Chinese Migrants,'' reprinted in Phayul, 3 August 07 (``thousands of 
unemployed migrants roamed Lhasa looking for work''; ``pressure on the 
local Tibetans and their day-to-day livelihood''). See also CECC, 2007 
Annual Report, 10 October 07, 203-204; ``Qinghai-Tibet Railway 
Statistics Add to Confusion, Mask Impact on Local Population,'' CECC 
China Human Rights and Rule of Law Update, February 2008, 4.
    \160\ See box on ``TAR Statistics Show Little Increase in Non-
Tibetan Population After Qinghai-Tibet Railway Startup'' in Special 
Topic Paper: Tibet 2008-2009, Congressional-Executive Commission on 
China, 22 October 09, 45-46.
    \161\ According to Commission analysis, ``Nearly all (89 percent) 
of TAR population growth from 2005 to 2007 was made up of Tibetans, 
according to the 2008 TAR yearbook.'' Tibet Statistical Yearbook 2008 
(Beijing: China Statistics Press, June 2008), Table 3-4, ``Population 
Nationality,'' 33. According to Table 3-4, in the period from 2005 to 
2007, Tibetan population increased from 2,549,293 to 2,602,788, an 
increase of 53,495 Tibetans; Han population increased from 104,647 to 
110,429, an increase of 5,782 Han. The total TAR population increased 
by 60,347 persons in the period from 2005 to 2007. Tibetans made up 
53,495 (89 percent) of the increase. See Special Topic Paper: Tibet 
2008-2009, Congressional-Executive Commission on China, 22 October 09, 
45-46.
    \162\ The national census and provincial annual statistical 
yearbooks do not use the same method of enumeration. Provincial annual 
statistical yearbooks rely on data compiled by the local public 
security bureau. See, e.g., Sichuan Statistical Yearbook 2005 (Beijing: 
China Statistics Press, 2005), Table 3-1, ``Population and Its 
Composition,'' 41. A note appended to Table 3-1 states: ``Data in this 
table were taken from the annual reports of the Bureau of Public 
Security, which were different than from that of permanent residents.''
    \163\ The national census and provincial annual statistical 
yearbooks do not use the same method of enumeration. The national 
census uses a method of enumeration (see below) that attempts to record 
more of the population as present in the locations where they actually 
are, rather than at the location recorded on their permanent residence 
registration certificates. See National Bureau of Statistics of China, 
``Measures for Fifth National Population Census,'' 23 April 02, chap. 
2, art. 7. Article 7 includes instructions that the following persons 
should be enumerated in the places where they are: ``those who have 
resided in the townships, towns and street communities for more than 
half a year but the places of their permanent household registration 
are elsewhere''; ``those who have resided in the townships, towns and 
street communities for less than half a year but have been away from 
the place of their permanent household registration for more than half 
a year''; and ``those who live in the townships, towns and street 
communities during the population census but the places of their 
household registration have not yet settled.''
    \164\ Tabulation on Nationalities of 2000 Population Census of 
China, Department of Population, Social, Science and Technology 
Statistics, National Bureau of Statistics, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, September 2003), Table 10-1. According to Table 10-1, 
in 2000, the national census recorded 158,570 Han in the TAR. Tibet 
Statistical Yearbook 2008 (Beijing: China Statistics Press, June 2008), 
Table 3-4, ``Population Nationality,'' 33. According to Table 3-4, in 
2007 there were 110,429 Han in the TAR.
    \165\ Commission staff verified that Tibet Statistical Yearbooks 
did not contain county-level population statistics after the 2009 
edition.
    \166\ In addition to the 385 Tibetans detained on or after March 
10, 2008, whom courts sentenced to imprisonment, are 8 Tibetans 
believed charged with a crime (and who may face trial); 6 Tibetans 
believed charged and tried (and who may have been sentenced); and 1 
Tibetan who was charged and released.
    \167\ In addition to the 621 Tibetan political prisoners believed 
or presumed to be currently detained or imprisoned and who were 
detained on or after March 10, 2008, the Commission's Political 
Prisoner Database recorded, as of September 1, 2014, another 1,112 
Tibetan political prisoners detained or imprisoned on or after March 
10, 2008, who are believed or presumed to have been released, or who 
reportedly escaped or died.
    \168\ Tibetan Buddhists believe that a trulku is a teacher who is a 
part of a lineage of teachers that are reincarnations.
    \169\ Of the 167 fixed terms of imprisonment, 165 were judicial 
sentences ranging from 1 year and 6 months to 20 years, and 2 were 
periods of reeducation through labor of 2 years.
    \170\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 50. A sentence of 
death with a two-year reprieve may be commuted to life imprisonment 
upon expiration of the two-year reprieve if a prisoner ``commits no 
intentional crime'' during the reprieve. If a prisoner ``has truly 
performed major meritorious service,'' then the sentence may be 
commuted to a fixed-term sentence of 25 years upon expiration of the 
two-year reprieve. If the prisoner ``has committed an intentional 
crime'' during the period of suspension, the death penalty ``shall be 
executed upon verification and approval of the Supreme People's 
Court.''
    Notes to Section VI--Developments in Hong Kong and Macau

    \1\ Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China, passed 4 April 90, effective 1 July 97, 
arts. 2 (``high degree of autonomy''), 27 (freedoms of speech and 
assembly), 32 (freedom of religion), 39 (applicability of ICCPR).
    \2\ Ibid., arts. 45 (Chief Executive), 68 (Legislative Council).
    \3\ Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China, passed 4 April 90, effective 1 July 97, 
art. 45, annex I, Instrument 2.
    \4\ Ibid., art. 45, annex I, Instrument 2; Legislative Council of 
the Hong Kong Special Administrative Region, Legislative Council 
Ordinance, reprinted in Department of Justice Bilingual Laws 
Information Systems, 1 October 12, chap. 542, sec. 20; Tanna Chong, 
``Legco Election 2016: How a Handful of Voters Elect 30 Hong Kong 
Lawmakers,'' South China Morning Post, 6 February 14.
    \5\ Freedom House, ``Freedom in the World 2014--Hong Kong,'' last 
visited 6 September 14. See also Te-Ping Chen, ``Beijing Debate Stirs 
Hong Kong Poll,'' Wall Street Journal, 6 September 12; ``Hong Kong's 
Pro-Democracy Parties Fail To Capitalize on Anti-Beijing Mood in Key 
Vote,'' Associated Press, reprinted in Washington Post, 10 September 
12.
    \6\ Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China, passed 4 April 90, effective 1 July 97, 
art. 68, annex II; Tanna Chong, ``Legco Election 2016: How a Handful of 
Voters Elect 30 Hong Kong Lawmakers,'' South China Morning Post, 6 
February 14; Stuart Lau, ``Can Trade-Based Seats Continue To Function? 
'' South China Morning Post, 8 February 14.
    \7\ Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China, passed 4 April 90, effective 1 July 97, 
art. 45.
    \8\ Gary Cheung, ``Chief Executive Voting Method Could Change After 
2017, Says Mainland Expert,'' South China Morning Post, 11 March 14; 
Jeffie Lam et al., ``Scholars Call for Bigger Nominating Committee That 
Would Represent More Voters,'' South China Morning Post, 30 April 14.
    \9\ CY Leung, Chief Executive of the Hong Kong Special 
Administrative Region, ``Report by the Chief Executive of the Hong Kong 
Special Administrative Region to the Standing Committee of the National 
People's Congress on Whether There Is a Need To Amend the Methods for 
Selecting the Chief Executive of the Hong Kong Special Administrative 
Region in 2017 and for Forming the Legislative Council of the Hong Kong 
Special Administrative Region in 2016,'' 15 July 14, sec. 11(v); Chris 
Buckley and Alan Wong, ``Hong Kong Leader Says `Mainstream' Opposes 
Democracy Activists' Key Proposal,'' New York Times, 15 July 14; Carrie 
Lam, ``The Rules for Hong Kong Electoral Reform,'' Wall Street Journal, 
27 July 14.
    \10\ Jeffie Lam, ``Beijing's Reform Guidelines May Set Out 
Definition of `Democratic,' Candidate Numbers,'' South China Morning 
Post, 17 July 14; Tanna Chong, ``Let's Do a Deal, FTU Chief Tells Pan-
Dems,'' South China Morning Post, 31 May 14; Jeffie Lam, ``Universal 
Suffrage Without Genuine Choice Is Meaningless, Says Democracy Academic 
Larry Diamond,'' South China Morning Post, 27 March 14.
    \11\ Jeffie Lam et al., ``Scholars Call for Bigger Nominating 
Committee That Would Represent More Voters,'' South China Morning Post, 
30 April 14.
    \12\ Alliance for True Democracy, ``Chief Executive Election 
Plan,'' last visited 15 August 14.
    \13\ James Pomfret, ``China Parliament Head Warns of Western-Style 
Democracy for Hong Kong,'' Reuters, 6 March 14; Tony Cheung and Tanna 
Chong, ``Beijing's Words Will Not Halt Occupy Central's Plan, Says 
Organiser Benny Tai,'' South China Morning Post, 10 March 14.
    \14\ ``State Council Hong Kong-Macau Office Chief: Chief Executive 
Loving the Country and Hong Kong is Basic Political Principle'' 
[Guowuyuan gang'ao ban zhuren: teshou ai guo ai gang shi jiben zhengzhi 
lunli], People's Daily, 15 April 14. See also Gary Cheung, ``Beijing 
`Set To Take Hard Line on Hong Kong's 2017 Chief Executive Election,' 
'' South China Morning Post, 14 August 14.
    \15\ Fanny Fung, ``HK$13.8m Buys `Successful Future' Calligraphy by 
Beijing's Top Representative in Hong Kong,'' South China Morning Post, 
17 April 14.
    \16\ State Council Information Office, ``White Paper on the 
Practice of `One Country, Two Systems' in Hong Kong (Full Text)'' 
[``Yiguo liangzhi'' zai gang shijian baipishu (quanwen)], reprinted in 
Xinhua, 10 June 14; Hong Kong Information Services Department, ``High 
Degree of Autonomy Assured: CE,'' 10 June 14; Chester Yung, ``China 
Reminds Hong Kong of Its Control,'' Wall Street Journal, 10 June 14.
    \17\ CY Leung, Chief Executive of the Hong Kong Special 
Administrative Region, ``Report by the Chief Executive of the Hong Kong 
Special Administrative Region to the Standing Committee of the National 
People's Congress on Whether There Is a Need To Amend the Methods for 
Selecting the Chief Executive of the Hong Kong Special Administrative 
Region in 2017 and for Forming the Legislative Council of the Hong Kong 
Special Administrative Region in 2016,'' 15 July 14, sec. 11(v); Chris 
Buckley and Alan Wong, ``Hong Kong Leader Says `Mainstream' Opposes 
Democracy Activists' Key Proposal,'' New York Times, 15 July 14.
    \18\ Chris Buckley and Alan Wong, ``Hong Kong Leader Says 
`Mainstream' Opposes Democracy Activists' Key Proposal,'' New York 
Times, 15 July 14; ``Hong Kong's Report to Beijing on Democracy Sparks 
Anger,'' Radio Free Asia, 15 July 14; Michael C. Davis, ``Public 
Opinion Hijacked in CY Leung's Electoral Reform Report,'' South China 
Morning Post, 17 July 14.
    \19\ Decision of the Standing Committee of the National People's 
Congress on Issues Relating to the Selection of the Chief Executive of 
the Hong Kong Special Administrative Region by Universal Suffrage and 
on the Method for Forming the Legislative Council of the Hong Kong 
Special Administrative Region in the Year 2016, reprinted in Xinhua, 
adopted 31 August 14.
    \20\ Michael Martina and James Pomfret, ``Hong Kong Braces for 
Protests as China Rules Out Full Democracy,'' Reuters, 31 August 14; 
Chris Buckley and Michael Forsythe, ``China Restricts Voting Reforms 
for Hong Kong,'' New York Times, 31 August 14; Tania Branigan, ``Hong 
Kong Activists Vow To Take Over Financial Centre in Election Protest,'' 
Guardian, 31 August 14.
    \21\ Chris Buckley and Michael Forsythe, ``China Restricts Voting 
Reforms for Hong Kong,'' New York Times, 31 August 14; Tania Branigan, 
``Hong Kong Activists Vow To Take Over Financial Centre in Election 
Protest,'' Guardian, 31 August 14; Joyce Ng et al., ``Pan-Democratic 
Parties Threaten To Boycott Electoral Reform Consultation,'' South 
China Morning Post, 6 September 14.
    \22\ Michael Martina and James Pomfret, ``Hong Kong Braces for 
Protests as China Rules Out Full Democracy,'' Reuters, 31 August 14; 
``Official Statement of Occupy Central with Love and Peace in Response 
to the Decision of the National People's Congress Standing Committee on 
Hong Kong's Constitutional Reform'' [Heping zhan zhong huiying renda 
changweihui dui xianggang zheng gai de jueding], Occupy Central with 
Love and Peace, 31 August 14; Michael Forsythe and Chris Buckley, 
``Democracy Backers in Hong Kong Face Tough Choices,'' New York Times, 
1 September 14.
    \23\ Michael Davis, ``Beijing Has Failed To Honour Its Promise to 
Hong Kong,'' South China Morning Post, 4 September 14; Jeffie Lam, `` 
`A Sad Day for Hong Kong and Democracy': Scholar Slams Beijing's Reform 
Plan,'' South China Morning Post, 2 September 14; Joyce Ng, 
``Barristers Question Legality of Beijing's Model for Reform,'' South 
China Morning Post, 3 September 14.
    \24\ Joyce Ng et al., ``Pan-Democratic Parties Threaten To Boycott 
Electoral Reform Consultation,'' South China Morning Post, 6 September 
14.
    \25\ Ada Lee et al., ``Legal Sector Plans March To Protest Against 
Beijing's `Worrying' White Paper,'' South China Morning Post, 19 June 
14; ``Lawyers To Hold `Silent March,' '' Radio Television Hong Kong, 19 
June 14; Edward Ngai and Chester Yung, ``Hong Kong Lawyers March for 
Judicial Independence,'' Wall Street Journal, 27 June 14.
    \26\ Michael Forsythe et al., ``In Hong Kong, an Unofficial 
Election Draws Beijing's Ire,'' New York Times, 20 June 14; Tony Cheung 
et al., ``Alliance for True Democracy Proposal Wins Occupy Central Poll 
as Nearly 800,000 Hongkongers Vote,'' South China Morning Post, 30 June 
14.
    \27\ Jeffie Lam, ``Occupy Central's Third `Deliberation Day' Slated 
for May 6,'' South China Morning Post, 4 April 14; ``Hackers 
Frantically Attack Simulation of Referendum App'' [Heike fengkuang 
gongji moni toupiao App], Apple Daily, 16 June 14; ``Hackers Paralyse 
Web Voting Platform,'' Radio Television Hong Kong, 17 June 14; Jeffie 
Lam, ``Electoral Reform Referendum Voting Hours To Be Extended After 
Cyberattacks,'' South China Morning Post, 18 June 14; Tony Cheung et 
al., ``Alliance for True Democracy Proposal Wins Occupy Central Poll as 
Nearly 800,000 Hongkongers Vote,'' South China Morning Post, 30 June 
14; Chris Buckley, ``Hong Kong Poll Turnout Buoys Democracy 
Activists,'' New York Times, 29 June 14.
    \28\ Tony Cheung and Tanna Chong, ``Beijing's Words Will Not Halt 
Occupy Central's Plan, Says Organiser Benny Tai,'' South China Morning 
Post, 10 March 14.
    \29\ ``Annual March Biggest in Recent Years, With the Focus 
Democracy in 2017,'' South China Morning Post, 2 July 14; Chester Yung 
et al., ``Hong Kong Democracy Protest: Thousands March Through City,'' 
Wall Street Journal, 1 July 14.
    \30\ Emily Tsang and Jessie Lau, ``Police Accused of Heavy-Handed 
Treatment of Protesters Arrested After July 1 March,'' South China 
Morning Post, 2 July 14; ``In Clearing Area, Police Recklessly Grab 
Necks and Heads, Bend Wrists--Police: No Other Choice'' [Jing qingchang 
siyi gu jing zhua tou qu shou jingfang: bie wu xuanze], Apple Daily, 2 
July 14.
    \31\ Edward Ngai, ``Hong Kong's Pro-Beijing Crowd Occupies Itself 
With Own March,'' Wall Street Journal, China Real Time Report (blog), 
17 August 14.
    \32\ Ibid.; Alan Wong, ``After Hong Kong March, Speculation Over 
Payments and Motivations,'' New York Times, Sinosphere (blog), 18 
August 14; ``Mainlanders Take to Streets in Hong Kong Looking for 
Money'' [Neidi ren lai gang shangjie wen qian], Apple Daily, 18 August 
14; ``Group Exposed in Paying Marchers 250 Dollar Travel Allowance'' 
[Tuanti bei jie xiang youxingzhe pai 250 chemafei], i-Cable, 17 August 
14.
    \33\ See, e.g., Hong Kong Journalists Association, ``First Hong 
Kong Press Freedom Index Announced,'' 23 April 14; Sarah Hoffman, PEN 
American Center, ``Attacks and Censorship in Hong Kong,'' 25 March 14; 
International Federation of Journalists, ``Back to a Maoist Future: 
Press Freedom in China 2013,'' January 2014, 38-39, 41-42, 44-47; 
Michael Forsythe and Neil Gough, ``Hong Kong Media Worries Over China's 
Reach as Ads Disappear,'' New York Times, 11 June 14; Lin Yi and Li 
Zhen, ``Heat Turned Up on Hong Kong's Apple Daily, as Advertisers 
Withdraw,'' Epoch Times, 29 January 14.
    \34\ Reporters Without Borders, ``World Press Freedom Index 2014,'' 
February 2014; Stuart Lau, ``Beijing Blamed as Hong Kong's Press 
Freedom Declines,'' South China Morning Post, 13 February 14.
    \35\ Phila Siu, ``One in Two Believe Hong Kong's News Is Censored, 
as Faith in Media Hits New Low,'' South China Morning Post, 6 November 
13; Public Opinion Programme, University of Hong Kong, ``HKU POP 
Releases People's Appraisal of Local News Media,'' 22 April 14.
    \36\ Chris Buckley and Gerry Mullany, ``Hong Kong Paper Ousts Top 
Editor, Stirring Concern,'' New York Times, 30 January 14.
    \37\ Clifford Lo et al., ``Former Ming Pao Editor Kevin Lau Fights 
for Life After Triad-Style `Hit' in Sai Wan Ho,'' South China Morning 
Post, 26 February 14; Te-Ping Chen and Chester Yung, ``Hong Kong 
Journalist's Condition Stabilized Day After Attack,'' Wall Street 
Journal, 27 February 14; Juliana Liu, ``Is Hong Kong's Media Under 
Attack? '' BBC, 11 March 14.
    \38\ Austin Ramzy, ``Assault on Hong Kong Media Executives Adds to 
Press Freedom Concerns,'' New York Times, 20 March 14.
    \39\ Phila Siu and Lo Wei, ``Attack on Ming Pao Editor Latest of 
Several on Hong Kong Journalists,'' South China Morning Post, 27 
February 14; Te-Ping Chen and Chester Yung, ``Hong Kong Journalist's 
Condition Stabilized Day After Attack,'' Wall Street Journal, 27 
February 14.
    \40\ Tsoi Tung-ho, ``House News'' [Zhuchang xinwen], House News, 26 
July 14; Shirley Zhao and Gary Cheung, ``Pro-Democracy Website House 
News Closes, Citing Political Pressure, Low Revenue,'' South China 
Morning Post, 27 July 14.
    \41\ Ibid.; ``HK Pro-Democracy News Site Folds, Citing Pressure,'' 
Associated Press, 28 July 14.
    \42\ Jeffie Lam, ``Beijing Trying To Curb Press Freedom, Says AM730 
Founder Shih Wing-ching,'' South China Morning Post, 15 January 14; 
Jeffie Lam, ``AM730 Says Paper Will Suffer if All Mainland-Backed Firms 
Pull Adverts,'' South China Morning Post, 17 January 14; Lin Yi and Li 
Zhen, ``Heat Turned Up on Hong Kong's Apple Daily, as Advertisers 
Withdraw,'' Epoch Times, 29 January 14; Li Xueying, ``Hong Kong Media 
Gives Beijing Poor Press,'' Straits Times, 29 January 14; Stuart Lau, 
``Media Pundits Form Free Speech Group,'' South China Morning Post, 21 
February 14; Michael Forsythe, ``Q. and A.: Anson Chan on Beijing's 
Pressure Tactics in Hong Kong,'' New York Times, Sinosphere (blog), 12 
June 14; Michael Forsythe and Neil Gough, ``Hong Kong Media Worries 
Over China's Reach as Ads Disappear,'' New York Times, 11 June 14.
    \43\ Committee to Protect Journalists, ``Journalists in Hong Kong 
and Taiwan Battle Beijing's Influence,'' last visited 19 June 14; Asia 
Sentinel, ``Hong Kong: China's Obstreperous Adoptee,'' 7 April 14.
    \44\ Stuart Lau et al., ``Former Commercial Radio Host Li Wei-ling 
Blames CY Leung for Her Dismissal,'' South China Morning Post, 14 
February 14; Stuart Lau, ``Commercial Radio Refutes Sacked Host Li Wei-
ling's Political Pressure Claim,'' South China Morning Post, 15 
February 14; Tanna Chong, ``Commercial Radio Boss Plays Down Threat To 
`Fire' Presenter Li Wei-ling,'' South China Morning Post, 13 February 
14; Stuart Lau, ``No Backing Down for Fiery Radio Host Amid 
Reshuffle,'' South China Morning Post, 9 December 13.
    \45\ Office of the Ombudsman, ``The Access to Information Regime in 
Hong Kong,'' March 2014, 2; Office of the Ombudsman, ``Public Records 
Management in Hong Kong,'' March 2014, 2.
    \46\ Ibid.
    \47\ Basic Law of the Macao Special Administrative Region of the 
People's Republic of China, passed 31 March 93, effective 20 December 
99, art. 40 (``. . . the provisions of International Covenant on Civil 
and Political Rights [. . .] as applied to Macao shall remain in force 
and shall be implemented through the laws of the Macao Special 
Administrative Region''); International Covenant on Civil and Political 
Rights, adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 23 March 76, art. 25. Although Macau made 
a reservation to Article 25(b) of the ICCPR, which guarantees the 
rights ``to vote and to be elected . . . by universal and equal 
suffrage . . .,'' the UN Human Rights Committee urged Macau ``to 
consider steps leading to withdrawing the reservation.'' See UN Human 
Rights Committee, International Covenant on Civil and Political Rights, 
Concluding Observations on the Initial Report of Macao, China, Adopted 
by the Committee at its 107th Session (11-28 March 2013), CCPR/C/CHN-
MAC/CO/1, 29 April 13, para. 15; UN Human Rights Committee, Concluding 
Observations on the Initial Report of Macao, China, Addendum, 
Information Received from Macao, China on Follow-up to the Concluding 
Observations, CCPR/C/CHN-MAC/CO/1/Add.1, 9 April 14, para. 1.
    \48\ UN Human Rights Committee, Concluding Observations on the 
Initial Report of Macao, China, adopted by the Committee at its 107th 
Session (11-28 March 2013), CCPR/C/CHN-MAC/CO/1, 29 April 13, para. 7.
    \49\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2220A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 19(2); UN Human Rights Committee, 
Concluding Observations on the Initial Report of Macao, China, Adopted 
by the Committee at its 107th Session (11-28 March 2013), CCPR/C/CHN-
MAC/CO/1, 29 April 13, para. 15; New Macau Association, ``Human Rights 
Issues in Macau 2013,'' December 2013, 2-4; Bureau of Democracy, Human 
Rights, and Labor, U.S. Department of State, ``Country Report on Human 
Rights Abuses--2013, China (Includes Tibet, Hong Kong, and Macau),'' 27 
February 14; International Federation of Journalists, ``Back to a 
Maoist Future: Press Freedom in China 2013,'' January 2014, 51-53; 
``TDM Presenters Reprimanded for Wearing Black Clothing'' [Ao shi 
zhuchi chuan hei yi zao zhao fei], Apple Daily, 6 June 14.
    \50\ ``Beijing Gives Political Reform the Thumbs Up,'' Macau 
Business, 2 July 12.
    \51\ Ibid.; Viviana Sequi, ``Electoral Laws Get Final Approval,'' 
Macau Daily Times, 30 August 12.
    \52\ International Foundation for Electoral Systems Election Guide, 
``Macau Legislative Council 2013,'' 15 September 13; ``Democrats Lose 
Out in Macau Elections,'' Agence France-Presse, reprinted in Fox News, 
16 September 13.
    \53\ ``Campaign for Electoral College Members Kicks Off June 14,'' 
Macau Daily Times, 4 June 14; ``Oath of Fairness on CE Election,'' 
Macau Daily Times, 1 April 14; Stuart Lau, ``Macau's Fernando Chui Re-
Elected Chief Executive in Unopposed Poll,'' South China Morning Post, 
1 September 14.
    \54\ ``CE Election: Chui Sai On Running Uncontested,'' Macau Daily 
Times, 1 August 14; ``Beijing Gives Political Reform the Thumbs Up,'' 
Macau Business, 2 July 12.
    \55\ Electoral Affairs Commission on the Civil Referendum on Chief 
Executive Election 2014, ``Public Consultation on the Implementation of 
the Civil Referendum 2014 on Chief Executive Election,'' last visited 7 
July 14; Farah Master, ``Now Macau Activists Plan Democracy Poll in New 
Headache for China,'' Reuters, 8 July 14; Jeffie Lam, ``Occupy-Style 
Public Vote on Universal Suffrage To Be Held in Macau,'' South China 
Morning Post, 8 July 14.
    \56\ Macau Government Information Bureau, ``SAR Government Issues 
Stern Statement on So-Called `Referendum' '' [Tequ zhengfu jiu suowei 
``gongtou'' zuochu yanzheng shengming], 8 July 14; ``Referendum 
`Violates Basic Law,' Says Zhang Dejiang'' [Referendo ``viola lei 
basica,'' diz zhang dejiang], Jornal Tribuna de Macau, 30 July 14; 
Andre Jegundo and Viviana Chan, ``Liaison Office Rejects `Right' to 
`Referendum Regime' '' [Gabinete de ligacao rejeita ``direito'' a 
``regime de referendo''], Jornal Tribuna de Macau, 10 July 14; 
``Florinda Chan Emphasizes That `Laws of Macau Do Not Permit 
Referendum' '' [Florinda chan frisa que ``leis de macau nao permitem 
referendo''], Jornal Tribuna de Macau, 11 July 14.
    \57\ ``Referendum `Violates Basic Law,' Says Zhang Dejiang'' 
[Referendo ``viola lei basica,'' diz zhang dejiang], Jornal Tribuna de 
Macau, 30 July 14.
    \58\ Catarina Pinto and Joao Pedro Lau, ``Jason Chao and Referendum 
Volunteers Detained Over Alleged Privacy Breach,'' Macau Daily Times, 
25 August 14; Stephanie Lai, ``Pro-Democrats Detained,'' Macau Business 
Daily, 25 August 14; ``Macau Police Arrest 5 Over Informal Democracy 
Poll,'' Associated Press, 25 August 14.
    \59\ Edward Ngai, ``Five Arrested After Macau Attempts Hong Kong-
Style Democracy Poll,'' Wall Street Journal, China Real Time (blog), 25 
August 14; Joao Pedro Lau, ``GPDP Roasted for Explanation of Alleged 
Law Violation,'' Macau Daily Times, 25 August 14.
    \60\ International Federation of Journalists, ``Political Motive 
Suggested in Arrest of Macau Journalists,'' 3 September 14; Viviana 
Chan, ``Jason Chao Is Also Suspect in `Macau Concealers' Case'' [Jason 
Chao tambem e suspeito no caso ``macau concealers''], Jornal Tribuna de 
Macau, 2 September 14. As cause for the journalists' detentions, the 
Judiciary Police cited the posting to Facebook of a photograph of a 
Judiciary Police (PJ) officer's ID card (with the name not visible) in 
front of the civil referendum Web site and a statement from the unnamed 
PJ officer in support of the referendum.
    \61\ Viviana Chan, ``Jason Chao Is Also Suspect in `Macau 
Concealers' Case'' [Jason chao tambem e suspeito no caso ``macau 
concealers''], Jornal Tribuna de Macau, 2 September 14; Catarina Pinto, 
``Unofficial Referendum: `I Don't Think I'm Safe in Macau,' Says Jason 
Chao,'' Macau Daily Times, 3 September 14.
    \62\ See, e.g., Catarina Pinto, `` `Self-Censorship Seems Very 
Common on TDM's Chinese Channel,' says Jason Chao,'' Macau Daily Times, 
7 April 14; Bureau of Democracy, Human Rights, and Labor, U.S. 
Department of State, ``Country Report on Human Rights Abuses--2013, 
China (Includes Tibet, Hong Kong, and Macau),'' 27 February 14; 
International Federation of Journalists, ``Back to a Maoist Future: 
Press Freedom in China 2013,'' January 2014, 51-53; ``Local Journalists 
Hold Silent Protest,'' Macau Daily Times, 3 March 14; ``Deputies Seek 
Explanation from TDM'' [Deputados pedem explicacoes a TDM], Jornal 
Ponto Final, 9 June 14; ``TDM Presenters Reprimanded for Wearing Black 
Clothing'' [Ao shi zhuchi chuan hei yi zao zhao fei], Apple Daily, 6 
June 14.
    \63\ Stephanie Lai, ``Gov't To Resolve Mixed TV Signals,'' Macau 
Business Daily, 7 April 14; ``Lau Si Io Says Gov't and Cable TV 
Finalizing Agreement,'' Macau Daily Times, 9 April 14; ``Macau Cable To 
Get a 5-Year Contract,'' Macau Daily Times, 15 April 14; Stephanie Lai, 
``All the Right Signals,'' Macau Business Daily, 15 April 14; Catarina 
Pinto, ``DSRT Reaffirms Liberalization of TV Services But Provides No 
Timeframe,'' Macau Daily Times, 17 April 14.
    \64\ Paulo Coutinho and Joao Pedro Lau, ``Eric Sautede: USJ Alumni 
Demand Reinstatement of Sacked Scholar,'' Macau Daily Times, 7 July 14; 
``Beijing's Censorship and Macau Universities,'' AsiaNews, 23 July 14.
    \65\ Raquel Carvalho, ``Hong Kong, Macau Academics Seek Meeting 
Over Firing of Eric Sautede,'' South China Morning Post, 29 July 14.
    \66\ Raquel Carvalho, ``Macau Academic Sacked for `Imposing His 
Political Beliefs on Students,' '' South China Morning Post, 18 August 
14; Austin Ramzy, ``Macau Scholar Says He Lost His Job Over Pro-
Democracy Activism,'' New York Times, Sinosphere (blog), 18 August 14.
    \67\ Catarina Pinto, ``UM Accuses Bill Chou of Undermining 
University's Reputation,'' Macau Daily Times, 20 August 14.
    \68\ Austin Ramzy, ``Macau Scholar Says He Lost His Job Over Pro-
Democracy Activism,'' New York Times, Sinosphere (blog), 18 August 14.
    \69\ Toh Han Shih and Niall Fraser, ``Mainland Crackdown on Illegal 
Use of Payment Cards in Macau Casinos,'' South China Morning Post, 8 
May 14; Tony Lai, ``Cards Fall Wrong Way,'' Macau Business Daily, 9 May 
14; Muhammad Cohen, ``Junkets Keep Mainland Money Flowing Into Macau's 
Coffers,'' Forbes, 1 April 14.
    \70\ Muhammad Cohen, ``Junkets Keep Mainland Money Flowing Into 
Macau's Coffers,'' Forbes, 1 April 14.
    \71\ James Pomfret, ``Special Report--How China's Official Bank 
Card Is Used To Smuggle Money,'' Reuters, 12 March 14.
    \72\ ``Two Suspects Detained Over UnionPay Case,'' Macau Daily 
Times, 24 March 14; ``UnionPay International To Strengthen Multi-Party 
Linkage and Ensure Cross-Border Payment Security,'' UnionPay 
International, last visited 11 July 14; Demetri Sevastopulo, ``Macau 
and Credit Card Group Crack Down on Illegal Transactions,'' Financial 
Times, 8 May 14; Farah Master, ``Macau Authorities, UnionPay Target 
Illegal Transactions,'' Reuters, 8 May 14; Vinicy Chan, ``Macau Casino 
Companies Decline on Card-Swipe Crackdown,'' Bloomberg, 8 May 14.
    \73\ ``Two Million Enter Macau Using Travel Loophole,'' Macau Daily 
Times, 7 May 14; ``Macau Cracks Down on Mainlanders' `Fake Transit, 
Actually Gambling' Behavior'' [Aomen daji dalu ren ``jia guojing, shi 
dubo'' xingwei], Radio Free Asia, 9 May 14; Tiffany Ap et al., ``Macau 
Tightens Restriction on Mainland Chinese Tourists,'' South China 
Morning Post, 18 June 14; Stephanie Lai, ``Tougher Transit Rules,'' 
Macau Business Daily, 17 June 14; ``Macau's Gambling Revenue Posts 
First Decline in Five Years,'' Want China Times, 5 July 14.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
